<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2001</title>
<body><pre>[Senate Hearing 106-820]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-820

 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2001

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   on

                   H.R. 4516, 4577, and 5657/S. 2603

       AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR
         THE FISCAL YEAR ENDING SEPTEMBER 30, 2001, AND FOR OTHER
         PURPOSES

                               __________

             Architect of the Capitol (except House items)
                      Congressional Budget Office
                       General Accounting Office
                       Government Printing Office
                      Joint Committee on Taxation
                        Joint Economic Committee
                          Library of Congress
                          Office of Compliance
                       U.S. Capitol Police Board
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations



    deg.Available via the World Wide Web: http://www.access.gpo.gov/
                            congress/senate



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
62-802                     WASHINGTON : 2001

                                 ______


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                   ROBERT F. BENNETT, Utah, Chairman
TED STEVENS, Alaska                  DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   RICHARD J. DURBIN, Illinois
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                           Christine Ciccone
                      James H. English (Minority)
  
                            C O N T E N T S

                              ----------                              

                       Tuesday, February 8, 2000

                                                                   Page
Joint Economic Committee.........................................     1
Congressional Budget Office......................................     9

                       Tuesday, February 22, 2000

U.S. Capitol Police Board........................................    25
Library of Congress..............................................    51
Joint Committee on Taxation......................................   133
Government Printing Office.......................................   153

                       Tuesday, February 29, 2000

Architect of the Capitol.........................................   167
General Accounting Office........................................   225
Office of Compliance.............................................   243

                        Tuesday, March 21, 2000

U.S. Senate:
    Office of the Secretary of the Senate........................   255
    Office of the Sergeant at Arms and Doorkeeper................   323
  


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2001

                              ----------                              


                       TUESDAY, FEBRUARY 8, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:36 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett and Feinstein.

                        JOINT ECONOMIC COMMITTEE

STATEMENT OF JIM SAXTON, VICE CHAIRMAN


              OPENING STATEMENT OF SENATOR ROBERT BENNETT


    Senator Bennett. The hearing will come to order. This is 
the first in a series of four hearings that the subcommittee 
will hold on fiscal year 2001 budget requests. We are doing our 
best to comply with the desire of the leadership here in the 
Senate, both the committee leadership in the form of Senator 
Stevens and the Senate leadership in the form of Senator Lott, 
to see to it that we get the appropriations process done as 
rapidly as possible this year, and more rapidly than we have 
done in the years gone past.
    So our next hearings will be February 22 and February 29. 
And our final hearing, we hope, will be on the 7th of March.
    And today we will hear testimony from two agency budgets, 
the Joint Economic Committee and the Congressional Budget 
Office. And our first witness, whom we welcome very warmly, 
Congressman Jim Saxton, who is the vice chairman of the Joint 
Economic Committee and, all going well, the chairman during the 
time this particular budget will be in place.
    So I am a member of that committee and appreciated working 
with Mr. Saxton. He has been chairman of that committee and now 
is the vice chairman.
    From that perspective, Mr. Saxton, I look forward to your 
testimony. We understand you have requested $3,315,000, which 
is a 3.6-percent increase over last year. That is to cover 
staff COLAs. And before we hear from you, I want to extend 
formal congratulations to the JEC on being designated one of 
the top three House websites by the nonpartisan congressional 
management fund. I pay attention to things like that. I wish I 
could get my website up to that standard. But we will be having 
conversations with my staff.
    Thank you for coming, and we look forward to your 
testimony.
    Mr. Saxton. Well, Mr. Chairman, thank you very much for 
holding this hearing this morning. Let me return the kudos to 
you, because I remember, about 1 year ago having been here and 
having you raising the issue of Y2K well in advance of the turn 
of the century. Subsequent to that, you became the chairman of 
a special committee or task force to take care of Y2K. And the 
first year went by without a glitch. So congratulations on a 
job well done.
    Senator Bennett. Thank you. Let me just interject. It went 
by without some reported glitches. We now know there was a 
fairly widespread number of problems around the world, which 
other governments, for their own reasons, decided not to tell 
anybody about, because they did not want to be embarrassed.
    Mr. Saxton. Mr. Chairman, thank you. I have a written 
statement which I would like to ask be included in the record.
    Senator Bennett. Without objection, it will be included.


         FISCAL YEAR 2001 BUDGET REQUEST AND COMMITTEE RESEARCH


    Mr. Saxton. And I have with me today our chief economist, 
Chris Frenze. He is actually the chief economist to the vice 
chairman.
    And also, Howard Rosen is with us from the minority staff. 
We are pleased to be here to speak as a bipartisan team.
    Mr. Chairman and members of the subcommittee, it is a 
pleasure to be here once again to express my strong support for 
the fiscal year 2001 budget request of the Joint Economic 
Committee, as set forth, of course, by this year's chairman, 
Senator Mack.
    As you know, the JEC is essentially Congress' own in-house 
think tank. We examine a wide variety of economic and related 
issues. This budget request will support the JEC's focus on 
quality research and economic analysis required by Congress and 
the public. The committee's research is widely cited. And as 
you mentioned, our website has been given a top rating by the 
Congressional Management Foundation.
    Committee research covers a broad array of fiscal, monetary 
and international economic issues. One case in point that I 
might like to mention is the research and analysis that we have 
done on Federal Reserve policy over the last several years. 
This policy has focused on keeping inflation in check, and 
subsequently has resulted in relatively low interest rates. And 
so we have been pleased to be able to do research and pass 
along that information to Members of the House and the Senate 
and the public who are interested.
    We also have spent a fair amount of time in examining the 
International Monetary Fund, how it operates, the cloak of 
secrecy that the IMF seems to keep itself shrouded in, and 
issues that have to do with the effects of IMF policy around 
the world. Mr. Frenze and I were part of a codel last year that 
went to Russia to examine in some detail the IMF policies and 
their effect or lack of effect on the Russian economy, and have 
subsequently made some recommendations about how IMF policy in 
our opinion ought to be changed.
    Most recently, we have spent the last couple of days 
reviewing oil prices in the northeast, and the resulting 
economic problems. As I was saying to you before the hearing 
started, Mr. Chairman, just a few weeks ago, the price of home 
heating oil was in the neighborhood of 80 cents. Today it is 
around $2. And the reasons for that are not clear at this 
point.
    As you have mentioned, Mr. Chairman, we have requested a 
3.6-percent increase. And I might just say, by way of history 
on the budgetary sides of the JEC, in the early 1990s, in fact 
in 1992, our budget then was just over $4 million. By 1995, 
because of cost saving efforts, our budget was shrunk to about 
$2.75 million. And so we are in the year 2000 just over $3 
million and have requested no increase except for a cost-of-
living adjustment for our staff.

                           PREPARED STATEMENT

    So with that, Mr. Chairman, if you have any questions, I 
will be more than happy to try to respond.
    Senator Bennett. Thank you very much.
    [The statement follows:]

                 Prepared Statement of Hon. Jim Saxton

    Mr. Chairman and Members of the Subcommittee, it is a 
pleasure once again to express my strong support for the fiscal 
year 2001 budget request of the Joint Economic Committee (JEC).
    As you know, the JEC is essentially Congress' own in-house 
think-tank examining a wide variety of economic and related 
issues. This budget request will support the JEC's focus on 
quality research and economic analysis required by Congress and 
the public. The Committee's research is widely cited, and our 
website has been rated one of the top three committee websites 
on Capitol Hill by the nonpartisan Congressional Management 
Foundation. Committee research covers a broad array of fiscal, 
monetary, and international economic issues.
    A case in point is our intensive examination of Federal 
Reserve monetary policy over the last three years. Through 
hearings with Chairman Greenspan, and a series of research 
papers, the Committee analyzed the specific content of the most 
successful monetary policy in U.S. history. Our research 
concluded that Federal Reserve policy in recent years has 
essentially been one of informal inflation targeting. In our 
hearings Chairman Greenspan has agreed that informal inflation 
targeting is the essence of his Federal Reserve policy.
    Since this monetary policy has proved so effective and 
beneficial to our economy, it is important to provide Congress 
with an explanation of inflation targeting and how it works. I 
also believe it would be beneficial to set more formal 
inflation targets and institutionalize this procedure so it is 
not dependent upon individual personalities.
    Inflation targets are ranges setting permissible changes in 
some broad price index. For example, one might choose to set a 
formal inflation target of 0 to 2 percent. Monetary policy is 
then geared to achieve this inflation target over the 
designated time frame. As documented in JEC research papers, 
many other nations have adopted inflation targeting, and the 
results have been very positive. Our research has also 
explained how inflation targets can be achieved through use of 
forward-looking price indicators that reflect signs of 
potential future inflation.
    Another focus of the JEC has been the two-year research 
program on the International Monetary Fund (IMF). The IMF plays 
an important role in international economics and finance, but 
its own financial operations and policy actions had not been 
transparently presented to policymakers and the public. The JEC 
review of IMF operations raised a number of important questions 
about the IMF that could not be answered by public documents. 
Thus we began to raise the issue of the lack of IMF 
transparency.
    Our research had permitted us to draw a number of 
conclusions about IMF operations, but many of these could not 
be confirmed through publicly available information. The 
Committee's research repeatedly was hampered by a lack of IMF 
transparency that veiled detailed financial information. With 
the assistance of the General Accounting Office, the JEC was 
able to gain access to this information and make it readily 
available through public hearings. We now know that the U.S. 
provides over one quarter of the IMF's usable funds, that the 
G-10 account for 77 percent of these funds, and that most IMF 
members provide little if any of these funds. We have also 
found that the IMF interest subsidies are even greater than was 
first thought.
    Our research has found that the IMF has gone far afield in 
making loans for a wide variety of development and structural 
purposes unrelated to the appropriate functions of the IMF. 
These loans are made to borrowers at extremely low interest 
rates considering the tasks involved. For example, the IMF is 
lending to Russia and Indonesia at interest rates below the 
cost of credit to the U.S. government. This doesn't make any 
economic or financial sense. By the way, these Russian and 
Indonesian loans account for one third of the credit extended 
by the IMF.
    Several policy implications follow from our research as 
well as the recent research of others. The IMF should focus on 
crisis lending only, it should discontinue longer-term 
development lending, and the pervasive interest rate subsidies 
should be discontinued. In other words, the IMF should make 
only short-term loans in economic emergencies at market 
interest rates. This was the idea behind legislation offered in 
1998 that would have mandated use of market interest rates by 
the IMF. Although its application was narrowed to apply only to 
some IMF loans, a version of this legislation has become law. 
Further reforms related to the IMF became law in 1999. 
Moreover, last month Secretary Summers made an important speech 
in which he argued that the IMF interest rates were too low, 
and that the IMF should focus on emergency lending.
    It is my hope that the emerging consensus on IMF reform 
will lead to a broadening of the 1998 legislation curbing IMF 
interest subsidies. This 1998 legislation, based on JEC 
research, has not been fully implemented by the IMF, in my 
opinion. However, even a partial implementation of reforms 
leading to reform of IMF interest rates will save billions of 
taxpayer dollars over time. If the applicability of this 
legislation were broadened through future reform efforts, 
whether through legislation or consensus within the IMF, 
further savings would be achieved.
    One reason I mention this point is to highlight the 
tangible results possible from research in very abstract and 
difficult areas. Progress has been achieved in improving the 
way the IMF has operated, and more reform appears likely. 
Although the amount of the resulting savings is hard to 
precisely determine, they would be sufficient to cover the cost 
of JEC appropriations many times over.
    Thank you for the opportunity to appear before you this 
morning.

    Senator Bennett. We have been joined by Senator Feinstein. 
And let me formally, on this first hearing of the year, welcome 
Senator Feinstein and say how delighted I am that she is the 
ranking member on this subcommittee. She has been wonderful to 
work with in the past year. And I am sure we will have the same 
kind of relationship this year.
    Senator, we would be happy to have any statement you would 
like to make.
    Senator Feinstein. Well, thank you very much, Mr. Chairman. 
I have been very pleased to be able to work with you. I have 
found you just a pleasure to work with and very diligent and a 
great chairman of this subcommittee.
    If I may, I would like to put my statement in the record.
    Senator Bennett. Without objection.
    [The statement follows:]

             Prepared Statement of Senator Dianne Feinstein

    Thank you, Mr. Chairman.
    I very much look forward to working again this year with 
Chairman Bennett in developing the fiscal year 2001 
appropriations bill for the Legislative Branch.
    I am pleased to join you, Mr. Chairman, in welcoming our 
colleague from the House, Congressman Jim Saxton, who will be 
presenting testimony during the first portion of this morning's 
hearing as Vice Chairman of the Joint Economic Committee. And, 
following that, I also look forward to hearing from our CBO 
Director, Mr. Crippen.
    Mr. Chairman, since this is our first subcommittee hearing 
on the Senate side, I would ask that I be allowed this morning 
just a few extra moments for my personal comments before we get 
underway.
    I would like to say that it has been such a pleasure to 
serve with you, Mr. Chairman, on the Legislative Branch 
Appropriations Subcommittee, and I very much look forward to 
continuing our work this year to craft a funding bill for 
fiscal year 2001: which sufficiently addresses the needs and 
concerns of this branch of government which is responsible for 
writing the laws of our land, which endeavors to preserve some 
of the historic treasures associated with the Congress and our 
Nation's Capitol, as well as the Library of Congress; and which 
provides realistic funding for the various support offices of 
the Congress, upon whom we depend so much for our research and 
statistical data, investigative reports, and comprehensive 
budget analyses that help us as legislators to make the best 
choices for our citizens; as well as those whom we rely upon 
for our printing requirements, documents control, facilities 
management and security.
    Mr. Chairman, thank you for allowing me these few extra 
moments to extend my comments. I look forward to hearing the 
testimony of our two panelists this morning.

    Senator Feinstein. And, I do have a question of the 
Congressman. Is this the appropriate time?
    Senator Bennett. Surely. Go ahead.
    Senator Feinstein. Good morning.
    Mr. Saxton. Hi.
    Senator Feinstein. Why is this effort even necessary? I 
mean, why is it not redundant or duplicative of things that are 
already, or could be done, say, by CRS?
    Mr. Saxton. The fact of the matter is that the Joint 
Economic Committee is Congress' own think tank, as I indicated 
early in my testimony. We have the luxury, if you will, of 
concentrating on issues that can be dealt with in a fashion 
that permits us to do in-depth research. For example, there has 
been a lot of discussion among Members of Congress about the 
IMF. And I would like to say that much of the basis of that 
discussion was research that was done by the Joint Economic 
Committee.
    When we started to research the International Monetary Fund 
2\1/2\ or 3 years ago, very few people in Congress knew how the 
IMF operated. I remember the President not too long ago giving 
one of his Saturday speeches or addresses to the country about 
the IMF. And he started out by saying, ``I'd like to talk to 
you about the IMF, and it's not a bowling machine.''
    We have been able to shed a great deal of light on the IMF. 
The understanding that exists today in both Houses of Congress 
to a large extent is a result of JEC studies and reports on the 
IMF: how it operates, its policies, and its effect, or lack 
thereof, positive or negative, on many economies around the 
world.
    The same is true in understanding Fed monetary policy. When 
we began to look at fed monetary policy, we found that 
inflation was used as a target, and the control of inflation 
did a great deal to stabilize our economy and help it grow.
    And we have issued a number of reports on inflation 
targeting and other monetary issues. Not unlike the IMF, the 
institutional knowledge that exists today in the Congress on 
inflation targeting came to some extent, I would like to think 
to a large extent, from the Joint Economic Committee.
    And those, among other issues, are things that I think we 
have done that are very important.
    Senator Feinstein. Let me just say something with great 
respect. I have never received a report. I have been here 7 
years. I did not even know the committee did this report before 
today. And, if it does great things, it sure keeps it to 
itself.
    I mean, I will be very candid with you. I do not know why 
we need a Joint Economic Committee. If I want to learn about 
the IMF, it would not occur to me to go here. I mean, there are 
think tanks all over Washington. Why do we need our own think 
tank?
    Mr. Saxton. Well, let me say that we will be more than 
happy to share the reports that have been done. On the House 
side, we do send them out to each Member of Congress on a 
periodic basis.
    Senator Feinstein. Do we on the Senate side? Are they sent 
out, Mr. Chairman?
    Senator Bennett. I am not aware of how that is done, and I 
am a member of the Joint Economic Committee. So I had better 
find out.
    Mr. Saxton. I am just reminded that the Congressional 
Management Foundation has cited our website, the Joint Economic 
Committee website, as one of the three best committee websites 
on Capitol Hill. This is another way that we have chosen to 
disseminate the information and make it available.
    Senator Feinstein. But, have there been reports sent out on 
the Senate side?
    Mr. Saxton. I would have to defer to Senator Mack, who is 
the full committee chairman.
    Senator Feinstein. Thank you very much.
    [The information follows:]


                         Letter From Jim Saxton
                     Congress of the United States,
                                  Joint Economic Committee,
                                     Washington, DC, March 7, 2000.
Chairman Robert F. Bennett,
Subcommittee on Legislative Branch, Senate Appropriations Committee, S-
        125, The Capitol, Washington, DC.
    Dear Mr. Chairman: Thank you for the recent opportunity to testify 
on the fiscal 2001 appropriation request of the Joint Economic 
Committee (JEC). After reviewing the record, it became clear that there 
were some remaining issues that needed to be addressed in writing. I 
would respectfully request that this letter be made part of the hearing 
record. In addition, please include the attached research materials in 
the printed record if you deem it desirable to do so.
    During the hearing, questions were raised by another member of the 
subcommittee that suggest some clarification about the functions of the 
Joint Economic Committee may be useful. The questions raised the issue 
of whether JEC research on the International Monetary Fund (IMF), for 
example, was really needed since a member could request a memo on this 
subject from the Congressional Research Service (CRS). My response 
essentially was that JEC research on the IMF, as well as other topics, 
permits greater depth and thus provides much more information than 
would be possible in even a very fine CRS memo.
    My statement was a general one and since this question was 
unexpected I did not have full supporting documentation available at 
that moment. Enclosed please find the 8 JEC studies, together with 
printed and bound records of 5 JEC hearings on the International 
Monetary Fund (IMF). Additional information is available on our JEC 
website, rated one of the top three committee websites on Capitol Hill 
by the nonpartisan Congressional Management Foundation. Those who 
follow issues related to the IMF are very aware of this JEC research 
and the effects it has had on the institution and its reform. This 
research was the basis of IMF reform legislation passed by Congress in 
1998 and 1999 that will save taxpayers many millions of dollars over 
time.
    As a former IMF research director recently wrote, ``the Fund's 
jerry-built structure of financial provisions has meant that almost 
nobody outside and, indeed, few inside, the Fund understand how the 
organization works * * *.'' I believe that Congress should understand 
how the IMF works because of the important financing and policy making 
role played by the U.S. Congress has appropriated $50 billion for the 
IMF, and thus has a responsibility to know how this money is being 
used.
    The factual record shows that this research program has provided 
much more original information on the financial structure and 
operations of the IMF to Congress and the public than any other source. 
I am pleased at the success of this research program given the 
extremely challenging and difficult subject matter and the lack of 
transparency of the IMF. Moreover, in response to this research 
program, the IMF has moved towards more disclosure of its finance, and 
finally has committed to publicly releasing its budget. These results 
could not be obtained by a memo reviewing already existing information.
    I hope this letter clarifies some of these issues. Thank you again 
for the opportunity to testify.
            Sincerely,
                                                Jim Saxton,
                           Vice Chairman, Joint Economic Committee.


        Selected JEC Publications on the IMF and Monetary Policy

    1. Can IMF Lending Promote Corruption? (December 1999)
    2. Research Findings Regarding the Costs of U.S. Participation in 
the IMF (October 1999)
    3. JEC Statements Before the International Financial Institution 
Advisory Commission (September 9, 1999)
    4. IMF Gold Sales in Perspective (August 1999)
    5. Transparency and the Financial Structure of the International 
Monetary Fund (Hearing, July 21, 1999)
    6. Transparency and U.S. Dollar Policy (July 1999)
    7. An International Lender of Last Resort, the IMF, and The Federal 
Reserve (February 1999)
    8. Compendium of Studies on International Economic Issues (December 
1998)
    9. U.S. Dollar Policy: A Need for Clarification (November 1998)
    10. IMF Reform: Proposals to Stabilize the International Financial 
System (Hearing, October 7, 1998)
    11. Financial Crises in Emerging Markets: Incentives and the IMF 
(August 1998)
    12. The Transparency and Financial Structure of the IMF (Hearing, 
July 23, 1998)
    13. The International Monetary Fund and International Economic 
Policy (Hearing, May 5, 1998)
    14. IMF Financing: A Review of the Issues (March 1998)
    15. The International Monetary Fund and International Policy 
(Hearing, February 24, 1998)
    16. Transparency and Federal Reserve Policy (November 1997)
    17. A Response to Criticisms of Price Stability (September 1997)
    18. Establishing Federal Reserve Inflation Goals (April 1997)
    19. The Importance of the Federal Reserve (March 1997)
    20. Lessons from Inflation Targeting Experience (February 1997)

    Senator Bennett. In this same category, let me comment on 
what I think was a significant contribution of the Joint 
Economic Committee last year. And I think that because I was 
involved. That is always the criteria, I think, that many have 
used.
    We held a high-tech summit where we had Bill Gates and Lou 
Gershner and Alan Greenspan and a whole series of high-tech 
CEOs come in and discuss with us the impact of high tech on the 
economy as a whole. It ran over a 3-day period. And we 
attracted enough attention that one of the freshman Members of 
the House came over. And I was visiting with him, thanking him 
for coming. And he said, ``My wife was watching this on 
television and said to me, `You'd better get over there and be 
part of that committee, because this is the best thing that has 
come out of the Government in a lot of years.' '' So at least 
one Congressman's wife responded very favorably to it.
    I think, Senator Feinstein, your point is well taken in 
that there are other venues in which some of this work could be 
done. And Senator Mack and I looked at that very carefully when 
he was the chairman of the subcommittee. And he has been 
chairman of a subcommittee of the Banking Committee that covers 
many of the issues that the Joint Economic Committee looks at.
    And an argument could be made. There is duplication, for 
example, in Alan Greenspan's appearance before this committee, 
which is mandated by law. The chairman of the Fed must make an 
annual report to the Joint Economic Committee. He is also 
required to make an annual report to the Banking Committee. So 
as a member of the Banking Committee and a member of the JEC, I 
get to hear him twice. It is good for me. I am beginning to 
break the code. After 7 years I am beginning to feel that I can 
understand Alan Greenspan.
    But the decision of the Congress in 1995 was to continue 
the Joint Economic Committee rather than assume that these 
functions could be done other ways. It was a relatively close 
call with a number of members urging that the JEC be done away 
with. But the decision was made, and it has gone forward. And I 
must say that under the chairmanship of Congressman Saxton and 
then Senator Mack, and they alternate each Congress, the JEC, 
since it had its near death experience, has been much livelier 
and, I think, much more productive.
    So the issue you raise is not a new one, but the response 
from the vice chairman here indicates that at least that 
message has been heard.
    I have no further questions.
    Senator Feinstein. If there are reports, could I ask to see 
them, please?
    Senator Bennett. For sure.
    Senator Feinstein. Could someone see that I get some?
    Senator Bennett. Sure.
    Senator Feinstein. I would appreciate it very much.
    Senator Bennett. We will do that.
    Senator Feinstein. I have no further questions.
    Senator Bennett. Thank you, Mr. Chairman, for your service 
on this committee. And thank you for your testimony here today.
    Mr. Saxton. Thank you very much.


                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DAN L. CRIPPEN, DIRECTOR

ACCOMPANIED BY BARRY ANDERSON, DEPUTY DIRECTOR

    Senator Bennett. Our next witness will be Dan Crippen.
    Mr. Crippen, the Director of the Congressional Budget 
Office (CBO), we welcome you here. I understand you have 
created a new position, the Executive Associate Director, which 
has been filled by Mr. Steven Lieberman.
    Mr. Anderson. I am Barry Anderson. I am the Deputy 
Director.
    Senator Bennett. Barry Anderson. Okay.
    We welcome Mr. Lieberman to the fold, even though he is not 
here at the table.
    Mr. Crippen. He is working.
    Senator Bennett. And we will submit for the record a copy 
of his resume, as well as your new organizational chart, 
because there has been some interest in your organization and 
in that activity.
    CBO has requested $28,493,000 for fiscal 2001, which is a 
9.1-percent increase over your previous level. And we look 
forward to hearing your description of the increase and your 
other activities with respect to this budget.
    [The information follows:]

               Biographical Sketch of Steven M. Lieberman

    In 1999, Steven M. Lieberman was named to the newly created 
position of Executive Associate Director of the Congressional 
Budget Office (CBO). He is also the Acting Assistant Director 
for CBO's new Long-Term Modeling Group. Mr. Lieberman has a 
background in federal budgetary and health care issues. Before 
joining CBO, he was health partner in the EOP Group, a Social 
Security analytic consulting firm, and vice president of 
government programs and marketing at Intergroup Healthcare 
Corporation, a managed care company. Before that, he spent 16 
years at the Office of Management and Budget, focusing on 
Social Security, Medicare, and Medicaid; he then served as 
assistant director for general management, with oversight of 10 
federal agencies.

[GRAPHIC] [TIFF OMITTED] T08FE08.000

                              Y2K SUCCESS

    Mr. Crippen. Thank you.
    Mr. Chairman, first I wanted to report, as your previous 
witness did and as I am sure all of your subsequent ones will, 
that through your good efforts we made it through the passing 
of the millennium with nary a hiccup, as near as we can tell.
    I would also like to report that our website is up to about 
5 million hits a year now. So it was up and running throughout 
that period--not that a lot of people were hitting it that 
night--but it was running.

                     RELIEF FOR SALARY COMPRESSION

    Before I get into next year, Mr. Chairman, we want to thank 
you for the pay raise you granted me and Barry, not only on our 
behalf but, more important, on behalf of all of my present and 
future colleagues who are effectively capped by our statutory 
limits. Our two salaries are included in the Budget Act 
legislation.
    The salary compression that CBO was experiencing is one of 
the reasons we have had difficulty recruiting and retaining 
personnel. I also want to thank you for giving us limited bonus 
authority for the first time--bonuses that will go largely to 
our nonmanagerial staff on the basis of performance and also to 
help recruit new employees.

                        IMPROVED STAFFING LEVEL

    Mr. Chairman, I first appeared before you not quite 1 year 
ago and reported that in 1998, CBO lost many more staff than we 
were able to replace. The level of actual full-time equivalents 
(FTEs) in 1998 was 205, down from an actual level of 227 in 
1997 and an authorized level of 232. I am happy to report that 
we have made some progress. We were able to employ 215 FTEs 
last year and expect to reach 225 by year's end. Our request 
for next year would allow us to reach 228, just 1 more than in 
1997 and 3 more than this year. We hope to reach our full 
complement by the end of 2002.
    In particular, raising the pay levels for our executive and 
senior staff, which was made possible this year with the 
support of this committee, has allowed us to provide more 
competitive beginning-salary offers to top-quality Ph.D.s in 
economics, as well as to public policy and health experts.

                   FISCAL YEAR 2000 FUNDING SHORTFALL

    Last year your counterpart in the House, Mr. Taylor, asked 
us, after we submitted our budget, whether we could reduce our 
request for 2000, given your tight allocation and the attempt 
to live under the cap. After analyzing the time it would take 
us to recruit and hire the people we hoped to add, and after 
assessing our ability to reprogram some 1999 funds, we agreed 
to a funding level for fiscal year 2000 that was $600,000 below 
our initial request.
    Then we, along with everyone else, saw a further 
reduction--in our case, about $100,000--through the across-the-
board cut. As a result, CBO's appropriation for fiscal year 
2000 provided an increase of less than 2 percent. Combining the 
funding for 2000 with the request that is before you now, CBO's 
funding would increase by 11 percent over the 2-year period, 
which is far below that of any of our sister agencies. Both 
their requests and their subsequent appropriations have far 
exceeded ours.
    I hope you are not surprised to know that I believe in 
budgets and budgeting--for planning, setting priorities, and 
establishing real resource constraints. That is why, Mr. 
Chairman, I agreed to reduce our request for this year, because 
I thought we could make some adjustments and live with the 
reduction. And we have.

                       FISCAL YEAR 2001 INCREASE

    But now we need to regain some ground. This is a well-
constructed and easily defensible budget. It was built from the 
ground up; it is not simply an extrapolation from prior 
budgets. For example, Mr. Chairman, we carefully reviewed our 
telephone needs and found that we could change equipment and do 
away with about 50 percent of our telephone lines. We are 
moving to less expensive data processing. Our library is 
becoming more virtual. All of these savings are explicit in our 
request and are not subsumed in increases elsewhere.
    Like most of your bill, most of our budget is people and 
computers--86 percent people and 8 percent computers. We need 
to build our strength back toward our authorized FTE level. Our 
request gets us back to where we were in 1997. We are adjusting 
pay schedules to help us compete with organizations such as the 
Federal Reserve and the World Bank. And we are rewarding 
performance and recruiting heavily. While we are happy to be 
able to report, Mr. Chairman, projected surpluses for the 
Federal budget as a whole, I assure you that there are no 
surpluses built into this request.

                           PREPARED STATEMENT

    By the way, I am also happy to report that your monthly 
budget review remains a best seller, at least in the budget 
world.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Dan L. Crippen

    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 2001 budget request for the Congressional 
Budget Office (CBO). The mission of CBO is to provide the Congress with 
the objective, timely, nonpartisan analysis it needs for making 
decisions about the economy and the budget and to furnish the 
information and estimates required for the Congressional budget 
process. CBO does not make policy recommendations; instead, it presents 
the Congress with options and alternatives in a wide range of subject 
areas, all of which have economic and budgetary impacts.
    The Congressional Budget Office is requesting $28,493,000 for its 
operations in fiscal year 2001, a 9.1 percent increase over the 
agency's fiscal year 2000 appropriation. The funding increase is 
largely necessitated by our need to compensate for a significant 
funding shortfall in 2000--our appropriation increase for fiscal year 
2000 was only 1.8 percent, or $450,000. That was much less than the 
$1.5 million that would have been needed to cover increases in pay and 
benefits for our 232 authorized positions. The 1.8 percent increase was 
also well below the nearly 7 percent average increase that other 
Congressional support agencies received. If we view fiscal years 2000 
and 2001 together, our request implies an 11 percent cumulative 
increase, which is below the analogous amounts for other Congressional 
support agencies.

Impact of the Shortfall in Fiscal Year 2000

    Because 94 percent of our funding goes to salaries, benefits, and 
computer technology, the resulting $700,000 shortfall from our request 
was impossible to absorb without negatively affecting our staffing and 
technology. To cope with that situation, in fiscal year 2000:

  --We will hold actual staffing to 225 positions, well below the 232 
        authorized, even though additional staff are clearly needed in 
        a number of areas. Our staff resources will therefore be 
        stretched thin in both fiscal years as we endeavor to support 
        major new investments in our long-term modeling and analysis of 
        the Social Security and Medicare programs, and to maintain 
        essential functions such as scorekeeping, budget analysis, and 
        economic and revenue forecasting.
  --We will also greatly reduce our spending on computer technology and 
        information resources this year. Because we reprogrammed funds 
        for computer hardware in 1999, we can survive this cutback for 
        one year, but we will also have to delay purchases of needed 
        software and certain network hardware.
  --Finally, we must tightly control most other spending and find 
        offsetting savings or reductions.

Summary of the Request for Fiscal Year 2001

    The request for fiscal year 2001 would allow us to fund the 228 
positions we plan to fill by the end of fiscal year 2000. By early in 
fiscal year 2002, we hope to reach our authorized staff ceiling of 232 
positions. The requested funding also:

  --Provides a pay adjustment of 3.7 percent and merit increases of 
        $269,000--both of which are down from fiscal year 2000 to 
        reflect the cumulative cost-of-living increases of January 2000 
        and January 2001 that will help mitigate the pay gap we still 
        suffer relative to pay in the private sector.
  --Contains a $588,000 increase in spending for computer technology 
        and systems, data, and model development, bringing this 
        category back to its historical path after the major cutback in 
        the current year. That amount includes $150,000 to begin the 
        transfer of costly mainframe applications to a more economical 
        platform--a move that could save several hundred thousand 
        dollars each year--and $100,000 to purchase new software for 
        tracking appropriations.
  --Supports an increasing workload of 11 studies and mandated reports, 
        25 papers and memorandums, 2,000 legislative cost estimates and 
        mandate cost statements, and a growing number of testimonies 
        before Congressional committees (estimated at 30 to 35 
        appearances for both 2000 and 2001).

    Even with this request, we continue to be concerned about our 
ability to offer the salaries and benefits needed to attract and retain 
staff in today's tight labor market. We lost a number of very good 
analysts and senior managers in 1999, and we expect a significant 
number of senior staff to retire in the next 12 months. In fact, 
roughly half of our managers and more than half of our top executives 
are currently eligible to retire, and several more will become eligible 
in the next three years.
    Related to these concerns, I would like to take this opportunity to 
thank the Committee for its support last year in providing CBO with the 
authority to give lump-sum performance and recruitment bonuses and to 
raise the pay of our executives. Although we are just beginning to use 
these new authorities, we are already finding the bonus authority to be 
a valuable tool for immediately rewarding extra efforts by our 
employees. The enactment of the new pay levels for my position and that 
of the deputy director has eased and will continue to ease the salary 
compression we have been experiencing. It has also allowed us to raise 
the pay rates for our executive staff, and in turn, we have become 
somewhat more competitive in our hiring.
    Finally, we will do everything we can with the available funding to 
strengthen our recruitment and retention efforts, which I will discuss 
in greater detail later.

Cost Savings
    Price inflation in our nonpersonnel budget has been quite high, 
particularly in such areas as subscriptions and software. To help 
offset that inflation, we have identified a number of operating-cost 
savings. In fiscal year 1999, for example, we completed moving a 
portion of our timesharing services to the Library of Congress, which 
will save roughly $175,000 per year beginning this fiscal year. In 
addition, we have identified ways to reduce spending on software, 
timesharing, and communications. Those efforts, which should save 
another $100,000 per year, will be phased in during this fiscal year.
Accomplishments in Fiscal Year 1999
    Budget issues were in the forefront of Congressional debate in 
fiscal year 1999, as the Congress struggled to stay within the caps on 
discretionary spending, sought to avoid an on-budget deficit, grappled 
with the question of what to do with the budget surpluses projected 
over the next decade, and dealt with major policy issues in a number of 
significant areas.
    CBO's January 1999 baseline projections of growing surpluses, 
described and documented in The Economic and Budget Outlook: Fiscal 
Years 2000-2009, framed much of the debate that followed. Those 
estimates were revised in July, when CBO prepared a comprehensive 
update of economic developments and its baseline budget projections, 
reporting that better-than-expected economic conditions were likely to 
result in even larger surpluses. Those reports provided accurate 
estimates of the outlays, revenues, and surplus for fiscal year 1999. 
For example, in January, we projected a 1999 surplus of $107 billion, 
and in July, we revised that estimate to $120 billion. Both figures 
were very close to the actual result of $124 billion.
    The appropriation process lasted until November and culminated in 
an omnibus appropriation act encompassing five of the regular 
appropriation bills and a number of other pieces of legislation. 
Throughout that process, CBO prepared estimates for numerous versions 
of each appropriation bill and for a variety of proposed amendments. 
With the intense focus on the discretionary caps and the on-budget 
surplus, CBO was called upon to provide frequent tabulations of 
discretionary spending totals, including amounts designated as 
emergency requirements, with and without scorekeeping adjustments 
specified by the Budget Committees. The task was complicated by the 
need to assess the impact of various obligation delays, advance 
appropriations, and across-the-board cuts. CBO also published a letter 
report in October that explained the key issues surrounding the 
appropriation process, as well as an end-of-session summary of the 
outcome.
    In the course of the debate and discussion on the wide array of 
authorizing legislation addressed by the Congress, CBO provided 
hundreds of formal cost estimates and even more informal estimates to 
committees and individual Members. Those estimates addressed a variety 
of proposals, options, and bills, including the Medicare, Medicaid, and 
SCHIP Balanced Budget Refinement Act; the Defense Authorization Act; 
the Ticket to Work and Work Incentives Improvement Act; the Water 
Resources Development Act; and bills dealing with veterans' health 
care, banking reform, patients' rights, crop insurance, and education 
initiatives. All formal estimates were promptly posted on CBO's World 
Wide Web site so that Members and other interested parties could have 
rapid and easy access to the budgetary figures.
    CBO also actively supported the Congress' consideration of the 
long-term problems facing Social Security and Medicare. We prepared 
detailed analyses of proposals by the President and others to reform 
Social Security and Medicare. We testified on Social Security and 
Medicare before five Congressional committees, and we issued numerous 
reports and cost estimates. To enhance our ability to analyze the long-
term prospects for those programs and the impact of proposed changes, 
CBO has established a new Long-Term Modeling Group, staffed with 
experts in demographics, statistics, and modeling.
    CBO's estimating responsibilities extend beyond the bounds of the 
federal budget. They include the review and analysis of hundreds of 
reported bills to identify and estimate the cost of mandates imposed on 
the private sector and on state, local, or tribal governments. We 
determined that legislation included one or more mandates in more than 
100 cases and estimated the cost of those mandates. CBO staff has 
worked closely with the National Governors' Association, the National 
Conference of State Legislatures, the League of Cities, the National 
Association of State Budget Officers, and other private, governmental, 
and tribal organizations to ensure that mandates are identified and 
their impacts are projected on the basis of the best possible 
information.
    We believe the quality of our estimates and their relevance to the 
budget process resulted in more requests for CBO to testify before 
Congressional committees and to provide quick-turnaround answers on 
budget questions in the waning hours of the budget process. During the 
year, I and other CBO officials testified 32 times, up from 16 in 
fiscal year 1998, and did so for a wide variety of committees, 
including several appearances before the House and Senate Budget 
Committees, House and Senate Appropriations Committees, Senate Finance 
Committee, House Rules Committee, House Ways and Means Committee, and a 
variety of other House and Senate committees.
    In 1999, CBO also resumed the publication of its ``budget options'' 
report, which details hundreds of possible methods for reducing 
spending or raising revenues. That volume was made available in an 
interactive version on CBO's Web site (www.cbo.gov). Finally, as a 
result of our Year 2000 renovations and preparations, the 
infrastructure of CBO's information technology and its systems were 
fully operational on January 1, 2000.

Priorities for Fiscal Years 2000 and 2001

    Efforts to reform Social Security and Medicare are expected to 
continue to be a priority for the Congress. To support those efforts, 
we will complete the development and documentation of actuarial and 
microsimulation models for estimating Social Security over the long 
term (75 years), including a benchmark-estimate comparison with the 
estimates of the Social Security Administration. We will also begin 
producing long-range cost estimates and impact analyses of Social 
Security for both current-law and reform proposals, and we will 
continue to develop long-range models for the Medicare program.
    CBO staff will also devote a substantial amount of time to 
analyzing the effects of Social Security reform on aspects of 
retirement and disability policy, interactions between proposed changes 
in Social Security and the Supplemental Security Income program, and 
interactions between Social Security and private pensions.
    CBO also anticipates significant Congressional interest in analyses 
and estimates of legislative proposals relating to commercial, 
environmental, and trade regulation; the effect of technical progress 
on the national economy; expanded Medicare benefits; improved federal 
student-aid programs; the adequacy of funding for defense plans; and 
federal debt management.
    CBO will also continue to focus resources on improving its economic 
forecasts and integrating its economic and budget forecasts.
    In addition to focusing on its mission-related work, CBO, like any 
effective and highly successful organization, must devote some 
resources to attracting talented people, developing their skills, and 
properly equipping them with the needed technology. We must also 
organize our work to be as efficient as possible. Our goals for 
strengthening CBO's internal operations follow.
Human Resources Priorities to Enhance Recruitment and Retention
    During the next two years, CBO will expand on the initiatives 
undertaken in 1999 to identify, hire, and retain a highly talented and 
diverse workforce by strengthening our recruitment strategies, 
investing more in training and staff development, and reconfiguring our 
space so that it better meets the needs of our staff. In particular, we 
will:
  --Strengthen Our Recruitment Strategy.--Our goal is to focus our 
        efforts and resources on quickly filling key vacancies, 
        particularly in hard-to-attract disciplines, while building a 
        more diverse workforce.
      In 1998 and 1999, CBO experienced an unusual number of vacancies. 
        Unfortunately, because of a tight labor market, we were unable 
        to quickly replace the individuals who left. By the end of 
        1999, we were therefore still short of our staffing needs. 
        Although we were able to meet our mandates, that shortfall 
        created a hardship for many of our staff, and it meant that our 
        ability to produce major studies suffered somewhat.
      Our efforts have already begun, and a recruiting task force 
        recently presented me with recommendations on how to improve 
        our recruiting system. We plan to target a more diverse set of 
        schools, develop better recruiting materials, capitalize more 
        on our summer internship program, and devote more staff and 
        travel resources to recruiting. We will also consider a more 
        formal orientation and mentoring program for new employees.
  --Improve CBO's Training Programs.--Our goal is to improve management 
        and job skills by investing in our people through training, 
        education, and professional development and to take greater 
        advantage of existing technology in our operations.
      CBO has always invested in the development of its staff, but the 
        amount we spend on job training and professional development is 
        far less than is spent by world-class firms and other high-
        impact organizations and much less than the amounts recommended 
        by management and training experts. CBO spent less than 0.5 
        percent of its personnel costs on training in 1999, compared 
        with as much as 6 percent for high-performing professional 
        firms. During the next two years, we hope to shift some 
        resources to training, education, and professional development, 
        and we are now working on a new training policy to carefully 
        target those resources.
  --Modernize and Revitalize Our Working Environment.--Our goal is to 
        reconfigure and, where necessary, renovate offices to better 
        use our space and to provide a quality work environment for new 
        employees and those currently in inadequate space.
      Most of CBO's space was configured shortly after the agency's 
        creation 25 years ago in a building originally designed to 
        house files, not people. At that time, there were no desktop 
        computers, a much larger number of support staff, less 
        specialization among employees, and an employment marketplace 
        that was not nearly as competitive. Consequently, a significant 
        percentage of the space is configured for clerical staff, while 
        many analysts have work space that is inadequate and much less 
        desirable than that of our competition.
      If we are to be competitive in the employment marketplace and 
        attract and retain employees who are highly sought after, our 
        facilities-related problems must be addressed. In cooperation 
        with the staff of the Architect of the Capitol, we have 
        developed a range of strategies to address those problems, and 
        we believe that we can make substantial progress during the 
        next three years without significantly increasing our current 
        spending on equipment and facilities.

Communications Priorities

    The value of CBO's work to the Congress and the public is directly 
related to the quality, readability, and easy availability of our 
written products. Over time, the electronic versions and electronic 
delivery of our analyses have increased in importance, and the demand 
for our electronic products continues to grow. Our Web site currently 
receives more than five million hits per year, and that activity is 
expected to continue to grow. At the same time, however, the demand for 
printed copies of our reports remains very strong.
  --Enhance CBO's Web Site.--Our goals are to respond to the demand for 
        CBO products in electronic form and expand the number of 
        relevant past publications that are available electronically.
      In fiscal year 2000, we plan to add more ``best selling'' 
        publications from earlier years to our Web site and expand the 
        use of interactive products such as the ``budget options'' 
        report. Such interactive versions of our publications respond 
        to users' demands for more targeted information that will 
        enable them to quickly locate the portions of the report that 
        are relevant to their interests.
  --Centralize Report Production and Modernize Report Format.--Our goal 
        is to achieve a consistent, high-quality product and standard 
        ``corporate'' look for studies, reports, papers, memorandums, 
        testimony, and other products while achieving efficiencies.
      We plan to centralize final production of our publications with 
        our editorial staff. That should save analysts' time, improve 
        the appearance and consistency of our documents, and make 
        production more economical.

Internal Management Priorities

    As noted earlier, highly effective organizations must build a 
skilled staff and then provide the technology and work processes 
necessary to support that staff.
  --Maintain Our Technological Edge.--Our goal is to continue to 
        provide the best, most affordable technology systems to support 
        the agency's mission while constantly improving the performance 
        of those systems and employees' satisfaction with them. That 
        effort focuses on desktop hardware and software, reproduction 
        equipment, communications, data processing, access to the 
        Internet, and analytical modeling.
      CBO has invested steadily in its technology over the past few 
        years. As a result, every employee has up-to-date hardware and 
        software, and our internal network, Web site, and 
        communications are among the best in government. That allows us 
        to accommodate a tight budget in 2000, but we must restore 
        spending in fiscal year 2001 to remain effective and to 
        adequately support the Congress.
      Our objectives for fiscal years 2000 and 2001 are to (1) continue 
        to upgrade our network and communications hardware; (2) provide 
        additional training to employees using our current technology 
        and software; (3) identify and implement operating-cost 
        savings; (4) improve network security; and (5) support the 
        reengineering and automation of key work processes.
  --Streamline Procurement.--Our goal is to modernize our procurement 
        process to emphasize a streamlined, paperless process with 
        greater emphasis on competition in purchasing.
      During fiscal year 2000, we will investigate processes and 
        software used by other organizations and begin redesigning our 
        procurement process. In 2001, we hope to implement a new system 
        for processing purchase requests, issuing purchase orders, and 
        tracking obligations, orders, and payments.
  --Reengineer Key Work Processes.--Our goal is to rethink and redesign 
        all major administrative processes to reduce staff burden and 
        costs.
      During the next two years, we will survey our key administrative 
        processes to identify targets for redesign. We will then 
        appoint redesign teams to develop processes that are more 
        efficient and less paper intensive, which will reduce the staff 
        time necessary for performing and recording transactions.

Conclusion

    Mr. Chairman, CBO's recent budget requests have been modest. Our 
actual increase for fiscal year 2000 was only 1.8 percent, well below 
what was needed to maintain current services and make modest 
investments for the future. We are operating a sophisticated enterprise 
in a highly competitive environment. Other agencies, organizations, and 
businesses offer more attractive compensation packages than we do, and 
many offer a more attractive work environment. Not only do we find it 
increasingly difficult to attract highly qualified personnel, but a 
large cadre of our senior staff is nearing retirement age. Indeed, over 
the past year, we have lost some key personnel whose absence is keenly 
felt at the operational level. At the same time, the Congress is 
placing ever greater demands on CBO to provide a wider range of 
assistance than in the past. If we are to continue meeting the needs of 
the Congress, we must have adequate resources. Although our request may 
appear substantial, it would essentially bring us even with other 
Congressional agencies over the two-year period and ensure our ability 
to maintain the existing level of service.

    Senator Bennett. Thank you very much. I particularly 
appreciate the attitude toward the budget, which is a build 
from the ground up kind of exercise, rather than an 
extrapolation from the previous year. You do not have to do 
that every year, but you have to do that more often than people 
often do.
    Mr. Crippen. This was our first budget since we arrived at 
CBO. Last year's budget had already been submitted by the time 
we got there.

                  A POSITIVE OUTCOME FOR THE Y2K SCARE

    Senator Bennett. Right. You made a reference to Y2K. And I 
am going to respond by focusing on an aspect of the Y2K thing 
that we have not talked about before, that I think may have 
some interest in your area. A number of people have told me 
that while they got through the Y2K problem without any 
difficulty, and that was a major accomplishment, the long-term 
impact of what they did with respect to Y2K will be the 
experience of having inventoried all of their computers and 
actually finding out how many they had and what they did and 
how they were connected, and that they have made fairly 
significant changes as a result of that inventorying process. 
Even if they did not find Y2K problems, they got an investment. 
Alan Greenspan said to me he feels that will be the most 
significant long-term benefit from the Y2K experience to the 
American economy.
    In this morning's news we are hearing that the productivity 
rate, at least through the fourth quarter of last year, was 
simply stunning, astronomical, an annual rate of 5 percent 
productivity growth. I do not recall any time in history when 
they talked about productivity growing at that rate.
    Whether that had anything to do with the Y2K inventory 
phenomenon or not is immaterial. The fact is, I think, that we 
are seeing a new phenomenon by virtue of the information 
revolution in terms of productivity increases that simply have 
no historical precedent. And I would like to, with that 
buildup, ask a question of you as to how much of your time and 
resources and attention are being focused on an attempt to 
understand the impact of that phenomenon and put it into your 
forecasts.
    Would you care to comment?
    Mr. Crippen. Sure. Let me say before I respond, though, 
that I think the preparations for the Y2K problem had benefits 
even beyond the one you cited--inventorying. Those preparations 
also allowed people to upgrade a lot of old software, which 
will not only run more efficiently but will also probably allow 
them to make more efficient use of computers. In addition, 
preparing for Y2K involved the training of a lot of personnel 
in the information technology field who will now be employed in 
other endeavors, thereby increasing productivity. So Y2K was 
about more than machines. It was, as you suggested, people and 
software that we put in place. In the past 4 years, we have 
seen average productivity growth of about 2.6 percent compared 
with 1.6 percent for the previous 20 years. So we finally----

                   PRODUCTIVITY GROWTH IN THE ECONOMY

    Senator Bennett. Let me get that. The last 10 years?
    Mr. Crippen. In the past 4 years, productivity has been 2.6 
percent. In the prior 20 years or so, it was 1.6 percent.
    Senator Bennett. Okay.
    Mr. Crippen. So that is a full percentage-point difference 
in the average for the past 4 years. We have been able to 
identify several factors that have contributed to that 
difference. A good piece of it, frankly, is simply the 
manufacture of computers, which is becoming more efficient, and 
we are getting more power for less money. That is about 25 
percent of the increase in and of itself.
    We have also had some change in accounting in the national 
product accounts, which, by definition, changed some of the 
underlying numbers. But there is a piece of this that is very 
real and not fully understood. We believe it has to do with the 
greater capital investment that we have seen in the past 
several years, and that increase, of course, will pay off.
    What we have incorporated in our forecasts--and one of the 
reasons that our surplus estimates increased between last year 
and this--is that we took about 0.6 of the 1 percentage-point 
increase and assumed it was going to continue. That will yield 
average productivity growth of a little more than 2 percent 
over the next 10 years. That estimate may be low, but we were a 
little concerned that we only have 4 years of information on 
the increases and are not quite sure we know exactly where it 
is coming from. But we are pretty comfortable with saying that 
a little more than half of the recent productivity increase is 
permanent and is going to continue. There is no reason to 
think, for example, that the computer efficiencies--the more 
power for less money--are going to slow down. We are not 
reaching physical or theoretical limits yet. So we expect a 
good piece of this increase to continue.

                PRODUCTIVITY UNCERTAINTY AND THE SURPLUS

    Senator Bennett. This is not the forum for this kind of 
discussion, but I will comment in case you missed it. In his 
presentation to the Banking Committee last week, Alan Greenspan 
was asked: Are your numbers real? That is, are the CBO's 
numbers real? Particularly with respect to the surplus. And he 
said, ``Well, we don't know, because we have had such a short 
period of time in which to evaluate what is causing the river 
of revenue to come in to the Federal Treasury.''
    And he said if it's permanent, then the CBO numbers are way 
low. The surplus will be substantially bigger over the next 10 
years than the $4 trillion that CBO is projecting. On the other 
hand, if it is temporary, the surplus could disappear. So he 
said what CBO has done is just pick a number somewhere in the 
middle that seems prudent. And he said all of the other 
forecasters have done the same thing, but nobody really knows, 
because we have not had a long enough period of time.
    And of course, if it turns out we have had a very 
fundamental change in the way things work so that the 2.6 
percent number stays constant for the next 10 years, then yes, 
the $4 trillion figure will be low.
    Now you are confirming----
    Mr. Crippen. Yes. Absolutely. I think we know a bit more 
about where the revenues are coming from; that is to say, from 
capital gains realizations and upper-income taxpayers and from 
more people being pushed into the upper brackets because of 
real growth in wages and other income. But that is not to say 
we know the sources of the income.
    And that is what I think the chairman was referring to with 
productivity. He has been talking longer than we have about a 
new economy and the implications for the future. But again, 
after 4 years of reality hitting us in the face and of 
underestimating the flow of revenues, we thought that it was 
useful to incorporate some of the things that we do know. And 
we do know about computer production and some other factors 
that we are convinced will continue to have an effect.
    Our latest report, ``The Budget and Economic Outlook: 
Fiscal Years 2001-2010'', included a chapter on the uncertainty 
surrounding our projections, which goes through the many things 
that could be worse or better than we think. We have a 
pessimistic alternative that combines a number of bad events, 
if you will, and an optimistic alternative that suggests much 
larger surpluses if the productivity increases continue at 
their recent rates.
    So whenever anybody is talking about the next 10 years, as 
we do in these reports, they are talking about projections, not 
estimates. Projections are an educated guess. By the end of 
about the sixth or seventh year, all of the numbers drive back 
to a steady-state forecast that says we believe the economy can 
grow at about 3 percent a year, by the end of the decade. But 
that is a guess.
    Senator Bennett. Senator Feinstein.
    Senator Feinstein. I have a question. It is not really on 
the subject, but it has to do with this. It is really a 
California question, because our GDP is very good. And about 25 
to 30 percent of our jobs are involved in the global 
marketplace. And yet, the wage gap is becoming profound. I do 
not have the exact figure, but it is something like a drop of 
$2,900 per worker in the lower fifth in wages.
    California will shortly be a minority/majority State. I 
have very deep concerns about classes kind of war, rich versus 
poor kind of war. It is also a high cost of living State. And, 
I would suspect there is some of this wage gap existing all 
across the United States, except perhaps not as profound as we 
are finding it in California.
    Do you have any insight as to the reasons or what could be 
done to correct it?

                       DISPARATE GROWTH IN INCOME

    Mr. Crippen. I agree wholeheartedly with you that a 
profound public policy issue for the next few years is probably 
going to be dealing with disparate income growth among people 
in this country. Despite the way the economy is growing and 
will probably continue to grow, there is at the moment a group 
of people who seem to be stuck, whose income is not growing.
    We need to be careful about how we frame the issue. If, as 
I have seen recently in some of the popular literature, we are 
talking about families, for example, the picture is perhaps 
partially distorted, because the families in the top income 
quintile tend to be married, two-worker households--maybe 
mostly professional--whereas families in the lowest income 
quintile tend to be households headed by a single mother. When 
we talk about families, a lot of socioeconomic characteristics 
go along with the numbers. So we have to be careful about 
defining the issue.
    The bottom quintile also includes a lot of people who move 
out of that income group. But by definition, of course, because 
you cut family income into five pieces, somebody is going to be 
moving in. So there is a migration out and up that we also need 
to be conscious of.
    A recent study concluded that people with less than $10,000 
of income (in current dollars) tend to get stuck--that is, they 
will not move up and out. And it partly has to do with 
education. Most of those people do not have anything beyond a 
high school education. And so we need to concern ourselves with 
that group of people. I do not know enough about the causation 
to say that it is merely an education problem. But we are 
beginning, at least, to get a better sense of who the people 
are and why they are stuck.
    In the case of California, I have seen one study that 
suggests that the disparities there are a little greater than 
average because the State has a lot of entry-level workers and 
accounts for a large share of the immigrants that this country 
accepts, many of whom fall in the lowest income quintile. But 
many of them do get out of the bottom quintile over the first 
few years. So California is one of the places where people come 
into the country, have their first employment, have lower 
wages, and then move on.
    Senator Feinstein. Nationally, does that bottom quintile 
remain static in numbers, or is it growing in numbers?
    Mr. Crippen. Well, no. Because we split income into five 
pieces, the number of people in there tends to stay the same 
because it is a fifth of our population, by definition.
    Senator Feinstein. Oh, I see. Oh, all right.
    Mr. Crippen. So that does not tell you much. You have to 
look at the people in the group. And that is what some of the 
newer studies are doing--looking at the people as they grow and 
move into the second and third quintiles rather than stay stuck 
in the bottom. So it is very much a changing group of people. 
And in that sense, it is less worrisome as a policy issue than 
if that fifth were the same people and stayed there forever. We 
are finding that is not the case.
    Senator Feinstein. But, you see, my point is that we have a 
growing number of people not making very much money and not 
being able to get out of it. As a matter of fact, you know, 
parts of California Bay are beginning to look like a third 
world country. To be very honest with you, it's a very serious 
problem; and because everything is high tech and bio tech, our 
whole manufacturing base has changed dramatically. And yet, as 
you say, we continue to accept about 50 percent of the nation's 
migration. It is presenting a huge social dilemma, which really 
could blow up in some major ways.
    And, I do not know what really addresses it. For example, 
if you have a single mother with two children, it costs her 
$15,000 a year for the basic lowest rent, lowest food, lowest 
clothing, lowest child care, which means she has to hold three 
minimum-wage jobs to be able to pay that amount, as it all 
works out.
    I mean, it is almost an impossible circumstance for people. 
And, when you get large numbers, too, I think that it presents 
a deepening social crisis. That is what I believe we are 
facing--how to diversify a work base, particularly when you 
have the affluence we have. And, we have a 5 percent GDP.
    I guess, for me, this deals with the whole minimum wage 
thing. California's minimum wage is 50 cents above the Federal 
minimum wage. But, we have 37 cities in the United States now 
going for living wages. Part of that is driven, I think, by 
this phenomenon.
    So, I really think we have a brand new phenomenon of a huge 
growth of a have-not class that the economy does not benefit at 
all.

                 SHARE OF TOTAL INCOME IN LOWEST GROUP

    Mr. Anderson. One of the trends you may be citing is that 
not only has the composition of that bottom 20 percent changed, 
but over time that quintile's share of total income has 
actually shrunk. I do not know exactly what the figures are. I 
think it is----
    Senator Feinstein. That is right.
    Mr. Anderson (continuing). Down to 1 percent or 2 percent. 
By contrast, people in the top 20 percent--the same number of 
people--now have about 50 percent of the total income.
    As the chairman said in his introductory remarks with 
respect to productivity, we at CBO do spend some time looking 
at international comparisons. Y2K was not a problem unique to 
the United States, nor were the solutions or computers that 
were applied to try and fix the problems. But what is 
relatively unique to the United States is our productivity 
growth, which is much higher than that of other countries. And 
we ask, Why are we doing better?
    The same thing applies to income distribution. We have a 
greater share of total income in the upper-income quintile than 
do most other, if not all other, developed countries. But as 
Dan points out, we also have mobility; if we had a static group 
in the bottom 20 percent, I think the social problems would be 
much, much worse than they are now. But fortunately, we do 
allow for a lot of mobility. That mobility works in both 
directions. The people in the top 20 percent--the ones with all 
that income--sometimes move down, too. But we have that 
mobility with the people at the bottom.
    Senator Feinstein. Let me ask you: Are we sure, are you 
sure, that such mobility is taking place as much now as it did?

                  WORKFORCE CONSTRAINTS ON THE ECONOMY

    Mr. Crippen. Actually, it looks like it has accelerated a 
little. I mean, it is happening faster, except for this class. 
As I said, this study suggests that people without a high 
school education are stuck, that they are not moving up. But 
beyond that, there is a lot of mobility up and out.
    In your State, in particular, that phenomenon is driven by 
immigration. And that is something that we are going to have to 
deal with at the national level. For example, we assume that 
over the long run, our economy can grow at about 3 percent a 
year in real terms. Two percent of that, roughly, is 
productivity. One percent is an increase in the workforce.
    We are becoming constrained, not just in the current low 
employment rate but in the number of people we can anticipate 
coming into the workforce. If, for example, that 1 percent 
became 2 percent because of immigration or some other policy 
change, you would obviously raise the ability of this economy 
to grow dramatically.
    And as we see in our numbers, the difference between 3 
percent and 4 percent, or 2 percent and 3 percent, is a lot. So 
we are going to have to promote, allow, encourage immigration 
to help our future economic growth. But at the same time, as 
you are pointing out, there are certain consequences that the 
rest of the country may not be feeling uniformly. And our 
ability to assimilate those folks will depend on more than just 
the H-1B visa. Is that the----
    Senator Feinstein. That is it.
    Mr. Crippen. I was talking to Senator Bunning awhile back, 
and Kentucky is having difficulty finding labor for the farm 
community--not just migrant workers but labor, period. And so 
it is not just high-tech companies that need help; it may be 
others as well. Immigration writ large is going to be an 
important issue for our economy to face.
    Senator Feinstein. If we could just talk for a minute. One 
of the things that is also happening--and I have spent some 
time on this now--is very bad farm labor contractors. They go 
out and bid on something, and they outbid each other. And, the 
only way they can outbid each other is by not paying the 
workers. So, increasingly, there are groups of farm workers who 
are not getting paid even what they should be.
    And, I think, it is escalating in our State because we have 
a lot of monolingual farm laborers in the workforce. In other 
words, they do not speak English very well. I think there are 
some huge social problems coming out of all of this affluence, 
which are masked by the affluence, and the kind of glitz of 
this new economy.
    On the way back yesterday, I sat next to a man on the 
plane. He was so high tech that I did not understand him. It 
was like he was speaking a whole different language. His 
interests were so restricted, so narrow, so lack-of-caring for 
anything else around him, that it really was kind of arrogant--
you know, sort of the sweatshirt and loud on the cell phone. It 
is a kind of arrogance that is permeating our economic 
structure.
    Mr. Crippen. It used to be investment bankers. Now it is--
--
    Senator Feinstein. Yes. Right. And it is really causing me 
concern, because I can see what happens in California, both 
good and bad. Then, it passes on to other States. So, it is 
serious.

                         MOBILITY OF WORKFORCE

    Mr. Crippen. One of the things that is notable in the U.S. 
experience is the mobility of our labor force--the ability to 
change jobs or, maybe, the necessity to change jobs. That 
mobility distinguishes us from Germany and other European 
countries in particular.
    So Government intervention to help take care of some of the 
income disparities and other things could be harmful if it 
interferes with that mobility, which is an advantage in our 
economy. That is not to say one should not take notice of and 
design policies to address disparities, but it has to be 
carefully done because the lesson seems to be that labor 
mobility is really what is distinguishing our current economy.
    Senator Bennett. Chairman Greenspan has made that point. 
And as we look at Europe, if you cannot get a job in Italy, let 
us say, in the European community, you are much less likely to 
move to Belgium where the jobs may be, than, by comparison in 
the United States, if you cannot get a job in California, you 
may move to Utah. And we have seen a lot of that, by the way.
    Senator Feinstein. Yes.
    Senator Bennett. Utah's growth, at least a few years ago, 
was driven, if I may, by the anti-business attitudes that for a 
while were in Logan, California. Our Governor used to say that 
the greatest economic development agency in the State of Utah 
is the State legislature in California.
    And I was one of those. I lived in California and moved to 
Utah, because we felt we could grow our business better in 
Utah. That kind of mobility--my children grumbled a little, 
changing schools and so on. But that kind of mobility is 
standard in the United States. And in Europe, where you go to a 
whole new culture, whole new language, you may have the same 
currency now in the Euro, but you are much less likely to pack 
up and change citizenships. Whereas in the United States, 
changing your citizenship from California to Utah, or the other 
way, you have been the State that has seen the most mobility 
going in that direction.
    Senator Feinstein. Bob, here is the main thing in all this: 
Our figures predicated that, in the next 20 years, there will 
be another 15 million people in the State; so we will have 50 
million people. I mean, if most of this would go to Utah, if 
there was a spread; it would be great, because you could handle 
it. But, go into a school, K through 6, with 5,000 students, 60 
different languages; who can ever learn anything? And, that is 
sort of what it is coming down to without the basic 
infrastructure to deal with any of this.
    Senator Bennett. We are at our own level facing the same 
problem in Utah. We are looking at the growth that is coming 
and saying, how in the world are we going to house all these 
people? How in the world are we going to transport them?
    Senator Feinstein. Anyway----
    Senator Bennett. Anyway.
    Senator Feinstein. We are not going to eliminate CBO, 
right?
    Senator Bennett. We are not going to eliminate CBO.
    Mr. Crippen. I was waiting for that question.

                        USING THE HOUSE COMPUTER

    Senator Bennett. Here is a very minor, very technical 
question, that we probably ought to have on the record. You 
include a request for $150,000 to study solutions for the 
transfer of mainframe applications. Is this related to your 
pattern of sharing time with the House computer system? And if 
so, will the House allow CBO to continue to reimburse for this 
resource, or are you looking for someplace else to go?
    Mr. Crippen. The short answer to your question is, yes. We 
currently have about half a million dollars a year in the 
budget to pay House Information Resources (HIR) for computing 
services, largely for our Budget Analysis Division. As of last 
night, HIR informed us that they want us to migrate off their 
mainframe much more quickly than we had anticipated. So we may 
actually have to begin before next year.
    Senator Bennett. They want you to move from California to 
Utah.
    Mr. Crippen. They do. We can do a lot of this stuff 
remotely, from almost anywhere. We have already migrated a lot 
of our systems off the HIR mainframe, because HIR does not want 
anybody using their computers. And, in fact, HIR will probably 
get rid of their mainframe eventually and become a micro-park 
upstairs.
    We have moved a lot of things to the Library of Congress 
and have actually saved a fair amount of money by doing so. The 
Library charges much less than HIR.
    So our dilemma is that we are going to move off the HIR 
mainframe sooner than we had anticipated, but hopefully not 
until the end of, roughly, 2002 or so, when we were planning 
to, rather than by the end of 2000, which may be facing us. If 
it is 2000, we will have to start this year to figure out how 
to move some of our systems.
    Senator Bennett. And will that involve increased costs, if 
you have to move----
    Mr. Crippen. No. Actually, the move should save us money 
once it's completed because we have already saved several 
hundred thousand dollars in moving other applications from HIR 
to the Library of Congress, which is willing to give us a 
fixed-fee service contract. We pay them $100,000 a year: about 
half of that goes to licensing, and the other half is a fixed 
fee for as much computer time as we need for our statistical 
analysis processing.
    So it has saved us several hundred thousand already to 
migrate. We need to. We want to. The question is how quickly we 
can make that move.
    The system, by the way, that is still on the HIR mainframe 
is for our Budget Analysis Division, which does the true 
number-crunching. When you report a bill out of another 
committee and ask for a cost estimate, it is our BAD staff who 
do the work. So it is not a system that we can blithely shut 
down, move, and try to re-up. The move has to be made 
carefully. And there are not many downtimes during the year in 
which to make that transition.
    Senator Bennett. I want to say thank you to your agency and 
for your willingness to engage us today----
    Mr. Crippen. Absolutely.
    Senator Bennett (continuing). In this conversation.
    Mr. Crippen. That is what we are here for.

                          SUBCOMMITTEE RECESS

    Senator Bennett. The hearing is recessed.
    [Whereupon, at 10:26 a.m., Tuesday, February 8, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Tuesday, 
February 22.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2001

                              ----------                              


                       TUESDAY, FEBRUARY 22, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett and Stevens.
    Also present: Senator Campbell.

                       U.S. CAPITOL POLICE BOARD

STATEMENTS OF:
        HON. WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF 
            REPRESENTATIVES, CHAIRMAN, CAPITOL POLICE BOARD
        HON. JAMES W. ZIGLAR, SERGEANT AT ARMS, U.S. SENATE, MEMBER, 
            CAPITOL POLICE BOARD
        ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL, MEMBER, CAPITOL 
            POLICE BOARD
        GARY L. ABRECHT, CHIEF, U.S. CAPITOL POLICE

             OPENING STATEMENT OF Senator ROBERT F. BENNETT

    Senator Bennett. The subcommittee will come to order. I 
have firsthand experience of what is happening downtown with 
respect to the semis and the tractors, and expect that we will 
be having other members of the subcommittee join us as that 
problem works itself out.
    We are happy to welcome Senator Campbell. While not a 
member of the subcommittee, he is a member of the full 
committee and has an interest in the subjects we will be 
discussing today. Senator, we are delighted to have you here.
    Senator Campbell. Thank you, Mr. Chairman.
    Senator Bennett. This is the second of four hearings that 
the subcommittee is holding on the fiscal year 2001 budget 
request. As I say, we have held one. The other two will be 
February 29 and March 7.
    Senator Feinstein will not be able to join us today. She 
has asked that her statement be included in the record, which 
of course we will do.
    [The statement follows:]

             Prepared Statement of Senator Dianne Feinstein

    Mr. Chairman, I appreciate the opportunity to comment on 
the fiscal year 2001 budget requests being presented to the 
Subcommittee today.
    First, with regard to the Capitol Police Board's budget, I 
believe that we need to do everything we can to see to it that 
our facilities here in the Capitol complex are as safe as they 
can possibly be--not just for our Members and staff, but for 
all our citizens.
    During the last two years, we have made major investments 
for enhancing security. The additional funds provided to the 
Capitol Police in fiscal year 2000, along with the emergency 
funds in the Fiscal Year 1999 Omnibus Appropriations Act, have 
been of great benefit in bringing on board many new recruits, 
and in helping to provide our sworn officers with the necessary 
up-to-date equipment, which they need to effectively carry out 
their mission. And, during this process, we have identified 
other areas which will need to be addressed with additional 
resources or manpower in the future. The Capitol Police Board 
still has a long way to go to bring the department up to where 
it should be in terms of technology and training.
    I congratulate Chief Abrecht and Sergeants at Arms 
Livingood and Ziglar for the work and dedication they have put 
into the security enhancement program, but I'm sure they would 
all agree that we still have much more to do. I look forward to 
receiving their testimony.
    Mr. Chairman, on a personal note, I would like to take this 
opportunity to express my gratitude to Chief Abrecht for his 
many years of service to the Congress. It is my understanding 
that Chief Abrecht will soon retire, and I just wanted to 
extend to him and his family my best wishes for the future. We 
will certainly miss him here.
    And, as always, I look forward to receiving the testimony 
of Dr. Billington, the distinguished Librarian of Congress. The 
Library is constantly undergoing change, not only to adapt to 
the way in which we operate in Congress, but to address the 
fluid nature of the public's demand for knowledge. I think that 
the Library has performed remarkably in recent years, given the 
dynamics of today's technology.
    I also welcome the testimony of our other distinguished 
witnesses on behalf of the Government Printing Office and the 
Joint Committee on Taxation.
    I do have a few questions, which I would like to submit to 
several of today's witnesses for response; and, with your 
permission, Mr. Chairman, would like to have those included in 
the record.

    Senator Bennett. Now, today we will hear testimony from the 
Capitol Police Board, the Library of Congress and CRS, the 
Government Printing Office, and the Joint Committee on 
Taxation. So we will start with the Capitol Police Board. The 
chairman of the board this year is Wilson Livingood, the 
Sergeant at Arms of the House of Representatives. Mr. 
Livingood, we welcome you on this side of the Capitol, joined 
of course by Jim Ziglar, the Senate Sergeant at Arms, and the 
Architect of the Capitol, Mr. Alan Hantman, and Chief Abrecht.
    Chief, we notice, take appropriate official notice of your 
retirement and want to make official comment for the record of 
thanks for your service, recognition of your dedication in this 
assignment. You have had an impact on helping make the Capitol 
Police more professional. I particularly appreciate that and 
understand that.
    I was here as a Senate staffer, began indeed as a Senate 
intern in the 1950's, and I remember when it was called ``the 
campus cops'' because a Senator had the right of patronage for 
the police, and some of Utah's most prominent lawyers did all 
of their studying while sitting behind a desk wearing a badge 
as members of the Capitol Police. One of them who was a member 
of the State legislature in Salt Lake, who was here on my 
father's patronage, said, if anything had ever happened that 
would have required me to draw my gun I would not have had the 
slightest idea how to do it or what to do with it once I got it 
out of the holster; I was entirely a figurehead, going to law 
school at night and doing all of my studying at my post.
    We have come a long way since then. Unfortunately, we need 
to have come a long way since then. You were part of the effort 
that has brought that professionalism, and we want to thank you 
for it officially and acknowledge your contributions.
    Mr. Abrecht. Thank you, Mr. Chairman.

                             BUDGET REQUEST

    Senator Bennett. Now, the Capitol Police have requested a 
total of $110,858,000 for fiscal year 2001. For those who 
follow numbers closely, this is an increase of 31 percent over 
last year. Everybody is going to gasp at the 31 percent, but 
there are explanations for that and offsets for it, and it is 
not really as big a jump as it would appear.
    So with that, Mr. Livingood, we look forward to your 
presentation.

              STATEMENT OF Senator BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Mr. Chairman, I wonder----
    Senator Bennett. Yes, Senator Campbell, we would be 
delighted to hear from you at this point.
    Senator Campbell. Well, first of all, thank you for letting 
me sit on this committee. As you did mention, I am a member of 
the full committee, but not this subcommittee.
    I also want to extend my appreciation for the years of 
service the Chief has given to our community here. I know he 
will be going on to things that are considerably more fun than 
police work. As a former deputy myself, I know it is not a bed 
of roses.
    I am sitting in really just for one thing, as you know, Mr. 
Chairman, and I certainly appreciate the opportunity to ask a 
couple tough questions when we get to it. But since the police 
are first up, I want them to know that whatever I have to say 
and the questions I ask do not reflect on my support for our 
police department. As a former deputy, as the guy that was the 
prime sponsor of the Cops on Schools program and the 
bulletproof vest bill and the national museum bill we have in 
this year for a National Museum for American Policemen and as a 
person who was given a service award for coming to the aid of a 
police officer a few years ago, you know that I am on your 
side.
    But I am really concerned about one specific thing and I 
talked to the chairman about it and that is why I am here. That 
is the buy-American provision that we have now in buying 
American equipment. In particular it is the motorcycles that 
are in use for the Capitol Police. I have talked to the Chief 
about this before, Mr. Chairman.
    But since 1994 we have purchased only 3 that I know of of 
American motorcycles out of the something like 75 that they 
have. The little foreign bikes--I cannot understand this myself 
because we do have a buy-American policy for all the other 
vehicles, the four-wheeled vehicles you might say, and yet we 
buy these things that break down and look like junk. One-third 
of them are not even operable that the police have now.
    In 1994, that was the last time they purchased any 
American-made motorcycles, and that was my prime concern. It 
seems to me the intent of Congress last year, when you went to 
bat for the purchase of six new ones, as Chairman Stevens did, 
the chairman of the full committee--in fact, that is why the 
number six was in there. I had recommended three to the 
chairman of the full committee and he said three simply will 
not do it, we need to put more in that budget, and so we did.
    It just seems to me the intent of Congress was somehow 
diverted or there was an end run around it. I wanted to ask 
some questions about that, because I have talked to a number of 
policemen that are on the force, they are working policemen. 
There is no question that they are not equipped now to make any 
traffic stops. They have no lights, as you know. They are 
inadequate in my opinion. They cannot be used for any escorts 
for foreign heads of state. We have to keep calling on the Park 
Service to do that.
    It just seems to me that we made it pretty clear last year 
that we wanted some American heavier motorcycles that could 
take up the slack, and they have not yet been purchased.
    I was also told by one Capitol Police officer if he had 
spotted Russell Weston, the man that killed Officers Gibson and 
Chestnut a couple years ago, if he had spotted him driving on 
the day that he came through town and if he had even seen an 
open weapon on the seat of the car, he would not have been able 
to stop him on one of those little things that they ride now.
    I think that is just totally unacceptable, to say nothing 
that I hear from guests at the Capitol all the time, people who 
come here as visitors, and they end up making sort of a 
laughingstock of our officers that are riding those, those 
little throw-away machines, those foreign machines, and I kind 
of resent that, that our officers should be the butt of 
ridicule and jokes because of the kind of equipment they are 
using.
    So that was my primary reason for being here, Mr. Chairman. 
With the 31 percent request on their increase of budget, I have 
no opposition to that. I have always been one to try to come to 
the aid of a policeman, whether it is budgetary or any other 
way. But it seems to me we ought to take this up, and when I 
have the time I would like to ask a couple of questions.
    Thank you.
    Senator Bennett. I think your questions are anticipated, 
and we welcome your being here and we salute you, Senator 
Campbell, for your diligence in following up on this issue.
    Mr. Livingood.
    Mr. Livingood. Mr. Chairman and Senator Campbell: Thank you 
for the opportunity to be here today to discuss the key points 
in the U.S. Capitol Police budget request.
    Before I begin, I would like to acknowledge the service of 
Chief Gary Abrecht. As you are aware, Chief Abrecht has 
announced that he will retire at the end of April. I would just 
like to say that during his tenure he has led the department 
through significant change. He is credited with raising the 
professional reputation and recognition of the U.S. Capitol 
Police. This was accomplished in large part through his vision, 
leadership and guidance.
    Chief Abrecht will always be remembered for the strength 
and compassion he showed following the deaths of our two 
officers in 1998. On behalf of the board, I would like to thank 
the Chief for his service to the department and to the 
Congress, and also to the American people.

                             Annual budget

    Mr. Chairman, the annual budget for the U.S. Capitol Police 
is driven by a number of factors. Primarily, it is 
representative of the staffing level required to provide 
Congress, the public, and the buildings an adequate level of 
security in such an open environment. The threat to the Capitol 
complex, the Members, their staffs, and the millions of Capitol 
visitors can never be discounted as hypothetical. Such threats 
have been acted on only too frequently in the past and continue 
to be made today.
    In fact, it can be argued that the Capitol complex is 
threatened now more than ever. In recent years, the White House 
and other executive branch agencies and their facilities have 
acquired strengthened security measures. As the most visible 
and accessible symbol of the United States Government and 
American democracy, the Capitol is arguably placed in a more 
exposed situation by the additional precautions taken to 
safeguard the President and the executive branch facilities.
    In contrast to the physical security provided to the White 
House and other installations, the Capitol complex relies 
primarily on a cadre of police officers to provide the barrier 
against terrorist attack and criminal intentions. To repeat, 
the officers themselves are the main line of defense and 
security for the U.S. Capitol.
    Because of the open nature of the Capitol complex, the 
access points to our buildings serve as both our first line of 
detection of a threat and the first line of defense and 
protection against that threat. It is for this reason that 
officer staffing at the entry points is such a critical issue.
    With regard to the number of sworn officers, a 1998 
security survey concluded that, given the nature of our 
mission, we were severely understaffed. This conclusion was 
supported by a separate analysis conducted by an independent 
auditor.
    Based on that report, the department was provided funds by 
the Congress to hire a first increment of 215 additional 
officers over a 2-year period. Once fully trained and deployed, 
these officers will allow us to increase our security posture. 
However, we will still not be able to meet a critical 
recommendation of this report, to staff all building access 
points with at least two officers. In order to fully meet that 
recommendation, which will increase both officer and security 
for the complex, we will need to increase our sworn FTE's by an 
additional 100 officers.
    The board has endorsed this figure and feels that it is 
justified, given the security threat and the task force 
recommendations. Therefore, we have requested funding for these 
additional officers in our budget submission.
    Recently the board and the department working in 
partnership developed the first strategic plan for the U.S. 
Capitol Police. We are committed to ensuring that every aspect 
of this plan is implemented and we will adhere to a structured 
time line to measure our progress and success.

                         FACILITIES MASTER PLAN

    I am pleased to represent that the Architect, working 
closely with the department, has completed the United States 
Capitol Police facilities master plan. Done at the committee's 
direction, the master plan addresses three major facilities 
that are critical to the mission of the department. They are 
the training facility, the vehicle maintenance facility, and 
the offsite delivery center.
    I am deeply concerned about the lack of adequate training 
facilities for the department. Currently the department must 
train in a suite of converted offices in the Ford House Office 
Building and a small amount of borrowed space at Anacostia 
Naval Air Station. Unlike other law enforcement agencies of a 
similar size and mission, the U.S. Capitol Police does not have 
outdoor firing ranges, space and facilities for tactical, 
protective, or officer safety survival training, or areas to 
support any kind of specialty training.
    Clearly, training facilities are needed to support the 
important and diverse missions of the department. Training is 
often cited as one of the most important responsibilities in 
any law enforcement agency. It serves three purposes: One, 
well-trained officers are better prepared to act decisively and 
correctly; two, training results in greater productivity and 
effectiveness; three, training fosters cooperation, unity of 
purpose, and overall department morale.
    The board has endorsed the facilities master plan and feels 
that it is imperative that the Architect is provided with the 
funding he requires to begin implementation before our ability 
to perform our mission is compromised.
    Finally, I would like to commend the men and women of the 
United States Capitol Police for continually performing their 
duty in a diligent and professional manner. We have come an 
awful long way since the days of the campus cops. The level of 
support and funding provided to the Capitol Police must be 
commensurate with the level and quality of service expected by 
Congress and the American people. The funds requested in this 
budget are intended to meet that goal.

                          PREPARED STATEMENTS

    I would also like to thank the committee for last year's 
and the year before's support that you have given, particularly 
in the security enhancement plan. It has been a tremendous 
increase for the Capitol Police in both some personnel and 
equipment. It was needed and I think this will help for the 
future security at the Capitol.
    [The statements follow:]
              Prepared Statement of Hon. Wilson Livingood
    Mr. Chairman and members of the Committee, I am pleased to appear 
before you today to present the fiscal year 2001 Budget Request for the 
United States Capitol Police.
    Mr. Chairman, before I discuss our proposed budget, I would like to 
acknowledge the service of Chief Abrecht. As you and the members of the 
Committee are aware, Chief Abrecht has announced that he will retire at 
the end of April. During his tenure, he has led this Department through 
significant change. The U.S. Capitol Police is not the agency it was 
eight years ago when he took over as Chief. Our mission has broadened, 
the threats we face have grown, and our capabilities have expanded. 
Chief Abrecht is credited with taking us into the 21st century and 
increasing the reputation and professionalism of the Department. The 
final phases of the professionalization of the U.S. Capitol Police were 
accomplished, in large part, due to his vision, leadership, and 
guidance. I will always be thankful for the strength and compassion he 
showed after the deaths of our two officers in 1998. He led the 
Department and the Congress through a difficult time and, most 
importantly, he always had the interests and needs of the surviving 
families and the members of the U.S. Capitol Police foremost in his 
concern. On behalf of the Board, I thank the Chief for his service to 
the Department, the Congress, and the American people.
    The budget submission for the U.S. Capitol Police for fiscal year 
2001 is $110,858,000, which is an aggregate 31 percent increase. Of the 
total request, $100,898,000 is for salaries and $9,960,000 is for 
general expenses. It should be noted that the largest part of the 
increase is for the annualization of salaries for the approved 260 
officers and civilians.
    In the past, we have testified before this and other committees 
regarding the security threat we face on a daily basis. The passage of 
time has only deepened our concerns. The greatest strength of the 
United States Capitol Complex, its openness and accessibility, is also 
its greatest weakness. We must stand ready to respond to a wide-variety 
of violent acts ranging from a lone gunman, a terrorist bombing, and a 
chemical or biological release. It is not a question of if a terrorist 
incident will again occur on U.S. soil, it is now a question of when 
and where. The United States Capitol was been the target of five 
attacks last century; three bombings and two shootings. In the most 
recent event, which occurred in 1998, two U.S. Capitol Police officers 
were murdered while defending the Capitol from a gunman. These and 
other incidents prove that we must be prepared to meet a constant, 
underlying threat to the Capitol Complex. All of these combined factors 
drive both our mission and our staffing requirements.
    In 1998, a comprehensive security survey was conducted of the 
entire Capitol Complex. A blue ribbon task force, comprised of security 
experts from five federal law enforcement agencies, was assembled to 
examine every aspect of our operations and make recommendations for 
improvement. The final report was used as the basis to request the 
additional personnel, equipment, and technology which were ultimately 
approved and funded by Congress. The schedule for bringing these 
projects on line is contained in the Security Enhancement Plan which 
was approved in February, 1999.
    I would like to inform the Committee on the progress we have made 
to date in implementing the various initiatives contained in the 
Security Enhancement Plan. With regard to our staffing increase, we 
have hired 167 new officers, the majority of which are still in various 
stages of training. It should be noted that once an officer is hired, 
it takes six months of training before that officer can be deployed to 
a field position. We will finish hiring the final complement of 
officers by the end of this fiscal year. In addition, we have filled 10 
new civilian positions, 17 positions are presently being filled, and 18 
positions are on hold pending committee authorization. Of the $25.2 
million provided for this effort, we expended $1.7 million for salaries 
and benefits and $7.1 million for overtime in fiscal year 1999. In 
fiscal year 2000, salaries, benefits, and the cost of living adjustment 
will amount to approximately $14.2 million.
    We have also made significant progress in upgrading the equipment 
used by our officers. The Security Enhancement Plan included 
approximately $9.7 million for this effort. We have measured 1,200 
personnel for custom-fitted soft body armor and have issued the new 
body armor to 740 members. We are experiencing a 20 percent return rate 
which is attributable to vendor error in measuring our personnel or in 
the manufacturing process. The vendor is replacing this armor at no 
cost to the Department. We anticipate finishing issuing all new body 
armor by the end of February. Additionally, 406 officers have been 
trained with and issued the new GLOCK 22 .40 caliber pistol. These 
weapons are being issued to our front-line officers first. We will 
finish the transition for all sworn personnel by the end of the year. 
We have also expended funds for uniforms for our newly hired officers 
and we are in various phases of purchasing eight new vehicles. We are 
currently examining emerging technology for our hand-held radios which 
meets both our requirements and Federal Communications Commission 
standards which become effective in the year 2005. We anticipate making 
a purchase of additional radios in the near future with the ultimate 
goal of assigning a radio to every officer. Finally, we are in the 
final stages of procuring bullet resistant podiums to be used by 
officers at building entrances.
    In the past few months we have deployed a significant amount of 
security technology in the field which is used by our officers. I am 
pleased to report that 62 new metal detectors have been installed at 
building entrances and we are awaiting delivery of another 20 units. We 
have also deployed 16 new back-scatter x-ray machines at various 
entrances. Additionally, 6 new large capacity back-scatter x-ray 
machines have been purchased and installed at the Off-site Delivery 
Center. These machines will enable us to more effectively screen 
deliveries to the Congressional buildings, including the House Office 
Buildings which were recently brought on-line.
    The Board and the Department have been moving expeditiously to 
implement the various provisions of the Security Enhancement Plan and 
we have made significant progress. However, many of these initiatives 
are long-term projects which incorporate emerging security technology 
or require capital improvements to our facilities. We will keep the 
committees of jurisdiction apprised of our progress.
    With regard to the number of sworn officers, the report concluded 
that, given the nature of the Capitol Complex and the magnitude of our 
mission, we were severely understaffed. This conclusion was supported 
by a separate analysis conducted by an independent auditor. As 
previously stated, the Department was provided funds to hire a first 
increment of 215 additional officers over a two year period. Once fully 
trained, these additional officers will allow us to increase our 
security posture. However, we will still not be able to meet a critical 
recommendation of the report to staff all building access points with 
at least two officers. In order to fully meet that recommendation, 
which will commensurately increase security and officer safety, we will 
need to increase our sworn FTE level by 100 officers. The Board has 
endorsed this figure and feels that it is justified given the security 
threat and the task force recommendation. Therefore, we have requested 
funding for these additional officers in our budget submission.
    Recently, the Capitol Police Board and the Department, working in 
partnership, developed the first Strategic Plan for the U.S. Capitol 
Police. This plan was built from the ground up through a succession of 
workshops, consultations with all managers, focus group input from all 
levels of the Department, and feedback from outside entities with a 
stake in the operations of the Department. This Strategic Plan 
represents an evolutionary step in the Department's development. In 
preparing this plan, we took a hard look at the Department, objectively 
identified its strengths and weaknesses, and plotted a course designed 
to ensure that it is a well-trained and robust organization, prepared 
for the future, and able to provide the best possible services to the 
community. One aspect of the Strategic Plan addresses the Department's 
financial management situation. We realize that there are major 
problems in our current financial management operation and we are 
actively working with the Committees and the General Accounting Office 
to rectify the situation.
    The success of the Strategic Plan, or any plan for that matter, is 
entirely dependent upon how well it is executed. The Board and the 
Department are committed to ensuring that every aspect of the plan is 
implemented and will adhere to a structured time line to measure our 
progress and success. We believe this budget submission reflects the 
first phase of our effort to address the issues identified in the 
Strategic Plan.
    Another issue that is very important to the Board and the 
Department is the condition of several facilities used by the police. 
The Architect was directed by the Committees to perform a study of USCP 
facility needs and develop a master plan to resolve this pressing 
issue. I am pleased to report that the Architect has completed this 
project and copies of the United States Capitol Police Facilities 
Master Plan have been forwarded to the committees of jurisdiction for 
review. The Master Plan addresses three major facilities which are 
critical to the mission of the Department. They are the training 
facility, the vehicle maintenance facility, and the off-site delivery 
center.
    Mr. Chairman, the capability, proficiency, and efficiency of an 
organization is dependent upon the level of training, knowledge, and 
skills of its personnel. The U.S. Capitol Police is no different. In 
fact, because of the complexity and diversity of its mission, the U.S. 
Capitol Police relies very heavily on providing high-quality training 
to its personnel on a myriad of operational, administrative and 
management functions.
    Currently, the U.S. Capitol Police does not have training 
facilities that are adequate to meet its diverse and important mission. 
All recruit and in-service training is conducted in two converted 
offices in the Ford House Office Building and a small amount of 
borrowed space at the Anacostia Naval Air Station. Unlike other law 
enforcement agencies of a similar size and mission, the Department does 
not have outdoor firing ranges, space and facilities for tactical, 
protective, or officer safety and survival training, or areas to 
support any kind of specialty unit training. Clearly, the current 
training facilities are woefully inadequate to support the mission of 
the Department.
    The vehicle maintenance facility, which supports the operation of 
over 100 police vehicles, consists of a single vehicle lift in a shed 
which sits in a coal yard in southeast Washington. This facility 
suffers from vermin and insect infestation, poor air quality, and lack 
of adequate space. These factors make this facility unsafe and 
unhealthy for the personnel who are assigned there and unfit to meet 
our fleet vehicle maintenance needs.
    Likewise, the off-site delivery center is housed in a converted 
warehouse which is inadequate to fully support the important nature of 
the security screening being conducted. This situation has reached a 
critical stage now that the House has been brought on-line for 
screening of deliveries which is intended to prevent the security risk 
associated with an explosive device entering a building loading dock.
    The Architect has been working diligently to address the facility 
needs of the U.S. Capitol Police. The Board and the Department have 
been and will continue to work closely with the Architect to resolve 
this important issue. The Board has endorsed the Master Plan and feels 
that it is imperative that the Architect is provided the funding he 
requires to begin implementation of the plan before our ability to 
perform our mission is compromised.
    I would like to commend the men and women of the United States 
Capitol Police for continually performing their duty in a diligent and 
professional manner. The responsibilities which rest on their shoulders 
are daunting. Each day, they must ensure the safety and security of the 
Congressional community and the thousands who visit these buildings by 
protecting them from acts of violence. In doing so, they allow the 
national legislative process to proceed unhindered. The level of 
support and funding provided to the U.S. Capitol Police must be 
commensurate with the level and quality of service expected by the 
Congress and the American people. This budget, and the funds requested 
by the Architect, are intended to meet that goal.
    In closing, I would like to thank the Committee for your approval 
and support of the Security Enhancement Plan. Your efforts, and those 
of the other Committees, have allowed us to make significant 
improvements to the level of security throughout the Capitol Complex. 
The remaining recommendations in the Security Enhancement Plan will 
serve as a blueprint for future improvements. A detailed budget for the 
U.S. Capitol Police has been submitted to the Committee. I will be 
happy to answer any questions you may have.
                                 ______
                                 
                 Prepared Statement of Gary L. Abrecht

    Mr. Chairman and members of the Committee, I am honored to appear 
before you today to discuss the fiscal year 2001 Budget Request for the 
United States Capitol Police.
    As you are aware, I have informed the members of the U.S. Capitol 
Police Board that I will retire at the end of April. I am proud to have 
had the opportunity to lead the Department for the past eight years. I 
am also proud that we have made significant strides during that time to 
complete the professionalization of the United States Capitol Police. 
That goal was set by Congress years ago and now, through your 
unflagging support and the hard work of our personnel, it has come to 
fruition. Together, we have met and overcome the challenge of 
transforming the U.S. Capitol Police into the agency its mission 
demanded. The challenge which lies before us now is ensuring the 
Department receives the continued level of funding and support required 
to sustain it.
    In 1998, shortly after the tragic murders of two of our officers 
and the bombings of the American embassies in East Africa, a 
comprehensive security survey of the Capitol Complex was conducted by a 
task force comprised of several federal law enforcement agencies. The 
task force made 450 recommendations, including staffing changes which 
would have resulted in over a 50 percent increase in our sworn 
personnel. Funding for the recommended security enhancements, which 
included a first increment of 260 police personnel, providing upgraded 
equipment to our officers, and obtaining state-of-the-art security 
equipment, was made available through Public Law 105-277.
    We have been aggressively recruiting qualified personnel for sworn 
positions and I am confident we will have met our goal of attaining the 
additional personnel stipulated in the Security Enhancement Plan by the 
end of this fiscal year, although a substantial number will still be in 
training and not available for deployment.
    The increase of officers we currently have onboard, as well as 
substantial usage of overtime, has allowed us to begin to implement an 
increased security posture throughout the Capitol Complex. Primarily, 
we have used the additional officers to staff as many access points as 
possible with at least two officers, which was a significant 
recommendation in the security survey. This level of deployment affords 
greater security to those who work and visit within the Capitol Complex 
and also enhances officer safety.
    However, even when we are able to fully deploy our total authorized 
sworn FTE level, we will still need an additional 100 officers to staff 
all access points at the recommended level. Therefore, we have included 
funding to hire that many officers in our budget request. These 
additional positions represent the continuation of the staffing 
increase which began in fiscal year 1999 and are crucial if the 
Department is to fully satisfy a critical task force recommendation of 
staffing all building access points with a minimum of two officers.
    The requested increase for salaries reflected in the fiscal year 
2001 budget submission is due primarily to these additional officers 
and to the annualization of the 260 FTE previously funded through the 
Security Enhancement Fund. The increase will also sustain the revised 
longevity rates, and differentials for Sunday, holiday, and evening 
shifts that were approved by the authorizing and appropriating 
committees in fiscal year 1999. The funding request for salaries will 
also cover the cost of the anticipated CY 2001 COLA and comparability 
pay, annualization of the CY 2000 COLA and comparability pay, and the 
associated costs of personnel benefits.
    Regarding general expenses, several issues have compelled us to 
request additional funding. Maintaining the proficiency and 
effectiveness of our operational and administrative personnel has 
become a significant concern due to the constantly changing environment 
and complexity of our mission. In order to ensure that they are able to 
meet the requirements of their duties, they must receive the knowledge 
and acquire the necessary skills through training. Also, in order for 
members to maintain mandatory certification requirements, they must 
complete continuing education and certification courses.
    The financial management system currently used by the U.S. Capitol 
Police is antiquated and has been a concern of the Board and the 
committees. Therefore, the Office of Financial Management has entered 
into a cross-servicing agreement with the General Accounting Office to 
migrate to the GAO accounting system. The GAO has estimated that the 
cost of this agreement would be $200,000. If approved, we will migrate 
to the GAO accounting system at the outset of fiscal year 2001.
    As you are aware, the Department currently receives support for 
computers and telecommunications from the Senate Sergeant at Arms. For 
the past several years there has been discussion among the Board and 
committees as to whether the management and accountability for these 
functions would be better served by having the Department budget for 
and administer these functions. If approved, the Department would 
reimburse the Senate Sergeant at Arms for these services. I would like 
to point out that should these amounts not be approved, they will need 
to be restored to the Senate Sergeant at Arms fiscal year 2001 budget.
    The final significant increase in the fiscal year 2001 budget is in 
the category of life-cycle replacement costs. It is essential to the 
operation of the Department that our officers utilize equipment that is 
modern and able to meet the demands of police and security work. 
Therefore, we have requested funding to methodically replace physical 
security systems, vehicles, and police equipment. The Department has 
been unable to adhere to a life-cycle replacement program, particularly 
with regard to fleet vehicle replacement, due to reprogramming and 
other funding restrictions in previous budget cycles.
    The final significant increase in general expenses is attributed to 
the need to modernize the information technology capability of the 
Department. This budget correlates information technology activities 
with the USCP Strategic Plan, the Information Technology Strategic 
Plan, and the IT Modernization Implementation Plan. We are moving 
forward with seed money that was provided to us last year. The 
requested increase will allow us to continue to address IT deficiencies 
and update our system through cross-servicing agreements, outsourcing 
contracts, and use of in-house personnel.
    My concern regarding the inadequacy of several police facilities to 
support the mission of the Department has deepened. Several facilities 
currently used by the Department can no longer support our mission. 
Others are in need of repair or expansion or relocation to another 
site. Another critical area is our lack of training facilities. I feel 
it is a testament to the commitment, resourcefulness, and dedication of 
our personnel to have achieved such a level of training and ability 
given the lack of any semblance of customary police training 
facilities. This issue strikes at the heart of my earlier statement 
regarding ensuring the support necessary to sustain our 
professionalization.
    Last year, the committee provided funding to the Architect to 
develop a comprehensive facilities needs assessment and space plan for 
the Department. The recently completed study, known as the United 
States Capitol Police Master Plan, addresses the long-term facilities 
needs of the Department in areas of training, administrative and 
security operations, and personnel support. I am pleased with the 
recommendations contained in the report and I request your favorable 
consideration of the Architect's funding requests to begin implementing 
the study's recommendations.
    In closing, I would like to thank the Committee for the guidance 
and support you have shown me. We each bear a significant 
responsibility to the public in determining what level of security 
should be afforded to the Legislative Branch. I am proud to have led 
such a dedicated and professional group of men and women for the past 
eight years. They provide a valuable service each and every day under 
difficult conditions. It is my hope that Congress continues to ensure 
the Department remains strong and viable because to do so is in the 
best interest of both the institution of Congress and the American 
people.

    Senator Bennett. Thank you very much.
    Does any other member of the board have any comment at this 
point before we go to questions? Mr. Ziglar.
    Mr. Ziglar. Mr. Chairman, I would just like to reflect on 
your comments and the chairman's comments with regard to Chief 
Abrecht. The Chief's many accomplishments have been nicely 
outlined, but I would add that he is a man of great integrity 
and that I have come to appreciate him both as a professional 
and as a person, and I think that his integrity is going to be 
something that we will remember for a very long time.
    Senator Bennett. Thank you.
    Mr. Hantman.
    Mr. Hantman. I certainly make that unanimous, Mr. Chairman. 
Chief Abrecht has been a strong leader for us and really set 
the tone, as you well pointed out earlier on, to change this 
into a really professional police organization, and we are 
hoping to build on that foundation.
    Senator Bennett. Very good.
    You all heard Senator Campbell's comment. Before I turn it 
over to him for specific questions, does anyone wish to address 
the issue that he raised in his opening comment?
    Mr. Abrecht. If I could just make a few other comments 
perhaps to the chairman, and then I will be glad to address Mr. 
Campbell's concern----
    Senator Bennett. Yes.
    Mr. Abrecht (continuing). Much of which I share.
    First, I would like to thank you for your gracious 
comments, and the board as well. It has been a great ride these 
past 8 years. I do believe we have gotten some things 
accomplished, though not everything we would have wanted to. 
But I would especially like to thank you and particularly your 
staff for the support you have given to the department during 
that time.
    We have made mistakes and we have had to go to ask for help 
from your staff in particular. We have always been well 
received and given the assistance we needed to straighten out 
whatever problems we have had, and a sympathetic ear. I will 
always remember the support that your committee has given to 
the department.
    Senator Bennett. Thank you.

                       AMERICAN-MADE MOTORCYCLES

    Mr. Abrecht. To address Mr. Campbell's question, we have 
indeed done the study of the availability of American-made 
motorcycles in the general size range that we are interested 
in. We really do feel that the large Harley-Davidson type 
motorcycle, of which we have the three that you mention, is 
suited for part of our mission. But we really have two missions 
up here. We have a road type of mission, the escorts, but we 
also have a mission to patrol the little parks around here, to 
get in and out of the garages to check them, which is 
essentially, what we would consider a mobilized type of foot 
patrol.
    The ability to get in and out of those parks in a more 
rapid way, to patrol parking lots, we do feel that those very 
large motorcycles are not the most appropriate for that. So 
what we have been looking for is an American-made smaller, but 
not small, motorcycle, really nothing the size of the small 250 
Hondas that we have a large number of, but looking for 
something in between, shall we say.
    We have identified--it is brand new--a new American-made 
motorcycle. It is about 800 cc's. We have asked for one to be 
sent to us for testing and evaluation, and we are hopeful that 
that will be the ultimate solution to our motorcycle needs, 
sort of halfway, if you will, between the small motorcycles and 
the very large ones, which we do not think are suitable for 
driving on pedestrian walkways in the parks, which are a pretty 
critical part of our mission.
    The Senate side in particular has a lot of park area, a lot 
by Capitol standards. They have quite a bit of ground that we 
have to be able to cover, and a small motorcycle is very 
suitable for that.
    We probably could use a small number of additional large 
bikes for doing the roadway patrol as well and the escorts and 
that sort of thing. So I do not think that there is great 
disagreement. I am not sure we need a very large fleet of full 
sized pursuit type motorcycles that the State police might use, 
but we do need to modernize our fleet of intermediate sized 
bikes.
    Senator Bennett. Senator Campbell.
    Senator Campbell. Thanks, Mr. Chairman.
    Just so there is no misunderstanding, Chief, to my 
knowledge there are 16 American manufacturers of American 
motorcycles, 16 of them. Of those, about four or five, 
including one that you are familiar with, Mr. Chairman, make 
lighter weight American-mades. Some are composites, they are 
American made with foreign engines. Some are all American. 
There are a whole bunch of them out there to choose from.
    But let me ask you----
    Mr. Abrecht. We really have not been able to identify. We 
keep having this disconnect. If you could provide that 
information, we would love to talk to you.
    Senator Campbell. I can. I will get a list of them in fact, 
so we will be happy to do it.

                          AREA OF JURISDICTION

    Let me just ask you a couple of a little more general 
questions. Was the area of jurisdiction for the Capitol Police 
increased after the tragic deaths of the two officers?
    Mr. Abrecht. No, sir.
    Senator Campbell. It was not. It covers now what, about a 
six city block area? It goes down to New Jersey part way? What 
is it? What are the grounds?
    Mr. Abrecht. There are basically two levels of 
jurisdiction. We have a primary jurisdiction, which is shown in 
the red lines on the map that Lieutenant Nichols is showing 
here. We are responsible for providing police service, we are 
the sole responding police agency, in that area.
    Senator Campbell. You are the sole respondent in that area, 
okay.
    Mr. Abrecht. Yes, we have the only jurisdiction in that 
area. The green line, which is the area you are perhaps 
referring to, is what we call our extended jurisdiction.
    Senator Campbell. And you cooperate with the D.C. Metro in 
that area?
    Mr. Abrecht. Yes, the D.C. Metropolitan Police Department 
has the primary responsibility for providing police service in 
that area.
    Senator Campbell. You act as backups?
    Mr. Abrecht. We support them to the extent that we can, and 
we have a number of Congressional facilities located in that 
area, so we have business out in that area on a fairly regular 
basis. But we do not undertake to patrol that area for the 
prevention of crime.
    Senator Campbell. Well, the green area is certainly a lot 
bigger than the red area, both of them are too darn big for a 
person on foot or a bicycle to get to in a hurry; is that 
correct? Which means you cover most of that area in a car 
whether you were backup or the primary responding department.
    Mr. Abrecht. We cover that area with a wide variety of 
patrol mechanisms. We do use bicycles quite a bit and have 
found those effective. We use cars and we do have some officers 
on foot, but most of the foot patrols are pretty localized 
around the buildings.
    Senator Campbell. And do you do some traffic stops? For 
instance, I know and I think the chairman knows, too, every 
time you step across the street to the Russell Building you are 
taking your life in your own hands, because in this town yellow 
means go like the blazes, not slow down, as you probably know.
    Well, if there is a policeman standing there at the corner, 
he is authorized, I assume, to do a traffic stop, is he not, if 
there is some running of lights or some routine violations?
    Mr. Abrecht. Yes, foot men can stop a car to the extent 
that he can do so on foot.
    Senator Campbell. How does a foot man stop a car if he does 
not want to stop?
    Mr. Abrecht. We use the patrol cars primarily.
    Senator Campbell. The policemen I see out on the corner 
sometimes, they are on foot, most of them. Once in a while 
there will be a motorcycle parked there, sometimes a bicycle. 
But most of the time they are on foot when they are directing 
traffic.
    Mr. Abrecht. That is correct.
    Senator Campbell. If a car is going to run the lights, it 
would seem to me pretty unlikely they are going to stop. I 
mean, what do you do, run down the street and yell at them?
    Mr. Abrecht. The officer directing traffic should not leave 
his post.
    Senator Campbell. Which means they are just going to keep 
on going. You could not go after them if you wanted to 
generally.
    Mr. Abrecht. Generally speaking.

                            FLEET EXPANSION

    Senator Campbell. Let me go on. Last year we had $103,000 
in existing funds put in the budget, as I remember, to expand 
that fleet. What happened to that $103,000?
    Mr. Abrecht. That is this current fiscal year. There is no 
money allocated for this purpose. We were allowed to expend 
from the security enhancement fund, it is my understanding, up 
to $103,000 for that purpose. We have not done so as of now. As 
I say, we have just identified this potential vehicle. 
Obviously, if you have some other ones that might work that 
would be even better so we have a choice to go from.
    We do hope to purchase some motorcycles this fiscal year.

                              MOTORCYCLES

    Senator Campbell. Let us talk about motorcycles again. Can 
you tell me what, or the committee, what types of stops can a 
policeman on a motorcycle do when he has no lights or siren? 
And those little things you are using, I do not think they 
develop enough power to fully equip----
    Mr. Abrecht. That is clearly not their primary purpose.
    Senator Campbell. The choice you have, you can have all the 
equipment on them and it will not run, or you can run without 
any ability to be able to make a traffic stop. So what kind of 
stops can they make?
    Mr. Abrecht. We do not encourage the officers on the small 
motorcycles to make traffic stops. That is not their primary 
purpose. Their primary purpose is to patrol in the garages, in 
the parks, for deterrence of crime and for visibility and that 
sort of thing.
    We do have a fairly substantial marked fleet of cars and 
the three large motorcycles, which do do traffic enforcement. 
Obviously, there is a balance as to what our activities are. I 
am fairly comfortable that we are doing quite a lot of traffic 
enforcement, about as much as we need to do for the situation 
up here, and that the primary purpose of our force is to 
protect the Congress and the Capitol against things like 
terrorism. So I really do look for them to be out there 
observing, watching for criminal kinds of things.
    Senator Campbell. It has been my observation that whenever 
an incoming head of state visits the Capitol we always call the 
Park Service to escort. Is that correct?
    Mr. Abrecht. No, we do not call the Park Service.
    Senator Campbell. You do not call the Park Service.
    Mr. Abrecht. Heads of state are protected by the Secret 
Service. They bring the motorcade to the Capitol. We typically 
put a vehicle in front and a vehicle in the rear as they hit 
the Capitol grounds, bring them onto the grounds. Or often we 
will meet them at their last rendezvous location if they are 
coming from the White House or the State Department.
    Senator Campbell. Meaning an automobile you put in the 
front?
    Mr. Abrecht. An automobile or a motorcycle--we use both.
    Senator Campbell. Well, do not put those little things.
    Mr. Abrecht. No, we would not use them. We would use the 
Harley-Davidsons for that.
    Senator Campbell. I would not want those foreign 
dignitaries laughing at us, frankly.
    Mr. Abrecht. Most of the escorts we do are to Andrews for 
CODEL's, outgoing CODEL's.
    Senator Campbell. The ones that you are using are the 
three, I guess it was, that we got in 1994.
    Mr. Abrecht. That is correct.
    Senator Campbell. Which ought to have about 50,000 miles on 
them by now and ought to probably be turned in.
    Mr. Abrecht. I do not know what mileage they have on them. 
One of the problems we have in our fleet in general is we have 
life cycle replacement problems with our fleet. Funding has not 
kept up with the aging of the vehicles.
    Senator Campbell. If I might add, that fleet you have got, 
we call them throw-away motorcycles. You cannot get 10 cents 
out of those things when they are done. That is the advantage 
of the American ones. They cost more, but the return you get 
when you resell them.
    Mr. Abrecht. That is true.
    Senator Campbell. American-made, as you probably know, 
Chief, American-made police motorcycles, they sell 3 years 
later for almost the price you pay for them brand new.
    Mr. Abrecht. That is correct.
    Senator Campbell. Those things are just I mean literally up 
for grabs by collectors and people on the street, because they 
know they have been maintained and they know they are American 
made, I guess, because they always hold their value. You do not 
have to throw them away.

                            SAFETY UPGRADES

    Maybe just one last question, Mr. Chairman. That is, as I 
remember we did appropriate an additional $106 million last 
year for safety upgrades that you mentioned. Did the majority 
of that go to the 215 additional hires that Mr. Livingood 
talked about?
    Mr. Abrecht. No, about a quarter of it did. About a quarter 
of it went for what is known as task one in the security 
enhancement plan, which is manpower, additional officers.
    Senator Campbell. What percent went to rolling equipment, 
do you know?
    Mr. Abrecht. None of it went to--no, that is not true. 
There were about eight additional vehicles, I believe is my 
recollection, in the security enhancement fund, primarily 
specialized type vehicles.
    Senator Campbell. Emergency equipment, that type of stuff, 
rather than just squad cars?
    Mr. Abrecht. Six of them were for K-9 vehicles because the 
size of the K-9 force has been increased. Those have not yet 
been purchased. Then there were vehicles for transporting anti-
chemical and biological warfare equipment and a specialized 
vehicle for the technical security unit to do more work in 
terms of preventing explosives, things of that nature.
    They are special purpose vehicles rather than routine 
patrol vehicles, except for the K-9 vehicles, which are routine 
patrol type vehicles.
    Senator Campbell. Well, thank you for that, Chief.
    Thank you for letting me sit in, Mr. Chairman. I want to 
tell you that I am not going to let go of this thing, but I am 
going to rag it until we get rid of those pieces of junk 
because I think they are an eyesore for the millions of people 
that come to our Capitol. This place is supposed to be the 
capital of the free world, not just this country, and that 
means, it seems to me, that not only functional use but 
appearance is important, too.
    We have millions of visitors from all over this world come 
here. I do not want our police laughed at, it is as simple as 
that.
    So hopefully we will get it in the budget to buy American-
made equipment, just as we do cars, motorcycles too. If we do 
not, I am going to be back here every year until we do, Mr. 
Chairman. And I thank you for letting me sit in.
    Senator Bennett. Thank you very much. Your tenacity is well 
known and I think appropriately noted here. We appreciate 
Senator Campbell's calling this to our attention last year and 
his demonstrated follow-up by being here this year.
    One of the buzz items around the Capitol has to do with the 
television program that ran on Channel 9, the story about the 
lack of progress in implementing the $106 million worth of 
security upgrades that was funded. I do not always believe 
everything I read in the papers or everything I see on the 
television, but, being a politician, I have to respond because 
my constituents pay attention to what they read in the paper 
and what they see on television, and I think the constituents 
of the Police Board do the same.
    So I raise that and ask if anyone would like to make a 
statement about the Channel 9 story. I am sure I do not need to 
explain what Channel 9 ran. I am sure you are all very familiar 
with it. So does someone wish to?
    Mr. Abrecht. I guess I will.
    Senator Bennett. Yes, Chief.
    Mr. Abrecht. There were a number of tasks in the security 
enhancement plan. The one that drew the most attention was the 
hiring of the 260 additional members of the department, of 
which 215 were to be sworn positions. We have actually made 
great progress on that. The problem, of course, is that from 
the moment you start hiring police officers until they are 
actually deployed in the field takes a tremendous amount of 
time, as Senator Campbell well knows. Training for police 
officers begins with 6 months just of classroom training. We 
tack on 6 weeks beyond that of field training to make sure that 
the officers are fully familiar with the Capitol complex.
    We are on schedule for hiring those 215 sworn positions. By 
the end of this fiscal year they will all be on board. They 
will not all be deployed even then because a substantial number 
of them will still be in training as they work their way 
through the pipeline.
    We have deployed 64 so far, who are actually out supporting 
the mission. There was also substantial funding in that portion 
of the security enhancement plan for overtime, which we have 
been using to try and get a visible presence out there, an 
additional presence in the field in the interim as we bring the 
new officers on board. So the program in that area is well 
along.

                     PHYSICAL SECURITY IMPROVEMENTS

    The other larger amounts in the security enhancement fund 
are for physical security improvements, and many of those are 
moving along. They are all on schedule and they are moving 
along right along the schedule and time lines that have been 
provided to the committee.
    A lot of these things are quite complex and require a lot 
of design and development before they are actually installed. 
That design is on schedule and within the next few months you 
are going to start seeing considerably more actual installed 
base that will make it very clear to everybody that the program 
is in fact producing the results that are anticipated.
    Perhaps one of the other areas I could just mention is the 
equipment for the officers. Another task, I believe it was task 
7, provides for new bulletproof vests for the officers and new 
firearms. Those are also well along. Over 700 officers now have 
the new vests; 400 have transitioned to the new weapon. So we 
are well along, although obviously we have not completed it 
yet, as it was anticipated it would take 2 fiscal years.
    The funding was for 2 fiscal years for personnel, but for 5 
or 6 years in fact for physical security improvements, and many 
of those--as we know, building anything takes an awful lot of 
time and planning to make sure it is done right, particularly 
in this monumental environment around here. The Architect 
demands, correctly so, that we not damage the majestic 
environment here, that when we run things we do it with a great 
deal of care, and we have to coordinate with him to make sure 
that none of the monumental parts of the buildings are damaged 
by the work we are doing.
    Senator Bennett. Anyone else want to make a comment about 
the Channel 9 story?
    Mr. Ziglar. Mr. Chairman, the Chief I think has laid it out 
very well. As we all know, sensationalism sells, and there is a 
lot of sensationalism in that. It frankly did not reflect the 
facts, nor was it a very realistic understanding of what it 
takes to turn a battleship or turn an aircraft carrier.
    I think there have been things that we could have done more 
quickly possibly. We could have spent maybe less time 
evaluating the vest. But the fact is that we gave our officers 
an opportunity to experiment with all the vests that were 
available out there and they picked one that they thought was 
the best. From that, they are quite happy with the new vest.
    The new gun had to be evaluated in ways that, for example, 
you do not have in a different environment. We have folks 
carrying guns in the Capitol and accuracy and the kind of 
bullets that you can use and things like that are quite 
important. So we had what we think is a very scientific and 
thorough analysis of which gun to use, and those have been 
selected and are being deployed.
    As the Chief pointed out, the vest will be fully deployed 
by the end of this month. We have new X-ray machines, new 
magnetometers, things that people do not notice, but they are 
by far more sensitive; a number of other things, locking 
devices that will be put up on the doors, are being deployed 
now.
    We are doing our best to hire as many qualified officers as 
we can, and there is competition all over, but we are getting 
the best and the brightest. It does take a long time to train 
these folks.
    But all that said, Mr. Chairman, I think it is also 
important to note that the staffing studies that were done with 
regard to security in the Capitol recommended 776, I think was 
the number, additional new officers to be hired. The Congress 
authorized 215; 215 when fully deployed, assuming that we have 
also replaced any officers that we lose on the basis of 
attrition, still will not get us to the point where we can 
fully staff every entrance point with two officers. We still 
will have to use excess overtime to do that.
    That is why our budget request--I am probably getting ahead 
of myself--our budget request this year is asking for 100 
additional officers, which will get us up to a complement that 
will allow us to have two officers on every door by the time 
that they are fully hired and deployed, and I think that is in 
2002 best case.
    I personally, Mr. Chairman, have a very active interest in 
this issue. I do believe that any situation where you have one 
officer on an entry point to a building is like having somebody 
there as a sitting duck because you do not have any backup. I 
think that is a high priority issue.
    So I think the Bruce Johnson piece was distorted and unfair 
in many respects, but sensationalism sells.
    Senator Bennett. Mr. Livingood.
    Mr. Livingood. Mr. Chairman, I would just like to back up 
and agree with what Mr. Ziglar said, and that, particularly in 
the security enhancement plan, it has been a little slow 
because we had to install and design infrastructure, meaning 
electricity, to certain spots. There is cable installation and 
an awful lot of things that you do not see immediate results. I 
think we are on track and moving ahead now, but there are quite 
a few things that we have accomplished.

                                MANPOWER

    I'd like to just reiterate what Jim said, and particularly 
the manpower situation. I come from an agency prior to this 
life, another life, the Secret Service, where we looked at this 
very carefully all the time, the number of people on posts and 
on assignments. I feel very strongly that we are inadequately 
staffed to man some of these posts and some of the doors, our 
first line of defense.
    We do not have the fence that the White House has. We do 
not have that luxury. Our first line of defense is right there 
at the door, and one person cannot do it, as Jim said, and we 
need more assistance for the officers and for the Capitol 
itself and the House and Senate buildings at these locations.
    That is why our request is more than in the past, and we 
look for support for that area.
    Senator Campbell. Mr. Chairman, may I ask one?
    Senator Bennett. Yes.
    Senator Campbell. When you get the full complement of the 
additional officers that you need, what will be the total 
complement? What will be the total number for the Capitol 
Police Department?
    Mr. Abrecht. About 1,500 sworn.
    Mr. Ziglar. Are you talking about with the additional 100 
that we are asking for today?
    Senator Campbell. Right.
    Mr. Ziglar. Assuming we got those?
    Senator Campbell. Plus the ones that we have already 
authorized, what would it be? 1,500 sworn? When you have that 
many more manpower, do you also need support paraphernalia, 
bigger dressing rooms? I do not know.
    Mr. Abrecht. Yes.
    Senator Campbell. Things that go along with just simply 
more bodies.
    Mr. Abrecht. Absolutely, and the security enhancement plan 
provides that.
    Senator Campbell. It is factored into the security 
enhancement?
    Mr. Abrecht. Improving locker rooms. Indeed, we intended to 
use some of the personnel--remember I said there are 215 sworn. 
There are also 45 civilians in that 260, and that is because we 
well understand that our administrative infrastructure in the 
department is quite fragile. We have sought to use some of 
those positions to improve our financial management, improve 
our human resources in particular, in order to support the men 
and women who are out there doing the baseline job.
    The Senate side has been very supportive of that initiative 
and has approved the authorization of those positions and we 
are still in considerable debate with the House committees to 
get them to authorize those positions, which are really holding 
up the development of our infrastructure unfortunately.
    Senator Campbell. Thank you, Mr. Chairman.
    Mr. Ziglar. Mr. Chairman, could I comment on what the Chief 
has just said?
    Senator Bennett. Surely.
    Mr. Ziglar. We would greatly appreciate anything that any 
of you folks on the committee could do to prompt the House to 
release some of these positions on the administrative side. As 
you know, I am a businessman by background and my focus 
primarily has been at the police department on the management, 
financial management, human resources, and the technology side. 
And we have some difficult problems over there in terms of the 
management structure and the ability to do the job that is 
necessary.
    We are being hampered by the House's refusal to release 
some very critical spots in order to do that. I have actually 
deployed a number of people from the Senate Sergeant at Arms 
operation to help with that. I have out of my executive staff, 
I have two people that do nothing now but work on police issues 
over there helping them. I do not mind doing that, but at some 
point that does not make sense. You cannot bootstrap this.
    So anything that you can do to urge the House to help us I 
think would not only avoid embarrassing mistakes in a business 
context, but also would do a great deal for the morale of the 
police officers on the beat, who do not see the services that 
they deserve to have in the human resources context or 
reimbursement, payroll context that we all know in the business 
world are things that you pay attention to when you have 
employees.
    Senator Campbell. The chairman will just go over and tell 
them.
    Mr. Ziglar. Will you?
    Senator Campbell. The chairman will.
    Mr. Ziglar. I will tell you what, Senator. We will give you 
a Harley and you ride over.
    Senator Campbell. With that, I better go to my next 
appointment, Mr. Chairman.
    Senator Bennett. Mr. Livingood, do you want to respond?
    Mr. Livingood. It started way back even before the increase 
in the size of the Capitol Police. They needed assistance in 
the infrastructure, particularly in the financial management 
area and some in the human resources, as well as the 
information technology. And we have been working toward that 
end for some time, with the strategic plan and the study by the 
Booz Allen audit firm which really brought this to light even 
more so, particularly with the increase in the size of the 
Capitol Police.
    We submitted it to committees and it is being discussed by 
the committees, and we are working with them. But we need the 
people. We need more people and we need experienced, 
experienced people, and some training in security areas.
    Senator Bennett. Well, historically this committee, this 
subcommittee, has been more generous than the House 
subcommittee on all aspects of legislative branch 
appropriations, and I suppose we will be again.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you very much. We appreciate your testimony and 
appreciate the information you have provided to us. If we have 
any further questions, we will be in touch with you in writing.
    Mr. Livingood. Thank you, Mr. Chairman.
    Senator Bennett. Thank you. And again, Chief Abrecht, thank 
you very much for your work.
    Mr. Abrecht. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Board for response subsequent to the 
hearing:]

            Questions Submitted by Senator Robert F. Bennett

                 PURCHASE OF AMERICAN-MADE MOTORCYCLES

    Question. Please provide the Committee with a copy of the recently 
completed report on the options available for the purchase of American-
made motorcycles.
    Answer. The Department is continuing its effort to identify an 
American made motorcycle that meets its criteria for patrolling parks, 
garages and open spaces within the Capitol complex. A final report has 
not been completed, as the Department is awaiting the opportunity to 
test and evaluate at least one domestically manufactured motorcycle 
that potentially meets its specifications. Additionally, the Department 
is contacting sixty motorcycle manufacturers and dealerships identified 
in consultation with staff. The results of this initiative will be 
incorporated into a final report for Committee review.
                    perimeter security improvements
    Question. The Committee recently received a report on the status of 
the Capitol Square perimeter security improvements project which 
indicated the construction documents would be completed in May, with 
construction completed in 3 years. The perimeter security improvements 
for the Senate office buildings was approved a year earlier than the 
Capitol Square project. What is the status of that project?
    Answer. The Request for Proposals for the Senate Perimeter Security 
project were sent out the first week in February 2000. A pre-proposal 
site visit and walk through with potential contractors occurred on 
February 16th. Proposals are to be delivered and opened March 9th, 
2000. The proposals will then be evaluated, and after negotiations, an 
award will be made. Assuming that no significant complications arise 
during the evaluation or negotiation process, an award is scheduled to 
be made in mid-April 2000.
    Construction should begin on site at the first intersection (New 
Jersey and C Street, N.W.) about mid-May, pending the receipt of the 
necessary documentation, including bonds, and continue through the four 
phases of the project. There is scheduled 365 day duration for the 
work. The $2.9 million preliminary estimate on this project has been 
slightly revised in the final estimate from RTKL to $3,125,000. We 
anticipate being able to award the work by using bidding options 
available in our contract documents during the contract negotiation 
process.

                           TRAINING FACILITY

    Question. The Police have recently completed their master 
facilities plan and their strategic plan and seem to have a clearer 
picture of their needs now and into the future. I understand that you 
were looking at the possibility of partnering with the State Department 
for a training facility in Indian Head, MD. Could you explain what has 
come of that proposal?
    Answer. The Department continues its collaborative effort with the 
State Department to locate a site conducive to satisfying the training 
needs of both agencies in addition to the needs of the Library of 
Congress, Supreme Court and GPO police forces. Discussion continues 
with representatives from the Indian Head Naval Warfare Center, 
although it appears the site originally considered by the Board for the 
joint training facility is no longer available. Other areas within the 
Indian Head installation are being examined, as are areas at the 
Anacostia Naval Air Station and Quantico, Virginia.

              LIBRARY OF CONGRESS SECURITY AND MAINTENANCE

    Question. Please provide status of security and maintenance for the 
LOC.
    Answer. Consistent with Public Law 105-277, the Capitol Police 
Board exercises its responsibility for design, installation, and 
maintenance through an oversight, approval and coordination process 
regarding all plans for changes in the physical security systems and 
equipment for the LOC. The Capitol Police serve in an advisory capacity 
for the LOC as outlined in the Memorandum of Understanding (MOU) 
between the USCP, LOC and AOC. As such, the LOC coordinates with the 
USCP Physical Security Division (PSD) to maintain continuity and 
consistency of security system design, procurement, installation and 
operation. The installation and maintenance of security equipment for 
the LOC is still the responsibility of the Architect of the Capitol. I 
have included a copy of the MOU for the record.
    Question. How does this relate overall to security on the Capitol 
grounds.
    Answer. The support that the Capitol Police provides to the LOC 
ensures that the equipment and systems purchased for the perimeter 
security at the Library of Congress is compatible with the equipment 
purchased for the Capitol complex. It will also allow for the future 
interoperability of physical security systems at the LOC and with the 
physical security systems of the Capitol complex.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

      CAPITOL POLICE REVIEW OF SELECTED ADMINISTRATIVE PROCEDURES

    Question. Booz-Allen conducted a management review of selected 
administrative procedures of the Capitol Police a little over a year 
ago. They identified several areas of deficiency in the administration 
and operation of the Capitol Police Board. Would you update the 
committee on the status of the Board's improvement plan which stemmed 
from that deficiency report? Are there any critical functions of the 
department which still have not been satisfactorily addressed?
    Answer. Booz-Allen made three overarching recommendations:
    1. The USCP should reorganize and establish a new position of 
Assistant Chief of Police for Administration.
  --All infrastructure support functions have been consolidated under 
        the Deputy Chief of Police for Administrative Services to 
        ensure a fully integrated administrative infrastructure to 
        support the core mission.
    2. The USCP should develop a strategic plan for infrastructure 
support.
  --The USCP has developed and implemented an overall strategic plan 
        that incorporates the necessary strategic elements for 
        infrastructure support functions.
    3. The infrastructure support organizations of the USCP should 
develop and execute a plan for reviewing, documenting, and distributing 
policies and procedures for all support activities.
  --A complete overhaul of the Department's system of directives and 
        manuals will be accomplished in conjunction with the execution 
        of the strategic plan, including those of the infrastructure 
        support organizations reviewed by Booz-Allen.
    Booz-Allen also made a total of 26 detailed recommendations in the 
areas of financial management, human resources management, and 
information technology management.
  --Each of those recommendations was addressed in the Department's 
        overall strategic plan. In particular, we are prioritizing our 
        attention on the need for improved financial management through 
        systems and personnel. We are on-track with the planned 
        migration of our accounting systems to the GAO and plan to be 
        operational at the outset of fiscal year 2001. As you are 
        aware, the antiquated system currently in use has been 
        unreliable and labor intensive and has led to significant 
        failures in our ability to manage funds. In addition, we are in 
        need of the five positions for financial management that were 
        identified in our staffing proposal for the Security 
        Enhancement Plan.
  --The overall strategic plan includes an implementation schedule that 
        assigns responsibility for completion of tasks, completion 
        dates, and review frequencies.
  --With the exception of tasks related to the hiring of infrastructure 
        support personnel, tasks outlined in the plan are on schedule 
        and will be completed on or before January 1, 2002.
  --Those tasks related to the hiring of infrastructure support 
        personnel were scheduled to begin on November 1, 1999, and be 
        completed by April 30, 2000. Work on these tasks will begin as 
        soon as the relevant positions have been released and will be 
        completed within the six-month time frame originally scheduled.

                   ASSISTANT CHIEF OF POLICE POSITION

    Question. Last year, you talked about creating a position for an 
Assistant Chief of Police for Administration, with a strong managerial 
background in order to bring more efficiency to the administrative 
functions for the organization. Has that been done?
    Answer. The administrative functions of the department have been 
consolidated under a Deputy Chief for Administration. This has enhanced 
the Department's ability to communicate more effectively with the 
operational units and has fostered efficiency among the administrative 
units. Additionally, the department is currently creating a separate 
budget office from the Financial Management Division which will allow 
more attention to areas that have been understaffed in prior years.

                        ADMINISTRATIVE PERSONNEL

    Question. Do you feel that the current number of administrative 
personnel is sufficient to meet the demand of providing support for an 
increased police force?
    Answer. No, there is an urgent need to fill critical administrative 
positions. For nearly a year, the department has been operating without 
the 14 administrative positions that were requested in the staffing 
proposal for the 260 positions authorized in the Omnibus supplemental 
in 1999. We continue to work with the oversight committees in the House 
of Representatives to gain approval to fill these positions.

                         ADMINISTRATIVE SUPPORT

    Question. Last year's Booz-Allen study described the administrative 
support of the department as ``fragile'' and unlikely to be able to 
adequately support services in the future without changes in strategy. 
Has this ``change in strategy'' happened?
    Answer. As previously cited, the ``overarching'' recommendations of 
the Booz-Allen report called for a strategic plan, policies and 
procedures, identification of skill sets, and improved automated 
systems. Along with the organizational changes, each of these 
recommendations has been addressed in the Department's strategic plan 
with milestones and time tables for completion.

                          FINANCIAL MANAGEMENT

    Question. The Booz-Allen report was also critical of the financial 
management aspects of the department, noting that they did not possess 
or have access to an efficient and effective financial management 
system. This has caused serious problems with being able to effectively 
manage and control funds. There continues to be concern expressed by 
members of the rank-and-file. What has been done in the past year to 
improve the situation with your financial management?
    Answer. The Department has been planning for several years to 
migrate its accounting system to the GAO through a cross-servicing 
agreement. The Booz-Allen recommendation endorsed this approach. During 
the past year, preliminary testing was completed and a cross-servicing 
agreement with the General Accounting Office established. A migration 
team comprised of personnel from both agencies has been working toward 
a completion date of October 1, 2000. This effort has been slowed 
somewhat by the lack of additional personnel as well as the impact of 
the workload created by the omnibus supplemental appropriation of $106 
million.

                            TRAINING PROGRAM

    Question. Some of the department's sworn personnel have recently 
expressed frustration with the slow process of your training program. 
We realize that part of the problem with that is the lack of adequate 
training facilities, and we hope something can be done to address that 
problem in the near future. But, I would like to know that steps the 
Board has taken itself to pursue temporary alternatives, such as the 
use of independent contractors to provide training at outside 
facilities, or collaborative efforts with other federal agencies who 
have similar training needs. Would you share with the committee some of 
your ideas for addressing the department's training needs?
    Answer. Frustration with the slow process of the Department's 
training program most likely refers to the on-going 40 hour in-service 
training program which includes, as a major component, firearms 
transition training to the new .40 caliber Glock semi-automatic pistol. 
While more than a third of the Department has completed the 
transitional firearms program, inadequate firearms range space has 
contributed to the slow process, as Department personnel must utilize 
the small, eight point in-door range in the Rayburn House Office 
Building. The Capitol Police have taken steps to expedite this program 
by running two shifts of training per week and expect to complete the 
program by the end of this year. We would note that officers who have 
completed the training program have been enthusiastic in their praise 
of its content, delivery and rigor.
    The Board has diligently pursued alternative firearms range sites 
that would permit the Capitol Police to expedite its transitional 
training program. For the past ten months, the Board has collaborated 
with the State Department to locate a site conducive to satisfying the 
training needs (including firearms training) of both agencies in 
addition to the needs of the Library of Congress, Supreme Court and GPO 
police forces. Earlier attempts by the Board to secure firearms ranges 
at Fort Meade for Department use were unsuccessful. Most recently, the 
Board initiated discussions with the Marine Corps to determine costs 
associated with utilizing outdoor pistol and rifle ranges at Quantico.
    The long term solution to the Department's training facility needs 
has been comprehensively described in the United States Capitol Police 
Master Plan which was forwarded to the Committee for its review this 
past December. The ideal site for a training facility would be land 
owned by the federal government within a reasonable distance to the 
Capitol that provided sufficient space to build firearms ranges, 
academic classrooms and practical exercise areas that could be shared 
by a number of local federal law enforcement agencies. To this end, the 
Board has visited several military installations in the metropolitan 
area to determine the feasibility of developing a multi-agency training 
facility.

                           BIOHAZARD TRAINING

    Question. Does the department offer in-service training for such 
things as bio-hazard situations?
    Answer. The Department trains all of their personnel in bio-hazards 
in the Advanced Law Enforcement Response Training-1 (ALERT-1) program. 
This is an eight hour block of instruction on weapons of mass 
destruction to include biological weapons. The designated response 
teams receive a 40 hour block of instruction entitled ALERT-2. This 
course provides more detail in the bio-hazard area to include 
detection, protection, and decontamination.
    The Department also has a Blood-Borne Pathogen Exposure Control 
Plan which involves a one hour block of instruction provided on a 
yearly basis.

                          NEW POLICE PERSONNEL

    Question. Last year, Congress provided funding to hire the first 
increment of about 260 new police personnel. I understand that you have 
not yet reached that number of new hires, but you anticipate to meet 
that goal by the end of the current fiscal year. Are you experiencing 
difficulty in your recruitment efforts?
    Answer. To date, 167 officers have been hired. The current status 
of hiring is not inconsistent with our original expectations. As 
indicated in our original staffing proposal, there is an approximate 
six month training ``pipeline'' associated with each recruit class that 
is scheduled through the Federal Law Enforcement Training Center 
(FLETC). The FLETC conducts training for all federal law enforcement 
agencies, and as such, is limited in the number of classes that can be 
offered. We feel that we have been able to recruit at a rapid pace 
without lowering any of the standards that have been in place.

                     STAFFING AT BUILDING ENTRANCES

    Question. There have been complaints about the lack of staffing at 
the building entrances; although I understand that recent efforts have 
addressed this problem to some extent. Is the staffing situation such 
that it becomes difficult to post two officers at these building 
entrances?
    Answer. We have requested an additional 100 FTE's for fiscal year 
2001 which will enable the Department to post a minimum of two officers 
at each of the access points to the Congressional Complex. Currently, 
the Department is not funded to staff two officers at every access 
point.

                               NEW HIRES

    Question. How many of the total number of new-hires in the last 
year have been sworn officers (non-management personnel) and how many 
have been administrative support personnel?
    Answer. Sworn--167 officers have been hired.
    Civilian:
  --10 civilians have been hired.
  --Of the 10 hired--9 are currently deployed and 1 has separated.
  --17 civilian positions are in various stages of selection.
  --18 civilian positions are on hold pending committee authorization.
    Question. Of the new hires, how many do you estimate were hired as 
a result of new positions and how many were a result of other personnel 
retiring (attrition replacements)?
    Answer. The make-up of hires to the sworn ranks in fiscal year 1999 
was as follows: (1) two recruit officer classes (totaling 47 hires) 
were held in October 1998 and December 1998 to fill vacancies due to 
attrition during 1998, (2) the remaining three recruit officer classes 
held in fiscal year 1999 (March, May, and August, totaling 120 hires) 
were in support of hiring goals under the Security Enhancement Plan.
    There are two recruit officer classes scheduled in fiscal year 2000 
which will again begin to fill vacancies due to attrition that occurred 
during 1999 and 2000.

                      ADDITIONAL POLICE PERSONNEL

    Question. How many additional police personnel do you think will be 
needed after you have fully staffed to that 260 target number which we 
provided funding for last year? Have you done a needs assessment for 
the out years?
    Answer. We have requested 100 additional FTE's for police officers 
in fiscal year 2001. This will allow the Department to staff each 
access point to the complex with a minimum of two officers at all 
times. The 1995 and 1998 security surveys and the 1998 Booz-Allen, 
Hamilton study identified the requisite staffing profiles. Consistent 
with the last two fiscal year requests, we will identify our out-year 
needs based on those surveys and contemporary developments and make the 
appropriate FTE requests, as necessary, in lots of no more than 100 
FTE's per year.

                           LACK OF EQUIPMENT

    Question. Some of the rank and file have also expressed concern 
that the department is ill-equipped to appropriately perform its 
mission. There have been complaints that there are insufficient numbers 
of radios, protective vests, and other items issued to police 
personnel. Can you address this issue?
    Answer.
    Glock .40 caliber
  --432 officers have been issued the Glock 22 .40 caliber pistol.
  --All sworn members will have been qualified and issued the new 
        weapon by December 2000.
    Soft body armor
  --940 members have been issued and are wearing the new soft body 
        armor.
  --Another 87 vests have been delivered and are in the process of 
        being issued.
  --The balance of 188 vests have been returned to the manufacturer for 
        re-fitting and will be issued in the very near future.
    Radios
  --The Department's inventory of portable radios was re-distributed 
        last year to provide each on-duty officer a radio during normal 
        (non-special event) operating conditions. A radio assessment 
        panel comprised of members selected by the USCP Labor Committee 
        and USCP management will begin field testing a new portable 
        radio the first week in April to determine its suitability for 
        Department use. Should this radio meet the Department's needs, 
        a sufficient number of units will be purchased to ensure every 
        officer and security aide is personally issued a radio.


                          LIBRARY OF CONGRESS

STATEMENT OF JAMES H. BILLINGTON, PH.D., LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        TERESA SMITH, DIRECTOR, HUMAN RESOURCES SERVICES
        MARYBETH PETERS, REGISTER OF COPYRIGHTS
        WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        LAURA CAMPBELL, DIRECTOR, NATIONAL DIGITAL LIBRARY
        RUBENS MEDINA, LAW LIBRARIAN
        JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
        LINDA WASHINGTON, DIRECTOR, INTEGRATED SUPPORT SERVICES
        HERBERT S. BECKER, DIRECTOR, INFORMATION TECHNOLOGY SERVICES
        KENNETH E. LOPEZ, DIRECTOR OF SECURITY
        FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE 
            BLIND AND PHYSICALLY HANDICAPPED
        JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
        KATHY A. WILLIAMS, BUDGET OFFICER

                             BUDGET REQUEST

    Senator Bennett. Our next panel is the Library of Congress. 
We welcome Dr. James Billington, the Librarian of Congress, and 
his Deputy, General Scott, and also Dan Mulhollan, who is the 
Director of the Congressional Research Service.
    The Library has requested a total of $461.7 million of 
appropriated funds. The total Library budget, including funds 
for building maintenance, is $622.4 million, which is a 10 
percent increase over the fiscal 2000 budget.
    Dr. Billington, we will start with you and then perhaps Mr. 
Mulhollan, unless you want to defer any of your testimony to 
General Scott, from whom we are always glad to hear.
    Dr. Billington. Thank you, Mr. Chairman. First let me 
present the one new face among our witnesses, Teresa Smith, our 
new Director of Human Resources Services.
    In this our bicentennial year, Mr. Chairman, our first 
pleasant task is to thank you, thank the subcommittee, and to 
thank Congresses past and present for being over the years the 
greatest single library patron of all time. No royal house, no 
Medici, have ever created or sustained anything that can match 
America's oldest Federal cultural institution and to match the 
constancy with which the Congress has enabled it to become the 
largest repository of knowledge and creativity ever created on 
this planet and to become in more recent times the leading 
provider of high quality free educational material in this 
revolutionary new world of the Internet.
    The Library brings before the Congress this year a budget 
derived from a vision and strategy to secure the infrastructure 
and put in place the personnel to perform the truly unique 
services that it can and must provide for the Congress and the 
Nation in this information age.

                        NATIONAL DIGITAL LIBRARY

    Thanks to the Congress, the Library has built a platform 
for leadership in this new digital world. Our pioneering 5-year 
National Digital Library Program has been stunningly 
successful. Just a few weeks ago, it was awarded the 
prestigious Global Information Infrastructure Award for 
Education, the last in a long series of recognitions that it 
has received. We have now developed over the past year a 
Digital Futures plan that will systematically begin building a 
new kind of 21st century library for all Americans, the 
National Online Library.
    Now, as we all know, the Internet is creating a profound 
shift in the way knowledge is stored and communicated. 
Projections now suggest that by the year 2003, 80 percent of 
all business transactions will be conducted over the Internet, 
to which nearly 100 million Americans are already connected. 
Further worldwide exponential growth seems inevitable.
    This new communications medium offers the Congress' library 
extraordinary opportunities to provide new and cost effective 
benefits to Congress and the Nation. Almost all libraries and 
an estimated 89 percent of our K through 12 public schools are 
now connected to the Internet, and most of them have direct 
Internet access into the classroom.
    Demand continues to grow nationwide for the kind of high 
quality, interesting, and even inspirational primary materials 
of our history and culture that the Library of Congress web 
site alone provides free of charge through the Internet. By 
making it free, the Library helps sustain the whole tradition 
of open access to knowledge in the electronic age and it helps 
bridge the information gap between the have's and have-not's by 
providing not only a free but dependable vehicle for improving 
K through 12 education in America.
    The Library also has an immediate national responsibility 
to do what is being done nowhere else, namely to develop 
rapidly plans and pilots for preserving and making accessible 
to the Congress the rising flood tide of digitized materials 
that are created elsewhere only in digital form, so-called 
``born digital.'' These materials are presently available only 
in highly impermanent electronic formats.

                     DIGITAL FUTURES BUDGET REQUEST

    The main new request in our fiscal year 2001 budget is for 
an increase of $21.3 million to systematically incorporate 
digital materials into the Library's historic and enduring 
mission, which is to acquire and preserve useful content, to 
provide free access to it for Congress and the public, and to 
sustain the backbone of infrastructure that makes access to 
content possible.
    We need, in short, $11 million for the backbone of an 
electronic service that exploded from 20,000 transactions a day 
on our American Memory site in 1995, just 5 years ago, to 4 
million a day for our expanded and diversified web site in the 
year 2000. $7.6 million is for additional domestic and 
international content and $2.6 million is for outreach services 
that will maximize access and impact nationally.
    We realize this represents a significant increase, but the 
Library has already severely strained its human and material 
infrastructure during this explosive expansion of the past 
decade to test and determine these needs. Content, access, and 
infrastructure, moreover, are interrelated. They are the core 
needs of any library. They must be met for this new type of 
material if the Library is to provide relevant service in the 
years ahead.
    There is little point having content without access and no 
possibility of sustaining either without backbone, and there is 
no realistic possibility, Mr. Chairman, that we can continue 
even our present level of services, let alone realize the 
extraordinary added service potential of this Library, by 
further diverting resources from our traditional services based 
on books, periodicals, and other artifactual materials, whose 
volume also continues to rise globally.
    This Nation's library, Mr. Chairman, cannot be permitted to 
drift into being either just a vast ``museum of the book'', a 
vast museum of past knowledge on the one hand, or on the other 
a mere electronic switchboard for providing current 
information. This institution has the world's best staff of 
knowledge navigators and it has a unique capacity for 
leadership in mixing in the world's largest collection of 
traditional material with an expanding electronic network in 
ways that will advance both the creativity and the practical 
wisdom that will keep our legislature and our democracy 
dynamic.
    Libraries in general--and you are celebrating them all in 
this bicentennial year, not merely the Library of Congress--are 
a link in the human chain that connects yesterday's memories 
and today's experience with tomorrow's future possibilities, 
with the prospects of a better tomorrow. That is the American 
dream, that whatever the problems of today, tomorrow can always 
be better than yesterday, if we do not forget the lessons of 
yesterday and if we are able to digest the flood of information 
that we are receiving daily.

                          PREPARED STATEMENTS

    So I ask the committee's support in order for the Congress' 
library to have the material and human resources to sustain its 
leadership role in the digital age and to modernize its 
services to the Congress and the Nation as we enter our third 
century.
    [The statements follow:]

               Prepared Statement of James H. Billington

    On April 24, 2000, the Library will be 200 years old. It is the 
oldest Federal cultural institution in the United States and the 
largest and most inclusive library in human history. In pursuit of its 
mission to make its resources available and useful to the Congress and 
the American people and to sustain and preserve a universal collection 
of knowledge and creativity, the Library has amassed an unparalleled 
collection of 119 million items, a superbly knowledgeable staff, and 
cost-effective networks for gathering in the world's knowledge for the 
nation's good.
    As we enter the third millennium and the Library's third century, 
we ask the Congress to support the Library's leadership role in 
delivering free electronic information to the nation. Building on the 
overwhelming success of the Library's five-year pioneering National 
Digital Library Program, we have developed an overall strategy for the 
Library's electronic future and an appropriate budget request for 
fiscal 2001. With Congressional support, our goal is to begin building 
a new kind of 21st century library for all Americans--the National On-
line Library.
    The Internet is creating a profound, fundamental shift in the way 
people communicate. An estimated 100 million Americans now use the 
Internet, which is producing dramatic alterations in the workplace and 
in daily life. The extent of these changes far outpaces our 
understanding of their implications. However, it is already clear that 
the new communications era offers this unique institution extraordinary 
opportunities to achieve new levels of cost-effective service for the 
Congress's legislative work and for citizens in every congressional 
district.
    The Library is now a proven and dependable Internet site for 
primary source material on the Congress and on American history as well 
as for cataloging, copyright information, and much more. Our web site 
now receives an average of four million electronic transactions every 
working day.
    The Library is the 1999 winner of the Global Information 
Infrastructure Award for Education for the primary source materials we 
provide about our American heritage. Our award-winning site 
demonstrates how the Library's services will be increasingly made 
available to serve national needs in the future. An estimated 90 
percent of K-12 public schools are now connected to the Internet, with 
most schools having direct access in the classroom. The tidal wave of 
Internet growth coincides with a growing and increasingly insatiable 
demand for access to high-quality primary materials of real educational 
value. Congress's library is the world leader in providing such 
material--and is almost alone in providing quality content both free of 
charge and with authoritative explanatory material. Congressional 
vision and support have uniquely positioned its Library to make a major 
contribution through the Internet towards the nation's educational 
development and future productivity.
    Fiscal year 2001 will be the critical one for permanently putting 
into place the people and support systems required to secure the 
Library's digital leadership role for the nation. The Library is now 
ready to build on the experience of the last five years to begin 
transforming traditional library services in ways that will meet 
America's new information needs by building a National On-Line Library.
    We ask the Congress to support these essential elements required to 
sustain our future:
  --Digital Futures Initiative.--Create a National On-line Library by 
        providing permanent funding for the Library's innovative 
        National Digital Library Program (NDLP), that is currently due 
        to expire in fiscal 2000. By funding the lean and 
        extraordinarily talented staff of the NDLP, the Congress will 
        permit the Library both to begin capturing and preserving 
        materials that exist only in digital form (i.e., ``born 
        digital'') and to continue the conversion of unique educational 
        content that will include important international as well as 
        national materials;
  --Succession Planning.--Extend our staff succession program to 
        include the Law Library in addition to the Congressional 
        Research Service (for a third year) and Library Services (for a 
        second year). This is essential to ensure the continuity and 
        quality of core services at a time when unprecedented numbers 
        of staff will be retiring;
  --Security of Staff and Collections.--Permanently fund both the 
        police positions authorized by a fiscal year 1999 emergency 
        supplemental appropriation and item-level tracking and 
        inventory collections security controls now made possible 
        through the new Library of Congress Integrated Library System 
        (LCILS); and
  --Preservation and Storage of Collections.--Permanently fund a mass 
        deacidification program and the full operation for the first 
        off-site storage module at Fort Meade, Maryland.
    The Library's budget request for fiscal year 2001--$428.1 million 
in net appropriations and $33.6 million in authority to use receipts--
supports the Library's mission to make its resources available and 
useful in the 21st century. This is a net increase of 11.4 percent over 
fiscal 2000. A major part of this increase ($16.6 million) is needed to 
fund mandatory pay raises (driven largely by the January 2001 pay raise 
of 3.7 percent) and unavoidable price-level increases; $27.1 million is 
needed to meet critical, growing workload increases (net of program 
decreases). The Library is requesting an increase of 192 full-time 
equivalent (FTE) positions--from 4,076 to 4,268 FTEs. Even with this 
increase, the Library's FTEs would still be fewer by 281 FTEs or 6.2 
percent lower than in fiscal year 1992 (see attachment 1). The Library 
has been doing more with less since 1992, but the tidal wave of 
Internet activity now imposes a level of workload that requires the 
Library to rebuild a portion of its workforce that has been reduced or 
funded privately since 1992.
    The Library will use its Bicentennial in the year 2000 more to 
leave a legacy for the future than to celebrate our past. We invite the 
Congress and the nation to join with us in celebrating our 200th 
birthday, which is being done largely with private funds. At the start 
of our third century, we ask the Congress to support the increase in 
resources required to meet the new mission-driven workloads brought on 
by the Internet age.
    Funding our fiscal 2001 budget request will enable the Library to 
sustain its basic, traditional services while comprehensively 
addressing its inescapable, digital future. We hope the Congress will 
continue its historic and fruitful investment in the Library as it 
enters its third century of serving the nation's legislators and their 
constituents.

                     THE LIBRARY OF CONGRESS TODAY

    The core of the Library is its incomparable collections--and the 
specialists who interpret and share them. The Library's 119 million 
items include almost all languages and media through which knowledge 
and creativity are preserved and communicated.
    The Library has more than 27 million items in its print 
collections, including 5,700 volumes printed before the year 1500; 12 
million photographs; 4 million maps, 2 million audio recordings; 
800,000 motion pictures, including the earliest movies ever made; 4 
million pieces of music; 53 million pages of personal papers and 
manuscripts, including those of 23 Presidents of the United States as 
well as hundreds of thousands of scientific and government documents.
    New treasures are added each year. Notable acquisitions during 
fiscal year 1999 include: Harry Blackmun Papers and Ruth Bader Ginsberg 
Papers--more than 600,000 new items of these Supreme Court Justices; 
Marian Carson Collection--10,000 papers and documents relating to the 
early history of the U.S.; Bronislava Nijinska Collection--multi-medial 
collection of the noted ballet choreographer; Carte de Canada et des 
Etats Unis de l'Amerique--the first map (1778) to recognize the 
independence of the U.S.; Persian Manuscript Celestial Globe--ca. 1650; 
The First American Haggadah--published in New York City, 1837; 337 
issues of the important Revolutionary American newspaper Claypoole's 
Daily Advertiser, 1791-1793; the extraordinary J. Arthur Wood, Jr. 
Collection of Cartoon and Caricature--40,000 works by more than 3,000 
artists; Victor Hammer Archives--the works of one of the great hand-
press printers, print makers, and type designers of the 20th century; 
and Politica by Aristotle (Cologne, 1492)--the earliest printed version 
of Aristotle's work to become available in the West.
    Every workday, the Library's staff adds more than 10,000 new items 
to the collections after organizing and cataloging them and finds ways 
to share them with the Congress and the nation--by providing on-line 
access across the nation, by assisting users in the Library's reading 
rooms, and by featuring the Library's collections in cultural programs.
    Major annual services include delivering more than 550,000 
congressional research responses and services, processing more than 
600,000 copyright claims, and circulating more than 22 million audio 
and braille books and magazines free to blind and physically 
handicapped individuals all across America. We annually catalog more 
than 250,000 books and serials and provide the bibliographic record 
inexpensively to the Nation's libraries, saving them an estimated $268 
million annually.
    The Library also provides free on-line access, via the Internet, to 
its automated information files, which contain more than 75 million 
records--to Congressional offices, Federal agencies, libraries, and the 
public. Internet-based systems include major world-wide-web (www) 
services (e.g, Legislative Information System, THOMAS, LC-web, Global 
Legal Information Network), the Library of Congress On-line Public 
Access Catalog (catalog.loc.gov), and various file transfer options.
    The Library of Congress programs and activities are funded by four 
salaries and expenses (S&E) appropriations which support congressional 
services, national library services, copyright administration, library 
services to blind and physically handicapped people, and management 
support. A separate appropriation funds furniture and furnishings.

         DIGITAL FUTURES INITIATIVE (NATIONAL ON-LINE LIBRARY)

    The Library of Congress is committed to bringing America's story--
in all its variety--to everyone, whether at work, in their homes, in 
schools, or in libraries. We realize that the fiscal year 2001 budget 
request of $21.3 million for our digital futures initiative represents 
a significant increase in resources. However, the need for a bump-up in 
our appropriations has emerged inescapably from our extended internal 
review of the Library's digital future needs to support additional 
domestic and international digital content ($7,590,392), to implement 
the critical technology backbone ($11,049,182), and to enhance the 
educational outreach access services begun by the NDLP ($2,644,205).
    We must make permanent the National Digital Library/American Memory 
effort by assuring that the priceless technical know-how and 
substantive knowledge acquired by the staff and now embedded in this 
program are retained and deployed for the National On-Line Library of 
the future. Fiscal year 2000 marks the end of the initial five-year 
digitization program at the Library, which was funded by both public 
and private funds. As the Library now moves to build and sustain a core 
set of on-line services for the nation, the NDLP's technically skilled 
staff has to be funded on a permanent basis. If we are not able to 
retain these talented--and, by now, uniquely experienced--people, we 
will simply not be able to continue servicing the new national 
constituency we have built. Indeed, without this cadre of 
professionals, the Library will not be able to begin the long overdue 
work of capturing and making usable for the Congress materials created 
by others that are now increasingly available only in electronic form.
    The Library must tackle the unprecedented challenges posed by ever-
changing digital content embedded in rapidly changing technologies. The 
Library has been deeply studying the complex problem of preserving and 
accessing digital materials. But unless the Library can retain the 
professionals that it has already uniquely trained, there is little 
chance that the Library will be able to find and hire the people needed 
to deal with this problem for many years to come. The Library simply 
must have the people and the resources to build a state-of-the-art 
software, hardware and telecommunications technology backbone able to 
support and make accessible the electronic materials that Congress and 
the nation will want in the future.
    Finally, for the new millennium, the Library has a unique 
opportunity to become a global leader in digital information: the hub 
of an international network to advance education and understanding. 
Following the Congress' lead in establishing in the Library a ``Meeting 
of the Frontiers'' project with Russia, we have taken the first steps 
to create a global on-line library, using the Library's international 
materials to provide stunning digital images of America's dynamic 
interaction with the world. The Library is exploring partnerships with 
the world's great archives beginning with Spain.

                           COMPUTER SECURITY

    The Library's on-line services represent a critical infrastructure 
asset, which is vital to the operations of the Legislative Branch and 
the nation. But, the new age of Internet opportunities also brings with 
it the vulnerabilities of the Library's automated systems to intrusion 
and destruction. The Library's fiscal year 2001 budget requests 
$660,690 and five FTEs to support our computer and network security 
programs. The President has developed a National Plan for Information 
Systems Protection, which calls for a major effort to improve computer 
security. The Library also recognizes the urgent need to address this 
vulnerability by implementing its plan and requests approval of the 
resources to ensure the protection of our information assets.

                           SUCCESSION PROGRAM

    The Library's ability to serve Congress and the nation depends in 
large part on its expert staff, particularly those who perform 
legislative analysis, have intimate familiarity with the special 
collections, or have fluency in foreign languages. The Library's fiscal 
year 2001 budget requests an increase of $2,568,882 and 34 FTEs to 
support a three-part succession program: (1) $1,033,788 and 28 FTEs to 
support the hiring of Library Services technicians to provide for the 
timely upward mobility of the most qualified technical staff into a few 
of the key professional positions, which are being vacated by 
retirements; (2) $1,130,772 to support the hiring of additional CRS 
analysts to ensure the continuity of in-depth analysis to support 
legislative deliberations; and (3) $404,322 and 6 FTEs to support the 
hiring of additional foreign legal specialists to ensure the continuity 
of congressional services in foreign law provided by the Law Library.
    Library Services's analysis of its vulnerability to retirements, 
particularly in those areas requiring extensive familiarity with 
special collections and fluency in foreign languages, indicates that 27 
percent (555) of Library Services staff is already eligible to retire 
during fiscal year 2000, and that number will increase to 52 percent 
(1,088) by fiscal year 2005.
    We are grateful that the Congress funded half of Library Services' 
request as part of the fiscal year 2000 budget, but the situation 
outlined in last year's budget has grown even more critical. The 
retirement rate in fiscal year 1999 increased 19 percent over fiscal 
year 1998, and we fear a similar increase this year. To respond to this 
critical need, the Library requests $1,033,788 to keep this five-year 
program on track. If we cannot move expeditiously in these few 
specially-targeted areas, senior staff are likely to retire without 
being able to impart their specialized subject and language skills to 
the next generation.
    The Congressional Research Service also faces serious challenges to 
ensure its capacity to continue, without interruption, its legislative 
support of Members and committees on all public policy issues. Half of 
CRS' staff will be eligible to retire by 2006. Since 1996, CRS has used 
a risk assessment process in order to identify specific subject areas 
where staff were likely to retire in the next few years. Based on this 
assessment, CRS projects reduced analytic capacity in a significant 
number of subject areas as early as calendar year 2000. These losses 
will accelerate and, by 2004, will affect almost every area of 
legislative support to the Congress. Rebuilding this capacity requires 
a multi-year transition period during which new staff develop the 
breadth and depth of knowledge of specific issues and master the 
legislative process.
    CRS has developed a three-phase plan to begin hiring replacement 
staff using the Graduate Recruit Program, the Law Recruit Program and 
the Presidential Management Intern Program. In fiscal year 1999, the 
Congress appropriated $435,858 to support hiring of ten staff. In 
fiscal year 2000, an additional $559,052 was initially provided to 
support the hiring of another ten staff, but because of the across-the-
board spending cut, this amount was reduced to $288,325, which supports 
the hiring of five additional staff. In fiscal year 2001, the Library 
is requesting $1,130,772 to hire the third phase of the program and to 
restore the positions lost in the fiscal year 2000 rescission. With 
this funding, CRS will be able to continue to provide uninterrupted 
policy analysis to the Congress.
    Finally, the Law Library estimates that 59 percent of its foreign 
law specialists will be eligible to retire by fiscal year 2004. The 
recruiting and training of foreign legal research specialists with both 
unique language skills and foreign legal expertise require a lengthy 
time period. To ensure the continuity of congressional services in many 
foreign jurisdictions of interest to the Congress, such as Arabic-
speaking nations, China and Taiwan, and Japan, the Law Library is 
requesting $404,322 and six FTEs to hire and train foreign law 
specialists.

         SECURITY OF LIBRARY STAFF, COLLECTIONS AND FACILITIES

    During 1998, the Congress approved supplemental appropriations 
totaling $16,975,000 for the Library's physical security. The law 
included funding for fiscal years 1999 and 2000 to increase the 
Library's police staffing. The fiscal year 2001 budget requests 
permanent funding of $2,530,886 to sustain the increased police 
staffing originally approved two years ago, which is essential to 
protect the Library's staff, collections, and facilities.
    The supplemental provided funding for physical security, but the 
supplemental did not provide funding for collections security. For the 
fiscal year 2001 budget, the Library is requesting an increase of 
$4,449,718 to improve bibliographic and inventory collections security 
controls, which have been identified as a significant deficiency by 
auditors and security consultants. Key elements of this major request 
include tracking books at the item level from the point of receipt 
through various processing steps to the Library's secure storage areas; 
conducting a physical inventory of the Library's 18 million book 
collection; and converting card files contained in the Law, Music, 
Geography and Map, and Rare Book reading rooms into automated format 
accessible through the Library of Congress Integrated Library System 
(LCILS). The LCILS provides an excellent tool to capture, for the first 
time, item-level information for much of the Library's collections, as 
well as to flag problems such as the non-receipt of expected serials. 
Establishing item-level inventory control, a fundamental part of the 
Library's approved security plan, has now been made possible with the 
implementation of the LCILS.
    Congress approved funding for the LCILS with the understanding that 
the Library would develop a detailed cost-savings plan, ``return'' 
those accrued savings to the Congress, and request new authority to use 
any savings realized from the LCILS. Accordingly, the Library is 
incorporating $1,991,842 (a cumulative savings of $2,530,000) of LCILS-
related savings in this fiscal year 2001 budget. At the same time, we 
are requesting new funds for the important collections security 
requirements outlined above, which the LCILS--for the first time--makes 
feasible for the Library to undertake. When these security initiatives 
are implemented, the Library will be better able to answer with 
assurance the key questions, ``What do you own?'' and ``Where is it?'' 
and to both identify and obtain missing serials before they go out of 
print or become extremely expensive to purchase. The Library requests 
that the Congress re-invest LCILS-related savings into collections 
security to better secure the Library's priceless collections.

              PRESERVATION AND STORAGE OF THE COLLECTIONS

    A primary mission of the Library is to preserve its vast and 
largely irreplaceable collections for the benefit of the Congress and 
the American public. A priority of the Library's preservation efforts 
is deacidification of a significant portion of materials printed on 
paper with high-acid content since the middle of the 19th century. The 
Library has in place a successful mass deacidification program using 
the Bookkeeper process, which has been supported using no-year funding 
since 1997.
    The Congress has been a stalwart supporter over the years of the 
Library's program to develop an effective, inexpensive method of 
solving one of the most pressing problems libraries have faced in the 
late 20th century: deacidifying the paper used since the mid-19th 
century for books, periodicals, maps, manuscripts, and other paper-
based collections. The fiscal year 2001 budget requests an increase of 
$1,215,801 to make mass deacidification a permanent part of the 
Library's preservation program. The Library estimates that 5.3 million 
existing books (out of the entire classified book collection of 18 
million items) and that an annual addition of 100,000 books are printed 
on acidic paper.
    The fiscal year 2001 budget request proposes to establish an 
overall 30-year (one generation) plan to deacidify older books as well 
as the new, acidic acquisitions. The plan scales up to $5.7 million by 
fiscal year 2005 to fund the capacity to deacidify annually 300,000 
books and 1,000,000 manuscript sheets.
    Equally critical for preserving the Library's collections is 
providing environmentally safe storage. The Library continues to work 
closely with the AOC and their contractors to ensure that the first 
storage module at the Fort Meade, Maryland campus meets the necessary 
environmental requirements to house and preserve the transferred 
collections and that materials handling will be as efficient as 
possible. The Library is very pleased that later this year, we will be 
able to begin using the space at Fort Meade made available by the 
Congress for storage of Library collections. The module will house 2.2 
million items of paper-based material, primarily books, shelved on 
wide-span shelving by size in containers.
    As overcrowding in collections storage areas on Capitol Hill 
becomes more serious each day, speedy completion and occupancy of the 
first module at Fort Meade is a high priority. To fund an accelerated 
transfer program enabling the Library to secure, track and move 4,000 
items daily for a period of two-and-a-half years, the Library's fiscal 
year 2001 budget requests an increase of $824,648 and 22 FTEs. In 
addition, the Library is requesting $707,265 and 12 FTEs to fund start-
up costs for Module Two. Because most of the materials to be 
transferred to this second module come from the Library's unique, 
special ``gold'' collection areas, substantial advance work is required 
to place these heritage assets in containers that meet the highest 
preservation and security standards. The Library has developed a cost-
effective ``handle it once'' approach for this activity and requests 
funding in fiscal year 2001 so that the collections can be made ready 
for prompt transfer to Module Two immediately upon its completion.
    Finally, the Library's fiscal year 2001 budget requests an increase 
of $501,160 and 12 FTEs to fund the shifting of collections on Capitol 
Hill, which will be made possible by the transfer of materials to the 
Fort Meade storage. At the present time, more than 50,000 items are 
stacked on the floors of Capitol Hill storage areas. A three-year 
program to shift all of the collections remaining on Capitol Hill is 
needed to relieve overcrowding in many areas and improve the storage 
conditions. Although the Library was able to open splendid new reading 
rooms for the foreign-language collections when the Thomas Jefferson 
Building renovation was completed in 1997, it was neither fiscally nor 
logistically possible to move the collections served through the Asian 
and African/Middle Eastern reading rooms from the John Adams Building 
at that time. The completion of Fort Meade Module One will enable the 
Library to initiate a 3-year project to improve the preservation and 
security of these valuable Capitol Hill collections and to resolve 
long-standing reader complaints about slow service.

                              LAW LIBRARY

    The Law Library of Congress maintains the largest collection of 
legal materials in the world and also houses a unique body of lawyers 
trained in foreign legal systems to supply legal research and analysis, 
primarily for the Congress, on the laws of other nations, international 
law, and comparative law. More than 200 jurisdictions are covered by 
Law Library specialists, some 80 percent of the sovereign entities of 
the world that issue laws and regulations. The Law Library utilizes 
this talent to maintain and develop the breadth and depth of a 
demanding collection, as well as to provide reference services whenever 
either chamber is in session (as mandated by the Congress). These are 
daunting responsibilities. The U.S. Courts, the executive branch, and 
the legal community also depend heavily on the Law Library's 
collections and the unique expertise of its foreign legal staff.
    The Law Library has been creative in attempting to meet its 
responsibilities, particularly with the development of its Global Legal 
Information Network, but funding for nine FTEs ($503,124) is crucially 
required. The funding would ensure adequate staffing for research and 
reference services, improve the processing of incoming legal materials 
and retrieval services, and improve administrative capabilities.

                            COPYRIGHT OFFICE

    The Library's Copyright Office promotes creativity and effective 
copyright protection--annually processing approximately 620,000 claims 
(representing more than 900,000 works transferred to the Library) of 
which more than 590,000 claims are registered for copyright. The Office 
also records approximately 16,500 documents with more than 200,000 
titles and responds annually to more than 436,000 requests for 
information.
    The Copyright Office increased statutory fees for registration and 
recordation services on July 1, 1999. (The basic filing fee for 
registering a claim increased from $20 to $30.) I am pleased to report 
that the Copyright Office is forecasting that fiscal year 2000 receipts 
will meet the budgeted level of $20.8 million and is projecting a 
slight increase to $21 million for the fiscal year 2001 budget. As more 
experience is gained under the new fee schedule, the Library will 
advise the Committee of any changes in our projections.
    The Digital Millennium Copyright Act, ``DMCA,'' enacted at the end 
of the 105th Congress, gave the Copyright Office many new duties and 
responsibilities. The Register has elaborated on these legislative 
changes in her statement before this Committee. One major change is a 
new type of protection for the original designs of the hulls of boats. 
Registration is required and there are complicated cancellation 
procedures. The Copyright Office, following the adoption of new 
regulations and practices and a new registration form, made the first 
such registration in July 1999.
    On November 29, 1999, the Copyright law was amended to extend the 
compulsory license for retransmission of network and superstation 
signals by satellite carriers for another five years, and the royalty 
rates were significantly reduced. The Copyright Office is in the 
process of implementing this new law. The fiscal year 2001 budget 
request includes an increase of $150,000 to enable the Office to meet 
better its compulsory licensing responsibilities.
    As part of the Library's digital futures initiative, the Copyright 
Office is requesting an increase of $80,135 for one additional FTE to 
continue work on CORDS, including activities related to a joint digital 
repository project. A coordinated effort between the Copyright Office 
and the Library's digital program is critical for the protection of 
copyright owners and for access by Library users.

   NATIONAL LIBRARY SERVICE FOR THE BLIND AND PHYSICALLY HANDICAPPED

    The Library administers a free national library program of braille 
and recorded materials for blind and physically handicapped persons, 
through its National Library Service for the Blind and Physically 
Handicapped (NLS). Under a special provision of the U.S. copyright law 
and with the permission of authors and publishers of works not covered 
by the provision, NLS selects and produces full-length books and 
magazines in braille and on recorded disc and cassette. Reading 
materials are distributed to a cooperating network of regional and 
subregional (local, non-Federal) libraries where they are circulated to 
eligible borrowers. Reading materials and playback machines are sent to 
borrowers and returned to libraries by postage-free mail. Established 
by an act of Congress in 1931 to serve blind adults, the program was 
expanded in 1952 to include children, in 1962 to provide music 
materials, and again in 1966 to include individuals with other physical 
impairments that prevent the reading of standard print.
    The fiscal year 2001 budget maintains program services by funding 
mandatory pay and price level increases totaling $1,181,339. The budget 
also supports the exploration of alternative digital technological 
possibilities that would provide a less costly, more efficient, 
internationally acceptable, user-friendly delivery system. Funding the 
fiscal year 2001 increase is necessary to ensure that all eligible 
individuals are provided appropriate reading materials.

                     LIBRARY BUILDINGS AND GROUNDS

    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC has 
requested a capital budget of $9,590,000, an increase of $4,959,000. 
The AOC capital budget includes funding totaling $5,835,000 in 
appropriations for four projects that were requested by the Library. 
The AOC deferred one Library-requested project, air conditioning 
improvements costing $350,000, until fiscal year 2002.
    The largest Library-requested project, amounting to $5 million, is 
for the National Audio-Visual Conservation Center in Culpeper, 
Virginia. The Congress approved the initial matching appropriated share 
for the Center in fiscal year 2000, and the fiscal year 2001 request 
would continue to build towards the Federal share of $16.5 million (25 
percent) for renovating and equipping the facility. The owner of the 
facility, the Packard Humanities Institute, has now with extraordinary 
generosity offered to provide up-front funding to facilitate timely 
completion of the entire project, with the understanding that the 
government will pay up to $16.5 million (25 percent of the projected 
$66 million cost) at the time the property is transferred to the AOC. 
We have informed both our authorizing and appropriations committees 
about this offer, which will accelerate dramatically the completion of 
this much-needed facility. To achieve the public portion of this match 
in a timely manner, the Library is requesting $5 million for fiscal 
year 2001. The other three Library-requested projects support the 
preservation of the Library's collections and space modifications in 
the James Madison Building. Library-requested projects, as well as AOC 
identified projects, are prioritized based on critical need and in 
accordance with both the Library's Strategic and Security plans.
    I urge the Committee to support the Architect's Library Buildings 
and Grounds budget, which is critical to the Library's mission.
    During fiscal years 2000 and 2001, the Library will continue its 
participation in planning for the proposed Capitol Visitor Center. 
Since 1991, the Library has worked with Members of Congress and the 
Architect of the Capitol as an integral part of the Visitor Center. The 
Library offers unique resources for contributing to the mission of the 
Visitor Center through facilities that will permit both sharing the 
Library's incomparably rich collection of recorded performances in the 
performing arts and displaying the primary materials of American 
history in the Library's collections. The Library has emphasized to the 
members of the Capitol Preservation Commission the importance of that 
part of the Visitor Center design plan that includes the construction 
of a tunnel connecting the Center to the Thomas Jefferson building, 
thereby permitting all-weather direct access for the Congress to the 
Members' Room, for the Congressional staff to the Library's resources, 
and for the public to the exhibitions and public spaces in the building 
so beautifully restored by the Congress.

        JAMES MADISON BUILDING WORKSTATION MODERNIZATION PROJECT

    The Library is requesting an increase of $433,500 to complete its 
accelerated workstation modernization project in the James Madison 
Building by 2004. In fiscal year 2000, the Congress approved $878,040 
for this replacement program. Improving workstation design reduces the 
risk of injuries and increases staff productivity. An increase in 
funding would complete the project by 2004 instead of 2006, which the 
current level of resources would permit.

                          PROPOSED LEGISLATION

    The 105th Congress approved a revolving fund to improve the 
accountability and statutory authority for the Cooperative Acquisitions 
Program. We are seeking similar authority during the 106th Congress to 
modernize the business operation and enhance Congressional oversight of 
the Library's other cost-recovery services. Our draft legislation also 
enhances the continuity of the Library's Trust Fund Board and 
modernizes an archaic statute governing our Cataloging Distribution 
Service. This legislative proposal, which we are working on through the 
Library's oversight committees, is our top legislative priority for the 
106th Congress. Passage of this legislation would cap our long-term 
efforts to put the Library's financial operations on firm footing.
    The Library is also seeking an amendment to the statute authorizing 
the National Audio-Visual Conservation Center in Culpeper, Virginia (2 
U.S.C. 141 note) which would allow a limited exception to the act's 
reimbursement prohibition. This would allow us to take advantage of an 
unprecedentedly generous private funding offer and permit us to 
complete the project a full three years earlier than now scheduled with 
a savings of $6.5 million.
    In its first session, the 106th Congress enacted legislation 
directing the Library to oversee the publication of a chronological, 
illustrated history of the House of Representatives. We have begun the 
process of establishing an advisory board and consulting with 
publishers. We will be working with the Committee on House 
Administration and are pleased to be integrally involved in this 
worthwhile project.

                       THE LIBRARY'S BICENTENNIAL

    We have crafted--largely with privately raised funds--a multi-
faceted Bicentennial program ``to inspire creativity in the years ahead 
by stimulating greater use of the Library of Congress and libraries 
everywhere.'' A centerpiece is our ``Local Legacies'' project to 
document unique local traditions from congressional districts 
throughout the nation for possible inclusion in the American Folklife 
Center's collections and in the National On-Line Library. Other 
Bicentennial projects include: reconstituting Thomas Jefferson's 
original library through private donations; a ``Favorite Poem'' project 
spearheaded by the Library's Poet Laureate; and a national photography 
contest, ``Beyond Words: Celebrating America's Libraries,'' jointly 
conducted with the American Library Association. The program also 
includes a commemorative stamp, commemorative coins, exhibitions, 
publications, symposia, and Bicentennial-related activities at 
libraries nationwide.
    The Bicentennial theme of Libraries-Creativity-Liberty was 
reflected in our first two Bicentennial exhibitions, The Work of 
Charles and Ray Eames: A Legacy of Invention (American creativity) and 
John Bull and Uncle Sam: Four Centuries of British-American Relations 
(materials from the Library of Congress and British Library). The first 
of our major Bicentennial symposia, Frontiers of the Mind in the 
Twenty-First Century, was held at the Library and cybercast nationally 
in June 1999.
    The concept of ``Gifts to the Nation'' is central to the 
Bicentennial effort. The Library itself is a Congressional ``Gift to 
the Nation.'' Sharing the Library's collections and information about 
the Congress with Americans in their local communities through an 
expanded National Digital Library is the Library's major gift to the 
nation.

                                SUMMARY

    We ask the Congress to support the Library's--and America's--
digital future, as well as its traditional services provided in 
Washington, D.C. The Library's digital responsibilities impose on us a 
new mission-critical workload, which we cannot fund by diverting 
resources from our equally critical traditional services of acquiring, 
cataloging, preserving, serving, and storing artifactual materials. Our 
traditional role will not diminish (indeed, print publishing is 
significantly increasing). The digital future will enable the Library 
to expand greatly our direct contribution to K-12 education and to the 
American public. Providing free, electronic access to knowledge and 
information for life-long learners everywhere is essential to the 
future of our democracy. Free, high-quality content from America's 
library is bridging the digital divide--the growing division in the 
U.S. between information ``haves'' and ``have-nots.''
    By funding the Library's fiscal year 2001 budget request, the 
Congress would make possible our digital future and support our 
traditional services--enabling the Library of Congress to continue in 
the new era ahead its dedicated service to the work of the Congress and 
to the creative life of the American people.

Library of Congress total library appropriations-actual full-time 
equivalent (FTE) positions

                                                            Total actual
                                                                    FTEs

Fiscal year:
    1992.......................................................... 4,549
    1993.......................................................... 4,492
    1994.......................................................... 4,163
    1995.......................................................... 4,180
    1996.......................................................... 4,114
    1997.......................................................... 4,010
    1998.......................................................... 3,958
    1999.......................................................\1\ 3,923
    2000.......................................................\2\ 4,076
    2001.......................................................\2\ 4,268

\1\ Cumulative decrease of 626 actual FTEs or 14 percent from 1992 to 
1999.
\2\ Budget.
---------------------------------------------------------------------------
                                ------                                

                 Prepared Statement of Marybeth Peters
    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to present the budget request of the Copyright Office for 
fiscal year 2001. In the new millennium, the Office is pleased to 
provide leadership in the establishment of U.S. copyright policy and 
service to the nation in the digital age. To strengthen and improve our 
ability to serve the Congress and the copyright community, the Office 
will focus on several programs in fiscal year 2000, including a study 
to reengineer the registration and recordation processes.
    During the past year, the Copyright Office continued to advise the 
Congress on national and international issues and provided valuable 
assistance to the United States Trade Representative and other 
executive branch agencies. It also continued to create and maintain the 
on-line catalog of copyright and mask work registrations and recorded 
documents, to administer the various compulsory licenses and statutory 
obligations, to further the effort to create a workable automated 
registration, recordation and deposit system, and to offer technical, 
and educational assistance in the international arena.
    The Copyright Office's public services include, responding to 
copyright information and reference requests in person, over the 
telephone, through written correspondence, and electronically through 
the Web; producing and supplying Copyright Office regulations, studies, 
forms, informational circulars, and other publications in paper and 
digital formats; maintaining a 24-hour forms hotline and fax delivery 
service; providing up-to-date information digitally via the Copyright 
Office Website and through an electronic mailing list. The Website 
offers most of the information circulars provided by the Office and the 
ability to fill-in on line and down load application forms. The 
Copyright Website was accessed more than 1.9 million times during the 
year, almost a 100 percent increase over the prior year.
    In fiscal year 1999, the Office processed approximately 620,000 
claims, representing more than 900,000 works, registered more than 
590,000 of these claims, recorded 16,500 documents, that included more 
than 200,000 titles, and responded to 436,000 information requests. The 
Office transferred to the Library approximately 954,000 copies of works 
at a value of $36,435,428. The Office collected approximately 
$16,000,000 for registration, recordation and related services and 
approximately $214,000,000 in royalty fees for compulsory licenses.
Fiscal Year 2000 Focus
    In fiscal year 2000, the Copyright Office will focus on four 
activities:
  --Maintain and enhance the policy role of the Copyright Office in 
        domestic and international copyright matters;
  --Continue to develop, test, and implement the Copyright Office 
        Electronic Registration, Recordation, and Deposit System 
        (CORDS);
  --Improve the security of copyright deposits and records through the 
        continued implementation of the Library's Security Plan and the 
        Copyright Office's risk assessment recommendations, including 
        the introduction of automated item-level tracking and 
        electronic access controls; and
  --Continue to improve the efficiency and timeliness in registration 
        and recordation processing, including the initiation of a 
        business process reengineering study.

Policy Role
    Although there was less legislative activity in the copyright 
sphere in 1999 than during the previous two years, the Copyright Office 
played a very active role assisting Congress in crafting one major 
piece of legislation extending and revising the Satellite Home Viewer 
Act. The legislation concerns the satellite compulsory license that the 
Office administers; it extends the license until December 31, 2004; it 
creates a starting framework to allow satellite carriers to provide 
local TV signals, and it reduces royalty fees.
    A major focus of the Copyright Office's legal efforts during fiscal 
1999 was completing tasks entrusted to us by Congress in the Digital 
Millennium Copyright Act (DMCA) of 1998. The DMCA requires the 
Copyright Office to conduct several studies on various subjects. The 
first study, due six months after the date the DMCA was enacted, was on 
copyright and digital distance education. At the urging of libraries 
and educational institutions, Congress addressed the issue of distance 
education during consideration of the DMCA. Since it was not possible 
at the time to reach a resolution that all of the affected parties 
could live with, further consideration of the issue was deferred until 
the Copyright Office had time to study the issue and report to 
Congress.
    The Office held three public hearings and received numerous written 
comments during the course of the study. The Office also engaged a 
consultant to report on the market for licensing in digital distance 
education. The Copyright Office report concludes that technological 
changes since the adoption of the current Copyright Act make it 
appropriate to revisit the existing exemption for distance education in 
section 110(2) in order to restore the policy balance that Congress had 
intended. Congress has held hearings on these recommendations, but no 
legislation has been introduced.
    In addition to the distance education study, the DMCA requires the 
Copyright Office to conduct a rulemaking on an exemption to 17 U.S.C. 
1201 that would permit circumvention of technological access control 
measures in order to engage in noninfringing uses of copyrighted works. 
The exception would apply only to categories of works as to which the 
Office, through this rulemaking procedure, determines that the ability 
of users to engage in noninfringing uses has been or is likely to be 
adversely affected by the use of technological access control measures.
    The rulemaking process was initially delayed by the inclusion of 
the phrase ``on the record'' in the statute, which appeared to imply 
that the Office would have to conduct a costly quasi-judicial 
proceeding presided over personally by the Librarian of Congress. After 
extensive discussions with the affected parties and the Congressional 
committees, a provision was included in the satellite legislation that 
removes the requirement that our rulemaking pursuant to 17 U.S.C. sec. 
1201(a)(1) be ``on the record.''
    The Office has since initiated the process of consulting with 
affected parties by publishing a Federal Register notice on November 
24, 1999 seeking a first round of public comments. The initial comments 
are now due on February 17, and reply comments are due on March 20. We 
plan to hold two public hearings, one in Washington, D.C. and one on 
the West Coast. We will make our recommendations to the Librarian, who 
will publish his findings by October 28, 2000.
    In the coming year, we anticipate that we will continue to assist 
Congress in legislative matters on such issues as protection of the 
investment in databases, restoration of remedies for intellectual 
property infringements by States, and extension of the cable compulsory 
license online service providers who wish to bring television 
programming through the Internet to these subscribers. We will also 
continue to advise executive branch agencies on international matters, 
including assuring that foreign countries live up to their obligations 
under the World Trade Organization (WTO) Agreement on Trade-Related 
Aspects of Intellectual Property Rights, provide adequate and effective 
intellectual property protection to U.S. right holders and will fully 
participate in the World Intellectual Property Organization's norm 
setting activities, especially its effort to establish a new 
international treaty to protect the interests of performers of 
audiovisual works, e.g., screen and television actors.

Copyright Office Electronic Registration, Recordation, and Deposit 
        System (CORDS)

    In fiscal year 2000, the Office will expand CORDS, the system that 
allows the submission of copyright claims and deposits electronically 
over the Internet. Building on the successful fiscal 1999 
implementation of the CORDS system-to-system submission and the 
processing of 10,000 doctoral dissertations and master's theses 
submitted by Bell and Howell Information and Learning Corporation 
(formerly UMI Co.), CORDS will be expanded during fiscal 2000 to test 
the receipt of claims and deposits from music publishers, coordinated 
centrally through the Harry Fox Agency, a subsidiary of the National 
Music Publishers Association. Other CORDS test partners will begin 
submitting copyright claims electronically through Mixed CORDS, with 
hard-copy deposits, resulting in time and efficiency gains for both the 
Mixed CORDS partners and the Copyright Office. CORDS is the only major 
objective that requires additional resources in fiscal year 2001. One 
GS-13 Computer Specialist is needed to continue work on the CORDS 
system.

Registration and Recordation Operations

    The Copyright Office's goal is timely, efficient, and quality 
service. Throughput time is a major concern to the copyright community. 
Despite valiant efforts by supervisors and staff, registration time 
rose from the norm of six to eight weeks in 1993 to six to eight months 
today. Although we were able to shorten the throughput time by two 
weeks in 1999, this existing time frame is clearly unacceptable. 
Annually, we process approximately 620,000 claims to copyright covering 
more than 900,000 works and more than 1,000,000 deposit copies.
    Staff reductions due to retirements, resignations, and hiring 
inefficiencies have contributed to our inability to reduce the 
processing times. The Copyright Office has endeavored to compensate for 
staff reductions and other pressures in major processing divisions. 
Overtime has been focused on reducing backlogs on an as-needed basis in 
some areas, and regularly in the Examining Division.
    New workload arising from legislative initiatives included 
implementing a system for registration of vessel hull designs and 
recordation of Online Service Provider Agent, and Copyright Owner 
Notice to Libraries and Archives of Normal Commercial Exploitation or 
Availability at Reasonable Price. These new activities required the 
Office to develop new forms, fees, and work procedures using existing 
staff. In the case of vessel hull registration and Online Service 
Provider Designations of Agent, staff had to be assigned to ensure the 
rapid posting and indexing of information on the Copyright Office 
Website.
    The Office reorganized the Receiving & Processing Division's Mail 
Center operations to create a more logical and speedier workflow by 
transferring the metering functions into the Library of Congress's mail 
service, and shifting responsibility for handling correspondence 
functions into the Examining Division. Additional staff were added to 
the Receiving & Processing Division to perform new marking, tagging and 
tracking duties to enhance the security of materials.
    The Examining Division completed its work with labor organizations 
to create new standards for distribution and performance, continued to 
hold facilitative sessions with staff to improve practices and 
procedures, utilized cross-trained staff from other divisions, 
increased its use of fax and email correspondence with applicants, 
expanded its use of a streamlined correspondence system with frequent 
applicants, and cross-trained technicians to process uncomplicated 
claims. The division is hiring additional examiners with funds approved 
for this purpose in the fiscal 2000 budget, and has reorganized its 
training program to ensure that trainees contribute to production of 
claims earlier in their first year of employment.
    The Cataloging Division engaged in a significant effort to continue 
cross-training catalogers, further simplified copyright cataloging 
rules, completed and issued a training manual, and introduced 
improvements to automated cataloging programs to speed data entry. The 
implementation of CORDS mentioned above, has made possible the more 
rapid cataloging of claims received through this system.
    The unacceptable throughput time of more than six months for 
document recordation is being vigorously addressed. A contractor study 
has just been completed, and a plan for improving the process and 
implementing the recommendations is being prepared. This plan will 
include improvements to workflow, rewritten practices, revised 
procedures for correspondence, clearer instructions for use of the 
document cover sheet (a form which assists the Office in processing the 
document), and steps to update or replace some automated systems. 
Additionally, new supervisory staff assigned to the Documents 
Recordation Section in September, 1999, brought much needed leadership 
and vision.
    These various Copyright Office efforts have helped to hold the line 
against the lengthening of an already unacceptable cycle time for 
registration claims and documents. The near term requires filling 
vacant and newly approved positions in these crucial areas, which we 
are doing. However, to bring cycle time down to acceptable levels 
requires more fundamental change--a full-scale business process 
reengineering effort.

Business Processing Reengineering (BPR)

    In fiscal 2000, the Copyright Office initiated plans to reengineer 
its business processes. Authors, other copyright owners, users of 
copyrighted works, copyright industries, libraries, and members of the 
public rely on our records relating to registered claims in copyrighted 
works and recorded documents concerning ownership of works. The value 
of the records is greatest when up-to-date information on new works is 
added to the record and is available to the public in a timely manner. 
This BPR initiative will result in improved overall service by the 
Office.
    This initiative will also complement the Library of Congress' major 
security effort with regard to its collections. The BPR effort will 
result in the reduction of lost materials by eliminating excessive 
movement and handling of materials that enter the Library through 
Copyright Office registration and mandatory deposit systems. It will 
also allow the Office to share data more effectively and to contain 
costs.
    Reengineering will accomplish the following objectives: Improve 
operations and service that will achieve better processing times, 
create timely public records optimum response time for requests from 
the public; enhance operational efficiency through use of new 
(alternative) technologies; contain costs of registration, recordation 
and other services; strengthen security within the Copyright Office; 
and more efficiently use staff and space.
    The Office has completed and submitted a Statement of Work for a 
BPR Study and Implementation Plan to the Library's Contracts & 
Logistics Office for issuance of a Request for a Quotation (RFQ). A 
position has been established and will soon be posted for a GS-15 
Project Manager (NTE 4 years) who, as an expert in Copyright Office 
procedures, will be the Contracting Officer Technical Representative 
(COTR) with the contractor and who will be responsible for working with 
Copyright Office managers, staff and labor organizations during the 
study and assist in the implementation of the agreed upon changes.
    For fiscal 2001, the Copyright Office must decrease its base by 
$400,000, which is the one time cost for the (BPR) study begun in 
fiscal 2000. During fiscal 2001, the Office will review the results of 
the study, and begin the first phase of the implementation plan in 
fiscal 2002. We anticipate that our fiscal 2003 budget request, will 
incorporate the final phase of the BPR initiative.

Security Program

    The Library of Congress continued its major security effort with 
regard to its collections. The Copyright Office successfully completed 
all fiscal year 1999 scheduled action items identified in the multi-
year risk assessment plan. Pending the permanent reconfiguration of the 
Mail Center, an interim reconfiguration was accomplished to facilitate 
several important security initiatives including laser ownership 
marking of non-print materials and applying security strips and bar 
code labels on book material. The bar codes will be an essential 
element of the item level tracking system now being developed. Initial 
purchases were made of security carts for transporting ``high-risk'' 
materials through the processing stages. Additionally, a closed circuit 
video system was installed in the copyright records unit to improve 
security.
    I am please to report that the Office implemented in fiscal 1999, a 
more cost effective process to mark and tag copyright materials, 
resulting in a permanent savings of $420,000. On November 18, 1999, the 
Librarian of Congress on behalf of the Copyright Office submitted a 
reprogramming request to the respective House and Senate Appropriations 
Committees to reprogram the $420,000 in savings to fund an Item Level 
Tracking initiative for Copyright Office materials.

Fee Increases

    At this time the Office forecasts $20,800,000 in fees for fiscal 
2000. This is consistent with the impact on receipts following the last 
fee increase, in January 1991 when receipts declined 7.5 percent. For 
the last two months of fiscal 1999, receipts declined nearly 9 percent 
from the previous year. For the first two months of fiscal 2000, 
receipts were nearly 10 percent lower. We expect that the fee increase 
will result in receipts approximately 10 percent lower than fiscal 
1998, followed by a slow recovery over several years. In addition, 
approximately 20 percent of claims still arrive with insufficient fees, 
creating an extra workload. However, most filers send the required 
additional fee when requested to do so.
    Based on current data and historical trends, the Office projects 
fee receipts of $21,000,000 in fiscal 2001. If receipts exceed this 
forecast, these fees will be transferred to the Copyright Office ``No 
Year'' account. These funds can be used in future years to offset 
increases in expenditures and/or potentially decrease the net 
appropriation.

Summary

    In its fiscal year 2001 budget request, the Office seeks additional 
resources to continue its digital futures initiatives, specifically, to 
hire one additional GS-13 automation specialist. Fiscal 2001 will be an 
important year for the Copyright Office as it reviews the results of 
the BPR study and begins to implement the recommended changes in its 
registration and recordation processes.

    Senator Bennett. Thank you.
    Mr. Mulhollan.
    Mr. Mulhollan. We are grateful for the support the 
committee has given to CRS. Particularly, our request is to 
complete the increase, temporary increase of 30 FTE's for the 
succession initiative that has proven greatly successful. I 
have some examples for the record which I have mentioned in my 
written testimony of three excellent people brought in through 
our recruitment process and continuing.
    Also, the oversight and support this committee has given 
for the Y2K conversion has led to, among other things, success 
stories in managing the concern of CRS with regard to computer 
security.
    We are grateful for the committee's support and we thank 
you.
    [The statement follows:]

               Prepared Statement of Daniel P. Mulhollan

    Mr. Chairman and Members of the Subcommittee: It is a pleasure to 
appear before you today to discuss the fiscal year 2001 budget request 
for the Congressional Research Service. I first want to thank this 
Subcommittee for the support it has given to CRS in the past and to 
express my gratitude for the confidence you have shown in the Service 
and the close working relationship which you have made possible.
    My testimony presents the CRS budget request for your 
consideration, describes our continuing commitment to inform you and 
your colleagues in the discharge of your many responsibilities, and 
summarizes several changes and trends affecting the congressional 
environment and the ways in which CRS has dealt with these 
developments.

                           CRS BUDGET REQUEST

    The budget request I submit today contains only those funds 
necessary to maintain CRS services to the Congress, now and into the 
future. Our request for fiscal 2001 is $75,640,000, an increase of 
$4,666,727 over fiscal 2000. This requested increase has two 
objectives: (1) to sustain current services and cover the increased 
cost of our current staff and nonpersonals, and (2) to fund the third 
year of our three year succession plan for maintaining research 
capacity, preserving our institutional memory, and ensuring continuity 
of service over the next few years, as half of our staff become 
eligible to retire.
    We have made every effort to hold down costs and at the same time 
ensure continued congressional access to our expertise and high 
productivity. Our request for maintaining current services covers 
mandated increases in compensation, namely cost-of-living increases 
($3,391,482) and price level increases in nonpersonals ($144,473).
    The second part of the request will help us ensure that we can 
maintain our research capacity and services to the Congress at a time 
when many of our most expert and experienced staff will retire. The 
funding requested, $1,130,772, will permit CRS to continue to hire 
entry level staff in anticipation of this large number of retirements. 
Let me assure you that we remain committed to working within our fiscal 
2000 budgeted full-time equivalents.

                       CRS: CHANGE AND CONTINUITY

    The beginning of a new century affords any organization a unique 
opportunity to re-examine its past and formulate its vision for the 
future. When one considers as well the current climate of increasingly 
rapid change in the congressional environment, those of us responsible 
for guiding CRS must devote a good portion of our energies to analyzing 
current and likely future changes affecting the Congress and adapting 
our work processes accordingly, so that the Service can continue 
providing effective support to you and your colleagues. Later in my 
testimony, I will touch briefly upon several recent trends which have 
significant implications for the work of Members and staff, as well as 
the various ways in which CRS has sought to adapt and respond 
proactively to these forces.
    Before proceeding further, however, I would like to introduce the 
second theme of my remarks today, namely, that in adapting to change we 
in CRS are always mindful of the need to preserve, that is, to leave 
unchanged, those principles that form the core of the mission 
established for us by the Congress at our creation in 1914, and 
reaffirmed in the Legislative Reorganization Acts of 1946 and 1970.
    Mr. Chairman, we are all aware of the tendency to conclude that new 
and often unsettling changes advances in technology, international 
terrorism, the growth of multi-national corporations, to name a few 
cannot be dealt with effectively by existing institutions and therefore 
require not merely adjustment, but fundamental changes in the way our 
government operates.
    In CRS, however, we remain committed to the view that the role of 
the Congress, as set forth in the Constitution and refined over more 
than 200 years of experience, is as viable and sound today as it was in 
1787. During its history, Congress has successfully coped with periods 
of dramatic change and uncertainty: the Civil War, two World Wars, the 
Great Depression of the 1930's, and the Cold War are notable examples. 
Many of Congress' constitutional prerogatives and responsibilities 
continue to be exercised in a manner that would be easily recognizable 
to the Framers, such as the use of the appropriations power, oversight, 
and as a last resort the impeachment process to provide a necessary 
check on the other Branches.
    Today, however, I would like to focus upon the attribute of 
Congress that is generally known as its informing function, the process 
by which Congress informs itself about the decisions it must make (as 
distinguished from the separate and more recent notion of the 
responsibility of Members to inform their constituents). I am focusing 
on one particular function of Congress because the belief that 
legislation can and should be based upon rational policy decisions, and 
that an informed legislature is therefore required, was the driving 
force responsible for the creation of CRS. Further, our central values 
and policies non-partisanship, balance, non-advocacy, and 
confidentiality all derive directly from our role in supporting the 
informing function.
    The historical power, and indeed the obligation, of Congress to 
inform itself, was eloquently formulated over seventy years ago by the 
Supreme Court in McGrain v. Daugherty:

    ``A legislative body cannot legislate wisely or effectively in the 
absence of information respecting the conditions which the legislation 
is intended to affect or change; and where the legislative body does 
not itself possess the requisite information--which not infrequently is 
true--recourse must be had to others who do possess it. * * * All this 
was true before and when the Constitution was framed and adopted. In 
that period the power of inquiry--with enforcing process--was regarded 
and employed as a necessary and appropriate attribute of the power to 
legislate--indeed, was treated as inhering in it. Thus there is ample 
warrant for thinking, as we do, that the constitutional provisions 
which commit the legislative function to the two houses are intended to 
include this attribute to the end that the function may be effectively 
exercised.'' (273 U.S. at 175.)

    Indeed, the courts have recognized that Congress' ability to inform 
itself is an essential component of the legislative process and is 
therefore entitled to the protection afforded by the Constitution's 
Speech or Debate Clause. Moreover, while the informing function is 
often associated with congressional oversight and investigatory powers, 
the courts have made it clear that the ``need for effective and 
informed lawmakers'' is not limited narrowly to its investigative 
activities, but rather ``Congress * * * must have the widest possible 
access to* * o * information if it is to perform its manifold 
responsibilities effectively'' (Murphy v. Department of the Army, 613 
F.2d 1155-56, 1158).
    The informing function was also further developed in legislative 
bodies at the State level. By the beginning of the twentieth century, 
the impetus of the Progressive movement had contributed to a broadening 
of the informing function to encompass the creation of legislative 
support agencies in a majority of the States. Eventually, this movement 
led to the establishment of a similar organization at the national 
level. The Legislative Reference Service (LRS) (renamed the 
Congressional Research Service in 1970), was formed by the Congress in 
1914 with the explicit mission of aiding Congress in carrying out its 
informing function. In the words of Senator Robert M. LaFollette, a 
principal architect of LRS, its creation represented ``an important and 
necessary step toward rendering the business of law making more 
efficient, more exact, economically sound and scientific.''
    When Congress first gave CRS a statutory charter in 1946, it 
reaffirmed the importance of the informing function by accepting the 
principle that LRS staff should serve as a pool of independent 
expertise available to the entire Congress. Again, when CRS' charter 
was revised and strengthened in the Legislative Reorganization Act of 
1970, Congress returned once more to our basic role as an efficient, 
objective source of information to support Members in the effective 
exercise of their legislative duties. In the words of the House Rules 
Committee Report on the 1970 Act, a non-partisan CRS, available as 
shared staff accessible to all Members, would:

    ``Insure the equal availability of information to both Houses of 
Congress; insulate the analytical phase of program review and policy 
analysis from political biases and therefore produce a more credible 
and objective product and more easily develop common frames of 
reference and analytical techniques that would make such analyses more 
useful and meaningful to all committees.''

    Mr. Chairman, I respectfully submit that the historical record 
described above demonstrates two things: first, that the Congress 
remains firmly committed to the value of objective, accurate 
information as a basis for legislation; and second, that CRS throughout 
its existence has played an important role in supporting the Congress' 
informing function.
    Our challenge, then, is to combine flexibility and innovation in 
response to changes in your environment with continuity in our 
adherence to the core principles which the Congress has established for 
us.

                CHANGES IN THE CONGRESSIONAL ENVIRONMENT

    To illustrate the manner in which we apply this approach in 
specific circumstances, let me discuss briefly several recent trends 
and developments which have altered the environment in which you and 
your colleagues work, and describe how CRS has responded to them, 
including the impact of recent court rulings on congressional 
authority, congressional turnover, and rapid changes in technology.

              JUDICIAL LIMITATIONS ON CONGRESSIONAL POWER

    Jurisprudential trends in the last few years have had a significant 
impact on Congress' powers. All of these developments have not only 
created jurisprudential upheaval but have made it incumbent that 
Congress understand these newly imposed limitations on its lawmaking 
powers. Litigation is flourishing not only in the Supreme Court but in 
the lower federal courts challenging numerous federal laws on a variety 
of grounds. The development of legislative proposals must take these 
constitutional limitations into consideration as Congress fashions laws 
within the newly articulated boundaries set by the Court. The enhanced 
protections for the States also influence what legislative proposals 
are put forward and increase the vulnerability of legislative proposals 
to challenges based on these jurisprudential trends.
  --For the first time in over 50 years, the Supreme Court, in 1995, 
        struck down a law--the Gun-Free School Zones Act--which was 
        enacted on the basis of Congress' broad power to regulate 
        interstate commerce. The Court held that the law exceeded 
        Congress' commerce power and its holding has raised questions 
        about Congress' ability to enact national legislative solutions 
        to certain problems. A related series of cases has confined 
        Congress' power under its authority to enforce the rights 
        contained in the 14th Amendment, limiting what the Court saw as 
        Congress' attempt to define new rights or redefine rights that 
        were the subject of Court pronouncements. The trend to 
        criminalize conduct hitherto the subject of state law and to 
        create federal remedies for wrongs previously adjudicated on 
        the state level has been most affected by the recent court 
        cases and the issue continues to be played out in the Supreme 
        Court.
  --A related development has been the Court's limitations on Congress 
        enacting legislation that has the effect of utilizing state 
        executive officials to implement federal law or forcing state 
        legislatures to enact state legislative regimes pursuant to 
        federal dictates. The Brady Handgun Control Act, partially 
        invalidated by the Court in 1997, is an example of this trend, 
        in which the Court has interpreted the Tenth Amendment and the 
        structure of the Constitution as placing limits on Congress 
        when it involves the States in the effectuation of federal 
        policy.
  --The cabining of Congress has also manifested itself in the recent 
        flurry of cases that have limited the ability of Congress to 
        authorize lawsuits against states under federal law. 
        Individuals' rights to sue State employers in federal court 
        under the Age Discrimination in Employment Act is a recent 
        casualty (decided on January 11, 2000). The Court has struck 
        down federal laws authorizing litigation against States under 
        the patent and trademark laws and is considering the validity 
        of ADA lawsuits against States.

CRS Response

    CRS has responded with the expert legal advice critical to 
Congress' ability to legislate against the backdrop of these new 
constitutional limitations. It is often necessary to include in 
analyses provided to Congress consideration of many new aspects bearing 
on the question of the underlying power of Congress to impose 
particular obligations on the States and to provide for remedies for 
violations of federal laws when hitherto such matters did not have to 
be seriously addressed.
    The legal backdrop against which Congress legislates may be 
changing in significant ways and the relative balance of power between 
the States and the federal government in our constitutional system may 
be shifting. Nevertheless, the traditional role of CRS as an 
interpreter of these changes for Congress and a source of analytical 
expertise in assisting Congress in fashioning its legislative work 
product consistent with the new legal and constitutional dictates 
remains. In summary, CRS offers an institutional perspective informed 
by years of studying and analyzing these issues as they impact on 
Congress and an unmatched breadth of resident expertise available to 
Congress in a period in which the legal and constitutional landscape is 
rapidly changing.

                          CONGRESSIONAL TENURE

    A second trend that merits discussion is the increasingly rapid 
turnover in the tenure of Members and congressional staff. It is 
important to note that this trend applies both to the length of time 
that individuals remain within the Congress as an institution, as well 
as to service in particular positions or offices. Significant aspects 
of this development include the following:
  --Turnover among Senators has been substantial in recent years. The 
        decade of the 1990s witnessed the largest number of 
        retirements--37--in the twentieth century. Significant numbers 
        of new Senators have been added in each recent election cycle: 
        14 new Senators in 1992, 11 in 1994, 15 in 1996 and 8 in 1998.
  --Under current Senate Republican Conference rules, Republican 
        committee chairs and ranking members can serve no more than six 
        consecutive years beginning in 1997. A similar limitation 
        applies to service in any elected Republican party leadership 
        positions other than Floor Leader and President Pro Tempore. As 
        a result, considerable turnover in committee and party 
        leadership will occur in future Congresses commencing with 
        2003, even in the absence of a change in current party control 
        of the Senate.
  --Staff tenure in the Senate, particularly length of service in 
        particular positions, is undergoing a significant decline. 
        According to the Congressional Management Foundation, in 1999 
        nearly 50 percent of Senate staff had less than 1 year in their 
        current positions. When broken down, this overall figure (which 
        represents an all-time low since the Foundation began compiling 
        tenure data in 1991) reveals considerable turnover even in 
        critical positions: 52 percent of Legislative Counsels, 46 
        percent of Legislative Assistants, and 38 percent of 
        Legislative Directors have served less than 1 year in their 
        current positions.

CRS Response

    Clearly, these developments require CRS to be particularly 
attentive to serving the many Senators and staff taking on important 
new responsibilities. While specific committee and leadership changes 
for the 108th Congress are simply too complex to forecast at this 
juncture, it is likely that considerable shifts will result from a 
combination of continuing turnover among Senators and their staff, 
party term limits rules, and possible changes in party control of the 
Senate. CRS will need to anticipate and prepare for these changes by 
developing its research capacity during the upcoming 107th Congress and 
ensuring that CRS addresses the full range of issues likely to be on 
the agenda of all committees, especially those likely to be chaired by 
new Senators in January 2003.
    CRS policy, legal, and procedural specialists are available to 
provide the expertise to help new chairs and ranking members accomplish 
their legislative and policy objectives and to analyze a wide range of 
options on issues before their respective committees. CRS also has the 
welcome assignment of briefing new Senators and their office and 
committee staff on a wide range of substantive and procedural issues. 
In this videopolitics information age, new Senators are expected to be 
conversant with almost every issue imaginable. Given the breadth and 
depth of expertise at CRS, we are well-positioned to help incoming 
Senators and their aides become knowledgeable quickly on the issues of 
the day. Moreover, CRS procedural and legal staff are frequently called 
upon to personally brief and prepare reports on the workings of the 
Senate, even for those new Senators who have previously served in the 
House. In short, the constant circulation of new Members and staff 
aides into the Senate requires CRS to devote considerable time, 
resources, and professional talent to providing support on both 
substance and procedure.

                         INFORMATION TECHNOLOGY

    Turning to another and third area of change, developments in 
information technology are having rapid and continuous effects on the 
congressional environment. These developments have a significant 
impact, both on substantive issues before the Congress and on the way 
in which Congress works. While my testimony today will focus on the 
implications of technological change for congressional work processes, 
I should note that our analysts have also provided support on a range 
of legislative initiatives undertaken by Congress in response to 
developing technology. For example, CRS analysts assisted Members of 
Congress and their staff in understanding the issues, including 
potential costs and benefits, as federal policymakers successfully 
addressed the Y2K issue. CRS also provided expert analysis and advice 
on the Satellite Home Viewer Improvement Act, which is intended to 
provide consumers with greater access to network television stations 
via satellite retransmissions into local market areas. Third, an 
important conduit of Internet connections in the new century is 
broadband technology the ``fat pipeline'' that may allow a wide range 
of voice, data, video and interactive communications into U.S. 
households. CRS analysts have provided extensive briefings for 
congressional staff on the policy implications and technology 
developments of this vital technology development.
    CRS has also been responsive to changes in legislative work 
patterns driven by evolving technology, including increased reliance by 
Members and staff on internet information sources, the building of 
resident online legislative information resources for both chambers, e-
mail communication capabilities, remote access to office information, 
electronic communication with constituents, computer security concerns, 
and the increased use of audio and video capabilities.
    Let me first mention that we fully appreciate the critical nature 
of computer security for our systems in light of our confidential 
relationship with the Congress and the potentially sensitive nature of 
the information that we transmit or that resides on our electronic 
systems. The importance of such security is made even more paramount by 
the structural intertwining of CRS, Library, and congressional systems 
through the Capitol Hill intranet known as CAPNET. We have taken many 
steps to deal with security issues, including the commissioning of 
studies by outside experts, including the National Security Agency, 
increasing password, virus, and remote access protections, improving 
physical security, and informing and training staff regarding proper 
security procedures and policies. Recent experiences both within the 
Congress and in executive agencies have reinforced our resolve to 
remain vigilant in the protection of congressional information.

CRS Initiatives

    CRS has undertaken many significant initiatives in an effort to 
adapt to and take advantage of new technological capabilities to the 
extent our resources permit. In my testimony today, I will report to 
you on three of these activities, our continuing support of the 
Legislative Information System, our Y2K transition process, and the 
continuing development of our CRS Web site.

            Legislative Information System

    Under the overall direction of the Committee on House 
Administration and the Senate Committee on Rules and Administration, 
CRS and the Library, working with the Clerk of the House and the 
Secretary of the Senate, have developed an integrated and secure 
legislative information retrieval system for the Congress that serves 
the research and informational needs of Members and staff by providing 
access to core legislative data that is accurate, timely, and complete. 
The first release of the LIS, launched in January of 1997, included the 
summary, status, and text of bills; the text of the daily Congressional 
Record; committee reports and other publications; selected CRS Reports 
and Issue Briefs; and other legislative branch publications and 
services. Developed in concert with the House and Senate, the LIS was 
designed to reduce duplication of legislative retrieval systems within 
the Congress. It serves both novice and expert users.
    During 1999 CRS and the Library's Office of Information Technology 
Services completed most of the major enhancements approved by the 
Committee on House Administration and the Senate Committee on Rules and 
Administration. These efforts focused on developing and implementing a 
data exchange system among the House, Senate, and Library that was Y2K 
compliant; developing new data files and retrieval capabilities to 
provide users with a system that was comparable to Congress' legacy 
systems; and enhancing the Library's technical infrastructure to ensure 
that access to the retrieval system was reliable and secure. In 
addition to technical developments, CRS continued to work with 
congressional user groups and established methods to ensure that Senate 
and House staff had opportunities for input into the design of the 
retrieval system. While it is anticipated that the content of the LIS 
will undergo expansion and modification as user needs are identified, 
the CRS effort, coordinated with the Library, will remain focused on 
maintaining a state-of-the-art retrieval capability for core 
legislative information. LIS development continues with no additional 
funding; we have accomplished this important assignment utilizing 
existing staff and expect to continue doing so, notwithstanding the 
strain on CRS resources.

            Y2K

    Turning to a second technology initiative, the Y2K transition 
process required the inventory, review, assessment, and testing of 
virtually the entire CRS technical infrastructure. This included 
hardware, operating system-level software, and application-level 
software. As a consequence of this analytic effort, several parts of 
the CRS technical infrastructure were upgraded or replaced, increasing 
CRS efficiency and effectiveness in serving Congress. Several of the 
upgraded or replaced systems provide additional capabilities or 
constitute significant improvements in design. In one case a new system 
also allows for better coordination with congressional systems.
    The CRS Y2K effort resulted not only in assurance that all systems 
would successfully transition to the year 2000, but also led to 
significant improvements in our resident technology. For example, 
conversion of the Bill Digest/Bill Status and Summary portions of LIS 
to a new Documentum system, as mentioned earlier, was driven by the 
non-Y2K compliance of the legacy systems. The new system, designed in 
consultation with both the House and Senate, has resulted in enhanced 
data sharing and efficiency. Y2K assessment also resulted in 
replacement of some of our administrative legacy systems. More 
generally, upgrading of operating system-level components, in a common 
time frame, resulted in synchronization of versions, releases and 
application of software ``patches''. CRS also procured a number of 
assessment tools that, while needed for the Y2K process, will now serve 
to streamline and enhance troubleshooting and other functions.
    CRS is continuing to determine ``best practices'' learned from Y2K 
work to apply to ongoing oversight and updating of hardware systems and 
software applications. The CRS contingency planning has also become a 
foundation for efforts to develop more comprehensive disaster recovery 
plans.

            CRS Web Site

    A third area of CRS technological development concerns our Web 
site, available only to the legislative branch, which makes many CRS 
products and services available to the Congress electronically through 
the security of the CAPNET. This web site currently makes available all 
Issue Briefs, active CRS Reports, bill summary and status information; 
extensive coverage of all appropriations legislation; weekly alerts to 
CRS products related to upcoming floor action (the Legislative Alert); 
public policy literature abstracts and documents; Internet sources of 
information on issues of congressional interest; and information on 
legislative procedures, CRS services, and other items of use to Members 
and congressional staff. The site is the subject of constant review, 
updating, and improvement, and we continue to provide these 
enhancements without additional resources.
    During the last Congress CRS began pilots of new web products 
called ``Electronic Briefing Books''--these integrate key information 
and analysis on active legislative issues and present them in 
interactive electronic formats that provide congressional clients with 
the ability to customize their online research. Electronic Briefing 
Books also offer access to a new concept--CRS analysis written 
specifically for the electronic environment. CRS offered several 
additional electronic briefing books on a broader range of topics in 
the second session of the 106th Congress and plans to continue 
development of this concept (Currently available CRS Electronic 
Briefing Books are: ``Banking and Financial Services''; ``Campaign 
Finance Reform''; ``Electric Utility Restructuring''; ``Global Climate 
Change''; ``Social Security Reform''; ``Taxation''; ``Terrorism''; 
``Tobacco''; ``Trade''; ``Year 2000 Computer Problem,'' with 
``Education'' nearing completion).
    CRS Issue Briefs and an increasing percentage of reports are 
available in a hypertext format that allows the user to move easily 
within the document, to link to the text and summary of relevant 
legislation, to link to sources of information outside CRS, and to link 
to other CRS products on the topic. Several components of the CRS web 
site, such as CRS Issue Briefs and analyses of appropriations, can also 
be accessed directly from the congressional Legislative Information 
System (LIS). CRS is also exploring the use of advanced graphics, as 
well as the ``streaming'' of audio and video products to enhance the 
availability, effectiveness, and utility of online information for 
Members and staff.
    Last year CRS created a team to develop a strategic plan for the 
development and management of the CRS web site for the Congress. Among 
other tasks, the team was charged with developing a plan that will 
foster creativity and provide for expeditious development and 
implementation of new products and services; clarify organizational 
responsibilities for site design and oversight; specify mechanisms and 
staff responsibility for content development, usability testing, and 
quality control; and generally facilitate the development of an 
effective web site administration structure that is client focused. 
Recommendations are expected in late February.
    Although we are actively exploring ways to capitalize on 
technological changes, CRS and our oversight committees have been 
cautious in considering proposals that cite technological developments 
as a justification for fundamental alterations in the operations of CRS 
and the Congress.

                      PUBLICATION OF CRS PRODUCTS

    An example of the possible unintended consequences of technological 
change is a proposal which, if adopted, could diminish our capacity to 
serve you and could lead to CRS assuming functions which have 
historically been exercised by Members themselves, not by staff. 
Pending bills to make CRS products directly available to the general 
public via the Internet would change a long-standing congressional 
policy that publication of CRS materials is to be made only by Members 
on a selective basis as they deem appropriate. While current technology 
appears at first glance to make massive public dissemination more 
feasible than before, we share the concerns expressed by our oversight 
committees that such action would have serious, if unintended, 
consequences for our ability to serve you. Because the matters at issue 
go to the very heart of our relationship with the Congress, and our 
continued ability to support you in the exercise of informing 
yourselves, I believe it is incumbent on me to elaborate on this matter 
in some detail.
    Historically, CRS has struck a delicate balance between 
confidentiality and accessibility in serving the Congress. In 
responding to each request that CRS receives, we are obliged to 
maintain the same confidentiality in our communications as do personal 
and committee staff. However, because CRS as shared staff serves all 
members by serving each Member, our relationship with Representatives 
and Senators necessarily is more complicated than the relationships 
between Members and both personal and committee staff.
    The ultimate reason we exist as an organization is to make possible 
a well-informed Congress. Consequently, we cannot avoid having to 
strike a balance between confidentiality and accessibility between 
preserving confidentiality in our communications with Members and their 
other staff, and making our information and analysis as readily 
accessible as possible to all Members and staff.
    If not for the need to balance confidentiality and accessibility, 
each of our reports would be available only to the Member who requested 
us to write it. No other Member would be able to read a report, or even 
know of its existence, without the prior consent of the Representative 
or Senator for whom it was prepared. In fact, this is CRS policy with 
regard to memoranda prepared at congressional request unless the 
requesting Member waives his or her exclusive control over a 
memorandum.
    It also is CRS and congressional policy, however, to encourage 
Members to allow us to prepare written products that we can make 
available to all Members. A shared staff is most cost-effective for 
Congress only when we share our expertise with all Members who seek it. 
So CRS has a responsibility to make the knowledge of its staff 
accessible to all Members. If our manpower and other resources were 
unlimited, and if time were never a concern, we could write a new 
report to respond to each request, even if we had received much the 
same request many times before. Even if we had these capabilities, 
though, it would be wasteful to create such a large organization when 
we can satisfy many requests with the same report while improving the 
timeliness, and without significantly diminishing the quality, of our 
responses.
    It is for this reason that many written CRS products are in the 
form of reports and issue briefs that are advertised and available to 
every Representative and Senator. These products often draw upon 
research and analysis originally undertaken in the preparation of 
memoranda for individual clients, although the memoranda themselves 
remain confidential. With the support of Congress, in fact, we have 
taken major strides within the last few years to increase the 
accessibility of our congressionally distributable written products by 
making all of them available on line.
    Thus, CRS seeks to maximize access through reports and issue briefs 
that we can distribute to all Members because the unrealistic 
alternative would be to prepare essentially the same confidential 
report again and again and again. Our reliance on generally-accessible 
reports is simply a recognition of the fact that there is no other way 
in which we can effectively serve more than five hundred Members and 
their committees.
    We must strike a balance between confidentiality and accessibility, 
therefore, but only because accessibility is inescapable if we are to 
meet our responsibilities to inform all Members of both houses and do 
so in a timely and cost effective manner. For CRS, confidentiality is a 
cardinal principle; accessibility is a practical necessity.
    It follows that making CRS reports available online to the public 
would be more than an incremental expansion of our policy of 
accessibility or an adaptation of that policy to the opportunities 
presented by new technologies. Instead, direct public access would mark 
a fundamental departure from this policy and the reason for it. We make 
our reports generally accessible to Congress because there is no 
realistic way in which we can communicate so much so quickly to so 
many. In other words, the accessibility of our reports within Congress 
is unavoidable if we are achieve our sole goal: to serve Congress.
    Public accessibility, on the other hand, would serve an entirely 
different purpose: to inform the general public. No doubt informing the 
general public is an admirable purpose, but it is not the one for which 
Congress created CRS. What is more, public access to CRS reports 
undoubtedly would create demands that would make it more difficult for 
us to accomplish our central mission. Public access to our reports 
inevitably would provoke public reactions, and responding to those 
reactions would become a time-consuming and potentially all-consuming 
task.
    Finally, Congress has traditionally regarded relationships with 
constituents as a responsibility and a prerogative of Members 
themselves. It may be questioned whether delegating such a function to 
a staff agency such as CRS, which has no experience with or resources 
available for dealing with constituents, would represent either an 
efficient or appropriate mission for us. Such a shift in our role, from 
supporting Members to substituting for them, could have serious 
repercussions in our long-term relationships with you and your 
colleagues.

                          SUCCESSION PLANNING

    The declining tenure of Members and congressional staff, and the 
resulting loss of experience throughout the Congress, make it even more 
imperative that CRS preserve its role as a collective institutional 
memory. We have taken many initiatives to maintain this capacity, 
including implementation of the organizational realignment on which I 
reported to you in last year's testimony.
    Central to our efforts is the CRS succession plan, now in its third 
year, which is designed to pass along the expertise and institutional 
memory of veteran CRS staff prior to their expected retirements over 
the next several years. The plan, based on a research capacity risk 
assessment and staff surveys, envisions that newly hired, entry-level 
staff will work closely with senior analysts in an apprenticeship 
capacity, acquiring subject area knowledge and familiarity with the 
unique set of principles and guidelines that govern our relationship 
with the Congress.
    Thanks to you and your colleagues, Mr. Chairman, this vision is 
becoming a reality. In fiscal 1999, the Congress provided $435,585 
which supported ten hires. In fiscal 2000, an additional $559,052 was 
provided, which was later reduced to $288,325 as a result of the .38 
percent across-the-board cut; these funds supported five additional 
hires. This additional funding has enabled us to recruit significant 
new talent to CRS, using three national recruitment programs: the CRS 
Graduate Recruit Program, the CRS Law Recruit Program, and the 
government-wide Presidential Management Intern Program. Through these 
programs, we have hired entry-level staff from some of the top graduate 
schools in the country. With your support, CRS has hired entry-level 
analysts in a number of critical subject areas. These areas include: 
social security; transportation; Africa, Asia and the Middle East; 
public finance; biomedical policy; natural resources and environmental 
policy; industry economics; and the physical sciences. Working under 
the direction of senior CRS analysts, these staff are already making 
significant contributions to the work of the Congress. They are 
conducting in-depth research on topics of legislative interest, writing 
analytical reports and memoranda in response to congressional requests, 
participating in CRS-sponsored seminars and briefings, and performing 
valuable information research services in CRS reading rooms and 
research centers. I have with me a document that highlights some of the 
contributions made by three of our recent hires--Christine Devere, Jon 
Shimabukuro, and Kai Barth--who I believe are representative of the 
high caliber of talent and expertise that these new staff bring to CRS. 
I would be pleased to submit that document for the record, along with 
some specific examples of their work.
    Mr. Chairman, I want to take this opportunity to thank you once 
again for supporting our succession plan, particularly during this 
period of fiscal constraint. We recognize the investment you are making 
in CRS's future, and we are committed to making good on that 
investment. In fiscal 2001, we are requesting $860,045 to continue to 
fill positions in additional high risk issue areas before retirements 
significantly reduce research capacity, and $270,727 to restore the 
succession positions lost in the fiscal 2000 rescission, for a total 
fiscal 2001 increase of $1,130,772. With your continued support, Mr. 
Chairman, CRS will be able to sustain the type of information and 
analytical support that you have traditionally sought and received from 
us.

                               CONCLUSION

    Mr. Chairman, I want to conclude by thanking you for the 
opportunity to appear before you and your colleagues today. I want to 
reiterate how much we appreciate the support which this Subcommittee 
has given to CRS in past years, and I hope that our assistance to the 
Congress in the future will warrant your continued confidence and 
trust.
                                 ______
                                 
      Profiles of Recent Staff Hired Under the CRS Succession Plan

    Through its succession plan, the Congressional Research Service 
(CRS) has attracted a number of highly qualified candidates using three 
national recruitment programs: the CRS Graduate Recruit Program, the 
CRS Law Recruit Program, and the government-wide Presidential 
Management Intern (PMI) Program. This document and its attachments 
outline some of the contributions being made by three individuals hired 
under CRS's succession plan programs: Christine Devere, Jon 
Shimabukuro, and Kai Barth. Each is representative of the high caliber 
of talent and expertise that Graduate Recruits, Law Recruits, and PMIs 
bring to the Congress and to CRS.
    Christine Devere: Christine's first exposure to CRS came in the 
summer of 1997 when she participated in the CRS Summer Employment 
Program, the precursor to the full-fledged Graduate Recruit Program. At 
that time, Christine was a graduate student pursuing a master's degree 
in public policy at the University of Rochester. During that summer, 
working with experienced staff, Christine helped prepare estimates of 
welfare-to-work state grants. She also contributed to the development 
of a research database that is used to collect and analyze information 
on two additional programs--the Temporary Assistance for Needy Families 
(TANF) program and the child care and development block grant program. 
In 1998, upon completion of her master's degree, Christine returned to 
CRS as a Presidential Management Intern (PMI).
    During her tenure at CRS, Christine has prepared analyses and 
briefed congressional staff on a number of issues surrounding welfare 
reform, child care, adoption assistance, and foster care. An example of 
Christine's analytical expertise can be seen in her analysis of the 
National Survey of Family Growth, which examines why there are low 
adoption rates for special need children. More recently, Christine 
presented a research plan for a CRS analysis of welfare reform 
evaluations to a group of nationally-recognized welfare experts and 
senior congressional staff. Christine's presence has expanded 
significantly CRS's capacity to analyze difficult public policy issues 
like welfare reform through her use of statistical analyses of survey 
data, the preparation of grant estimates, and the critical review of 
public policy evaluation.
    Jon Shimabukuro: Jon joined CRS through the CRS Law Recruit Program 
in September of 1998, shortly after receiving his J.D. degree from 
Washington University School of Law in St. Louis, Missouri. During his 
law school years, Jon gained considerable legal experience serving as 
an intern with both the U.S. Magistrates Office of the U.S. District 
Court in the Southern District of Illinois and the City of Tacoma Human 
Rights Department. He also worked as a Summer Associate with the Office 
of Legal Counsel, May Department Stores Company, where he gained 
experience in the labor and commercial law arenas. Jon received his 
B.A. from Vassar College where he majored in Urban Studies.
    Upon joining CRS, Jon quickly immersed himself in the legal and 
legislative intricacies of both electricity deregulation and managed 
care. He contributed the legal analysis section of the CRS Electric 
Utility Restructuring Electronic Briefing Book, co-authored a CRS 
report on electricity restructuring, and participated in several high 
level briefings for Members and staff. Under the direction of a more 
senior CRS attorney, Jon assisted a Member in drafting a piece of 
managed care legislation and prepared a CRS report analyzing recent 
proposals for grievance and appeals procedures in managed care. Jon 
also participated in a CRS Federal Law Update (FLU) seminar where, with 
two of his fellow attorneys, he addressed legal issues regarding 
proposed patients' rights legislation. While much of his work has been 
in these areas, Jon has also researched and written on legal issues 
relating to business law, civil rights and labor law. During his brief 
tenure, Jon has had significant contact with Committee and Member 
staff, participating in a number of briefings, and has developed 
important relationships with CRS colleagues.
    Kai Barth: Kai joined CRS in the summer of 1999 as a Graduate 
Recruit Analyst in Science & Technology Policy. He currently is in the 
process of defending his doctoral dissertation in History of Science 
and Technology at the University of Minnesota, where he maintained a 
4.0 grade point average. Kai received his M.S. in Experimental High-
Energy Physics in 1991 and a B.S. in Physics in 1984. In addition to 
his academic background, Kai has worked as a high energy physicist at a 
particle physics laboratory; written and published numerous papers, 
including an article on seismology and nuclear test ban negotiations 
that was published in Physics Today; and spent a summer working for the 
National Academy of Sciences.
    In just a short time, Kai has made significant contributions to 
CRS, most notably in the areas of nuclear non-proliferation issues, 
high-energy physics, and the Spallation Neutron Source project. Under 
the direction of senior CRS analysts, Kai has authored a number of 
analytical reports and memoranda on these issues and participated in 
several policy meetings with congressional and professional staff. Kai 
also provided extensive research and support in designing and 
implementing a website that will be used by the Senate Governmental 
Affairs Committee as an electronic committee print on the issue of 
nuclear non-proliferation.
                                 ______
                                 
  Adoption: Characteristics of Women Interested in Adopting a Child--
                             August 5, 1998

                                ABSTRACT

    This report analyzes data from the 1995 National Survey of Family 
Growth (NSFG) that asked a sample of women of child-bearing age (15 to 
44) questions about their interest in adoption. Specifically, this 
report addresses three topics. First, the number of women interested in 
adoption is examined to identify the potential pool of adoptive women. 
Second, this report examines select characteristics of women in 1995 
who are interested in adoption. Finally, the preferences for children 
among women interested in adoption are explored. Conclusions and policy 
implications are provided. This report will not be updated.

Summary

    Federal policy actively supports the adoption of children, with 
special emphasis on children with special needs. In recent years, 
particularly as the number of children in foster care has grown, 
Congress has enacted additional legislation. In 1997, legislation 
intended to shorten a child's length of stay in foster care and to 
promote adoption (Public Law 105-89) was enacted.
    According to the most recent data available on total adoptions in 
the United States, 127,441 children were adopted in 1992. However, in 
fiscal year 1996, there were approximately 500,000 children in foster 
care, of which an estimated 80,000 had case plans for adoption. Within 
the adoption community, a controversy exists around the question of 
whether there are enough families interested in adoption to adopt every 
child legally available, including the 80,000 children currently in 
foster care awaiting adoption. The population of children in foster 
care awaiting adoption is comprised disproportionately of older 
children, many of whom have special needs or circumstances.
    This report analyzes data from the 1995 National Survey of Family 
Growth (NSFG) that asked a sample of women of childbearing age (15 to 
44) questions surrounding their interest in adoption. The estimates are 
based on the responses gathered from the women surveyed and should be 
interpreted with caution. Adoption is a relatively rare occurrence and 
therefore, in some cases, the number of responses is small. The key 
findings are as follows:
  --In 1995, 12.7 million women (or 23 percent of the 15 to 44 year old 
        age group) indicated that they had ever considered adopting a 
        child. However, approximately 500,000 (1 percent of the 
        population) were seeking to adopt a child in 1995. Further, 
        there is evidence that these responses may be more casual than 
        serious. Among the 12.7 million women who said they had ever 
        considered adoption, only 1.8 million had taken steps toward 
        adoption. Among the 500,000 who claimed to be seeking to adopt 
        a child in 1995, only about 182,000 had actually taken steps.
  --Older women, married women, higher income women, and women who 
        cannot bear their own children are most likely to have actually 
        adopted. However, marital status and income were not as 
        important in predicting whether a woman would be interested in 
        adoption.
  --The low rate of adoptions among women who express interest in 
        adoption may be related to the type of children they want to 
        adopt and the extent to which these children are available. 
        Women primarily expressed a preference for healthy young 
        children and generally expressed no preference regarding the 
        sex or religion of the child. While the majority of women 
        prefer a child of their own race, a substantial number of women 
        were indifferent as to the race of the child.

Introduction

    Federal policy actively supports the adoption of children, 
particularly children with special needs. Under Title IV-E of the 
Social Security Act, the federal government helps states provide 
financial assistance to parents who adopt hard-to-place children. Under 
the Adoption Opportunities Program, the federal government supports 
state and local projects intended to promote adoption, particularly for 
special needs children in foster care. Special needs children are 
generally defined to include older children, those who are disabled or 
have other medical or emotional conditions, members of sibling groups, 
and racial or ethnic minorities. In recent years, as the number of 
children in foster care has grown, Congress has enacted additional 
legislation to promote adoption:
  --in 1996, a tax credit for families to help offset the costs of 
        adoption, equal to $5,000 per adoption or $6,000 for the 
        adoption of a special needs child;
  --also in 1996, legislation prohibiting states from denying or 
        delaying a child's adoption on the basis of race, color, or 
        national origin; and
  --in 1997, foster care reform legislation intended to shorten a 
        child's length of stay in foster care and to promote their 
        adoption, including procedural changes and financial incentives 
        to states.\1\
---------------------------------------------------------------------------
    \1\ For an overview of the 1997 legislation, see: CRS Report 97-
491, Adoption Promotion Legislation in the 105th Congress, by Karen 
Spar.
---------------------------------------------------------------------------
    These programs and legislation reflect several concerns. The new 
tax credit reflects the concern that some potential adoptive parents 
may be unwilling or unable to incur the costs of adoption. Policymakers 
have been especially concerned with promoting adoption of special needs 
children, as reflected in the enhanced tax credit and financial 
assistance for parents who adopt such children. The prohibition against 
racial or ethnic discrimination reflects concern that ``race-matching'' 
practices may prevent or delay some children from becoming adopted. 
Finally, the 1997 foster care and adoption reform reflects concern that 
legal and bureaucratic barriers exist in the child welfare and judicial 
systems that may prevent some adoptions from occurring, or from 
occurring in a timetable consistent with a child's best interests.
    Adoption is a relatively rare occurrence. According to the most 
recent data on total adoptions in the United States, 127,441 children 
were adopted in 1992.\2\ However, in fiscal year 1996, there were 
approximately 500,000 children in foster care, of which an estimated 
80,000 had case plans for adoption.\3\
---------------------------------------------------------------------------
    \2\ Total adoptions include relative or stepparent adoptions, 
private or independent adoptions, public agency adoptions of children 
in the foster care system, and intercountry or international adoptions 
of foreign-born children. The data provided is reported in Flango, 
Victor and Carol Flango. The Flow of Adoption Information from the 
States. Williamsburg, VA: National Center for State Courts, 1994.
    \3\ For an overview of issues concerning foster care and adoption, 
see: CRS Report 97-256, Adoption, Foster Care, and Child Welfare: 
Issues for Congress, by Karen Spar.
---------------------------------------------------------------------------
    This report analyzes data from the 1995 National Survey of Family 
Growth (NSFG) that asked a sample of women of child-bearing age (15 to 
44) questions about their interest in adoption (in the context of other 
questions concerning how families are formed). \4\ This report uses 
NSFG data to address three basic questions:
---------------------------------------------------------------------------
    \4\ The NSFG is a household survey of women that is completed every 
couple of years under a contract of the National Center for Health 
Statistics, U.S. Department of Health and Human Services. While men and 
women may have an interest in adoption, the NSFG asked these questions 
of women and therefore women are the focus of this report. The sample 
included a few women who were outside of this age range based on the 
lengthy process of completing the survey. However, all the women in the 
sample were between 15 and 44 years of age as of April 1, 1995.
---------------------------------------------------------------------------
  --How many women are interested in adoption? Within the adoption 
        community, a controversy exists around the question of whether 
        there are enough families interested in adoption to adopt every 
        child that is legally available, including the 80,000 children 
        currently in foster care awaiting adoption. The NSFG data can 
        be used to examine how many women were currently seeking to 
        adopt a child in 1995, how many women had ever considered 
        adoption, and how many women who had ever considered adoption 
        would do so again. In other words, how large is the potential 
        pool of adoptive women?
  --What are the characteristics of women interested in adoption? Are 
        some women interested in adoption but, because of certain 
        characteristics, are less likely to be able to actually adopt 
        (e.g., marital status, age)? Among those who are interested in 
        adoption, could public programs and policy intended to promote 
        and support adoption increase the number of women who are able 
        to adopt?
  --What are the preferences for children among women who are 
        interested in adoption? How do the characteristics of children 
        in foster care compare with the characteristics desired by 
        potentially adoptive women? That is, even if there are a large 
        number of women interested in adopting a child, are these women 
        interested in adopting the type of children who are in foster 
        care?

A Note on Data Limitations

    The 1995 NSFG data have limitations inherent with survey analysis. 
The primary objective of conducting a survey is to gather responses 
from individuals through an interview process where the results are 
then analyzed by a group of researchers. This is a multi-stage process 
and therefore subject to error.
    Because information comes from a sample survey, estimates are 
subject to sampling error and nonsampling error.\5\ Sampling error 
arises because only a sample of women 15 to 44 years of age were 
surveyed rather than the entire population of women 15 to 44 years of 
age. Further, because adoption is a relatively rare occurrence, sample 
survey estimates on populations such as women who were seeking to adopt 
or had ever adopted are imprecise because they are based on the 
responses from a small number of women in the sample. Nonsampling error 
arises due to the nature of gathering survey information. It is 
possible for the respondent to answer a question inaccurately either 
because of imperfect recall, due to ambiguities in the question, or 
because of other reasons.
---------------------------------------------------------------------------
    \5\ For a more in-depth discussion of survey limitations and error, 
please see Backstrom, Charles H. Survey Research. 2nd ed. Macmillan 
Publishing Company: New York. 1981.
---------------------------------------------------------------------------
    Additionally, this report's analysis is based on information 
gathered at a specific point-in-time, 1995. The characteristics shown 
for women who had ever adopted a child are those observed in 1995. 
These are not necessarily the characteristics these women had in the 
year they adopted a child.\6\ Point-in-time estimates also do not 
permit inferences about changes in the likelihood of adoption over 
time.\7\
---------------------------------------------------------------------------
    \6\ This report examines six different characteristics: income, 
age, race, education, marital status, and the ability to bear own 
child. Some of these characteristics may have changed since the year of 
adoption (education and age) while others have remained constant 
(race). In addition, other subcategories may change (earn a college 
degree) while others remain constant (never-married). It is important 
to identify these differences in interpreting the results presented in 
this report.
    \7\ For example, some of the analysis in this report compares 
characteristics of women interested in adoption with those 
characteristics of women who have ever adopted. However, differences 
found between the populations cannot be examined in relation to time. 
While these descriptive statistics illustrate the likelihood of 
adopting a child as of 1995, they do not permit inferences as to 
whether these reflect a change in the likelihood of adopting a child 
over time.
---------------------------------------------------------------------------
    There are also limits to the conclusions that can be drawn from the 
comparison of characteristics of women interested in adoption in 1995 
to those who had ever adopted a child. Some of the relationships 
observed in this report might be interrelated. For example, this report 
found that older women and women with higher incomes are more likely to 
have adopted a child. However, in general, older women are more likely 
to have higher incomes. While both of these characteristics appear 
related to the decision to adopt, it is also possible that at least 
some of the differences in the likelihood of being interested in 
adopting a child versus having ever adopted a child may have more to do 
with age than with income. The descriptive statistics provided in this 
report do not examine these sorts of relationships.
    Therefore, the empirical findings in this report should be used 
with caution. They provide a general idea of the potential pool of 
adoptive women, of the characteristics of women of child-bearing age 
interested in adoption, and of women's preferences for adoptive 
children. Appendix A discusses in more detail some of the technical 
limitations of the analysis in this report.

The Number of Women Interested in Adoption

    Within the adoption community, a controversy exists around the 
question of whether there are enough families interested in adoption to 
adopt every child who is legally available, including the 80,000 
children currently in foster care awaiting adoption in the United 
States. Adoption occurs fairly rarely, and a relatively small 
percentage of foster children available for adoption exit the foster 
care system through adoption each year. So how large is the actual 
interest in adoption? The NSFG data can provide some information on 
this question.
    According to the NSFG, about 500,000 women of child-bearing age (15 
to 44) were seeking to adopt a child in 1995. This represents only 
about 1 percent of all women in the 15 to 44 year old age group. 
However, a much larger group of women said they had ever considered 
adoption--12.7 million, or approximately 23 percent of the overall age 
group. Of those women who had ever considered adoption, 8 million 
(approximately 13 percent of the overall age group) said they would 
consider adoption again.
    Chart 1 shows the number of women in 1995 who said they were 
currently seeking to adopt or had ever considered adoption. It also 
shows the number of women of child-bearing age who had actually adopted 
a child (about 500,000).

[GRAPHIC] [TIFF OMITTED] T08FE22.000


    Chart 1 also provides estimates of the sampling error associated 
with the survey responses shown. As previously mentioned, sampling 
error arises because only a sample of women 15 to 44 years of age were 
surveyed rather than the entire population of women 15 to 44 years of 
age. The numbers in parentheses represent the possible variation in 
estimation due to sampling error.\8\ For example, while the survey 
predicts that 498,000 women were currently seeking to adopt, the number 
might actually be as low as 430,000 or as high as 566,000 as indicated 
by the (<plus-minus> 68,000).
---------------------------------------------------------------------------
    \8\ The numbers in parentheses are the ``confidence intervals'' of 
the estimates at the 95 percent levels. That is, given statistical 
probabilities, 95 times out of 100 a sample drawn from this population 
would produce estimates within the boundaries of the confidence 
intervals.
---------------------------------------------------------------------------
    The responses from women who said they had or would have considered 
adopting a child may sometimes reflect a ``casual'' rather than a 
``serious'' interest in adoption. Table 1 identifies the level of 
consideration that women gave to adoption by examining actual steps 
taken by individuals who were seeking to adopt or who had ever 
considered adoption.

      TABLE 1.--WOMEN WHO CONSIDERED ADOPTION BY SPECIFIC STEPS TAKEN
                     (Number of Women in Thousands)
------------------------------------------------------------------------
                                             Currently       Have ever
                                            seeking to      considered
                                               adopt         adoption
------------------------------------------------------------------------
Total number of women who have placed a              182           1,803
 newspaper ad or contacted an adoption
 agency, lawyer, doctor, or other source
 about adopting a child.................
Specific Steps taken Toward Adoption:
 \1\
    Number of women who have formally                 84             478
     applied to an adoption  agency.....
    Number of women who have engaged a                26             187
     lawyer to make arrangements for an
     adoption...........................
    Number of women who have placed a     ..............              19
     newspaper ad.......................
    Other steps.........................              72           1,119
                                         -------------------------------
      Total number of women who have                 316          10,870
       taken no steps...................
                                         -------------------------------
      Total.............................             498          12,673
------------------------------------------------------------------------
\1\ It is possible for a woman to have completed more than one step. For
  example, a woman may have formally applied to an adoption agency and
  placed a newspaper ad.

Source: Table prepared by the Congressional Research Service (CRS) based
  on data from the 1995 National Survey of Family Growth.

    The NSFG data indicate that while many women have thought about 
adoption, very few of these women actually have taken steps toward 
adopting a child. Even among women who responded to the question that 
they were ``currently'' seeking to adopt a child in 1995, only 182,000 
(or approximately 37 percent) had actually taken any steps toward 
adoption. Of the population who responded that they had ever considered 
adoption, only 1.8 million (or approximately 14 percent) had taken any 
steps toward adoption.

Characteristics of Women Interested In Adoption

    Though many women express at least some interest in adopting a 
child, the number of women seriously considering adoption and taking 
steps toward it appears to be much smaller. Additionally, some women 
interested in adoption might have characteristics such as age or 
marital status that make them less likely to adopt, further shrinking 
the pool of potential adoptive women.
    Women with certain characteristics are more likely to be interested 
in adoption than other women. The 1995 NSFG gathered information that 
includes income, age, education, race, marital status, and the ability 
to bear own child. Thus, it is possible to examine how likely a woman 
is to be interested in adoption, by these characteristics.
    Likelihood of Interest in Adoption by Characteristic.--Table 2 
shows the percentage of women who were interested in adoption by 
selected characteristics. Two groups of women interested in adoption 
are shown: (1) women who were currently seeking to adopt a child; and 
(2) women who had ever considered adoption and would consider it again. 
In addition, women who had actually adopted a child are shown in the 
table.
    Table 2 shows whether and how a woman's characteristics in 1995 are 
related to her likelihood of being interested in adoption and actually 
adopting a child. This table also shows whether there are different 
relationships between being interested in adoption and actually having 
adopted a child. The numbers in the table are interpreted as follows: 
0.84 percent of all women age 15 to 44 in 1995 had ever adopted a 
child; 0.90 percent of all women age 15 to 44 in 1995 were currently 
seeking to adopt a child in 1995; and 13.5 percent of all women age 15 
to 44 in 1995 had ever considered adoption and would consider adoption 
again. For each category of women, the numbers represent the percentage 
of women in that group that fell into one of the three categories. For 
example, 0.27 percent of lower income women (incomes below 151 percent 
of the poverty threshold in 1995) had ever adopted; 0.82 percent of 
lower income women were currently seeking to adopt a child in 1995; and 
11.69 percent of lower income women had ever considered adoption and 
would consider adopting again. Further, the relationships in this table 
(e.g., between income level and currently seeking to adopt) were tested 
to determine their statistical significance.\9\
---------------------------------------------------------------------------
    \9\ See discussion in Appendix A.

  TABLE 2.--PERCENT OF WOMEN OF CHILDBEARING AGE (15-44) INTERESTED IN ADOPTION OR WHO HAD ADOPTED A CHILD, BY
                                        SELECTED CHARACTERISTICS IN 1995
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Considered
                                                                                     Currently     adoption and
                                                                   Ever adopted     seeking to    would consider
                                                                                       adopt           again
----------------------------------------------------------------------------------------------------------------
Total Population \1\............................................            0.84            0.90           13.52
Income (As a Percent of the Poverty Level):
    Less than 151 percent of the poverty level..................            0.27            0.82           11.69
    151-300 percent of the poverty level........................            0.69            0.74           13.20
    301-450 percent of the poverty level........................            1.21            0.62           13.61
    451-600 percent of the poverty level........................            1.03            0.91           15.96
    Greater than 600 percent of the poverty level...............            1.50            1.80           14.72
Age:
    15 to 25 years of age.......................................            0.04            0.36           11.01
    26 to 34 years of age.......................................            0.41            0.72           18.16
    35 to 44 years of age.......................................            1.96            1.44           11.75
Formal Marital Status: \2\
    Married.....................................................            1.33            1.07           13.92
    Divorced/separated..........................................            1.05            1.08           13.52
    Never married...............................................            0.07            0.55           13.05
Education:
    No degree...................................................            0.28            1.67            6.83
    High school or equivalent...................................            0.80            0.70           14.67
    Associate's degree..........................................            1.64            0.97           16.93
    Bachelor's degree...........................................            1.05            1.12           16.70
    Beyond bachelor's degree (Master's degree or Ph.D.).........            1.76            0.51           16.22
    Some other academic degree..................................            3.28            0.00           10.06
Race:
    Hispanic....................................................            0.54            1.13           15.34
    White (non-Hispanic)........................................            0.90            0.66           12.77
    Black (non-Hispanic)........................................            0.89            1.73           15.13
    Other (non-Hispanic)........................................            0.42            1.74           15.82
Ability to bear own child:
    Surgically sterile for Contraceptive reasons................            0.95            1.08           10.90
    Surgically sterile for Noncontraceptive reasons.............            3.91            1.70           13.33
    Nonsurgically sterile.......................................            8.30            5.34           24.90
    Difficulty conceiving or delivering a child/Long interval               2.08            1.53           24.23
     with no pregnancy..........................................
    Able to conceive............................................            0.27            0.55           12.78
----------------------------------------------------------------------------------------------------------------
\1\ The samples for women who had adopted a child or who were currently seeking to adopt a child are relatively
  small, so some of the differences shown may reflect the imprecision of the estimates due to these small sample
  sizes, rather than actual differences among the categories of women.
\2\ Results for the population of widowed women are not presented because of their small subgroup.

Source: Table prepared by the Congressional Research Service based on data from the 1995 National Survey of Family Growth.

    The table shows that a woman's likelihood to be interested in 
adoption is related to certain characteristics. In some cases, the 
relationship between a woman's characteristics in 1995 and the 
likelihood that she has actually adopted are more apparent than that of 
her characteristics in 1995 and the likelihood of her being interested 
in adoption. For example, women of child-bearing age in all income 
groups express interest in adoption. The percentage of lower income 
women who had ever considered adoption and would consider it again is 
only somewhat lower than for other income groups, and the percentage of 
lower income women who were currently seeking adoption is about the 
same as for other women. However, the percentage of women who had 
actually adopted is far lower in the lowest income group than in higher 
income groups.
    As might be expected, the likelihood of having actually adopted a 
child or currently to be seeking to adopt a child increases 
substantially with a woman's age. Education also affects the likelihood 
that she has actually adopted a child or has considered adoption and 
would consider adoption again. Women with more education or more likely 
to consider adoption. Women who lack a high school diploma appear very 
unlikely to consider adoption or actually to adopt a child.
    Also as might be expected, the ability of a woman to bear her own 
child affects her interest in adoption and the likelihood to adopt. 
Women who are nonsurgically sterile in 1995 are the most likely to have 
adopted a child, to have been seeking to adopt a child in 1995, and to 
have considered adoption and be willing to consider it again.
    Marital status appears to be related to the decision to adopt a 
child, with married women most likely to have adopted a child. However, 
there does not appear to be a relationship between marital status and 
whether the woman is currently seeking to adopt or has considered 
adoption and would consider adoption again.\10\ In addition, the 
woman's race/ethnicity appears to be related to whether the woman is 
currently seeking to adopt a child. However, there does not appear to 
be a relationship between the woman's race/ethnicity and the likelihood 
that she has actually adopted a child or has considered adoption and 
would consider adoption again.\11\
---------------------------------------------------------------------------
    \10\ Though never-married women were just as likely to be 
interested in adoption as married women, it is not known whether this 
will translate into more never-married women actually adopting in the 
future. The point-in-time estimate (interest in 1995) does not permit 
inferences as to whether more never-married women were interested in 
adoption in 1995 than in the past. It is possible that changes in state 
policies and program practices have made adoptions for never-married 
women easier over time. However, information from the 1995 NSFG alone 
cannot be used to determine whether the high level of interest in 
adoption among never-married women coincides with policy change or 
represents a trend toward more actual interest in adoption among this 
group.
    \11\ There is a statistical relationship between marital status and 
the decision to adopt a child, with married women most likely to have 
adopted a child. However, there does not appear to be a statistical 
relationship between marital status and whether the woman is currently 
seeking to adopt or had considered adoption and would consider 
adoption. A woman's race/ethnicity was also not statistically related 
to her likelihood of actually having adopted or having considered 
adoption and would consider adoption again. However, there is a 
statistically significant relationship between race/ethnicity and the 
likelihood to currently be seeking to adopt in 1995. See Appendix A for 
a discussion of statistical significance.
---------------------------------------------------------------------------
    Some of the observed relationships in the table might be 
interrelated. For example, age, income, and educational attainment are 
all interrelated. Older women are more likely to have higher income and 
educational attainment than younger women. Additionally, the likelihood 
of having ever adopted also is related to age; older women are more 
likely than younger women to have considered adoption. Therefore, some 
of the differences in the likelihood to be interested in adoption 
compared with having ever adopted may have more to do with age than 
with some other characteristic, such as educational attainment.\12\
---------------------------------------------------------------------------
    \12\ To examine these relationships further, a multivariate 
statistical analysis would be required. Some initial analysis of this 
type is presented in Devere, Christine. An Analysis of the Adoption Tax 
Credit Policy. University of Rochester Department of Political Science, 
Public Policy Analysis Working Paper 98-8-1. May 1, 1998.
---------------------------------------------------------------------------
    Composition of Women Who Have Adopted or Are Currently Seeking to 
Adopt.--Examining the composition of women who have adopted or who are 
currently seeking to adopt provides another perspective on women's 
interest in adoption. The analysis described in the previous section is 
intended to answer questions such as: ``For a woman in a certain income 
category, how likely is she to be interested in adoption or to actually 
adopt, as compared with women in other income categories?'' Viewing the 
composition of each subgroup of women, by their level of interest, is 
intended to answer such questions as: ``Of those women who are 
interested in adopting a child, how many fall within a certain income 
category?''
    Chart 2 through Chart 7 show the composition of women of child-
bearing age in 1995 who said they were currently seeking to adopt in 
1995 (who are more likely to have a strong interest than those who had 
ever considered adoption), and the composition of women of child-
bearing age in 1995 who had actually adopted a child. The charts show 
the composition of women in these two groups by: income (Chart 2); age 
(Chart 3); marital status (Chart 4); education (Chart 5); race and 
Hispanic origin (Chart 6); and ability to bear own child (Chart 7).
    The percent of women in both groups that fall into a particular 
category depends: (a) on the size of that category within the 
population of all women of child-bearing age; and (b) how likely these 
women were to have adopted a child or to currently be seeking to adopt 
a child.

[GRAPHIC] [TIFF OMITTED] T08FE22.001


[GRAPHIC] [TIFF OMITTED] T08FE22.002


[GRAPHIC] [TIFF OMITTED] T08FE22.003


[GRAPHIC] [TIFF OMITTED] T08FE22.004


[GRAPHIC] [TIFF OMITTED] T08FE22.005


[GRAPHIC] [TIFF OMITTED] T08FE22.006


    Some of the major points from examining the composition of women 
who have adopted and those currently seeking to adopt are:
  --Income.--Lower income women (with incomes below 151 percent of the 
        poverty line in 1995) comprise approximately 21 percent of 
        those who reported they were currently seeking to adopt a 
        child, but only around 7 percent of those who had actually 
        adopted a child. As shown earlier in Table 2, lower income 
        women in 1995 were about as likely as other women to report 
        that they were seeking to adopt a child in 1995; thus, their 
        share of women who were currently seeking to adopt is 
        proportional to their share of all women of child-bearing age.
  --Age.--Of women who had ever adopted a child, 83 percent were 
        between 35 and 44 years of age in 1995 (only around 1 percent 
        were between the ages of 15 and 25 in 1995). Of women of child-
        bearing age who were currently seeking to adopt, approximately 
        62 percent were between 35 and 44 years of age in 1995.
  --Marital Status.--Women who were married in 1995 comprised the vast 
        majority of women who had adopted, as well as women who were 
        currently seeking to adopt. Though never-married women were 
        unlikely to be currently seeking to adopt, they comprise 
        approximately 38 percent of all women of child-bearing age. 
        Because never-married women are a relatively large share of all 
        women of child-bearing age, never-married women represent a 
        substantial percentage of women who were currently seeking to 
        adopt in 1995. Almost one-fifth of women currently seeking to 
        adopt in 1995 were never-married.
  --Education.--One-fourth of women who were seeking to adopt in 1995 
        lacked a high school diploma or equivalent. However, because 
        women with low education levels were very unlikely to actually 
        adopt, only 7 percent of women who had adopted a child lacked a 
        high school diploma in 1995.
  --Race.--Minority women (black, Hispanic, or other) were 
        overrepresented relative to their population shares among women 
        seeking to adopt in 1995. White women comprised 71 percent of 
        all women of child-bearing age, but only about half of all 
        women who were seeking to adopt a child in 1995. However, white 
        women account for about three-quarters of all women of child-
        bearing age who had actually adopted a child.
  --Ability to Bear Own Child.--Women who cannot bear, or have 
        difficulty bearing their own child,\13\ are overrepresented 
        relative to their overall population share among women who had 
        adopted a child or who were currently seeking to adopt a child 
        in 1995. Women who cannot bear, or have difficulty bearing 
        their own child, account for approximately 38 percent of all 
        women of child-bearing age. However, they accounted for 64 
        percent of women who were seeking to adopt a child in 1995. 
        Moreover, women who cannot bear, or have difficulty bearing a 
        child, accounted for 80 percent of women who actually 
        adopted.\14\
---------------------------------------------------------------------------
    \13\ Women who cannot bear, or have difficulty bearing their own 
child are defined as follows: surgically sterile for noncontraceptive 
reasons, surgically sterile for contraceptive reasons, nonsurgically 
sterile, or have difficulty conceiving or have had no pregnancy.
    \14\ Results are from additional tabulations of the 1995 National 
Survey of Family Growth completed by the Congressional Research 
Service, not displayed in this report.
---------------------------------------------------------------------------

Preferences for Children Among Women Interested in Adoption

    Despite the widespread interest in adoption, few women actually 
take steps toward adoption and some who might pursue it face barriers 
to adoption such as low income. Therefore, the ``pool'' of potentially 
adoptive women is smaller than it might first appear. Additionally, in 
examining the adoption of foster children, it is useful to compare 
women's preferences for adopting certain types of children to the types 
of children in foster care. According to the Department of Health and 
Human Services (HHS), in fiscal year 1996, of the 500,000 children in 
the foster care system, only 4 percent were under 1 year old, 29 
percent were between the ages of 1 and 5, and the rest were age 6 and 
older.\15\ Racial and ethnic minorities are overrepresented among 
foster children. Foster children also are more likely than other 
children to have special needs, and many are part of sibling groups.
---------------------------------------------------------------------------
    \15\ Adoption Statistics Package, National Adoption Information 
Clearinghouse (http:www.calib.com/naic/adptsear/adoption/research/
index.htm).
---------------------------------------------------------------------------
    This section addresses the question: What types of children are 
women interested in adopting? The 1995 NSFG asked women who were 
currently seeking to adopt a child in 1995 their preferences regarding 
the child's age, level of disability, race, sex, religion, and size of 
sibling groups. Women generally expressed no preference regarding a 
child's sex or religion (indicating primarily indifference).\16\ The 
following charts show women's preferences for adoptive children by a 
child's: age (Chart 8), race (Chart 9), level of disability (Chart 10), 
and by the number of children the woman is seeking to adopt (Chart 11).
---------------------------------------------------------------------------
    \16\ It is unlikely that preferences for a child's sex or religion 
could have policy implications. Therefore, the charts for the woman's 
preference for a child's sex or religion are not presented. Table B-1 
in Appendix B presents more complete data on these preferences.
---------------------------------------------------------------------------

    Table B-1 in Appendix B presents more complete data on these 
preferences in table format.

[GRAPHIC] [TIFF OMITTED] T08FE22.007


[GRAPHIC] [TIFF OMITTED] T08FE22.008


[GRAPHIC] [TIFF OMITTED] T08FE22.009


[GRAPHIC] [TIFF OMITTED] T08FE22.010


    Age of Child.--Women interested in adoption would predominately 
prefer to adopt an infant or young child. As Chart 8 shows, 58 percent 
of those who were seeking to adopt a child in 1995 preferred an infant 
or toddler. Few women were interested in adopting a child aged 6 or 
older. It also is interesting to note that relatively few women were 
indifferent with regard to a child's age.
    Race.--As shown in Chart 9, the largest single group of potentially 
adoptive women--about 42 percent--indicated that they were basically 
indifferent regarding the race of an adoptive child. This chart also 
shows that about 29 percent of potential adoptive women would prefer 
white children. However, when also considering the race of the woman, 
it appears that there is a preference for children of the same race. 
Among women who are currently seeking to adopt, 52 percent of black 
women prefer black children, and 51 percent of white women prefer white 
children/\17\ Nonetheless, a substantial share of potentially adoptive 
women are indifferent with regard to a child's race.
---------------------------------------------------------------------------
    \17\ Results are from additional tabulations of the 1995 National 
Survey of Family Growth by the Congressional Research Service, not 
displayed in this report.
---------------------------------------------------------------------------
    Level of Disability.--Women interested in adopting prefer children 
with no disabilities, although some would prefer children with 
different levels of disability. Very few women would prefer children 
with severe disabilities. Chart 10 shows the preference for the child's 
level of disability among women who were seeking to adopt in 1995. 
About 16 percent of women were indifferent with regard to a child's 
level of disability.
    Number of Children.--As Chart 11 illustrates, women generally 
prefer to adopt a single child, rather than a group of siblings, 
although around 26 percent said they would prefer to adopt two or more 
children at the same time. As with age, relatively few women were 
indifferent with regard to the preferred number of children to be 
adopted.

Conclusions and Policy Implications

    The 1995 National Survey of Family Growth identified a potential 
pool of adoptive women, which initially appears relatively large. 
However, while almost 12.7 million women indicated that they had ever 
considered adopting a child, only about 500,000 (1 percent of the 
population) were currently seeking to adopt a child in 1995. Further, 
after examining the steps taken by these women toward adoption, there 
is evidence that the initial response of many may have been more casual 
than serious. Among the 12.7 million women who said they had ever 
considered adoption, only 1.8 million had actually taken steps toward 
adoption. The same pattern was true of women who were currently seeking 
to adopt. While almost 500,000 claimed to be seeking to adopt a child 
in 1995, only about 182,000 had actually taken steps toward adoption.
    There are numerous potential explanations for why fewer women 
actually pursue adoption, despite their relatively high level of 
interest. The NSFG data provide information regarding the 
characteristics of those women who are most likely to adopt, as well as 
the child preferences of potential adoptive women. Although the sample 
sizes were small, these data may be useful in the evaluation of public 
policies to promote and support adoption.
    As discussed in this report, certain characteristics are associated 
with an increased likelihood that a woman has adopted a child. Age, 
marital status, income, and the ability to bear own child are 
significant, with older women, married women, higher income women, and 
women who cannot bear their own children most likely to have adopted. 
However, marital status and income were not as important in predicting 
whether a woman would be interested in adoption.
    These findings raise questions about possible barriers to adoption. 
For example, never-married women who are interested in adoption may 
find that state policies or agency practices give preference to married 
couples as potential adoptive parents, and therefore, adoption is more 
difficult for never-married women to achieve. Similarly, poor women who 
want to adopt may have a harder time qualifying as potential adoptive 
parents, or may determine that adoption is beyond their economic means. 
These findings would lead some to argue that providing subsidies or tax 
credits to adoptive parents is appropriate, and that such assistance 
should be targeted toward lower income families. These findings may 
also have relevance for states, where policy and practice decisions are 
made regarding qualifications and preferences for adoptive parents. 
Finally, these findings suggest that more public information about 
adoption is needed, including information on subsidies and other forms 
of support services that may be available to adoptive parents.
    However, the low rate of adoptions among women who express interest 
in adoption may also be related to the types of children they want to 
adopt, and the extent to which such children are available for 
adoption. According to the most recent data on the total number of 
adoptions in the United States, 127,441 children were adopted in 1992, 
which is considerably fewer than the number of women who were seeking 
to adopt in 1995. Of these children, 42 percent were adopted by 
relatives or stepparents. Only 19,753 (or 16 percent) were children 
adopted from the foster care system.\18\
---------------------------------------------------------------------------
    \18\ Adoption Statistics Package, National Adoption Information 
Clearinghouse (http://www.calib.com/naic/adptsear/adoption/research/
index.htm#Stats).
---------------------------------------------------------------------------
    As of 1996, there were approximately 500,000 children in foster 
care, of which an estimated 16 percent had case plans of adoption. 
According to HHS data cited earlier, three-quarters of the children who 
were in foster care in 1996 were 6 years old or older. However, as this 
report has shown, there is a strong preference for infants and toddlers 
among potentially adoptive women. Moreover, potentially adoptive women 
generally prefer single children without disabilities. States develop 
adoption assistance agreements with parents who adopt eligible children 
with special needs under state and federal adoption assistance 
programs. Typically, special needs children are defined by states to 
include older children, those who are disabled or have other medical or 
emotional conditions, members of sibling groups, and racial or ethnic 
minorities. These are characteristics that, in general, might prevent 
the adoptive placement of a child without special assistance. The 
findings presented in this report are therefore consistent with the 
assumptions underlying the adoption assistance program authorized by 
Title IV-E of the Social Security Act, which helps provide monthly 
subsidies to parents who adopt children with special needs, as defined 
by the states.
    The 1995 NSFG data indicate that a significant share of potentially 
adoptive women are indifferent regarding the race of an adoptive child. 
It should be noted that recently enacted legislation (Public Law 104-
188) is intended to increase and expedite adoptions by prohibiting 
agencies from denying or delaying adoptions based on race. However, 
this finding raises some question about the definition of ``special 
needs'' in the Title IV-E adoption assistance program, which, in almost 
all states, also includes minority status. The adoption subsidy is 
intended to promote adoption for hard-to-place children, yet the NSFG 
data indicate that minority children may not necessarily be hard to 
place on the basis of their racial status alone.
    One of the primary purposes of the 1997 foster care and adoption 
reform legislation was to expedite the process of moving children 
through foster care and into permanent homes, with adoption as the 
preferred outcome for children who cannot return to their biological 
families. As discussed in this report, potential adoptive women 
strongly prefer infants, so it would appear desirable to make infants 
legally available for adoption as quickly as possible, consistent with 
the best interests of each individual child. However, because there 
appears to be little demand for older children among potential adoptive 
women, expediting the adoption of older children--including termination 
of their biological parents' rights--might result in the creation of 
legal orphans who remain in foster care, unless additional policies are 
developed to encourage their adoption.
    This report also found that income is a factor in determining 
whether women who are interested in adoption actually become adoptive 
parents. Subsidizing the costs of adoption may enable certain people to 
adopt who would otherwise be prevented. However, it is not clear 
whether such policies significantly increase the number of adoptions 
that occur, or merely subsidize the adoption of children who would be 
adopted anyway. For example, the cost of adopting children from foster 
care is considerably less than other types of adoptions, yet only a 
small percentage of adoptions are of foster children. Thus, at least 
for foster children, the income of a prospective adoptive woman may be 
less significant than other factors, such as the age or disability 
status of the child, the existence of siblings, or intangible factors 
such as public perceptions about children in the foster care system. At 
the same time, even fewer children might be adopted out of foster care 
in the absence of these subsidy programs.
    In sum, the implications for adoption policy of the NSFG data 
depend in large part on the goals of the policymakers. If the goal is 
to encourage more women who are interested in adoption to actually 
adopt children, policy responses might include targeted financial 
assistance, a review of state policies and practices that might 
discourage or prevent single women from adopting, and possibly support 
services for single or poor women who adopt children. However, if the 
vast majority of these women are seeking to adopt healthy infants as 
indicated by the 1995 NSFG data, there may not be sufficient children 
for them to adopt and the number of children adopted out of foster care 
might not necessarily increase.
    On the other hand, if the goal is to promote the adoption of foster 
children, policy responses might include a review of the Title IV-E 
Adoption Assistance Program, to determine whether assistance levels are 
sufficient to encourage adoptions of the hardest-to-place children 
(i.e., older children, disabled children, and children in sibling 
groups), and to determine whether racial status alone actually 
constitutes a ``special need.'' Policymakers may also want to consider 
whether additional support services, beyond financial assistance, might 
be needed to encourage the adoption of these children. Finally, 
policymakers may want to examine other data on individuals and families 
most likely to adopt hard-to-place children (typically their foster 
parents), and develop additional incentives and supports for such 
families to adopt these children.

                      Appendix A: Technical Notes

    The estimates in this report of women interested in adoption or who 
have adopted are from the 1995 National Survey of Family Growth (NSFG), 
a household survey of women of child-bearing age, 15 to 44 years of 
age. Interviews were conducted in January through October 1995 by the 
Research Triangle Institute Inc. under a contract of the National 
Center for Health Statistics (NCHS), U.S. Department of Health and 
Human Services.\19\
---------------------------------------------------------------------------
    \19\ Information is from Cycle 5 of the NSFG; previous NSFG surveys 
were conducted in 1973, 1976, 1982, and 1988.
---------------------------------------------------------------------------
    The NSFG is a multipurpose survey, but its main function is to 
collect data on factors affecting pregnancy and women's health.\20\ In 
the context of asking questions about factors affecting pregnancy, the 
survey asked women to respond to a series of questions about their 
interest in adopting a child or whether they had adopted a child. The 
information in this report is based in great part on those questions.
---------------------------------------------------------------------------
    \20\ See: U.S. National Center for Health Statistics. U.S. 
Department of Health and Human Services Centers for Disease Control and 
Prevention. Fertility, Family Planning, and Women's Health: New Data 
from the 1995 National Survey of Family Growth. Series 23, no. 19. May 
1997.
---------------------------------------------------------------------------
    The 1995 NSFG interviewed a national sample of 10,847 women. This 
report's estimates are subject to certain limitations because they were 
derived from responses to interviews from a sample of women. Sample 
survey estimates are subject to both sampling error and nonsampling 
error.

Sampling Error

    The estimates of this report are subject to error because they 
represent responses from a sample of women aged 15 to 44 years of age 
rather than all women of these ages. That is, from the responses given 
by the 10,847 women in the sample, estimates are made for the entire 
population of women aged 15 to 44 years of age which is estimated at 
over 60 million. Generally, sampling error is inversely related to 
sample size; that is, the larger the sample the smaller the sampling 
error.
    Adoption is a relatively rare occurrence in the population as a 
whole. This CRS report estimates that about 500,000 women of child-
bearing age (15 to 44) were currently seeking adoption and also that 
about 500,000 women of child-bearing age (15 to 44) have adopted a 
child. These estimates are based on the responses of relatively few 
women (101 women for those currently seeking adoption; 84 women for 
those who ever adopted a child), and are thus subject to relatively 
large error. The sampling error for these estimates was reported in the 
text of this report. Moreover, subcategorizing these groups into income 
classes, marital status, etc., results in inferences being made based 
on even fewer women in the sample and are subject to even greater 
error. The results in this report that discuss characteristics of women 
who were currently seeking to adopt or interested in adoption must be 
used with caution because they are based on very small samples.
    On the other hand, the NSFG estimate of women who ``ever considered 
adoption'' of 12 million is based on a relatively large sample 
(responses from 2,380 women in the sample). Estimates on women who 
``ever considered adoption'' are more precise than those for women 
currently seeking to adopt or who ever adopted a child.
Estimates of Sampling Error
    Household surveys such as the NSFG are not simple random samples of 
the population of interest. They are ``complex'' samples, with some 
subpopulations ``oversampled'' compared to others. Therefore, estimates 
of sampling error must be made that take into account the sampling 
design used to conduct the survey. Sampling error for the NSFG survey 
was computed by CRS with the ``jacknife'' technique, using a computer 
program developed by Weststat Inc.\21\
---------------------------------------------------------------------------
    \21\ For an overview of this computer program, see: Westat Inc. A 
User's Guide to WesVar PC. February 1997. Chapter 1, p. 1-12.
---------------------------------------------------------------------------
    Sampling error was measured for estimates of subpopulations 
(``currently seeking to adopt''). It was also considered when 
determining whether some of the relationships in this report were 
``statistically significant.'' Each of the relationships shown in Table 
2 in the report (for example, between income and the likelihood to 
consider adoption) were tested to determine whether observed 
differences between categories of women were due to chance (sampling 
error) or represented a statistically significant relationship. The 
test was conducted using the chi-squared test statistic. Table A-1 
shows these relationships.

 TABLE A-1.--STATISTICAL SIGNIFICANCE OF RELATIONSHIP BETWEEN LEVEL OF ADOPTION AND SELECTED CHARACTERISTICS OF
                                                      WOMEN
----------------------------------------------------------------------------------------------------------------
                                                                                            Considered adoption
                                          Ever adopted            Currently seeking to      and would consider
                                                                         adopt                     again
----------------------------------------------------------------------------------------------------------------
Income...........................  Significant...............  Significant..............  Significant.
Age..............................  Significant...............  Significant..............  Significant.
Formal marital status............  Significant...............  Not significant..........  Not significant.
Education........................  Significant...............  Not significant..........  Significant.
Race.............................  Not significant...........  Significant..............  Not significant.
Ability to bear own child........  Significant...............  Significant..............  Significant.
----------------------------------------------------------------------------------------------------------------
Note: These relationships are based on the RS2 Chi-Squared statistics calculated using WesVarPC. They assume a
  95 percent confidence level.

    Further, given that adoption is a relatively rare occurrence, the 
magnitude of these relationships given the standard errors was 
examined. For example, there is a statistically significant 
relationship between income and whether the woman has adopted a child, 
is currently seeking to adopt a child, or has ever considered adopting 
a child and would consider adoption again. But the next question is 
whether there is a difference between the populations. While Table 2 
shows that 0.27 percent of women with an income at or below 150 percent 
of the federal poverty level have adopted and 0.82 percent are 
currently seeking to adopt, given the small sample and the fact that 
adoption is a relatively rare occurrence, these results were examined 
to verify that these differences in relationships were not absorbed by 
the standard errors. All results discussed in the text are real 
differences.

Nonsampling Error

    Estimates in this report are subject to various types of 
nonsampling error. Nonsampling error occurs because of imperfect 
answers given by respondents of surveys. Imperfections in answers to 
survey questions can stem from imperfect recall to incorrect responses, 
to ambiguities in the questions asked in the survey. In many respects, 
nonsampling error is more problematic than sampling error. Given a 
sampling framework, methods are available to quantify the amount of 
sampling error associated with a population estimate. Nonsampling 
error, on the other hand, is difficult and sometimes impossible to 
quantify.

                               Appendix B

TABLE B-1.--PREFERENCES FOR CHILDREN OF WOMEN CURRENTLY SEEKING TO ADOPT
                             A CHILD IN 1995
------------------------------------------------------------------------
                                              Percent     Standard Error
------------------------------------------------------------------------
If you could choose exactly the child
 you wanted, would you prefer to adopt:
    Sex:
        a girl?.........................           33.27            6.63
        a boy?..........................           21.16            5.99
        indifferent?....................           45.57            6.38
    Race:
        a black child?..................           13.75            4.78
        a white child?..................           28.80            6.15
        a child of some other race?.....           15.10            3.92
        indifferent?....................           42.35            5.88
    Age:
        a child younger than 2 years?...           57.52            5.49
        a 2-5 year old child?...........           28.12            5.30
        a 6-12 year old child?..........            6.84            2.69
        a child 13 years or older?......            0.53            0.53
        indifferent?....................            6.99            2.77
    Disability:
        a child with no disability?.....           54.20            6.53
        a child with a mild disability?.           24.79            5.44
        a child with a severe                       5.47            4.30
         disability?....................
        indifferent?....................           15.55            3.75
    Number of children:
        a single child?.................           64.72            6.47
        2 or more brothers and sisters             26.32            5.87
         at once?.......................
        indifferent?....................            8.97            3.02
    Religion:
        same religious background?......           17.06            4.10
        different religious background?.            6.75            3.39
        indifferent?....................           76.19            5.48
------------------------------------------------------------------------
Source: Table prepared by the Congressional Research Service based on
  data from the 1995 National Survey of Family Growth (standard errors
  computed using Westat's WesVarPC computer program). Detail may not sum
  to 100 due to rounding.

                                 ______
                                 
    Sex Discrimination and the United States Supreme Court: Recent 
                 Developments in the Law--June 29, 1999

                                ABSTRACT

    This report discusses the recent sex discrimination decisions of 
the United States Supreme Court. It focuses on legal challenges 
involving Title VII of the Civil Rights Act of 1964 (employment 
discrimination), Title IX of the Education Amendments of 1972 
(discrimination in schools), and the equal protection guarantees of the 
Fourteenth and Fifth Amendments to the Constitution. The Court's 
decisions in cases involving Title VII and Title IX are particularly 
noteworthy because they illustrate the Court's recognition of sexual 
harassment in both the workplace and the classroom. The Court's recent 
Title VII decisions also involve pregnancy discrimination and same-sex 
sexual harassment. This report will be updated by the development of 
additional case law.

                                SUMMARY

    With its recent sex discrimination decisions, the United States 
Supreme Court has not only further defined the applicability of the 
equal protection guarantees of the Constitution and the 
nondiscriminatory policies of federal statutes, but has rejected the 
use of gender stereotypes and continued to recognize the discriminatory 
effect of gender hostility in the workplace and in schools. This report 
focuses on recent sex discrimination challenges based on the equal 
protection guarantees of the Fourteenth and Fifth Amendments, Title VII 
of the Civil Rights Act of 1964 (employment discrimination), and Title 
IX of the Education Amendments of 1972 (discrimination in schools). The 
Court's decisions in cases involving Title VII and Title IX are 
particularly noteworthy because they illustrate the Court's recognition 
of sexual harassment in both the workplace and the classroom.
    Although the Court's analysis of sex discrimination challenges 
under the Constitution differs from its analysis of sex discrimination 
under the two federal statutes discussed in this report, it is apparent 
that the Court is willing to refine its standards of review under both 
schemes to accommodate the novel claims presented by these cases.

    SEX DISCRIMINATION AND THE UNITED STATES SUPREME COURT: RECENT 
                        DEVELOPMENTS IN THE LAW

    With its recent sex discrimination decisions, the United States 
Supreme Court has not only further defined the applicability of the 
equal protection guarantees of the Constitution and the 
nondiscriminatory policies of federal statutes, but has rejected the 
use of gender stereotypes and continued to recognize the discriminatory 
effect of gender hostility in the workplace and in schools. This report 
focuses on recent sex discrimination challenges based on the equal 
protection guarantees of the Fourteenth and Fifth Amendments, Title VII 
of the Civil Rights Act of 1964, and Title IX of the Education 
Amendments of 1972. Although the Court's analysis of sex discrimination 
challenges under the Constitution differs from its analysis of sex 
discrimination under the two federal statutes discussed in this report, 
it is apparent that the Court is willing to refine its standards of 
review under both schemes to accommodate the novel claims presented by 
these cases.

                         EQUAL PROTECTION CASES

    Constitutional challenges that allege discrimination on the basis 
of sex are premised either on the equal protection guarantees of the 
Fourteenth Amendment or the equal protection component of the Fifth 
Amendment. To maintain an equal protection challenge, government action 
must be established; that is, it must be shown that the government, and 
not a private actor, has acted in a discriminatory manner. While the 
Fourteenth Amendment prohibits discriminatory conduct by the states, 
the Fifth Amendment forbids such action by the federal government.
    The Fourteenth Amendment provides, in relevant part:

    ``No state shall make or enforce any law which shall abridge the 
privileges or immunities of the citizens of the United States; nor 
shall any State deprive any person of life, liberty, or property, 
without due process of law; nor deny to any person within its 
jurisdiction the equal protection of the laws.'' U.S. CONST. amend. XIV 
(emphasis added).

    Although the Fourteenth Amendment requires equal protection, it 
does not preclude the classification of individuals. The Court has 
noted that the Constitution does not require things which are 
``different in fact or opinion to be treated in law as though they were 
the same.'' \1\ A classification will not offend the Constitution 
unless it is characterized by invidious discrimination.\2\ The Court 
has adopted three levels of review to establish the presence of 
invidious discrimination:
---------------------------------------------------------------------------
    \1\ Tigner v. Texas, 310 U.S. 141, 147 (1940).
    \2\ See Ferguson v. Skrupa, 372 U.S. 726, 732 (1963).
---------------------------------------------------------------------------
  --Strict scrutiny.--This most active form of judicial review has been 
        applied where there is either a suspect classification (e.g. 
        race, national origin, alienage) or a burdening of a 
        fundamental interest (e.g. privacy, marriage). A classification 
        will survive strict scrutiny if the government can show that it 
        is necessary to achieving a compelling interest.\3\ Most 
        statutory classifications subject to strict scrutiny are 
        invalidated.
---------------------------------------------------------------------------
    \3\ See San Antonio Independent School District v. Rodriquez, 411 
U.S. 1 (1973).
---------------------------------------------------------------------------
  --Intermediate scrutiny.--This level of review is not as rigorous as 
        strict scrutiny. A classification will survive intermediate 
        scrutiny if it is substantially related to achieving an 
        important government objective.\4\ Sex classifications are 
        subject to intermediate scrutiny.
---------------------------------------------------------------------------
    \4\ See Craig v. Boren, 429 U.S. 190, 197 (1976).
---------------------------------------------------------------------------
  --Rational basis review.--This least active form of judicial review 
        allows a classification to survive an equal protection 
        challenge if the classification is rationally related to a 
        legitimate government interest.\5\ This level of review is 
        characterized by its deference to legislative judgment. Most 
        economic regulations are subject to rational basis review.
---------------------------------------------------------------------------
    \5\ See Lindsley v. National Carbonic Gas Co., 220 U.S. 61 (1911); 
Royster Guano Co. v. Virginia, 253 U.S. 412 (1920); San Antonio School 
District v. Rodriguez, 411 U.S. 1 (1973); Mass Bd. of Retirement v. 
Murgia, 427 U.S. 307 (1976); Maher v. Roe, 432 U.S. 464 (1977).
---------------------------------------------------------------------------
    The Court's adoption of intermediate scrutiny for sex 
classifications did not occur until 1976. In Craig v. Boren, the Court 
declared unconstitutional an Oklahoma statute that prohibited the sale 
of ``nonintoxicating'' 3.2 percent beer to males under the age of 21 
and to females under the age of 18.\6\ Females above the age of 18, but 
below 21, were allowed to purchase this beer. Although the Court agreed 
with the state's argument that the protection of public health and 
safety is an important government interest, it found that the gender 
classification employed by the statute was not substantially related to 
achieving that goal. The statistical evidence presented by the state to 
show that more 18 to 20-year-old males were arrested for drunk driving 
and that males between the ages of 17 and 21 were overrepresented among 
those injured in traffic accidents could not establish that the 
statute's gender classification was substantially related to ensuring 
public health and safety.\7\ In addition to their methodological 
problems, the statistics failed to establish the dangerousness of 
nonintoxicating 3.2 percent beer for purposes of distinguishing between 
males and females.
---------------------------------------------------------------------------
    \6\ 429 U.S. 190 (1976).
    \7\ The state also introduced the following: a random roadside 
survey that indicated that young males were more inclined to drive and 
drink beer than were their female equivalents; FBI nationwide 
statistics showing an increase in arrests for drunk driving; and 
similar statistics from other jurisdictions.
---------------------------------------------------------------------------
    In establishing an intermediate level of review for sex 
classifications, the Craig Court identified what has been a common 
theme in sex discrimination cases under the Fourteenth Amendment: 
stereotypes and generalizations about the sexes.\8\ In Craig, the Court 
acknowledged its previous invalidation of statutes that premised their 
classifications on misconceptions concerning the role of females. The 
Court's rejection of the use of stereotypes may be seen in many of the 
cases in this area.\9\ The Court's most recent decisions allude 
similarly to the use of stereotypes and generalizations.
---------------------------------------------------------------------------
    \8\ 429 U.S. at 198.
    \9\ See Califano v. Goldfarb, 430 U.S. 199 (1977) (Invalidated 
section of the Social Security Act that permitted survivors' benefits 
for male widows only if they were receiving half of their support from 
their wives); Orr v. Orr, 440 U.S. 268 (1979) (Invalidated Alabama 
statute that imposed alimony obligations on husbands, but not wives); 
Caban v. Mohammed, 441 U.S. 380 (1979) (Invalidated New York statute 
that required the consent of the mother, but not the father, to permit 
the adoption of an illegitimate child); Mississippi University for 
Women v. Hogan, 458 U.S. 718 (1982) (Invalidated policy of a state-
supported university that limited admission to its nursing school to 
women on the grounds that it reinforced traditional stereotypes).
---------------------------------------------------------------------------
    In J.E.B. v. Alabama, the Court determined that the state could not 
use its peremptory challenges to exclude male jurors in a paternity and 
child support action.\10\ In reaching its conclusion, the Court 
reviewed the historical exclusion of women from juries because of the 
belief that women were ``too fragile and virginal to withstand the 
polluted courtroom atmosphere.'' \11\ In J.E.B., the Court questioned 
the state's generalizations of male jurors being more sympathetic to 
the arguments of a father in a paternity action and female jurors being 
more receptive to the mother. The Court maintained that state actors 
who exercise peremptory challenges in reliance on gender stereotypes 
``ratify and reinforce prejudicial views of the relative abilities of 
men and women.'' \12\ The Court feared that this discriminatory use of 
peremptory challenges would not only raise questions about the fairness 
of the entire proceedings, but also create the impression of the 
judicial system acquiescing in the denial of participation by one 
gender.
---------------------------------------------------------------------------
    \10\ 511 U.S. 127 (1994).
    \11\ 511 U.S. at 133.
    \12\ 511 U.S. at 141.
---------------------------------------------------------------------------
    In U.S. v. Virginia, the Court conducted a more searching form of 
intermediate scrutiny to find unconstitutional the exclusion of women 
from the Virginia Military Institute (VMI).\13\ While articulating the 
need to show that a classification is substantially related to an 
important government interest, the Court also required the state to 
establish an ``exceedingly persuasive justification'' for its 
actions.\14\
---------------------------------------------------------------------------
    \13\ 518 U.S. 515 (1996).
    \14\ Id.
---------------------------------------------------------------------------
    Virginia advanced two arguments in support of VMI's exclusion of 
women: first, the single-sex education offered by VMI contributed to a 
diversity of educational approaches in Virginia; second, VMI employed a 
unique adversative method of training that would be destroyed if women 
were admitted.\15\
---------------------------------------------------------------------------
    \15\ See also Kimberly D. Jones, United States v. Virginia: The 
Constitutionality of Public Single-Sex Schools, CRS Report 96-924 A.
---------------------------------------------------------------------------
    After reviewing the history of Virginia's educational system, the 
Court concluded that VMI was not established or maintained to promote 
educational diversity. In fact, VMI's ``historic and constant plan'' 
was to offer a unique educational benefit to only men.\16\ VMI was not 
meant to complement other Virginia institutions as a single-sex 
educational option. Further, the Court recognized Virginia's historic 
reluctance to allow women to pursue higher education. Any interest 
Virginia had in maintaining educational diversity seemed to be 
``proffered in response to litigation.'' \17\
---------------------------------------------------------------------------
    \16\ 518 U.S. at 540.
    \17\ 518 U.S. at 533.
---------------------------------------------------------------------------
    In addressing Virginia's second argument, the Court expressed 
concern over the exclusion of women from VMI because of generalizations 
about their ability. While acknowledging that most women would probably 
not choose the adversative method, the Court maintained that some women 
had the will and capacity to succeed at VMI. Following J.E.B., the 
Court cautioned state actors to not rely on overbroad generalizations 
to perpetuate patterns of discrimination. While the Court believed that 
the adversative method did promote important goals, it concluded that 
the exclusion of women was not substantially related to achieving those 
goals.
    After determining that VMI's exclusion of women violated the 
Fourteenth Amendment, the Court reviewed the state's remedy, a separate 
program for women. Virginia established the Virginia Women's Institute 
for Leadership (VWIL) following the adverse decision of the court of 
appeals. Unlike VMI, VWIL did not use the adversative method because it 
was believed to be inappropriate for most women.\18\ VWIL lacked the 
faculty, facilities, and course offerings available at VMI. Because 
VWIL was not a comparable single-sex institution for women, the Court 
concluded that it was an inadequate remedy for the state's equal 
protection violations. VMI subsequently became coeducational.
---------------------------------------------------------------------------
    \18\ 518 U.S. at 549.
---------------------------------------------------------------------------
    The Court addressed gender stereotypes in a third case involving 
immigration issues. In Miller v. Albright, the Court considered a 
challenge to Sec. 309 of the Immigration and Nationality Act.\19\ The 
petitioner, the child of an American father and a Filipino mother, 
contended that Sec. 309 imposed additional requirements for 
establishing American citizenship when a child is fathered by an 
American citizen outside of the United States.\20\ For children born of 
a citizen mother and an alien father, citizenship is established at 
birth. However, for children born of a citizen father and an alien 
mother, citizenship is not established until the father or the child 
takes affirmative steps to confirm their relationship by the child's 
eighteenth birthday. In this case, the petitioner's father did not 
attempt to establish his relationship with his daughter until after her 
eighteenth birthday. Thus, the petitioner's application for citizenship 
was denied.
---------------------------------------------------------------------------
    \19\ 523 U.S. 420, 118 S.Ct. 1428 (1998).
    \20\ See 8 U.S.C. Sec. 1409.
---------------------------------------------------------------------------
    The case produced five different opinions. While six justices 
agreed that the petitioner's complaint should be dismissed, they 
provided different reasons for this conclusion. Justices Stevens and 
Rehnquist maintained that Sec. 309's distinction between 
``illegitimate'' children of U.S. citizen mothers and ``illegitimate'' 
children of U.S. citizen fathers is permissible because it is 
``eminently reasonable and justified by important Government 
policies.'' \21\ Justices O'Connor and Kennedy contended, however, that 
the distinction could withstand only rational basis review and should 
not satisfy the kind of heightened scrutiny Justice Stevens seemed to 
conduct. Setting aside the issue of Sec. 309's constitutionality, 
Justices O'Connor and Kennedy believed that the petitioner lacked the 
standing necessary to even pursue her claim. Finally, Justices Scalia 
and Thomas contended that the petitioner's complaint should be 
dismissed because the Court lacks the power to confer citizenship. 
Having acknowledged that Congress has the exclusive authority to grant 
citizenship, Justices Scalia and Thomas believed that there was no need 
to address the constitutionality of Sec. 309. Justices Ginsberg, 
Breyer, and Souter dissented in opinions written by Justices Ginsberg 
and Breyer.
---------------------------------------------------------------------------
    \21\ 118 S.Ct. at 1440.
---------------------------------------------------------------------------
    In their separate opinions, Justices Stevens, O'Connor, Ginsburg, 
and Breyer each addressed the petitioner's argument that Sec. 309 
invokes gender stereotypes. The petitioner contended that Sec. 309 
relies on the belief that an American father ``remains aloof from day-
to-day child rearing duties,'' and will not be as close to his 
child.\22\
---------------------------------------------------------------------------
    \22\ 118 S.Ct. at 1441.
---------------------------------------------------------------------------
    Justice Stevens maintained that the statute has a non-stereotypical 
purpose of ensuring the existence of a blood relationship between 
father and child. Justice Stevens recognized that the distinction is 
reasonable because mothers have the opportunity to establish parentage 
at birth, while fathers do not always have that opportunity. Further, 
he contended that the distinction encourages the development of a 
healthy relationship between the citizen father and the foreign-born 
child, and fosters ties between the child and the United States. Thus, 
Sec. 309's additional requirements are appropriate for fathers, but 
unnecessary for mothers.
    In their dissenting opinions, Justices Ginsburg and Breyer 
contended that Sec. 309 relies on generalizations about men and women 
and the ties they maintain with their children. Justice Ginsberg argued 
that Sec. 309's goals of assuring ties between the citizen father and 
the foreign-born child, and between the child and the United States can 
be achieved without reference to gender. Justice Breyer argued 
similarly, positing a distinction between caretaker and non-caretaker 
parents, rather than mother and father.
    While the Court's recent decisions involving sex and equal 
protection illustrate that it is concerned with the stereotyping of men 
and women, it is unclear whether it will continue to subject sex 
classifications and any related stereotypes to a traditional form of 
intermediate scrutiny. The Court's requirement of an ``exceedingly 
persuasive justification'' in VMI suggests that it may be interested in 
conducting a more exacting form of judicial review for sex 
classifications. In his Miller dissent, Justice Breyer emphasized the 
need to apply the standard established in VMI. Should the Court move 
definitively toward a higher level of judicial review, it is possible 
that sex may be considered a suspect classification like race, national 
origin, or alienage. However, even if that does not occur, the Court's 
decision in VMI suggests that equal protection analysis may be moving 
toward only two levels of review: heightened scrutiny and rational 
basis review.

               TITLE VII OF THE CIVIL RIGHTS ACT OF 1964

    Title VII prohibits an employer from discriminating against any 
individual with respect to hiring or the terms and condition of 
employment because of such individual's race, color, religion, sex, or 
national origin.\23\ Sex discrimination cases under Title VII have 
involved sexual harassment, pregnancy discrimination, and wage 
disparities among employees.\24\
---------------------------------------------------------------------------
    \23\ Title VII provides, in relevant part, that it is an unlawful 
employment practice for an employer (1) to fail or refuse to hire or to 
discharge any individual, or otherwise to discriminate against any 
individual with respect to his compensation, terms, conditions, or 
privileges of employment, because of such individual's race, color, 
religion, sex, or national origin; or (2) to limit, segregate, or 
classify his employees or applicants for employment in any way which 
would deprive or tend to deprive any individual of employment 
opportunities or otherwise adversely affect his status as an employee, 
because of such individual's race, color, religion, sex, or national 
origin. 42 U.S.C. Sec. 2000e-2.
    \24\ See also Karen J. Lewis, Sex Discrimination and the United 
States Supreme Court Developments in the Law, CRS Report 89-500A.
---------------------------------------------------------------------------
    The Court has developed two principal models for proving claims of 
employment discrimination.\25\ The ``disparate treatment'' model 
focuses on an employer's intent to discriminate. Alternately, the 
``disparate impact'' model is concerned with the adverse effects of an 
employer's practices on a protected class. Disparate impact analysis 
may find a facially neutral employment practice to be violative of 
Title VII even without evidence of the employer's subjective intent to 
discriminate. To succeed, a plaintiff must demonstrate that the 
application of a specific employment practice has had a disparate 
impact on a particular group of employees.\26\
---------------------------------------------------------------------------
    \25\ See also Charles V. Dale, The Civil Rights Act of 1991: A 
Legal Analysis of Various Proposals to Reform the Federal Equal 
Employment Opportunity Laws, CRS Report 91-757A.
    \26\ See also Ward's Cove Packing Company v. Atonio, 490 U.S. 642 
(1989).
---------------------------------------------------------------------------
    Both disparate treatment and disparate impact analysis involve a 
system of evidentiary burden shifting. Both models require the 
plaintiff to establish a prima facie case of discrimination. If such a 
case can be established, the burden shifts to the employer to 
articulate a defense for its actions. At that point, the employer may 
produce evidence showing that its actions are justified because of the 
needs of its business. Alternately, the employer may contend that 
otherwise discriminatory conduct satisfies a bona fide occupational 
qualification (BFOQ). Under Sec. 703(e)(1) of Title VII, an employer 
may discriminate on the basis of ``religion, sex, or national origin in 
those certain instances where religion, sex, or national origin is a 
bona fide occupational qualification reasonably necessary to the normal 
operation of that particular business or enterprise.'' \27\ Ultimately, 
however, the plaintiff retains the burden of persuasion; that is, the 
plaintiff must disprove the employer's assertion that the adverse 
employment action or practice is based on business necessity or is a 
BFOQ.
---------------------------------------------------------------------------
    \27\ 42 U.S.C. Sec. 2000e-2(e)(1).
---------------------------------------------------------------------------
Pregnancy Discrimination
    In recent years, the Court has addressed Title VII and sex 
discrimination most frequently in the context of sexual harassment. In 
UAW v. Johnson Controls, however, the Court considered whether an 
employer may discriminate against fertile women because of its interest 
in protecting potential fetuses.\28\
---------------------------------------------------------------------------
    \28\ 499 U.S. 187 (1991). See also Gina M. Stevens, Sex-Based 
Discrimination: UAW v. Johnson Controls, Inc., CRS Report 91-323A.
---------------------------------------------------------------------------
    Johnson Controls, a battery manufacturer, implemented a policy that 
excluded ``women who are pregnant or who are capable of bearing 
children'' from jobs that exposed them to lead.\29\ Lead was the 
primary ingredient in the manufacturing process at Johnson Controls. 
Although fertile women were excluded from employment, fertile men were 
still permitted to work.
---------------------------------------------------------------------------
    \29\ 499 U.S. at 192.
---------------------------------------------------------------------------
    The Court found that Johnson Controls' policy was facially 
discriminatory because it did not apply to the reproductive capacity of 
the company's male employees in the same way it applied to that of 
female employees. The Court's conclusion was bolstered by the Pregnancy 
Discrimination Act of 1978 (PDA), which provides that discrimination 
``on the basis of sex'' for purposes of violating Title VII includes 
discrimination ``because of or on the basis of pregnancy, childbirth, 
or related medical conditions.'' \30\
---------------------------------------------------------------------------
    \30\ See 42 U.S.C. Sec. 2000e(k).
---------------------------------------------------------------------------
    Although Johnson Controls asserted that sex was a BFOQ for 
protecting fetal safety, the Court maintained that discrimination on 
the basis of sex for safety concerns is allowed only in narrow 
circumstances.\31\ The Court stressed that to qualify as a BFOQ, an 
employment practice must relate to the essence or central mission of 
the employer's business.\32\ Because the potential fetuses of Johnson 
Controls' females employees were not customers or third parties whose 
safety was essential to the business of battery manufacturing, the 
Court rejected Johnson Controls' BFOQ defense.
---------------------------------------------------------------------------
    \31\ 499 U.S. at 202.
    \32\ See Dothard v. Rawlinson, 433 U.S. 321 (1977) (Court found sex 
to be a BFOQ because the employment of a female guard in a maximum-
security male penitentiary could create a risk of violence and 
jeopardize the safety of inmates); Western Airlines, Inc. v. Criswell, 
472 U.S. 400 (1985) (Court found age to be a BFOQ in an ADEA case 
because the employment of an older flight engineer could cause a safety 
emergency and jeopardize the safety of passengers).
---------------------------------------------------------------------------

Sexual Harassment

    Courts have recognized two forms of sexual harassment under Title 
VII. The first, quid pro quo sexual harassment, occurs when submission 
to unwelcome sexual advances or other conduct of a sexual nature is 
made a condition of an individual's employment or is otherwise used as 
the basis for employment decisions. The second form of harassment 
involves conduct that has the purpose or effect of interfering 
unreasonably with an individual's work performance or of creating a 
hostile or offensive working environment. This second form of sexual 
harassment is referred to as ``hostile environment'' sexual harassment.
    In Harris v. Forklift Systems, Inc., the Court sought to define 
when a workplace was sufficiently ``hostile'' for purposes of 
maintaining a claim under Title VII.\33\ The petitioner, a female 
manager at an equipment rental company, alleged that the company's 
president created a hostile environment by repeatedly insulting her 
because of her gender and making her the target of unwanted sexual 
innuendos.
---------------------------------------------------------------------------
    \33\ 510 U.S. 17 (1993).
---------------------------------------------------------------------------
    The Court determined that an employee does not need to suffer 
injury to assert a hostile environment claim under Title VII: ``So long 
as the environment would reasonably be perceived, and is perceived, as 
hostile or abusive * * * there is no need for it also to be 
psychologically injurious.'' \34\ While the Court recognized that a 
standard based on the perceptions of a reasonable person is not 
``mathematically precise,'' it emphasized both the need to consider all 
of the circumstances and the fact that Title VII does not require 
concrete psychological harm.\35\ The Court identified four factors that 
should be considered to determine whether a hostile environment exists: 
(1) the frequency of the discriminatory conduct; (2) the severity of 
such conduct; (3) whether the conduct is physically threatening or 
humiliating; and (4) whether the conduct interferes unreasonably with 
an employee's work performance.\36\ Although the Court recognized these 
factors as those to be considered in identifying a hostile environment, 
it emphasized that no single factor is determinative.
---------------------------------------------------------------------------
    \34\ 510 U.S. at 22.
    \35\ Id.
    \36\ 510 U.S. at 23.
---------------------------------------------------------------------------
    The Court continued its examination of hostile environment sexual 
harassment in two cases involving vicarious liability. In Faragher v. 
City of Boca Raton, the Court found that an employer is vicariously 
liable for actionable discrimination caused by a supervisor, subject to 
an affirmative defense that must consider the reasonableness of the 
employer's conduct, as well as the conduct of the employee.\37\ The 
petitioner, a former lifeguard for the Marine Safety Section of Boca 
Raton's Parks and Recreation Department, alleged that she was subject 
to an environment characterized by lewd remarks, gender-biased speech, 
and uninvited and offensive touching by her former supervisors.
---------------------------------------------------------------------------
    \37\ 524 U.S. 775, 118 S.Ct. 2275 (1998).
---------------------------------------------------------------------------
    The petitioner pursued three lines of reasoning drawn from agency 
law to argue that the City was vicariously liable for the hostile 
environment created by the supervisors. First, the petitioner contended 
that the supervisors were acting within the scope of their employment 
when they engaged in the harassing conduct. Second, the petitioner 
argued that in creating a hostile environment the supervisors were 
aided by their supervisory authority. Third, the petitioner claimed 
that the City was negligent for failing to prevent the harassment by 
the supervisors.
    In addressing the petitioner's first argument, the Court conceded 
that a supervisor is responsible for maintaining a productive and safe 
work environment. However, the Court also contended that it was 
unlikely that Congress wished courts to ignore the traditional 
distinction between acts falling within the scope of employment and 
those amounting to what ``older law'' recognized as frolics or 
detours.\38\ The Court concluded that when a supervisor expresses his 
sexual interests ``in ways having no apparent object whatever of 
serving an interest of the employer,'' such harassment should be 
classified as beyond the scope of employment and should not impose 
liability on the employer.\39\ Further, the Court stated that if 
employers were liable for the hostile environments created by 
supervisors under a ``scope of employment'' theory, it would be just as 
appropriate to find liability when such an environment was created by 
co-workers. The Court expressed reluctance to recognize such liability.
---------------------------------------------------------------------------
    \38\ 118 S.Ct. at 2288.
    \39\ 118 S.Ct. at 2289.
---------------------------------------------------------------------------
    Although the Court rejected the petitioner's scope of employment 
argument, it was persuaded that the supervisors were aided in creating 
a hostile environment by their superior positions. The Court recognized 
that the authority conferred as a result of a supervisor's relationship 
with the employer allows the supervisor greater ability to act 
inappropriately: ``When a person with supervisory authority 
discriminates in the terms and conditions of subordinates' employment, 
his actions necessarily draw upon his superior position over the people 
who report to him * * * whereas an employee generally cannot check a 
supervisor's abusive conduct the same way that she might deal with 
abuse from a co-worker.'' \40\
---------------------------------------------------------------------------
    \40\ 118 S.Ct. at 2291.
---------------------------------------------------------------------------
    While the Court recognized that there could be vicarious liability 
for the misuse of supervisory authority, it established the 
availability of an affirmative defense for employers. This affirmative 
defense would consist of the employer's assertion that it exercised 
reasonable care to prevent and correct any sexually harassing behavior. 
In addition, the affirmative defense would maintain that the employee 
unreasonably failed to take advantage of any preventive or corrective 
opportunities provided by the employer. The Court believed that the 
employer's ability to assert such an affirmative defense was consistent 
with Title VII's objective of encouraging employers to prevent sexual 
harassment from occurring.\41\
---------------------------------------------------------------------------
    \41\ 118 S.Ct. at 2292.
---------------------------------------------------------------------------
    After applying its new rules to the case at bar, the Court 
concluded that the City did not exercise reasonable care to prevent the 
supervisors' harassing conduct. Although the City maintained a policy 
against sexual harassment, it failed to disseminate that policy to 
beach employees. Further, the City made no attempt to monitor the 
conduct of the supervisors or assure employees that they could bypass 
harassing supervisors to register complaints.
    The Court addressed briefly the petitioner's third argument of the 
City's negligence by contending that the regulations of the Equal 
Employment Opportunity Commission (EEOC) require that employers take 
steps to prevent Title VII violations. The existence of such 
regulations established that the City had a duty to prevent the 
harassment. Although the City did adopt an antiharassment policy in 
1986, it failed to implement the policy with respect to beach 
employees.
    The Court revisited the issue of vicarious liability for employers 
in Burlington Industries v. Ellerth, a companion case to Faragher.\42\ 
In Burlington Industries, the Court maintained that an employer may be 
found vicariously liable for harassment by a supervisor even if the 
employee suffers no adverse, tangible job consequences.
---------------------------------------------------------------------------
    \42\ 524 U.S. 742, 118 S.Ct. 2257 (1998).
---------------------------------------------------------------------------
    The petitioner in Burlington Industries alleged that she was 
subjected to repeated offensive remarks and gestures by a mid-level 
manager who supervised the petitioner's immediate supervisor. On three 
occasions, the manager made remarks that could be construed as threats 
to deny the petitioner job benefits. For example, the manager 
encouraged the petitioner to ``loosen up'' because he ``could make 
[her] life very hard or very easy at Burlington.'' \43\ Although 
Burlington maintained a policy against sexual harassment, the 
petitioner did not inform anyone in authority about the manager's 
misconduct. Instead, the petitioner resigned from her position, 
providing reasons unrelated to the harassment. Three weeks after her 
resignation, the petitioner informed Burlington of her true reasons for 
leaving.
---------------------------------------------------------------------------
    \43\ 118 S.Ct. at 2262.
---------------------------------------------------------------------------
    While the manager's threats suggested that the claim should be 
analyzed as a quid pro quo claim, the Court categorized it as a hostile 
environment claim because it involved only unfulfilled threats. After 
reviewing the petitioner's claim in terms similar to Faragher, the 
Court determined that the manager at Burlington also misused his 
supervisory authority. The Court concluded that Burlington should be 
given the opportunity to assert and prove an affirmative defense to 
liability.
    The availability of punitive damages for violations of Title VII 
was recently addressed by the Court in Kolstad v. American Dental 
Association.\44\ In Kolstad, the Court continued to build on its 
holdings in Faragher and Burlington Industries by concluding that 
although an employer may be vicariously liable for the misconduct of 
its supervisory employees, it will not be subject to punitive damages 
if it has made good faith efforts to comply with Title VII. The Court 
noted that subjecting employers that adopt antidiscrimination policies 
to punitive damages would undermine Title VII's objective of 
encouraging employers to prevent discrimination in the workplace.
---------------------------------------------------------------------------
    \44\ No. 98-208, 1999 WL 407481 (U.S. June 22, 1999).
---------------------------------------------------------------------------

Same-Sex Sexual Harassment

    In 1998, the Court interpreted Title VII's prohibition against 
discrimination ``because of * * * sex'' to include harassment involving 
a plaintiff and defendant of the same sex.\45\ The petitioner in Oncale 
v. Sundowner Offshore Services, Inc. alleged that he was physically 
assaulted in a sexual manner and was threatened with rape by three male 
co-workers.\46\ Two of the co-workers had supervisory authority over 
the petitioner.
---------------------------------------------------------------------------
    \45\ 42 U.S.C. Sec. 2000e-2.
    \46\ 523 U.S. 75, 77 (1998).
---------------------------------------------------------------------------
    Although the Court acknowledged that Congress was ``assuredly'' not 
concerned with male-on-male sexual harassment when it enacted Title 
VII, it found no justification in the statutory language or the Court's 
precedents for excluding same-sex harassment claims from the coverage 
of Title VII.\47\ At the same time, the Court stated that inquiries in 
same-sex harassment cases require careful consideration of the social 
context in which particular behavior occurs and is experienced by the 
claimant. For example, the Court distinguished a football player being 
patted on the butt in a locker room from similar behavior occurring in 
an office. The Court contended that this kind of consideration would 
prevent Title VII from becoming a ``general civility code'' for the 
American workplace.\48\
---------------------------------------------------------------------------
    \47\ 523 U.S. at 79.
    \48\ 523 U.S. at 80.
---------------------------------------------------------------------------

              TITLE IX OF THE EDUCATION AMENDMENTS OF 1972

    Title IX of the Education Amendments of 1972 prohibits 
discrimination on the basis of sex in educational programs and 
activities that receive federal funding. Until recently, Title IX 
claims have been most common among women and girls challenging 
inequities in sports programs.\49\ Title IX is now used as a vehicle 
for challenging sexual harassment in classrooms and on campuses.
---------------------------------------------------------------------------
    \49\ See also Kimberly Jones, Sexual Harassment in Education: 
Recent Legal Developments Under Title IX of the Education Amendments of 
1972, CRS Report 98-798A.
---------------------------------------------------------------------------
    Title IX provides, in relevant part, that ``[n]o person in the 
United States shall, on the basis of sex, be excluded from 
participation in, be denied the benefits of, or be subjected to 
discrimination under any education program or activity receiving 
Federal financial assistance * * *.'' \50\ The Court's recent decisions 
involving Title IX address various issues, including the availability 
of damages and who may be subject to liability.
---------------------------------------------------------------------------
    \50\ 20 U.S.C. Sec. 1681(a).
---------------------------------------------------------------------------
    In Franklin v. Gwinnett County Public Schools, a student in the 
Gwinnett County School District sought monetary damages for violation 
of Title IX.\51\ The petitioner argued that she had been subjected to 
continual sexual harassment and abuse by a teacher employed by the 
school district. Although the harassment became known and an 
investigation was conducted, teachers and administrators did not act 
and the petitioner was subsequently discouraged from pressing charges. 
Following Meritor Sav. Bank, FSB v. Vinson, the case in which the Court 
first recognized hostile environment sexual harassment as a cognizable 
claim under Title VII, the Court in Franklin concluded that when a 
teacher sexually harasses and abuses a student, the teacher 
discriminates similarly on the basis of sex.\52\
---------------------------------------------------------------------------
    \51\ 503 U.S. 60 (1992).
    \52\ 503 U.S. at 75.
---------------------------------------------------------------------------
    The Court contended that absent clear direction to the contrary, 
the federal courts could award any appropriate relief in an action 
brought pursuant to a federal statute. Thus, because Title IX was 
silent on the issue of monetary damages, the Court found that they were 
available for the student.
    In Gebser v. Lago Vista Independent School District, the Court 
determined that a school district will not be held liable under Title 
IX for a teacher's sexual harassment of a student if the school 
district did not have actual notice of the harassment and did not 
exhibit deliberate indifference to the misconduct.\53\ The petitioner, 
a female high school student, was involved in a sexual relationship 
with one of her teachers. Unlike the situation in Franklin, the school 
district did not have actual notice of any sexual relationship between 
the petitioner and the teacher until they were discovered by a police 
officer. The principal of the petitioner's school did learn of 
inappropriate comments made by the teacher prior to the discovery, but 
he cautioned the teacher about such comments. After the sexual 
relationship became known, the school district quickly terminated the 
teacher. Despite the school district's actions, the petitioner argued 
that the school district should be found liable on the basis of 
vicarious liability or constructive notice.\54\
---------------------------------------------------------------------------
    \53\ 524 U.S. 274, 118 S.Ct. 1989 (1998).
    \54\ Under a theory of constructive notice, liability would be 
established on the grounds that the school district knew or should have 
known about the harassment, but failed to discover and eliminate it.
---------------------------------------------------------------------------
    In requiring the school district to have actual notice of the 
harassment, the Court discussed the absence of an express cause of 
action under Title IX. Unlike Title VII, Title IX does not address 
damages or the particular situations in which damages are 
available.\55\ While Title IX does address a denial of funds for 
noncompliance with its provisions, it does not provide for a private 
right of action. Instead, a private right of action has been judicially 
implied.\56\
---------------------------------------------------------------------------
    \55\ 118 S.Ct. at 1996.
    \56\ See also Cannon v. University of Chicago, 441 U.S. 677 (1979).
---------------------------------------------------------------------------
    Because Title IX does not contain any reference to the recovery of 
damages in private actions, the Court reasoned that its recognition of 
theories of vicarious liability and constructive notice would allow an 
unlimited recovery where Congress has not spoken.\57\ Stated 
differently, the Court was reluctant to expand the availability of 
damages for such theories when Title IX failed to provide initially for 
a private cause of action. In this way, the Court sought to refine its 
holding in Franklin and limit those situations in which a remedy for 
damages would lie.
---------------------------------------------------------------------------
    \57\ 118 S.Ct. at 1997.
---------------------------------------------------------------------------
    The Court believed that Title IX's remedial scheme would be 
undermined if it did not require that a school district have actual 
notice of a teacher's sexual harassment. Sec. 902 of Title IX states 
that financial assistance will not be denied until the ``appropriate 
person or persons'' have been advised of the discrimination and have 
failed to end the discrimination voluntarily.\58\ An ``appropriate 
person'' is an official of the entity receiving funds who has the 
authority to take corrective action.\59\ Because the school district in 
Gebser did not have actual notice of the sexual relationship, it could 
not have taken any steps to end the alleged discrimination.
---------------------------------------------------------------------------
    \58\ See 20 U.S.C. Sec. 1682.
    \59\ 118 S.Ct. at 1999.
---------------------------------------------------------------------------
    In addition, the Court stated that damages will not be available 
unless it is shown that a response exhibits a deliberate indifference 
to the discrimination; that is, there must be ``an official decision by 
the recipient not to remedy the violation.'' \60\ In Gebser, the school 
district responded to the situation by first cautioning the teacher, 
and then terminating him once the relationship was discovered. Thus, 
the Court concluded that the school district did not act with 
deliberate indifference.
---------------------------------------------------------------------------
    \60\ Id.
---------------------------------------------------------------------------
    In National Collegiate Athletic Association v. Smith, the Court 
found that a private organization is not subject to Title IX simply 
because it receives payments from entities that receive federal 
financial assistance.\61\ The respondent, a female graduate student, 
alleged that the National Collegiate Athletic Association (NCAA) 
discriminated against her on the basis of sex by denying her permission 
to play intercollegiate volleyball at two federally assisted 
institutions. Under NCAA rules, a graduate student is permitted to 
participate in intercollegiate athletics at only the institution that 
awarded her undergraduate degree. The respondent graduated from one 
university, but enrolled at two different universities for her graduate 
degree. The respondent argued that the NCAA granted more waivers from 
eligibility restrictions to male graduate students than to female 
graduate students.
---------------------------------------------------------------------------
    \61\ No. 98-84, 1999 WL 83907 (U.S. Feb. 23, 1999).
---------------------------------------------------------------------------
    The Court concluded that the NCAA was not a recipient of Title IX 
funds. The NCAA did not receive federal assistance either directly or 
through an intermediary. Instead, it received dues payments from member 
institutions. The Court stated, ``[a]t most, the Association's receipt 
of dues demonstrates that it indirectly benefits from the federal 
assistance afforded its members. This showing, without more, is 
insufficient to trigger Title IX coverage.'' \62\ Because the Court 
found that the NCAA was not amenable to suit, it did not address the 
respondent's substantive allegations of discrimination.
---------------------------------------------------------------------------
    \62\ 1999 WL 83907 at 5.
---------------------------------------------------------------------------
    Recently, the Court recognized student-on-student sexual harassment 
as a cognizable claim under Title IX. In Davis v. Monroe County Board 
of Education, a mother alleged that her daughter suffered 
discrimination as a result of the Monroe County Board of Education's 
(``Board'') failure to respond to the misconduct of another 
student.\63\ While LaShonda, the petitioner's daughter, was in the 
fifth grade, a male student allegedly made vulgar remarks to her and 
touched her in an inappropriate manner. Although the petitioner and 
LaShonda notified the principal and several teachers, the misconduct 
continued. The male student was never disciplined for his actions. In 
addition, no effort was made to separate LaShonda and the male student 
in classes. The petitioner alleged that LaShonda's grades dropped as a 
result of the harassment. It appears that LaShonda also contemplated 
suicide because of the male student's continued misconduct.\64\
---------------------------------------------------------------------------
    \63\ No. 97-843, 1999 WL 320808 (U.S. May 24, 1999).
    \64\ Id. at 4.
---------------------------------------------------------------------------
    The Board maintained that the Court should not find a private 
damages action under Title IX for student-on-student harassment because 
the statute proscribes only misconduct by grant recipients. Title IX 
was enacted pursuant to Congress' spending power. In interpreting such 
spending legislation, courts have generally insisted that recipients of 
federal funding have adequate notice of misconduct that could 
jeopardize their funding.\65\ Because Title IX proscribes only 
misconduct by grant recipients, the Board argued that it did not have 
notice of a possible claim for misconduct by a third party.
---------------------------------------------------------------------------
    \65\ 1999 WL 320808 at 7.
---------------------------------------------------------------------------
    However, the Court maintained that a private damages action could 
exist when a funding recipient intentionally violates the clear intent 
of Title IX. In Gebser, for example, the Court determined that a school 
district could be liable for the misconduct of a teacher if the school 
district remained deliberately indifferent to the misconduct. Here, 
LaShonda's school knew about the harassment and did nothing to address 
it. In addition, the Court contended that the federal regulatory scheme 
surrounding Title IX and existing tort law provide examples of schools 
being liable for the misconduct of third parties. Thus, there was 
adequate notice that such misconduct could result in liability.
    The Court concluded that recipients of federal funding may be 
liable for subjecting their students to discrimination where the 
recipient is deliberately indifferent to known acts of student-on-
student harassment and the harasser is under the school's disciplinary 
authority. In identifying the level of harassment necessary to state an 
actionable claim, the Court stated that the harassment must be ``so 
severe, pervasive, and objectively offensive that it can be said to 
deprive the victims of access to the educational opportunities or 
benefits provided by the school.'' \66\ The Court rejected the 
possibility of students using Title IX to remedy teasing or name-
calling by contending that the misconduct must be serious enough to 
have a systemic effect of denying the victim equal access to an 
educational program or activity.
---------------------------------------------------------------------------
    \66\ 1999 WL 320808 at 14.
---------------------------------------------------------------------------
    While the development of sex discrimination law under Title IX owes 
much to Title VII, the Davis Court's recognition of student-on-student 
harassment highlights dramatic differences between the two statutes. As 
suggested by the dissent in Davis, any analogies between student-on-
student harassment cases and Title VII hostile environment cases are 
inappropriate because ``schools are not workplaces and children are not 
adults.'' \67\ For that reason, any import of Title VII hostile 
environment analysis should be done with caution.
---------------------------------------------------------------------------
    \67\ 1999 WL 320808 at 27.
---------------------------------------------------------------------------
    Further, the dissent recognized that while there is a cap on money 
damages under Title VII, no such cap exists for private causes of 
action under Title IX. Thus, a plaintiff could seek damages close to 
the amount designated originally to a school district. For example, 
Monroe County received approximately $679,000 in federal aid in 1992-
93.\68\ Davis sought $500,000 in damages.\69\ The dissent maintained 
that this ``limitless liability'' under Title IX would put schools in a 
far worse position than businesses.\70\
---------------------------------------------------------------------------
    \68\ 1999 WL 320808 at 32.
    \69\ Id.
    \70\ 1999 WL 320808 at 32.
---------------------------------------------------------------------------
    Finally, unlike Title VII, Title IX has no provision for agency 
investigation. Thus, Title IX does not contain a mechanism for weeding 
out frivolous claims and settling meritorious ones at minimal costs. 
While Congress could consider the creation of an agency like the EEOC 
to handle initial investigations under Title IX, such action could 
possibly move Title IX closer to Title VII, reducing the distinctions 
between classroom and workplace.
                                 ______
                                 
     The Department of Energy's Spallation Neutron Source Project: 
               Description and Issues--December 10, 1999

                                ABSTRACT

    This CRS report focuses on the Spallation Neutron Source (SNS), a 
new Department of Energy-funded research facility, which is scheduled 
for construction at the Oak Ridge National Laboratory in eastern 
Tennessee. The facility is intended to generate and use pulsed neutron 
beams to study the structural properties of a wide range of materials. 
The report describes the SNS's management, project costs, schedule, 
site selection, and funding, and discusses issues raised by some 
congressional critics of the project, such as management problems, 
potential cost overruns, and schedule delays. Technical information 
about the project as well as excerpts from relevant legislation are 
appended. The report will be updated as appropriate.

                                SUMMARY

    The U.S. Department of Energy (DOE) is preparing construction of 
the Spallation Neutron Source (SNS), a new $1.36 billion research 
facility at the Oak Ridge National Laboratory in eastern Tennessee. The 
project is a collaboration of five national laboratories: Oak Ridge 
(ORNL), Argonne (ANL), Brookhaven (BNL), Lawrence Berkeley (LBNL), and 
Los Alamos (LANL). The facility is intended to generate and use pulsed 
neutron beams to study the structural properties of a wide range of 
materials. After its scheduled completion in December 2005, the 
facility would be the world's most powerful neutron source of its kind. 
Many scientists argue that the SNS will provide U.S. science and 
industry with an essential tool to compete with Europe and Japan in 
broad areas of the physical, chemical, and biological sciences, as well 
as in the development and testing of new materials.
    In fiscal year 1999, Congress gave DOE permission to begin some 
design and construction work and appropriated $130 million. During 
fiscal year 2000 budget negotiations, congressional critics of the 
SNS's management threatened to withhold further authorization for 
construction funds unless DOE would take significant steps to 
strengthen project management. In conference, Congress appropriated 
$117.9 million, including $100 million for construction. Although 
significantly less than the DOE's fiscal year 2000 SNS budget request 
of $214 million, the appropriated amount permits the project's 
continuation during fiscal year 2000.
    While most scientists contend that the SNS's scientific merits are 
undisputed, some critics have pointed to weaknesses in the project's 
management. DOE states that SNS project management has been 
strengthened in recent months with the selection of a new and 
experienced leadership team. However, two problems remain that might 
jeopardize further congressional support: difficulties in developing 
one of the project's pivotal technical components, its linear 
accelerator; and a Tennessee tax imposed on the project's construction. 
Concerned about potential cost overruns and schedule delays, some in 
Congress are arguing for close congressional oversight to help ensure 
the SNS's successful completion on schedule and within budget.

                              INTRODUCTION

    The Spallation Neutron Source (SNS), a new research facility funded 
by the Department of Energy (DOE), is scheduled to be constructed at 
the Oak Ridge National Laboratory in east central Tennessee.\1\ The 
project is the collaboration of five DOE national laboratories:
---------------------------------------------------------------------------
    \1\ For general information about the Spallation Neutron Source see 
Department of Energy, Spallation Neutron Source: The next-generation 
neutron scattering facility for the United States (1998); see also the 
project's website [http://www.ornl.gov/sns/].
---------------------------------------------------------------------------
  --Oak Ridge National Laboratory (ORNL), Oak Ridge, Tennessee
  --Argonne National Laboratory (ANL), Argonne, Illinois
  --Brookhaven National Laboratory (BNL), Upton, New York
  --Lawrence Berkeley National Laboratory (LBNL), Berkeley, California
  --Los Alamos National Laboratory (LANL), Los Alamos, New Mexico
    Each of the five laboratories is responsible for developing and 
constructing one of the major components for the SNS. With a projected 
total cost of $1.36 billion, the SNS would be the most expensive 
civilian DOE facility under construction since the cancellation of the 
Superconducting Super Collider (SSC) in 1993. The DOE developed the SNS 
concept beginning in the mid-1990s, after it abandoned a more ambitious 
neutron source project at Oak Ridge, the Advanced Neutron Source 
(ANS).\2\
---------------------------------------------------------------------------
    \2\ The Advanced Neutron Source, a reactor-based facility, faced 
congressional opposition primarily because of its high price, estimated 
to be $3 billion. In addition, nonproliferation advocates criticized 
the project for its planned use of highly enriched uranium. See Barbara 
Goss Levi, ``The Advanced Neutron Source Knocks at the Door of 
Congress,'' Physics Today (November 1994), 17-19; Daniel Clery and 
Andrew Lawler, ``The Looming Neutron Gap,'' Science (17 February 1995), 
952-954; Faye Flam, ``Panel Hopes Compromise Will Bail Out Neutron 
Source,'' Science (18 November 1994), 1160-1161.
---------------------------------------------------------------------------
    The SNS, which is scheduled to become operational by December 2005, 
is designed to be the world's most powerful neutron source of its 
kind.\3\ Neutrons are subatomic particles that have become essential 
tools in studying broad areas of the physical, chemical, and biological 
sciences, as well as aiding the development and testing of new 
materials. Much like x-rays or electrons, neutron beams can be used to 
probe the structure of physical and biological materials, acting like a 
high-resolution ``microscope.'' Experiments conducted with the SNS are 
expected to advance scientific disciplines such as materials science, 
solid state physics, engineering, chemistry, and structural biology. 
Many scientists expect that the SNS will lead to a wide range of 
improved materials used in every day products such as cars, airplanes, 
computers, and drugs [see Appendix A for additional information on the 
technology and applications of the SNS].
---------------------------------------------------------------------------
    \3\ Neutron beams can be produced in two different ways, either by 
a particle accelerator or by a nuclear reactor (see Appendix A). The 
SNS is an accelerator-based facility. Currently, the most powerful 
operating accelerator-based neutron source is ISIS at the Rutherford 
Appleton Laboratory near Oxford, England. SNS, with an expected beam 
power of 2 megawatts, will have more than 10 times the beam power of 
ISIS.
---------------------------------------------------------------------------
    Many leading U.S. scientists have long called for a new neutron 
source in the United States.\4\ Currently, six neutron sources operate 
in the United States,\5\ but most scientists have pointed out that 
these sources are out-of-date and inferior to facilities in Europe and 
Japan.\6\ DOE evaluated three possible approaches to remedy the 
situation: upgrading existing facilities, buying access time at 
European facilities, and constructing a new powerful neutron source in 
the United States. While some upgrades of existing facilities are 
planned, they will not reach the beam power required for some essential 
research areas. Access for U.S. researchers to European facilities is 
limited since the best sources are already oversubscribed by the host 
nations. In addition, some foreign facilities might not be inclined to 
support U.S. research involving neutron sources, which is directly 
linked to industrial competitiveness. Many scientists agree that the 
SNS could help U.S. science and industry to regain a competitive 
position in research and development areas that depend on powerful 
neutron beams.\7\
---------------------------------------------------------------------------
    \4\ National Research Council, Neutron Research on Condensed Matter 
(1977); National Academy of Sciences, Major Facilities for Materials 
Research and Related Disciplines (1984); Department of Energy, Basic 
Energy Sciences Advisory Committee (BESAC), Neutron Sources of 
America's Future (January 1993), DOE/ER-0576P; BESAC, Neutron Sources 
and Applications (January 1994), DOE/ER-0607P; BESAC, Report of the 
Basic Energy Sciences Advisory Committee on Neutron Source Facility 
Upgrades and the Technical Specifications for the Spallation Neutron 
Source (March 1998).
    \5\ Neutron sources in the United States: LANSCE (Los Alamos) and 
IPNS (Argonne) are spallation neutron sources; HFIR (Oak Ridge), NBSR 
(National Institute of Science and Technology), MURR (University of 
Missouri), and MIT (Massachusetts Institute of Technology) are reactor 
neutron sources. The four reactors were designed and constructed in the 
1950s and 1960s. The most recent U.S. reactor for neutron scattering 
research, NBSR, began routine operation in 1969. On November 16, 1999, 
Secretary of Energy Bill Richardson closed the High Flux Beam Reactor 
(HFBR) at Brookhaven National Laboratory, which had provided scientists 
with a neutron beam since the mid-1960s. For a list of present and 
future neutron sources worldwide see DOE, Construction and Operation of 
the Spallation Neutron Source Facility, Final Environmental Impact 
Statement, Volume 1, DOE/EIS-0247, p.1-5.
    \6\ European countries, including France, England, Germany, and 
Italy, among others, are designing a European Spallation Source (ESS), 
with an expected average beam power of 5 megawatts, more than double 
the SNS's 2 megawatts. However, the ESS is only in the research and 
development phase and will not be completed, if constructed at all, in 
the near future. No site for the facility has been selected yet. In 
contrast, the SNS was designed to become operational as soon as 
possible. Therefore, the design mostly relies on proven technologies 
that avoid costly and time consuming research and development of 
components. For the ESS see [http://www.kfa-juelich.de/ess/].
    \7\ Department of Energy, Report of the Basic Energy Sciences 
Advisory Committee on Neutron Source Facility Upgrades and the 
Technical Specifications for the Spallation Neutron Source (March 
1998).
---------------------------------------------------------------------------

Management

    The Spallation Neutron Source is a collaborative effort of five 
national laboratories: Oak Ridge, Los Alamos, Brookhaven, Lawrence 
Berkeley, and Argonne, all of which have participated in the SNS's 
design. Oak Ridge National Laboratory, which leads the collaboration, 
is currently managed by Lockheed Martin Energy Research Corporation. In 
April 2000, Lockheed Martin will be replaced by a new contractor, the 
University of Tennessee in cooperation with Battelle Memorial 
Institute.
    The SNS management structure involves the DOE Office of Science, 
which provides overall guidance, DOE's Oak Ridge Operations Office, the 
SNS Project Office, and the five participating national laboratories 
and their local DOE operations offices.\8\ Unlike the other four 
laboratories involved in the SNS, Los Alamos National Laboratory 
reports to DOE's Defense Programs and not directly to the Office of 
Science. Interactions between various DOE agencies and the 
participating laboratories are guided by Memoranda of Agreement 
(MOAs).\9\ Following a critical review of the SNS management in January 
1999,\10\ DOE selected a new leadership team, including a new SNS 
Executive Director, Dr. David E. Moncton. On November 18, 1999, 
Secretary of Energy Bill Richardson assigned primary authority and 
responsibility for project execution to Moncton.\11\
---------------------------------------------------------------------------
    \8\ For a detailed description of SNS management structure see 
Department of Energy, Spallation Neutron Source: Project Execution 
Plan, approved by Secretary of Energy Bill Richardson on November 18, 
1999, Appendix C.
    \9\ Memorandum of Agreement between the Office of Science and 
Defense Programs for the Spallation Neutron Source, signed February 26, 
1998; Memorandum of Agreement between Oak Ridge Operations Office, 
Spallation Neutron Source Project Office, and the Argonne Group, 
Berkeley Site Office, Brookhaven Group, and Los Alamos Area Office, 
signed July 9, 1999; Memorandum of Agreement between the Spallation 
Neutron Source Project and Argonne National Laboratory, Brookhaven 
National Laboratory, Lawrence Berkeley National Laboratory, Los Alamos 
National Laboratory, and Oak Ridge National Laboratory, signed October 
18, 1999. These three memoranda are included in Department of Energy, 
Spallation Neutron Source: Project Execution Plan, approved by 
Secretary of Energy Bill Richardson on November 18, 1999.
    \10\ Department of Energy, Technical, Cost, Schedule, and 
Management Review of the Spallation Neutron Source Project (January 
1999).
    \11\ Department of Energy, Spallation Neutron Source: Project 
Execution Plan, approved by Secretary of Energy Bill Richardson on 
November 18, 1999.
---------------------------------------------------------------------------

Project Cost and Schedule

    Conceptual design activities for the SNS began in November 1995. In 
June 1997, a DOE review validated the project's design. The expected 
total cost of $1.266 billion was judged to be credible, but the 
reviewers felt that the construction schedule of six years, with 
completion scheduled for September 2004, was too optimistic.\12\ Since 
February 1999, total project cost has remained level at $1.36 billion. 
The SNS is now scheduled to become fully operational in December 2005.
---------------------------------------------------------------------------
    \12\ Department of Energy, Department of Energy Review of the 
National Spallation Neutron Source Project, June 1997. Secretary of 
Energy Pena approved the SNS technical, cost, and schedule baselines on 
December 23, 1997.
---------------------------------------------------------------------------

Site Selection

    In April 1999, the DOE issued an Environmental Impact Statement 
(EIS), which discussed potential environmental consequences of the 
SNS's construction and long-time operation.\13\ Possible sites for the 
project included Oak Ridge, the DOE's preferred location, and 
alternative sites at Los Alamos, Argonne, and Brookhaven. While the EIS 
did not determine any unacceptable environmental consequences at any of 
the four sites, it concluded in favor of Oak Ridge. Following this 
assessment, Secretary Richardson announced in June 1999 that the DOE 
would construct and operate the SNS at Oak Ridge.\14\ On November 19, 
1999, DOE approved the beginning of construction. DOE officials expect 
that site preparation activities such as clearing timber and the 
construction of permanent roads will begin in early December 1999.\15\
---------------------------------------------------------------------------
    \13\ Department of Energy, Final Environmental Impact Statement, 
Construction and Operation of the Spallation Neutron Source Facility, 
DOE/EIS-0247 (April 23, 1999), [http://nepa.eh.doe.gov/eis/eis0247/
eis0247.html].
    \14\ Department of Energy, Record of Decision for the Construction 
and Operation of the Spallation Neutron Source (June 18, 1999), [http:/
/www.ornl.gov/sns/Rod.pdf].
    \15\ Personal communication, Jeffrey Hoy, DOE-SNS Program Manager, 
November 23, 1999.
---------------------------------------------------------------------------
    DOE preferred to build the SNS at Oak Ridge primarily because of 
the laboratory's existing infrastructure and experience in neutron 
science. Oak Ridge's High Flux Isotope Reactor would complement SNS 
research and make Oak Ridge the nation's center for materials science 
research with neutron sources. In addition, the availability of low 
cost skilled labor and the support of the State of Tennessee as well as 
the local community in Oak Ridge were cited in support of the DOE's 
decision. The State of Tennessee has committed to constructing a guest 
user facility and to initiating a neutron science program at the 
University of Tennessee.

Budget

    From fiscal year 1996 to fiscal year 1998, Congress appropriated a 
total of $38.5 million for conceptual design work. For fiscal year 
1999, DOE requested $157 million for the SNS to begin design activities 
and to continue research and development work. While the Senate 
suggested appropriating the requested amount (S. 2138, S. Rept. 105-
206) , the House cut the SNS budget to $100 million, citing severe 
budget constraints (H.R. 4060, H. Rept. 105-581). In conference, the 
Congress appropriated $130 million and gave permission to begin some 
design and construction work (H.R. 4060, H. Rept. 105-749). The 
appropriated amount included $28.6 million for project research and 
development and $101.4 million for construction. The President signed 
the bill (H.R. 4060) October 7, 1998 (Public Law 105-245).
    For fiscal year 2000, DOE requested $214 million for the SNS, an 
increase of 64.6 percent over fiscal year 1999 appropriations. The 
request included $196.1 million for construction and $17.9 million for 
research and development to confirm the SNS's technical design. While 
the Senate approved $186.9 million for the SNS in its version of the 
fiscal year 2000 Energy and Water Development Appropriations Bill (S. 
1186, S. Rept. 106-58), including $169 million for its construction, 
the House cut appropriations for the SNS to $67.9 million in its 
version of the bill (H.R. 2605, H. Rept. 106-253), a reduction of 
$146.1 million from the requested amount. In conference, Congress 
followed the recommendation of the House-passed DOE R&D authorization 
bill (H.R. 1655, H. Rept. 106-243) and appropriated $117.9 million for 
the project, including $100 million for construction (H. Rept. 106-
336). The amount is $69 million less than suggested by the Senate and 
$50 million more than suggested by the House. In total, Congress 
appropriated about 50 percent of the DOE's fiscal year 2000 budget 
request for the SNS's construction. The bill was signed into law on 
September 29, 1999 (Public Law 106-60). Commenting on the bill, the 
President expressed disappointment that Congress did not fully fund the 
Spallation Neutron Source.\16\ However, Representative Zach Wamp 
reportedly is working to secure additional funding for the SNS as part 
of a possible supplemental appropriation bill, expected early in 
2000.\17\
---------------------------------------------------------------------------
    \16\ ``Statement by the President,'' White House Press Release, 
September 30, 1999.
    \17\ Ron Bridgeman, ``OR [Oak Ridge] funding nearly level, despite 
SNS,'' The Oak Ridger, September 30, 1999.
---------------------------------------------------------------------------

                                 ISSUES

    While internal and external reviews have emphasized the project's 
scientific merits, many observers have expressed concerns about the 
project's cost and schedule, its management, and the difficulties of 
effectively integrating the efforts of the five participating 
laboratories.\18\ Dissatisfied with the project's progress, critics in 
the House in 1999 threatened to withhold authorization for further 
construction funds until DOE significantly strengthened SNS management. 
In March 1999, House Science Committee Chairman Sensenbrenner 
recommended that no fiscal year 2000 funds for SNS construction be 
appropriated because the project's--
---------------------------------------------------------------------------
    \18\ DOE, Department of Energy Review of the National Spallation 
Neutron Source Project, June 1997; Department of Energy, Technical, 
Cost, Schedule, and Management Review of the Spallation Neutron Source, 
January 1999; EG&G Service, External Independent Review of the 
Spallation Neutron Source (SNS) Project, Final Report, March 15, 1999; 
Victor S. Rezendes, Testimony before the Subcommittee on Energy and 
Environment, Committee on Science, House of Representatives, Department 
of Energy: Challenges Exist in Managing the Spallation Neutron Source 
Project, GAO/T-RCED-99-103, March 3, 1999.

    ``* * * management is in turmoil, spending is lagging, Project 
[sic] cost and schedule estimates have not been fully developed (nor 
will they be until much later this year), the Department of Energy's 
(DOE's) complex management approach requires further simplification and 
current memorandums [sic] of agreement (MOAs) should be substantially 
strengthened.'' \19\
---------------------------------------------------------------------------
    \19\ F. James Sensenbrenner, Jr., Trip Report on the Spallation 
Neutron Source (SNS) (March 5, 1999), [http://www.house.gov/science/
106thpress/106-24.htm].

    These concerns shaped legislation, in particular the Department of 
Energy Research, Development, and Demonstration Authorization Act of 
1999 (H.R. 1655). The bill passed the House but was not taken up in the 
Senate in the 1st Session of the 106th Congress. Concerning the SNS, 
the bill included seven conditions for the obligation of appropriated 
funds for the SNS (see excerpts of H.R. 1655 in Appendix B): (1) that 
senior management positions be filled by qualified individuals; (2) 
that an external review validate the project's cost baseline and 
project milestones; (3) that the duties and obligations of each 
participating laboratory be defined in legally binding terms; (4) that 
the project director have direct supervisory responsibility over the 
SNS staff based at the collaborating laboratories; (5) that the 
Secretary delegate primary authority of the project to the project 
director; (6) that the Tennessee sales tax for the construction of the 
SNS not exceed taxes in states where the SNS could have been 
constructed, i.e., California, Illinois, New Mexico and New York; and 
(7) that the DOE Secretary report on the project's progress annually.
    DOE responded to criticism of SNS's management with the appointment 
of a new Executive Director, Dr. David E. Moncton, in February 1999. 
The choice of Dr. Moncton has been widely applauded, based on his 
professional accomplishments as a physicist and project manager. 
Moncton's career includes fundamental research with neutron sources, 
industrial experience at AT&T Bell Laboratories and Exxon Research 
Corporation, and large project management. He was Associate Director at 
the Argonne National Laboratory, where he directed the completion of 
the Advanced Photon Source on schedule and under budget.\20\ Within 
weeks of his appointment, Moncton provided a project assessment and a 
reorganization plan, addressing concerns about weaknesses in the 
project's management.\21\ In November 1999, Secretary of Energy 
Richardson strengthened the Executive Director's authority by assigning 
him full responsibility for the execution of the project.\22\
---------------------------------------------------------------------------
    \20\ Larisa Brass, ``Moncton named new SNS head,'' The Oak Ridger 
(February 22, 1999); Oak Ridge National Laboratory, ``Dr. David Moncton 
to become SNS Project Director,'' Oak Ridge Press Release (February 23, 
1999), [http://www.ornl.gov/Press__Releases/archive/mr990223-00.html].
    \21\  David E. Moncton et al., Spallation Neutron Source: Project 
Assessment Report and Action Plan (April 13, 1999).
    \22\ Department of Energy, Spallation Neutron Source: Project 
Execution Plan, approved by Secretary of Energy Bill Richardson on 
November 18, 1999.
---------------------------------------------------------------------------

Cost and Schedule Baseline

    Reviewers have criticized the cost and schedule estimates for the 
SNS as not being fully developed. Some argue that the project 
leadership lacked the necessary skills to produce a reliable baseline, 
which is regarded as essential for the project's completion on time and 
within budget. In particular, reviewers pointed out that SNS managers 
included insufficient allowances for unforeseen costs and construction 
delays in their cost and schedule estimates, leading to unrealistic 
expectations about the project's total cost and its completion date. 
The new leadership team reviewed the project's cost and schedule 
baseline and increased the contingency budget from 19 percent to 28 
percent of the total project cost, without increasing the project's 
total cost.\23\
---------------------------------------------------------------------------
    \23\ Department of Energy, Spallation Neutron Source: Project 
Execution Plan, approved by Secretary of Energy Bill Richardson on 
November 18, 1999.
---------------------------------------------------------------------------

Appropriations, Total Costs, and Completion Date

    According to SNS Executive Director Moncton, the fiscal year 2000 
funding cuts of $96 million could increase total costs by $20 million 
and delay completion of the SNS by a year.\24\ SNS officials pointed 
out that the project would require $281 million for fiscal year 2001 
and $272 million for fiscal year 2002 to be completed as planned by 
December 2005. However, critics in Congress contend that the project 
requires close congressional oversight to guard against cost overruns 
and time delays.
---------------------------------------------------------------------------
    \24\ Larisa Brass, ``SNS cut may delay schedule,'' The Oak Ridger 
(September 28, 1999).
---------------------------------------------------------------------------

Vacant Management Positions

    In 1997, a DOE internal review found that key management positions 
were unfilled.\25\ In early 1999, both an internal and an external 
review concluded that these positions were still vacant and that the 
management lacked the necessary determination to successfully complete 
the project in time and within budget. In March 1999, the lack of 
qualified managers, in particular a technical director and an 
operations manager, were highlighted by the General Accounting Office 
(GAO) and by Chairman Sensenbrenner of the House Science Committee.\26\ 
SNS Executive Director Moncton recently pointed out that all key 
positions have now been filled, including a construction manager.\27\
---------------------------------------------------------------------------
    \25\ DOE, Department of Energy Review of the National Spallation 
Neutron Source Project, June 1997, p. ii.
    \26\ Victor S. Rezendes, Challenges Exist in Managing the 
Spallation Neutron Source Project (March 3, 1999) GAO/T-RCED-99-103; 
Sensenbrenner, Trip Report on the Spallation Neutron Source (SNS) 
(March 5, 1999).
    \27\ Larisa Brass, ``SNS cut may delay schedule,'' The Oak Ridger 
(September 28, 1999).
---------------------------------------------------------------------------

Integration

    As a collaborative effort of five laboratories, the SNS poses 
potentially significant management difficulties. According to DOE, the 
collaborative structure was chosen to incorporate the expertise of each 
participating laboratory. Critics argued, however, that this level of 
collaboration between five national laboratories is unprecedented and 
risks schedule delays and cost overruns.\28\ Reviewers stressed that 
this collaboration can only succeed with the strongest possible 
leadership. In response to this concern, DOE, under Executive Director 
Moncton's leadership, negotiated detailed Memoranda of Agreement, which 
govern the interaction between the participating laboratories and the 
SNS management.\29\
---------------------------------------------------------------------------
    \28\ See for example Victor S. Rezendes, Challenges Exist in 
Managing the Spallation Neutron Source Project (March 3, 1999) GAO/T-
RCED-99-103.
    \29\ Moncton et al., Spallation Neutron Source: Project Assessment 
Report and Action Plan (April 13, 1999).
---------------------------------------------------------------------------

Key Issues

    According to DOE officials, five of the seven conditions specified 
in H.R. 1655 have been met. The two remaining conditions are the 
independent review of the cost baseline and project milestones, and a 
satisfactory solution to the Tennessee tax problem. While the 
independent review, by the engineering and construction company Burns 
and Roe, appeared in final form on December 10, 1999,\30\ no immediate 
resolution of the Tennessee tax problem is in sight. Furthermore, 
management differences between the SNS Project Office and the Los 
Alamos National Laboratory, which designs and constructs one of the 
SNS's pivotal components, could lead to project delays. The remainder 
of this report focuses on these two issues, which could threaten the 
project's completion on time and within budget.
---------------------------------------------------------------------------
    \30\ Private communication, Jeff Hoy, December 10, 1999.
---------------------------------------------------------------------------
    Los Alamos's Linac.--Since the initial planning for the SNS, the 
design and production of the project's linear accelerator, or Linac, 
was the responsibility of Los Alamos National Laboratory. Technical and 
management problems, however, led to schedule delays and uncertain cost 
estimates for this pivotal component.\31\ As part of Executive Director 
Moncton's reorganization efforts, a new Accelerator Systems Division 
was established at Oak Ridge.\32\ The new division is responsible for 
``integration and review of component and system designs, prepare [sic] 
for facility operations, and guide [sic] procurement, fabrication, 
installation, testing and commissioning strategies.'' \33\ Relations 
between the SNS Project Office and the Los Alamos Linac team reportedly 
have been strained since.\34\ It remains to be seen to what extent SNS 
Executive Director Moncton and his team will be able to accelerate and 
control Los Alamos's Linac development and ultimately its timely 
integration into the SNS.
---------------------------------------------------------------------------
    \31\ The January 1999 DOE review highlighted the Linac's unresolved 
technical issues as well as management problems. The reviewers 
recommended that the SNS Project Office should take ownership of the 
Linac design, cost estimate and schedule. Department of Energy, 
Technical, Cost, Schedule, and Management Review of the Spallation 
Neutron Source Project (January 1999), p. 9.
    \32\ David E. Moncton et al., Spallation Neutron Source: Project 
Assessment Report and Action Plan (April 13, 1999).
    \33\ Ibid., p. 4.
    \34\ Department of Energy, Review Committee Report on the Baseline 
Review of the Spallation Neutron Source (SNS) Project (July 1999), p. 
21.
---------------------------------------------------------------------------
    Tennessee Sales and Use Taxes.--The State of Tennessee imposes 
sales taxes on certain items sold in the state as well as use taxes on 
items purchased elsewhere by non-governmental entities (i.e., 
contractors) and brought into the state for use. These taxes affect the 
costs of federal construction projects, since the Department of Energy 
generally reimburses its contractors for such taxes. DOE estimated that 
these Tennessee taxes would add about $30 million, or about 2 percent, 
to the SNS's total cost.\35\ In March 1999, House Science Committee 
Chairman Sensenbrenner rejected this tax as unacceptable.\36\ In 
addition, one of the seven conditions for the authorization of funds 
for the SNS, included in H.R. 1655 (see above), dealt with the 
Tennessee sales tax. According to this condition, no funds could be 
obligated until it is guaranteed that the Tennessee sales tax for the 
construction of the SNS would not exceed taxes in California, Illinois, 
New Mexico or New York, the states of alternative sites for the 
facility. Action on the bill is pending in the Senate.
---------------------------------------------------------------------------
    \35\ Ron Bridgeman, ``Tax bill would exempt SNS,'' The Oak Ridger 
(October 27, 1999). DOE's original cost estimate for sales and use 
taxes amounted to $35.4 million. In July 1999, this figure was reduced 
to $28.3 million.
    \36\ Sensenbrenner, Trip Report on the Spallation Neutron Source 
(SNS) (March 5, 1999).
---------------------------------------------------------------------------
    On November 1, 1999, at the opening of a special session on taxes 
of the Tennessee Legislature, Tennessee Governor Sundquist proposed a 
tax plan that included an exemption from the states sale tax for the 
construction of the SNS until the year 2009. However, on November 18, 
1999, the Tennessee legislature voted to adjourn the legislative 
session, leaving tax legislation, including the sales tax issue, 
unresolved.\37\ Nevertheless, it is possible that another tax plan will 
be discussed in the next few months.\38\
---------------------------------------------------------------------------
    \37\ Phil West, ``General Assembly adjourns special session on tax 
reform,'' The Oak Ridger (November 18, 1999).
    \38\ ``Income tax is gone for now, but expect issue to re-
surface,'' The Oak Ridger (November 22, 1999).
---------------------------------------------------------------------------
    In the meantime, the GAO has determined that at least in one state 
under consideration, New York, virtually no taxes would be imposed on 
the project's construction, since Brookhaven National Laboratory is 
managed by a tax-exempt, not-for-profit organization.\39\ In contrast, 
neither Oak Ridge's current managing contractor, the Lockheed Martin 
Energy Research Cooperation, nor the partnership of the University of 
Tennessee and the Battelle Institute, which will manage Oak Ridge 
beginning in April 2000, are tax-exempt. Therefore, the cost of taxes 
will likely be higher if the SNS is built at Oak Ridge, Tennessee, than 
at Brookhaven, New York. These taxes would violate one of the 
conditions for obligation of SNS construction funds as detailed in H.R. 
1655.
---------------------------------------------------------------------------
    \39\ U.S. General Accounting Office report to House Committee on 
Science, Laboratory Research: Sales and Use Tax Costs to Build DOE's 
Spallation Neutron Source Project (November 19, 1999), GAO/RCED-00-33R 
SNS Tax Costs.
---------------------------------------------------------------------------
    Despite the unresolved Tennessee sales tax issue, DOE has begun to 
release $68 million of the SNS's total appropriations of $117.9 
million.\40\ DOE managers have argued that since five of the seven 
conditions in the House-passed authorization bill have been satisfied 
and the other two are progressing, it was justified to go ahead and 
release SNS construction and operating funds. DOE managers expect that 
the rest of the fiscal year 2000 SNS funds, about $50 million, will be 
available by February 2000.
---------------------------------------------------------------------------
    \40\ Larissa Brass, ``Partial funding comes through for SNS,'' The 
Oak Ridger (November 19, 1999).
---------------------------------------------------------------------------

                               CONCLUSION

    DOE officials suggest that the SNS is back on track, largely as a 
consequence of the new leadership team. Yet, supporters of the project 
also contend that the fiscal year 1999 and fiscal year 2000 cuts in the 
SNS construction budget have made it difficult to meet the scheduled 
completion date. They argue that further cuts might lead to the 
project's termination.
    At this time it is uncertain to what extent Congress agrees with 
DOE's decision to release funds before all seven conditions included in 
the House-passed authorization bill were met. The Tennessee tax issue 
is likely to be raised again during the fiscal year 2001 budget 
negotiations. In addition, problems with the integration of Los 
Alamos's component for the SNS, could result in significant 
construction delays. Congress may closely watch DOE's efforts to solve 
SNS management problems, to get the project back on track, and to 
successfully begin operation in December 2005. There are those in 
Congress who stress that the SNS requires close oversight to guard 
against cost overruns and schedule delays. The recently issued cost and 
schedule baselines should offer a measure to evaluate the project's 
progress.\41\
---------------------------------------------------------------------------
    \41\ Spallation Neutron Source, Project Execution Plan, approved by 
Secretary of Energy Bill Richardson on November 18, 1999; see also 
Department of Energy, Review Committee Report on the Baseline Review of 
the Spallation Neutron Source (SNS) Project (July 1999).
---------------------------------------------------------------------------

                   Appendix A: Technical Description

Neutrons and Neutron Beams \42\
---------------------------------------------------------------------------
    \42\ For general information on neutrons and neutron beams see 
Department of Energy, Spallation Neutron Source: The next-generation 
neutron scattering facility for the United States (1998); see also the 
project's website [http://www.ornl.gov/sns/].
---------------------------------------------------------------------------
    Neutrons and protons are subatomic particles of about the same size 
and mass. While protons have a positive charge, neutrons are 
electrically neutral. Neutrons can penetrate matter more easily than 
protons, because they are not deflected in the electromagnetic fields 
of atoms. This property makes neutrons ideal sources for probing the 
structure of materials. A high-intensity neutron source can be used as 
a high-resolution ``microscope'' to investigate the structure of 
materials.
    Neutron beams can be produced either by a nuclear reactor or a 
particle accelerator. A nuclear reactor produces a continuous flux of 
neutrons, whereas an accelerator can generate short pulses of neutrons. 
Most of the world's nineteen operating neutron sources are nuclear 
reactors, often 30 to 40 years old, but the majority of recently 
designed sources are accelerator-based. DOE officials emphasize that 
for many research problems a pulsed source is more desirable, because 
higher neutron intensities and energies can be reached. In addition, an 
accelerator is environmentally significantly less controversial than a 
nuclear reactor.

The Spallation Neutron Source \43\
---------------------------------------------------------------------------
    \43\ For SNS technical parameters see David Olsen et al., SNS 
Parameter List (July 8, 1999); [http://www.ornl.gov/sns/
paralist070899.pdf]
---------------------------------------------------------------------------

    The SNS is an accelerator system consisting of five major 
components: a particle source, a linear accelerator, an accumulator 
ring, a beam target, and an area for experimentation. The particle 
source produces negatively charged hydrogen ions (a proton orbited by 
two electrons), which are then accelerated to high energies in a large, 
465-meter long, linear accelerator. Leaving the accelerator, these ions 
are stripped of their electrons and thereby converted to protons. 
Within a small fraction of a second, the accumulator ring, a structure 
of about 220 meters circumference, collects many billions of these 
high-energy protons into a bunch, which is then released onto a target 
of liquid mercury. When high-energy protons bombard a heavy metal 
target such as mercury, every proton knocks between 20 to 30 neutrons 
out of a target (e.g., mercury) atom. This process, known as neutron 
spallation, gives the project its name. Finally, the high-energy 
neutrons are slowed down before they are directed to various 
experimental setups.
    The pulsed neutron beam will be directed to experimental setups 
where scientists use the beam to investigate the arrangement and motion 
of atoms in materials. Instruments measure how the material under 
investigation scatters the incoming neutrons. A detailed analysis of 
the scattering patterns allows researchers to determine a material's 
atomic structure. In many ways the SNS is a high resolution 
``microscope,'' comparable to X-ray or electron microscopes. While 
scientists use a variety of techniques to investigate the structure of 
materials, neutron scattering offers insights not obtainable with any 
other procedure. DOE officials expect many benefits from neutron 
scattering research, ranging from improved magnetic materials to better 
plastics and superconductors which have applications in every day life.
    Each of the five participating national laboratories is responsible 
for the design and construction of one of the SNS's major components. 
Lawrence Berkeley is responsible for the ion source, Los Alamos for the 
Linac, Brookhaven for the accumulator ring, Oak Ridge for the target, 
and finally, Oak Ridge and Argonne for instrumentation and experiment 
facilities. After a number of reviews, DOE decided in 1999 that the SNS 
would be constructed at the DOE's preferred site at Oak Ridge, where it 
will occupy an area of about 100 acres.
    DOE expects that the SNS will operate for about 40 years. Each year 
between 1,000-2,000 scientists and engineers, primarily from U.S. 
academic institutions, industry, and government laboratories, will use 
the new facility.

                  Appendix B: Excerpts From H.R. 1655

    H.R.1655: Department of Energy Research, Development, and 
Demonstration Authorization Act of 1999 (Passed House on September 15, 
1999, pending in the Senate)

          * * * * * * *

SEC. 3. AUTHORIZATION OF APPROPRIATIONS.

          * * * * * * *
    (b) Science.--There are authorized to be appropriated to the 
Secretary for Science scientific and civilian energy research, 
development, and demonstration operation and maintenance and 
construction programs, projects, and activities for which specific sums 
are not authorized under other authority of law $2,657,761,000 for 
fiscal year 2000 and $2,691,465,000 for fiscal year 2001, to remain 
available until expended, of which--
          * * * * * * *
            (10) $17,900,000 for fiscal year 2000 and $13,100,000 for 
        fiscal year 2001 shall be for Spallation Neutron Source 
        research and development; and
            (11) $100,000,000 for fiscal year 2000 shall be for 
        construction of Project 99-E-334, Spallation Neutron Source, 
        Oak Ridge National Laboratory, Oak Ridge, Tennessee.
          * * * * * * *

SEC. 10. LIMITS ON USE OF FUNDS.

    (a) Construction of Spallation Neutron Source Project.--None of the 
funds authorized by section 3(b)(11) may be obligated until--
            (1) the Secretary certifies in writing to the Committee on 
        Science of the House of Representatives and the Committee on 
        Energy and Natural Resources of the Senate that senior project 
        management positions for the project have been filled by 
        qualified individuals; and
            (2) the Secretary provides the Committee on Science and the 
        Committee on Appropriations of the House of Representatives, 
        and the Committee on Energy and Natural Resources and the 
        Committee on Appropriations of the Senate, with--
                    (A) a cost baseline and project milestones for each 
                major construction and technical system activity, 
                consistent with the overall cost and schedule submitted 
                with the Department's fiscal year 2000 budget, that 
                have been reviewed and certified by an independent 
                entity, outside the Department and having no financial 
                interest in the project, as the most cost-effective way 
                to complete the project;
                    (B) binding legal agreements that specify the 
                duties and obligations of each laboratory of the 
                Department in carrying out the project;
                    (C) a revised project management structure that 
                integrates the staff of the collaborating laboratories 
                working on the project under a single project director, 
                who shall have direct supervisory responsibility over 
                the carrying out of the duties and obligations 
                described in subparagraph (B); and
                    (D) official delegation by the Secretary of primary 
                authority with respect to the project to the project 
                director; and
            (3) the Comptroller General reports to the Congress, on the 
        basis of available information, that the tax reimbursements 
        that the Comptroller General estimates the Department would pay 
        to its contractors as a cost of constructing the Spallation 
        Neutron Source at Oak Ridge National Laboratory in Tennessee 
        would be no more than the tax reimbursements it would pay if 
        the same project were constructed at the Lawrence Berkeley 
        National Laboratory in California, the Argonne National 
        Laboratory in Illinois, the Los Alamos National Laboratory in 
        New Mexico, or the Brookhaven National Laboratory in New York.
The Secretary shall report on the Spallation Neutron Source Project 99-
E-334 annually, as part of the Department's annual budget submission, 
including a description of the achievement of milestones, a comparison 
of actual costs to estimated costs, and any changes in estimated 
project costs or schedule.
          * * * * * * *

                       Selected Reference Sources

Neutron Sources in the United States
    Department of Energy, Neutron Sources and Applications, DOE/ER-
0607P (January 1994)
    Department of Energy, Report of the Basic Energy Sciences Advisory 
Committee on Neutron Source Facility Upgrades and the Technical 
Specifications for the Spallation Neutron Source (March 1998)
The Spallation Neutron Source (SNS)
    Department of Energy, Spallation Neutron Source: The next-
generation neutron scattering facility for the United States (1998)
    SNS website: [http://www.ornl.gov/sns/]
SNS Reports and Project Reviews, Chronological
    Department of Energy, Review of the National Spallation Neutron 
Source Project (June 1997)
    Department of Energy, Technical, Cost, Schedule, and Management 
Review of the Spallation Neutron Source Project (January 1999)
    Victor S. Rezendes, Challenges Exist in Managing the Spallation 
Neutron Source Project (March 3, 1999) GAO/T-RCED-99-103
    F. James Sensenbrenner, Jr., Trip Report on the Spallation Neutron 
Source (SNS) (March 5, 1999) [http://www.house.gov/science/106thpress/
106-24.htm]
    EG&G Services, Final Report, External Independent Review of the 
Spallation Neutron Source (SNS) Project, Pursuant to House Report 105-
271 (March 15, 1999)
    Department of Energy, Construction and Operation of the Spallation 
Neutron Source Facility, Final Environmental Impact Statement, Volume 
1, DOE/EIS-0247 (April 1999)
    David E. Moncton et al., Spallation Neutron Source: Project 
Assessment Report and Action Plan (April 13, 1999)
    Department of Energy, Record of Decision for the Construction and 
Operation of the Spallation Neutron Source (June 18, 1999)
    Department of Energy, Review Committee Report on the Baseline 
Review of the Spallation Neutron Source (SNS) Project (July 1999)
    Department of Energy, Spallation Neutron Source: Project Execution 
Plan, approved by Secretary of Energy Bill Richardson on November 18, 
1999
    U.S. General Accounting Office report to House Committee on 
Science, Laboratory Research: Sales and Use Tax Costs to Build DOE's 
Spallation Neutron Source Project (November 19, 1999), GAO/RCED-00-33R 
SNS Tax Costs

    Senator Bennett. Thank you very much.
    An article appeared in The Washington Times on Valentine's 
Day. I assume you saw it, but it stated that the Integrated 
Library System cost more than it was supposed to cost and was 
not going to save the $8 million a year and 81 FTE's the 
Congress had been promised. Last year the Library testified 
that the Integrated Library System was $270,000 over budget for 
fiscal 2000, $1.9 million for the entire project.
    Can you give us an update on that whole situation?
    General Scott. I would like to take that if I might, 
Senator.

                       INTEGRATED LIBRARY SYSTEM


    Senator Bennett. General Scott.
    General Scott. Thank you, Mr. Chairman. First I would like 
to state that the Library was able to implement the Integrated 
Library System successfully, on time and within the current 
budget. We did so on October 1, 1999.
    Second, I would like to note that the cost figure of $70 
million that the Times reported is incorrect. The total cost of 
the Integrated Library System, based on a 7-year life cycle for 
this project, is approximately $42 million, of which $17.7 
million is appropriated from the Congress, plus about $24 
million from internal reallocation from the Library.
    Regrettably, within the 4 months since we have been 
operating this system we have encountered some glitches with 
software for the conversion of payments and have a number of 
vendors who have not been paid. We have taken immediate steps 
to correct that problem and estimate that we will pay all of 
the vendors by the end of May.
    I would also like to address the savings issue. We 
originally estimated a cumulative savings of $6.2 million over 
4 years, including 54.5 FTE's. We continue to monitor those 
savings and use the GAO-approved methodology in our quarterly 
progress report to the Congress.
    Senator Bennett. I have some additional questions, but we 
have been joined by the chairman of the full committee, Senator 
Stevens, who is a very active member of this subcommittee. 
Senator, we are glad to have you. Do you have any questions or 
comments?

                       RUSSIAN LEADERSHIP PROGRAM

    Senator Stevens. Thank you very much, Mr. Chairman. I 
prefer to listen to your questions. I would ask the one, 
though, that I note that the budget does not contain any 
request to continue the program that deals with the Russian 
Leadership Program. Did you request funds through the budget 
process for that, or what is the situation with that program?
    Dr. Billington. No, we did not formally request funds, 
because the original legislation in fiscal 2000 indicated that, 
after 1 year, the program would be reallocated to an 
unspecified executive branch agency. Now the program has been 
renewed and is allocated to the Library a second time. We did 
not include it formally in our budget request because although 
we are very glad and honored to be asked to do it for a second 
time, we were requesting a very large increase this year and, 
because this program was not a direct core need of the Library, 
we did not include it.
    At the time of the submission, we were only authorized to 
run it for fiscal 2000, 1 year, and we did not feel that we 
should introduce it formally in our fiscal 2001 budget 
presentation without authorization.
    The program, as I would be happy to attest at great length 
and to submit for the record, Mr. Chairman, has really been 
astonishingly successful and has had a great impact on the 
2,150 young emerging political leaders that we brought over 
last summer from 83 of the 89 districts in Russia. They visited 
45 of the 50 States as well as the District of Columbia.
    The response was overwhelmingly positive. Quite a number of 
them have since been elected to the new Duma. Those newly 
elected Duma members are all testifying internally in Russia to 
the importance of this program, and we are very much in hopes 
that in the renewed program this year we will be able to bring 
over perhaps as many as 10 times that many members, 10 times 
the 10 that are presently in the Duma.
    This program has all kinds of fascinating aspects. This is 
the largest importation, the closest approximation to the 1.5 
percent of young Germans that the Marshall Plan brought to 
America after World War II. It was something we have never done 
before with Russia. If we duplicate this number, it will be by 
far the largest two importations of young Russian emerging 
political leaders. It is right in the middle of an interesting 
time, when they are creating a new generation of leadership 
with their new acting president.
    This has been a stunningly successful program. We are 
honored to have it for a second year. But the reason that we 
did not introduce it formally in our budget is as I have 
described.
    Senator Stevens. Well, I had hoped that we would find a way 
to interest some of the foundations of the country to either 
pick that up entirely or to come in and match those funds. 
Maybe we ought to have a period of matching funds for this 
program. It does seem to me that it ought to be something that 
ultimately should be privately funded, but still something that 
the Library is very much involved with.
    The people that I have talked to from Russia who were not 
part of the program but are part of the government were all 
very much aware of the program and very supportive. The fact 
that it is going through the Library of Congress sort of 
sanitizes it politically as far as they are concerned.
    Is the program a burden to the Library of Congress?
    Dr. Billington. I would not say so. We have a team that was 
put together last year, which we are keeping together for the 
second year. We simply take them out of their regular duties 
and get them working on this, and of course then we work with 
contract agencies in Russia as well as with host communities.
    There was a substantial private contribution even last 
year, and we expect that to increase this year. The Rotary 
International, headed by a marvelous person from Rotary in 
Alaska, did a spectacular job. The Methodists and a number of 
other church groups, provided hospitality.
    I just had a conversation last week, thanks to Chairman 
Bennett, with the head of the National Governors Association, 
who agreed to present the idea of having people from the 
Federative Council, the upper house, which as you know has the 
actual sitting governors serving as our equivalent of sitting 
Senators. If the governors are able to participate, they may be 
able to shadow or have some contact with the governors, as well 
as with the legislators.
    There are all kinds of interesting horizons that are 
opening up. It is a heavy responsibility, but our team that 
functioned so well last year is very enthused about doing it 
again, and I think we should be able to do it. We are going to 
do it a little earlier this year. We hope to have it largely 
finished by the mid-summer rather than just conducted during 
the summer.
    It is a great deal of work, but I think the people are so 
energized with the excitement that is generated. The average 
age of these people is 37 years old, 38 percent of them are 
women. That is a totally different profile. That is an emerging 
generation with a totally different profile and a positive and 
affirmative outlook from all over Russia, where for the first 
time we get a sense something is percolating from the bottom up 
and from the periphery in.
    All this helps give hope to people who have been dominated 
from the top down, from the center out. I think they gained a 
lot by seeing how a real federative democracy functions--and 
they really like staying in people's homes.
    This year, we are going to try to give it a little more 
professional focus. We have a little more lead time this year, 
so we hope to match people up with States and professions and 
interests that are more compatible than we were able to do with 
the short timeframe last year.
    Senator Stevens. Did you receive the support that you 
really sought from the private sector this past year?
    Dr. Billington. We got support from the nonprofit 
organizations, the various groups, the church groups, the 
fraternal organizations, a number of groups that were involved 
in exchanges before. We got very good support from them on 
local hospitality. In fact, even though we only had a few 
months to do it by the end of the summer, we had something like 
two or three times the number of families volunteering to house 
a visiting Russian sight unseen. The spirit of the American 
people is wonderful.
    I would have to say we did not get very much support from 
the foundation world. But on the other hand, there was not 
really time. We had to work directly with the local hosts and 
with the national organizations that were helping.
    Senator Stevens. Maybe the chairman and Mr. Symington and 
you and I ought to pursue that and see what we can do to get 
greater support.
    Dr. Billington. I have to say that in general the support 
for doing creative things in that part of the world has not 
been as rich and generous in the foundation and corporate 
sector as one would hope. So I would be happy to work with you 
on that.
    Senator Stevens. One last question, Mr. Chairman.
    What is this about this arrearages that people talked to me 
about yesterday in terms of paying the bills of the Library? 
Can you tell us about that?

               INTEGRATED LIBRARY SYSTEM BILL ARREARAGES

    Dr. Billington. Well, we just, we had a question in that 
regard.
    Senator Stevens. Oh, you already had a question, I am 
sorry.
    Dr. Billington. Yes, General Scott has dealt with it. Let 
me just say that the ILS itself, the Integrated Library System, 
is entirely paid for. We are dealing with the last of four----
    Senator Stevens. No, I do not mean that. I mean the story 
out that you are more than 90 days behind in paying your bills. 
The law requires all agencies of the Government to pay their 
bills in 90 days.
    Dr. Billington. We have lagged somewhat, and perhaps 
General Scott would want to respond to you. But we hope to have 
that all corrected by May.
    General Scott. Yes, sir, Senator. As part of the Integrated 
Library System there is a feature that pays vendors for the 
library materials that they send us. This bill paying function 
is done by a new software module that automates paying the 
bills. Once we got into the actual implementation of this 
module, we found that there were some unforeseen difficulties.
    We now know what the problem is, we are working to fix it, 
and estimate that by the end of May, if not sooner, we will 
have all of the vendors paid.
    Senator Stevens. It was a breakdown of the system that led 
to that delay?
    General Scott. I would not describe it as a breakdown but 
as some unforeseen glitches in the software for the transition 
from the way we used to pay to the new system. We have 
identified the problem, and we think we have found a solution 
that will fix it and get us caught up on payments.
    Senator Stevens. Thank you.
    Thank you, Mr. Chairman.
    Senator Bennett. Thank you very much.
    Mr. Mulhollan, the Congressional Research Service by its 
very name exists to respond to Congressional inquiries. I have 
the sense, and it is nothing more than that--I have no 
statistical basis--that as Congress has increased the size of 
its internal staff, it looks less to the Library of Congress 
than it used to.
    Again, when I served on a staff 30 years ago, 35 years ago, 
we were calling the CRS quite often for information for 
constituents, constituent requests. It was an extension really 
of the Senator's staff on a regular daily basis. Now I come 
back here as a Senator and find that my staff is twice as 
large, as manifested by the size of the rooms. When the Dirksen 
Building was first occupied, every Senator that moved in here 
felt he had entered heaven because he had five rooms. In the 
old Senate office building across the street, now the Russell 
Building, each Senator had three rooms. When I went to serve on 
a House staff, each House Member had two rooms, pre-Rayburn. 
Now I come as a Senator, I have 10 rooms and the staff to fill 
them.
    My staff does not call CRS for information for constituent 
replies. It is not as integrated into our daily staff activity 
as it used to be. What kind of requests--this is just a general 
kind of question. What kinds of requests do you get? Is the 
volume going up every year? And do you get a lot of requests 
from outside of Congress for your services, or are you strictly 
reserved to just Congressional requests? Do you get more from 
committees than from individual staff?

                     Congressional Research Service

    Just give us a feel for what goes on?
    Mr. Mulhollan. First of all, we serve only the Congress and 
only respond to questions from Members of the Congress and 
their offices and committees.
    Second, the workload has been steadily over a half million 
for quite a few years. What has changed is two things. I see a 
note, for instance, like in the research centers here in the 
Senate and the House; there has been a slight decline in the 
numbers going up, but the numbers that use the web site have 
been going up significantly.
    So that I think certain kinds of information inquiries, 
staff are now going to the web sites. Part of our challenge is, 
because of the high Congressional staff turnover--for instance 
roughly 49 and 52 percent of legislative assistants, 
legislative counsels, are in their position for 1 year or 
less--it is part of CRS' challenge to make sure they know how 
to use CRS well and how CRS can help them in their work.
    I think there is a slight decline in self-identified 
constituent requests. Anecdotally--I do not have systematic 
data on it--our librarians tell us that the kinds of research 
requests they get now are more complex. I can give you a 
breakdown and submit for the record the percentage of committee 
requests and Member office requests.
    [The information follows:]

 CONGRESSIONAL RESEARCH SERVICE SUMMARY OF COMPLETED REQUESTS AND SERVICES PROVIDED--FISCAL YEAR 1999 (ALL FOUR
                                                    QUARTERS)
----------------------------------------------------------------------------------------------------------------
                                                                Detail of Requests and Services
                                             -------------------------------------------------------------------
                                                                                         Reference
                                    Total       Analysis,       Cited       Seminar,       Center     Client Use
      Requester Category        Requests and  Information,  Material and   Institute,      direct       of CRS
                                Services \1\  and research   CRS Product  and Training    Requests    Electronic
                                              Requests \2\  Requests \2\  Participants    and Self     Services
                                                                                          Service
----------------------------------------------------------------------------------------------------------------
Total, All Requesters \3\.....       545,663       102,226        37,841        11,016       82,416      312,164
                               =================================================================================
House, Total..................       330,440        67,376        25,098         6,301       47,625      184,040
    Members...................       118,079        55,487        22,593         5,279       34,720           NA
    Committees................        28,321        11,889         2,505         1,022       12,905           NA
    Automated (not specified)        184,040            NA            NA            NA           NA      184,040
     \4\......................
                               =================================================================================
Senate, Total.................       200,530        33,902         9,059         4,497       34,448      118,624
    Members...................        65,441        26,014         7,661         3,698       28,068           NA
    Committees................        16,465         7,888         1,398           799        6,380           NA
    Automated (not specified)        118,624            NA            NA            NA           NA      118,624
     \4\......................
                               =================================================================================
Joint.........................         1,002           490           151            52          309      ( \5\ )
Congressional Support Agencies         8,050           458           672           166           34        6,720
Not Specified \6\.............         5,641            NA         2,861            NA           NA        2,780
----------------------------------------------------------------------------------------------------------------
\1\ 73 percent of Total Requests and Services are immediate services by definition; this includes the following:
  Reference Center Direct Requests and Self-Service, Product Distribution Center walk-ins, and client Use of CRS
  Electronic Services.
\2\ Analysis, Information and Research Requests and Cited Material and CRS Product Requests no longer include
  Reference Center Direct Requests, effective fiscal year 1996.
\3\ During fiscal year 1999, CRS provided services to all Members of all Committees' committee data include
  party organizations; House and Senate combined totals sorted by client category: Members: 183,520; Committees:
  45,788; House and Senate Automated (not specified): 302,664.
\4\ Sign-ons to CRS electronic files (CRS Web), though identified by House or Senate, are not identified by
  Member or Committee.
\5\ Joint committee electronic services are included in either House or Senate figures, depending on telephone
  location.
\6\ Stats Line calls, Fax-on-Demand, and some cited product requests of the Product Distribution Center cannot
  be identified by client category.

    Mr. Mulhollan. I believe that in recent years there has 
been a 15 percent reduction in the Senate staff, committee 
staff, and a 30 percent reduction in the House committee staff. 
So that you have with the reduction of committee staff 
resources I think even a greater reliance upon the Service with 
regard to legislative work. One indicator for instance, is that 
our Legislative Alert, which lists those CRS reports that are 
available on issues which are coming to the Senate floor each 
week, has thousands of hits.
    Given the needs of Congressional staff, our challenge is to 
get CRS at the desktop because particularly incoming Senate 
staff are used to that, and I think that we are meeting that 
challenge.
    Dr. Billington. In the last 5 years the aggregate numbers 
have gone up 13, a little over 13 percent of requests and 
services provided by CRS. So there has been a slight increase.
    Senator Bennett. My only one occasion, when I was preparing 
for a fairly major speech, I called over to the Library of 
Congress and had a number of your experts come to my office, 
and we sat down and went over the aspects of the speech I was 
preparing to give, and I said, this is the kind of information 
I need, this is the kind of statistical backup I require, and 
so on. It was very helpful.
    I guess maybe I need to give a few more speeches like that 
to get me involved more thoroughly in what you do.
    Mr. Mulhollan. Part of the Service's responsibility is to 
make sure that each Senate office knows how to use CRS. There 
is a significant investment on the part of the Senate and the 
House in CRS and we want to make sure that we are there to help 
you to make your staff more effective.
    Senator Bennett. I just remember my father's staff; 
routinely the chief of staff would say to members of the staff: 
Well, check with CRS on this, call the Library of Congress on 
this, get a report from the Library of Congress. I do not think 
we do that routinely at all any more. We have built our in-
house expertise with the larger number of staffers. And we 
probably would do a better job if we did consult you more 
often.
    Mr. Mulhollan. I hope that is the case. Also, we have 
talked about before, we have a number of competitors out there 
who might be labeled as advocacy research, who are very 
aggressive in getting their research and analysis out to every 
office. So now you have a much richer mix of information and 
analysis on every legislative issue, and oftentimes we have had 
a number of offices who have gotten that material and then come 
to CRS and say: Okay, now evaluate this.
    Senator Bennett. Yes, Heritage or Brookings or AEI.
    Mr. Mulhollan. All the above.
    Senator Stevens. Would the chairman yield there?
    Senator Bennett. Surely.
    Senator Stevens. You know that the reduction that Mr. 
Mulhollan mentions is on top of the reduction that was made at 
the time in the eighties when Senator Baker was the chairman--
was the leader. We have had a redundant reduction in staff, on 
the basis that we had shared staff at CRS and GAO. For a time 
there there appeared to be an overlapping between GAO and CRS 
in some Members' minds and we faced a problem of reducing one 
or the other according to amendments that came at us.
    But I still believe in the shared staff concept and I think 
that probably we ought to have more of an indoctrination period 
for new staff to understand the delineation between GAO and CRS 
and the shared staff that is available.
    Mr. Mulhollan. I agree, sir.
    Senator Stevens. When I was chairman of Rules we reduced 
the Senate staff by 15 percent, and I think we have done it 
again, have we not? So what you say is right about the buildup 
compared with the old days because of space limitations, but we 
have actually reduced our own staff considerably, in reliance 
upon maintaining the support for CRS and GAO.
    Mr. Mulhollan. I completely agree with you regarding staff 
reductions. Also, even though the average number of years is I 
think something like 5.9 years tenure for all Senate staff, 
there are still some key positions, such as legislative 
assistant and legislative counsel, where data suggests half of 
the staff are in that position 1 year or less.
    That requires us to help, in order to be there for 
legislation, to help them to know how to use us. We are making 
particular efforts. We have reorganized in part to make sure 
that we have better outreach, to show how to use CRS 
effectively.
    Senator Stevens. I think that may be our fault.
    Senator Bennett. Yes. Reflecting over my own experience, 
when I came for indoctrination as a brand new Senator, Senator 
Mitchell was the leader. He had several days that took place 
literally within a week of our election. We were still kind of 
brushing the sleep out of our eyes after the exhaustion of 
going through election and showing up in Washington. We had 
thorough indoctrination in a whole range of areas, and the 
Library of Congress was never mentioned.
    I think, frankly, that the indoctrination of new Senators 
since that time has gotten sparser rather than greater and that 
maybe a new Senator coming into this situation should have more 
information. If I had not had my previous experience on a 
Senate staff, I would have known nothing about the Library of 
Congress as a brand new Senator.
    Mr. Mulhollan. If you recall, Senator, you were gracious 
enough and able to join our new Members program at the time in 
Williamsburg.
    Senator Bennett. Right.
    Mr. Mulhollan. We have been working with the joint 
leadership.
    Senator Bennett. I was the only Senator down there.
    Mr. Mulhollan. Yes, sir.
    Senator Bennett. Which is I think interesting, that none of 
my colleagues felt the need to go down and have that.
    Mr. Mulhollan. We now have a 1-day program, with the 
cooperation of Rules and Administration and the joint 
leadership, at the Library, as part of your orientation, so 
newly elected Senators get exposure to CRS's capacity and the 
Library's collections. So I think through this effort that we 
are getting an increasing amount of participation on the part 
of Senators, and hopefully that will be one avenue toward the 
goal that you mentioned.

                       THOMAS HOMEPAGE DEFACEMENT

    Senator Bennett. Let me change the subject. The Library's 
Thomas home page was defaced on January 17. It remained 
undetected for an hour and a half. One of the byproducts of my 
involvement with Y2K has been my concern about this kind of 
thing, because I realized if we could have the disaster that 
could have occurred had we not prepared for Y2K by accident, 
what kind of disaster could we have on purpose? That is, 
someone who wishes us ill comes in on purpose.
    There has been higher publicity given to the attacks on 
several commercial web sites, shutting them down. I understand 
that it was, frankly, very easy to do and very difficult to 
detect. It comes under the category pretty much of a prank, of 
somebody deciding they are going to shut down amazon.com or 
Yahoo or whatever.
    The firewalls that were constructed were sufficiently 
strong as to prevent anybody from getting any data out. They 
simply shut it down. But I think that is going to become the 
norm rather than the exception in the future.
    So I would ask my final question: Has the Library done 
anything as a result of your experience with the Thomas home 
page, and do you have any--if you have done something, do you 
have any information to share with the Congress, because our 
home pages are equally vulnerable to that kind of attack.
    General Scott?
    General Scott. Thank you, Mr. Chairman. The Library has 
included in this budget $661,000 for computer security. The 
main focus of that money would be to hire five new staff. Two 
of these new staff would be used specifically to help us 
provide a greater deterrent to potential intruders.
    What we have found, as I think all Government agencies are 
finding with respect to computer security and hackers, is that 
if you do not have someone who is smart enough to thwart the 
hackers, then we will have to bear that risk. So two of the 
positions that we are asking for would help us to come up with 
better deterrents to potential intruders, and help us to 
improve our systems that keep people out and or detect early 
when somebody is trying to get in.
    The three other additional staff will be individuals to 
monitor and administer our security systems and develop 
enhanced security programs.
    $250,000 of the $661,000 would help us to purchase the 
software and equipment that comprise these enhanced information 
technology security systems for the Library. In sum, we were 
fortunate to spot the defaced webpage and begin action to 
repair it within an hour. We were able to repair the damage 
immediately and we have reasonable assurance that no one will 
be able to get into our system that way again. But we do need 
additional people who have the skills that can help us to 
continue to improve and protect our systems.
    Senator Bennett. Thank you very much.
    Do you have any other questions, Senator Stevens?
    Senator Stevens. No.
    Senator Bennett. We may have some additional questions in 
writing, but we appreciate your appearing here. We appreciate 
the work that you do. You do have stewardship for one of the--
this is an overused term and therefore has lost perhaps some of 
its value, but you do have stewardship for a true national 
treasure, and we appreciate the reverence you have for the 
institution that you preside over and we need to do everything 
we can to keep it in that category.

                          SUCCESSION PLANNING

    Dr. Billington. I just want to add, Mr. Chairman, on this 
question of service to the Congress, because I think we are 
anxious not only in CRS. One of the important things that the 
Congress has helped us with, and of course we are very 
grateful, is succession planning. Because the kind of 
specialized talents embodied in the Library's staff, who know 
the history of issues as they have framed themselves in the 
legislative process, is an almost priceless asset. If we let 
all of these people retire without imparting that knowledge, 
that memory, that continuity of the Congressional experience, 
which is really deeply embedded in CRS, we will be missing an 
opportunity.
    So we want to thank you for your support of our succession 
plans, and also mention the Law Library as well, which has 
shrunk its size considerably just through attrition. Twenty-
three of its law specialists cover 200 jurisdictions around the 
world, using the world's largest collection of legal 
information, and respond on all kinds of exotic things. Seven 
of those 23 are 70 years of age or older, and all of that 
experience is going to be----
    Senator Bennett. Still very young and vigorous.
    Dr. Billington. I am very much of that persuasion, too, 
increasingly so with every passing month.
    So the ability to transmit memory and to provide, answer 
the kinds of questions that you made, because in addition to 
CRS and the Law Library, which more or less directly serve the 
Congress, the curators with their global reach and their high 
degree of specialty also represent a force that, particularly 
with the growth of electronic delivery systems, we should be 
able to answer more of the kinds of questions that perhaps were 
more readily asked in your father's time.
    So this is a real major frontier for us, and the ability to 
have succession planning so that we can replace, not just 
replace the people but impart the knowledge and the people on 
down, is going to be I think as important an asset as our 
collections in the years ahead.

                     ADDITIONAL COMMITTEE QUESTIONS

    So we do thank you for that support and hope that it can 
continue in the way that we have submitted for this year's 
budget as well.
    Senator Bennett. Thank you all. We appreciate your coming 
and appreciate the service that you render.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]

            Questions Submitted by Senator Robert F. Bennett

    Question. The budget includes a request for $21 million and an 
additional 133 FTEs for a ``Digital Futures Project'' to increase the 
processing of digital materials and continue digitizing historical 
collections. The program has a 5 year cost of $120 million. I 
understand that this program is a follow on to ``National Digital 
Library'' project that was funded through a private-public match of $63 
million over 5 years. ($48 million private/$15 appropriated funds.)
    Have the authorizing committees approved this proposal?
    Is $21 million necessary for this initiative, and are there any 
possibilities of continuing this work with private funding also?
    Answer. The Library provided a copy of the Digital Futures Project 
five-year plan to the authorizing and appropriating committees. We did 
not request new authorizing legislation because the acquisition, 
storage, preservation, and dissemination of digital material is part of 
the Library's mission. As the Congress adds a new media to the 
Copyright Laws, the Library's responsibilities to support that mission 
must expand to cover that new format.
    The National Digital Library Program (NDLP) was established as a 
five-year pioneering program to share electronically--for the first 
time--the contents of the Library of Congress American history 
collections with the wider public. The private sector sponsors we 
approached for NDLP seed money understood that that pilot program was 
aimed at proving core library materials accessibility could be greatly 
advanced in the new electronic environment. We believe that they helped 
launch what now is a core library service to the nation; and that this 
is not a new program, but rather the way the Library needs to conduct 
business and services now and in the future.
    The success of the NDLP is proven; we have more than five million 
items of American history on-line or in the pipeline, and millions of 
``hits'' each working day. The Library is now a world leader in 
providing high-quality educational materials on the Internet, both free 
of charge and with authoritative explanatory material. We are leading 
the way for many other libraries in the information age.
    The proposed budget request is for the next phase. The Digital 
Futures Initiative is based upon the Library's mission--it is an 
integrated and interdependent program to acquire, store, preserve, and 
share digital materials in addition to traditional media--and we cannot 
risk losing any part of the program. Further, relying on private funds 
puts the success of the total program at risk, and could potentially 
leave the Library as the ``Museum of the Book''.
    Private sector donors with whom we have had lengthy discussions see 
the Library's digital efforts as an ongoing and critical part of the 
Library's mission, rather than a time-limited project appropriate for 
private funding. That said, we doubt our ability to continue raising 
private funds at the level raised for National Digital Library Program. 
Thanks to this unique public-private partnership, the Library is poised 
to transform traditional library services to meet the current 
information needs of Congress and its constituents.
    Question. The Library's THOMAS homepage was defaced on January 
17th, and remained undetected for approximately 1.5 hours. At the time 
the Library indicated it was reviewing its network and computer 
security measures and procedures. Given CRS is dependent on the 
Library's computer system and CRS has a special confidential 
relationship with Congress, this is of particular concern.
    What has the Library done to reduce the chance that this could 
happen again? Does this problem pose a risk for Congress?
    Answer. The answer to this question is presented in two parts: 
first, the Library's reaction to the January 17th THOMAS intrusion and 
its future plans to secure this system, and second, the security 
concerns, needs and plans of CRS relating to such threats.
    With regard to the THOMAS intrusion incident, Library staff were 
aware that the page had been defaced within about 30 minutes and the 
system was shut down within 90 minutes of the time the system was 
defaced. After blocking public access to the defaced THOMAS homepage 
and repairing the damage that had been done, public access to THOMAS 
was restored. To reduce the chance that this might happen again, the 
Library's technology Security Team identified appropriate additional 
network and computer security measures which were prioritized based on 
criticality of need and resource availability.
    Several near-term tasks have been completed, and include: 
notification and information regarding the defacement to the 
appropriate authorities; an audit of all Library server systems and 
evaluation of possible problems; rebuilding all servers found to be 
compromised; review and change of all accounts and passwords on 
compromised servers, and on any servers for users that had access to 
compromised servers; review, refinement and restriction of public 
Internet access; implementation of software to isolate publicly 
available servers, in order to reduce the potential that an intruder 
could use one Library server to compromise another; and hardened host-
based security measures through elimination of unnecessary and/or 
particularly vulnerable services.
    Medium-term tasks have all been initiated, and include: 
implementing a system to identify and notify the Library's technology 
security staff of unauthorized changes to operating system software or 
files; review and change of all accounts and passwords on any servers 
for users that had access to compromised servers; implementing more 
secure method(s) of providing Library staff with the required remote 
access to Library systems (e.g., virtual private network); researching 
Library requirements for additional firewall implementation(s); and 
researching and implementing increased host-based security on NT (i.e., 
non-UNIX) servers.
    It is our belief, that the specific exploitations used in the 
process of defacing the THOMAS homepage did not result in a compromise 
of confidential congressional information. Furthermore, after 
identifying the problem, the Library took and continues to take 
additional and appropriate security measures which have reduced any 
such risks to congressional information. It is, however, also true that 
network connectivity involving the Internet cannot be said to be 
completely secure. The Library and Congress will have to continue to 
balance security requirements with the goals of providing broad public 
access to legislative and collections materials.
    With regard to concern with the Congressional Research Service 
(CRS) dependency on the Library's computer system and their special 
confidentiality needs. CRS has its own specialized security needs. They 
are distinct from those of the Library, as a result of the fact that 
CRS houses sensitive congressional information and works in a close and 
confidential way with the Congress. These concerns are magnified by the 
current connections between public and private information in the 
Library's systems.
    At a minimum, CRS needs to have all of its systems protected by a 
variety of security measures that will adequately reduce the risk of 
intrusion. CRS is focusing on adequately reducing the risk of intrusion 
that might lead to: (1) unauthorized access; (2) corruption of data; 
(3) denial of service; or (4) intrusion into connected congressional 
systems. More specifically, in order to reduce security risks to an 
acceptable level, CRS believes that plans must include, at a minimum, 
the following: protection of CRS systems from intrusion through THOMAS 
or any other public system; completion of installation of a 100-megabit 
Fast-Ethernet network (on isolated CRS segments) which will be harder 
to penetrate than the current four-megabit token ring configuration 
(which overlaps with Library systems), will allow for more timely 
backup of data for disaster recovery purposes, and will make possible 
virtual network encryption of sensitive information such as ISIS 
congressional request tracking data; completion of work to provide 
``hot back up'' for the ISIS system; and regular monitoring of all CRS 
systems for actual and attempted unauthorized intrusions.
    We recognize that information technology developments create 
dramatic new research and communications capabilities, but many of 
these same developments also lead to proliferation of new tools for 
serious attack or mischief. CRS is preparing a multi-year plan for 
enhancing its research capabilities by making appropriate use of 
technologies and technical expertise in support of legislative services 
for the Congress. This plan will require more robust security measures 
designed to meet the increasing threats presented by these 
technological innovations. The Library and CRS will continue to assess 
the need for additional staff and other resources necessary to meet 
continuing, changing, and increasingly complex security challenges. Any 
additional staff must be expert in the development of security systems 
themselves and the underlying hardware and software that make them 
possible.
    Question. When and by how much did the Library change the arrearage 
time estimates?
    Answer. In 1998, as part of its request to Congress for release of 
funds for the initial purchase of the ILS, the Library proposed revised 
arrearage elimination targets. These revised targets, based on the 
number of arrearage reduction staff and the estimated amount of their 
time that would be devoted to planning for, implementing, and adjusting 
to working on the Library's new ILS (Integrated Library System), are to 
eliminate the non-rare print and map arrearages by September 2004; and 
to reduce the special format arrearages 80 percent by June 2007. The 
original goals were to eliminate the non-rare print arrearages and to 
reduce the special format arrearages 80 percent by December 2000.
    Even with the impact of diverting a large contingent of our staff 
to plan for, be trained on, and implement the ILS, the Library is still 
ahead of its revised target for reducing the arrearages. Non-rare book 
arrearages were reduced from 242,611 to 153,826 during fiscal 1999--
well ahead of the goal of 173,918. Total non-print arrearages were 
18,821,596 items at the end of fiscal 1999--again, much ahead of the 
target of 21,062,695.

                                 UNPROCESSED ARREARAGES AS OF SEPTEMBER 30, 1999
                                 [121 Months--Showing changes since Fiscal 1989]
----------------------------------------------------------------------------------------------------------------
                                                      9/30/89         9/30/99         Change         Pct. Chg.
----------------------------------------------------------------------------------------------------------------
Total items in arrearage........................      39,682,153      19,793,689     -19,888,464           -50.1
                                                 ===============================================================
Print materials, total..........................       4,042,526         972,093      -3,070,433           -76.0
    Books.......................................         893,030         153,826        -739,204           -82.8
    Microforms..................................         587,473  ..............        -587,473          -100.0
    Serials (Pieces)............................       2,562,023         818,267      -1,743,756           -68.1
                                                 ===============================================================
Special Materials, total........................      35,639,627      18,821,596     -16,818,031           -47.2
    Manuscripts.................................      13,641,784       9,198,697      -4,443,087           -32.6
    Maps........................................          64,000          25,787         -38,213           -59.7
    Moving-image materials......................         630,259         322,828        -307,431           -48.8
    Music.......................................       5,994,000       2,542,365      -3,451,635           -57.6
    Pictorial Materials.........................      13,060,480       5,482,052      -7,578,428           -58.0
    Rare books..................................         332,000         123,801        -208,199           -62.7
    Sound recordings............................       1,917,104       1,126,066        -791,038           -41.3
----------------------------------------------------------------------------------------------------------------


                                           LIBRARY SERVICES/MIS QUARTERLY ARREARAGE INVENTORY--SEPTEMBER 1999
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                       Acquired                Processed                Net Change
                 Service Unit                  Arrearage Size --------------------------------------------------------------------------- Arrearage Size
                                                  June 1999         Items      Percent       Items      Percent       Items      Percent    Sept. 1999
--------------------------------------------------------------------------------------------------------------------------------------------------------
Law Library..................................         643,305         663,518    103.1         595,286     92.5          68,232     10.6         711,537
Library Services.............................      18,175,935       1,583,679      8.7         677,462      3.7         906,217      5.0      19,082,152
                                              ----------------------------------------------------------------------------------------------------------
      TOTAL..................................      18,819,240       2,247,197     11.9       1,272,748      6.8         974,449      5.2      19,793,689
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                           NEW ARREARAGE GOALS COMPUTATION--JUNE 1998
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                     Items        QTRs                                      Items to     QTRs to
                                                                  Sept. 1989      March 1998       processed    elapsed   Items per QTR     New goal         process        go     Items per QTR
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Total Arrearage...............................................      39,682,153      19,427,869      20,254,284  .......  ..............       7,127,925      12,299,944  .......  ..............
                                                               =================================================================================================================================
Total PRINT...................................................       4,042,526         682,198       3,360,328  .......  ..............  ..............         682,198  .......  ..............
Books.........................................................         893,030         243,872         649,158       34          19,093  ..............         243,872       26           9,380
Microforms....................................................         587,473  ..............         587,473       34          17,279  ..............  ..............       26  ..............
Serials (Pieces)..............................................       2,562,023         438,326       2,123,697       34          62,462  ..............         438,326       26          16,859
                                                               =================================================================================================================================
Total NON PRINT...............................................      35,639,627      18,745,671      16,893,956  .......  ..............       7,127,925      11,617,746  .......  ..............
Manuscripts...................................................      13,641,784       7,727,099       5,914,685       34         173,961       2,728,357       4,998,742       37         135,101
Maps..........................................................          64,000          23,414          40,586       34           1,194          12,800          10,614       37             287
Moving-image materials........................................         630,259         302,882         327,377       34           9,629         126,052         176,830       37           4,779
Music.........................................................       5,994,000       2,565,890       3,428,110       34         100,827       1,198,800       1,367,090       37          36,948
Pictorial Materials...........................................      13,060,480       6,730,670       6,329,810       34         186,171       2,612,096       4,118,574       37         111,313
Rare books....................................................         332,000         135,805         196,195       34           5,770          66,400          69,405       37           1,876
Sound recordings..............................................       1,917,104       1,259,911         657,193       34          19,329         383,421         876,490       37          23,689
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Goal: Zero by September 30, 2004 (26 QTRs). Books, Microforms, Serials (Pieces), and Maps.
Goal: Twenty percent of September 1989 by June 30, 2007 (37 QTRs). Manuscripts, Moving-image materials, Music, Pictorial Materials, Rare books, and Sound recordings.

                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Dr. Billington, the Congress authorized the Architect of 
the Capitol to acquire on behalf of the Library a facility in Culpeper, 
Virginia, to establish a National Audio-Visual Conservation Center. As 
your statement indicates, the owner of the facility, the Packard 
Humanities Institute, has now come forward with an extraordinary offer 
to provide up-front funding of about $66 million to complete renovation 
of the facility. The government is being asked to fund 25 percent or 
$16.5 million of the cost.
    How can Congress help show its support for this generous offer?
    Answer. The Congress can show its support for this project and its 
appreciation to the donor in two important ways. First, we ask that the 
Congress approve the amendment to the Culpeper acquisition legislation 
(Public Law 105-144), that was recently submitted to our authorizing 
committees, whereby the donor would retain ownership of the property 
until the project is completed and the Architect of the Capitol is 
authorized to reimburse the donor up to $11.5 million. We expect that 
this would enable the Library to finish the facility three years sooner 
than is currently planned, with an expected savings to the government 
of about $6 million. Second, we ask that the Congress approve the 
Architect's fiscal 2001 budget request of $5 million for the Culpeper 
facility. This is the second installment on the government's $16.5 
million contribution to the Culpeper project.
    Question. Dr. Billington, the Library's National Digital Library 
Program has been highly successful in providing public access to high 
quality information about American history and culture. I noted in your 
statement that the Library is the 1999 winner of the Global Information 
Infrastructure Award for Education. This program was established as a 
five-year project supported primarily by private funding--on a three-
to-one private/public match, or $45 million private funding to $15 
million public funding.
    The Library's Digital Futures initiative, totaling $21.3 million, 
assumes that the appropriations will be required to fund the majority 
of the on-going efforts.
    Why is the Library proposing that the majority of the funding for 
the Digital Futures initiative would be from appropriated sources?
    Answer. The National Digital Library Program (NDLP) was established 
as a five-year pioneering program to share electronically--for first 
time--the content of the Library of Congress American history 
collections with the wider public. This initiative was aimed at proving 
that core library commitment to accessibility could be greatly advanced 
in the new electronic environment.
    We are happy to report that the NDLP has been a success so far. In 
fact, more than five million full-text primary treasures of American 
history are on-line or in the pipeline, and the utility of this 
material is demonstrated by the fact that we receive millions of hits 
each day. Today, the Library is the world leader in providing high-
quality educational materials on the Internet--we are almost alone in 
providing our content both free of charge and with authoritative 
explanatory material.
    The next phase of the project, Digital Futures, will bring an 
integrated and interdependent program to acquire, store, preserve, and 
share digital materials to the Library--meeting the requirements of our 
mission in the digital realm in addition to traditional media.
    We approached private sector sponsors for seed money to start the 
landmark NDLP initiative. Private sector donors with whom we have had 
lengthy discussions, see the Library's digital efforts as an on-going 
mission effort rather than a time-limited project appropriate for 
private funding. We doubt our ability to continue raising private funds 
at the level raised for the development of the NDLP. In addition, we 
cannot risk losing any part of this program. By relying on private 
funds, we are placing the success of the total program at risk, which 
could leave the Library as merely a ``museum of books'' in the future. 
Thanks to the success of the unique public-private partnership that the 
NDLP has been, the Library is poised to transform our traditional 
library services into electronic services which will continue to meet 
the information needs of the Congress and its constituents.
    Question. Dr. Billington, as part of the fiscal 2000 budget, the 
Congress appropriated $600,000 to support a cooperative effort with an 
educational archive to digitize materials related to ethnic groups of 
California, including Japanese Americans.
    Please give the committee a brief update on the status of this 
project.
    Also, what kinds of other digital collaborations are you involved 
in and what efforts are you taking with other institutions to establish 
a proper division of labor?
    Answer. An important part of the Library's digital strategy is to 
work in collaboration with other institutions. Currently we have taken 
a leadership role in four types of collaborations: Content; Technology; 
Research and Development; and Distribution.
    Through our leadership in the area of Content, the Library has 
collaborations with 36 U.S. libraries and archives to digitize unique 
and important historical materials--which help us to tell the multi-
medial story of America. In the Technology area, we are collaborating 
with other national libraries and the information industry on technical 
standards and the exchange of digital content in a distributed network 
environment. Our leadership in Research and Development is helping to 
sponsor the National Science Foundation's Digital Library 2 
Initiatives. This is a multi-year grant program to fund research that 
addresses solutions to building, managing and navigating amongst 
complex digital libraries. Finally, in Distribution, we are 
collaborating with private sector publishers and vendors to help 
distribute this digital content more widely.
    One recent content collaboration with the California Digital 
Library will result in the digitization of materials related to ethnic 
groups in California, including Japanese Americans. We expect that this 
project will contain about 35,000 items, including oral histories, 
manuscripts and images--unique material that is an important part of 
the American experience. We need to identify, digitize, and make 
available more such materials on immigration and our ethnic heritage.
    Future collaborations can be even more important. It is apparent to 
us that no one institution can do all that is required to address the 
many dimensions of building, sustaining, and delivering digital content 
and services. We are playing a critical leadership role in helping to 
define material content, technical standards, and services. This is 
especially true as we work with other archives to make the large 
national asset of high quality educational content widely available to 
citizens everywhere. We envision that the future will include many 
institutional participants in a large network of libraries.
    Question. Dr. Billington, last year, the Congress approved a 
succession plan for CRS and Library Services. This year, I see that you 
are now including the Law Library in your succession plan initiative.
    Update the Committee on the status of your succession planning 
initiative. Also, outline the challenges of attracting ``the best and 
brightest'' for careers at the Library of Congress.
    Answer. This is the third year of the Library's succession planning 
program. This program started with the Congressional Research Service 
(CRS) and was extended to Library Services in fiscal 2000. We are now 
including the Law Library in the fiscal 2001 budget request.
    The basic concept for succession planning is the selection from 
departing staff of a very small number of critical positions which will 
mentor and transfer knowledge to their replacement. Our vision is 
building for the future--not replicating the past.
    Overall, our experience in attracting the ``best and brightest'' 
candidates has been much like that of other government agencies--it is 
difficult to recruit graduate students to public service, particularly 
minority students. A parallel challenge is retention of talent. We face 
a particularly critical challenge in recruiting foreign law specialists 
for the Law Library, not only because 60 percent of its legal staff 
will be eligible to retire in fiscal 2004, but also because of the 
difficulty in recruiting persons from a limited pool of qualified 
applicants who have highly specialized qualifications in foreign and 
comparative law. It is difficult to compete with private sector 
employers who can offer higher salaries and bonuses to new and 
experienced employees. Also, we are burdened by the lengthy federal 
hiring process. The private sector can make ``on the spot'' offers to 
top candidates--in fact--some other federal agencies can move faster 
using streamlined/abbreviated hiring processes.
    The Library has a great many advantages to offer to prospective 
employees: a challenging and rewarding work environment, which rewards 
motivation, creativity, and learning; attractive and competitive career 
advancement; competitive benefits packages; and job stability. 
Nationally and internationally, professional librarians view the 
Library of Congress as the ``ultimate'' worksite. Professional public 
policy analysts are attracted to employment with the Library for the 
close proximity to the Congress and the legislative process.
    We have used every means possible to cast a wide net for finding 
the ``best and brightest'' for the Library. Some of those include: the 
Graduate Recruit Program and Law Recruit Program; on-site recruiting 
visits to top public policy schools nationwide; recruitment at law 
schools, through legal directories, and at library schools; Junior 
Fellows Program; and expanding use of the Internet for advertising 
employment opportunities.
    Question. Dr. Billington, the Library has been involved in the 
development of the Capitol Visitor's Center.
    Can you give us an update on where things stand with the Library's 
involvement at this time?
    Answer. We have been Involved in the development of the Capitol 
Visitor's Center since 1991. Our involvement has two main aspects. 
First, with the auditorium, which we anticipate will be developed in a 
way that will contribute to the Center's mission--providing a unique 
educational experience for visitors to the capital. The auditorium will 
also provide the opportunity for the Library to highlight our audio-
visual collections in ways we cannot do presently; the only venue we 
have available currently is the Pickford Theater, which seats only 64 
persons. Second, with a tunnel to connect the Visitor's Center to the 
Jefferson Building, which we believe should be considered an integral 
part of this project. The concept of a tunnel was first raised by 
Members in the House and the Senate in 1991. We commissioned a study 
(issued in 1997) by the Capitol Visitor Center architects showing that 
it was technically feasible. We believe any Visitor Center which shows 
the history of the U.S. Congress should also celebrate the 
extraordinary achievement which is its Library.
    Question. Dr. Billington, the Library is requesting $2 million to 
begin off-site storage operations at Fort Meade. I understand that the 
Library's first off-site book storage module will be ready to use at 
the end of 2000.
    What book storage problems exist now?
    How will the new book storage modules alleviate space problems in 
the John Adams and Thomas Jefferson Buildings?
    Answer. Currently, more than 50,000 books are stored on the floors 
in the Jefferson and Adams buildings' stacks. We estimate that our book 
collections grow at the rate of 300,000 annually, or about 1,200 books 
per day.
    Opening Fort Meade Module #1 will have a major impact on 
alleviation of the space problems in the Jefferson and Adams buildings. 
Once the space is freed up on Capitol Hill, we will be able to get 
books off the floor in both buildings.
    We need the fiscal 2001 funding we have requested for short-term 
staff to shift the collections that remain on Capitol Hill. Our plan is 
to interfile the books currently on the floor into the correct order 
with books on similar subjects. We will then do a one-time shift of the 
materials to get the books close to the reading rooms where they are 
used. This effort will leave sufficient space in each area for the 
anticipated future growth of our book collections. After the initial 
accelerated transfer of items to Fort Meade Module #1, we plan to adopt 
a book-in/book-out process--in other words, transfer about 1,200 items 
each day from Capitol Hill to Fort Meade.
    Question. Dr. Billington, the Library has been involved in 
developing an on-going preservation project, mass deacidification, for 
many years now. In fact, the Congress appropriated $11.5 million in 
1984 for this effort. I understand that the 1984 funds are nearly 
expired and you are requesting $1.2 million to permanently fund a mass 
deacidification program.
    Does the Library believe a cost-effective mass deacidification 
process is now available?
    How many items has the Library already treated?
    And, what is the Library's plan for treating its entire paper-based 
collections?
    Answer. Deacidification is one of the most cost-effective 
preservation measures used to make books and other paper materials last 
for hundreds of years. Deacidification is an excellent example of 
``cost avoidance'' in that it neutralizes the acid in paper and 
prevents paper from becoming overly brittle and unusable in only a few 
decades. On average, a deacidified book will last for 300-800 years. 
The total cost for selecting, treating, and refiling a book today is 
about $15. If the same book is left to become totally brittle, the 
future cost for microfilming or electronically copying it would be more 
than ten times as expensive. Amortized over the first three hundred 
years after treatment, the annualized preservation cost for saving a 
book through deacidification is only five cents. In addition, the 
fiscal 2001 request allows for an incentive plan which may result in an 
overall 16.7 percent cost reduction.
    To date, the Library has successfully deacidified over 260,000 
books.
    Our deacidification ``plan'' is a proposal for a 30-year program 
that would resolve the Library's acidic book problem within the next 
generation. We propose to deacidify 5.3 million existing acidic books 
(one out of three in our collection), plus 100,000 new acidic volumes 
that are acquired each year (primarily from foreign publishers). Over 
the 30-year period, this program will preserve about 8.5 million books.
    To accomplish this, we will start with treating 100,000 books and 
one million pages of manuscript material in fiscal 2001. In Year-5 
through Year-30, we would treat 300,000 books per year, plus 
manuscripts. We do not recommend moving more than 300,000 books per 
year out of our stacks for deacidification treatment because of the 
disruptive and negative impact this would have to our reference 
services.
    After 30 years, the plan calls for a reduced, but continuing, 
funding to deacidify only manuscript materials not previously treated 
plus newly acquired acidic books.
    Question. Dr. Billington, the Library is requesting $2.5 million to 
establish permanent funding for 51 police positions authorized and 
funded initially by the 1999 Emergency Security Supplemental. The 
supplemental provided $17 million in funding for Library of Congress 
security enhancements, including $2.2 million for police staffing.
    Please provide the committee an update on your progress in hiring 
the additional police positions.
    How does the Library provide training for its police?
    Also, briefly update the committee on the status of the other 
security enhancements funded by the supplemental.
    Answer. As of February 14, 2000, 26 new police officers have been 
hired. The balance of new police officers (20) and the police 
administrative support staff (five) are projected to enter on duty in 
the second and third quarters of fiscal 2000.
    The Library provides training for police in three phases: (1) new 
hires receive mandatory training (ten weeks of basic training at the 
Federal Law Enforcement Training Center and eight and one-half weeks of 
orientation/certification); (2) in-service training is provided for all 
officers, including firearms, defensive tactics, CPR/First Aid 
recertification, and daily briefings at roll call; and (3) specialized 
training for officers whose positions require specific technical 
skills.
    All security enhancements are currently proceeding on schedule. We 
are continuing to work hand-in-hand with the Capitol Police and the 
Architect of the Capitol implementing the security enhancements.
    Question. The Conference Report on H.R. 1905, the Fiscal 2000 
Legislative Appropriations Act, directed the Architect to provide the 
Librarian with a ``reasonable, effective and efficient plan of action * 
* *to correct the hazards and deficiencies'' identified by the 
Librarian with respect to fire safety in the aftermath of the April 30, 
1999, fire in the Madison Building.
    Is the Library of Congress satisfied with the plan provided by the 
Architect and with the safety of your buildings?
    Answer. The Architect of the Capitol (AOC) gave the Library's 
Safety Office the opportunity to review the plan prior to its 
submission to the Congress. The Library's Safety Office stated to the 
AOC that the plan was insufficient. While the Library of Congress 
realizes that the AOC cannot address all of fire safety issues at once, 
we recommend that the plan include the following four additional items: 
first, a priority list of the projects to address fire safety issues. 
Priorities should be based on a joint risk assessment by AOC and the 
Library which presents a realistic assessment of the capability of the 
AOC to complete multiple projects. Second, a plan for requesting funds 
to address the fire safety issues. Third, an organized approach to the 
inspection, testing, and maintenance requirements of OSHA and NFPA. 
Fourth, a process for providing on-going reports to the Library 
demonstrating progress (milestones) towards correction of fire safety 
issues.
    For more than two years, the Library's Safety Office has vigorously 
communicated to the AOC the Library's concerns about major fire safety 
issues and the lack of progress to correct problems. Examples of the 
Library's concerns include: twenty-five percent of the sprinkler head 
change out was to be completed by February 2000, but only ten percent 
has been completed to date; the December 1999 completion date for the 
Madison Building fire alarm system upgrades was not met, and a revised 
completion date has not been provided; upgrades to the fire system in 
the Jefferson and Adams Buildings have not been competed, and the AOC 
indicates that the April 2000 test and certification completion date 
will not be met; and the smoke control design implementation was not 
completed by December 1999.
    The Library will continue to work with the AOC to resolve 
outstanding concerns.
    Question. Last year, the Library's Copyright Office increased 
registration filing fees.
    What is the status of that fee increase and what are your 
projections for the future?
    Answer. In July of 1999, the Copyright Office increased 
registration filing fee from $20 to $30. While fee receipts are higher 
as a result of this increase, there has been a drop in demand for 
registration.
    The Copyright Office is forecasting $20,800,000 in fees for fiscal 
2000. This projection is consistent with the impact on registrations 
filings that was seen following the last fee increase (in January of 
1991, filings declined seven and one-half percent). For the last two 
months of fiscal 1999, filings declined nearly nine percent from the 
previous year, and filings were nearly ten percent lower for the first 
two months of fiscal 2000. The Copyright Office expects the fee 
increase will result in approximately ten percent fewer filings than in 
fiscal 1998, followed by a slow recovery over several years.
    Approximately twenty percent of filings still arrive with 
insufficient fees--creating an extra workload. Most filers, however, 
remit the required additional fee when requested to do so.
    The Copyright Office projects fee receipts of $21,000,000 in fiscal 
2001. If receipts exceed this forecast, the excess will be transferred 
to Copyright Office ``No Year'' account. The excess funds can be used 
in future years to offset increases in expenditures and/or potentially 
to decrease the net appropriation.
    Question. Dr. Billington, last year there was some discussion about 
migrating your ``talking book'' machines to a digital format.
    Please update the committee on your efforts in this area.
    Answer. The transition from the current analog cassette talking 
book system to a digital program is both desirable and necessary, but 
must be thoroughly designed prior to implementation.
    The Library has made five assumptions in planning for the next-
generation of talking book system: the next system will be digitally 
based; the digital medium will have improved sound quality; readers 
will be able to listen to an entire book without turning over or 
replacing the tape or disc; the ``player'' will have enhanced 
navigational capabilities (the ability to jump from the table of 
contents to a chapter, to skip through text instantaneously, one 
paragraph at a time, to skip over footnotes, to insert bookmarks, 
etc.); and finally, the system will also have the capability to include 
the full text of a book in electronic form, along with the recorded 
version.
    We will begin recording books in digital format well in advance of 
the transition. After successful small-scale tests, the Library will 
begin to produce a larger number of digital books, while the number of 
cassette players and cassette titles will be reduced. This transition 
will continue over a period of years. There are, however, several 
issues which could affect the length of time to complete transition: 
resistance to change to a new system (by older patrons) could lengthen 
the transition; the obsolescence of parts and materials (for the 
cassette players) may shorten transition; the cost of maintaining two 
parallel systems could shorten transition time; and finally, the 
availability of funds to manufacture new digital players and the 
complexity of the new system could be issues that lengthen the 
transition time frame.
    Currently, the National Information Standards Organization (NISO), 
at the request of the Library, is developing a standard for digital 
talking-book machines. A member of the Library of Congress staff is 
chairing the NISO committee. The final standard is scheduled for 
December 2000.
    It is anticipated that initiation of migration to digital talking 
books will occur in approximately five to seven years. Prior to that 
time, the Library will provide a full justification for implementation 
and request for one-time financial support.

         MATERIAL SUBMITTED SUBSEQUENT TO CONCLUSION OF HEARING

    [Clerk's Note.--The following statement was received by the 
subcommittee and will be inserted in the record at this point.]

 Prepared Statement of Janet S. Zagorin, Chair, Standing Committee on 
         the Law Library of Congress, American Bar Association

    Mr. Chairman and Members of the Subcommittee, the American Bar 
Association (ABA) appreciates the opportunity to submit this statement 
in support of the fiscal year 2001 Legislative Appropriations budget of 
the Library of Congress and its Law Library. My name is Janet Zagorin 
and I am Chair of the American Bar Association Standing Committee on 
the Law Library of Congress. In my non-volunteer life, I am a law 
librarian. I am currently the Director of Practice Development at 
Gibson, Dunn & Crutcher. Joining me in this statement is Bill Orton, 
former Member of Congress from Utah, and a member of the ABA Standing 
Committee on the Law Library of Congress. We submit this statement on 
behalf of William G. Paul, President of the Association.
    The American Bar Association is the world's largest voluntary 
professional organization, and, with a membership in excess of 400,000, 
serves as the national voice of the legal profession. The ABA created 
the Standing Committee on the Law Library of Congress in 1932 as a 
measure of the Association's dedication to preserving and enhancing our 
nation's Law Library and its vast collection of legal literature and 
sources. Since its inception, the Standing Committee has acted as the 
Association's liaison and voice of the legal profession concerning the 
continued development and operation of the Law Library of Congress.
    On behalf of the Association, I commend the Congress for having 
established one of the most prestigious and comprehensive legal 
collections in the world--now 2.3 million volumes strong. This year, 
the Law Library has asked for an increase in positions and funding 
which we believe is required if the Law Library is to meet 
congressional and other government demand for reference and research 
services, maintain its role as an innovator in the delivery of an 
exploding volume of electronic information, and preserve its treasures 
for future generations.
    I know that you are facing many difficult choices as you 
contemplate the Legislative Branch budget, but I hope that you will 
find a way to spare our nation's Library from any cuts in its proposed 
budget. The Library has requested an increase to meet the demands of 
its strategic plan, a changing workforce, and a rapidly changing 
digital world. The Law Library, likewise, must be able to continue to 
maintain its role as the ultimate legal resource center for Congress 
and our citizens. In spite of shrinking resources, the Law Library 
continues to provide service to the public at large in American law 
through its reading room, and on foreign and comparative law on a 
priority basis through legal specialists in its research directorate. 
An enhanced web site for the Law Library to further facilitate access 
to legal reference services is being developed.
    The Law Library is extremely grateful for the support of the 
Committee on Appropriations. As you may be aware, however, the Library 
has undergone significant reductions in staffing and services. While 
the funding the Law Library received last year enabled the Law Library 
to maintain and improve certain areas, the Library is still forced to 
confront the considerable downsizing that took place in previous years. 
Shortages in staffing are compromising the provision of comprehensive 
high-quality research and reference services and the very integrity of 
the Law Library collections. We ask for Congress' continued support in 
granting the Library the resources it needs to develop, maintain, and 
preserve its collections and its reference services, and to prevent 
further erosion of its workforce.
    Faced with the necessity of developing a leading presence in the 
electronic age while maintaining its preeminent legal collection, the 
Library of Congress must have adequate funding to remain a leader in 
serving the Congress and the nation. Without such support, the Law 
Library is unable to achieve the level of research services it believes 
Congress deserves and requires. The Law Library serves over 100,000 
users per year, with priority given to members of Congress. It supports 
over 70 hours per week of research, book circulation and legal 
reference services with a staff of only seven legal reference 
specialists. Adequate funding is needed to increase the number of 
specialists in order to keep pace with demand, including new workloads 
generated by the emergence of digital reference services. Additional 
funding is needed to support the provision of services to Congress and 
government offices in Spanish language jurisdictions, where currently 
only two legal specialists must cover 15 jurisdictions each. Further, 
at present staffing levels, only 60 percent of the 100,000 monographs 
received annually can be processed, among other shortfalls. We believe 
that proper funding for the Law Library's technical support team and 
computer systems is vitally important to ensure the integrity of its 
collections and to provide Congress with the services upon which it 
must rely.
    In addition, while the Library is a critical resource available to 
every citizen of our country, immediate access to the great resources 
of the Law Library should be made more available to everyone--from 
isolated senior citizens to urban school children--via the Internet. 
Again, however, this only can be accomplished by increasing funding for 
the Law Library's technical support team and computer services support.
    Succession planning has become paramount for the Law Library. The 
expected retirement of nearly 60 percent of its foreign law specialists 
by 2004 will require an unprecedented transfer of knowledge and skills 
to new staff, without which the Law Library's ability to deliver 
expected services--from research to analysis to collections development 
and other required tasks--will be seriously impaired. This in turn will 
erode its ability to support legislative initiatives, case law 
adjudication, foreign policy decision-making and other vital functions. 
We ask Congress to fund succession planning in the Law Library so that 
the services on which so many rely will not be compromised.
    Fiscal year 2001 will follow a ``Year of Great Transition'' for the 
Library of Congress. One of the Library's building blocks for this 
transition is the expansion of the Global Legal Information Network 
(GLIN). GLIN is the digital future of the Law Library and is the Law 
Library's contribution to the overall digital program of the Library of 
Congress. What began as a simple card file over fifty years ago has 
grown into an international network of the world's legislative bodies 
sharing via the Internet the full text of their nation's laws and 
regulations. The GLIN database contains information on over 75,000 laws 
and regulations from 46 countries, and provides Congress with a direct 
link to foreign, comparative, and international laws.
    The Law Library collections have contributed significantly to the 
content of the Library's National Digital Library. Through a program 
entitled, ``A Century of Lawmaking for a New Nation,'' the Law Library 
is making available through the Internet congressional documents and 
debates from the founding of the national government in 1774 through 
the 24th Congress in 1837. By the end of the project, documents and 
debates from the first 42 Congresses--including debates on ratification 
of the Constitution, records of the federal convention, and the debates 
and laws of the Continental Congress--will be available on-line. The 
ABA hopes that you will approve the budget request, which will enable 
the Law Library to continue adding Congressional records to the 
Internet. The funding requested for the Library's automation projects, 
including GLIN, will undoubtedly strengthen and enhance its efficiency 
and effectiveness internally and globally, in serving the Congress, in 
expanding public access to its invaluable collections, and in 
sustaining its role as the leader and progressive host of this vast 
knowledge.
    Giving the Library of Congress and its Law Library the support 
needed to preserve the knowledge and ideas that sustain us as a 
community and a nation would be a significant gift to our country. The 
Library of Congress is the oldest federal cultural institution in our 
country, serving Congress as its priority client, all federal agencies, 
as well as state and local governments. But it is also important to 
remember that the nation at large is served by the Library. As 
technology and the information age advance, new opportunities to serve 
Congress and the nation are available, but at the same time new 
challenges exist that make support for the Library even more crucial. 
At this critical time, it is imperative that we continue to support 
this great institution. In a turbulent and challenging world, the Law 
Library represents a powerful reaffirmation that we are a democratic 
nation of laws and that access to our laws is, and should remain, open 
and free.
    Mr. Chairman and Members of the Subcommittee, the American Bar 
Association appreciates your courtesy in allowing us to present this 
statement to you today. We hope that you will look most favorably upon 
the budget request of the Library of Congress and its Law Library.


                      JOINT COMMITTEE ON TAXATION

STATEMENT OF HON. WILLIAM V. ROTH, JR., CHAIRMAN
ACCOMPANIED BY LINDY L. PAULL, CHIEF OF STAFF

                             BUDGET REQUEST

    Senator Bennett. Our next witness is Chairman William Roth. 
We welcome the Honorable William Roth, who is chairman of the 
Joint Committee on Taxation, and he is joined by Lindy Paull, 
the Chief of Staff of the Joint Committee.
    The committee has requested $6,747,000, which is an 
increase of 4.65 percent over fiscal year 2000. Senator Roth, 
we are honored to have you and welcome. We would be happy to 
hear what you have to share with us.
    Senator Roth. Mr. Chairman, I would like to thank you for 
having us here this morning. As you know, we have a written 
statement which will go into greater detail than my oral 
comments.
    Senator Bennett. It will be included in the record.
    Senator Roth. As you know, we have requested for the Joint 
Committee a $291,000 increase for the fiscal year 2001 
appropriation. This increase is solely attributable to 
increases in personnel expenses: $228,000 is for personnel cost 
of living increases; $61,000 is for 1 percent meritorious 
increases in personnel expenses; and, there is $2,000 for the 
projected cost of employee transit benefits for the fiscal 
year. There is no overall change in the appropriation for non-
personnel expenses.
    The fiscal year 2000 appropriation for the Joint Committee 
included $200,000 to fund a report on the overall state of the 
Federal tax system, together with recommendations for possible 
simplification. This report was required under the IRS Reform 
Act and, as you may recall, this amount was included in the 
Joint Committee's fiscal year 2000 appropriation by this 
subcommittee. We are requesting equivalent funds for the study 
for fiscal year 2001 to enable the Joint Committee staff to 
complete its work on this study.

                                WORKLOAD

    I would like to comment briefly, Mr. Chairman, on the 
workload of the Joint Committee. As you know, much of the work 
performed by the Joint Committee staff is the preparation of 
revenue estimates for Members of Congress. I think the record 
here is pretty outstanding. During calendar year 1999 the Joint 
Committee staff received 4,234 requests for revenue estimates 
and other assistance from Members. That is an increase of 55 
percent over the requests received in 1998, and nearly 400 more 
than the requests for the entire 105th Congress.
    The Joint Committee has disposed of 3,297, or 77.9 percent 
of the requests received in 1999, and has responded to 1,000 
more requests during 1999 than the average number of responses 
for each of 1997 and 1998. I think this demonstrates an 
enormous increase in Joint Committee staff productivity.
    The Joint Committee staff has completed two major studies 
mandated by the IRS Reform Act: a study of the present-law 
system of penalties and interest, and a study of taxpayer 
confidentiality. These reports total more than 1,500 pages. 
Work on the studies placed a tremendous drain on our staff 
resources at the same time that the Congress was considering 
the tax relief bill last summer and the expiring provisions 
bill last fall.

                           PREPARED STATEMENT

    I want to thank the subcommittee for its continued 
recognition of what I think is the very important role that the 
Joint Committee on Taxation plays in the development of revenue 
legislation, and I hope that it will continue to support the 
operation of this committee in the coming fiscal year.
    [The statement follows:]
            Prepared Statement of Hon. William V. Roth, Jr.

                              INTRODUCTION

    Mr. Chairman, we appreciate the opportunity to submit this written 
testimony to the Subcommittee on Legislative Branch of the Senate 
Committee on Appropriations on behalf of the fiscal year 2001 
appropriation request for the Joint Committee on Taxation (the ``Joint 
Committee'').
    The funding we are requesting for the Joint Committee represents 
the minimum amount necessary to finance the operations of the Joint 
Committee for fiscal year 2001. The Joint Committee provides essential 
services to the Congress that are not duplicated by any other 
Congressional or Executive Branch office. Failure to provide the 
requested funding will jeopardize the ability of the Joint Committee to 
provide these necessary services.
    We want to thank the Subcommittee for its continued recognition of 
the important role that the Joint Committee plays in the development of 
revenue legislation. We are pleased that the Subcommittee has 
repeatedly acknowledged the needs of the Joint Committee, and we hope 
that the Subcommittee will continue to support the operations of the 
Joint Committee for fiscal year 2001.
    Key points relating to the fiscal year 2001 appropriation request 
are as follows:
  --The Joint Committee is requesting an appropriation for fiscal year 
        2001 of $6,747,000, an increase over the fiscal year 2000 
        appropriation of $291,000. This represents a 4.5 percent 
        increase over the fiscal year 2000 appropriation. The increase 
        is attributable to (1) personnel cost-of-living increases 
        ($228,000), (2) 1-percent meritorious increases for personnel 
        expenses ($61,000), and (3) the projected costs of employee 
        transit benefits ($2,000) for the fiscal year.
  --As required by the fiscal year 2000 Consolidated Appropriation 
        Bill, the 0.38 percent rescission amount applicable to the 
        Joint Committee is $24,533. The Joint Committee staff allocated 
        $12,000 of this amount to Other Services and $12,533 to 
        Equipment. These amounts have been restored for purposes of 
        calculating the fiscal year 2001 appropriation request.
  --Proposed adjustments have been made to the allocation of 
        nonpersonnel expenses to better reflect actual experience, but 
        no overall change in the appropriation for nonpersonnel 
        expenses is requested for fiscal year 2001.
  --Under section 4002(a) of the IRS Restructuring and Reform Act of 
        1998, subject to amounts being specifically appropriated for 
        this purpose, the Joint Committee is required to report at 
        least once each Congress to the Senate Committee on Finance and 
        the House Committee on Ways and Means on the overall state of 
        the Federal tax system, together with recommendations with 
        respect to possible simplification proposals and other matters 
        relating to the administration of the Federal tax system. The 
        Senate appropriated $200,000 for this purpose in the Joint 
        Committee's fiscal year 2000 appropriation, and this increase 
        was accepted in the conference on the Legislative Branch 
        appropriations. The Joint Committee is requesting that the 
        Subcommittee appropriate equivalent funds for this study for 
        fiscal year 2001 to enable the Joint Committee staff to 
        complete its work on this project.
    Additional details relating to this appropriation request are 
provided below.
           summary of fiscal year 2001 appropriation request
    The following summarizes the Joint Committee's appropriation 
request for fiscal year 2001:

Personnel Costs:
    Personnel compensation....................................$6,145,000
    Transit benefits..........................................     2,000
Nonpersonnel Funding:
    Travel....................................................    12,000
    Rent, communications, and utilities.......................    30,000
    Printing..................................................       500
    Other services............................................   126,500
    Supplies and materials....................................   154,000
    Equipment.................................................   277,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total fiscal year 2001 request.......................... 6,747,000

    As required by the fiscal year 2000 Consolidated Appropriation 
Bill, the 0.38 percent rescission amount applicable to the Joint 
Committee is $24,533. The Joint Committee staff allocated $12,000 of 
this amount to Other Services and $12,533 to Equipment. These amounts 
have been restored for purposes of calculating the fiscal year 2001 
appropriation request.

           DETAILS OF FISCAL YEAR 2001 APPROPRIATION REQUEST

Personnel Expenses

    Cost-of-living.--Pursuant to information provided by the House 
Office of Finance, a 4.4 percent cost-of-living adjustment for calendar 
year 2000 and a 3.7 percent cost-of-living adjustment for calendar year 
2001 were assumed in calculating proposed cost-of-living adjustments 
for personnel expenses. Using these assumptions, proposed cost-of-
living adjustments for fiscal year 2001 equal $228,000.
    Meritorious increases.--A requested increase of $61,000 is included 
in the appropriation to cover the cost of 1-percent meritorious 
increases for personnel expenses.
    Transit benefits.--A requested increase of $2,000 is included in 
the appropriation request to cover the projected costs of transit 
benefits provided to Joint Committee employees.
    FTEs.--The fiscal year 2000 appropriation included 3.0 additional 
FTEs for the Joint Committee. The Joint Committee staff is in the 
process of hiring for these new positions at this time. The hiring 
process for Ph.D. economists is such that the Joint Committee staff 
interviews in January and February for economists who will generally be 
available in the summer or fall of the year. Thus, the Joint Committee 
expects that the hiring for these additional FTEs will be completed by 
the end of the fiscal year. No change in FTEs for fiscal year 2001 over 
fiscal year 2000 is requested.
    While no increase in FTEs is requested for fiscal year 2001, 
additional ongoing responsibilities have been assigned to the Joint 
Committee as a result of the IRS Reform Act. Under the IRS Reform Act, 
the Joint Committee is required to prepare a complexity analysis of all 
revenue provisions of widespread applicability to individuals and small 
businesses. In addition, the IRS Reform Act requires the Joint 
Committee to provide staffing and an annual report in connection with 
annual joint review of six Congressional committees on the operations 
of the Internal Revenue Service. The first of these reviews occurred in 
calendar year 1999 and a review will occur in each of calendar years 
2000 through 2003.
    Under section 4002(a) of the IRS Restructuring and Reform Act of 
1998 (the ``IRS Reform Act''), subject to amounts being specifically 
appropriated for this purpose, the Joint Committee is required to 
report at least once each Congress to the Senate Committee on Finance 
and the House Committee on Ways and Means on the overall state of the 
Federal tax system, together with recommendations with respect to 
possible simplification proposals and other matters relating to the 
administration of the Federal tax system. The Senate appropriated 
$200,000 for this purpose in the Joint Committee's fiscal year 2000 
appropriation, and this increase was accepted in the conference on the 
Legislative Branch appropriations. The Joint Committee staff has begun 
planning for this study and it is anticipated that a study of this 
magnitude will require significant time and staff resources. It is 
requested that the Subcommittee appropriate equivalent funds for this 
study for fiscal year 2001 to enable the Joint Committee staff to 
continue its work on this project. If this project proves to require 
even more time and resources than projected, a larger appropriation may 
be requested for this purpose in the future.
Nonpersonnel Expenses
    In general.--The Joint Committee is requesting no increase in 
nonpersonnel expenses for fiscal year 2001. However, nonpersonnel 
expenses in certain categories have been reallocated to reflect more 
accurately the actual expenses that are anticipated in these 
categories.
    Rent, communications, and utilities.--The Joint Committee request 
proposes to reallocate $3,000 from this category to other categories 
for fiscal year 2001. The amount requested in this category for fiscal 
year 2001 is an accurate estimate of the actual expenses that the Joint 
Committee will incur.
    Printing.--The Joint Committee requests that $500 be reallocated to 
this category of expense from the category of rent, communications, and 
utilities for fiscal year 2001. The fiscal year 2000 appropriation had 
no amount allocated for printing, but actual Joint Committee expenses 
for fiscal year 1999 were $480. Similar expenses are anticipated for 
fiscal years 2000 and 2001.
    Other services.--The fiscal year 2000 appropriation for other 
services is $124,000. The fiscal year 1999 actual expenses attributable 
to this category was $124,117 and the Joint Committee anticipates some 
additional expenses in fiscal year 2001 in this category. Reallocating 
$2,500 to this category from the category of rent, communications, and 
utilities (for a total fiscal year 2001 request of $126,500) will 
reflect more accurately projected expenses for fiscal year 2001.
    This category represents a substantial portion of the Joint 
Committee's nonpersonnel expense. The Joint Committee utilizes 
consultants and other service providers to provide services that the 
Joint Committee staff does not have the time or expertise to otherwise 
perform. For example, the needs of the Members for immediate responses 
to requests for revenue estimates and the substantial volume of 
requests that the Joint Committee staff receives each year places 
limitations on the ability of the Joint Committee staff to perform 
certain work necessary for the preparation of revenue estimates. From 
time to time, the Joint Committee staff will contract with certain 
private sector organizations to do research that the Joint Committee 
staff could not otherwise perform because of the other responsibilities 
of the staff.
    During fiscal year 1999 and 2000, certain of the amounts allocated 
to consultant contracts included services to update the Joint Committee 
document tracking system software and hardware; this project is 
discussed more fully in the equipment category below. There may be some 
residual consultant services required in fiscal year 2001 in connection 
with this effort.
    Supplies and materials.--The Joint Committee is requesting no 
change in the amount appropriated for this category for fiscal year 
2001. Actual expenses for fiscal year 1999 were $150,235 and the amount 
appropriated for fiscal year 2000 is $154,000. The fiscal year 2001 
expenses are expected to be substantially equivalent to fiscal year 
2000 expenses.
    Equipment.--No increase in this category is requested for fiscal 
year 2001 over fiscal year 2000. Anticipated expenses in this category 
include: $80,000 for hardware and software maintenance; $50,000 for 
Xerox maintenance and costs; $100,000 for the purchase of document 
scanners, CD-ROM writers, and storage for expansions of the Joint 
Committee's document tracking system; and $35,000 for software for 
document tracking and an electronic mail server.
    The purchase of equipment represents the single largest item of 
nonpersonnel expenses for the Joint Committee. The large volume of 
documents that the Joint Committee is required to produce in a very 
short time frame during the legislative process requires the use of 
sophisticated and technologically advanced computer and reproduction 
equipment. The Joint Committee staff upgrades computer software, 
hardware, and reproduction machines frequently to ensure that Members 
receive adequate service. During the consideration of the Taxpayer 
Relief Act of 1999, a number of Members complimented the Joint 
Committee staff on the speed with which the staff responded to the 
constantly changing provisions of the bill. The Joint Committee staff 
cannot provide this type of service to the Members unless it has the 
technology tools necessary for this type of sophisticated computer 
modeling.
    In 1994, the Joint Committee staff implemented a computerized data 
base to track Member requests. During fiscal year 1999, the Joint 
Committee staff began upgrades to this data base system that will 
transition the Joint Committee staff from a system for processing 
Member requests that is paper-based and time consuming to a paperless 
system that will allow the Joint Committee staff to process and monitor 
all Member requests electronically from the time a request is received 
until the final response is delivered to the requesting Member. This 
upgraded system is expected to improve substantially the efficiency of 
the Joint Committee staff in responding to Member requests.
    In addition, this upgraded database system will maintain a complete 
electronic record of each request received from a Member of Congress 
and will enable real time tracking of the status of each such request. 
The Joint Committee staff anticipates that there may be some residual 
expenses relating to implementation of this new document tracking 
system during fiscal year 2001. For example, the Joint Committee staff 
hopes to be able to convert existing files of Member requests and 
responses to this new system. This will be a longer term project that 
will require some expense in fiscal year 2001.

 REVIEW OF JOINT COMMITTEE ON TAXATION OPERATIONS DURING CALENDAR YEAR 
                                  1999

    As is demonstrated below, the Joint Committee staff faced a 
significantly greater workload in 1999 compared to 1998. The Joint 
Committee staff saw substantial increases in the number of revenue 
estimate requests received from Members during 1999. In addition, the 
Joint Committee staff devoted significant staff resources to its work 
on two studies mandated by the IRS Reform Act.
    Attachments A through E provide a summary of the activity of the 
Joint Committee staff for calendar year 1999. The attachments include 
the following information:
  --Attachment A--information relating to the legislative tax reports 
        (Committee and Conference Reports) on which the Joint Committee 
        staff worked for the revenue-related legislation considered by 
        the House Committee on Ways and Means and/or the Senate 
        Committee on Finance;
  --Attachment B--a listing of all documents published by the Joint 
        Committee staff during calendar year 1999;
  --Attachment C--a graph showing the number of Joint Committee 
        requests received by the Joint Committee from Members of 
        Congress for revenue estimates and other assistance during the 
        period 1985 through 1999;
  --Attachment D--a table providing information on revenue estimate 
        requests and Joint Committee staff responses to various 
        categories of requesting Members; and
  --Attachment E--information relating to the Joint Committee staff's 
        statutorily mandated duty to review large income tax refunds.

Tax legislative reports

    The Joint Committee staff prepared 12 Committee and Conference 
reports relating to tax legislation considered by the Congress in 1999 
and provided assistance on 5 trade Committee reports. The Joint 
Committee staff also prepares committee reports for the Senate Foreign 
Relations Committee relating to negotiated treaties and protocols for 
consideration by the Senate. During 1999, the Joint Committee assisted 
the Senate Foreign Relations Committee in its consideration of nine 
income tax treaties and protocols. A complete listing of these reports 
is included at Attachment A.

Joint Committee staff publications

    In addition to its work on committee and conference reports, the 
Joint Committee staff published 99 documents during 1999, including 
pamphlets and other documents prepared for committee hearings and 
markups and conference action (see Attachment B). All Joint Committee 
staff publications are accessible from the Joint Committee's web page.
    Among the documents published by the Joint Committee staff in 1999 
was a 629-page study of present-law penalty and interest provisions 
mandated by the IRS Reform Act. The Joint Committee staff was able to 
meet the statutorily imposed deadline of July 22, 1999, for 
transmitting this study to the Congress despite the tremendous demands 
on Joint Committee staff resources made in connection with the 
consideration at the same time of H.R. 2488 (the ``Taxpayer Refund and 
Relief Act of 1999'').
    At the beginning of 1999, the Joint Committee staff published a 
document providing background information relating to the Joint 
Committee on Taxation. This document was recently updated for 2000. An 
updated version of this document is included as Attachment F.
    The Joint Committee staff plays an active role in formulating and 
presenting Congressional views on issues raised by the Administration's 
negotiation of tax treaties and other tax-related agreements. The Joint 
Committee staff prepares pamphlets for the Senate Foreign Relations 
Committee containing detailed descriptions of the provisions of 
negotiated tax treaties and protocols, including comparisons with the 
current U.S. model treaty, which reflects preferred U.S. treaty policy, 
and with other recent U.S. tax treaties. The pamphlets also contain 
detailed discussions of issues raised by the proposed agreements. 
During 1999, the Joint Committee staff prepared 8 documents for the 
Senate Committee on Foreign Relations in connection with hearings on 
proposed income tax treaties and protocols. The Joint Committee staff 
consulted extensively with the staff of the Senate Foreign Relations 
Committee in analyzing the proposed treaties and protocols and in 
preparing pamphlets and committee reports for the Committee.
    The Joint Committee staff's annual report on estimates of Federal 
tax expenditures (for fiscal years 1999-2003) was published in December 
1999.

Revenue estimates and related analysis

    Attachments C and D show data relating to the Joint Committee 
staff's revenue estimating activity for calendar year 1999. Attachment 
C shows the number of revenue estimate requests received by the Joint 
Committee staff each year from 1985 through 1999. Since 1985, when the 
Congress was actively considering legislative proposals that led to 
enactment of the Tax Reform Act of 1986, and when data on revenue 
estimate requests was first compiled, the number of requests received 
annually has increased by 1,116 percent.
    The Joint Committee received 4,234 requests for revenue estimates 
and other assistance from Members during 1999, an increase of 55 
percent over the requests received in 1998. During 1999, the Joint 
Committee staff received more requests from Members than the total 
number of requests received for the entire 105th Congress (3,871). The 
Joint Committee staff disposed of 77.9 percent (3,297) of the requests 
received in 1999 and has approximately 1,000 requests currently 
pending. During 1999, the Joint Committee staff responded to 1,000 more 
requests than the average number of responses for each of 1997 and 
1998, demonstrating an enormous increase in Joint Committee staff 
productivity.
    Attachment D shows the Joint Committee staff's response rate to 
various categories of Members requesting revenue estimates. While it 
appears that certain categories of Members received a lower percentage 
response rate than other categories, the approximately 1,000 requests 
pending at the close of 1999 will be addressed during 2000 (i.e., they 
continue to be treated as pending requests). Thus, a more accurate 
picture of the Joint Committee staff's response rate to Members will be 
demonstrated by the final statistics at the end of 2000 for the entire 
106th Congress. The Joint Committee staff is cognizant of its 
responsibility to provide service to all Members requesting it and 
intends to continue to monitor its response rates to ensure that the 
Joint Committee staff responds to non-tax-writing Committee Members as 
well as the tax-writing Committee Members. Furthermore, the Joint 
Committee staff's new document tracking software, which is being 
installed at this time, will assist in monitoring Member requests and 
responses more easily.

JCT staff studies, investigations, and refund review

    As noted above, the Joint Committee staff timely completed in 1999 
a study of the present-law penalty and interest provisions mandated by 
the IRS Reform Act. In addition, the IRS Reform Act also mandated that 
the Joint Committee conduct a study of the present-law protections 
relating to disclosure of tax returns and tax return information, which 
is due January 22, 2000. The Joint Committee staff will meet the 
deadline for completion of this study. While no amounts were separately 
appropriated to the Joint Committee staff to complete these studies, 
studies of this nature place significant demands on limited personnel 
resources particularly during periods of high legislative activity such 
as that experienced during 1999.
    An ongoing, statutorily mandated function of the Joint Committee is 
the review of IRS refunds or credits of income tax, estate and gift 
tax, or any tax on public charities, foundations, pension plans, or 
real estate investment trusts in excess of $1 million. The Joint 
Committee staff reviews and reports on such refund cases and makes 
comments or recommendations with respect to the proposed refund case to 
the IRS. Attachment E contains information concerning the Joint 
Committee staff refund review work. During fiscal year 1999, the Joint 
Committee refund staff reviewed 577 cases involving $5.81 billion in 
proposed refunds and 64 large deficiency cases. The Joint Committee 
staff raised concerns in 65 refund cases (or approximately 11.3 percent 
of the cases) and in 4 of the large deficiency cases. Errors identified 
by the Joint Committee staff produced a net reduction in refunds of 
$18.3 million in fiscal year 1999. The average annual reduction in 
refunds for the last 8 years is $11.9 million.
    During 1999, the Joint Committee staff continued its investigation 
of whether the IRS selection of tax-exempt organizations (described in 
Code sections 501(c)(3) and 501(c)(4)) and individuals associated with 
such organizations for audit has been politically motivated, including 
an analysis of the selection of such tax-exempt organizations for audit 
for reasons related to their alleged political or lobbying activities. 
This investigation represents an important exercise of the Joint 
Committee's statutorily prescribed duty of oversight of the 
administration of the Federal tax system.
    The Joint Committee staff began work in 1999 on a study of the 
effectiveness of the present-law tax rules relating to tax-motivated 
expatriation.

 ANTICIPATED WORKLOAD OF THE JOINT COMMITTEE ON TAXATION FOR CALENDAR 
                               YEAR 2000

    During 2000, the Joint Committee staff's workload will be at least 
equivalent to what it has been in the past several years. The Joint 
Committee staff will be extensively involved in the legislative process 
to provide tax relief to the American taxpayers. Health-related revenue 
provisions are also expected to be considered as are a variety of 
pension-related provisions. The Joint Committee staff will (1) develop 
legislative proposals, (2) assist in the drafting of such proposals, 
(3) provide revenue estimates for numerous legislative options and 
amendments, (4) prepare markup documents and committee reports, and (5) 
provide additional economic analysis to the Members.
    In addition to this anticipated legislative activity, the Joint 
Committee staff will continue to satisfy its new responsibilities under 
the IRS Reform Act. The Joint Committee staff is now required to 
prepare a complexity analysis for inclusion in Committee and Conference 
reports for all revenue legislation. The Joint Committee staff is 
required to prepare materials for the use of the Congress in connection 
with joint reviews relating to the operations of the Internal Revenue 
Service that will occur during calendar years 1999-2003. The Joint 
Committee staff will complete work on its study of the effectiveness of 
the present-law tax rules in deterring tax-motivated expatriation. The 
Joint Committee staff will begin work on a comprehensive study relating 
to the complexity of the present-law tax system. The Joint Committee 
staff's experience with the other studies mandated by the IRS Reform 
Act indicates that this study will require substantial staff resources 
that may exceed the additional amounts appropriated to the Joint 
Committee for fiscal year 2000. The Joint Committee staff hopes to 
complete a study that will provide the Congress with relevant 
information on the sources of complexity in the present-law tax system 
and ways in which such complexity could be addressed.

                                SUMMARY

    Mr. Chairman, we hope that you will approve the appropriation 
request of the Joint Committee on Taxation. We believe that this 
request is the minimum amount necessary to fund the operations of the 
Joint Committee during fiscal year 2001. The Joint Committee staff 
workload for 1999 exceeded its workload for 1998 by more than 50 
percent. There is no reason to expect that this workload will be 
reduced any time soon. If the requested funding is not provided, 
difficult decisions will be required concerning what staff activities 
can and should be funded. We hope that the Subcommittee will not force 
the Joint Committee to make these decisions.
    Mr. Chairman, we recognize fully the budgetary constraints that 
make your work so difficult. At the same time, we hope that you will 
appreciate the important role the Joint Committee on Taxation plays in 
the analysis and development of tax legislation. We firmly believe that 
the nonpartisan technical tax experts on the Joint Committee staff 
provide a service to the Congress that is not and cannot be duplicated 
by any other Congressional office.
    We respectfully urge the Members of the Subcommittee to respond 
favorably to the Joint Committee's funding request for fiscal year 
2001.
 Attachment A.--1999 Tax-Related Legislative Reports Worked on by the 
                Staff of the Joint Committee on Taxation

Tax Committee Report Explanations

    H.R. 416 (Federal Retirement Coverage Corrections Act of 1999). H. 
Rept. 106-29. (House Ways and Means Committee report on rectification 
of certain retirement coverage errors affecting Federal employees.)
    H.R. 434 (African Growth and Opportunity Act). H. Rept. 106-19 Part 
2. (House Ways and Means Committee report on the bill.)
    H.R. 1376 (Tax Relief for Individuals Performing Services in 
Yugoslavia, Albania, the Adriatic Sea And the Northern Ionian Sea). H. 
Rept. 106-90. (House Ways and Means report on the bill to extend the 
tax benefits available with respect to services performed in a combat 
zone to services performed in the Federal Republic of Yugoslavia 
(Serbia/Montenegro) and certain other areas.)
    H.R. 2488 (Financial Freedom Act of 1999). H. Rept. 106-238. (House 
Ways and Means Committee report on the bill to Provide for 
Reconciliation Pursuant to Sections 105 and 211 of the Concurrent 
Resolution on the Budget for fiscal year 2000.)
    H.R. 2923 (Extension of Expiring Provisions and Other Time-
sensitive Provisions). H. Rept. 106-344. (House Ways and Means 
Committee report on the bill to extend expiring provisions, to allow 
fully the nonrefundable personal credits against regular tax 
liability.)
    H.R. 3081 (Wage and Employment Growth Act of 1999). H. Rept. 106-
467. (House Ways and Means Committee report on the bill.)
    S. 331 (Budget Effects of S. 331). S. Rept. 106-37. (Senate Finance 
report on the Work Incentives Improvement Act of 1999.)
    S. 1134 (Affordable Education Act of 1999). S. Rept. 106-54. 
(Senate Finance Committee Report on a bill to amend the Internal 
Revenue Code of 1986 to allow tax-free expenditures from education 
individual retirement accounts for elementary and secondary school 
expenses, and to increase the maximum annual amount of contributions to 
such accounts.)
    S. 1386 (Trade Adjustment Assistant Reauthorization Act). S. Rept. 
106-119. (Senate Finance Committee Report on a bill to reauthorize 
existing trade adjustment assistance programs.)
    S. 1387 (African Growth and Opportunity Act). S. Rept. 106-112. 
(Senate Finance Committee Report on a bill to extend certain trade 
preferences to sub-Saharan African countries.)
    S. 1388 (Generalized System of Preferences Extension Act). S. Rept. 
106-137 (Senate Finance Committee Report on a bill to extend the 
Generalized System of Preferences.)
    S. 1389 (The United States-Caribbean Basin Trade Enhancement Act). 
S. Rept. 106-160 (Senate Finance Committee Report on a bill to provide 
additional trade benefits to certain beneficiary countries in the 
Caribbean Basin.)
    S. 1429 (Taxpayer Refund Act of 1999). S. Rept. 106-120. (Senate 
Finance Committee report on a Bill to Provide for Reconciliation 
Pursuant to Section 104 of the Concurrent Resolution on the Budget for 
fiscal year 2000.)
    S. 1792 (Tax Relief Extension Act of 1999). S. Rept. 106-201. 
(Senate Finance Committee report on the bill.)
Tax-Related Conference Report Explanations
    H.R. 2488 (Taxpayer Refund and Relief Act of 1999). H. Rept. 106-
289. (Conference report on the bill.)
    H.R. 1180 (Ticket to Work and Work Incentives Improvement Act of 
1999). H. Rept. 106-478. (Conference report on the bill.)
Senate Foreign Relation Committee Reports:
    Report of the Senate Foreign Relations Committee on the Tax 
Convention with Estonia, S. Exec. Rept. 106-3.
    Report of the Senate Foreign Relations Committee on the Tax 
Convention with Lithuania, S. Exec. Rept. 106-4.
    Report of the Senate Foreign Relations Committee on the Tax 
Convention with Latvia, S. Exec. Rept. 106-5.
    Report of the Senate Foreign Relations Committee on the Tax 
Convention with Venezuela, S. Exec. Rept. 106-6.
    Report of the Senate Foreign Relations Committee on the Tax 
Convention with Slovenia, S. Exec. Rept. 106-7.
    Report of the Senate Foreign Relations Committee on the Tax 
Convention with Italy, S. Exec. Rept. 106-8.
    Report of the Senate Foreign Relations Committee on the Tax 
Convention with Denmark, S. Exec. Rept. 106-9.
    Report of the Senate Foreign Relations Committee on the Protocol 
Amending the Tax Convention with Germany, S. Exec. Rept. 106-10.
    Report of the Senate Foreign Relations Committee on the Amending 
Convention with Ireland, S. Exec. Rept. 106-11.
       Attachment B.--1999 Joint Committee on Taxation Documents
JCS-99 Documents
    JCS-1-99--Description Of Revenue Provisions Contained In The 
President's Fiscal Year 2000 Budget Proposal. February 22, 1999
    JCS-2-99--Schedule Of Present Federal Excise Taxes (As Of January 
1, 1999). March 29, 1999
    JCS-3-99--Study Of Present-Law Penalty And Interest Provisions As 
Required By Section 3801 Of The Internal Revenue Service Restructuring 
And Reform Act Of 1998 (Including Provisions Relating To Corporate Tax 
Shelters) Volumes I & II. July 22, 1999
    JCS-4-99--Strategic Plans And Budget Of The Internal Revenue 
Service, 1999--Joint Review. May 25, 1999
    JCS-5-99--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Republic Of Lithuania. Scheduled for a Hearing 
Before the Committee on Foreign Relations United States Senate on 
October 13, 1999. October 8, 1999
    JCS-6-99--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Republic Of Latvia. Scheduled for a Hearing 
Before the Committee on Foreign Relations United States Senate on 
October 13, 1999. October 8, 1999
    JCS-7-99--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Republic Of Estonia. Scheduled for a Hearing 
Before the Committee on Foreign Relations United States Senate on 
October 13, 1999. October 8, 1999
    JCS-8-99--Explanation Of Proposed Income Tax Treaty And Proposed 
Protocol Between The United States And The Kingdom of Denmark. 
Scheduled for a Hearing Before the Committee on Foreign Relations 
United States Senate on October 13, 1999. October 8, 1999
    JCS-9-99--Explanation Of Proposed Income Tax Treaty And Proposed 
Protocol Between The United States And The Italian Republic. Scheduled 
for a Hearing Before the Committee on Foreign Relations United States 
Senate on October 13, 1999. October 8, 1999
    JCS-10-99--Explanation Of Proposed Income Tax Treaty And Proposed 
Protocol Between The United States And The Republic Of Venezuela. 
Scheduled for a Hearing Before the Committee on Foreign Relations 
United States Senate on October 13, 1999. October 8, 1999
    JCS-11-99--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Republic Of Slovenia. Scheduled for a Hearing 
Before the Committee on Foreign Relations United States Senate on 
October 13, 1999. October 8, 1999
    JCS-12-99--Explanation Of Proposed Protocol To The Convention 
Between The United States And Germany For The Avoidance Of Double 
Taxation With Respect To Taxes On Estates, Inheritances, And Gifts. 
Scheduled for a Hearing Before the Committee on Foreign Relations 
United States Senate on October 13, 1999. October 8, 1999
    JCS-13-99--Estimates Of Federal Tax Expenditures For Fiscal Years 
2000-2004. December 22, 1999
JCX-99 Documents
    JCX-1-99--List Of Expired And Expiring Federal Tax Provisions, 
1998-2008. January 20, 1999
    JCX-2-99--Description Of Revenue Provisions To Be Considered In 
Connection With The Markup Of The Miscellaneous Trade And Technical 
Corrections Act Of 1999. Scheduled for Markup by the Senate Committee 
on Finance on January 22, 1999. January 21, 1999
    JCX-3-99--Estimated Revenue Effects Of S. 262, The ``Miscellaneous 
Trade And Technical Corrections Act Of 1999.'' Scheduled For Markup By 
The Senate Committee On Finance On January 22, 1999. January 22, 1999
    JCX-4-99--Background Information Relating To The Joint Committee On 
Taxation. February 3, 1999
    JCX-5-99--Description Of Revenue And Social Security Provisions 
Included In H.R. 416, The ``Federal Retirement Coverage Corrections 
Act''. Scheduled for Markup by the House Committee on Ways and Means on 
February 11, 1999. February 11, 1999
    JCX-6-99--Estimated Revenue Effects Of H.R. 416, The ``Federal 
Retirement Coverage Corrections Act.'' Scheduled For Markup By The 
Committee On Ways And Means. February 11, 1999
    JCX-7-99--Present Law And Background Relating To Tax Incentives For 
Savings. Scheduled for a Public Hearing Before the Senate Committee on 
Finance on February 24, 1999. February 23, 1999
    JCX-8-99--Present-Law Tax Rules Relating To Domestic Oil And Gas 
Exploration And Production And Description Of H.R. 53 And H.R. 423. 
Scheduled for a Hearing Before the Subcommittee on Oversight of the 
House Committee on Ways and Means on February 25, 1999. February 23, 
1999
    JCX-9-99--Estimated Budget Effects Of The Revenue Provisions 
Contained In The President's Fiscal Year 2000 Budget Proposal. February 
25, 1999
    JCX-10-99--Description Of Revenue Provisions To Be Considered In 
Connection With The Markup Of The Work Incentives Improvement Act Of 
1999. Scheduled for Markup by the Senate Committee on Finance on March 
4, 1999. March 2, 1999
    JCX-11-99--Estimated Revenue Effects Of The Chairman's Mark Of S. 
331, The ``Work Incentives Improvement Act Of 1999.'' Scheduled for 
Markup by the Senate Committee on Finance on March 4, 1999. March 2, 
1999
    JCX-12-99--Overview Of Present Law And Issues Relating To Tax And 
Savings Incentives For Education. Scheduled for a Public Hearing Before 
the Senate Committee on Finance on March 3, 1999. March 2, 1999
    JCX-13-99--Overview Of Present-Law Rules And Economic Issues In 
International Taxation. Scheduled for a Hearing Before the Senate 
Committee on Finance on March 11, 1999. March 9, 1999
    JCX-14-99--Analysis Of Issues Relating To Social Security 
Individual Private Accounts. Scheduled for a Public Hearing Before the 
Senate Committee on Finance on March 16, 1999. March 15, 1999
    JCX-15-99--Tax Treatment Of Structured Settlement Arrangements. 
Scheduled for a Hearing Before the House Ways and Means Subcommittee on 
Oversight on March 18, 1999. March 16, 1999
    JCX-16-99--Overview Of Present-Law Tax Rules And Issues Relating To 
Employer-Sponsored Retirement Plans. Scheduled for a Public Hearing 
Before the Subcommittee on Oversight of the House Committee on Ways and 
Means on March 23, 1999. March 22, 1999
    JCX-17-99--Description Of Present Law And A Proposal Relating To 
Tax Relief For Personnel In The Federal Republic Of Yugoslavia (Serbia/
Montenegro), Albania, The Adriatic Sea, And The Northern Ionian Sea. 
Scheduled for Markup by the House Committee on Ways and Means on April 
13, 1999. April 13, 1999
    JCX-18-99--Overview Of Present Law And Issues Relating To 
Individual Income Taxes. Scheduled for a Public Hearing Before the 
Senate Committee on Finance on April 15, 1999. April 14, 1999
    JCX-19-99--Disclosure Report For Public Inspection Pursuant To 
Internal Revenue Code Section 6103(p)(3)(C) For Calendar Year 1998. 
Prepared by the Internal Revenue Service. April 29, 1999
    JCX-20-99--Description Of Chairman's Mark Of Proposals Relating To 
Education Incentives. Scheduled for Markup by the Senate Committee on 
Finance on May 19, 1999. May 17, 1999
    JCX-21-99--Estimated Revenue Effects Of The Chairman's Mark Of 
Proposals Relating To Education Incentives. May 17, 1999
    JCX-22-99--Description Of Modification To Chairman's Mark Of 
Proposals Relating To Education Incentives. May 19, 1999
    JCX-23-99--Estimated Revenue Effects Of A Modified Chairman's Mark 
Of Education Tax Incentives In An Original Bill, The ``Affordable 
Education Act Of 1999''. May 19, 1999
    JCX-24-99--Report Of The Joint Committee On Taxation Relating To 
The Internal Revenue Service As Required By The IRS Reform And 
Restructuring Act Of 1998. Prepared for the House Committees on Ways 
and Means, Appropriations, and Government Reform and the Senate 
Committees on Finance, Appropriations, and Governmental Affairs For a 
Joint Review Scheduled on May 25, 1999. May 20, 1999
    JCX-25-99--Description Of Revenue Provisions In Chairman's 
Amendment In The Nature Of A Substitute To H.R. 434, The ``African 
Growth And Opportunity Act''. Scheduled for Markup by the House 
Committee on Ways and Means on June 10, 1999. June 9, 1999
    JCX-26-99--Estimated Revenue Effects Of Provisions In A Chairman's 
Amendment In The Nature Of A Substitute To H.R. 434, The ``African 
Growth And Opportunity Act.'' Scheduled For Markup By The Committee On 
Ways And Means On June 10, 1999. June 9, 1999
    JCX-27-99--Description Of Revenue Provisions In Chairman's 
Amendment In The Nature Of A Substitute To H.R. 984, The ``Caribbean 
And Central America Relief And Economic Stabilization Act''. Scheduled 
for Markup by the House Committee on Ways and Means on June 10, 1999. 
June 9, 1999
    JCX-28-99--Estimated Revenue Effects Of Provisions In A Chairman's 
Amendment In The Nature Of A Substitute To H.R. 984, The ``Caribbean 
And Central America Relief And Economic Stabilization Act''. Scheduled 
For Markup By The Committee On Ways And Means On June 10, 1999. June 9, 
1999
    JCX-29-99--Present Law And Background On Federal Tax Provisions 
Relating To Retirement Savings Incentives, Health And Long-Term Care, 
And Estate And Gift Taxes. Scheduled for a Public Hearing Before the 
House Committee on Ways and Means on June 16, 1999. June 15, 1999
    JCX-30-99--Overview Of Present-Law Rules Relating To International 
Taxation And Description Of H.R. 2018, The International Tax 
Simplification For American Competitiveness Act Of 1999. Scheduled for 
a Public Hearing Before the Subcommittee on Oversight of the House 
Committee on Ways and Means on June 22, 1999. June 18, 1999
    JCX-31-99--Description Of Revenue Provisions Included In The United 
States-Caribbean Basin Trade Enhancement Act. Scheduled for Markup by 
the Senate Committee on Finance on June 22, 1999. June 18, 1999
    JCX-32-99--Estimated Budget Effects Of The ``United States-
Caribbean Basin Trade Enhancement Act.'' Scheduled For Markup By The 
Committee On Finance On June 22, 1999. June 18, 1999
    JCX-33-99--Description Of Revenue Provisions Included In The 
African Growth And Opportunity Act. Scheduled for Markup by the Senate 
Committee on Finance on June 22, 1999. June 18, 1999
    JCX-34-99--Estimated Budget Effects Of The ``African Growth And 
Opportunity Act.'' Scheduled For Markup By The Committee On Finance On 
June 22, 1999. June 18, 1999
    JCX-35-99--Description Of Revenue Provisions Included In The Trade 
Adjustment Assistance Reauthorization Act. Scheduled for Markup by the 
Senate Committee on Finance on June 22, 1999. June 18, 1999
    JCX-36-99--Estimated Budget Effects Of The ``Trade Adjustment 
Assistance Reauthorization Act.'' Scheduled For Markup By The Committee 
On Finance On June 22, 1999. June 18, 1999
    JCX-37-99--Description Of Revenue Provision Included In The 
Generalized System Of Preferences Extension Act. Scheduled for Markup 
by the Senate Committee on Finance on June 22, 1999. June 18, 1999
    JCX-38-99--Estimated Budget Effects Of The ``Generalized System Of 
Preferences Extension Act.'' Scheduled For Markup By The Committee On 
Finance On June 22, 1999. June 18, 1999
    JCX-39-99--Present Law And Background Relating To The Marriage Tax 
Penalty, Education Tax Incentives, And Alternative Minimum Tax, And 
Expiring Tax Provisions. Scheduled for a Public Hearing Before the 
House Committee on Ways and Means on June 23, 1999. June 22, 1999
    JCX-40-99--Description And Analysis Of Present-Law Rules Relating 
To International Taxation. Scheduled for a Hearing Before the House 
Committee on Ways and Means on June 30, 1999. June 28, 1999
    JCX-41-99--Description Of Present Law And Proposals Relating To The 
Work Opportunity Tax Credit. Scheduled for a Public Hearing Before the 
Subcommittee on Oversight of the House Committee on Ways and means on 
July 1, 1999. June 29, 1999
    JCX-42-99--Description Of The Financial Freedom Act Of 1999. 
Scheduled for Markup by the House Committee on Ways and Means on July 
13, 1999. July 12, 1999
    JCX-43-99--Estimated Revenue Effects Of The ``Financial Freedom Act 
Of 1999.'' Scheduled For Markup By The Committee On Ways And Means 
Beginning On July 13, 1999. July 12, 1999
    JCX-44-99--Distributional Effects Of The Financial Freedom Act Of 
1999. July 13, 1999
    JCX-45-99--Description Of Modifications To The ``Financial Freedom 
Act Of 1999'' (H.R.2488) Contained In The Chairman's Amendment In The 
Nature Of A Substitute. July 14, 1999
    JCX-46-99--Description Of The Taxpayer Refund Act Of 1999. 
Scheduled for Markup by the Senate Committee on Finance on July 20, 
1999. July 16, 1999
    JCX-47-99--Estimated Revenue Effects Of The ``Taxpayer Refund Act 
Of 1999.'' Scheduled For Markup By The Committee On Finance Beginning 
On July 20, 1999. July 16, 1999
    JCX-48-99--Estimated Budget Effects Of The ``Financial Freedom Act 
Of 1999,'' As Reported By The Committee On Ways And Means. July 16, 
1999
    JCX-49-99--Description Of Proposed Modifications To H.R. 2488, As 
Reported By The House Committee On Ways And Means On July 16, 1999, 
Including Statutory Language. July 21, 1999
    JCX-50-99--Distributional Effects Of The Taxpayer Refund Act Of 
1999. July 20, 1999
    JCX-51-99--Description Of Proposed Modifications To The Provisions 
Of The Taxpayer Refund Act Of 1999. July 21, 1999
    JCX-52-99--Estimated Revenue Effects Of The Chairman's Modification 
To The ``Taxpayer Refund Act Of 1999.'' Scheduled For Markup By The 
Committee On Finance. July 21, 1999
    JCX-53-99--Estimated Budget Effects Of H.R. 2488, The ``Financial 
Freedom Act Of 1999,'' As Passed By The House Of Representatives. July 
22, 1999
    JCX-54-99--Distributional Effects Of H.R. 2488, The ``Financial 
Freedom Act Of 1999,'' As Passed By The House Of Representatives. July 
22, 1999
    JCX-55-99--Estimated Budget Effects Of The ``Taxpayer Refund Act Of 
1999,'' As Approved By The Committee On Finance On July 21, 1999. July 
23, 1999
    JCX-56-99--Summary Of The Revenue Provisions Contained In S. 1429, 
The Taxpayer Refund Act Of 1999, As Reported By The Senate Committee On 
Finance On July 23, 1999. July 27, 1999
    JCX-57-99--Comparison Of Provisions In H.R. 2488, As Passed By The 
House And The Senate. August 2, 1999
    JCX-58-99--Comparison Of The Estimated Revenue Effects Of H.R. 
2488, As Passed By The House And The Senate. August 2, 1999
    JCX-59-99--Estimated Budget Effects Of H.R. 2488, As Passed By The 
Senate On July 30, 1999. August 2, 1999
    JCX-60-99--Overview Of Conference Agreement For H.R. 2488, The 
``Taxpayer Refund And Relief Act Of 1999''. August 4, 1999
    JCX-61-99--Estimated Budget Effects Of The Conference Agreement For 
H.R. 2488. August 4, 1999
    JCX-62-99--Distributional Effects Of The Conference Agreement For 
H.R. 2488. August 5, 1999
    JCX-63-99--Summary Of The Revenue Provisions Of The Conference 
Agreement On H.R. 2488, The ``Taxpayer Refund And Relief Act Of 1999''. 
August 6, 1999
    JCX-64-99--Description Of Expiring Tax Provisions In H.R. 2923. 
Scheduled for Markup by the House Committee on Ways and Means on 
September 24, 1999. September 23, 1999
    JCX-65-99--Estimated Revenue Effects Of Expiring Provisions. 
Scheduled For Markup By The Committee On Ways And Means On September 
24, 1999. September 23, 1999
    JCX-66-99--Description Of Chairman's Amendment In The Nature Of A 
Substitute To H.R. 2923. September 24, 1999
    JCX-67-99--Estimated Revenue Effects Of The Chairman's Amendment In 
The Nature Of A Substitute Relating To Expiring And Time-Sensitive 
Provisions For Markup By The Committee On Ways And Means On September 
24, 1999. September 24, 1999
    JCX-68-99--Description Of Selected Federal Tax Provisions That 
Impact Land Use, Conservation, And Preservation. Scheduled for a 
Hearing Before the Subcommittee on Oversight of the House Committee on 
Ways and Means on September 30, 1999. September 28, 1999
    JCX-69-99--Description Of Chairman's Mark Relating To Expiring Tax 
Provisions. Scheduled for Markup by the Senate Committee on Finance on 
October 8, 1999. October 5, 1999
    JCX-70-99--Estimated Revenue Effects Of A Chairman's Mark Relating 
To Expiring Tax Provisions. Scheduled For Markup By The Committee On 
Finance On October 8, 1999. October 6, 1999
    JCX-71-99--Estimated Revenue Effects Of Title I. Of H.R. 2990, The 
``Quality Care For The Uninsured Act Of 1999,'' As Passed By The House 
Of Representatives On October 6, 1999. October 7, 1999
    JCX-72-99--Federal Tax Issues Relating To Restructuring Of The 
Electric Power Industry. Scheduled for a Public Hearing Before the 
Subcommittee on Long-Term Growth and Debt Reduction of the Senate 
Committee on Finance on October 19, 1999. October 15, 1999
    JCX-73-99--Description Of Modified Chairman's Mark Relating To 
Expiring Tax Provisions. Scheduled for Markup by the Senate Committee 
on Finance on October 20, 1999. October 19, 1999
    JCX-74-99--Estimated Revenue Effects Of A Modified Chairman's Mark 
Relating To Expiring Tax Provisions. Scheduled For Markup By The 
Committee On Finance On October 20, 1999. October 19, 1999
    JCX-75-99--Summary Of Tax Provisions Contained In The Wage And 
Employment Growth Act Of 1999 (H.R. 3081). Scheduled for Markup by the 
House Committee on Ways and Means on October 21, 1999. October 19, 1999
    JCX-76-99--Testimony Of The Staff Of The Joint Committee On 
Taxation Before The Senate Committee On Foreign Relations Hearing On 
Tax Treaties And Protocols With Eight Countries. October 25, 1999
    JCX-77-99--Comparison Of Revenue Provisions In H.R. 2990 As Passed 
By The House And The Senate. November 2, 1999
    JCX-78-99--Comparison Of The Estimated Revenue Effects Of The 
Revenue Provisions Contained In H.R. 2990, As Passed By The House And 
The Senate. November 2, 1999
    JCX-79-99--Comparison Of Joint Committee Staff And Treasury 
Recommendations Relating To Penalty And Interest Provisions Of The 
Internal Revenue Code. Scheduled for a Public Hearing Before the 
Subcommittee on Oversight of the House Committee on Ways and Means on 
November 9, 1999. November 5, 1999
    JCX-80-99--Description Of Chairman Archer's Amendment To The 
Revenue Provisions Of The Wage And Employment Growth Act Of 1999 (H.R. 
3081). Scheduled for Markup Before the House Committee on Ways and 
Means on November 9, 1999. November 9, 1999
    JCX-81-99--Estimated Revenue Effects Of Chairman Archer's Amendment 
To H.R. 3081, The ``Wage And Employment Growth Act Of 1999.'' Scheduled 
For Markup By The Committee On Ways And Means On November 9, 1999. 
November 9, 1999
    JCX-82-99--Testimony Of The Staff Of The Joint Committee On 
Taxation Before The Committee On Ways And Means. November 10, 1999
    JCX-83-99--Appendix I To JCX-82-99: NIPA And Federal Income Tax 
Receipts Data. November 10, 1999
    JCX-84-99--Appendix II To JCX-82-99: Description And Analysis Of 
Present-Law Tax Rules And Recent Proposals Relating To Corporate Tax 
Shelters. November 10, 1999
    JCX-85-99--Summary Of Conference Agreement On H.R. 1180 Relating To 
Expiring Tax Provisions And Other Revenue Provisions. November 17, 1999
    JCX-86-99--Estimated Budget Effects Of The Revenue Provisions 
Included In The Conference Agreement For H.R. 1180. November 18, 1999

Attachment C.--Joint Committee on Taxation revenue estimate requests

        Calendar year                                    No. of requests

1985..............................................................   348
1986..............................................................   474
1987..............................................................   420
1988..............................................................   900
1989.............................................................. 1,290
1990.............................................................. 1,286
1991.............................................................. 1,461
1992.............................................................. 2,350
1993.............................................................. 2,380
1994.............................................................. 1,259
1995.............................................................. 2,278
1996.............................................................. 1,792
1997.............................................................. 2,079
1998.............................................................. 2,729
1999.............................................................. 4,150

             ATTACHMENT D.--106TH CONGRESS REQUEST DATA \1\
                        (As of January 10, 2000)
------------------------------------------------------------------------
                                          Requests   Requests   Percent
               Requestors                 Received    Closed     Closed
------------------------------------------------------------------------
Ways and Means Committee:
    Republicans........................        909        698       76.8
    Democrats..........................        365        243       66.6
Senate Finance Committee:
    Republicans........................        676        523       77.4
    Democrats..........................        954        818       85.7
Non-Ways and Means Committee:
    Republicans........................        261        210       80.5
    Democrats/Independent..............        107         61       57.0
Non-Senate Finance Committee:
    Republicans........................        481        383       79.6
    Democrats..........................        419        306       73.0
Others.................................         62         55       88.7
                                        --------------------------------
      Total............................      4,234      3,297       77.9
------------------------------------------------------------------------
\1\ Totals include both revenue and non-revenue requests.

                       Attachment E.--Memorandum
                                                  December 7, 1999.
To: Chief of Staff, Joint Committee on Taxation
From: Senior Refund Counsel
Subject: Refund Section--Operations Report October 1, 1998 through 
    September 30, 1999

    This is a report on the more significant developments in this 
Office during this period.

                                SUMMARY

    Volume.--Refund Cases--577 reports were received during this 
period. The total dollar amount of refunds was $5,810,543,053.

----------------------------------------------------------------------------------------------------------------
                        Reports received                          1995      1996      1997    1998 \1\    1999
----------------------------------------------------------------------------------------------------------------
Examination Division..........................................       425       375       457       334       449
Appeals Division..............................................       132       101       124        92       108
Department of Justice.........................................        20        25        18        12        15
Chief Counsel.................................................         2         5         3         1         5
                                                               -------------------------------------------------
      Total...................................................       579       506       602       439       577
                                                               =================================================
Concerns \2\..................................................        79       104        88        58        65
----------------------------------------------------------------------------------------------------------------
\1\ 1998 was based on a short nine-month period, i.e., January 1, 1998 through September 30, 1998.
\2\ Includes 12 post review deficiency cases for 1995, 16 for 1996, 4 for 1997, 3 for 1998 and 4 for 1999.

    Post Review.--The Service reports 64 large deficiency cases to us 
on an annual basis. During this reporting period, we received 64 of 
these cases and wrote 4 concerns.
    Other Action.--(1) We transmitted for consideration of future 
legislative action five issues that arose in various cases.
    (2) We transmitted memoranda suggesting the Service take a position 
on a legal issue for future guidance.
    Exhibits and Appendices provide detailed information on most of the 
foregoing.
    Errors identified by us in fiscal year 1999 and prior years, and 
settled in fiscal year 1999 produced a net reduction in refunds of 
$18.3 million. The average annual reduction for the last 9 years is 
$11.9 million. Such corrections also reduced ATNOLCF's $15.7 million, 
AMFTC's $11.9 million, and minimum tax credits $300,000.
    We hope that we are satisfactorily accomplishing our assigned 
portion of the Committee's mission and meeting your expectations. We 
look forward to a productive, challenging year.


                         EXHIBIT I.--REPORTS TO JC AS REQUIRED BY IRS CODE SECTION 6405
                                [From October 1, 1998 through September 30, 1999]
----------------------------------------------------------------------------------------------------------------
                                               No. of               Cumulative
                   Month                       cases    Cumulative    monthly   Dollar receipts     Cumulative
                                              received     total      average                    dollar receipts
----------------------------------------------------------------------------------------------------------------
October....................................         44          44          44     $434,675,688     $434,675,688
November...................................         42          86          43      179,703,354      614,379,042
December...................................         24         110          37      163,924,794      778,303,836
January....................................         60         170          43      514,653,189    1,292,957,025
February...................................         49         219          44      423,046,072    1,716,003,097
March......................................         48         267          45      671,919,531    2,387,922,628
April......................................         55         322          46      411,354,430    2,799,277,058
May........................................         49         371          46      616,195,829    3,415,472,887
June.......................................         51         422          47      471,338,950    3,886,811,837
July.......................................         42         464          46      817,094,229    4,703,906,066
August.....................................         62         526          48      667,827,936    5,371,734,002
September..................................         51         577          48      438,809,051    5,810,543,053
----------------------------------------------------------------------------------------------------------------


          EXHIBIT II.--JOINT COMMITTEE CASES RECEIVED BY TYPES OF TAXPAYER AND SOURCE--FISCAL YEAR 1999
----------------------------------------------------------------------------------------------------------------
                                            Amount    Percent                                  Amount    Percent
----------------------------------------------------------------------------------------------------------------
            TYPES OF TAXPAYERS                                        SOURCE OF REPORTS
Individuals..............................        23      3.99   Examination.................       449     77.82
Estates..................................        13      2.25   Appeals.....................       108     18.72
Trusts...................................         1      0.18   Justice.....................        15      2.60
Corporations.............................       540     93.58   Tax Court...................         5      0.86
                                          ---------------------                              -------------------
      Total..............................       577    100.00         Total.................       577    100.00
----------------------------------------------------------------------------------------------------------------


           EXHIBIT III.--JOINT COMMITTEE MONTHLY RECEIPTS--REFUND REPORTS FROM EXAMINATION AND APPEALS
                                [From October 1, 1998 through September 30, 1999]
----------------------------------------------------------------------------------------------------------------
                              Month                               Examination  Cumulative   Appeals   Cumulative
----------------------------------------------------------------------------------------------------------------
October.........................................................          33           33         10          10
November........................................................          31           64         10          20
December........................................................          19           83          4          24
January.........................................................          44          127         14          38
February........................................................          41          168          6          44
March...........................................................          41          209          7          51
April...........................................................          47          256          8          59
May.............................................................          37          293         11          70
June............................................................          41          334         10          80
July............................................................          30          364          7          87
August..........................................................          47          411         10          97
September.......................................................          38          449         11         108
----------------------------------------------------------------------------------------------------------------


        EXHIBIT IV.--FISCAL YEAR 1999 JOINT COMMITTEE ON TAXATION CONCERNS ON REFUND REPORTS FROM IRS \1\
----------------------------------------------------------------------------------------------------------------
                                                                                                   Total No. of
                                                                   Examinations       Appeals        concerns
                                                                                                      issued
----------------------------------------------------------------------------------------------------------------
Number of concerns issued.......................................              46              15              61
Percent of total concerns issued................................              75              25             100
Total reports received..........................................             449             108             557
----------------------------------------------------------------------------------------------------------------
\1\ Number of Concerns does not include 4 on deficiency cases.

 Attachment F.--Background Information Relating to the Joint Committee 
                              on Taxation

                      JOINT COMMITTEE ON TAXATION

    The Joint Committee on Taxation (``JCT'') was established under the 
Revenue Act of 1926 and is one of the oldest joint committees of the 
Congress. It is composed of five Members of the House Committee on Ways 
& Means and five Members of the Senate Committee on Finance. The 
Chairman and Vice Chairman of the JCT are elected by the JCT members; 
these positions generally alternate each year between the Chairmen of 
the Ways & Means and Finance Committees.

       MEMBERS OF THE JOINT COMMITTEE ON TAXATION--106TH CONGRESS

      House
Bill Archer, Texas
Philip M. Crane, Illinois
William M. Thomas, California
Charles B. Rangel, New York
Fortney Pete Stark, California

      Senate
William V. Roth, Jr., Delaware
Charles Grassley, Iowa
Orrin G. Hatch, Utah
Daniel Patrick Moynihan, New York
Max Baucus, Montana

                               JCT STAFF

    The JCT has a nonpartisan professional staff that includes lawyers, 
certified public accountants, economists, and computer specialists. The 
JCT staff lawyers and accountants have substantial tax experience, 
including private practice experience with law and accounting firms and 
experience with the Internal Revenue Service. The staff economists have 
advanced degrees and substantial experience with computer modeling and 
quantitative methods of analysis relating to revenue estimation.
    The JCT staff is available to any Member of Congress who would like 
assistance in formulating revenue proposals and examining the possible 
economic, legal, administrative, and revenue implications of such 
proposals.

                            TAX LEGISLATION

    The JCT staff is closely involved in every aspect of the tax 
legislative process. Among other things, the JCT staff (1) prepares 
hearing pamphlets, committee reports, and conference reports 
(statements of managers), (2) assists the House and Senate Legislative 
Counsel in the drafting of statutory language, (3) assists Members of 
Congress with the development of tax proposals, (4) assists Members of 
Congress in addressing constituent issues and problems, (5) analyzes 
prepares revenue estimates of all tax legislation considered by the 
Congress, and (6) undertakes investigations and studies of various 
aspects of the Federal tax system.
    In recent years, the JCT staff has prepared hearing pamphlets on 
fundamental tax reform, the marriage penalty, estate and gift taxes, 
the individual alternative minimum tax, effective marginal income tax 
rates, the taxation of capital gains, tax incentives for savings, tax 
provisions relating to health care, tax complexity for small business, 
and the restructuring of the Internal Revenue Service.

                              OTHER DUTIES

    The JCT is statutorily required to (1) investigate the operation 
and effects of Federal taxes and the administration of such taxes, (2) 
investigate methods to simplify such taxes, (3) report the results of 
such investigations and make recommendations, and (4) review proposed 
income tax refunds in excess of $1 million.
    From time to time, the JCT staff is asked to undertake special 
studies or investigations. For example, in the early 1970's, the JCT 
staff was asked to review President Nixon's tax returns. More recently, 
the JCT staff was asked to investigate allegations of bias in the IRS 
handling of exempt organization matters.
    The JCT staff also prepares special reports that are required by 
law or requested by a Member. The JCT staff is required to prepare a 
complexity analysis of provisions contained in revenue legislation that 
are of widespread applicability to individuals and small business. The 
JCT staff conducted studies during 1999 of (1) the interest and penalty 
provisions in the Internal Revenue Code, and (2) provisions relating to 
taxpayer confidentiality. The JCT staff is also required to conduct a 
study of the complexity of the present-law Federal tax system and to 
prepare materials in connection with annual joint hearings relating to 
IRS operations for calendar years 1999-2003.
    Each year the JCT staff prepares and publishes a list of tax 
expenditures, as required by the Congressional Budget and Impoundment 
Control Act of 1974 (the ``Budget Act''). Tax expenditures are 
``revenue losses attributable to provisions of the Federal tax laws 
which allow a special exclusion, exemption, or deduction from gross 
income or which provide a special credit, a preferential rate of tax, 
or a deferral of tax liability.'' The most recent JCT tax expenditure 
report was published in December 1999.

                           REVENUE ESTIMATES

    Under the Budget Act, the JCT staff is the official scorekeeper of 
Congress for the budgetary implications (``revenue effects'') of any 
proposed revenue legislation.
    Any Member of Congress may request a revenue estimate for a tax 
proposal. A written request signed by the requesting Member should be 
sent to the Chief of Staff, Joint Committee on Taxation, 1015 Longworth 
House Office Building. The request should describe in detail the 
proposal to be estimated (including the effective date) and should 
include the name of a contact person in case there are questions about 
the proposal. Statutory language should be included if available.
    Work on revenue estimates generally is done on a first-in first-out 
basis, with some exceptions made for previously estimated proposals. 
Some responses take longer than others because of difficulties in 
obtaining data and developing the necessary models. When revenue 
legislation is pending in the House or the Senate, requests relating to 
such pending legislation receive higher priority.
    When revenue estimates are completed, the requesting Member 
receives a written response from the JCT Chief of Staff. The response 
contains a brief summary of the proposal and the revenue estimate for 
the proposal. The JCT staff does not provide verbal (telephone) 
responses to revenue requests.

                         ESTIMATING METHODOLOGY

    The starting point for many revenue estimates is the tax return 
data supplied to the JCT staff by the Internal Revenue Service 
(``IRS''). These confidential data include statistically valid samples 
of individual and corporate tax returns. The JCT individual income tax 
model is based on a sample of approximately 150,000 individual tax 
returns chosen to reflect accurately all major features of the 
individual income tax. The data are statistically adjusted to match 
current baseline forecasts of all relevant economic and demographic 
variables for the current budget period. If a revenue estimate cannot 
be completed with tax return information, data are obtained from other 
sources such as the Department of Transportation, the Department of 
Commerce, the Department of Labor, the Department of Health and Human 
Services, the Department of Agriculture, the Department of Housing and 
Urban Development, the Social Security Administration, and the Federal 
Reserve Board.
    The JCT staff strives to incorporate in its work the most recent 
advances in computer technology as well as advances in econometric and 
statistical methods of analysis. The JCT staff conducts meetings at 
least once each year of its Advisory Board of expert economists to 
review general issues relating to the JCT's revenue estimating 
methodology. All of the JCT econometric and microsimulation models are 
reviewed and recalibrated on an annual basis. In addition, a major 
ongoing project of the JCT staff involves researching the feasibility 
of and developing the capability to incorporate macroeconomic feedback 
in its future analysis of major Federal tax proposals.
    The JCT staff will provide additional information regarding the 
data and methodology used to produce a revenue estimate upon request. 
Members who would like this information should contact the JCT Chief of 
Staff.

                        DISTRIBUTIONAL ANALYSES

    The JCT staff also prepares estimates of the distributional effects 
of some tax proposals on a year-by-year basis. These distributional 
analyses show the effects of tax provisions on the tax liabilities of 
taxpayers in different income classes.
    Distributional analyses generally are much more difficult to 
prepare than revenue estimates because (1) it is often possible to 
measure the magnitude of the changes in total taxes paid without 
knowing how these tax changes are allocated among income groups, (2) 
data on the income levels of the affected taxpayers are not always 
available, and (3) in some cases, no reliable method is available to 
allocate to individuals the taxes paid by businesses. The JCT staff 
will not provide distributional analyses for tax proposals in cases in 
which the effects of a proposal on different income groups cannot be 
measured with reasonable accuracy.

                      CONFIDENTIALITY OF REQUESTS

    Requests made by Members of Congress to the JCT staff for revenue 
estimates, distributional analyses, or for other assistance are treated 
as confidential. Generally, responses to such requests are released 
only to the Member making the request and the JCT response remains 
confidential unless the Member decides to make the information public. 
This confidential treatment of Member proposals extends to the process 
of developing tax legislation, which may involve substantial 
consultation between a Member (and his or her staff) and the JCT staff. 
Similarly, any information provided to the JCT staff to help in the 
formulation of a revenue estimate is treated as confidential and is not 
released outside the JCT staff.
    Any Member of Congress may request a revenue estimate of tax 
legislation which has been introduced or that otherwise has entered the 
public domain. When a revenue estimate has been included in a publicly 
available document (e.g., a revenue table summarizing a markup proposal 
or the results of a markup), the estimate is made available to anyone 
upon request.

                            JCT PUBLICATIONS

    The JCT website (www.house.gov/jct) contains a listing of all JCT 
publications issued since 1981. Copies may be obtained from the JCT 
documents room (1620 Longworth HOB), by calling (202) 225-2647, or by 
sending an e-mail request to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee4edfafefbece2e7edeffae7e1e0fdcee3efe7e2a0e6e1fbfdeba0e9e1f8a0">[email&#160;protected]</a> 
Publications issued in 1998 are available on the website for viewing or 
downloading. Publications issued in 1999 generally will be available on 
the website within one or two days of publication.

                              JCT OFFICES

    The JCT maintains offices on both the House and Senate sides of the 
Capitol. The main JCT offices are located at:
    1015 Longworth House Office Building
    Washington, D.C. 20515
    Phone: 202-225-3621
    Fax: 202-225-0832

    204 Dirksen Senate Office Building
    Washington, D.C. 20510
    Phone: 202-224-5561

                       FEDERAL TAX SYSTEM REPORT

    Senator Bennett. Thank you very much. Those are encouraging 
numbers indeed and they do demonstrate the high level of 
professionalism that you have established.
    When do you expect the report on the state of the Federal 
tax system and tax simplification recommendations to be 
published?
    Ms. Paull. January of 2001.
    Senator Bennett. January of 2001, okay.
    Ms. Paull. It would be our hope that we would put it out 
before the Appropriations Committees begin their work again 
next year, so that they can consider whether or not the study 
is worthwhile to be funded again for the next Congress.
    Senator Bennett. With your other hat on as chairman of the 
Finance Committee, I would think you would want this report so 
that you could make the appropriate legislative changes.
    Senator Roth. That is the reason for the original request. 
That is correct.
    Senator Bennett. As chairman of the Finance Committee, are 
you satisfied with the timing of the report from the Joint 
Committee?
    Senator Roth. Yes, there has been very excellent 
cooperation.
    Senator Bennett. Senator Stevens, do you have any 
questions?
    Senator Stevens. Will this report be repeated every year, 
these two reports?
    Ms. Paull. The two reports that we did will not be repeated 
again.
    Senator Stevens. I mean the tax system and the 
simplification recommendations.
    Ms. Paull. Well, what was contemplated by the IRS 
restructuring bill was to have it done once a Congress. So 
while it really will not get out before the end of this 
Congress, it would really be for this Congress. Then, subject 
to the Appropriations Committees' review, you can decide 
whether or not you wanted to fund it for another Congress.
    But our work would be once a Congress. The IRS has been 
asked to do it once a year, and their first study is due next 
month.
    Senator Roth. I think, as Lindy was pointing out, we will 
have an opportunity to examine all this prior to the next 
year's appropriation.
    Senator Stevens. We will not examine this one, yours. We 
will get it next January?
    Senator Roth. Yes.
    Ms. Paull. Right, as early as we can. It will be a 
comprehensive review of the entire tax code.
    Senator Stevens. We will have the IRS study before 
appropriations for 2001, but we will have yours in time for 
2002, is that right?
    Ms. Paull. That is correct.
    Senator Bennett. Yes, we intend to have 2001's 
appropriations wrapped up by Memorial Day.
    Senator Stevens. Assuming we have a budget, that might be 
true.
    Senator Bennett. Assuming we have a budget.
    I have no further questions, but we are very grateful to 
you for taking the time to come in and be part of the hearing 
process. I think it is important that we establish that 
relationship so that the committee stays informed and involved 
with what we are doing.
    Senator Roth. Thank you for your interest, and we 
appreciate the opportunity to appear.
    Ms. Paull. Thank you for your support.
    Senator Bennett. Thank you very much.


                       GOVERNMENT PRINTING OFFICE

STATEMENT OF MICHAEL DiMARIO, THE PUBLIC PRINTER
ACCOMPANIED BY:
        FRANCIS J. BUCKLEY, JR., SUPERINTENDENT OF DOCUMENTS
        WILLIAM M. GUY, BUDGET OFFICER
        CHARLES COOK, CONGRESSIONAL PRINTING MANAGEMENT OFFICER
    Senator Bennett. Our next witness is the Public Printer, 
Mr. Michael DiMario. Mr. DiMario, if you would introduce 
whoever you bring with you.
    Mr. DiMario. Good morning, Mr. Chairman. Mr. Chairman and 
members of the subcommittee: I am pleased to be here to present 
the appropriations requirement for the Government Printing 
Office for fiscal year 2001. With me are the Superintendent of 
Documents, Francis Buckley, and GPO's Budget Officer, William 
Guy. Also seated behind me is Mr. Charles Cook, who is our 
Congressional Printing Management Officer.
    In the interest of time, I will very briefly summarize my 
prepared statement, which I have submitted for the record.
    Senator Bennett. It shall be printed in the record.

                       Public Printer's statement

    Mr. DiMario. Thank you. For fiscal year 2001 we are 
requesting a total of $121.3 million. This includes $80.8 
million for the Congressional printing and binding 
appropriation and $34.5 million for the salaries and expenses 
appropriation of the Superintendent of Documents. It also 
includes $6 million for GPO's revolving fund for an 
extraordinary expense associated with the replacement of our 
air conditioning system.
    We are requesting a statutory ceiling on our FTE's of 
3,285. We have reduced employment levels substantially over the 
past decade. This FTE level, which is a reduction from our 
current ceiling of 3,313, will allow us to hire essential 
positions.
    As my statement notes, we are also requesting two 
legislative changes to Title 44 U.S.C. as part of our 
appropriations submission.

                           PREPARED STATEMENT

    Mr. Chairman, I realize time is short this morning and so 
this concludes my opening remarks. I would be pleased to answer 
any questions you have.
    [The statement follows:]

                Prepared Statement of Michael F. DiMario

    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here to present the appropriations request of the Government Printing 
Office (GPO) for fiscal year 2001.

                FISCAL YEAR 2001 APPROPRIATIONS REQUEST

    For fiscal year 2001, we are requesting a total of $121,251,000. 
The request includes $80,800,000 for the annual Congressional Printing 
and Binding Appropriation and $34,451,000 for the annual Salaries and 
Expenses Appropriation of the Superintendent of Documents. It also 
includes $6,000,000 for GPO's revolving fund, to remain available until 
expended, for extraordinary expenses associated with the replacement of 
our air-conditioning system.
    The Congressional Printing and Binding Appropriation is critical to 
the maintenance and operation of our in-plant capacity, which is 
structured to serve Congress' information product needs. This 
appropriation covers the costs of congressional printing such as the 
Congressional Record, bills, reports, hearings, documents, and other 
products. Each year, a substantial volume of this work is 
requisitioned. In fiscal year 1999, more than 800 million copy pages of 
congressional products were produced at an average cost of about 7.4 
cents per page, inclusive of all prepress work, printing, binding, and 
delivery. This appropriation also covers database preparation work on 
congressional publications disseminated online via GPO Access, our 
Internet information service.
    The majority of the Superintendent of Documents Salaries and 
Expenses Appropriation is for the Federal Depository Library Program 
(FDLP). While some of the funding for this program is for salaries and 
benefits, most is for printing and disseminating publications 
(including publications in CD-ROM and online formats) to depository 
libraries. This appropriation also covers other statutory distribution 
responsibilities, such as cataloging and indexing and international 
exchange distribution of U.S. Government publications, and provides the 
majority of funding for the operation of GPO Access. GPO's other major 
distribution functions, the sales program and agency distribution 
services, are funded by revenues earned and receive no appropriated 
funds.

            CONGRESSIONAL PRINTING AND BINDING APPROPRIATION

    The items covered by our request of $80,800,000 for the 
Congressional Printing and Binding Appropriation are as follows:

                        [In millions of dollars]

                                                               Estimated
        Category                                             Requirement

Congressional Record (including the online Record, the Index, and 
    the bound Record).............................................  17.8
Committee hearings................................................  16.9
Miscellaneous Printing and Binding (including letterheads, 
    envelopes, blank paper, and other products)...................  15.8
Bills, resolutions, amendments....................................  10.3
Miscellaneous Publications (including the Congressional Directory, 
    the U.S. Code, and serial sets)...............................   6.8
Committee Reports.................................................   4.1
Details to Congress...............................................   2.3
Document..........................................................   2.2
Committee Prints..................................................   1.8
Business and Committee Calendars..................................   1.8
Document Envelopes and Franks.....................................   1.0
                                                                  ______
      Total...................................................      80.8

    Part of the increase in our request over the current year is due to 
changes in product prices. Price increases are anticipated to increase 
our funding requirements by $2,283,000 over the current year base, due 
to the increased costs of employee compensation and benefits (based on 
existing wage contracts), utilities, maintenance, materials, and 
supplies.
    The majority of the increase in our request is due to projected 
workload, or volume, increases. An increase of $5,220,000 over the 
current year base is required due to anticipated workload increases, 
based on historical trend data. Most of this increase, or $2,880,000, 
is projected for miscellaneous publications due primarily to the 
reprinting of the U.S. Code, which is done every six years under the 
provisions of Title 1, U.S.C., section 202. In addition, there is an 
increase of $1,045,000 in miscellaneous printing and binding to provide 
for the restoration of projected workload to a level requisite to meet 
historical demands. Based on historical data, we also project increased 
workloads for bills, resolutions, and amendments, hearings, committee 
reports, documents, details to Congress, and committee prints. A 
partially offsetting workload reduction is projected for business and 
committee calendars. While these estimates are based on historical 
factors and represent our best estimates as to the projected workload 
for the first session of the 107th Congress, actual workload may vary.

                  SALARIES AND EXPENSES APPROPRIATION

    The programs covered by our request of $34,451,000 for the Salaries 
and Expenses Appropriation of the Superintendent of Documents are as 
follows:

                        [In millions of dollars]

                                                               Estimated
        Program                                             Requirements

Federal Depository Library Program................................  29.8
Cataloging and Indexing Program...................................   3.3
International Exchange Program....................................    .9
By-Law Distribution Program.......................................    .5
                                                                  ______
      Total...................................................      34.5

    Mandatory pay increases and price level changes represent $926,000 
of the total requested increase. Mandatory pay increases account for 
$403,000 of this amount. We are requesting $523,000 to cover price 
level changes calculated at the assumed rate of inflation for the year, 
or 2.1 percent.
    A total of $3,409,000 over the current year base is requested for 
workload changes, primarily for expenditures associated with the FDLP. 
Of this amount, $1,624,000 is requested under miscellaneous services to 
fund expenses primarily associated with GPO Access operating and 
hardware costs, resulting from the continuing addition of new products 
and capacity to GPO Access as well as ensuring permanent public access 
to the FDLP electronic collection. A total of $1,029,000 is requested 
under depository and international exchange printing to fund increases 
in depository printing expenses, as the result of the reprinting and 
distribution of the U.S. Code. An increase of $582,000 is requested 
under personnel compensation and benefits to fund 5 additional 
depository library program positions (3 for GPO Access support, 
development, and new product outreach; 1 for library inspections; and 1 
for FDLP electronic collection development), and 4 additional 
catalogers in the cataloging and indexing program. The balance of the 
requested workload increase, or $214,000 less anticipated offsetting 
reductions of $40,000 in travel and transportation costs, is for 
materials and supplies, primarily to support the continuing expansion 
of GPO Access.
    We are also requesting an increase of $244,000 in depreciation due 
to an increase in asset acquisitions, again primarily in support of GPO 
Access.
    Transition to More Electronic Dissemination.--The transition to a 
more electronic FDLP is continuing, as projected in the Study to 
Identify Measures Necessary for a Successful Transition to a More 
Electronic Federal Depository Library Program (June 1996), as required 
by Congress in the Legislative Appropriations Act for Fiscal Year 1996. 
In fiscal year 1999, 46 percent of the new titles made available were 
disseminated electronically. So far in fiscal year 2000, 67 percent of 
the new titles available to the public through the FDLP have been 
online. Because of electronic information dissemination, the FDLP now 
delivers more products than ever before. In fiscal year 1999, 70,340 
new titles were disseminated through the FDLP. That was the second 
highest amount ever, and there is no end in sight to the potential 
program growth of electronic titles.
    Status Report on GPO Access.--We recently submitted the second 
Biennial Report to Congress on the Status of GPO Access, as required by 
section 4103 of Title 44, U.S.C. As the report notes, GPO Access now 
serves as one of the leading online sources of free, official 
Government information for the public. Its resources, covering all 
three branches of the Federal Government, provide public access to more 
than 104,000 titles on GPO servers and an additional 62,000 titles on 
Federal agency web sites. The public currently uses GPO Access to 
retrieve approximately 21 million Federal documents each month, and 
user feedback is highly positive. Moreover, the cost to operate this 
system has been significantly less than was originally projected. 
Overall, GPO Access has been a highly successful undertaking, and 
promises to continue serving as one of the public's primary sources for 
electronic access to Government information.

                             REVOLVING FUND

    Fiscal Year 1999 Performance.--After two consecutive years of year-
end net income, GPO completed fiscal year 1999 with an under-recovery 
of $5 million on $765 million in total revenues, a margin of 
approximately six-tenths of one percent. The under-recovery was 
financed by retained earnings and did not place GPO in an anti-
deficiency position or require additional appropriations.
    The primary cause of the under-recovery was in our sales program, 
which is funded entirely by revenues earned on sales of publications. 
The free availability of publications on GPO Access and other 
Government web sites has contributed to reduced sales of printed 
products, although other factors, including reduced agency publishing 
and competition from other sales organizations, both public and 
private, are also contributory factors. We also experienced an under-
recovery in our printing procurement program. We have made price 
adjustments in both programs to increase cost recovery in the future, 
and we are reviewing additional options to restore the sales program to 
a sound financial basis. During the year, an audit of GPO's financial 
reports and systems for fiscal year 1998 was conducted by KPMG Peat 
Marwick, Inc., under contract with the General Accounting Office. The 
audit resulted in a clean opinion for GPO.
    Air Conditioning System.--Our appropriations submission includes a 
request for $6,000,000 for the revolving fund, to be available until 
expended, to cover the cost of necessary improvements to GPO's air 
conditioning system, which is in critical need of replacement. Without 
a direct appropriation, financing this extraordinary capital expense 
through the revolving fund will require us to reimburse the fund 
through rate adjustments. As this expense is not directly related to 
the provision of printing and information product services, its impact 
on our rate structure will be detrimental to our ability to carry out 
our mission to provide cost-effective and economical products and 
services. The installation of our air conditioning system in the early 
1970's was funded by direct appropriations to the revolving fund, and 
we request that this extraordinary cost be funded similarly. I note 
that the Senate included funding for this system last year and hope you 
do again for fiscal year 2001.
    FTE Level.--We are requesting a statutory ceiling on employment of 
full-time equivalents (FTE's) of 3,285. This FTE level will allow us to 
hire for essential positions. GPO is now at its lowest employment point 
in the past century, principally due to our use of technology.
    For the record, Mr. Chairman, I would like to state that with GPO's 
utilization of technology improvements, we have made major 
contributions to the reduction in total legislative branch employment 
since fiscal year 1990. The Statistical Abstract of the United States 
1999 reports that total legislative branch employment between fiscal 
year 1990 and fiscal year 1998 fell from 37,495 to 30,474, a decline of 
7,021, or about 19 percent (table no. 566, p. 363). In the same period, 
total GPO employment declined from 5,049 to 3,435, a reduction of 
1,614, or 32 percent. The reduction in GPO employment represented 23 
percent of the total reduction in legislative branch employment during 
the fiscal year 1990-98 period, yet as of September 30, 1998, total GPO 
employment of 3,435 represented slightly more than 11 percent of 
overall legislative branch employment.
    Y2K Preparedness.--I am pleased to report that, under the 
leadership of Chairman Bennett, we managed the transition to the Year 
2000 successfully, with no disruptions to the essential systems 
supporting Congress' information products. We worked with the Senate 
and the House of Representatives, as well as the GAO oversight team, to 
prepare for the transition, and staffed these systems on New Years Eve 
to monitor the transition.
    GPO had 40 systems designated as mission-critical. Following New 
Years, we experienced minor roll-over anomalies in 3 of these systems, 
2 of which support the Superintendent of Documents sales of 
publications program and one which supports the Federal Depository 
Library Program. However, each of these was repaired in a matter of 
hours with no adverse effect on GPO's customers or operations. An 
additional system, the Superintendent of Documents refund check 
processing system, which was not designated as mission-critical, 
experienced roll-over anomalies as a result of contractor failure to 
deliver a Y2K-compliant version before New Years. It subsequently 
underwent Y2K remediation in-house and is operational. These issues 
were reported to the GAO.

                           ADDITIONAL ISSUES

    Legislative Changes.--We are requesting two legislative changes to 
Title 44, U.S.C., as part of our appropriations submission.
    We are requesting a change to section 303 of Title 44, regarding 
the pay of the Public Printer and the Deputy Public Printer, to 
maintain pay parity with other comparable legislative branch officials 
as well as appropriate comparability with senior congressional staff. 
We have provided information on this matter to our legislative 
oversight committees, although I note that changes in the pay levels 
for the Public Printer and Deputy Public Printer typically have been 
provided through the appropriations process, as they last were in the 
early 1990's.
    We are also requesting a change in section 1708 of Title 44, 
regarding the pricing of sales publications, to provide us with greater 
flexibility in pricing documents for sale, including the setting of 
sales discounts at rates comparable to the private sector in order to 
attract greater commercial interest in the resale of Government 
publications. We are in the process of providing information on this 
change to our legislative oversight committees and will provide the 
same information to this Subcommittee.
    Strategic Plan.--At the request of the Chairman of the Joint 
Committee on Printing, we have prepared a strategic plan for GPO. It 
has been transmitted to the Joint Committee as well as to Members of 
this Subcommittee and the House Subcommittee on Legislative 
Appropriations, and to GPO's legislative oversight committees, the 
Senate Committee on Rules and Administration and the House Committee on 
House Administration.
    The strategic plan charts our course for providing information 
reproduction and dissemination services to the Government and the 
public over the next five years, from fiscal year 2001 to fiscal year 
2005. Although GPO is not covered by the Government Performance and 
Results Act, our plan has been designed, to the maximum extent 
possible, consistent with the requirements for strategic plans 
contained in that Act and in Office of Management and Budget Circular 
No. A-11, section 210, Preparation and Submission of Strategic Plans. 
We consulted with staff of the Joint Committee on Printing in the 
development of the plan.
    From our perspective, GPO currently plays--and will continue to 
fulfill--the Government's leading role in the provision of information 
products and services. The 1998 management audit by Booz-Allen & 
Hamilton, Inc., found strong support in Congress for GPO's in-house 
production operations for congressional printing, ``universal support'' 
among executive branch agencies for GPO's printing procurement program, 
and strong support for the FDLP. In addition, the audit recommended 
that GPO make an increasing amount of government information available 
electronically, free of charge, over the Internet.
    Our strategic plan is based on our assessment of the future of the 
Federal information product environment, an environment once dominated 
by traditional printing and information reproduction processes but now 
changing rapidly and forever from the impact of e-information 
technologies, especially the Internet. GPO is already a major player in 
this environment with GPO Access and related e-information 
capabilities. We will continue to fulfill a leadership role in the 
Government in the provision of innovative, efficient, and effective e-
information products and services.
    At the same time, GPO will continue to meet the ongoing needs of 
the Government and the public for information products and services in 
traditional formats. Over the next six years, the Government will 
produce more than $1 billion annually in printing and reproduction 
services. Printing continues to serve as an effective safeguard for 
ensuring that those without access to computers can still use 
Government information, and for guaranteeing both the authenticity of 
official Government information as well as permanence. While we 
envision a gradual decline in GPO's size as the mix of electronic and 
traditional work we produce changes over time, maintaining a well-
equipped and expertly staffed printing and dissemination capability for 
the foreseeable future will give us an important tool to manage this 
transition.
    Audit Recommendations Status Report.--Consistent with the 
requirement contained in House Report 105-734, accompanying H.R. 4112, 
the Legislative Branch Appropriations Act for Fiscal Year 1999, we have 
submitted the second annual report on the status of actions to 
implement the recommendations contained in the management audit of GPO, 
conducted in 1998 by Booz-Allen & Hamilton, Inc.
    As with last year's status report, the latest report shows that GPO 
either plans to act, is currently acting, or has acted affirmatively on 
more than 75 percent of the recommendations contained in the Booz-Allen 
& Hamilton final audit report. These include recommendations on 
planning, program modernization, ensuring financial stability, 
promoting intra-agency communications, and improving information 
technology capabilities as well as ensuring preparedness for the Year 
2000. We will continue to utilize the Booz-Allen & Hamilton 
recommendations to make management improvements to GPO operations.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be pleased to answer any questions you may 
have.

           [From the Congressional Record, February 16, 2000]

           Government Printing Office: Still Better Than Ever

    Mr. HOYER. Mr. Speaker, I am delighted to bring to the House's 
attention an article about the Government Printing Office from the 
December 1999 issue of In-Plant Graphics.
    This prestigious printing-industry journal has, for a second 
consecutive year, ranked the Government Printing Office first among the 
``Top 50'' printing plants surveyed, thus labeling GPO as the best in-
plant operation in America. The December 1998 issue of In-Plant 
Graphics, while bestowing the same honor for the first time, described 
the GPO as ``better than ever.'' These accolades, from a respected 
trade publication, together speak volumes about the diligence and 
dedication of the versatile GPO workforce.
    As the 1999 article, entitled ``The Digitizing of GPO,'' reveals, 
in recent years technology has changed dramatically the way many 
Americans acquire government information, and the GPO has been in the 
vanguard. GPO still prints the Congressional Record and the Federal 
Register each night for its many customers who must have traditional 
paper copies, including the Congress itself, and produces other printed 
products around the clock. However, GPO also distributes these and 
other products in electronic format, quickly, economically and widely.
    As a case in point, late one Friday afternoon last November, the 
federal district court in Washington delivered to GPO for publication 
its findings of fact in the Microsoft antitrust case, a proceeding of 
immense economic significance and national interest. Within one hour of 
GPO's subsequent release of the document at 6:30 PM, interested persons 
had accessed it 152,000 times through a special GPO website established 
for that purpose. Simultaneously, walk-in customers could purchase 
printed copies of the document in GPO's main bookstore.
    While preserving its capability to produce ink-on-paper, GPO 
recognizes that demand for electronic products will increase 
exponentially in the years ahead. The public already downloads over 21 
million documents each month through GPO Access [http://
www.access.gpo.gov], GPO's electronic gateway to more than 160,000 
federal titles. The GPO is committed to working with its customers and 
others to facilitate that change. GPO is itself reaping the benefits of 
technology and passing the savings along to the American people. The 
agency accomplishes all these feats with 30 percent fewer production 
employees than it had just six years ago.
    Mr. Speaker, please join me in saluting the dedicated men and women 
of the digitized Government Printing Office, still better than ever. 
The article follows:

                [From the In-Plant Graphics, Dec. 1999]


                         THE DIGITIZING OF GPO

                           (By Bob Neubauer)

    When the Federal District Court for the District of Columbia 
prepared to release Judge Thomas P. Jackson's ``Findings of Fact'' in 
the Microsoft case in November, the court contacted the U.S. Government 
Printing Office. GPO was asked to make advance preparations for the 
rapid dissemination of the document. GPO, as always, was ready for the 
challenge.
    Judge Jackson's decision was announced at 4:30, and the court sent 
a printed copy and a disk version of the 207-page document to GPO, 
where print production began immediately. Covers had been produced in 
advance. By 6:30, when GPO's main bookstore reopened, copies were 
available. By 8:30, 147 had been sold.
    Meanwhile, GPO made the findings available on its Web site in 
WordPerfect, PDF and HTML formats. It established a URL for this 
information (usvms.gpo.gov). In the first hour of release, the site 
experienced 152,000 successful connections.
    For GPO, the largest in-plant in the country, such monumental 
projects have become second nature.
    Now in its 139th year of existence, GPO drastically changed itself 
over the past few years from a strictly ink-on-paper provider to a 
high-tech digital data delivery organization. The public downloads some 
20 million documents a month from GPO Access, GPO's Web site 
(www.access.gpo.gov).
    ``We're putting more and more electronic products up, which seems 
to be what the public wants,'' notes Public Printer Michael DiMario. He 
recently signed a request for more Internet bandwidth in the form of a 
T3 line to accommodate the anticipated demand.
    The successful online dissemination of the Microsoft findings was 
welcome news for those who remember the initial posting of the Starr 
Report last year, when GPO Access was jammed with traffic, which 
clogged the system.
    ``We took certain steps to upgrade the number of T1 lines that we 
have and install additional servers,'' notes Andrew M. Sherman, 
director of congressional, legislative and public affairs. A BigIP load 
balancer, served by five T1 lines, kept heavy volume from freezing some 
visitors out.
    Over the past few years, Sherman notes, online delivery has helped 
to decrease print volume--as well as outside procurement. (Also 
contributing were shrinking government budgets and fewer requested 
copies.) Concurrently, the skills of GPO's work force have migrated 
toward the electronic end.
    But print is still strong. GPO's two new Krause America LX170 
computer-to-plate systems are now up to speed, Sherman says, and 
they're being used to run plates for all major publications, including 
the Congressional Record and the Federal Register. The new passport 
bindery line is operational, as well. And with 7.5 million passports 
passing through GPO last year, the line has its work cut out for it.
    In the next decade, DiMario says, GPO will strengthen its efforts 
to share its expertise with other government agencies. Already it has 
expanded its Federal Printing and Electronic Publishing Institute, 
which offers courses to help agencies deal with technological changes.
    GPO also hopes to provide digital access to even more government 
documents in the future, he says. As for GPO's size, DiMario doesn't 
see it changing much. GPO has already downsized dramatically in the 
1990s. In 1994 it employed 1,701 production personnel; today there are 
1,173.
    ``We're probably scaled back as much as we can be . . . without 
some potential problems,'' observes DiMario. ``We've got a very 
professional work force. The results speak for themselves.''


                            Y2K PREPAREDNESS


    Senator Bennett. Thank you very much.
    Let me just for the record make a comment. The last time 
you were here it was not your happiest moment before this 
subcommittee as there was a controversy about the level of your 
preparedness with respect to Y2K, differences in your 
estimation and those of GAO. I should for the sake of the 
record state that Mr. DiMario came to my office along with the 
experts from GAO and we had a very constructive and useful 
session where those issues were discussed and the differences 
between the two agencies were ironed out.
    We are delighted, of course, with the fact that there were 
no Y2K problems, the Congressional Record printed appropriately 
and on time, and that the projections that you made, Mr. 
DiMario, about your level of preparedness came true. I think, 
given some of the questions that were raised last year, it is 
only appropriate that that be formally acknowledged in the 
record this year and that you be given appropriate 
congratulations for the work you did.
    I know that was a very serious approach on your part. You 
took the issue seriously and dealt with it in a professional 
way, and we need to acknowledge that.
    Mr. DiMario. Thank you, Mr. Chairman. We appreciate that 
very much.

                            BUDGET INCREASE

    Senator Bennett. You are asking for a 17.5 percent increase 
over last year. Can you highlight for us why the increase or 
the particular areas that lead to that kind of an increase, 
because it is greater than the cost of living increase or other 
kinds of normal step-ups that we would have. I think the record 
should show those areas specifically where that increase is 
coming.
    Mr. DiMario. Yes, sir. In congressional printing and 
binding (CP&B) we are asking for a $7.5 million increase. 
$2.283 million of that request is for COLA's, and let me 
clarify. That is $2,283,000. $5,220,000 is for workload 
increases. We are basing that workload increase on the fact 
that this is a Presidential election year and we historically 
looked to similar kinds of years when we do workload 
projections. So we are adjusting our workload based on that 
historic data.
    We also have----
    Senator Bennett. Excuse me. What is the impact of 
Presidential elections? More speeches?
    Mr. DiMario. Well, as an example, we will have the 
Inauguration itself. We have to do the printing and binding for 
the Inauguration. That is some $280,000 in cost, or it was last 
election. We anticipate that it will probably be a little bit 
more this coming election. But that is for the printing and 
binding associated with the inaugural itself, so it is those 
kinds of costs.
    I cannot say that there are more speeches, but a beginning 
Congress with a new President, there seems to be historically 
greater workload.
    Senator Bennett. I see.
    Mr. DiMario. In addition to that, we have a requirement 
that is statutory that gets placed against the CP&B to produce 
the United States Code. That is done every 6 years where the 
entire code is replaced. We have included $2.9 million for that 
in the CP&B appropriation request.
    We have also included an amount of $6 million for air 
conditioning replacement which I mentioned in my opening 
remarks. As you will recall, we included that last year and 
this committee approved an amount of I believe $5 million at 
that time. In conference, the House did not recommend it and 
the item was deleted. We still have that requirement, we need 
the money, and so we are again asking that and hope that in 
your wisdom you feel that funding it is appropriate.
    When we put the air conditioning in initially it was done 
as an extraordinary line item and not placed against the rates 
that we charge to our customers, which is the only other way we 
would fund this item.
    In addition, we have some increased funding for our Office 
of Superintendent of Documents and those amounts are a result 
of an increase in electronic access, distribution of the United 
States Code to depository and international exchange libraries, 
and the need for some increased staffing. It also reflects just 
general pay increases, as does the CP&B budget. We have 
contractual arrangements. We negotiate wages with our employee 
unions and pursuant to those contracts that we have in place 
the employees are entitled to mandatory pay increases. So those 
pay increases are reflected both in the Superintendent of 
Documents Office and in the CP&B.
    In the Superintendent of Documents Office there is a 
request for an additional nine employees that we intend to add, 
some to do inspection work that is required by statute, some to 
do cataloging work for the increased workload that we have 
gotten as a result of our electronic access system. We have 
some 20 million publications that are retrieved from our system 
on a monthly basis. We keep adding titles to it by reaching out 
to other Government agencies and identifying electronic 
products that we can put into the system. But we desperately 
need to be able to catalog those resources that we are adding 
to the system, and so we are adding catalogers. So we have a 
budget increase of $582,000 for nine FTE's.
    I think that in general covers the budget.

                                 Police

    Senator Bennett. I understand you have a police force of 
roughly 50 officers. Would it make any sense to have the 
Capitol Police serve your current needs?
    Mr. DiMario. I certainly would look into it as a way of 
having a more efficient structure. We have a demand on us from 
our current police force to pay wages that are comparable to 
the Capitol Police and to the Library of Congress. The Library 
of Congress had their pay adjusted to a level comparable to the 
Capitol Police by a statute that was introduced a number of 
years ago.
    Senator Bennett. Right.
    Mr. DiMario. Ever since, our police have felt that they are 
part of the legislative branch and they are not treated in the 
same way. However, our function is substantially different. We 
do not have a patrol function for the streets as a general 
rule. We do patrol our parking lots. Other than that, they are 
primarily fixed posts at the building itself. We do not have 
any need to have extraordinary travel elsewhere.
    But I think certainly it would add to the manpower 
structure, the Capitol Police, if they had these additional 
resources. I believe it is worthy of discussion and I would 
certainly look forward to talking to the Capitol Police if you 
believe that would be appropriate.
    Senator Bennett. I think we ought to at least have the 
discussion. It may be when the discussion is over they say 
leave everything as it is.
    But how many incidents do you have that the police deal 
with, and what kind of incidents?
    Mr. DiMario. In number, I cannot give you off the top of my 
head a specific number, but the number is very, very small. 
Some occurrences involve our own employees. Issues might 
pertain to some action where the police stop someone, say, in 
entering the building and the employee might object to that and 
you might have a scuffle of one sort or another. We have had 
those kind of incidents.
    We have had some street crime where, on the sidewalks in 
front of the building or nearby, there have been some instances 
where the police have acted. They do from time to time act when 
there is an accident in front of the building.
    Their jurisdiction by statute is limited to the Government 
Printing Office and the adjacent areas. We have a difficult 
time defining what ``adjacent areas'' means. In concert with 
the Metropolitan Police and the corporation counsel's office, a 
number of years ago we at their request defined that, or they 
defined it, to say that we had no jurisdiction in the streets 
at all, that our jurisdiction ended at the sidewalks.
    That puts the officer in a bit of jeopardy if they react to 
a crime occurring across the street. It puts the agency in 
jeopardy, and that is difficult. We do have a delegation from 
the Metropolitan Police Department to issue Metropolitan 
parking tickets on our parking lot premises.
    By way of jurisdiction, I would submit that the Capitol 
Police also have a concurrent jurisdiction in this expanded 
area that they showed on their chart.
    Senator Bennett. Right. Are you within the expanded area?
    Mr. DiMario. Yes, sir. They come down to H Street and that 
is the defining block for the GPO.

                         FACILITY CONSOLIDATION

    Senator Bennett. Tell us about your efforts to consolidate 
the operations in the entire metropolitan area. Specifically, 
is there excess space at the North Capitol Street location?
    Mr. DiMario. We have been consolidating space as we have 
caused the agency to reduce in size over the years. So if you 
go back to when I first came to GPO in 1971, we had many more 
field activities in the Washington area. We closed Eisenhower I 
and II and Fairington, three warehouses in northern Virginia. 
We closed a facility at the Navy Yard and at Union Center 
Plaza. We have closed a whole range of facilities and 
consolidated in the central office. We still have facilities in 
Laurel, Maryland. We gave up 25,000 square feet of space this 
last year. I think we mentioned that in the hearing last year.
    As the sales of Government publications program has reduced 
in demand--the number of publications, because we are putting 
up electronic products and for other reasons, it is reducing 
substantially--additional space in northern Virginia has become 
excess.
    We are now in the process of looking to move a paper 
warehouse facility that we have in northern Virginia at 
Springbelt to the Laurel facility and to better utilize the 
space out there. Our hope is to reduce the warehouse facility 
space by an additional 180,000 square feet. It happens that the 
lease is up in northern Virginia and we are now in that 
process, so hopefully that will occur.
    In the central office, we have not done a recent 
examination of our space. I have just last week initiated such 
an action and have asked our staff to examine the space 
holdings that we have. We are primarily a factory, so we have 
just a small amount of office space that is configured as 
office space. From past experience, it is quite expensive to 
turn industrial space that was built for a factory into office 
space.
    We will look to see what surplus space we have available 
and we will consider leasing that space to other Government 
agencies. In the past we did have a small amount of space that 
we leased to FAA and also to the Census Monitoring Board. But 
at present we have no one in there.

                         REVOLVING FUND LOSSES

    Senator Bennett. Finally, can you talk about the losses in 
the revolving fund?
    Mr. DiMario. Yes, sir. The losses have been primarily in 
two areas. In the printing procurement program, the workload 
has declined substantially and so we had a loss of some $5 
million. In the sale of publications area, we had a loss of 
some $9 million. We had some other areas in which we had an 
overrecovery of costs, so our net loss was $5 million.
    The sale of publications program is one that we are giving 
considerable attention to. I directed that we immediately 
increase our pricing structure by 15 percent. That is being 
undertaken. With some of our subscription sales, that becomes 
problematic to do instantly because you bring those on when the 
subscription renewals are due. So we are undertaking that. 
Other publications are being priced as they become available 
with a 15 percent increase.
    We are also looking at, as I mentioned, warehouse 
consolidation. That will cut our costs dramatically and 
hopefully offset some of those losses that we had. We are also 
looking to cut our personnel costs in that area. Even though I 
mentioned an increase in personnel before in the Superintendent 
of Documents Office, those nine personnel are not in the Sale 
of Publications Program. They are in the salaries and expenses 
appropriation.
    So hopefully we will be able to consolidate and downsize 
and contain that loss that we have had. To a degree, the losses 
are a mark of our success. The more publications we have put up 
on line, the fewer we have for sale or that we are able to sell 
in paper. That expressly happened with the CFR's. CFR's were 
among our best sellers, and the Federal Register. As we put 
more and more CFR's up as electronic products, the demand for 
the paper products just fell apart. In fact, I would say the 
subscription sale loss from the Congressional Record and the 
Federal Register and the CFR's is the bulk of the loss in the 
sales program. So we are doing what we can there.
    In the printing procurement program, I am offsetting the 
losses there, where we have had a decline in volume. We have 
consolidated as much as possible, we have reduced staffing. I 
also imposed a price increase. The price that we charged 
Government agencies was 6 percent of the procured cost of the 
product. Products were coming in at very, very good prices for 
a number of years because paper prices had been very, very 
depressed and paper is a very large part of the cost of a 
procured printing job.
    So I have directed that we move that surcharge from 6 
percent to 7 percent. Again, I did that to coincide with the 
fiscal year change, so that implementation was to begin with 
October 1. So we are in that phase right now. We think that 
measure, given the volume that we have and other things that 
are being done, should cause the program to be operating in the 
black, or at least at the break-even point, by the end of the 
year.
    I would point out that, given all of this, if you look at 
our total budget that we handle, that flows through GPO, the 
loss of $5 million or the underrecovery of $5 million is about 
0.6 of 1 percent of the total. So while it is something that we 
do not want to happen, we are a breakeven and a not-for-profit 
operation. So we are fairly close to what we are supposed to be 
doing.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Bennett. And the increase from 6 percent to 7 
percent could wipe that out?
    Mr. DiMario. Yes, sir, I think that will do that. All our 
calculations that we have gone through, we think that increase 
will make us solvent.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

    Question. With reference to the tables for ``Congressional Billings 
for Committees,'' on pages 11-16 and 11-17 of GPO's Fiscal Year 2001 
Budget Justification, it stands out that the House Appropriations 
Committee's billings is far in excess of any other committee of either 
the House or Senate. For example, the total billing for the House 
Appropriations Committee was $4,081,671; but the Senate Appropriations 
Committee, by contrast, was only $465,726. The major expense was for 
printing of ``hearings,'' which totals $3,649,578 for the House 
Appropriations Committee, but only $87,379 for the Senate 
Appropriations Committee. I would like to say, however, that we in the 
Senate do not want, in any way, to criticize the manner in which the 
House Committee on Appropriations handles its printing of hearings, nor 
any other committee for that matter, but it appears that no other 
committee in either the House or Senate comes anywhere near this 
amount.
    Can you tell us why there is such a significant difference in 
printing expenses between the House and Senate Appropriations 
Committees--what may have caused this huge difference? And, have you 
made any effort to improve efficiency in this area, or is this just one 
of those unavoidable situations where little can be done to achieve 
savings?
    Answer. The difference in billing amounts between the House and 
Senate Appropriations Committees is, in large part, due to two factors: 
a substantial variance in the numbers of volumes and pages of hearings 
and other publications submitted by each Committee, and significant 
disparities in the formats in which each Committee submits material to 
GPO.
    First, the number of appropriations hearings printed during the 
past two fiscal years averaged 71 volumes per year for the House 
compared to only 21 volumes per year for the Senate. Further, in fiscal 
year 1999, House appropriations hearings averaged 1,172 pages each 
compared to only 674 pages for the Senate.
    Second, the Senate makes greater use of GPO's Microcomp typesetting 
system, scans submitted material or obtains electronic files, and 
submits all material electronically to GPO. The House, due to the 
larger volume of hearings produced as well as tighter publishing 
schedules, submits a large volume of materials in formats that require 
keyboarding and proofreading at GPO. Reporters' hearing transcripts are 
marked up by witnesses and submitted to GPO with the electronic file to 
be updated and proofread. The House Appropriations Committee also 
submits a large amount of camera copy, from which GPO produces 
negatives for use in the printing process. While camera copy is a more 
cost effective and efficient format than manuscript, its shortcomings 
include the lack of a searchable electronic database.
    It should be noted that part of the cost difference is mitigated by 
the fact that the Senate Appropriations Committee has three to four 
detailed GPO printers who prepare much of the material and create 
electronic files. The cost of these details ($291,000 in fiscal year 
1999) was charged to the Congressional Printing and Binding 
Appropriation, not to individual hearings.
    GPO plans include capturing the House Appropriations Committee 
camera copy in electronic format (encapsulated PostScript) during the 
proofing cycle so that pages can be output with the graphics included 
in place. When accomplished, these pages can then be handled via our 
computer-to-plate system rather than being conventionally composed. 
This will also facilitate an improved online product that includes 
graphics in place. Future improvements will likely involve increased 
capture of validated keystrokes electronically at the time of document 
creation, minimizing the need for scanning or rekeying and 
proofreading, as well as expanded computer-to-plate capacity at GPO.
    Question. In recent years, the use of technology has expanded 
throughout the federal government, resulting in dramatic changes in the 
way federal agencies operate. Can you tell the committee the extent of 
impact (both good and bad) on GPO as a result of these recent 
technological advances?
    Answer. The impact of technology on GPO has been overwhelmingly 
positive from the standpoint of improved services and reduced overall 
costs to the public to access government information. At the same time, 
the implementation of new technology continues to present serious 
management challenges. There has been a cost shifting, as the cost of 
traditional hard copy publications has declined, but the costs of 
providing electronic services has increased. This has required re-
alignment of the workforce, training, new equipment and software. GPO's 
request for the Salaries and Expenses Appropriation for fiscal year 
2001 includes an increase of $1.6 million to adequately fund GPO 
Access, an award-winning online service. GPO Access was established by 
law, and began operation in 1994. GPO Access links the public with 
about 170,000 titles. Overall, the public has retrieved more than 520 
million documents since 1994. Monthly document retrievals average more 
than 21 million, or about 924 gigabytes of information. Increased 
funding is required for additional products and capacity and to assure 
permanent access to the Federal Depository Library Electronic 
Collection.
    The reduced volume of paper publications throughout Government and 
the reduced demand for paper formats of government publications by the 
public, has created financial strains on GPO's General Sales Program. 
For example, GPO placed one of GPO's best sellers, the Federal 
Register, online in 1994. Since then, subscriptions have declined from 
19,300 to about 6,700 today. The decline in sales volume has a negative 
impact on GPO's revolving fund revenue, making it difficult to fully 
recover costs. GPO is responding with a number of management actions to 
reduce costs and improve marketing of Government publications.
    Question. You are requesting a legislative change to Section 303 of 
Title 44 regarding the pay of the Public Printer and Deputy Public 
Printer. Would such a salary increase for the Public Printer and Deputy 
Public Printer trickle down to your top-level administrators who might 
be capped at their senior-manager level?
    Answer. As a result of the legislative change being requested, 
there would be no automatic impact on the salary cap of senior-manager 
level employees at the Government Printing Office. Any increase to the 
salary cap, which is presently the same as Executive Level IV, would 
require a determination by the Public Printer.

                          SUBCOMMITTEE RECESS

    Senator Bennett. I have nothing further. Thank you very 
much for coming in. We appreciate your hard work and your 
attention to these kinds of details.
    Mr. DiMario. Thank you, Mr. Chairman.
    Senator Bennett. With that, the hearing is recessed.
    [Whereupon, at 11:34 a.m., Tuesday, February 22, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2001

                              ----------                              


                       TUESDAY, FEBRUARY 29, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett, Stevens, Craig, Feinstein, 
Durbin.
    Also present: Senator Mikulski.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN M. HANTMAN, AIA, ARCHITECT OF THE 
            CAPITOL

             OPENING STATEMENT OF Senator ROBERT F. BENNETT

    Senator Bennett. The committee will come to order. Senator 
Feinstein has been delayed with other pressures, and we all 
understand how that happens to us, but we look forward to her 
joining us when she can so I will insert her statement in the 
record at this point.
    [The statement follows:]

             Prepared Statement of Senator Dianne Feinstein

    I look forward to receiving the testimony of the three 
distinguished panelists appearing before the Legislative Branch 
Appropriations Subcommittee today. I have several written 
questions for our panelists which, with the consent of Chairman 
Bennett, will be entered as part of the hearing record, along 
with their responses.
    With respect to the Architect of the Capitol, I would just 
like to say how delighted I am that the work on the Senate 
Employees Child Care Center has finally been completed. 
Although there were a number of problems that seemed to plague 
the project during the construction phase, it has been through 
the dedication and persistence of so many of the people 
involved that we now have a wonderful facility where our 
employees' little ones can learn and play in a safe 
environment. It has been something in which I have taken a keen 
interest, and I want to thank the Architect of the Capitol, Mr. 
Hantman, as well as the Center's Board of Directors and staff, 
for their perseverance in working with the contractor to meet 
those challenges and to finally get the doors open for the new 
facility.
    Additionally, I want to say to the Architect that I 
certainly appreciate and understand the magnitude of his 
responsibilities. It seems almost incomprehensible to undertake 
a project as large as the Visitors Center, while at the same 
time, making essential repairs and renovations to the Capitol, 
as well as other congressional office buildings. Adding to the 
complexity of these tasks is the ever-present challenge to 
maintain the historic beauty and dignity of the magnificent 
buildings within our Capitol Complex.
    I welcome Senator Mikulski to our Legislative Branch 
hearing this morning. I understand she may have a few concerns 
she would like to raise with the Architect, and I welcome her 
participation.

    Senator Bennett. Now, this is the third of four hearings 
that the subcommittee will hold on the fiscal 2001 budget 
request. Our last hearing, which had been scheduled for 
Tuesday, March 7, will be rescheduled to Tuesday, March 21. 
Senator Feinstein reminded me that Tuesday, March 7 is primary 
day in California, and she will have other responsibilities on 
that day. So, we will allow her to vote in California without 
any sense of conflict back here, and hold the hearing the 21st 
of March.
    Now, today we hear from the Architect of the Capitol, the 
General Accounting Office and the Office of Compliance, in that 
order. So, our first witness will be Alan Hantman, the 
Architect of the Capitol, joined by Michael Turnbull, the 
Assistant Architect, and Stuart Pregnall, the Budget Officer.
    And we have been told that Senator Mikulski, who is a 
member of the full committee, ranking member of the VA-HUD 
Subcommittee, will be joining us. Senator Mikulski, who is also 
a member of the Senate Rules Committee, which is the 
authorizing committee for the Architect of the Capitol--and she 
has shown an interest in the Architect's testimony--may or may 
not have some questions.
    Now, I would like to commend Mr. Hantman and Mr. Turnbull, 
before we hear their formal statements, on their efforts in the 
financial management area. That is an area where there has been 
some controversy in the past. I appreciate the diligent way in 
which you two gentlemen have approached this challenge. We 
comment when there is controversy. There should be comment when 
there is progress.
    So, with an annual budget of over $200 million, plus a new 
visitor's center project to look forward to, a sound financial 
management system obviously is a crucial part of your 
responsibilities, and we know that your office has spent a lot 
of time over the past year working on this project. We would 
like to commend you, and specifically Russ Follin on your 
efforts.
    Now, the Architect has requested $252,121,000, to be exact. 
That is a $41,832,000 increase, or over 20 percent increase 
over fiscal 2000.
    So, Mr. Hantman, with that set up, if you will, of where 
you are and what you are asking for, we will be pleased to hear 
from you.

                           OPENING STATEMENT

    Mr. Hantman. Thank you, Mr. Chairman, and good morning.
    In addition to Mr. Turnbull and Mr. Pregnall, of course, 
Russ Follin is here from our FMS group. We also have Larry 
Stoffel, our superintendent of the Senate office buildings, and 
Amita Poole, superintendent of the Capitol Building, and 
several other staff members.
    I am also honored to be joined this morning by the 
Honorable Bill Livingood, who is the Sergeant at Arms of the 
House, and also chair of the Capitol Police Board. He joins the 
Honorable Jim Ziglar, who is Sergeant at Arms, as you know, of 
the Senate, and Chief Abrecht, to respond to any questions that 
we might have regarding the $7.5 million in Capitol projects we 
have in our budget for the Capitol Police this fiscal year.

                                  Y2K

    Before I start my testimony, though, Mr. Chairman, may I 
preface my remarks by indicating that, as you know, today is 
Y2K-light. And I am pleased to report that on February 29, 
today, just as on January 1, 2000, the Y2K bug did not bite. 
And as you know, that of course, is due to an awful lot of good 
cooperative work from all the agencies and jurisdictions across 
the Hill.
    It was a wonderful display of people really throwing 
themselves into a project, and basically your exhortations and 
your leadership really were key to that also. So, I want to 
thank you for that, and thankfully that is now out of our way. 
Everything is pretty much under control and we can move on to 
other business.

                    FISCAL YEAR 2001 BUDGET REQUEST

    I am pleased to present to you the fiscal year 2001 budget 
request for this agency. I am very proud of the progress we 
have made to date over the last 3 years. There is an awful lot 
of rebuilding we have had to do.
    We here on Capitol Hill are really emerging from a time 
capsule. We have a small city here, some 24 buildings that have 
been built over the last 200 years. We have 30,000 people who 
work here on a daily basis. On a peak day, we might have 25,000 
people coming to visit us. It is 273 acres. This is a small 
city. And it is a city that evolved over this 200 years with 
its own unique methods of operating.
    Now, not until the Congressional Accountability Act took 
effect in 1997, that you really had to take into account things 
such as the Occupational Safety and Health Act of 1970, or the 
Fair Labor Standards Act of 1938.
    And clearly those pointed out issues of need in this 
agency, and it is very appropriate for Senator Mikulski--good 
morning and welcome--to come in because Senator Mikulski, of 
course, championed the Architect of the Capitol Human Resources 
Act which really called for fair methods of proceeding for 
modern management procedures and techniques; for an end to the 
glass ceiling; for an opportunity for people to have upward 
mobility. All of these issues are issues that we have been 
addressing, and we are working on, and we still have more to 
do.

                          AOC RESPONSIBILITIES

    So, although you mentioned very large budget issues, I 
would like to couch them in the context of what our 
responsibilities are campus wide. And to this effect, we have 
appended to our testimony and to our budget request, some 11 
appendices dealing with a wide range of responsibilities.
    The first one, appendix A, deals with life safety issues. 
Appendix C responds specifically to the Architect of the 
Capitol Human Resources Act, and many of the concerns that 
Senator Mikulski has been championing these years. Appendix H 
deals with the financial management systems.
    So, there is an awful lot of information there. Some of it 
is budget related, but most of it really is fed by the budget 
process in terms of staffing or in terms of finance.
    So, as I stated, there really is still much to be done, and 
that is really why our budget focuses on four priorities this 
year. The first priority is to continue the process of creating 
an even safer physical environment for Members, for staff and 
for visitors from a life safety perspective.
    Second priority is to improve customer service. That is why 
our budget includes things such as a request for funding to 
provide daytime cleaning in public and restroom areas, 
something that does not exist right now, and there has 
certainly been some controversy in terms of the level of 
cleanliness that we can maintain with just nighttime cleaning.
    That is because we have such a high volume of visitors, 
many people coming through the buildings. We need to hit those 
spaces much more frequently than just on the nighttime shift.
    We are also requesting funding for staff, staff for fire 
safety issues, staff for project management and planning. These 
are all major issues that we need to address.
    A third area of responsibility that we want to focus on is 
enhancing the preservation, utility, the security of our 
buildings. Bids for the Senate perimeter security should be in 
within the next 2 weeks. We will be coming back to you in May 
for the release of funds that have already been approved for 
Capitol Square perimeter security. At that time, the final 
design drawings will have been completed.
    Our fourth criteria is continuing to build a stronger, 
better trained staff. The social architecture of our agency is 
very necessary to address all of our priorities. We are a 
service agency. Our people are essentially the backbone of 
everything that we do. So, our fiscal year 2001 budget really 
has been structured to support these four priorities.
    Appendix F discusses several of our ongoing projects, 
including the multi-phase Dirksen renovation project, which 
you, Senator, have clearly experienced from a first-hand 
perspective.
    We are into our fifth phase of that project right now, and 
we have been getting wonderful cooperation from Members, from 
staff. Clearly any project of this nature causes dislocations 
and we have tried to minimize that, and I think successfully to 
a large extent.

                        DOME RESTORATION PROJECT

    Appendix F also talks about the first phase of the Dome 
Restoration Project, which is proceeding very well, and we 
should be wrapping that up in the next several months within 
budget. But you will not see in our budget a funding request 
for the second phase of the Dome Project. We will be coming 
back to you in fiscal year 2002 for those funds.
    They are needed, but in terms of limited finance ability, 
limited budgeting ability and our staffing needs, we need to 
focus on the four priorities I addressed before.
    And the results of the study that we have done so far, the 
work we have done so far, indicate that the Dome is 
structurally sound. There is no immediate threat of collapse or 
anything of this nature.
    We still do have problems of leakage. We still do have the 
need to remove the lead based paint from the exterior, re-prime 
it, repaint it, recast some of these sections. But with the 
priorities that I have established before, we think that we can 
put this off one more year. We will be coming back to you in 
successive years for that.
    So I really do, Mr. Chairman, want to thank you for your 
leadership, for your support. We are going to continue to build 
the physical, social infrastructure to improve this agency and 
support Congress as we go forward.

                           PREPARED STATEMENT

    We would be more than happy to talk about any of the issues 
that we have in the appendices and the budget. And thank you 
for your attention.
    [The statement follows:]

                 Prepared Statement of Alan M. Hantman

    Mr. Chairman: As we step into a new millennium, we also celebrate 
200 years of Congressional occupancy of our Capitol, this magnificent 
structure that is the physical representation of democracy not only for 
our nation, but for the world. There have been many changes inside 
these walls over those two centuries, but it is undoubtedly true that 
at no time in history has the office of the Architect of the Capitol 
experienced more fundamental change, or had so many essential projects 
to accomplish, than in the brief time since I have been privileged to 
be Architect of the Capitol.
    I am pleased to appear before this Subcommittee to propose the 
fiscal year 2001 budget for the Architect of the Capitol. I look 
forward to working with you as we continue, together, to build the 
social and physical infrastructure that will better serve and support 
the United States Congress as it meets the constant and changing needs 
of the American people and nation this coming year and far into the 
future.
    I am often asked how I like the position of Architect of the 
Capitol. And I usually respond: It is a magnificent challenge. It is 
magnificent because of the unique structures and grounds and 
environment I work with here. It is magnificent because of the 
opportunity to support the greatest legislative body in the history of 
the world.
    Magnificent, yet, it is equally challenging. It is a challenge to 
move forward on many fronts, to simultaneously protect the past, 
support Congress in the present, and plan and build for its future. It 
is a challenge to work in an atmosphere that must be, at the same time, 
open and accessible yet safe and secure; where offices never fully 
empty and efforts never cease; and where the work of the AOC must 
minimize inconvenience while creating the structure to augment the 
essential tasks of Congress.
    We often refer to our complex here as the Capitol Campus. But it is 
actually a community. And it is a city that in some respects is 
emerging from a time capsule.
    Our city of more than two dozen buildings, more than 270 acres, 
more than two centuries of rich experience--and as many as 30,000 daily 
inhabitants and visitors--developed in its own special manner. Until 
provisions of the Congressional Accountability Act went into effect 
only three years ago, we in AOC were not affected by provisions such as 
the Fair Labor Standards Act of 1938 and the Occupational Safety and 
Health Act of 1970. We had our own structures. We had our own ways. Now 
we are attempting to make a giant stride, more than six decades long, 
into the 21st century.
    Our challenge is to meet today's needs--without destroying 
yesterday's heritage for those who will occupy this special place in 
the future.
    While there is clearly much work left to be done, we have made 
significant progress and are proud of what has been accomplished so far 
in rebuilding the foundation of this agency. Because of the great scope 
of work we face, and the challenges we must successfully meet with a 
reduced workforce, it is necessary for us to specifically focus our 
efforts this year in four areas that are essential to our ongoing core 
mission of supporting and serving the Congress.
    These areas are:
  --Creating an even safer physical environment for Members, staff and 
        visitors in line with the requirements of the Congressional 
        Accountability Act;
  --Improving the delivery of customer services;
  --Enhancing the preservation, utility and security of our buildings, 
        with the Capitol Visitor Center being a notable illustration;
  --Continuing to build a stronger, better trained staff--which is the 
        very foundation necessary to address the first three 
        priorities.
    As I have testified in the past, the level of employees in this 
agency has decreased from 2,407 in fiscal year 1993 to a current 
ceiling level of 2,012--a 16 percent decrease in staffing. Current 
actual employment is lower because we are in the process of backfilling 
re-engineered positions as a result of the first phase of our recent 
buyout, which is detailed in Appendix C of this testimony. At the same 
time, our workload has increased due to the need for physical 
improvements to modernize and enhance safety in these aging structures. 
It is important to recognize that we have reached the saturation point 
where the amount of work to be done in several areas has taxed our 
staff capacities to the fullest extent. We are therefore requesting 
funding for critical staffing needs for life safety, service delivery, 
and project support, as well as for the tools needed by our staff to do 
our jobs more effectively.
    Because of the necessity of moving forward in these critical areas, 
with their attendant fiscal implications, I am delaying the request for 
appropriations to initiate the next phase of the Capitol Dome 
Renovation Project until next year in order to focus resources on these 
essential areas.
    Work on the Dome can be delayed in the short run because we are 
finishing our first-phase emergency examination of the structure, and 
happily have found that the basic structure is fundamentally sound. The 
next stage of repairing and restoring the cast iron skin and interior 
Rotunda finishes of the Dome is clearly important and needs to be 
addressed in the short term, but in our judgment there are higher 
priorities on which to focus finite resources this year.

                              LIFE SAFETY

    In this context, planning for and implementation of life safety 
programs throughout the campus remains my number one priority and this 
priority has been supported by Congress through the Congressional 
Accountability Act. Implementing such a program across the campus and 
bringing the Capitol and our other structures into conformance with the 
most modern codes and practices is a process that is complicated by 
virtual full-time occupancy and the extremely limited ``turn around'' 
space for the ``musical chairs'' sequencing inherent in the renovation 
process. It also is complicated by the need to change the AOC work 
culture. We need to work out appropriate methods with the committees of 
jurisdiction to accelerate these processes. Appendix A discusses many 
of our initiatives in this area, and projects and planning. Substantial 
appropriations will continue to be required to accomplish this work in 
the coming years.
    The physical, technological and human challenges in both preserving 
the historic integrity of our architectural treasures and bringing them 
into conformance with modern safety standards are difficult and will 
create inconveniences in these buildings, but they are achievable. Once 
again, these fixes will be neither cheap nor quick, and support of this 
effort by the Congress will continue to be needed to accomplish this 
vital work in a timely manner.

                           CUSTOMER SERVICES

    We also must continue to improve the quality of our maintenance 
services to occupants of Capitol Hill. One major example of improved 
services is the need for daytime cleaning of public areas in the House 
and Senate Office Buildings. In order to accomplish this, increases in 
our staffing levels for these functions are required. This request 
includes additional staff to improve operations, meet life safety 
needs, and improve project management; as well as funding to continue 
to build improved operational tools and services such as computer-
assisted facilities management, financial management systems, and 
improvements in information resource management.

                             BUDGET SUMMARY

    Our total request is $252,121,000, which is a $41,832,000 increase 
over the fiscal year 2000 level, broken down as follows: Our operating 
budget requested increase is $18,577,000 over last year's amount of 
$164,805,000. This increase is mostly due to mandatory COLAs, increased 
operations and maintenance costs, and the request for additional staff 
described above. Our capital budget increase is $23,255,000 over last 
year's funding level. This includes $7.45 million for projects 
requested by the Capitol Police and $6 million for projects requested 
by the Library of Congress. It also includes $9 million for major 
repairs, life safety and security upgrades to the Cannon House Office 
Building Garage. It is important to note that all of the capital 
projects in this request meet our 100 percent design requirement.
    As described in the attached appendices, we have successfully 
completed an extraordinary amount of work and instituted essential and 
fundamental changes in the three years I have been Architect of the 
Capitol. We have gone a long way toward implementing Congressional 
directives by instituting a 100 percent design policy, continuing to 
overhaul and improve our personnel systems (Appendix C), continuing to 
build a vital staff to move forward on the challenging life safety 
front, and have created a financial management system cross servicing 
agreement and are beginning to implement the basic general ledger needs 
it encompasses (Appendix H). However, these important steps are only 
the beginning of the marathon we must run to build an agency that meets 
the challenges of this new millennium. Our budget reflects our 
essential priorities and needs in order to continue on our course and 
increase the speed and effectiveness of improvements necessary to meet 
our changing times.
    Mr. Chairman, I request that my full statement and supporting 
materials be placed into the record. Several detailed reports on 
accomplishments and initiatives, such as life safety, project 
management, and the budget, are also appended for your information and 
the record.
    I thank you and the other Members of the Subcommittee for your 
leadership and concern in supporting our efforts to better serve 
Congress and the American people.

                Appendix A.--Initiatives in Life Safety

                              INTRODUCTION

    The agency has undertaken significant steps to revitalize the life 
safety program. Since last year the AOC has enhanced the newly formed 
Life Safety Program Division with the addition of a new Director and 
Deputy Director. Augmentation of this program with additional personnel 
for the existing Safety and Occupational Health and Fire System and 
Life Safety Branches, as well as the proposed Environmental Branch, of 
the Life Safety Program Division is either underway or under 
development pending funding.
  --The Safety and Occupational Health Branch conducts safety 
        inspections of buildings and work sites, drawing and project 
        review, provides consultation to the Jurisdictions on safety 
        programs and issues, and develops and implements Agency 
        programs.
  --The Fire System and Life Safety Branch conducts fire prevention 
        inspections, drawing and project reviews, fire alarm system 
        programing, and provides oversight to the fire prevention 
        program.
  --The proposed Environmental Branch will develop and implement 
        program and policy, review projects for environmental impacts, 
        provide consultation to the Jurisdictions, and conduct periodic 
        oversight inspections.
    Systematic approaches to reviewing and developing programs and 
standard operating procedures throughout the Capitol Complex has begun, 
including baseline surveys and continuous coordination with the Office 
of Compliance survey teams on the detailed process of identifying and 
prioritizing program requirements. Significant steps have been taken to 
identify, correct, and prevent physical and program deficiencies in a 
proactive rather than reactive manner. This is a formidable task that 
requires considerable staff and consultant resources to accomplish at a 
progressive pace. Descriptions of the steps taken and those needed are 
expanded upon below.
    The Life Safety Program Division has submitted an aggressive plan 
and is implementing a Safety Initiative that will bring the Agency 
along the road to further conformance with requirements defined by the 
Congressional Accountability Act. It is important to note that full 
conformance with the Act will be difficult to achieve due to the 
necessity of preserving the historic nature and infrastructure of the 
facilities. The AOC is evaluating the alternative code provisions that 
have been developed to allow for performance based protection, such as 
the NFPA's new Life Safety Code, which was adopted at their Fall 1999 
meeting, and building codes such as those in the states of Wisconsin, 
Pennsylvania and Texas to specifically address the life safety issues 
in historic structures with significant public spaces, monumental 
ceiling heights, open grand stairways, etc. Technology under 
development such as OSHA's Fire Safety Advisor (currently in BETA 
format) will also help with regard to assessment, means, and 
methodology development. Work has also begun on the development of an 
Environmental Branch that will address requirements of the 
Environmental Protection Agency as enforced by the District of 
Columbia.

                           SAFETY INITIATIVE

    A full review and analysis by the Life Safety Program Division will 
be completed this year of the Congressional Accountability Act, the 
referenced Occupational Safety and Health Administration (OSHA) 
standards, and review of code requirements for both private industry 
and other Federal Agency programs. This review will determine where the 
current AOC program is with regard to the rest of the country, where it 
needs to be, and a validation of the multi-year plan prepared by the 
Life Safety Program Division on how to get it there. The initial 
analysis determined that the OSHA Voluntary Protection Program (VPP) 
Model should serve as the framework for the new program and that bench 
marking established safety programs would be done to provide the 
information necessary for the AOC Safety Program. The VPP program was 
established by OSHA to provide private industry and Federal Agencies a 
means of measuring their programs and provide OSHA proof that their 
program is exemplary. Qualifying programs in the VPP program can earn 
certification from OSHA as Star Programs worthy of recognition and 
duplication. The AOC's goal is to develop and implement a program that 
OSHA will consider exemplary. New resources are necessary to accomplish 
this goal to bring the safety program to a compliant level as described 
by the Congressional Accountability Act and are essential to sustain 
the program and keep the AOC on track with any future changes to 
requirements. Resources identified in the fiscal year 2001 budget 
include increases in permanent and contractor staffing, survey and 
analysis costs, and general operating funds. Work has begun in the 
following areas:
    Administration and Management.--This area focuses on how a Safety 
Program is developed and implemented. Several specific elements are 
described to achieve an acceptable level in the VPP framework. These 
include: Development of a Safety Policy Statement and Safety Manual, 
the establishing of Safety Committees with written Charters and 
Policies, and establishment of a Mishap Reporting Policy, a Hazard/
Close Call Reporting Policy, and a Disciplinary Policy for Safety 
Violations. There must also be a means of measuring job performance 
with regards to safety.
    The existing AOC Safety Manual and program elements are being 
reviewed by the Life Safety Program Division against these 
requirements. Available resources are also being reviewed and the AOC 
safety program plan is being refined. The Human Resource Management 
Division (HRMD) is revising the current Performance Evaluation System 
(PES) to include requirements for evaluating safety in job performance. 
Safety Committees have been formed in several of the Jurisdictions and 
the Life Safety Division is working with these committees to refine 
their charters and objectives. The existing committees are also being 
used as resources in the formation of committees in the other 
Jurisdictions.
    Assessments.--This area focuses on the identification of hazards 
associated with the workplace or job performance. The model requires 
surveys and analysis to be done to fully identify and quantify hazards 
so all information is available to make risk management decisions. 
Actions necessary to meet these requirements include performance of a 
Baseline Hazard Analysis, an Industrial Hygiene Survey, Job Safety 
Analysis, Annual Compliance Audits, and the establishment of 
comprehensive Preventative Maintenance Programs, Contingency Safety 
Plans, Emergency Preparedness Exercises, and Corrective Action Plans.
    The AOC through the use of Life Safety Services, Incorporated, has 
recently conducted the first comprehensive Annual Compliance Audit. 
This audit not only satisfies OSHA requirements by identifying systemic 
deficiencies and areas needing correction, but it also provides 
information necessary for the Life Safety Program Division to focus AOC 
resources. Corrective action plans have been initiated on items not 
requiring funding and a risk assessment analysis is being conducted to 
prioritize corrective actions requiring additional funds. The AOC is 
working with the Public Health Service (PHS) on the completion of 
comprehensive job safety analysis for job assignments at the Capitol 
Power Plant and industrial hygiene surveys for on-going construction 
projects, such as the Dirksen Senate Office Building renovation 
project. PHS is also providing assistance with the identification and 
program development for addressing confined spaces. Work with the Army 
Corp of Engineers is providing information on the location of asbestos 
and lead in Capitol Hill buildings. These surveys must be expanded to 
include all of the complex. The AOC Preventive maintenance Program will 
utilize the CAFM program once fully implemented to schedule, track and 
record maintenance. As previously noted, the AOC has established a Task 
Force on Contingency Safety plans and used that work as part of the Y2K 
initiative.
    Training.--This area focuses on how employees have been prepared to 
perform their assigned tasks in a safe manner. The model requires the 
preparation of a Master Training Plan and emphasizes specific training 
of Safety Committee Members. It also calls out for specific training in 
Mishap Investigation, Emergency Preparedness, OSHA Training for 
Employees and Management, and training in how to conduct a Job Safety 
Analysis.
    The Life Safety Program Division has identified safety training 
required by OSHA for all AOC employees and this training list is being 
coordinated with HRMD to integrate the AOC Safety Master Training Plan 
with the AOC Master Training Plan. The safety training has been 
prioritized, made mandatory, and is underway. Courses can be broken 
down into a one-time requirement, an annual requirement, or a periodic 
requirement based upon working conditions. Eleven of thirty-four one-
time classes, three of the seven periodic courses and eleven of the 
eleven annual courses have thus far been conducted. Each of these 
courses requires course curriculum development based upon an assessment 
of the requirements of the standard and how the it is applied here. 
Vendor selection is underway for the remaining courses, HRMD is 
preparing for an additional fifteen courses this year.
    Record Keeping.--This area focuses on what information is necessary 
to document the status of the program elements. Actions include the 
development of several databases such as an Inspection Database, a 
Mishap Reporting/Close Call Database, a Hazard Analysis Database, a 
Personal Protective Equipment Database, an Employee Compensation 
Database, and a Corrective Action Tracking Database.
    The Life Safety Program Division is actively reviewing other 
Federal Agency programs to determine if existing databases can be used 
by the AOC or if internal development from scratch is necessary. The 
AOC has already developed and implemented an Occupational Worker's 
Compensation Program database in the past fiscal year. This system is 
being used to identify trends and areas needing focused attention. 
Further database development will be dependent upon program and policy 
development. Each Jurisdiction will be required to develop standard 
operating procedures to ensure appropriate input, use, and integration 
of these databases. The Life Safety Program Division will provide 
guidelines and assistance to the Jurisdictions on this development. 
Corrective action tracking is currently being done by each Jurisdiction 
using various methods such as Microsoft Excel spreadsheets. These are 
now being reviewed by the Life Safety Program Division. Efforts are 
underway to integrate these into a uniform format so the creation of a 
central database can be expedited.
    Document Review.--This area focuses on how the program adjusts to 
changes in requirements, technology, and hazards. The AOC model 
requires a complete document review, document updates for existing 
areas as appropriate, and preparation of documents for areas where none 
exist. It also requires an annual review and revision of documents as 
appropriate.
    An extensive review of current program documentation is underway. 
It is anticipated most of the current documentation will require an 
update to comply with current requirements. Preliminary reviews also 
indicate a significant effort will be required to address areas not 
currently having documentation. Much of this effort will be in the 
development of standard operating procedures at the Jurisdictional 
level defining program implementation.

                    ENVIRONMENTAL PROGRAM INITIATIVE

    The Environmental Protection Agency (EPA) notified the AOC in June 
of 1999 that a Preliminary Assessment in conformance with the 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA or Superfund) was required from the AOC for the Capitol Hill 
Complex. This assessment provides the EPA with information on the 
potential for pollution of the environment from Capitol Hill 
facilities. Preliminary Assessments are reviewed by the EPA for 
determination of sites needing closer examination or remediation. The 
Life Safety Program Division has begun a review of the program 
requirements associated with Environmental Protection Agency laws and 
regulations. LSSI during their baseline safety survey was tasked to 
provide an assessment of environmental conformance. This survey 
identified numerous program areas requiring review and development. 
Issues such as waste water discharge permitting, Spill Prevention, 
Control, and Countermeasures Plans, inventory of chemicals and storage 
areas, and secondary containment issues were identified. Additional 
personnel and contractor support has been requested to begin the 
detailed program review and development associated with all aspects of 
the Environmental Program.
    The Life Safety Program Division currently has one Hazardous Waste 
Specialist on staff addressing hazardous waste collection and removal. 
This Specialist is also responsible for coordination of the AOC 
Recycling Program. Program information on recycle collected for fiscal 
year 1999 is provided in the table below.

                                                             RECYCLE PROGRAM SUMMARY TABLES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Fiscal year 1999 Tons                             Fiscal
                                                                   --------------------------------------------------------------------------  year 1999
                               Bldg.                                                                                                            dollar
                                                                    High grade     Mixed     Newspaper  Corrugated  Contaminated    Total/      amount
                                                                                 grade \1\                 board     (No value)    building     earned
--------------------------------------------------------------------------------------------------------------------------------------------------------
RHOB..............................................................      89.438     135.985     139.530  ..........      919.188    1,284.141      17,340
CHOB..............................................................      19.240     103.858      52.055       3.240      603.813      782.206       5,635
HSOB \2\..........................................................       1.593     222.395        .755  ..........      379.180      603.923       4,238
                                                                   -------------------------------------------------------------------------------------
      Total.......................................................     110.271     462.238     192.340       3.240    1,902.181    2,670.270      27,213
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes both mixed paper and paper graded as commercial office mix.
\2\ Includes high grade paper collected from the Capitol, Senate side.

    The General Services Administration (GSA), which administers the 
recycling contract, credits the AOC with the amount earned from 
recycling. Funds received from GSA are deposited in the U.S. Treasury. 
In addition to the funds earned and the positive environmental impact 
that recycling has, cost avoidance is achieved because waste sent for 
recycling is eliminated from AOC landfill costs. Based on avoided 
tipping fees and transportation costs, a saving of approximately $77 
per ton of waste sent for recycling is achieved. For fiscal year 1999, 
based on more than 2,670 tons of waste sent for recycling, the 
approximate saving is $205,600.
    Jurisdictional personnel are responsible for the daily coordination 
and pick-up of recycle associated with their buildings. The recycle 
program implemented in fiscal year 1999 installed desk cans and 
relabelled centralized containers. The Life Safety Program Division 
coordinates the overall program, administers the contract for 
collection, and provides oversight and consultation services.

              CONSULTANT SUPPORT FOR LIFE SAFETY PROGRAMS

    In the preparation and presentation of fiscal 2000 and 2001 budget 
requests, life safety capital projects were placed in their own project 
category, and were given the highest priority. As each project was put 
forth for consideration, the agency used design/build criteria to meet 
current life safety standards while carefully integrating these systems 
into the Capitol complex's historic surroundings. Starting back in 
March 1997 the agency has used the services of several firms to provide 
the technical expertise and the much needed resource support required 
within the Life Safety Program Division to address program 
requirements.
    In August 1997, the consulting firm of KCCT was hired to study exit 
doors throughout the complex and prescribe a plan of correction to 
permit proper egress in an emergency and facilitate the integrated 
installation of security devices as required by the U.S. Capitol 
Police. This work has included redefining the direction doors swing 
open, replacement of revolving doors, frame modifications to house 
security hardware and redesigning vestibules to accommodate egress 
requirements, all while maintaining a design that is compatible with 
the architectural surroundings.
    At the present time, more than 72 doors in the Capitol, House and 
Senate Office Buildings have been reconfigured to fully meet life 
safety requirements. Sixty-five more remain uncorrected and have 
engineering and architectural design requirements which necessitate 
funding requirements. These will be addressed as funding permits.
    In October 1997, James Posey Associates was placed under contract 
to provide professional services, material and equipment necessary to 
provide construction documents for sprinkler protection (and other 
services) within the Dirksen Senate Office Building. This project began 
on April 12, 1999. James Posey and Associates have also been utilized 
in the upgrade of the Rayburn House Office Building. This project is 
currently at the contractor bid stage of procurement.
    The fire protection consulting firm of Gage-Babcock was placed 
under contract in September, 1998, to respond to task orders. These 
included:

  --General Fire Protection Description of all facilities and complex 
        wide fire and emergency management systems
    --Omega Sprinkler recall identification.--This provided quantities 
            and locations of recalled sprinkler heads throughout the 
            Capitol Complex. Sprinkler heads have been received and 
            replacements are currently underway.
    --Building Fire Protection System Survey and Descriptions.--This 
            project provides a baseline on each building and provides 
            the background necessary to standardize and centralize fire 
            alarm systems and their monitoring. The task is expected to 
            be completed in mid-February.
    --Design inter-connectivity of various life safety systems and 
            emergency master control centers.--This is the immediate 
            follow-on work to item b to provide a central monitoring 
            center for all Capitol Hill life safety systems.
  --Design the replacement for existing fire pumps in the U.S. Capitol, 
        Russell Senate Office Building, and Cannon and Longworth House 
        Office Buildings--designs have been completed. Installation is 
        following our procurement requirements.
  --Upgrade fire pump electrical feeds--Ford House Office Building--
        design was completed in May 1999. The upgrade is in the 
        construction stage.
  --Emergency signs and lighting and egress study to establish way 
        finding and directional/exit signage needs for each building's 
        fire protection and life safety and occupancy loads throughout 
        the complex. Exit signage is 95 percent complete. Egress 
        analysis has been completed for the Hart Senate Office Building 
        and Capitol Police Headquarters Building and is approximately 
        70 percent completed for the rest of the Capitol complex. 
        Should there be issues which require design, funds will be 
        requested in fiscal year 2002.
  --Prepare requirements for a fire alarm system upgrade for ADA 
        compliance and identify areas of refuge for each building and 
        the requirements to meet National Fire Protection Association 
        standards in these areas. Design estimated to be completed 6/
        00.
  --The design for the extension of sprinklers in Russell Rotunda, 
        Committee and Caucus rooms, Basement and Sub-basement, and 
        machine and control rooms, and attic spaces of Hart, the 
        O'Neill Building, and the Ford House Office Building are 
        scheduled for completion in 2001. Design of sprinkler systems 
        for Capitol Power Plant administration building, Longworth, 
        JMMB, Canine Facility at DC Village have been completed.
  --Upgrade fire protection systems.
  --Design of firefighter telephones in Hart Building. Completed 8/99.
  --Design of fire alarm system upgrade to Longworth. Completed 9/99.
  --Senate Employee Child Care Center--Design of smoke detectors and 
        review of new facility fire systems. Completed 10/99.
  --Rayburn alarm manual pull station upgrade for travel distance and 
        ADA--design in progress, estimate completion end of February 
        2000.

    In August of 1999, Life Safety Support Services, Incorporated was 
contracted to investigate the conditions associated with the fire in 
the James Madison Building and the citations issued by the Office of 
Compliance. They were also tasked to survey the other buildings on 
Capitol Hill to determine whether similar conditions existed elsewhere. 
Their report was used as part of the response to the citations issued 
by the Office of Compliance. LSSI was also tasked to perform the 
baseline OSHA and EPA surveys mentioned previously. Their findings were 
consolidated and have been analyzed for prioritization using a risk 
assessment scheme. Corrective action plans are being developed for each 
finding. Those capable of being corrected in-house with existing 
resources have already been initiated. Those requiring funding will be 
submitted using the priorities previously discussed.
    Aerosol Monitoring and Analysis was contracted to perform a 
confined space survey at the Capitol Power Plant. They are currently 
tasked to provide a lead assessment at the Day Care Center at the Ford 
House Office Building and air sampling at the Rayburn House Office 
Building.
    Mantech, Incorporated has been tasked to provide asbestos and lead 
surveys in the Capitol and Longworth House Office Building. They have 
also been tasked to provide environmental services at 501 1st street 
and laboratory services for the Safety and Occupational Health Branch.
    ERM, Incorporated has been tasked to provide monitoring, 
evaluation, demolition, and removal of underground storage tanks.
    The agency has a Memorandum of Understanding with the U.S. Army 
Corps of Engineers to provide architectural, engineering and 
construction support services as required. The agency will primarily 
use their services for survey and analysis support. Activities have 
included the removal and replacement of underground storage tanks 
(USTs) and surveys of the Supreme Court Building for asbestos.
    The Agency has a Memorandum of Understanding with the Public Health 
Service to provide safety, occupational health and industrial hygiene 
support services as required. The agency will use their services to 
supplement existing resources and to serve as a third party consultant 
on safety, occupational health or industrial hygiene related issues. 
Activities have included a comprehensive job hazard analysis for the 
Capitol Power Plant employees, confined space evaluation and training 
at the Power Plant, industrial hygiene services for issues at the Power 
Plant and projects at the Capitol, and Dirksen Senate Office Building.
    The AOC has an agreement with the Office of the Attending Physician 
(OAP) to provide medical support. The OAP currently coordinates 
physicals associated with the Medical Surveillance Plan and provides 
consultation services as requested.
    While these are positive steps to remedy some of our concerns, 
there is much more to be done. Projects need to be completed and/or 
current conditions within existing systems need to be corrected. Many 
time lines to complete projects currently remain extended due to lack 
of accessibility to occupied spaces where work would inconvenience 
Members, but the agency will actively work with the oversight 
committees, the Capitol Police Board, and other involved parties to 
develop methods of accelerating their completion. The agency is 
engaging systems once each zone is fully programmed, commissioned and 
ready to go on-line without affecting the integrity of the rest of the 
system.

                              MAINTENANCE

    The agency's program utilizes National Fire Protection Association 
maintenance standards and manufacturer's guidance as tools for the 
superintendents to schedule the necessary maintenance and 
documentation. In addition, the Life Safety Program Division will 
conduct inspections of maintenance work being performed as well as 
relevant records. The AOC intends to comply with record keeping 
requirements by utilizing the Computer Assisted Facility Management 
(CAFM) system once it is fully implemented. Preventive maintenance is 
the key to longevity of the operating systems throughout the complex as 
well as the life safety systems currently in place and those being 
planned or installed at the present time.
    The agency is also working with other support offices to coordinate 
work areas, storage, and occupancy to maintain egress paths clear and 
safe as part of an overall safety maintenance program.

                                PROJECTS

    Upgrades to the fire suppression systems for the food service areas 
that address today's cooking oils was requested and approved for fiscal 
year 2000. Contract award is expected third quarter.
    Smoke detectors are being placed in rooms within the Capitol as 
they are being renovated. Due to access problems (requiring 
displacement of Members while work is occurring) the fire alarm system 
upgrades in the Capitol are progressing at a much slower rate than 
anticipated or desired. A re-design of the new components will be 
conducted to zone the common public spaces separately to expedite fire 
alarm system coverage. Coordination with the Capitol master plan will 
also be conducted. Emergency Lighting in the Capitol has also been 
completed.
    A project impact analysis report procedure has been developed 
pertaining to the life safety system impacts on renovation/improvement 
projects such as the Capitol Dome and Dirksen Senate Office Building 
renovation. This is a newly implemented process, part of the project 
planning portion of our program, and indicates typical areas of 
consideration that will be reviewed with each project involving life 
safety elements. This tool will also be used when systems that support 
life safety are being modified such as water main replacements, room 
partitions installation, and electrical system work.
    Fixed fall protection systems for Capitol Building roofs have been 
designed and installation is scheduled for 2001.
    Fire alarm system upgrades associated with Y2K compliance and their 
certification per National Fire Protection Association standards has 
been estimated and will be conducted upon receipt of requested funding 
from GAO.
    A focused confined space program has been implemented in the 
Capitol Power Plant and its associated tunnels. This program will be 
expanded to include the remainder of Capitol Hill once a full confined 
space survey has been conducted. In addition, the AOC is working with 
the U.S. Capitol Police to ensure all entrants are appropriately 
trained.

                                SUMMARY

    To meet the Life Safety Program Division goals set for the AOC, 
resources will be required to develop and implement programs and 
policies at the Agency and Jurisdictional levels. Several major 
elements have been identified, these include:
    Space must be identified to facilitate temporarily moving a group 
of Members and/or Committees to provide access to their suites and 
meeting rooms to allow renovation and modification including fire 
protection systems.
    Design and installation funding must be provided to correct issues 
identified in surveys conducted by the Life Safety Program Division, 
the Office of Compliance, and the Office of the Inspector General.
    Manpower resources are not available in-house to develop and 
implement programs and install, commission and maintain systems in an 
acceptable manner while continuing to meet our day-to-day operational 
requirements. External resources and the funds to provide continued 
support needs to be provided as requested in the fiscal year 2001 
budget.
    The development of the Environmental program and the analysis and 
survey requirements of the Environmental Protection Agency laws and 
regulations will require additional personnel and resources. Focus by 
the Life Safety Program Division has been on Safety related planning 
due to staffing limitations. Attention must be given to environmental 
matters because non-compliance with Environmental laws and regulations, 
can subject the Agency to citations and monetary fines. Enforcement by 
the EPA and the District of Columbia thus far has been limited. 
Announcement in June of 1999 of a response deadline for submittal of a 
CERCLA Preliminary Assessment indicates EPA's intention to begin a 
closer look at Capitol Hill Programs.

                      Appendix B.--Security Update

    The past year was a seminal year for security in the Capitol 
Complex. From the terrorist attacks both domestic and abroad, to the 
tragic deaths of Officer Chestnut and Detective Gibson, to the ever 
increasing threats to our facilities and the Leadership, a heightened 
awareness and emphasis on planning and implementing appropriate 
security measures dominates the focus of the Capitol Police Board, the 
U.S. Capitol Police and the AOC. The AOC concentrated on supporting the 
efforts of the Capitol Police and the other law enforcement entities to 
improve the security within the Capitol Complex.
    The Omnibus Consolidated and Emergency Supplemental Appropriations 
Act, 1999, (Public Law 105-277), provided additional funding in the 
amount of $106 million for the implementation of the proposed security 
improvements. Plans for the utilization of these funds were developed 
and submitted to the appropriate committees for approval. A complete 
obligation plan was submitted to the House and Senate Committees on 
Appropriations for review and approval. These approvals have been 
received. In moving forward with these plans in an expeditious manner, 
we are continuing to work closely with U.S. Capitol Police, Library of 
Congress Police, and the U.S. Supreme Court Police, to coordinate these 
significant efforts that are unprecedented in the history of the 
Capitol Complex.
    Other proposed short and long term projects include the Capitol 
Visitor Center. It is a key component of the systematic modernization 
and strengthening of the integrated security infrastructure program 
which has been presented to the Committee. In that regard, we received 
a substantial portion of the funding to construct the Capitol Visitor 
Center and received approval for the review and validation of the 
existing design and programmatic needs. The design development and 
construction document phases will follow after approval of outstanding 
issues raised in the validation phase.
    In early 1997, a Memorandum of Understanding (MOU) was executed 
with the Capitol Police that established the division of 
responsibilities, and the processes and procedures to be followed when 
developing and implementing security projects. This memorandum defined 
the processes and procedures important to the close working 
relationship between the two organizations.
    Briefly, the MOU assigns the responsibility for design, 
procurement, installation and maintenance of physical security barriers 
and other structures to the Architect of the Capitol while the Capitol 
Police's Physical Security Division is in charge of design, 
procurement, installation of security systems, including intrusion and 
duress alarms, x-ray, scanning and other security systems for 
facilities. My office continues to provide infrastructure support for 
the implementation of these systems. This has resulted in a strong 
working relationship between the two organizations.
    The Omnibus Consolidated and Emergency Supplemental Appropriations 
Act, 1999 transferred the responsibility for design, installation, and 
maintenance of security systems to protect the physical security of the 
buildings and grounds of the Library of Congress from the Architect of 
the Capitol to the Capitol Police Board to be carried out under the 
direction of the Committee on House Oversight of the House of 
Representatives and Committee on Rules and Administration of the 
Senate. In response to this change, a separate MOU outlining the 
process, procedures and responsibilities for the improved security 
programs of the Library of Congress was entered into by this Office, 
the Capitol Police and the Library of Congress.
    In addition to the planning for the programmatic, personnel and 
physical security needs provided for in the Omnibus Consolidated and 
Emergency Supplemental Appropriations Act, 1999, funding was provided 
in fiscal year 1999 to conduct a comprehensive Master Plan that will 
present the options for providing the current and future facility needs 
of the Capitol Police and the participating law enforcement entities 
operating within the Capitol Complex. These include a new shared 
offsite delivery center where all deliveries to the Capitol Complex can 
be properly screened, a shared training facility that would support the 
collective training requirements of the police, a modern command and 
communications center that is capable of monitoring and administering 
the existing and proposed security systems in a centralized and 
coordinated manner, as well as other support facilities not currently 
or adequately provided. The Master Plan has been submitted to the 
appropriate committees for review and approval as part of the planning 
approval process to support the development of the proposed new 
security and police facilities.
    The 1998 Supplemental Appropriations and Rescissions Act, (Public 
Law 105-174) provided $20 million to improved perimeter security for 
Capitol Square, as well as the streets surrounding the Senate Office 
Buildings. The Capitol Police Board was directed to develop a specific 
plan for this project. The challenge is to sensitively integrate a 
sophisticated security program into the historic landscape of the 
Capitol Grounds and the fabric of the incomparable complex of buildings 
that grace Capitol Hill. The solution has been strongly influenced by 
the fact that the Capitol is the ``Peoples' Building'' and visitors 
must perceive it as such with reasonable access being provided. 
Perimeter fencing and other overly intrusive security measures have, 
therefore, been avoided.
    The primary elements of the plan include improved security at all 
entrances to Capitol Square through the use of a combination of high 
impact vehicle barriers that are police activated at the most critical 
locations, or card activated egress from parking related areas. These 
are to be used in conjunction with a continuous string of security 
bollards similar to those designed for and installed at the White 
House. These bollards would replace the concrete planters and sewer 
pipes that had been temporarily put in place in the 1980s. In addition, 
by integrating electronic and other security systems at each vehicular 
entrance, a continuously secure perimeter would be created largely 
internal to the original Fredrick Law Olmsted walls.
    The end result of the proposed changes will be significant 
improvements to both the security needs and appearance of Capitol 
Square. Approval for this plan was received from the Senate Committee 
on Rules and Administration and the Committee on House Administration 
and construction documents will be completed in May 2000. At that time 
we will request approval to obligate funds for bidding the project. The 
Senate Committee on Rules and Administration also specifically approved 
the Board's plan to improve the physical security elements protecting 
the Senate grounds and office buildings. Although this matter relates 
solely to the Senate, funding is included under our ``Perimeter 
Security'' project in the ``Capitol Grounds'' appropriation for this 
purpose. To resolve the security concerns, the Board recommended that 
landscape elements and bollards similar to those recommended for 
Capitol Square be used to replace the existing ``Jersey'' barriers, 
concrete planters and pipe sections. This solution maintains the 
necessary levels of security while softening the visual impact of these 
measures. The detailed construction plans and specifications have been 
completed and are being bid.
    The Capitol Police Board approved five security related projects 
that are included in the Architect of the Capitol's fiscal year 2001 
appropriation. These five security related projects as listed in our 
budget are as follows:

  --Infrastructure for Security Installations ($500,000), which 
        provides the infrastructure accommodations to support the 
        continued installation by the Capitol Police of door controls, 
        alarms, cameras and other security devices throughout the 
        Capitol Complex.
  --Security Project Support ($200,000) will provide this Office with 
        technical staffing resources to coordinate and oversee the 
        design and construction of capital improvements to be 
        implemented by this Office that were funded in the Omnibus 
        Consolidated and Emergency Supplemental and Appropriations Act, 
        1999.
  --Off Site Delivery and Screening Center ($4,500,000) for the 
        acquisition of land to build a new off site delivery and 
        screening center, based on the findings in the Master Plan.
  --Design, Training Facility ($700,000) will provide for design of new 
        training facilities based on the findings in the Master Plan.
  --Vehicle Maintenance Facility ($2,250,000) will provide for land 
        acquisition and design of a new vehicle maintenance facility 
        based on findings in the Master Plan.

       Appendix C.--AOC Human Resources Act of 1995 Achievements

                              INTRODUCTION

    The Congress passed the AOC Human Resources Act of 1995 in the 
Fiscal Year 1995 Legislative Branch Appropriations Act, Public Law 103-
283, approved July 22, 1994. The law required that the AOC develop a 
human resources management program consistent with modern practices 
common to Federal and private sector programs.

                     HUMAN RESOURCES PROGRAM FOCUS

    Since April of 1997, the Human Resources Management Division 
(HRMD), under a new Director, has made the following areas a priority: 
customer service delivery; program/policy development; service delivery 
systems re-engineering; and personnel action and operational processing 
simplification.
    In order to accomplish these priorities as well as the daily human 
resource operational requirements, HRMD has, as a team, formed 
relationships across branches and functions to address these new 
challenges. The following information outlines HRMD's progress so far 
and identifies new directions for the coming year.

                       PROGRAM GUIDANCE COMPLETED

    The following program guidance was developed and distributed, with 
briefings provided to all Agency Supervisors:
    Training Program.--The training program was significantly 
revitalized and expanded to meet management and employee training 
needs. Specifically, we have:
  --Administered a wide range of training courses for AOC employees at 
        all organizational levels and of varied disciplines.
  --Published a new training guidance handbook which has been provided 
        to managers, supervisors and foremen during scheduled 
        informational meetings. The handbook addresses the overall 
        process for handling training requests and provides the 
        following information: a detailed listing of training videos 
        that are available for check-out or for viewing in the HRMD 
        learning resources center by AOC staff; guidance on staff 
        cross-training and job and non-job related training; 
        instructions for completing on-site as well as off-site 
        training requests; sample curricula and on-the-job training 
        suggestions for a wide variety of trade occupations; and a copy 
        of the General Services Administration's Facilities Management 
        Training Center Catalogue.
  --Implemented an automated training system to capture all training 
        activity and funds allocation.
    Architect's Mobility Program (AMP).--With the assistance of a cross 
jurisdictional workgroup, we have revamped the program guidelines. The 
program is designed to provide career growth opportunities for 
employees in lower-graded, career-limiting positions. The program is 
being implemented with 8 to 12 vacancies initially. This is to ensure 
that we are able to provide the necessary one-on-one assistance to the 
selecting official and the selected employee to develop a tailored 
training development plan. We provided informational sessions for 
employees and supervisors with detailed information about the Program, 
and operating procedures. Specific assistance has been given to 
employees on the application process, on completing the necessary 
forms, etc.
    Hazard Pay/Environmental Differential.--Guidance has been developed 
and provided for supervisors to use in requesting hazardous duty pay 
for appropriate work situations. The guidance provides for a number of 
steps to be taken by the supervisor prior to instructing employees to 
work in conditions that may be considered as hazardous duty. The 
guidelines provide for a health and safety review of the proposed 
working conditions, the applicable safety equipment, and other health/
safety considerations. Once this review is completed, the supervisor 
will follow the procedures outlined to request from HRMD the authority 
to grant hazardous duty pay to employees involved in that specific work 
assignment.
    Temporary Limited Duty Assignments.--Guidance was developed and 
provided for use by supervisors when considering requests from 
employees for limited duty assignments, on a short-term basis, while 
recovering from a non-work related injury or illness. This information 
identifies the initial steps employees must follow and the 
documentation necessary to clearly substantiate a medical limitation. 
With specific medical documentation, the supervisor can make a 
determination whether or not a limited duty assignment is possible 
based on the employee's medical limitations and mission needs.
    Reissuance of Policy on the Administrative Work Week.--Based on 
numerous questions about what constitutes the work week and 
inconsistent application of policies in different segments of the 
agency, we reissued the AOC policy and standardized procedures to all 
employees.

     PROGRAMS AND POLICIES THAT ARE COMPLETED AND READY FOR UNION 
                              NEGOTIATIONS

    HRMD has completed the following program and policy guidance, which 
is awaiting negotiations with the Union. AFSCME Local 626 was elected 
by AOC employees representing laborers, custodial workers, various 
administrative support employees, and many employees of the U.S. 
Botanic Garden. As negotiations are completed for each policy, we will 
implement each of these initiatives. Our work on Program and Policy 
development is carried out in coordination and collaboration with Chief 
Employment Counsel and Chief Labor Relations Counsel. This ensures 
compliance with applicable laws and regulations including provisions of 
the Human Resources Act and the Congressional Accountability Act.
    Temporary Promotion Policy.--Completed the policy and procedures 
for supervisors to follow in proposing temporary promotions for 
employees. The policy provides for a uniform way of proposing, 
documenting, competing when necessary, and approving temporary 
promotions for AOC staff. Through this policy, Agency supervisors will 
be able to make a time-limited change of an employee's assignment, with 
a corresponding time-limited increase in pay.
    Work Detail Policy.--Completed the policy and procedures for 
supervisors to follow in proposing details (temporary work assignments) 
for their employees. The policy provides for a uniform way of 
proposing, documenting and approving details for AOC staff. Through 
this policy Agency supervisors will be able to temporarily assign an 
employee to a different position or set of duties, without a change in 
pay. The employee that is temporarily assigned to a different position 
or duties continues to officially occupy his/her position of record.
    Classification Appeals Policy.--Completed development of a 
classification appeal process for employees to use when the 
classification of their position (job title, series and/or grade) is in 
question. The process ensures that a thorough review and analysis of 
the position is completed; a specific report of findings is provided; 
and that HR staff meet to discuss the findings with the employee and 
the supervisor. The policy also provides for a third party (a neutral 
reviewer) to conduct the review in cases where this may be more 
appropriate.

               ADDITIONAL HUMAN RESOURCES ACCOMPLISHMENTS

    Delegations of Authority.--In June 1997, the Human Resources office 
was granted full delegated authority to carry out the wide range of 
personnel actions necessary to support and carry out the mission of the 
Agency.
    Informational Briefings.--The Human Resource staff has been 
conducting informational briefings for groups of supervisors and 
managers in each jurisdiction. The briefings cover temporary limited 
duty assignments, hazardous duty pay/environmental differential, 
updates to the disciplinary process, the Architect's Mobility Program, 
the Training Handbook and other Human Resource program areas. The 
briefings are one method HRMD is using to develop an ongoing, cyclical 
dialogue with Agency supervisors to assure they understand the policies 
of the Agency and our intent to create standardized policies and 
procedures across all of our jurisdictions.
    Earlyout and Buyout Program for the Senate Restaurants.--Based on 
Congressional authorization, developed program guidance, operating 
procedures, informational materials and facilitated counseling sessions 
to help employees decide if they were interested in applying for a 
buyout and/or earlyout during November/December 1997. The overall 
process, which required about three months of staff effort, resulted in 
23 employees accepting the separation incentive. Through a second 
buyout program, in fiscal year 1998, an additional 17 employees 
accepted a buyout. These efforts have resulted in an estimated saving 
of $1 million per year for the Senate Restaurants. In developing the 
guidance and procedures to administer this authority, we benchmarked 
similar activities at other agencies and completed a successful 
programmatic review conducted by General Accounting Office (GAO) staff. 
Our experience with this authority is that it is an effective tool that 
holds much promise as a component for re-engineering other areas of the 
Agency.
    Enhancing Supervisory Skills Workshop.--With the assistance of a 
training consultant, we developed and administered this workshop for 
all AOC supervisors. The mandatory three-day training session addressed 
numerous topics with a focus on refreshing and enhancing supervisory 
skills. This workshop was the first of what will be a series of 
training opportunities aimed at improving the management and 
supervisory skills of AOC executives, managers, supervisors, foremen 
and assistant foremen. Major components of this workshop included 
segments to: enhance communications with employees; provide basic 
skills and the tools to effectively and promptly address conduct and 
discipline issues; address methods for providing positive reinforcement 
to staff; and, allowed an open discussion and review of pressing 
problems/issues.
    Streamlining the Discipline Process.--In an effort to improve the 
timely and fair handling of disciplinary cases, we examined AOC's 
current process and procedure to identify areas where processing time 
for these actions could be reduced, without changing the existing 
policy. A number of areas were identified where supervisors, HRMD, and 
the Hearing Officers could be more time efficient. To help reduce the 
time it takes to resolve a disciplinary case, we developed processing 
time standards. A decision was also made to obtain the services of 
independent contractors, skilled in handling hearings, to assume the 
duties that have been carried out by AOC managers. In doing this, we 
have added an additional degree of independent objectivity and 
consistency to the review of cases in addition to improving overall 
timeliness of handling a disciplinary action.
    Reengineered the Employment Suitability Process.--In order to 
ensure that new employees are suitable, from a security perspective, 
for employment with the agency, we reengineered the appointment and 
suitability review process. In conjunction with the U.S. Capitol 
Police, we now conduct a criminal history review prior to appointing 
all applicants within the agency. This changed process will also 
minimize the disruption to mission related work and will improve our 
overall business practices.
    Contract Administration Training Initiative.--In collaboration with 
the Procurement Division, HRMD led an initiative to promote the 
training of contract project officers. A comprehensive program plan and 
schedule was developed to facilitate a contract project officer and a 
contract administration course. The first phase of this training 
program has been completed. This initiative will enable the agency to 
more efficiently and professionally handle the administration of 
contracts for services that will be performed for AOC. The next 
training initiative (to be completed during fiscal year 2000) will 
address the open market and small purchase procurement process.
    Position Management Review.--In coordination with the Budget 
Office, HRMD implemented an Agency-wide process that ensures completion 
of a budget analysis and a position management review prior to a 
position being approved for recruitment. The position management 
review, completed by this office, focuses on: the need for the 
position; duplication of effort or overlapping of functions; the 
appropriate supervisory span of control; and staffing alternatives to 
ensure the position is filled at the lowest possible grade (salary) 
level.
    Position Classification Studies.--Efforts in this area have 
resulted in:

  --Completion of a number of position classification review studies 
        including: raising the career ladder to the GS-13 level for 
        Architect positions in the Architectural Division; developing 
        GS-13 program manager positions in Engineering; and developing 
        GS-13 level positions in the Information Resources Management 
        Division.
  --Completion of a preliminary review of a random sample of Laborer 
        positions in the House, Capitol and Senate Office Buildings. 
        The review was completed in response to employee complaints 
        that their positions should be paid at a higher level. We found 
        that the majority of the positions were either properly graded 
        or were over graded. A broader study to review the proper 
        classification (title, job series and grade) of all Laborer and 
        Custodial Workers will be necessary.
  --Completion of a review of all the positions in the Botanic Garden 
        to determine the proper titles, series and grades of these 
        positions.

    Organizational Studies.--An organizational management review was 
completed for the Superintendent of the Capitol, resulting in a 
reorganization with consolidation of a number of shops. An 
organizational realignment, to consolidate the grounds staffs at the 
Supreme Court and the Library of Congress under the AOC Landscape 
Architect, was also completed. Currently, we are working with the 
Superintendent of the Senate Office Buildings, the Director of 
Engineering, and the Immediate Office of the Architect on a number of 
organizational issues. In addition, provided management and 
organizational analysis to establish the organization structure for the 
Financial Management System Program, the Capitol Visitor's Center 
Project Office, and the Life Safety Program Initiative.
    These efforts are part of our Strategic Planning and Organization 
Management efforts to develop sound, efficient, cost-effective staffing 
patterns for the Agency. This work will result in streamlined 
organizations with appropriate supervisor-to-employee staffing ratios. 
We also assess options that will facilitate the identification and 
development of centralized operations, and opportunities for multi-
tasked job assignments and upward mobility positions.
    CSRS to FERS Conversion.--AOC had over 900 employees who were 
eligible to convert from CSRS to the FERS Retirement System during the 
open season that concluded on December 31, 1998. We had a comprehensive 
strategy in place to inform eligible employees of the process, 
considerations, financial implications, etc. HRMD provided one-on-one 
counseling and retirement comparisons to any interested employee who 
considered making the change. In addition, 79 employees participated in 
either FERS Transfer briefings and/or individual retirement transfer 
counseling sessions provided by HRMD.
    AOC Electronic Job Announcements.--A procedure to ``post'' all AOC 
job vacancies on the Office of Personnel Management Job Information 
Home Page (www.usajobs.opm.gov) was developed and implemented. AOC 
vacancies can now be found by any interested applicant ``surfing'' the 
net. In addition, to foster increased opportunities for all AOC staff, 
we implemented a policy of advertising jobs Agency-wide. This replaced 
the existing practice of advertising jobs primarily at the jurisdiction 
level. This will not only provide more opportunities for current AOC 
staff, but ensures consideration of a broader pool of candidates. 
Should we anticipate that there would not be a broad cross section of 
available internal candidates, the vacancies would be advertised to all 
sources (both within the AOC and to outside sources). Our goal is to 
ensure that vacancies are filled using a fair and open competitive 
procedure.
    Human Resources Newsletter.--Developed and have been publishing a 
Human Resources Newsletter, Employee Matters, as part of the AOC 
Shoptalk. The newsletter provides AOC employees with current Human 
Resource information, program initiatives, upcoming events, training 
information, etc.
    Human Resources Web HomePage.--A new resource for AOC employees who 
have access to the AOC intranet has been developed. Employees can now 
find out about Human Resources-related information and policies on-
line. Since this is just the beginning of our venture into the website 
design, we will continue to modify and enhance the HomePage based on 
feedback. Currently, the HomePage contains:

  --Employee-wide notices issued by HRMD.
  --A complete HR staff roster with contact numbers and service areas.
  --The Uniform Policy and related documents.
  --Issues of Employee Matters.
  --Links to other sites such as TSP, Social Security and Federal Job 
        Opportunities including AOC jobs.
  --A feedback link to E-Mail a message to HRMD-Link.
    In the near future, the site will be expanded to include:
  --Every current AOC human resources policy.
  --Mission-related information about HRMD and its branches, including 
        each of the services and programs we provide.

             HUMAN RESOURCES INITIATIVES CURRENTLY UNDERWAY

    AOC Year 1 Reengineering Plan using Buyouts and Earlyouts.--Based 
on Congressional authorization, we developed program guidance, 
operating procedures, and informational materials. We conducted 20 
employee group briefings and provided 195 one-on-one retirement/
resignation counseling sessions to assist employees interested in 
applying for a buyout and/or earlyout during the application window of 
June 1-August 6, 1999. We received and approved 73 buyout requests. Our 
plan provides for the filling of 72 of the vacancies (46 positions are 
being reengineered to be advertised and filled as various needed 
disciplines; 26 positions will be filled in-kind--the position to be 
filled will be the same type of position as was vacated).
    AOC Year 2 Reengineering Plan using Buyouts and Earlyouts.--A 
proposal will be submitted in January-February 2000, for Congressional 
authorization.
    Performance Evaluation System (PES).--A plan was developed and 
implemented to review and make necessary program and policy changes to 
revamp the AOC PES. Focus groups comprised of supervisors, foremen, 
employees and managers were used to assist in the initial phase of the 
review. A cross jurisdictional workgroup of AOC staff, including Union 
representation, worked with HRMD staff to help develop proposals for 
necessary changes to revamp the system. A number of program and policy 
enhancements are being adopted which will provide for a more usable 
system. The revamped PES program is in the final review process. The 
implementation plan provides for union negotiations, approval of the 
final policy by the Architect, and implementation Agency-wide. Program 
implementation is projected during the February-March 2000 time frame.
    Awards Program.--An awards policy/program to establish a 
comprehensive incentives and recognition program, including provisions 
to pilot monetary and time off awards is being developed. Providing an 
incentive system, that recognizes performance, productivity and 
exceptional employee contributions toward fulfilling our mission, will 
serve to reinforce service excellence, professionalism, creativity, and 
teamwork AOC-wide. A draft Agency policy has been reviewed by senior 
Agency managers and suggested revisions are being made. Project 
completing a final proposal for management review by March-April 2000. 
(Prior to implementation, necessary union negotiations will need to be 
completed).
    AOC Pay Flexibilities Policy.--We have completed a draft proposal 
for several pay flexibilities--Retention Allowances, Recruitment 
Bonuses, and Superior Qualifications Appointments. These pay 
flexibilities will provide the option for paying a monetary incentive 
to; retain a high quality employee that may be looking to leave the 
Agency; better attract high quality candidates during the Agency's 
recruitment process; and grant a higher step of a grade in appointing a 
uniquely skilled individual to fill a critical position. A draft Agency 
policy has been reviewed by senior Agency managers and suggested 
revisions are being made. Project completing a final proposal for 
management review by late April-May 2000. (Prior to implementation, 
necessary union negotiations will need to be completed).
    Employee Safety and Protection.--In collaboration with the AOC 
Health and Safety Office, HRMD has been actively addressing employee 
safety and protection in the workplace. We developed and implemented 
(with union concurrence) an employee uniform policy in the Senate 
Office Buildings, the House Office Buildings, the Botanic Gardens and 
the Capitol Grounds. We are also working to ensure that we have program 
and policy guidance to address other employee personal protection 
issues such as protective clothing, eye protection, safety shoes, etc., 
to further support AOC health, safety, and training initiatives.
    Review of all Laborer and Custodial Worker Positions.--A study to 
review the proper classification (title, job series and grade) of all 
Laborer and Custodial Workers was initiated in mid January 2000 and is 
expected to take several months for completion. The study is in 
response to employees complaints that positions are not properly 
classified and as a result of a previously completed review of a random 
sample of positions in the House, Capitol and Senate Office Buildings.
    Human Resources Process/Systems Reengineering.--In the same fashion 
that the discipline process was streamlined to reduce processing time, 
we are systematically reviewing and revamping other HR processes and 
procedures so they are more responsive to management and employee 
needs. Even though this requires us to make a large investment of time, 
addressing these initiatives and the business of modernizing AOC's 
Human Resources programs are being approached with a great degree of 
enthusiasm by the HRMD staff. Our current focus is the re-engineering 
of the operating processes and procedures followed by the Employment 
and Services Branch. Staff workgroups are systematically analyze, 
modernize, simplify and implement new ways of doing business in a 
number of areas including: recruitment, pay and benefits processing, 
retirement counseling and program administration, health and life 
benefits administration, etc. A few examples of accomplishments to date 
include:

  --Development and implementation of a Human Resources Staff 
        Competency Development Model. The model provides a road map for 
        the professional, technical, and career development of the HR 
        staff.
  --A pilot employee benefits group has been formed to provide more 
        responsive, focused services tailored to individual employee 
        needs. The group provides one-on-one services in retirement 
        counseling, health and life benefits, thrift savings, and 
        resolution of other employee needs.
  --An employee suitability procedure was revamped to ensure a more 
        timely responsive review of employment suitability for 
        prospective employees and contractors. The process provides for 
        close coordination of employee suitability with the U.S. 
        Capitol Police.
  --A team was identified to provide continuous assistance to Agency 
        managers in addressing ongoing operational issues. Through 
        regular participation in jurisdictional staff meetings or 
        working with individual or groups of employees the team.
  --Developed and implemented two informational/communications tools to 
        provide guidance to employees and to supervisors on emerging 
        issues. Tools Of The Trade are guidance documents for managers 
        and supervisors on how to handle specific program, policy or 
        operational issues. HR Bulletins are informational issuances to 
        all employees regarding important upcoming activities/events.

    Labor Management Relations and Negotiations.--With the election of 
a union to represent approximately one-third of the Agency's workforce, 
HRMD now has additional program responsibilities to carry out in 
collaboration with the Labor Relations Attorney. HRMD is working with a 
wide variety and a significant number of day-to-day union issues as 
well as serving on the management negotiation team. They regularly 
participate in meetings with union officials to address specific issues 
or concerns and to provide information. The staff is devoting a 
considerable amount of time to carry out negotiations with the union on 
a labor-management contract as well as on specific policy issues.
    Supervisor and Employee Handbooks.--Under two separate initiatives, 
we are developing a Supervisory Handbook for Managing Human Resources 
and an AOC Employee Handbook. Both publications are designed to provide 
both supervisors and employees with relevant and accurate AOC policies, 
procedures, processes, programs, and benefits.
    Workers' Compensation Program.--HRMD has initiated a concerted 
effort to develop a comprehensive program to address the high workers' 
compensation costs being incurred by the Agency. We have developed a 
Three-Year Strategic Plan with goals of: returning claimants to work 
following an injury; proactively managing cases and medical care; and 
containing costs and reducing lost work time. Some of our 
accomplishments to date include:

  --Implementation of a Memorandum of Understanding with the Office of 
        the Attending Physician to provide medical consultation in 
        connection with work-related injuries/illnesses;
  --A limited duty program that can provide limited duty to every 
        partially disabled employee injured on the job;
  --Development and implementation of a Workers' Compensation Tracking 
        System to provide managers, supervisors, the Health and Safety 
        Office, the attending Physicians's Office and the Human 
        Resources Office with immediate access to new injury cases as 
        they occur, for performing mishap investigations, generating 
        injury reports, and for identifying and tracking injury trends.
  --Completed a review of 396 workers' compensation claims, implemented 
        48 corrective actions, returned 93 employees to work in limited 
        duty work assignments, returned 14 employees to full duty from 
        our short term and long term rolls, and canceled 2 employees' 
        ineligible cases.
  --Working with the Office of Workers Compensation, we completed a 
        review of 101 long-term cases and have requested their 
        intervention in 20 cases for possible rehabilitation, re-
        employment or reduction of benefits.
  --Completed detailed research into a number of potentially fraudulent 
        cases. Based on our findings, we have referred and requested a 
        complete administrative review of 15 workers compensation cases 
        by the Department of Labor.

    We will continue to develop specific initiatives, in conjunction 
with the AOC Health and Safety Office and with the Attending 
Physician's Office, to systematically address each aspect of workers' 
compensation, to provide for a proactive return to work program and to 
aggressively pursue cases of potential fraudulent claims.
    Forging New Business Relationships.--HRMD has been working with 
several organizations across the campus:

  --The U.S. Capitol Police to establish joint efforts to successfully 
        and safely deal with potential workplace issues;
  --The Office of the Attending Physician and the Occupational Health 
        and Safety staff to develop better program linkages with regard 
        to workers compensation, training and other program areas; and
  --Participating in initial discussions with the Sergeant at Arms and 
        the Chief Administrative Officer on potential areas for mutual 
        cooperation.

    The staff is actively participating on several executive agency 
forums: a member of the Small and Independent Federal Agencies 
Personnel Group; a member of the Office of Personnel Management's Human 
Resource Accountability Workgroup; participate in the Classification 
and Compensation Society forums; and are actively involved in the 
Federal Safety and Health Council.

                  UPCOMING HUMAN RESOURCES INITIATIVES

    This is a brief summary of HRMD initiatives on the horizon:
    Leave Administration.--Guidance and instructions being used by the 
various jurisdictions are being collected in an effort to assess how 
leave is administered across the AOC. We want to look at options for 
developing more standard policies and procedures for handling the 
various aspects of leave administration including:
  --Process for requesting and approving leave (annual, sick, without 
        pay, etc.).
  --Process for annotating and documenting tardiness.
  --Process for annotating, documenting and initiating action to 
        address AWOL situations.

    As an initial effort, based on initial findings HRMD is developing 
several Tools Of The Trade for managers and supervisors to address 
appropriate documentation and use of sick leave and tardiness. A 
comprehensive review and update of the Agency policy will be planned as 
a future program initiative.
    Records Management.--HRMD is reviewing the information AOC 
organizations currently maintain about the employment and conduct of 
individual employees with the goal of developing guidelines to 
standardize these practices. Individual supervisors and managers may 
find it convenient to maintain unofficial personnel records containing 
information about their employees for purposes of initiating personnel 
actions, tracking leave usage, and recommending discipline. The 
information maintained might duplicate some of that in the employee's 
Official Personnel Folder, but may include copies of additional 
material such as employee's counseling, incident reports, and 
supervisory notes. In order to provide consistency in the content and 
manner in which employee information is kept, HRMD will develop 
guidelines to govern what documentation may and may not be maintained, 
as well as general information on the employee's right to review it.
    Update and Revamp the AOC Conduct and Discipline Policy.--The AOC 
operating process and procedures for handling conduct and discipline 
matters will be reviewed and updated. The existing process is rather 
cumbersome and can be very time intensive. The necessary procedural 
steps in administering the disciplinary process will be streamlined.
    A Comprehensive Wage and Pay Administration and Hours of Duty 
Policy.--In addition to current work efforts on the AOC's Pay 
Flexibilities Policy, HRMD will look into developing a more uniform, 
comprehensive, way of addressing wage and pay matters to cover holiday 
pay, overtime, tours of duty, etc. This effort will standardize pay 
administration and work scheduling across the Agency and provide clear 
operating guidelines for AOC supervisors to follow.
    Human Resources Management Information System.--Based on program 
and management needs, research is needed to actively pursue 
modernization of HR information management systems. The lack of an 
automated system results in very labor intensive efforts on behalf of 
Agency managers, administrative staff, the HR staff, and the 
Information Resources Management staff in completing day-to-day 
business transactions. An automated system would not only greatly 
reduce the necessary paperwork, but would also reduce the processing 
time for personnel actions and would facilitate generation of necessary 
Agency and Oversight Committees' reports. Such a system would be able 
to provide for: on-demand, accurate, management reports for program 
analysis; processing of personnel actions; personnel forms; position 
classification process; simple, protected, employee access to their 
personal pay, benefits, retirement, insurance, and other employment 
related information.
    Human Resources Process/Systems Reengineering.--The staff will 
continue to reengineer, streamline and revamp our operating processes 
and procedures with the goals of reducing processing time and providing 
more responsive customer services. Following the model we used in the 
conduct and discipline process (previously addressed in this report), 
we will complete a process to streamline and reengineer operating 
processes and procedures in the Employment and Services Branch and then 
replicate the model in the Classification and Pay Administration 
Branch, the Management and Employee Relations Branch, and the Employee 
Development and Communications Branch.
    Our organizational goal is to be more responsive in meeting the 
needs of our AOC customers, and provide timely, cost-effective HR 
services. We envision Human Resources as a proactive partner and 
resource in advancing the AOC mission of being an innovative and 
efficient team dedicated to service excellence and to preserving, 
maintaining and enhancing the national treasures entrusted to our care.

Appendix D.--Initiatives Regarding the Congressional Accountability Act

                              INTRODUCTION

    Enacted in 1996, the Congressional Accountability Act of 1995 (the 
CAA) affords all AOC employees, and their union representatives a 
process by which to present allegations regarding workplace matters 
before the independent Office of Compliance. In addition, the CAA 
requires the Office of Compliance General Counsel to conduct complex-
wide inspections to guarantee workplace safety and health.

               COMPLAINT PROCESS IN DISCRIMINATION CASES

    An employee who wishes to allege violations of the CAA may request 
counseling and mediation from the Office of Compliance. Individuals who 
wish to file such requests need not put in writing, or prove, any 
allegations during formal counseling, mediation or before entering the 
formal litigation process. At mediation the AOC must be ready to 
respond to any employment-related matters, including discrimination, 
wage and hour and family leave issues, or other workplace issues, 
without regard to the legal merits of claims. The CAA and the Office of 
Compliance procedural rules require that all mediation and formal 
hearing proceedings are strictly confidential and require parties to 
sign agreements to that effect.
    After the mediation period, a complainant or a designated 
representative may initiate the litigation process by filing a formal 
complaint in the Office of Compliance or a civil action in Federal 
Court. (The CAA requires that Formal Complaint cases be kept 
confidential. On the other hand, Federal court cases are not 
confidential.) There are currently 14 active district court cases 
naming the AOC as the defendant. In the 15 cases in which courts have 
ruled, the AOC has received favorable rulings, including dismissals.

                     DISCRIMINATION CASE STATISTICS

    Based on the official figures provided by the Office of Compliance 
(the OC) for calendar year 1999, individuals filed 311 requests for 
counseling naming the AOC as the respondent employing office. (The 
filing of such requests is a pre-requisite to filing a Request for 
Mediation upon which the OC first informs the AOC of the existence of a 
complaint from an employee.) The OC only discloses numerical statistics 
in this area and has not authorized the release of any information in 
these cases. The Office of Compliance proceedings concerning these 
requests by law are strictly confidential. As stated above, 14 active 
cases are currently pending in federal court.

          OCCUPATIONAL SAFETY AND HEALTH PROVISIONS OF THE CAA

    Section 215 of the CAA directs the Office of Compliance General 
Counsel to inspect any area or activity within the jurisdiction of 
employing offices, including all of the buildings within the AOC's 
jurisdiction with respect to compliance with occupational safety and 
health standards. (As of January 1998, the Library of Congress, 
separate and apart from the AOC, is covered by this provision regarding 
its own activities.) The OC General Counsel conducts inspections of all 
such locations at least once every Congress, but also whenever an 
employee or an employee representative requests an inspection.
    The CAA empowers the General Counsel to issue a citation or notice 
when he has reason to believe that a violation of Section 215 of the 
CAA has occurred. The General Counsel's issuance of a citation or 
notice by itself does not establish that there has been a violation of 
the CAA. If the General Counsel issues a complaint against an employing 
office in the CAA process, an independent hearing officer conducts a 
hearing at which the OC General Counsel and the employing office may 
present arguments as to whether the facilities or work practices are in 
compliance with the law. A hearing officer's decision may be appealed 
to the OC Board of Directors and then to the Federal Circuit Court of 
Appeals.
    Beginning in January 2000 the OC General Counsel is conducting a 
periodic inspection of the Capitol Hill complex and other facilities 
under the jurisdiction of the AOC. Also, in calendar year 1999, in 19 
cases the OC General Counsel has conducted individually requested 
inspections of certain facilities. These inspections may be narrowly 
focused on one location or activity or involve facilities and 
activities across the Capitol Hill complex, such as the ongoing fire 
safety inspections of all of the buildings under AOC jurisdiction, 
mentioned below. The AOC has been fully cooperative in the inspection 
process and has responded to each issue raised.
    In late April 1999, the General Counsel cited the AOC for the lack 
of roof fall protections on the Capitol Building and for failing to 
test for the Legionella bacteria at the frequency that he felt 
desirable in the East Towers of the Capitol Power Plant. With regard to 
the first issue, the AOC was well underway with its plan to provide for 
fall protection, not only on the Capitol Building, but on all of the 
buildings in the complex. In the second matter, the AOC had already 
begun its seasonal testing for the Legionella bacteria at the East 
Towers when the citation was issued. At the suggestion of the OC 
General Counsel, the testing is now done on a weekly basis. All tests 
at all the cooling towers of the Capitol Power Plant have been 
negative.
    In July 1999, citations were issued concerning inspection and 
maintenance of certain electrical components of the system in the James 
Madison Memorial Building of the Library of Congress. Pursuant to the 
recommended abatements in the citations, the AOC conducted tests and 
maintenance of the subject electrical switchgear, as well as the 
switchgear throughout the building. The AOC also initiated a training 
program to ensure that safe electrical practices, including the de-
energizing of electrical lines, as necessary, are followed. Finally, 
the AOC established a procedure to notify the Library police and others 
in writing when any part of an alarm system is out of service for 
repairs. These actions abated the alleged violations noted in the 
issued citations. Beyond that, the AOC has initiated the process for 
designing and, as funding permits, installing new switchgear equipment 
throughout the Madison Building.
    Pursuant to several January 1999 requests for inspection by AOC and 
Library of Congress union representatives, the Office of Compliance is 
continuing to conduct inspections of all the buildings in the Capitol 
complex regarding fire safety. As discussed elsewhere, even before 
these inspections began, the AOC had ongoing efforts to identify and 
address the issues concerning fire safety in buildings under its 
jurisdiction and care.

         Appendix E.--Initiatives in Labor-Management Relations

                              INTRODUCTION

    Provisions under the Congressional Accountability Act, Public Law 
104-1 (CAA), afford all eligible AOC employees the right to choose an 
exclusive representative to engage in collective bargaining with 
Employing Offices. Since the CAA's passage, seven different groups of 
AOC employees have exercised this right. One representation petition is 
currently pending for an additional proposed unit of Masons employed at 
the AOC. The following discussion describes labor-management relations 
activities that have taken place over the past three years.

                          FORMATION OF UNIONS

    In August, 1997, the first bargaining unit at the Architect of the 
Capitol (AOC) was established. Approximately 600 laborers, custodians 
and other occupations were organized by AFSCME Council 26, Local 626, 
which was certified by the Office of Compliance as the first exclusive 
bargaining agent for AOC employees.
    In November, 1998, AFSCME Council 26, Local 626 was certified by 
the Office of Compliance as the exclusive representative of a unit of 
production and maintenance employees at the United States Botanic 
Garden.
    On January 13, 1999, Plumbers Local Union No. 5, United Association 
of Journeyman and Apprentices et al. was certified as the exclusive 
bargaining agent, by the Office of Compliance, for a unit of plumbers 
employed by the AOC's Construction Management Division. The AOC and 
Plumbers Local 5 have met twice to discuss potential contract issues. 
To date, no proposals have been presented for bargaining.
    On August 17, 1999, the International Brotherhood of Electrical 
Workers, Local 26, was certified by the Office of Compliance as the 
exclusive bargaining agent for a unit of journeyman electricians 
employed by the Construction Management Division.
    On October 14, 1999, AFSCME Local 626 was certified by the Office 
of Compliance as the exclusive representative of laborers and coal 
loaders at the Capitol Power Plant. This is an addition to the existing 
unit consisting of other laborers and custodial workers in the House 
and Senate Office Buildings and the Capitol.
    On October 16, 1999, Sheet Metal Workers' International 
Association, Local Union No. 100 was certified by the Office of 
Compliance as the exclusive representative of sheet metal workers 
employed by the Construction Management Division of the AOC.
    On November 15, 1999, the Washington D.C. Regional Council of 
Carpenters, United Brotherhood of Carpenters and Joiners of America was 
certified by the Office of Compliance as the exclusive representative 
of carpenters employee by the Construction Management Division of the 
AOC.

                           UNION NEGOTIATIONS

    The AOC and AFSCME Local 626 have negotiated the following 
agreements:
  --Uniforms for Senate Office Buildings and Capitol Building employees
  --Time Clocks for Capitol building employees
  --Official time and the Number of Designated Union Officials
  --Dues deduction
  --Architect's Mobility Program
  --Overtime assignments at the Botanic Garden
    Several articles of the Master Contract
  --Ground Rules for Master Contract Negotiations.
  --Negotiability issues for Master Contract Negotiations
  --Reassignments for House, Senate and Capitol personnel
  --Buy-Out, Early Retirement
  --Transfer of Custodial Employees
  --Uniforms for U.S. Botanic Garden Employees
    To date, negotiations have not begun with the other certified Union 
representatives.

                 LABOR-RELATIONS MEETINGS/NEGOTIATIONS

    At least 60 labor-management meetings have been held during the 
past year to discuss various issues, including staffing, time and 
attendance, training opportunities, change in work assignments, 
discipline, health and safety.

                      MASTER CONTRACT NEGOTIATIONS

    Collective bargaining between AFSCME Local 626 and the AOC began on 
July 21, 1999 to negotiate the first comprehensive master contract 
agreement between the AOC and a labor organization. On September 20, 
1999, negotiations were completed with 4 issues remaining, yet to be 
resolved. Parties have agreed to meet on January 28, 1999 to resolve 
these final issues so that an agreement may be implemented by early 
Spring.

                 ALLEGATIONS OF UNFAIR LABOR PRACTICES

    During the past three years, twenty-seven unfair labor practice 
charges were filed by various organizations representing AOC employees. 
Seventeen were withdrawn, six were dismissed, and a settlement was 
reached in one case involving the reassignment of employees. One charge 
involving dues deductions was investigated by the Office of Compliance 
and a complaint was issued. The AOC was found to be in violation and 
required to post the remedial Order. Another charge alleging violations 
based on, inter alia, the denial of official time to a union 
representative is under investigation. A separate charge, filed by the 
Electrical workers' union (IBEW, Local 26), alleges the discriminatory 
lay-off of an employee due to his union activities. That charge 
currently is under investigation.

      Appendix F.--Status of Selected Capital Improvement Projects

U.S. Botanic Garden Conservatory Renovation

    The contract for the renovation of the U.S. Botanic Garden 
Conservatory was awarded to The Clark Construction Group, Inc., of 
Bethesda, Maryland, in September 1998. The company was issued a Notice 
to Proceed in the same month and extensive work presently underway is 
clearly visible to passers-by. The renovation and reconstruction of the 
1933 Conservatory will totally replace and modernize its building 
systems while retaining its architectural character. The initial award 
is for the renovation of the structure (including the interior 
landscapes) and installation of water treatment, security and 
environmental control systems. The staff of the U.S. Botanic Garden 
will install the plant exhibits in each house of the Conservatory.

Roof Fall Protection Program

    The objective of this complex-wide program is the design and 
installation of roof protection systems on all buildings as required to 
comply with OSHA safety standards. Presently 100 percent design is 
complete for the U.S. Capitol, Senate Office Buildings, House Office 
Buildings, Library of Congress Buildings, Botanic Garden Growing 
Facility and the Capitol Power Plant. Systems for the U.S. Capitol dome 
and 501 First Street are being designed under separate projects. The 
U.S. Capitol has modified railings, walkways and flagpole access 
conditions by reprogrammed funds. Work on flagpole access at the 
Capitol and the Russell Senate Office Building are in progress. 
Construction contracts have been awarded for the fabrication and 
installation of complete fall protection systems for the Longworth 
Building, U.S. Capitol Police Headquarters and Webster Hall. The 
balance of the program awaits construction funding .

Dome Rehabilitation

    The 135-year-old Capitol Dome is undergoing a rehabilitation to 
ensure its protection and preservation into the next century. 
Construction phasing was determined early in 1998; several studies and 
pilot projects and an interim master plan associated with the first 
phase were also completed, paving the way for the preparation of 
construction documents and the issuance of an Invitation for Bid. The 
phase one construction contract was awarded to The Aulson Company of 
Methuen, Massachusetts, on January 11, 1999, and the work has proceeded 
well. It is approximately 65 percent complete with the current phase of 
work scheduled to end in late April 2000. Temporary repairs to the 
guttering systems, resealing of exterior joints and painting areas of 
bare metal will be added to this phase to prepare the Dome for a hiatus 
in rehabilitation. This work may extend the contractor's presence on 
the site through mid-summer 2000, but should not defer removal of the 
Rotunda protective netting prior to the end of April.
    The final review submission of the design documents for phase two 
has been reviewed by the staff and comments have been issued to the 
consulting team for their completion by late February 2000. The hiatus 
in construction will allow for any additional defects discovered in the 
completion of Phase I to be incorporated into the documents prior to 
bidding. Funding for phase two will be requested in fiscal year 2002 
and is expected to be completed in calendar year 2005.

Library of Congress Book Storage Modules

    Work has begun on the first of a series of book storage modules to 
be built for the Library of Congress on 100 acres of land at Ft. Meade, 
Maryland, under jurisdiction of the Architect. The contract for 
construction of LOC Book Storage Module 1 and an adjacent office 
component, as well as for initial site preparation and development 
work, was awarded on April 12, 1999. The first storage module (of an 
anticipated total of 13) is 8,000 square feet, and the office component 
is 5,000 square feet exclusive of mechanical equipment space. 
Construction began August 3, 1999 and is expected to be completed in 
the late fall of 2000. Future modules, not tied to additional office 
components, may be larger in size.

Underground Storage Tanks

    The Architect complied with the December 22, 1998 temporary closure 
deadline mandated by the Environmental Protection Agency, and the 
December 22, 1999 deadline for addressing all relative environmental 
concerns. The work was accomplished utilizing a combination of U.S. 
Army Corps of Engineers' contractors, and two other private 
contractors. A replacement gasoline tank and dispensing equipment is 
still in planning. The design should be completed by March 1, 1999. 
Installation will occur as soon as all procurement issues are settled.

  Appendix G.--Report on Architect of the Capitol Year 2000 Readiness

    The Year 2000 Computing Crisis (Y2k) project at the office of the 
Architect of the Capitol was initiated in response to the growing 
awareness of the potential computing problems associated with the 
change from the year 1999 to 2000. In preparing for Y2k risks, the AoC 
implemented the wide range of guidelines established by the General 
Accounting Office (GAO).
    The project at AoC was initiated with the major focus on 
Information Technology systems, including: the Unisys mainframe 
supporting the accounting systems, the network environment supporting 
office automation and internal mail, the Senate Restaurants financial 
systems, and other critical systems. As awareness of Y2k's potential 
impacts grew, so grew the responsibility of the Y2k project to include 
building infrastructure systems including: power, elevators, climate 
control, and the reliance on external utility providers. With this 
expansion of coverage, came the additional responsibility of 
coordinating the building infrastructure Y2k activities of all 
legislative organizations. These common activities included: sharing 
information about AoC compliance activities, sharing information from 
the external utilities, Day-1 planning, and Day-1 communications. The 
diligence and determination of the AoC Y2k team ensured the success of 
AoC's Y2k compliance.

Project Analysis

    The Y2k project was initiated in early 1997 when AoC's Office of 
Information Resources Management (OIRM) established a Y2k planning 
committee. The committee included representatives from the various 
disciplines in order to elevate the awareness of the project throughout 
the agency. The committee performed assessments of all AoC operations 
and developed a list of core business processes, highlighting those 
that had one or more components subject to Y2k risks. The original 
mission critical systems list contained 15 systems. Each system owner 
was then tasked with analyzing the system to determine the level of 
risk and the cost and complexity of correcting deficiencies. As the 
AoC's Y2k awareness expanded, and with guidance from GAO, the number of 
mission critical systems grew to 42.
    As the leader of the AoC Y2k project team, the Director of OIRM was 
responsible for monitoring, implementing, and reporting on AoC's 
advancement toward Y2k compliance. The AoC Y2k project team provided 
system owners with guidance about compliance and worked with vendors 
and owners to ensure that all remediation activity was fully supported 
and appropriate to the associated level of risk. Concurrent with system 
upgrades, the AoC Y2k project team developed contingency plans for such 
diverse systems as electric power, water supply, building climate 
control, Botanic Garden climate control, Senate Restaurant operations, 
and more. These contingency plans along with validation checklists were 
documented in the AoC's Contingency & Day-1 Plan.
    As the year 2000 approached and each legislative organization 
continued to develop its own Y2k plans, the need for inter-agency 
communication became obvious because many of the Y2k risks that the AoC 
was planning for were also being planned for by other legislative 
agencies. In February 1999, the Director of AoC's OIRM initiated and 
led the Legislative Branch Y2k Coordination Group (Group) which had 
participation from all 13 legislative organizations and the Supreme 
Court Marshal's office. The Group came to consensus on a number of 
planning assumptions, common planning horizons, and development of an 
inter-agency critical incident command center (CICC). These were all 
documented in the Group's Day-1 Guide which was distributed to each 
organization and to congressional leadership. A November 4 table-top 
exercise tested the effectiveness of the CICC and prepared the 
participants for possible decision-making scenarios that Y2k failures 
could have produced.
    No additional funds were expended to develop the AoC control center 
or the CICC. All hardware and software to support the centers was 
borrowed from participating organizations and the expertise for 
developing the communications and system validations were provided by 
AoC and other Legislative branch agencies.
Project Results
    Due to detailed planning, extensive renovations, and good 
communications, the result of the Y2k project at the AoC was a fully 
successful rollover from 1999 to 2000. The systems under AoC 
responsibility were monitored prior to, during, and after the year 
rollover, and no problems were reported either internally or from 
external providers.
    Communication flowed as it was designed. As information about 
systems was gathered in the buildings and from the utilities, it was 
reported to the AoC command center, who in turn shared this with the 
other jurisdictions, and with the CICC. The CICC provided a great forum 
for sharing concerns of the legislative organizations, and ensured that 
in the event of a Y2k disruption, the right people would have been 
available to make the appropriate decision. Due to the overwhelmingly 
positive results of the system validations on January 1, 2000, the AoC 
control center and the CICC were decommissioned in the early morning 
hours. Other internal AoC system validations continued during the day, 
but no problems were reported or documented.
    The Legislative branch group was a great success in cooperative 
planning development. All participants were able to express the views 
of their organization, and consensus reaching was attempted in a 
cooperative and positive manner. It is a good model for other projects 
that have Capitol complex-wide implications. The Sergeant at Arms of 
the U.S. House of Representatives has expressed interest in 
implementing a similar ``CICC-type'' group for such events as the State 
of the Union Address and the Presidential Inauguration.

         Appendix H.--Financial Management System Improvements

                              INTRODUCTION

    The AoC is pursuing the upgrading and integration of information 
systems and business practices in order to provide a business 
environment that provides timely access to reliable information. 
Currently, AoC's various systems do not share information or common 
data definitions. The implementation of a new Financial Management 
System (FMS) and the integration of other systems with FMS will be a 
major step towards AoC's system integration goal. The FMS 
implementation will also lead to the AoC's first preparation and audit 
of financial statements. These goals are fully consistent with the 
Vision Statement of the Legislative Branch Financial Manager's Council, 
which the agency has adopted. The AoC is currently in the beginning 
stages of the FMS implementation.
    The AoC requires a new financial system that is compliant with 
Federal standards, easily integrated with other systems, provides 
timely and accurate information and contains electronic workflow 
capabilities. The new core financial system must be tightly integrated 
with the inventory system, the facilities management system (CAFM), the 
human resources system, and the project tracking system. The 
integration of the CAFM system with the core financial system is a 
critical goal for the AoC in order to perform proper cost accounting 
and analysis of the facilities management activities (as recommended in 
a House Inspector General report dated 9/1/98). This goal requires the 
new financial system to operate on a modern easily integratable 
technical platform and provide extra user defined data elements for 
capturing AoC unique information required for linking the systems (such 
as work order number).
    The new Financial Management System, which will be compliant with 
all Federal standards, will be implemented in phases. The first phase 
will be the implementation of the Standard General Ledger, and 
interfaces with the current accounting system and payroll system. 
Subsequent phases will include the implementation of other modules of 
the core system (such as budget execution, purchasing, accounts 
payable), and the gradual phase out of the current financial system. 
Also included in subsequent phases is the integration of the facility 
management system (CAFM), the implementation and integration of a more 
robust project tracking system, the implementation of a contracting 
procurement module, and the implementation of inventory and fixed 
assets modules. The human resources system will also be enhanced to 
provide the financial system with more detailed labor information for 
performing cost accounting.
    In order to ensure all the proper steps are taken in the 
procurement and implementation of a new system, and to ensure continued 
support from top management, the AoC has organized a steering committee 
made up of executives from various AoC user groups and financial system 
executives from GAO, the LOC and other Legislative Branch agencies. The 
purpose of the committee is to provide advice and feedback regarding 
the implementation of a new financial management system and to provide 
a forum for addressing high level project issues.
    The Legislative Branch Financial Manager's Council (LBFMC) is 
currently pursuing an initiative to have all Legislative Branch 
agencies eventually implement the same financial management software. 
The AoC's phased approach to implementing FMS through a cross-servicing 
arrangement with another Federal agency is consistent with this LBFMC 
initiative. In addition, the AoC is prepared to participate in the 
LBFMC proposed Concept of Operations Study.
    Pending approval of fiscal year 2001 funding, a pro forma audit of 
the fiscal year 2001 financial statements will be performed. A pro 
forma audit evaluates the sufficiency of the financial statements 
without issuing a formal audit opinion and without performing an in-
depth review of the detailed transactions that make up the balances. 
The pro forma audit will prepare the AoC for the full audit that is 
expected to be performed for the fiscal year ending 9/30/02. Since the 
new financial management system is being implemented in a phased 
approach, this is the soonest a full audit can be performed.

                        ACCOMPLISHMENTS TO DATE

Prepared Alternatives Analysis for the Implementation of a Financial 
        Management System

    As recommended by the FMS Steering Committee, an alternatives 
analysis was developed evaluating the various alternatives for 
implementing a new financial management system. The alternatives 
analysis compared the advantages and disadvantages of enhancing the 
current system, cross-servicing a system from another Federal agency, 
and purchasing a new financial management system. The alternatives 
analysis was completed on June 18, 1999 and issued to the FMS Steering 
Committee for review and comment.
    The Alternatives Analysis recommended that the AoC cross-service a 
modern financial management system through another Federal agency 
rather than purchase its own software package. The cross-servicing of a 
financial management system allows the AoC to obtain the software 
quicker and at a discounted price. Cross-servicing also reduces the 
technical risk of implementing a modern client-server system. The 
recommended system (American Management System's client-server Momentum 
product) provides a technical platform and other functionality that 
allows the AoC to move forward with its system integration and cost 
accounting goals.

Entered into a Cross-Servicing arrangement for a Financial Management 
        System

    The FMS Steering Committee favored the cross-servicing of a client-
server financial management system through the Department of the 
Interior. The American Management System's Momentum software package is 
being implemented at the AoC through a cross-servicing arrangement with 
the Department of Interior's National Business Center (franchise fund 
agency). Two interagency agreements were issued to fund the first phase 
of the project. An interagency agreement was issued on 9/23/99 using 
fiscal year 1999 funding and an additional interagency agreement was 
issued on 10/21/99 using fiscal year 2000 funding.
Prepared FMS Implementation Plan for the Phased implementation of FMS
    An implementation plan was issued to the House and Senate 
Appropriations Committees on 12/14/99. The plan defines the FMS 
implementation in four phases, addresses the risks, defines the 
technical responsibilities and specifies the estimated funding 
required. For each phase of the project the major tasks that need to be 
performed are described.
Hired Staff to Perform the FMS Implementation
    Two Senior Systems Accountants were hired in October, 1999 to 
perform the tasks required to implement the new system. Two additional 
Systems Accountants are in the process of being hired and should be on 
board in February 2000.

Began the Implementation of Phase 1 of the Financial Management System 
        (FMS)

    Phase 1 is the implementation of the Standard General Ledger and 
interfaces to the current accounting and payroll systems. The current 
financial system will continue to be used for all current functions. 
The planned implementation date for beginning production operations of 
Phase 1 FMS is October, 2000. The following tasks have been 
accomplished for the implementation of Phase 1 of FMS:

  --Developed detailed task plan and schedule for Phase 1 of the FMS 
        Implementation
  --Developed requirements for payroll interface with FMS
  --Developed requirements for interface with the current financial 
        system with FMS
  --Developed SGL chart of accounts and GL posting models
  --Defined accounting classification codes and budget structure

               UPCOMING FINANCIAL MANAGEMENT INITIATIVES

Complete the Implementation of Phase 1 of the Financial Management 
        System (FMS)

    Phase 1 is the implementation of the Standard General Ledger and 
interfaces to the current accounting and payroll systems. The following 
tasks will be performed to complete the implementation of Phase 1 of 
FMS:

  --Complete the design, development and testing of the payroll 
        interface with FMS
  --Complete the design, development and testing of the interface with 
        the current financial system with FMS
  --Configure the software package for Phase 1 FMS
  --Perform a pilot test of the configuration of the software
  --Develop reports
  --Train system users
  --Develop user data entry procedures
  --Develop reconciliation procedures between the interfaces and the 
        FMS general ledger
  --Convert beginning balances and reference tables

Begin Additional Phases of the FMS Implementation

    Depending on the receipt of sufficient funding, the FMS phased 
implementation will proceed as follows:

            Phase 2: Implementation of the budget, purchasing, accounts 
                    payable and disbursement modules of the core 
                    financial system.

    The budget, purchasing, accounts payable and disbursement modules 
of the new system will be implemented. This will require the conversion 
of detailed level data from the current system to the new system. Other 
tasks include the testing and configuration of the new modules, the 
development of an interface with the Project system, the development of 
reports, the development of user procedures and the training of new 
users. The current system will continue to be used for procurement and 
inventory functions while FMS will be the ``system of record'' and be 
used for all other financial functions. Phase 2 is expected to begin in 
October, 2000 and continue through the initiation of production 
operations in October, 2001. The implementation of Phase 2 is dependent 
on receiving sufficient fiscal year 2001 funding.
    With the implementation of Phase 2, the AOC can undergo a full 
audit of its financial statements. A full audit is expected to be 
performed for the financial statements issued for the fiscal year 
ending 9/30/02.

            Phase 3: Implementation of the procurement module of the 
                    core financial system.

    A separate procurement module will be purchased and implemented to 
perform the detailed procurement functions being performed by the 
current financial system. This phase of the implementation will include 
the testing and configuration of the procurement module, the 
development of additional interfaces and reports, the conversion of 
data, the development of user procedures and the training of new users. 
The current system will continue to be used only for inventory 
functions. Phase 3 is expected to begin in October, 2001 and continue 
through the initiation of production operations in October, 2002. The 
implementation of Phase 3 is dependent on receiving sufficient fiscal 
year 2002 funding.

            Phase 4: Implementation of a Fixed Asset module

    This phase will implement the Fixed Assets module. With the 
implementation of Phase 4 the AOC will have automated records of its 
fixed assets and will be able to record automated depreciation entries 
in the general ledger. Proper accounting of fixed assets is required to 
receive an unqualified audit opinion. Phase 4 is expected to begin in 
October, 2002 and continue through the initiation of production 
operations in June, 2003. The implementation of Phase 4 is dependent on 
receiving sufficient fiscal year 2003 funding.

            Subsequent FMS Phases

    Subsequent phases of the FMS implementation are expected to include 
a number of system integration initiatives as follows:
  --Integration of the Computer Assisted Facilities Management System 
        (CAFM) with FMS
  --Implementation and integration of a Contracting Procurement system 
        with FMS
  --Implementation and integration of a new Labor Distribution system 
        (HRS Time and Attendance System) with FMS
  --Implementation and integration of a new project tracking/management 
        system with FMS
  --Implementation and integration of a new inventory system or a 
        warehouse management/inventory system with FMS.

Inventory Improvements

    The AoC is currently in the process of improving its inventory 
operations to increase controls over the safeguarding of assets and 
provide consistency across the jurisdictions in the application of 
inventory procedures. A complete reconciliation of the actual ``in-
stock'' inventory to the inventory accounting records is in process. 
Procedures are being enhanced to ensure the continued accuracy of the 
information. A regularly occurring cycle count process has been put in 
place. These activities will not only enhance control over inventory 
operations, they will also facilitate the FMS implementation and 
eventual auditing of financial statements.

  Appendix I.--Status Report on Computer Aided Facilities Management 
                                 System

    The Computer Aided Facilities Management system (CAFM) is a five-
year initiative to modernize and establish stronger and more pro-active 
facilities management capabilities using industry standards and 
software. Within the AOC community, CAFM is phasing in several modules 
of computer aided facilities management operations. The CAFM initiative 
establishes standards for demand maintenance/work order processing and 
preventive maintenance while also providing an automated and systematic 
vehicle for facilities management.
    During the period of fiscal years 1998 through January 2000, the 
AOC has accomplished the following:

  --Procured PC/printer hardware along with SPAN-FM software,
  --Established a Standards Committee and developed standards for the 
        deployment of demand work orders, and
  --Deployed demand work order processing to the following 
        jurisdictions: Senate, Capitol, House, Supreme Court, and the 
        Library of Congress and Electrical Engineering Division in 
        support of the CAFM initiative.

    The CAFM program initiative, during fiscal year 2000 will 
accomplish the following:

  --Complete demand work order deployments to Capitol Grounds and High 
        Voltage Shop,
  --Start standardization and pilot requirements for Preventive 
        Maintenance implementation to Custodial, AC and Electrical 
        shops,
  --Implement Work Order Linkage to all AOC jurisdictions,
  --Upgrade current CAFM software to the new Facility Center software, 
        and
  --Develop and implement Executive Information Systems and Reports as 
        it relates to the CAFM initiative.

    A cost methodology has been developed and finalized for the 
measurement of CAFM cost avoidance, benefits and savings. Once this 
document is approved at the proper levels, it is anticipated funding 
requested in the fiscal year 2001 budget will be appropriated to 
complete the following CAFM requirements:

  --Complete Preventive Maintenance Standardization process,
  --Implement Preventive Maintenance across all AOC jurisdictions,
  --Implement Demand Work Order processing to Botanic Gardens and Power 
        Plant.

           Appendix J.--Project Planning and Delivery Studies

    The project planning and delivery processes and organization of the 
Architect of the Capitol (AOC) have been under review by independent 
consulting firms. The purpose has been to streamline the processes and 
staff organization as appropriate based upon ``best practices'' culled 
from the AOC and industry.
    The general findings indicated that the organization of the AOC and 
project operations and output are effective, especially with respect to 
the quick response functions of the Building Superintendents. A 
substantial number of ``best practice'' processes and tools were found 
within the design and construction arms of the AOC. Capable employees 
were found at all levels in the AOC--employees who are passionate 
stewards of the historic buildings in the Capitol Complex and anxious 
to improve their abilities to do their jobs.
    The recommendations related to project identification, planning, 
scope determination, design, procurement and construction, concluding 
that there are many actions that can be taken by the AOC top and middle 
management to enhance and streamline the project delivery processes and 
tools presently in use. Such actions were deemed imperative in light of 
the increasing workload required of the AOC staff in preserving and 
enhancing the facilities and infrastructure of the complex. The 
principal recommendations and resulting actions to be taken by the AOC 
follow.

  --Planning Operation.--The AOC will establish a planning operation 
        that will manage the development and cyclical review of long 
        range (20 year) and short range (5 year) project plans based 
        upon continuous input from clients and AOC line staff and 
        technical experts representing all architectural and 
        engineering disciplines and other interests such as life safety 
        and security. The plans will be generated first by building 
        system and component, then integrated by building, then 
        jurisdiction, and finally AOC-wide. The long range plan will be 
        reviewed annually while the short range plan, comprised of more 
        specific scopes of work, will be reviewed and adjusted 
        quarterly against the performance of all current projects. The 
        AOC will manage the planning process and clients will establish 
        and modify priorities as appropriate in the process of 
        assessing the impact of unanticipated new work and emergency 
        projects on the established long and short range plans. The 
        five-year AOC Capital Budget and annual budget submissions will 
        be products of this planning process.
      Steps are being taken leading to the establishment of a framework 
        for the plans and planning teams of AOC staff who are 
        knowledgeable of the infrastructure and systems in each 
        building and the entire complex. A new core planning staff will 
        have to be established with skills appropriate to long range 
        planning and the preparation of project programs and scopes of 
        work. It is anticipated that the planning operation will result 
        in a greater AOC and client understanding of long range needs, 
        the more orderly prioritization of work, and better definition 
        of project scope, budget and schedule, agreed to by clients and 
        the AOC prior to the commencement of the design process.
  --Building Superintendents.--The Superintendents' strong, front-line 
        relationships with clients is widely understood and 
        appreciated, and will continue to be recognized and used to the 
        advantage of all parties in the project planning, scoping, 
        design and construction processes. The Superintendents and 
        their knowledgeable staff will be given additional 
        responsibility for meeting with any client who has requested 
        assistance, preparing an initial statement of scope, and 
        determining if the client's needs can be satisfied by the 
        issuance of a work order to the Superintendent's work forces or 
        if an AOC-wide team needs to be assigned to address the client 
        needs as a full project requiring further scope definition, 
        design and construction. In either the work order or the 
        project delivery process, the Superintendent will remain fully 
        involved with the work and with client communications. The 
        processes and tools associated with this improved project 
        initiation effort will be finalized early in 2000.
  --Project Management.--An AOC Project Manager will be assigned for 
        the life of a project, from early scope definition through 
        design, construction and occupancy. For purposes of project 
        progress reporting, the Project Manager will report through a 
        Program Management Group to the Assistant Architect of the 
        Capitol (AAOC). Through the group, project progress will be 
        monitored, resources shifted as necessary, and problems quickly 
        resolved. The group, together with the appropriate 
        Superintendent, will also serve as the communication link with 
        clients.
      The roles, responsibilities and accountability of Project 
        Managers, Program Management Group and other key AOC staff will 
        be defined. Project Managers will be responsible for 
        coordinating the work of consultants, contractors and 
        supporting AOC staff experts, and accountable for meeting 
        project budget and schedule requirements. Project Managers will 
        receive appropriate training to ensure they can fulfill their 
        critical role effectively and efficiently. The AOC top 
        management will initiate an aggressive training program 
        internally, and has also begun to hire talented project 
        managers from the outside on a temporary project-by-project 
        basis to augment staff.
  --AOC Standards and Guidelines.--AOC requirements related to project 
        delivery will be better defined, published and disseminated in 
        the form of guidelines, manuals, checklists, and electronic 
        tools and systems. These will give earlier and more complete 
        and consistent direction to design consultants and construction 
        contractors as well as AOC staff technical experts, all of whom 
        are supporting the Project Managers who are accountable for 
        meeting all project requirements. Work on these improvements 
        has already begun and is expected to be completed during 2000.
  --Consultant Utilization.--The AOC will expand its use of external 
        design consultants to maximize the return on the AOC's highly 
        knowledgeable and committed staff who must devote increasing 
        time to project management and the application of an 
        appropriate level of oversight of all project activities to 
        protect the interests of clients and the Capitol Complex 
        facilities entrusted to the care of the AOC. This will include 
        an increase in the use of ``indefinite delivery, indefinite 
        quantity'' (IDIQ) professional services contracts and possibly 
        other creative architect and engineer selection procedures that 
        are also fair and competitive on the basis of professional 
        qualifications.
  --Construction Contracting Methods.--The AOC will continue to expand 
        its options for construction delivery to ensure the most 
        balanced and efficient use of AOC staff and the timely 
        completion of work with minimum disturbance to building 
        occupants and visitors. The options will supplement the 
        traditional and dependable quick-response teams and maintenance 
        shops of the Superintendents. At present, the Superintendents 
        have the option of hiring temporary employees and utilizing the 
        construction services of the AOC Construction Branch. The AOC 
        Construction Management Division has the option to use the 
        services of a Job Order Contractor (JOC) who is under a long 
        term contract to complete construction jobs on call at 
        previously agreed to unit prices, and to procure the services 
        of general contractors through Invitations For Bids (IFBs) and 
        Requests For Proposals (RFPs). The AOC also anticipates the 
        establishment of a new construction delivery option, the 
        Solution Order Contractor (SOC). A number of SOCs will be 
        competitively selected on the basis of qualifications and put 
        under contract to bid competitively among themselves for 
        specific AOC construction projects. The final new option, for 
        highly complex projects, is the provision of overall 
        coordinated design and construction management services by an 
        independent Construction Manager, under contract with the AOC.
    An implementation plan was prepared at the conclusion of the AOC 
Project Delivery Best Practice Study. It is structured in four areas of 
concentration that address all of the above recommendations and 
actions:

  --Leadership Guidance and Direction.--The AOC Senior Policy Group and 
        Superintendents will establish goals and objectives, a schedule 
        and milestones, and performance criteria. ``All Hands'' 
        workshops will be held early in the implementation process 
        during which the leadership commitment to improvement will be 
        communicated clearly to all AOC staff.
  --Planning Operation.--The various steps leading to the establishment 
        of the planning operation have been set forth. As stated 
        earlier, a core planning staff team will have to be 
        established. This will require the hiring of new staff with 
        appropriate special skills in planning and program and scope 
        definition.
  --Project Management and New Tools.--This track is aimed at providing 
        the ``best practices'' and tools for the most effective and 
        efficient management of projects. The ``best practices'' were 
        identified during the CLA study, and the finalization of these 
        and the new tools has begun. Their effectiveness will be tested 
        by applying them to pilot projects selected from the current 
        workload of the AOC.
  --Training and Pilot Projects.--An ambitious program of training will 
        be charted for skills in leadership, supervision, 
        communication, and project management. Pilot projects will be 
        identified for the application of ``best practices''. 
        Implementation is being scheduled at this time and target dates 
        have been established subject to workload. It is anticipated 
        that consultants will continue to be involved in activities 
        designed to sustain momentum toward positive change and ``best 
        practices'' implementation, and aimed at establishing essential 
        reporting and feedback cycles.

          Appendix K.--Fiscal Year 2001 Budget Request Summary

    The Architect of the Capitol's fiscal year 2001 budget request is 
$252,121,000. It consists of an operating request of $183,382,000 and a 
capital request of $68,739,000. The full-time equivalent (FTE) 
positions remain the same at 2,012. However, funding is requested to 
fill 70 unfunded positions. The attached graph ``Fiscal Year 2001 
Operating and Capital Budget by Categories'' breaks out the operating 
and capital request by significant categories. The graph ``Fiscal Year 
2001 Operating and Capital Budget'' reflects the history of the 
Architect of the Capitol's budget since fiscal year 1994.

                        OPERATING BUDGET REQUEST

    The operating budget request includes an $18,577,000 or 11.3 
percent increase. Thirty-six percent or $6,740,000 of the increase is 
due to mandated pay and benefits costs. Forty-eight percent or 
$8,957,000 of the increase is related to work load increases and 
includes $3,927,000 for 70 unfunded positions, $959,000 for cleaning 
services, $600,000 for financial management and audit services, and 
$1,487,000 for information resources management. Price level 
adjustments account for 9.4 percent or $1,750,000 of the increase and 
are primarily related to fuel costs. Election year moves accounts for 
6.1 percent or $1,130,000 of the requested increase.
    Over the past year the AOC has undertaken a review of the agency's 
operations and is in the process of reengineering. As displayed in the 
attached graph ``Full-time Equivalent Employment Budget'' staffing has 
been reduced by more than 16 percent or almost 400 positions since 
1992. During the same period workload has increased, especially in the 
areas of life safety, security initiatives and project oversight. It is 
important to recognize that we have reached the saturation point where 
the amount of work to be done in several areas has taxed our staff 
capacities to the fullest extent. This budget includes requested 
increases for staff in several critical areas. Funding is requested for 
13 positions in the Life Safety Division, 28 positions for the Senate 
Office Buildings primarily for cleaning and painting services, 14 
positions for the House Office Buildings mainly to supplement the 
trades staff, 7 positions for the Botanic Garden to support the 
reopening of the newly renovated Conservatory and the new National 
Garden, and a total of 8 positions in the Engineering and Architecture 
Divisions.
    An increase of $1,487,000 is requested for the Information 
Resources Management Division. As the agency becomes more dependent on 
automated systems in the areas of financial management, and facilities 
maintenance it is critical that the hardware and software resources 
needed to support these systems are available.
    An increase of $362,000 is requested for life safety operations and 
maintenance. These resources are required to provide compliant safety 
and environmental programs and to be proactive in all matters that 
involve fire and life safety, employee safeguards, environmental 
monitoring, and discharge of potentially dangerous materials.
    An increase of $600,000 is requested to support the operation of 
the new financial management system including an ``audit'' of pro forma 
financial statements. Funding of $759,000 has been requested in the 
Botanic Garden related to the operation of the newly renovated 
Conservatory.
    Additional funding of $595,000 has been requested in the Senate 
Office Buildings to supplement cleaning of public areas and restrooms 
and for contractual cleaning of the Capitol Police Headquarters. An 
additional $400,000 has been requested in the House Office Buildings to 
supplement cleaning of public areas and restrooms. The normal requests 
for election year moves have also been requested. They include $150,000 
for the Capitol Building, $380,000 for Senate Office Buildings and 
$600,000 for House Office Buildings.
    Based on projections from the Department of Energy a net increase 
of $1,615,000 has been requested to cover rising costs of natural gas 
and fuel oil for the Capitol Power Plant. Other price level increases 
totaling $135,000 have been requested throughout the agency.
    The following table indicates operating budget request by 
appropriation.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                          Appropriation                                2000            2001           Change
----------------------------------------------------------------------------------------------------------------
Capitol Buildings...............................................     $37,610,000     $44,288,000     +$6,678,000
Capitol Grounds.................................................       5,062,000       5,515,000        +453,000
Senate Office Buildings.........................................      39,519,000      44,359,000      +4,840,000
House Office Buildings..........................................      31,177,000      34,885,000      +3,708,000
Capitol Power Plant.............................................      36,884,000      39,009,000      +2,125,000
Library Buildings & Grounds.....................................      11,341,000      10,688,000        -653,000
Botanic Garden..................................................       3,212,000       4,638,000      +1,426,000
                                                                 -----------------------------------------------
      Total.....................................................     164,805,000     183,382,000     +18,577,000
----------------------------------------------------------------------------------------------------------------

                         CAPITAL BUDGET REQUEST

    The capital budget request is $68,739,000. This is an increase of 
$23,255,000 or 51 percent over fiscal year 2000.
    The fiscal year 2001 capital budget request flows from the five-
year capital budget initiative undertaken by the agency. It is grounded 
in a comprehensive and systematic agency-wide planning effort with in-
depth involvement by all of the agency's clients. On the House side, we 
included the Sergeant at Arms, the Chief Administrative Officer and the 
Clerk of the House. On the Senate side we included the Sergeant at Arms 
and the Secretary of the Senate. The U.S. Capitol Police provided a 
detailed outline of their needs, and the Librarian of Congress was also 
extensively involved. During the development process more than 400 
projects were reviewed. Of that number, funding is requested for 68 
projects in fiscal year 2001. Funding requests are projected over the 
next four years for an additional 157 projects.
    Construction funding has only been requested in fiscal year 2001 
for those projects that have been completely designed. Because of the 
agency's current workload, only the most critical projects have been 
requested in fiscal year 2001. The five-year capital budget is 
projecting requests in the fiscal years 2002 through 2005 as follows:

        Fiscal year                                               Amount

2002....................................................    $181,082,000
2003....................................................      81,058,000
2004....................................................     221,570,000
2005....................................................     113,537,000

    All the projects associated with future requests will be reviewed 
and reprioritized before being included in a current fiscal year 
request. However, the magnitude of the future capital project needs is 
evident from this table.
    Attached is a graph ``Fiscal Year 2001 Capital Requests by 
Category'' and a table ``Fiscal Year 2001 Budget Request by Category'' 
that breaks out the amount, number of projects and the percentage of 
each by category. Six projects account for more than 65 percent of the 
request. Those projects are the Renovation of the Dirksen Senate Office 
Building ($19,241,000), Cannon Garage repairs ($9,000,000), Renovate 
the Rayburn Cafeteria ($5,261,000), the Library of Congress new Audio 
Visual Conservation Center at Culpeper, Virginia ($5,000,000), a new 
Off-Site Delivery/Screening Center for the Capitol Police ($4,500,000), 
and a new vehicle maintenance facility for the Police ($2,250,000).
    In past years, the AOC developed a reinvestment benchmark of 1.7 
percent of the current replacement value of the facilities as a guide 
of the amount of cyclical maintenance funding that should be invested 
into the Capitol complex. This benchmark excludes capital project 
funding relating to the construction of additional facilities, security 
enhancements and technology management improvement that are included in 
the total capital request. For fiscal year 2001 the benchmark of 1.7 
percent would indicate that $63 million should be reinvested in 
cyclical maintenance and renovation projects. As indicated on the 
attached graph titled ``Cyclical Maintenance and Building 
Renovations'', $52 million is being requested for facility reinvestment 
projects in fiscal year 2001. Because the benchmark represents an 
average, the current request is acceptable. However, as indicated on 
the graph there will be much larger requests in future years.
    The following table summarizes the funding levels presented in the 
five-year capital budget by category.

                                          FIVE YEAR CAPITAL PROJECTIONS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal year--                     Five
                      Category                       --------------------------------------------------   year
                                                        2001      2002      2003      2004      2005      total
----------------------------------------------------------------------------------------------------------------
Life Safety.........................................   $11,134   $20,854    $9,669   $25,650    $3,850   $71,157
ADA.................................................     1,558     4,215     2,880     2,355     1,030    12,038
Security............................................     5,200    17,873       700    14,300     5,000    43,073
Cyclical Maintenance--Improvement...................    20,141    11,350     2,450    13,850    10,400    58,191
Cyclical Maintenance................................    11,200    86,598    26,724   107,405    54,957   286,884
Technology/Management Systems.......................     3,160     6,485     3,040       200       200    13,085
Improvement--AOC....................................     1,065    12,152     5,925     8,800       200    28,142
Improvement--Client.................................    15,281    21,555    29,670    49,010    37,900   153,416
                                                     -----------------------------------------------------------
      Total.........................................    68,739   181,082    81,058   221,570   113,537   665,986
----------------------------------------------------------------------------------------------------------------

    The following table summarizes the capital budget request by 
appropriation.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                        Fiscal     Fiscal
  Appropriation--No. of fiscal year   Year 2000  Year 2001    Change         Major Fiscal Year 2001 Project
            2000 Projects               Budget    Request
----------------------------------------------------------------------------------------------------------------
Capitol Buildings--21 projects......     $9,048    $15,750    +$6,702  Off-site Delivery Center--$4,500,000;
                                                                        USPC Vehicle Maintenance Facility--
                                                                        $2,250,000; Financial Management System--
                                                                        $1,475,000; Asbestos Survey--$1,225,000
Capitol Grounds--3 projects.........        344        605       +261  Wayfinding & ADA Signs--$330,000; CAD
                                                                        Database--$250,000
Senate Office Buildings--8 projects.     24,276     22,269     -2,007  DSOB Renovations--$19,241,000; Roof Fall
                                                                        Protection--$1,678,000
House Office Buildings--10 projects.      5,960     18,384    +12,424  Garage Floor Repairs, CHOB--$9,000,000;
                                                                        Renovate Rayburn Cafeteria--$5,261,000;
                                                                        Sprinklers & Telecommunications, RHOB--
                                                                        $1,815,000
Capitol Power Plant--11 projects....      1,025      1,863       +838  Roof Fall Protection--$323,000; New Oil
                                                                        Tanks--$350,000
Library Buildings & Grounds--13           4,631      9,590     +4,959  Audio Visual Center--$5,000,000; Replace
 projects.                                                              Switchgear JMMB--$1,750,000
Botanic Garden--2 projects..........        200        278        +78  Way Finding/ADA Signs--$203,000
                                     ---------------------------------------------------------------------------
      TOTAL.........................     45,484     68,739    +23,255  .........................................
----------------------------------------------------------------------------------------------------------------

                                                                       [GRAPHIC] [TIFF OMITTED] T08FE29.000
                                                                       
                                                                       [GRAPHIC] [TIFF OMITTED] T08FE29.001
                                                                       
                                                                       [GRAPHIC] [TIFF OMITTED] T08FE29.002
                                                                       
                                                                       [GRAPHIC] [TIFF OMITTED] T08FE29.003
                                                                       

                      ARCHITECT OF THE CAPITOL FISCAL YEAR 2001 BUDGET REQUEST BY CATEGORY
----------------------------------------------------------------------------------------------------------------
                                                                             Excluding House office buildings
                                Fiscal year                             ----------------------------------------
           Category                 2001     Percent   No. of   Percent  Fiscal year
                                  request             projects               2001     Percent   No. of   Percent
                                                                           request             projects
----------------------------------------------------------------------------------------------------------------
Life safety...................  $11,134,000     16.2       18      26.5   $8,871,000     17.6       15      25.8
ADA...........................    1,558,000      2.3        7      10.3    1,188,000      2.4        6      10.3
Security......................    5,200,000      7.6        3       4.4    5,200,000     10.3        3       5.2
Cyclical maintenance/            20,141,000     29.3        2       2.9   19,241,000     38.2        1       1.7
 improvement..................
Cyclical maintenance..........   11,200,000     16.3       14      20.6    2,080,000      4.1       12      20.7
Technology/management systems.    3,160,000      4.6        7      10.3    3,160,000      6.3        7      12.1
Improvement:
    AOC.......................    1,065,000      1.5        7      10.3    1,065,000      2.1        7      12.1
    Client....................   15,281,000     22.2       10      14.7    9,550,000     19.0        7      12.1
                               ---------------------------------------------------------------------------------
      Total...................   68,739,000    100.0       68     100.0   50,355,000    100.0       58     100.0
----------------------------------------------------------------------------------------------------------------

                                                                                                         [GRAPHIC] [TIFF OMITTED] T08FE29.004
                                                                                                         
                 Architect of the Capitol benchmark data

                    [Fiscal year 2001 funding levels]

Current Facility Replacement Value......................  $3,700,000,000
                    ========================================================
                    ____________________________________________________
                                                          Annual renewal
                                                              percentage

AOC Benchmark (Based on Universities of Illinois, 
    Michigan, and Stanford and the Army Corps of 
    Engineers)..........................................            1.7 
Army Corps of Engineers (Budget Objective)..............            1.75
University Federal Research Cost Recovery (OMB A-21)....            2.0 
Conservative Commercial Depreciation at 40 Years (IRS 
    will accept a faster depreciation rate).............            2.5 
National Research Council of the Academy of Sciences:
    Low Range...........................................            1.5 
    High Range..........................................            3.0 
Fiscal year 2001 Capital Request (Request $68,739,000, 
    Less $16,710,000 Related to Technology/Management 
    Systems, Security, and New Facilities)..............            1.4 

                      Dirksen Building remodeling

    Senator Bennett. Thank you. Thank you very much.
    I should make a comment with respect to the Dirksen 
remodeling. When I came here, the Dirksen Building was 
considered the low rent district, and Senators would start 
their careers in the Dirksen Building and then move out as 
quickly as they possibly could. I have nostalgia for the 
Dirksen Building because this is where my father had his 
office, and I was very content to stay here.
    I happen to think it is better laid out, from a practical 
standpoint, than either of the other two. My own prejudice is 
that I prefer the architecture of the Hart Building. I know 
most people say they prefer the Russell, but I love the soaring 
atrium and the plants and all the rest of it, until I get into 
the individual offices, and then they strike me as rabbit 
warrens for the staff. And I prefer the big windows and the 
large rooms in the Dirksen Building.
    Now that it has been renovated--and mine was the first 
suite to be renovated--I consider that we are in the high rent 
district, and I will not give up my office to Strom Thurmond.
    I want a royalty for the design that I gave you for the 
removal of the safe, because I understand a number of Senators 
have asked for exactly the same design.
    Mr. Hantman. This is true.
    Senator Bennett. I will donate those royalties to the 
budget of the Architect of the Capitol.
    But thank you for the truly well thought out way in which 
this building is being renovated. And it is now work space that 
will serve the needs of the Senators for another 50 years. It 
is roughly 50 years since the Dirksen Building was conceived, 
and I am sure that we will get our monies worth out of it. And 
I want to commend you for that.
    Now, with that, Senator Mikulski has joined us. Senator, we 
are delighted to have you, and happy to hear whatever you might 
want to say now, or any questions you might want to ask of the 
Architect.

                STATEMENT OF Senator BARBARA A. MIKULSKI

    Senator Mikulski. Well, thank you very much, Senator 
Bennett. And of course, welcome, to the Architect of the 
Capitol.
    I am so pleased to hear that the Dirksen has been upgraded, 
and hopefully when we work on HUD appropriations, you see the 
wisdom of urban neighborhood revitalization and we can enlist 
you in other projects. But thank you very much.
    Mr. Chairman, I have a statement that I am going to submit 
for the record, but essentially what I want to focus on is----
    Senator Bennett. Your statement will be included.
    Senator Mikulski. Thank you very much.
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    I would like to thank the members of this committee for allowing me 
to attend this hearing.
    As many of you know, I have taken a particular interest in the 
workings of the Architect of the Capitol. The Architect employees 
contribute to the daily functioning of the Capitol and I am proud to 
say that so many employees call Maryland their home.
    The Architect of the Capitol is responsible for the physical 
architecture of the Capitol complex. This includes the safety of those 
who work here, the upkeep of the buildings and grounds, and the smooth 
operation of services that allow all of us to be able to do our jobs.
    This is important work and an important responsibility. However, I 
think that caring for the social architecture of the Capitol work force 
is just as important and just as big a responsibility and that is why I 
am here today at this hearing.
    As many of you may know, there have been recent problems with 
employee morale and treatment. Mr. Hantman, I understand that you have 
made some progress in addressing the problems in your office. Your 
management team has taken some steps to try and educate your employees. 
I have heard from some employees that they feel less intimidated by the 
management and that there is less abusive language and verbal abuse. I 
appreciate this progress but more needs to be done.
    When you were first confirmed you assured me that the way your 
predecessor did business would stop. My office still receives 15 calls 
per week from employees expressing concern about how they are being 
treated. That says to me that it is still business as usual in the 
Architect of Capitol's office. That says to me that you have 
ineffective people and ineffective systems.
    Your employees either have a lack of confidence in the system you 
have in place or are so frightened of retaliatory action that they come 
to a United States Senator before they will use your system. Because of 
all these complaints, I am the EEOC by proxy.
    I would like to share with you some of the concerns that your 
employees have expressed:

  --Employees are so concerned about retaliatory action that they are 
        afraid to approach management about their grievances.
  --There has been no formal sexual harassment training. Employees have 
        only received a booklet.
  --Overtime for full-time employees has been cut even though some 
        employees had been working and being paid for overtime for 
        years.
  --When job audits are performed by your office they are done to 
        penalize employees and help management.

    You have submitted biweekly reports to me about the progress you 
have made and I acknowledge that you have taken these steps. The fact 
is, whatever you are doing is not working. I know that it is not 
working because your employees are still coming to me because they feel 
that they have no other place to go. My constituents should always feel 
that they can come to me with their concerns. But, at this point, they 
come to me because they feel that they cannot come to you. Either they 
do not know about the grievance procedures or they do not trust them. 
The end result is the same.
    I am understandably frustrated with the lack of real progress. I 
need to know what additional steps you are going to take so that I am 
not the EEOC or Office of Compliance by proxy.

                                SECURITY

    Senator Mikulski. What I want to focus on is, of course, 
the--I want to agree with the priorities that you have 
established in safety, security, cleanliness, human resources, 
and the need to have not only a concern for the physical 
architecture, but social architecture.
    In terms of the security, I believe that Senator Bennett 
and his team will probe that more. I would really hope that we 
would continue to focus on security for the people not only who 
visit us, but the people who work here; and also the security 
of our police.
    As we know, we had a melancholy event, and we need to--and 
I believe Senator Wellstone has been raising some of those 
issues and others. So, the thin blue line is our first line of 
defense.
    We do not want to mope around the Capitol of the United 
States. But we need to be able to protect the people who do 
work here. So, that is another area of pursuit.

                            HUMAN RESOURCES

    I would like to just use my time to focus on the human 
resources and say this: I understand, as you know, that often 
employees approach me, because, particularly the blue collar 
level employees, because they live usually in either Maryland 
or the District of Columbia. So, therefore, I become the 
Senator for many of the people who live in the District.
    The restaurant employees have particularly been concerned. 
And you and I have been engaged in a conversation, but though 
some progress has been made in addressing the problems in your 
office, I continue to receive 15 calls a week from employees 
expressing concern about the way they are being treated.
    And in fact, I have become the EEO office for your office 
by proxy. I cannot keep this up. And it is not that I want to 
abdicate my responsibility to my constituents, but 15 calls a 
week on case work situations take a lot of time from my office.
    I have heard from employees that they feel less intimidated 
by management when we begin our dialog, Mr. Architect. There is 
a great deal of intimidations and fear of retaliation. But 
though they feel it has been a lower decibel level of 
intimidation and abuse, they still feel that more needs to be 
done, and the pattern continues.
    You have kept me up to date on these biweekly reports that 
I have asked, and I acknowledge your cooperation. But in 
looking at this, it seems like this is the list, but there is a 
disconnect between your list and their experience of the 
situation. What people, essentially, come to me saying is that 
you have ineffective systems and ineffective or poorly trained 
people running those systems. Okay.
    So, they do not have confidence in the system or the people 
they talk to. So they have confidence in me, and I have got to 
come back to you. We have got to break that. So, let me just 
list four items and then let us just get your solutions----
    Mr. Hantman. Yes.

                           EMPLOYEE CONCERNS

    Senator Mikulski (continuing). Because we are not going 
into spring hazing and you and I arguing with each other, but 
employees are--first of all, continue to be concerned about 
retaliatory action and are often afraid to approach management. 
So, when they raise an issue, it often ends up in their 
personnel record. Okay.
    There has been no formal sexual harassment training. They 
get a booklet, but as you know, that is a very complex issue. 
And so overtime for full employees has been cut, even though 
some employees have been working and paid for overtime for 
years.
    The other is, job audits are performed by your audit, are 
often done, they feel, to penalize employees, to do 
downgrading. Now, I am not going to go into what is right or 
wrong. I am giving you----
    Mr. Hantman. Sure.
    Senator Mikulski (continuing). What is persistently 
presented to me. But again, it is inconsistency interpretation 
of sick leave, family and medical leave--what are they entitled 
to--and these other patterns that we raised.
    So I am going to acknowledge one progress made, decibel 
level, but they do feel that it is lip service, inconsistent 
and unclear. So, could I have your thoughts, though, what we 
are doing here, and do you personally supervise your human 
resources and so on?
    Mr. Hantman. We have, Senator--the issues that you raise, 
the level of comfort certainly needs to be improved. There is 
no doubt about that. The commitment that we have made to 
improving it is very real, and there are regular meetings 
established to discuss these issues with each group of 
supervisors and each group of employees, with Human Resources 
and EEO in attendance.
    There are monthly meetings where each supervisor meets with 
his or her employees. Discussions are open. A fairly standard 
list of items that are discussed, customer satisfaction, safety 
and sanitation, training, posting, job announcements, any 
issues----
    Senator Mikulski. I know what you do, but why is it not 
working?
    Mr. Hantman. I think one of the basic concerns of a lot of 
people when change occurs, Senator, is that we have gone from a 
restaurant staff of some 238 people--we are down to 135 people 
right now. There are very strong demands to bring our budget 
into account and not continue to lose money as the restaurants 
have always done.
    So, when change is there, when people have new assignments 
made, when people--in fact, in the past, if you had worked in 
the Capitol, you were never assigned to the Senate office 
buildings and vice versa. People now support one another, 
especially during times of break, when the Senate is not in 
session and the Capitol is----
    Senator Mikulski. But do you understand what I am saying 
now?
    Mr. Hantman. Sure.
    Senator Mikulski. It does not have anything to do with the 
kind of casework problems that come here.
    Mr. Hantman. Yes.
    Senator Mikulski. The failure to understand promotions, the 
lack of sexual harassment training, verbal abuse and so on, and 
there is also continual rumors--and I am not into rumor 
control----
    Mr. Hantman. Sure.

                     SENATE RESTAURANTS SUPERVISION

    Senator Mikulski (continuing). That the executive office 
that are assigned to oversee this, has--and I do not want to 
name names; it is inappropriate in a public hearing like this--
but has himself or herself had complaints lodged against them, 
so that they feel that the person in charge is not necessarily 
committed to them.
    And you have systems, and again that is why I say lip 
service, disconnected and so on. You might believe that this is 
working, and I do not doubt that you do, but it is not working. 
Something is very dysfunctional here. Now, either they do not 
have enough people--I do not know the stations. I am not a 
Human Resource person. But there is a tremendous disconnect.
    Mr. Hantman. Understood.
    Senator Mikulski. Mr. Chairman, my fault, your time, but--
--
    Mr. Hantman. Surely. Several points, Senator. Hector 
Suarez, who is the head of our Human Resources group is 
currently at the Kennedy Space Center looking at HR re-
engineering issues, to take a look at our own organization and 
how HR works. This is one of the issues.
    Any issue of retaliatory action just does not exist, from 
everything that I know. And from everything that I am setting 
the tone for, going down the line, we have a new head of the 
Senate restaurants, Mike Marinaccio, as you know, who has come 
in, very professional individual. He is the day-to-day person 
responsible.
    We have an industrial psychologist who has come in, began 
to meet with our people; an outside person to hear their 
complaints, to hear where it is coming from, so he can feed 
back from another perspective on what he is hearing, what the 
employees are saying, and investigate himself what the 
management and supervisors are or are not doing better and 
appropriate.
    Some of the supervisors who people have complained about, 
we are sending them to training for sensitivity. We recognize 
that some folks have been promoted because they have been here 
a long time and have skills, but not necessarily good 
management skills. And they need to treat our employees with 
more sensitivity. We are working on that, too.
    It is nothing though that can be turned around very 
quickly. We are working on it as quickly as we can. I am sure 
there is more that we can do, and I look forward to working 
with you on it.

                           PERSONAL OVERSIGHT

    Senator Mikulski. Are you personally overseeing this issue?
    Mr. Hantman. I have not been personally on site with this 
issue. I have been personally talking with all the management, 
but not down with all the employees.
    Senator Mikulski. Well, tell me your personal involvement 
in this.
    Mr. Hantman. My personal involvement is having meetings 
with management at all levels of the Senate restaurants to talk 
about what has happened.
    Senator Mikulski. And then what are your means of feedback, 
because again--I am mindful of the Chairman's time--but I am 
going to have to bill you for doing your casework for you----
    Mr. Hantman. Sure.
    Senator Mikulski (continuing). And billing it through the 
appropriations. I mean----

                        INDUSTRIAL PSYCHOLOGIST

    Mr. Hantman. One of my means of feedback is going to be 
this industrial psychologist, taking a third-person, impartial 
view of what is happening, what he is hearing, what he is 
seeing, and the feedback he is getting from employees with 
recommendations on what is to be done. So, that is----
    Senator Mikulski. Well----
    Mr. Hantman. That is an impartial type of approach as well.
    Senator Mikulski. There is no finer, I think, management 
consultant than the gentleman we have here chairing this 
committee. The experience that he brings from the private 
sector is really significant, and I think very helpful.
    And, Mr. Chairman, I am going to discuss this with you in 
more detail, and let us see how we----
    Senator Bennett. All right.
    Senator Mikulski (continuing). Can have--what--your very 
wise head pursue this, because we can get into industrial 
psychology and somebody down in the Space Center. I really do 
not know if it works. Quite frankly, I do not know the 
applicability of a Space Center to the Architect of the 
Capitol.
    Second, industrial psychologists are often very gifted and 
talented. This is a unique organization, and your predecessor 
and the culture of the Senate was that this had a pre-
plantation mentality, and you know that.
    Mr. Hantman. Absolutely.
    Senator Mikulski. And I discussed that. Now, we are trying 
to break through that. This group of employees are people of 
color, often with language issues as well, and so all of this 
kind of--what sounds very good in text point, textbook, I am 
not so sure----
    Mr. Hantman. Right.
    Senator Mikulski (continuing). Is working. And I really 
need recommendations on what is to work, so that we have high 
morale. The people who work here, and the restaurant employees, 
are enormously dedicated. We know they have longevity, et 
cetera.
    Mr. Hantman. Absolutely.
    Senator Mikulski. But they have to feel confident that 
working in the very institution that has created the Civil 
Rights Act is also working for them.
    Mr. Hantman. Absolutely. Perhaps a good basis to begin this 
discussion, and I would welcome that, is to re-do what we did 2 
weeks ago. We had a representative from your office, of this 
committee, of the Rules Administration Committee, we had our HR 
people, our EEO people come in and talk about all of the 
programs we are doing, what we are physically doing from a lot 
of different perspectives.
    If we are not doing all the right things, we would 
certainly welcome feedback on that, but we had a 2-hour meeting 
with a lot of interaction for a lot of people, hearing and 
probing of what we are doing and what meaning it could have.
    I would welcome the opportunity to do that with you, 
Senator, and with you, as well, sir, to talk about what we are 
doing and have the people who are on the front line dealing 
with the day-to-day workers, and what they are hearing, what 
they are seeing. My goals are your goals, Senator.
    If there is any legacy I can leave over here after the end 
of my tenure, it would be a staff that is dedicated to service, 
that has an opportunity for growth and job satisfaction as 
well. That is very important.

                           PROBLEM RESOLUTION

    Senator Mikulski. Well, Mr. Hantman, this is, for all 
intents and purposes, is March 1. I have got to really have 
this resolved by June 1, again because the very people I have 
assigned--and I am not abdicating my responsibility, but I do 
feel that I am now providing a service to my constituents which 
I am delighted to do, but it is because of a failure of a 
system somewhere else and----
    Mr. Hantman. But I assure you, Senator, there is more than 
words right here. There are a lot of good people working on 
good things that I would love to sit down with you and explain 
that.
    Senator Mikulski. Well, maybe we could talk more about it.
    Senator Bennett. I am not sure I agree with your 
characterization of my skills, but whatever they are, I will be 
happy to----
    Senator Mikulski. Well, the Y2K bug----
    Senator Bennett (continuing). Participate in this.
    Senator Mikulski (continuing). Turned out to be the flu.
    Senator Bennett. Yes. That is true.
    Senator Mikulski. But you did an outstanding job on that. 
No, I think, actually--no. I think that you are--no, really you 
are doing a very good job here.
    This is often not viewed as--it is like starting out in 
Dirksen Legislative. But this is really--no. The American 
people count on us when they come, not only for our votes, but 
there is nothing here.
    You know, everybody talks about tourism attractions, you 
know, the Smithsonian is the highest in American. But they 
really come to see us, American democracy. But it is the 
invisibility of it, our police, our maintenance, our 
restaurant, all of the team under you that makes it work, so 
that when people walk in, their tour guides, everything. And 
often it is the only interaction that they are going to have 
with the American government. So, anyway--but let me let you 
go.
    Senator Bennett. Well, thank you for coming and for raising 
it in your usual forceful and direct manner. And I will take 
the compliment as an assignment, and inject myself into this to 
the degree that I might be helpful.
    And we take, also, your deadline. The 1st of June sounds 
like a logical time for us to have some kind of understanding 
and resolution, at least toward a solution if not complete 
solution.
    I have always found in the private sector that if people 
feel things are moving their way, they can be patient. If they 
are convinced they are moving the wrong way, sometimes they can 
be very impatient even if, in fact, the problem is not as bad 
as they perceive. So, perception of movement is just as 
contributory many times as some of the other activities.
    So, again, thank you, Senator. We appreciate you being 
here.

                      FINANCIAL MANAGEMENT SYSTEM

    Mr. Hantman, would you update the committee, for the 
record, on the status of your financial management project? I 
referred to that in my opening statement, but I think it would 
be appropriate for you to have a comment of your own on that.
    Mr. Hantman. I think there is good news in that, Mr. 
Chairman. As you mentioned, Russ Follin, we are very glad that 
he is heading up that effort for us. And we are currently in 
phase one of the financial management system, which is 
basically to implement the standard general ledger and accounts 
receivable modules.
    We expect that--our planned production date, we should be 
on line with that by October 1 of this year. We will have some 
25 users for that. It is fully funded, and the process is 
working very well.
    What this should allow us to do is to do general ledger 
accounting. The ability to produce end-of-period financial 
statements, compliance with Federal SGL requirements, 
standardization of accounting codes and budget structures are 
underway right now across all of our jurisdictions.
    Detailed level payroll information is now available; data 
captured at the employee level or at the paint shop or plumbing 
shop; organization code level will be able to be captured now; 
the automation of status of funds reports, which your committee 
basically needs for current year activity for no-year 
appropriations; capital projects funded for annual 
appropriations; funding status by object class. All of these as 
of October 1 should be able to begin to be produced as the 
information is developed.
    We are requesting from this committee in our budget this 
year two issues: Some $1.47 million for phase two of the work, 
and another $600,000 that involves paying for the rights to use 
the software that we are cross servicing with.
    We are cross servicing through the Department of the 
Interior with the AMS, Momentum Software package right now. So 
we have fees to pay to them. Included in that $600,000 is a 
request for some $200,000 for us to essentially do a dry run 
audit.
    At the completion of phase two, on October 1, 2001, we 
would be able to begin to give you auditable statements. We 
need to be able to develop the information once that base of 
phase two work is done. But we want to do a dry run this fiscal 
year, set ourselves up to prepare ourselves for an audit the 
next fiscal year. So, that is in our budget right now.
    So, what we are looking for in the remaining modules of the 
base systems, budget execution modules, purchasing modules for 
obligations, accounts payable module, disbursements module. 
Those are all included in what we have requested for this year. 
And that would expand our user base from 25 to 100 people, and 
we are requesting those funds in this fiscal year.
    Two subsequent phases will also be requested to implement 
the procurement module in phase three. And phase four would be 
to implement the fixed asset module as well.
    We are building a foundation here, Mr. Chairman, a strong 
foundation. We have been working together with the GAO, with 
the legislative branch Financial Management Council. A lot of 
good people have input into this.
    We feel we are going in the right direction. And by 
essentially cross servicing, we have not expended a whole lot 
of dollars in recreating the wheel, especially if we are 
potentially going toward a shared facility for all agencies up 
on the Hill. So, I think we have built a very strong base.
    If you would like more detail--have I left anything else 
out, Russ, that we talked about?
    Mr. Follin. Covered it all.
    Mr. Hantman. Covered it all.

                            EMPLOYEE SAFETY

    Senator Bennett. Okay. Thank you. You have had some 
problems in the area of worker's safety. The number of lost 
work days per employee is quite high. Do you want to address 
that problem as well?
    Mr. Hantman. Okay.
    Senator Mikulski. Excuse me, Mr. Chairman. I have to leave. 
There is a hearing with the Attorney General over in Commerce. 
So, I want to thank you for your courtesy and look forward to 
working with you.
    Senator Bennett. Thank you.
    Mr. Hantman. Thank you.
    Senator Mikulski. My leaving does not mean I am not 
interested, but it is Reno's last testimony.
    Senator Bennett. I think you have made it fairly clear you 
are interested.
    Senator Mikulski. Thank you.
    Mr. Hantman. Thank you very much, Senator, for the request. 
I look forward to meeting with you and building on this.
    Senator Mikulski. Okay.
    Mr. Hantman. Thank you.
    If we could respond to that for the record, I would 
appreciate that, sir. We will get you information on that.
    Senator Bennett. All right. Fine.
    [The information follows:]

    The Office of the Architect initiated a number of efforts to reduce 
the number of workdays lost due to injuries and illness incurred on the 
job.
    The AOC believes it's a win-win situation when a Federal agency 
aggressively takes an active role in making the health and safety of 
its employees a top priority. We are confident that this will result in 
increased productivity and savings in taxpayer dollars in reduced 
workers compensation cost. Our Life Safety Program Division and the 
Human Resources Management Division have assumed this proactive 
approach in working together to reduce work-related injuries and 
illnesses on the job, and reduce lost work days incurred.
    In August of 1998, we initiated action to improve the entire AOC's 
Workers' Compensation Program by centralizing the program into one 
office for over sight administration. Last year, we made major 
improvements which include the following:
  --Redesigned the entire program to include a more aggressive return-
        to-work program and improvements in the medical management of 
        the disabled worker;
  --Secured the services of the Attending Physician's Office as a 
        medical advisor;
  --Established a three-year Strategic Plan in 1999 that focuses on 
        prevention and reducing work related injuries and illnesses, 
        controlling workers' compensation costs by reducing days lost 
        due to those injuries or illnesses, and securing accurate 
        information that assists the AOC in making sound decisions 
        based on expert medical advice;
  --Developed a new day-one case management system that implements 
        quality case management the first day a claim is initiated by 
        an injured worker;
  --Implemented a proactive Early-Return-to-Work Program that 
        encourages the practice of ``100 percent availability of 
        limited duty work assignments'' for all AOC employees partially 
        disabled on the job (not to exceed 120 days);
  --Deployed a new Workers' Compensation Tracking System (WCPS) which 
        provides managers, supervisors, HRMD, Safety, and the Attending 
        Physicians Office immediate access to all new injury and 
        illness claims and injury data;
  --Implemented more effective techniques (question and answer 
        handouts, fact sheets and hands on meetings and briefings) for 
        educating AOC employees, supervisors and managers about safety 
        awareness; and
  --Staffed our workers' compensation program office with an employee 
        relations specialist with an occupational nurse background to 
        support the AOC's efforts in facilitating the injured workers' 
        prompt return to work.
    Accomplishments achieved in the Program:
  --Reviewed 396 workers' compensation injury and illness claims;
  --Returned 93 employees back to limited duty work assignments;
  --Discovered 9 overpayment cases where erroneous compensation and 
        medical payments were made;
  --Returned 14 employees to full-duty from our short-term and long-
        term OWCP periodic rolls;
  --Reviewed 101 cases on our long-term periodic rolls;
  --Requested OWCP's intervention in 20 periodic cases for either 
        rehabilitation, re-employment or reduction of benefits; and
  --Requested 15 workers' compensations be administratively reviewed by 
        OWCP.
    In addition, during the next several months we will develop an 
automatic tracking system for the Early Return-to-Work Program and 
review our long-term OWCP periodic rolls cases for possible re-
employment within or outside the AOC.
    We have demonstrated the credibility of this approach on dealing 
with job related injuries and illnesses. We saw a slight reduction in 
our fiscal year 1998 lost time rate despite an increase in our total 
injury rate. Our continuing efforts show our commitment to use all 
available resources to reduce work-related injuries and illnesses and 
reduce lost workdays incurred.

                      CAPITOL COMPLEX FIRE SAFETY

    Senator Bennett. Now, one last item: There has been a lot 
of publicity about Capitol fire safety. I have taken a tour of 
some of the areas that have been identified as having safety 
problems; and frankly, if we were to solve the problem with 
safety as our only criteria, we would probably have every 
historian in the country come down on us with great fire, if 
you will, of a different kind because we would destroy the 
ambiance of the Capitol.
    It was built in the days long before OSHA, and there are 
spaces in the Capitol that are soaring and majestic, and yes, 
they could become conduits for heat in case of a fire, but to 
shut them off with fire doors would, in the attitude of many 
people, be a desecration.
    So, I understand the difficulties that you face dealing 
with the fire issue, and at the same time, not bricking up 
architectural areas of the Capitol that have that visual impact 
and create the sense of awe that clearly was in the minds of 
the original architects of the Capitol when they created those 
spaces.
    Can you comment on where you are on that, and what impact, 
if any, the visitor's center might have on questions of safety 
or----
    Mr. Hantman. Clearly----
    Senator Bennett (continuing). Crowd control and so on, in 
case of a fire?
    Mr. Hantman. May I first report to you, Mr. Chairman, that 
the Compliance Board just had their annual inspection in the 
Senate office buildings, and they found no violations.
    That does not mean that we do not have work to be done; 
that means that we are working on them. They understand that we 
have plans in place and that we are moving in the proper 
direction.
    We have a team leaving tonight to go out to Ohio. 
Interestingly, just before the State of the Union Address, 
Senator Voinovich and I were talking about life safety issues. 
Roll Call had just come out with an article about life safety 
on Capitol Hill.
    And he made the statement that most people do not recognize 
the difficulties in retrofitting older buildings, landmark 
buildings. As you are probably aware, he had been Governor of 
Ohio before he became----
    Senator Bennett. Right.

                           LANDMARK BUILDINGS

    Mr. Hantman (continuing). Senator. And he indicated that 
their State house building, some 400,000 square feet in size, 
was renovated over a period of years. There were many years of 
planning.
    Then he, as Governor, vacated half of the building for a 
period of 3 years while they renovated it. And then the senate 
and the house vacated the other half of the building for 
another 3 years to renovate the other part of it. And they were 
very concerned and sensitive to the issues that you raise.
    They have monumental stairs; they have domes; they have 
issues that really give you the sense of government, of 
presence, of pride, that people would have in a State 
government as we do have in our Government here at the Capitol.
    So, we are going to be learning. We are going out there 
tomorrow to talk about what they have accomplished; how they 
solved the problems of monumental stairs without carving them 
up and putting sheetrock walls in front of them, things of this 
nature.
    This is a moving target, Mr. Chairman. This is the NFPA, 
National Fire Protection Association Journal of January and 
February of this year. There is a statement by the president, 
George Miller, which talks about the meetings they had in 
November of last year.
    And as a result of that meeting, their fall meeting, they 
adopted NFPA 101 life safety code, making it the first NFPA 
document to fully incorporate a complete performance based 
approach.
    The keyword here is ``performance'' as opposed to 
``prescriptive,'' because if you look at the codes today, Mr. 
Chairman, you would be walling up all of the major rotundas, 
the open monumental stairs, things of that nature.
    So, the national codes are recognizing that there have to 
be solutions, certainly in landmark buildings to code issues 
that are not destructive of those landmark buildings. That is 
what we are hoping to learn, not only at Ohio, but looking at 
codes that Pennsylvania, that Texas, that Washington State also 
have incorporated for that.
    So, we are--on the House side, we have a lot to accomplish; 
on the Senate side, as well, but we are pretty far along over 
here. The Dirksen Office Building, once we finished our 
renovations, the end of next calendar year, December of 2001, 
virtually all the life safety and security issues will be 
incorporated there, aside from a couple of issues that we need 
to continue to address.
    In the Russell Building, we are very much ahead on that 
basis, also. The first four floors are totally complete, smoke 
detectors, alarms, sprinklers. We are removing the old pull 
stations over there now. We still have the attic and the 
basement to be done. So, it is a balance of what we need to do.
    Now we want to treat the Hart Atrium in a sensitive way, as 
well. When you have tall spaces such as that space, or the 
Capitol Rotunda, sprinklers do not work from the top. They just 
dissipate. They do not react in an appropriate way.

                      CURRENT FIRE SAFETY SYSTEMS

    But it is interesting to also relate to--we had a fire over 
the weekend, on Friday night, in the Cannon Office Building, 
the sister building to the Russell. Systems worked. Somebody 
had disposed of smoking materials in a wastepaper basket. The 
detectors went off. The sprinklers went off.
    And we had our redundant system, which is our police 
officers walking through the halls. They had also detected it, 
almost simultaneously. It was out and under control in 10 
minutes.
    So, we have more work to be done. Our base systems need to 
be upgraded, and we are working on that. We are working on 
plans. We are going to be calling in the National Institute of 
Science and Technology to look at how best to have plans 
basically that will not destroy the architecture, will not 
destroy the sense of our buildings. And they are very willing 
to do that, and we are working on that very actively.
    We have in our budget now many projects for study, as well 
as implementation, on the life safety area, both the Senate and 
the House side, and in the Capitol as well.
    One of the issues in the Capitol, of course, is how to 
upgrade that while it is in full use. The issue of 
accessibility, as discussed with Senator Voinovich, is really a 
major one. I am sure that we are not about to vacate the 
Capitol and go through the process of doing a 3-year 
renovation.
    So we will have to do it in pieces, as leadership makes the 
space available to us, and that will take us longer. But we are 
trying to put in intermediate and short term solutions such as 
rather unsightly battery emergency packs for lighting, for 
instance, until we design the full system, run the conduit, 
hook it up to emergency generators, and chase the walls where 
we need to run the conduit. That will take longer.
    So we put in intermediate fixes, which are not ideal and 
hopefully they will not become long-term fixes because funding 
will not be available to implement it. But we are trying to 
balance, strike the balance between giving ourselves the 
ability to control life safety to the greatest extent possible.
    We have been installing, as you know, emergency egress 
doors in the Capitol that never existed before. The entire west 
front had no doors that swung in the right direction, had panic 
hardware, had alarms. We have seven doors that have now been 
totally reconstructed in an appropriate manner for the United 
States Capitol. And we are working on that with many other 
projects.

                     STATURE OF THE CAPITOL COMPLEX

    Senator Bennett. Well, thank you, and I appreciate your 
sensitivity to that. I think that our children, in my case 
grandchildren now, would be very poorly served if they were to 
lose the sense of stature and destiny that the people who 
created the Capitol in the first place had.
    This is a monumental city. I do not know of any other city 
where the city planners would create something like The Mall, 
that much open space just for the sake of open space, to say, 
``Here we are, a significant people, a significant Capitol''; 
the Union Station, and the approach of Union Station to the 
Capitol, created at a time when Union Station was the only way 
you could get to Washington, and the sense of grandeur that 
came about with this. It is most appropriate, I think, for a 
nation as significant as this one.
    And if in the name of some statistically possible, but 
unlikely, emergency, we chop it all up, I think we take 
something away from our posterity and their sense of what they 
have inherited in this nation.
    So, I applaud you in your effort to see to it that the 
Capitol is not chopped up in that fashion.
    I look at the Library of Congress. I remember the first 
time I stepped into what is now called the Jefferson Building. 
The hallways were filled with office barriers and wires taped 
to the floor, so the telephones would work in the cubicles. And 
I had no sense at all of what that building really was.
    And I walk it in now, and go down those open corridors and 
see the mosaics on the ceiling and all the rest of it, and I 
practically expect to see Theodore Roosevelt walk around the 
corner, because here is a statement of what America was at the 
turn of the last century, and an exuberant, physical 
manifestation of how we felt about ourselves and our future. 
And I think that is a history lesson that everybody ought to be 
able to receive when they walk into that building.
    So, with that, I apologize for rattling on. I just thank 
you for your sensitivity to the challenge that we have here. I 
have no further questions.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you very much for your testimony. And we will examine 
the details of your request with great care. And I will be 
available in working with you to follow-up on Senator 
Mikulski's concern.
    Mr. Hantman. I look forward to that, Mr. Chairman. Thank 
you very much.
    Senator Bennett. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]
            Question Submitted by Senator Robert F. Bennett
    Question. What was the financial status of the Senate Restaurants 
in fiscal year 1999? What do you project for profits or losses for 
fiscal year 2000, and 2001?
    Answer. The information follows.

                                   SENATE RESTAURANTS KEY FINANCIAL INDICATORS
                                        [Fiscal Year Operating Statement]
----------------------------------------------------------------------------------------------------------------
                                                                                          2000          2001
                                                1998          1999        Variance      Projected     Projected
----------------------------------------------------------------------------------------------------------------
Revenues..................................    $7,788,589    $8,395,246      $606,657    $8,475,686    $8,010,000
Loss from Sales...........................    -1,263,797      -678,539       585,258      -705,240      -915,000
Employee buy-out..........................      -753,282       -57,731       695,551  ............  ............
                                           ---------------------------------------------------------------------
      Net Operating Inc...................    -2,017,079      -736,270     1,280,809      -705,240      -915,000
Appropriated funds........................     1,433,000       750,000      -683,000       750,000       750,000
                                           ---------------------------------------------------------------------
      Net Income..........................      -584,079        13,730       597,809        44,760      -165,000
                                           =====================================================================
Year End Balance Sheet:
    Assets................................       767,011     1,148,856       381,845     1,150,000       950,000
    Liabilities...........................    -2,050,418    -1,528,533       521,885    -1,278,000    -1,243,000
                                           ---------------------------------------------------------------------
      Equity..............................    -1,283,407      -379,677       903,730      -128,000      -293,000
                                           =====================================================================
Economic Dependency:
    Transfers of Appropriations...........     1,433,000       750,000      -683,000       750,000       750,000
    Net Loan Proceeds.....................        65,000      -540,000      -605,000      -250,000      -200,000
    Increase In Appropriated Capital......       210,000       890,000       680,000  ............  ............
                                           ---------------------------------------------------------------------
      Total Direct Support................     1,708,000     1,100,000      -608,000       500,000       450,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. On page 1 of Appendix ``D'' to the Architect's testimony 
submitted to the Subcommittee for purposes of this hearing, reference 
is made to the Office of Compliance's Annual Report to Congress, dated 
January 2000, which provides statistical information regarding employee 
complaints during calendar year 1999. It is noted in the report that, 
of the 330 covered employees of the Legislative Branch who filed 
requests for counseling with the Office of Compliance last year, 311 
were complaints filed by AOC employees.
    Without disclosing confidential information with regard to specific 
AOC employee grievances, could your office provide the Subcommittee 
with additional information regarding the types of complaints that make 
up the 311 requests for counseling, and whether your office has 
identified any pattern of non-compliance by the AOC in certain areas?
    What steps have been taken at both the top management and middle 
management levels to address the overall human resource management 
problem reflected in the report by the Office of Compliance?
    Answer. As noted in Appendix D, an employee who wishes to allege 
violations of the CAA may request counseling and mediation from the 
Office of Compliance. Individuals who wish to file such requests need 
not put in writing, or prove, any allegations during formal counseling, 
mediation or before entering the formal litigation process. At 
mediation the AOC must be ready to respond to any employment-related 
matters, including discrimination, wage and hour and family leave 
issues, or other workplace issues, without regard to the legal merits 
of claims. The CAA and the Office of Compliance procedural rules 
require that all mediation and formal hearing proceedings are strictly 
confidential and require parties sign agreements to that effect.
    Initially, as stated above, the Congressional Accountability Act 
provides that requests for counseling are strictly confidential. Thus, 
the AOC has no knowledge of the substance of any of these requests for 
counseling reported in the Office of Compliance Annual Report. The 
Office of Compliance does not notify the AOC when a Request for 
Counseling is filed; the Office of Compliance does not permit the AOC 
to have or even to see any written submission from the employee. We do 
not have the information on the substance of any of the Requests for 
Counseling reported on by the Office of Compliance. With regard to 
mediation requests, the Office of Compliance regularly counsels 
employing offices, including the AOC, that they may be subject to 
sanctions for breaching the strict confidentiality. For these reasons, 
we suggest that you to contact the Office of Compliance for further 
information on the cases on file there.
    It is important to emphasize that neither the Office of Compliance 
nor any third party determines whether there is any merit to charges 
that may come from filings of Requests for Counseling by individuals 
under the CAA. It is only if and when these matters come before a 
district court or an Office of Compliance hearing officer that the 
merits of the allegations are examined. In each case that has reached 
that stage in the federal district court, the AOC has prevailed. Again, 
strict confidentiality applies in actions before the Office of 
Compliance hearing officers.
    Accordingly, there is no basis to conclude, as your question 
indicates, that the mere filing of these actions naming the AOC as the 
employing office indicates the existence of an ``overall human resource 
problem'' that calls for action.
    The AOC Human Resources Management Division (HRMD) regularly 
addresses any human resource problems that come to our attention in our 
day-to-day operations, including outreach to managers and supervisors 
in specific problem areas. Our human resources specialists, as well as 
managers and supervisors in the jurisdictions, have been active in 
addressing problems that we know to exist, which admittedly are 
numerous and quite challenging. The HRMD also frequently works 
individually with employees on individual problems.
    Question. On page 3 of Appendix ``K'' of the Architect's testimony, 
there appear to very large increases projected in the Capital Budget 
for the out-years of 2002 and 2004. This time next year, we are looking 
at triple the amount of money? Why are there such large increases in 
fiscal year 2002 and fiscal year 2004?
    Answer. The AOC's Capital Budget request for fiscal year 2001 is 
$68.7 million. In the Five-Year Capital projection, projects totaling 
$181.1 million and $221.6 million have been identified for fiscal years 
2002 and 2004 respectively. Some of the more significant projects that 
account for the increase in fiscal year 2002 include the Rehabilitation 
of the Capitol Dome $38.8 million, Renovation of the Senate Garage 
$10.8 million, Construction of an Off-Site Delivery/Screening Center 
$7.5 million, Optimization of Chilled Water Distribution System $5.6 
million, $5 million each for the Installation of Sprinklers in the 
Capitol, Power Plant Chiller Replacement, and Emergency Operations for 
HVAC Systems in the Capitol, $4.5 million each for Upgrading the Cable 
Television System and Repairing Failed Waterproofing Over ST-71, $4 
million each for Upgrading Building Systems in the Capitol and 
Upgrading the Book Conveyor System at the Library, Book Storage Module 
No. 2 $3.6 million and the installation of a Human Resources 
Information System $3 million. Some of the more significant projects 
that account for the increase in fiscal year 2004 include the 
Construction of a Garage on Square 724 $26 million, Replacement of 
Windows in the Capitol, Russell and Cannon Buildings $48.3 million, 
Construction of a Capitol Police Command Center $14.1 million, 
Upgrading Building Systems in the Capitol $10 million, Repairs to the 
House East and West Underground Garages, Construction of a Copyright 
Deposit Facility for the Library, Repairs to the Domestic Water System 
in the Cannon Building $8.8 million, Replacing Heating Piping in the 
Longworth Building $8.3 million, Replace the Russell-Capitol Subway $6 
million, and $5 million each for the Installation of Refuge Areas in 
the House Office Buildings, Upgrading the HVAC in the Rayburn and the 
construction of a Thermal Storage Facility.
    The above listing of projects reflects identified work that will 
need to be funded. Projects have been reflected in the above fiscal 
years based on current information as to the need of the work and 
projected completion of design. As the design progresses and more 
information is available, each project will be reevaluated in terms of 
priority of the project, its cost and the amount of work that can be 
realistically funded and implemented by this office in any given year.
    Question. On page 4 of Appendix ``K'' in the category of Cyclical 
Maintenance, there again seem to be extremes in these projections. One 
might think that ``cyclical'' maintenance would remain somewhat 
consistent from year to year. But, the figures you show for these out-
years are up and down. Is that efficient, to have huge amounts one year 
for cyclical maintenance; then have it drop dramatically the following 
year; then jump back up the next year?
    Answer. It is best to keep the agency's workload relatively 
constant. However, there is not a direct correlation between funds 
requested and workload during that fiscal year. For work performed by 
contract, the total funding has to be available to make the award. For 
the larger projects, such as the Renovation of the Capitol Dome, it 
will take more than one year to complete the work. Because of the time 
required to advertise, award and mobilize the contractor the majority 
of the work may actually be accomplished during the following years. As 
indicated in the proceeding question, all future projects will be 
reviewed and where possible the requests will be spread out to avoid 
significant fluctuations in funding requirements and to stabilize our 
workload.
    Question. The AOC's budget request is projecting some of the 
custodial services to be contracted to an outside company in the coming 
year. I understand that some of the custodial tasks in some areas of 
the complex are already being contracted out. Now, the AOC is 
recommending that more of these custodial jobs be contracted out. If we 
currently have in-house staff performing these tasks, why is the AOC 
shifting to a contractor to perform work? Is it more efficient to do 
that?
    What will happen to the employees who have been performing these 
custodial tasks; will they be reassigned?
    Answer. The Architect of the Capitol presently cleans the following 
facilities via contract: Ford House Office Building, Postal Square, 
Webster Hall Page Dormitory and School, and Senate Employees Child Care 
Center (new facility).
    It is being proposed that the custodial maintenance of Capitol 
Police Headquarters be cleaned by an outside contractor beginning in 
fiscal year 2001. This building has been cleaned by in-house custodial 
workers since 1988 when the building was renovated as the central 
headquarters for the U.S. Capitol Police.
    A review of our cleaning program indicates that the Day Cleaning 
Branch of the Day Labor Division is presently short of personnel and 
has no relief crew, which is a need recognized by management. A relief 
crew is comprised of custodial workers who ``fill in'' for absent 
custodial workers. When employees are absent for training, when they 
are sick and when they are on vacation, their assignment must be 
accomplished by relief workers. It is estimated that the average in-
house employee is absent in excess of 20 percent of the time for such 
entitlements.
    In this case, if the cleaning of Capitol Police Headquarters is 
accomplished by a contractor, it will enable the transfer of 
approximately five custodial workers, thereby enabling the creation of 
a relief crew for the cleaning crew assigned to the Hart, Dirksen and 
Russell Buildings. This will provide additional cleaning capability in 
the buildings and it will allow greater cleaning consistency.
    Given the need for additional cleaning personnel in the Day 
Cleaning Branch, it becomes apparent that additional cleaning personnel 
would have to be hired straight out as full time government employees, 
as one solution. Alternatively, as illustrated in this case, the hiring 
of a contractor to clean the Capitol Police Headquarters frees up 
veteran cleaners to augment our existing cleaning force.
    The choice to clean Capitol Police Headquarters using a contractor 
is based on several factors. It is not a legislative building, 
providing an opportunity to minimize the potential cleaning costs by 
adjusting cleaning schedules. The competition of this requirement 
should also minimize the cost to the government. Moreover, success has 
been experienced in the contracts cited above in consideration of 
cleaning quality and cost.
    Research has revealed that the building management industry as well 
as government agencies such as the General Services Administration have 
come to rely upon contract cleaning as the primary vehicle for building 
cleaning, nationwide. The nature of this industry has revealed that it 
is a competitive business that can best be managed by supervisors and 
managers associated more with the cleaning industry than the building 
management industry.
    Employees assigned to clean Capitol Police Headquarters will be 
reassigned, as previously described, when this facility is cleaned via 
contact.
    Question. The Conference Report on H.R. 1905, the Fiscal Year 2000 
Legislative Branch Appropriations Act, directed the Architect of the 
Capitol to provide the Librarian of Congress with a reasonable, 
effective and efficient plan of action to correct identified hazards 
and deficiencies with respect to fire safety. Has the Architect's 
office had any feedback from the Librarian as to whether the Library of 
Congress is satisfied with the AOC' fire safety plan?
    Answer. To date the Library of Congress has indicated in their 
opinion the plan is incomplete without definite start and finish dates. 
Several of the projects contained in the plan are currently unfunded 
which causes the project time lines to show start and stop durations 
rather than actual start and stop dates. Additional concerns expressed 
by the Library, are available resources and deployment of those 
resources, which again will be determined by the funding process. They 
have accepted the list of identified items but have not worked with the 
Architect to develop priorities. In summary they acknowledge the need 
to complete the plan but they do not agree with the proposed 
implementation process.
    Question. Last year, there were a number of problems that delayed 
the AOC's completion of the Senate Employees Child Care Center. There 
were environmental concerns with mold, which had to be remediated, 
creating significant delays. Additionally, there were other 
circumstances that slowed down the construction project even more, such 
as leaking windows, electrical wiring problems, and vendor delays in 
delivery of products. The Center's Board and staff were assured by the 
Office of the Architect on a number of occasions that completion was 
only a matter of weeks, or days away, only to be told at the last 
minute that the deadline would, again, not be met.
    Due to the numerous delays in completion of the project, the Child 
Care Center had to absorb a number of expenses which it could not 
subsequently recoup through its normal income from student enrollment. 
These unfortunate circumstances placed the Center at great financial 
risk during the last few months of 1999. I understand that the Center 
has now been reimbursed for most of those expenses; but that does not 
diminish the fact that the Center was forced to bear an unnecessary 
financial burden for a number of months.
    Subsequent to completion of the SECCC project, has the AOC reviewed 
the project deficiencies with the contractor who performed the work on 
the Child Care Center? And, has the AOC reviewed this project with its 
in-house staff to see what might be done differently with future 
construction projects?
    Answer. During the final phases of construction, various members of 
the AOC staff and the Architect discussed the lack of performance with 
the principles of the construction company joint venture. In addition 
there have been several letters from the AOC discussing the poor 
performance of the contractor.
    As was discussed in greater detain in Appendix J of the Architect's 
opening statement submitted for the record, the AOC has initiated a 
complete review of the project delivery process and has conducted a 
``peer review'' of the construction management system. The in-house 
staff has participated fully in these best practices studies that were 
conducted by two outside consultants. Based up on the consultants 
findings, the AOC is now implementing recommended changes to strengthen 
all phases of the project delivery process. The new process will 
provide for improved planning, stronger design control, increased 
coordination with customers, development of AOC project standards and 
guidelines, improved use of design consultants, expanded construction 
contracting methods, better reporting tools and improved construction 
management processes. Finally the AOC is conducting a formal lessons 
learned review under the direction of the Assistant Architect and the 
AOC Inspector General to review the specifics of the SECCC. The AOC 
Inspector General is also performing a complete review of the entire 
project from start to finish.


                       GENERAL ACCOUNTING OFFICE

STATEMENT OF DAVID WALKER, COMPTROLLER GENERAL
ACCOMPANIED BY:
        GENE DODARO, CHIEF OPERATING OFFICER
        RICHARD BROWN, CONTROLLER
        SALLYANNE HARPER, CHIEF MISSION SUPPORT OFFICER

                          PRAISE FOR Y2K WORK

    Senator Bennett. Our next witness is Mr. David Walker, the 
Comptroller General. He is joined by Gene Dodaro, who is the 
Chief Operating Officer; and Richard Brown, the Controller; and 
Sallyanne Harper.
    I do not have your title, Ms. Harper.
    Ms. Harper. Mr. Chairman, I am the Chief Mission Support 
Officer.
    Senator Bennett. We are delighted to have you all here. The 
fact that the crowd all left indicates, I think, that you do 
not have as controversial a budget request as the one that 
preceded you, and that is probably a good thing.
    We want to thank you, Mr. Walker, both as this committee 
and personally in my role as Chairman of the Senate Special 
Committee on the Year 2000 Problem, which chairmanship expires 
at midnight tonight, so I have just a little while longer.
    But I want to thank you for the GAO employees that you 
detailed to our committee. They were absolutely outstanding. 
They have professional qualities that would make them 
outstanding employees of any organization anywhere. And the GAO 
employees who were not detailed, but who responded to requests 
for GAO audits, were equally professional. We, as a nation, 
would not have achieved the non-event of Y2K if we had not had 
the GAO.
    Over and over again, when we would get initial reports from 
Government agencies, the GAO would go in, conduct the audit, 
and we could then say authoritatively to the agency, ``You are 
still not where you say you are. You are not there. You need to 
do it in this area, that area.''
    And the GAO reports were always on time. They were always 
insightful. They were always very accurate. And we get no 
thanks for this. If anything, the reaction of part of the press 
has been, ``Well, you wasted all our time and money. Look, 
nothing happened.''
    As I said on the floor yesterday, it is a little like Bob 
Hope, who, when he went out to entertain the troops at 
Christmas time complained, he said, ``The Army uses me like a 
pincushion and fills me full of shots. And it is completely 
ridiculous, because I have never gotten sick at all on any one 
of these trips.''
    But whether we get the kind of press thanks that we might 
want or not is immaterial. The fact is that the country went 
through what could have been a disastrous experience without 
much of a ripple, and your agency is very much responsible for 
that. And I want to publicly acknowledge that.
    Now, you have requested $402,918,000, a $24,132,000 
increase, which is 6.4 percent. We will be happy to hear your 
explanation of that budget, and appreciate your being here.

                        SUMMARY OF GAO Y2K WORK

    Mr. Walker. Thank you, Mr. Chairman. I appreciate it very 
much.
    First, let me acknowledge at the outset that I consider 
myself fortunate to be head of the GAO. We have a number of 
outstanding individuals, not only the ones that were detailed 
to you, but the approximately 3,000 that provided support one 
way or another.
    Let me also say that I think we always have Monday morning 
quarterbacks who speculate about what would have happened had 
we not taken certain actions. I personally think that the Y2K 
area is an example of a very positive effort by Government, in 
both leadership and management.
    It shows what Government can do when it focuses on a major 
challenge, and the impact that can be had. Not only the 
executive branch, but the legislative branch took it very 
seriously as well.
    We started first with the Federal Government. We then went 
to State and local governments. We then went to the entire 
economy. Ultimately we had an impact on the entire world. And 
you and I know, Mr. Chairman, that Lord knows what would have 
happened had we not taken it as seriously as we did.
    In addition, we both know that while considerable time and 
effort was spent on it, and substantial resources, both 
financial and human capital, there are benefits that we will be 
reaping for years to come from the enhanced hardware and 
software applications at all levels of our economy.
    And I think that this is clearly an example of our 
Government doing something right. And frankly, we need more of 
these successes to try to help improve the public's confidence 
in and respect for their Government.

                GAO ACCOMPLISHMENTS IN FISCAL YEAR 1999

    If I can, Mr. Chairman, very briefly I want to touch on a 
couple of accomplishments in 1999, a few initiatives and then 
our request.
    I am pleased to say that in 1999, we had, I think, a very 
good year. The bottom line is we achieved $20.1 billion in 
financial benefits for the American taxpayer. That is a return 
on investment of $57 for every dollar invested in GAO. We also 
were able to make a contribution in a number of areas, Y2K 
being an important one.

                           GAO STRATEGIC PLAN

    With regard to fiscal 2000, we have a major strategic 
planning effort that we have been coordinating with the 
Congress. We expect to finalize that effort within the next 
month. We have published some proposed Congressional protocols 
about how we determine our priorities, how we allocate our 
resources, and what our obligations are to Congress, our 
client, to make sure that we are delivering quality services on 
time, consistent with our core values, applicable professional 
standards, and our statutory mission.
    We announced a restructuring of our field offices on 
February 3, in order to try to improve our economy, efficiency, 
and effectiveness within existing resource levels. We are in 
the process of realigning our headquarters organization to 
support the strategic plan, and to maximize our economy, 
efficiency and effectiveness.

                       GAO ACCOUNTABILITY REPORT

    We are in the process of publishing our first 
accountability report, which I expect will be a model for 
others to follow. We believe it is important, Mr. Chairman, 
that since we are the leading Federal accountability 
organization in the United States, to recognize that we have a 
responsibility to lead by example. We should be as good or 
better than anybody that we review in every area, and we are 
committed to doing that.
    We have a number of major initiatives underway in the area 
of human capital; an area that, quite frankly, we are at risk. 
And I will come back to that in a minute.

                  HIGHLIGHTS OF HUMAN CAPITAL REQUEST

    In our fiscal 2001 budget request, we are not requesting an 
FTE increase. Last year I committed to you, and to the House, 
that we would not request any additional personnel until we 
have taken all the actions that we think are prudently 
appropriate within our existing resource allocations to be able 
to get the job done.
    We have a number of actions underway and contemplate 
others, and so therefore, we are not asking for any additional 
FTEs. We are asking, basically, for inflation, to maintain 
purchasing power and several limited and targeted investments 
in two areas.
    First, human capital: People are our most important asset. 
People are what we need in order to deliver service to the 
Congress and to the nation. Frankly, we are 39 percent smaller 
today in head count than we were in 1992. And it is not just 
the fact that we are smaller; it is how we got to where we are.
    The agency took some steps in the 1990's that, quite 
frankly, will enable us to get our job done today, but that put 
us at risk of not being able to get our job done tomorrow. We 
need to take a number of critical actions today, such as 
enhancing training, and providing additional recognition 
rewards to put us on a level playing field with the executive 
branch and that are based upon results. We need to modernize 
our performance appraisal systems so they are focused on 
supporting our strategic plan, and generating results for the 
Congress and the American people.
    So, we have requested some targeted, modest investments in 
the human capital area, for training, performance appraisals, 
and performance awards.

                     INFORMATION TECHNOLOGY REQUEST

    In the IT area, we have designed our disaster recovery 
plan. Now we need to implement it.
    Second, we need to upgrade to more modern versions of some 
of the basic software like Office 2000, in order to operate 
efficiently and maintain support from the vendors. We have some 
applications that, quite frankly, are either no longer being 
supported or will not be supported very much longer, and it is 
important that we be prepared for that.

                           PREPARED STATEMENT

    So, Mr. Chairman, I appreciate your consideration of our 
request, and I am more than happy to answer any questions that 
you might have.
    [The statement follows:]

                 Prepared Statement of David M. Walker

    Mr. Chairman and Members of the Subcommittee: I am pleased to 
appear before you today--about 16 months after becoming the seventh 
Comptroller General of the United States--to present the U.S. General 
Accounting Office's (GAO) fiscal year 2001 budget request. GAO is a 
great agency. We had an excellent year in fiscal year 1999 and are on a 
similar path for fiscal year 2000. GAO has never been more important 
than today, given the increasing complexity, the increasing 
interdependency, and the multidimensional nature of the challenges that 
face the Congress and the nation. There is no other organization better 
prepared to help the Congress address the full range of important 
national issues than GAO.
    Maintaining and enhancing GAO's preparedness to serve the Congress 
in today's complex and rapidly changing global environment, however, 
presents its own challenges. As a result of a tremendous amount of due 
diligence over the past year, we identified a number of issues that, if 
not addressed, could place GAO at risk of being unable to continue 
serving the Congress effectively. We are 40 percent smaller today than 
in 1992, and congressional demands for our services have increased, a 
trend we anticipate will continue. At the same time, given the 
continued interest in fiscal restraint, we cannot expect to receive 
significant increases in financial resources beyond inflation or in the 
level of full-time equivalent (FTE) staff currently authorized.
    Recognizing the strong likelihood of constrained resources and 
increasing client demands, we must begin doing things differently in 
order to continue to effectively serve the Congress, both today and in 
the future. We must take steps to maximize our effectiveness; manage 
risks; and optimize staff productivity, efficiency, and effectiveness. 
During the past year, we initiated a number of efforts to begin 
addressing these challenges. Our fiscal year 2001 budget request 
continues down this path toward strengthening GAO, so that we can 
continue to effectively meet the demands and expectations of the 
Congress and remain an important asset to Members as they address the 
current and future needs of the American people.

                    FISCAL YEAR 1999 ACCOMPLISHMENTS

    Before I begin presenting the challenges confronting GAO and what 
we are doing, and need to do, to address them, I want to briefly 
summarize some of our achievements during the past year. GAO continues 
to provide the Congress and the American people a tremendous return on 
their investment. In fiscal year 1999, for every $1 invested in GAO, we 
helped the Congress and the agencies produce about $57 in financial 
benefits, or about $20.1 billion in total. These financial benefits 
were achieved through actions taken by the Congress and federal 
departments and agencies that led to budget reductions, avoided costs, 
deferred appropriations, or additional revenue collections. As 
illustrated in the following graphic, the return on the nation's 
investment in GAO for the past 3 years has averaged $20.2 billion.

[GRAPHIC] [TIFF OMITTED] T08FE29.005


    GAO's work and recommendations resulted in greater returns on the 
sale of federal assets, increases in net tax revenue, savings from a 
more efficient government, and decreased federal spending from 
reductions in current and future budget authority. For example, in 
1995, GAO testified that the U.S. Treasury would receive a greater 
return if the government sold, rather than continued to operate, the 
U.S. Naval Petroleum Reserve in Elk Hills, California. Based on 
subsequent assistance that we provided the Congress and efforts to 
ensure that the government received a maximum return on the sale, the 
reserve sold for about $1.5 billion above the minimum asking price.
    Also, based on options we presented, the Congress changed the 
earned income tax credit law in 1996 by adding wealth, capital gains, 
and income tests to the program's eligibility criteria. This led to the 
federal government avoiding payment of about $1.3 billion in earned 
income tax credit benefits. In addition, about $609 million was saved 
in the Department of Defense's fiscal year 1999 military personnel 
budget as a result of several opportunities that GAO identified in 
which the military personnel budget could be reduced without 
compromising our overall readiness.
    In addition to the financial benefits resulting from our work, we 
were instrumental in bringing about over 600 needed improvements in the 
effectiveness and efficiency of government operations and services. Our 
recommendations led to increased readiness in the public and private 
sectors for the year 2000 computing challenge, better public safety and 
consumer protection, more efficient and effective government operations 
and services, better assessments of program results, and enhanced 
computer security.
    For example, we contributed greatly to reducing the federal 
government's vulnerability to the year 2000 computing challenge. We 
worked closely on this issue with you, Mr. Chairman, and the Senate 
Special Committee on the Year 2000 Technology Problem that you chaired; 
the House Committee on Government Reform, Subcommittee on Government 
Management, Information, and Technology; the House Committee on 
Science, Subcommittee on Technology; and the President's Council on 
Year 2000 Conversion. As a result of our research and development 
efforts to identify and help the Congress address emerging issues, we 
identified the year 2000 computing issue as a high risk area for the 
federal government in February 1997. Our series of guides prepared to 
help organizations address Y2K challenges, assistance provided to the 
Congress and federal agencies, and over 150 reports and testimonies 
helped ensure that the federal government was better prepared to 
transition into the 21st century and avoid serious disruption in 
services to the American public.
    We also made important contributions in the information security 
area. This work included (1) identifying the extent of the problem and 
inherent risks faced by key government agencies, (2) identifying ``best 
practices'' and developing guidance that can be adopted by government 
entities to better protect their information assets, and (3) supporting 
congressional initiatives to develop effective legislation.
    Other areas of improvements stemming from GAO's work include the 
Social Security Administration (SSA) commencing several initiatives to 
reduce overpayments in the Supplemental Security Income program as a 
result of the numerous reports we issued on the program. One such 
initiative is SSA expanding its use of online data to better verify 
recipient financial information and prevent program overpayments.
    Our work also has contributed to improving public safety. Our 
series of Medicaid-related reports, highlighting the disturbing 
frequent extent of poor quality care that results in harm to nursing 
home residents, led to enhanced oversight of nursing homes by the 
Health Care Financing Administration (HCFA) and some states. For 
example, in response to our recommendations, HCFA announced a set of 
nursing home initiatives, including establishing a requirement that 
states investigate serious complaints alleging harm to residents within 
10 days.
    In the consumer protection area, we reported on the prevalence and 
costs of identity fraud. Identity fraud involves the illegal use of 
another person's identifying information, such as their name, social 
security number and date of birth, to commit financial crimes ranging 
from the unauthorized use of a credit card to a comprehensive takeover 
of financial accounts. Relying on the results of our study, the 
Congress enacted the Identity Theft and Assumption Deterrence Act, 
which specifically criminalized the theft and misuse of personal 
identifying information and provided legal recognition of the victims 
of identity theft.
    Additional examples of the financial benefits and improved 
government operations and services achieved through GAO's work are 
included in our budget submission.
    Our audit and evaluation products included over 900 recommendations 
to improve the management and efficiency of government operations and 
programs. Seventy-seven percent of our key recommendations over the 
last 4 years were implemented by the end of fiscal year 1999. The 
average implementation rate for the past 3 years has been 74 percent, 
as illustrated in the following graphic.

[GRAPHIC] [TIFF OMITTED] T08FE29.006


                         CHALLENGES FACING GAO

    As I mentioned in my opening remarks, we invested in a tremendous 
amount of due diligence in fiscal year 1999 to identify ways to enhance 
our effectiveness, efficiency, and services to the Congress. Before and 
after my confirmation in November 1998, I personally met with key 
congressional leaders and many other members and staff, as well as GAO 
staff, to obtain their views and perspectives about GAO and to identify 
areas in which we could strengthen our operations and services to the 
Congress. I will continue to do this throughout my tenure. In addition, 
we examined our human capital profile to identify opportunities to 
strategically rebalance and strengthen our human capital assets in 
order to maintain the readiness, flexibility, and productivity 
envisioned in the statutory mission of GAO. More recently, a survey of 
GAO employees was completed, the results of which will be used to 
identify additional opportunities to strengthen GAO's economy, 
efficiency, and effectiveness.
    We identified a number of challenges that must be addressed in 
order to increase the effectiveness and efficiency of our services to 
the Congress in the 21st century. The most important and most urgent of 
these challenges is making necessary changes to our human capital 
management practices.

Human Capital Imbalances

    Our current human capital profile has succession planning, 
structural, and skill imbalance issues that we need to address. 
Succession planning is a major human capital issue that we must 
address. Nearly 34 percent of our evaluator and related staff will be 
eligible to retire by the end of fiscal year 2004. In addition, about 
55 percent of our senior executives and 48 percent of our management 
evaluators will become eligible to retire by that time. Other critical 
positions, such as attorneys, criminal investigators, and mission 
support, are also vulnerable.
    Another human capital issue is more structural in terms of 
staffing. As illustrated in the following graphic, we are sparse at the 
entry-level--a result of the 5-year hiring freeze we began in 1992 to 
downsize and later continued to achieve mandated funding reductions.

[GRAPHIC] [TIFF OMITTED] T08FE29.007


    Maintaining proper skills is another issue that needs to be 
addressed. The development and training of our senior executives in key 
competencies, such as leadership, communications, project supervision 
and conflict resolution, have remained at a drastically reduced level 
since fiscal year 1993. In addition, new technical skills unavailable 
in needed quantities within the agency, especially actuarial and 
information technology skills, will be needed to effectively assist the 
Congress in meeting its oversight responsibilities.

Increasing Congressional Demands

    At the same time we are facing several human capital challenges, 
congressional demand for our services remains at record levels. The 
Congress continues to turn to GAO for assistance on significant issues 
facing the nation. As illustrated in the following graphic, 
congressional requests and mandates for GAO services have increased in 
recent years.

[GRAPHIC] [TIFF OMITTED] T08FE29.008


    During fiscal year 1999, we were called upon to testify 229 times 
before 93 congressional committees or subcommittees. Additionally, we 
were requested to provide 22 statements for the record. Examples of the 
issues and topics covered in our testimonies that have assisted the 
Congress in its decision-making and oversight responsibilities include 
our performance accountability and high risk series that depict major 
management challenges and program risks facing the government's major 
departments and agencies, Social Security reform proposals, financial 
and operational aspects of the International Monetary Fund, DOD's 
anthrax vaccination program, and Medicare reform. As illustrated in the 
following graphic, the number of testimonies we provide fluctuates 
annually, depending upon congressional activity. Over the past 3 years, 
we have averaged about 222 testimonies a year.

[GRAPHIC] [TIFF OMITTED] T08FE29.009


                 INITIATIVES UNDERWAY TO STRENGTHEN GAO

    We began a number of initiatives this past year to address the 
challenges facing GAO and to further enhance our organization and 
services to the Congress. One of our first initiatives was to establish 
GAO's core values--accountability, integrity, and reliability. These 
core values describe what we do, how we do it, and how we want our work 
to be received. Other key efforts started this past year have been 
focused on client relations; developing a strategic plan; and 
strengthening our communications, human capital, information 
technology, job processes, and organizational alignment. Let me briefly 
summarize some of these key efforts for you.

Client Relations

    We have initiated a client outreach program to assist GAO and the 
Congress in understanding how best to meet congressional needs and use 
our resources and services. During each Congress, we plan to meet with 
the Senate and House leadership, all Committee Chairs and Ranking 
Minority Members, and members of our appropriations and oversight 
committees to obtain feedback on our performance and to help develop 
future work plans.
    Through consultation with key congressional leaders, members, and 
staff, we also have developed a set of clearly defined, well documented 
and transparent protocols, intended to be consistently applied in 
setting priorities, allocating resources, and serving our client--the 
Congress. These protocols will be used to help determine resource 
allocations, guide interactions with the Congress, and ensure our 
accountability to the Congress. We began implementing these protocols 
in January of this year and will test them throughout the Congress 
until August 2000. We will finalize them by October 2000. We also are 
exploring efficient ways to obtain systematic client feedback from 
appropriate members and key staff.

Draft Strategic Plan

    We are working with the Congress to craft the first strategic plan 
for the 21st century, covering fiscal years 2000 through 2005. This 
draft plan sets forth the issues around which we need to focus and 
develop our resources to effectively serve the Congress over the next 6 
years. The plan, developed after extensive consultation with 
congressional members and staff, as well as GAO staff, is rooted in the 
reality that the vast majority of our resources are devoted to 
responding to requests from committees and statutory mandates. It also 
contemplates investing limited resources in important discretionary 
research and development work to identify and help the Congress address 
emerging issues facing the nation and its citizens before the issues 
reach crisis proportions. We plan to issue our strategic plan in the 
spring of this year.
    As illustrated in the attachment to my statement, our plan is 
designed around four strategic goals:

  --Help the Congress and the federal government address current and 
        emerging challenges to the well-being and financial security of 
        the American people;
  --Help the Congress and the federal government respond to changing 
        threats to national security and the challenges of global 
        interdependence;
  --Support the transition to a more results-oriented and accountable 
        federal government; and
  --Maximize the value of GAO by providing timely, quality service to 
        the Congress while being a model organization for the federal 
        government.

Communications

    We also have taken numerous steps to strengthen communications 
within the agency. Since taking office, I have visited all of our field 
offices, conducted numerous internal staff meetings, and held quarterly 
agency-wide videocasts to keep people apprised of key initiatives 
underway and planned within the organization, as well as to respond to 
their questions. To date, the topics covered in the videocasts have 
included our draft strategic plan and congressional protocols; client 
service initiatives; employee survey results; initiatives to enhance 
our human capital programs, work processes, organizational alignment, 
and information technology; field office review initiative; and other 
areas of interest to GAO staff.
    We established a Comptroller General Employee Advisory Council with 
which I will meet every quarter to discuss current and emerging issues 
of mutual interest and concern. In addition, a new employee suggestion 
program has already led to several recommendations that have enhanced 
GAO's operations. World-class organizations like GAO need to tap 
regularly into the ideas and ingenuity of their staff to continuously 
improve their economy, efficiency, and effectiveness. We will continue 
to strive to do so.

Human Capital

    We need to invest more heavily in our people--our greatest asset. 
Targeted investments need to be made in our training, performance 
rewards and incentives, and performance appraisal systems. In addition 
to examining our human capital profile, we have begun efforts to 
strengthen and redesign our performance appraisal system to better 
assess employee strengths and weaknesses, identify training needs, and 
reward and recognize exceptional performance, and to improve 
performance at all levels. This effort began in fiscal year 1999 and 
will continue over the next 2 years. We have revised our fiscal year 
2000 performance standards to incorporate our core values and strategic 
goals; updated descriptions of performance to better reflect the 
current nature of our work; and other key concepts, such as leadership-
by-example, client service, measurable results, matrix management, open 
and constructive communication, and balancing people and product 
considerations. We also are in the process of identifying best 
practices with respect to performance appraisal systems in both the 
private and public sectors, with a goal of implementing a new 
performance appraisal system for our evaluators beginning in fiscal 
year 2001, but no later than fiscal year 2002.
    Efforts also are underway to develop a skills inventory system that 
will be used to identify skill gaps, training, and succession planning 
needs, both at an institutional and individual level, and to staff 
assignments more effectively. We will continue to correct skill gaps 
and maximize staff productivity and effectiveness through training. To 
maximize this investment, we are reviewing and updating our training 
curriculum to address organizational, behavioral, and technical needs 
of our staff. Other efforts to enhance our human capital profile 
include re-energizing and modernizing our recruitment and college 
relations programs, enhancing our performance rewards program to help 
ensure our ability to attract and retain high quality staff with 
specialized skills, and reshaping our succession planning program.

Information Technology

    During fiscal year 1999, we replaced obsolete hardware and software 
agency-wide to help ensure the efficiency and effectiveness in our 
operations and enhance our productivity. In addition, we took steps to 
stabilize and improve the responsiveness of our network. Also, to help 
ensure continuity of our business operations and services to the 
Congress, we focused resources on ensuring that our mission critical 
systems were Y2K compliant and crafting necessary business continuity 
and contingency and ``Day-One'' plans.
    Now that the Y2K challenge has been successfully met, we must begin 
addressing other technological issues--not just ensuring that we have a 
stable and responsive system. We need to put enabling technology in the 
hands of our staff so that we can be more efficient, effective, and 
timely in responding to the needs of the Congress. We are planning to 
conduct a comprehensive review of our information technology in fiscal 
year 2000 to identify additional opportunities to increase our 
efficiency, effectiveness, and productivity. In addition, for fiscal 
year 2001, we plan to upgrade our network software and information 
technology systems that support our assignment tracking process and 
disaster recovery capability.

Job Processes

    Several changes already have been made to our job processes that 
have expanded the use of risk-based approaches to managing our jobs and 
products, while reducing administrative burdens and ensuring 
involvement of all subject and technical experts. For example, two new 
forums were established for management to review all new requests and 
the progress of ongoing jobs. A weekly Engagement Acceptance Meeting 
involving top management was created to review all new congressional 
requests, mandates, and division proposals for research and development 
assignments to determine if the work should be done, which skills are 
needed to do the work, and, based on risk, the appropriate level of 
involvement by the Office of the Comptroller General. We believe that 
this approach will reduce the levels of review and streamline the job 
process to improve the timeliness of our engagements and related 
products. Subsequent to the Engagement Acceptance Meeting, biweekly 
Engagement Review Meetings are held to discuss progress on high/medium 
risk assignments and upcoming reports for each operating division. 
Another initiative that has contributed to enhancing our job processes 
includes our strategic planning effort, which has led to the 
identification of four strategic goals and 21 related strategic 
objectives to help us better support the Congress as it serves the 
needs of the American people. Other efforts are underway to further 
review our job processes with the goal of expanding the use of matrix 
and risk management principles in order to increase our institutional 
timeliness, efficiency, capacity, flexibility, and impact.

Organizational Changes

    During this past year, we merged our Offices of Policy and the 
Assistant Comptroller General for Planning and Reporting into an Office 
of Quality and Risk Management. This new office was established to 
ensure that our work effectively and efficiently supports the Congress, 
and meets professional standards and our core values. It also will 
focus additional attention on quality assurance and risk management 
involving our products, and to improve our job processes. In addition, 
the management responsibilities of our field operations was moved from 
the Office of the Assistant Comptroller General for Operations to a new 
Assistant Comptroller General for Field Operations. This new position 
was created to ensure that our field offices and their employees are 
effectively represented at the executive level and to strengthen field 
office representation, communication, and participation within the 
organization.
    Other initiatives are underway to realign our headquarters and 
field office organizational structures in order to support our 
strategic plan and improve GAO's efficiency, effectiveness, and 
flexibility. We recently announced decisions related to our field 
office structure and are in the process of deciding upon a headquarters 
realignment and other related decisions that will be implemented within 
a reasonable timeframe. We will implement these realignments within our 
existing resource levels. However, as outlined below, we will be 
seeking your support and assistance in getting legislation enacted that 
will better enable us to efficiently and effectively manage our human 
capital within existing FTE allocations and constrained financial 
resource levels.

 LEGISLATION NEEDED TO HELP INCREASE GAO'S EFFICIENCY AND EFFECTIVENESS

    As noted above, we plan to address many of the human capital 
imbalances identified above through management improvement initiatives 
rather than by requesting additional FTEs. However, to facilitate 
implementing our human capital initiatives and effectuate the needed 
realignment of the agency, we will be seeking legislative authority 
that will provide additional flexibility in managing our human capital. 
This additional flexibility is critical in order to ensure that GAO is 
in a position to effectively serve the Congress in the future and 
minimize the need to request additional financial resources or FTE's.
    The legislation we are seeking would authorize us to offer early-
outs to selected individuals. This authority contrasts with Office of 
Personnel Management rules in which early-out offers can be made only 
to groups of similarly situated employees in a downsizing or major 
reorganization. The legislation also would provide relief from applying 
certain reduction-in-force provisions that could result in an even more 
unbalanced workforce than exists today and a consequent, detrimental 
impact on our ability to serve the Congress. I want to stress that our 
proposal would maintain the statutory preference for veterans and that 
we have no intention of de-emphasizing our attempts to attain and 
maintain a high quality and diverse workforce. Also, to provide us 
greater ability to attract and retain technical talent, we will be 
seeking authority comparable to that of the executive branch to 
compensate selected scientific and technical staff at senior executive 
pay levels. We would use such authority, if granted, sparingly to 
address specific targeted needs, such as information technology 
specialists and actuaries. We will shortly be sending you and other 
appropriate congressional committees a letter requesting the 
legislative authority discussed above.

                    FISCAL YEAR 2001 BUDGET REQUEST

    For fiscal year 2001, we are requesting $402,918,000 in budget 
authority to permit us to maintain current operations while we continue 
to realign the organization to better serve the Congress. We are not 
seeking additional full-time equivalent staff.
    Our funding level increase will provide for the following:

  --$16,264,000 to cover mandatory pay and benefits costs resulting 
        primarily from federal cost-of-living and locality pay 
        adjustments (based on Office of Management and Budget 
        guidance), increased participation in the FERS retirement 
        system, and an increase in the estimated number of retirees; 
        and
  --$1,082,000 to cover uncontrollable price-level increases in 
        transportation, lodging, printing, supplies, contracts, and 
        other essential mission support services, based on OMB's 2-
        percent inflation index.

    We also plan to continue the initiatives we began in fiscal year 
2000 to restructure the agency to support our goals of improving 
service to the Congress. These initiatives include realigning 
organizations to increase our flexibility and support broader and more 
diverse issues and objectives, reengineering work processes, and making 
further technological advances to maximize our responsiveness to 
congressional needs. The requested increase for these changes includes:

  --$776,000 to increase funding for our performance rewards and 
        recognition program to pre-downsizing per capita level, and to 
        achieve more comparability between GAO and the executive branch 
        compensation systems to help ensure our ability to retain, 
        attract and reward high quality staff based on their skills and 
        performance;
  --$1,500,000 for organizational, behavioral, and technological 
        training, to increase our staff productivity and effectiveness; 
        to support the draft strategic plan; and to address skills gaps 
        identified in the planned skills inventory;
  --$250,000 to reengineer our non-evaluator performance appraisal 
        system to incorporate best practices. Performance appraisal 
        systems are a key component in assessing employee strengths and 
        weaknesses, training needs, and rewards and recognition; and
  --$2,485,000 to upgrade network software used to carry out our work 
        processes to the support the Congress and to revamp information 
        technology systems that support the engagement tracking process 
        and disaster recovery facility. The network currently operates 
        Windows 95 and MS Office 97 as the primary operating and 
        applications software. In order to maintain vendor support and 
        upgrades, we need to upgrade to the current versions, Windows 
        2000 and Office 2000. Our assignment tracking system was 
        developed in-house over 2 decades ago and is obsolete and 
        incapable of interfacing with its network environment. Also, as 
        the next stage in the disaster recovery planning process, we 
        need to implement a solution that ensures our network data can 
        be archived and retrieved at alternate sites to ensure timely 
        accessibility in the event of disaster.

    As in prior years, we are requesting authority to use anticipated 
revenue from audit work at the Federal Deposit Insurance Corporation 
and rental income from our future building tenant, the Army Corps of 
Engineers, to continue asbestos removal and offset building renovations 
and maintenance costs. Also, due to diminished value over the last 10 
years, we are seeking a nominal increase in the amount authorized for 
representation expenses of the Comptroller General to adjust for 
inflation and accommodate a higher volume of strategic planning and 
engagement execution meetings with heads of audit agencies from other 
countries.

                              CONCLUSIONS

    GAO is a professional services organization and the leading 
accountability organization in the United States and, possibly, the 
world. As the nation's leading accountability organization, we should 
lead by example and be world class at everything we do.
    However, to effectively fulfill the responsibilities this 
leadership position demands, both now and in the future, we need to 
address the challenges that I discussed today. We will implement many 
of our initiatives to address these challenges without requesting 
additional FTEs or financial resources beyond inflation. However, we 
need the assistance and support of this Committee in getting 
legislation enacted that will provide us the flexibility we need to 
better manage our human capital. Otherwise, we will be at risk of not 
being able to effectively serve the Congress in future years.
    This concludes my statement. I would be please to answer any 
questions the Members of the Subcommittee may have.

                     RECOGNITION OF COMMITTEE STAFF

    Senator Bennett. Thank you very much. I note that two 
members of the Y2K staff, who become yours as of midnight 
tonight, go back to you, have entered.
    And maybe, Tanya and John, you could stand up just so 
that----
    Mr. Walker. You were trying to be discreet.
    Senator Bennett. They----
    Mr. Stephenson. My daughter----
    Senator Bennett. Yes.
    Mr. Walker. It did not work though.
    Senator Bennett. John has acted as the deputy staff 
director, and Tanya is our general counsel. I called the 
Attorney General seeking a lawyer, and she said she could not 
find a lawyer anywhere in the Justice Department who could be 
spared. And I am delighted that she could not, because we got 
Tanya instead and she has been terrific.
    So, you were not here when I made the appropriate comments 
about GAO, but you can read them in the record.

                        CAPITOL VISITORS CENTER

    I assure you both, they were very nice.
    The Architect of the Capitol testified before you, and we 
talked about issues relating to how the Capitol is kept open 
for tourists as a part of their historic experience and 
teaching experience when they come to Washington.
    We are clearly moving in the direction of the Capitol 
visitors center for a whole series of reasons, security being 
part of it. Now, the GAO has got a lot of experience with new 
building projects, and I think can be very helpful to the 
Architect of the Capitol, and the Congress if this moves 
forward.
    Could you explain, for the record, GAO's role in the 
visitors center project and what you see down the road with 
respect to that?

                       GAO WORK ON PLANNED CENTER

    Mr. Walker. We are doing work, as you know, Mr. Chairman, 
with regard to the design and engineering phase of the Capitol 
center. I would like to turn it over to Gene Dodaro to give you 
a little bit more detail, because he has been intimately 
involved in this.
    Mr. Dodaro. Mr. Chairman, we have put together a multi-
disciplinary team and have engaged the assistance of the Army 
Corps of Engineers to look at the design phase of the project. 
We are going to be looking at the estimated costs, both of 
constructing the center and operating it as well as estimated 
revenue from sales.
    We are going to be following the project management of the 
Architect of the Capitol to bring in a construction management 
firm. We also are going to be auditing the expenditures against 
the appropriate budget amounts that are allocated for the 
visitors center.
    We consider this to be an important role. We are geared up 
to follow the visitors center project for the next 5 years 
until it comes to fruition. To date, we have been looking at 
the design aspects of it, and we will follow it through the 
individual phases.
    Currently, we have asked the Army Corps of Engineers to 
prepare an independent Government estimate for the next phase 
of the project, and they are in the process of completing that 
estimate now so that the Architect can have it, and the 
Congress and the various committees, can benchmark it against 
the estimated cost submitted by RTKL.
    We are going to be meeting soon with staff from all the 
requestors from the Capitol Preservation Commission to outline 
our project plan for monitoring the visitors center project as 
it proceeds through the subsequent phases. Please be assured 
that we know this is important, and we are going to be focusing 
on it very closely.

                    REQUEST FOR EARLY-OUT AUTHORITY

    Senator Bennett. You have requested early-out and buy-out 
authority. How would you implement this authority, how many 
positions would be affected, and who would be replaced and so 
on? You just touch on that area.
    Mr. Walker. Mr. Chairman, we expect to transmit legislation 
to the Hill within the next week. We are in the process of 
trying to finalize it now.
    As you know, it is very important that we coordinate with 
our authorizing and oversight committees in conjunction with 
this matter.
    As noted in my testimony, the consequences of how we went 
about achieving the downsizing have not only left us smaller, 
which obviously would be the case, but also out of shape. What 
we need to do is make sure that we have got the right skills in 
house and the right organizational shape, so that we not only 
can get our job done today, but get it done in the future.
    I expect that we will use this early-out and potential buy-
out authority, if we are granted it, in order to target 
voluntary early-outs and voluntary buy-out options to better 
align the skills of the organization with what we need for the 
future, rather than the skills that we may have needed in the 
past, and to try to help us get a little bit more leverage. By 
that, I mean more people that are doing the work versus people 
that are leading and managing and supervising the work.
    I think it is very important, frankly, not only for us but 
Government as a whole, that if we want to maximize our 
performance and assure our accountability, and if we want to 
minimize the resources that we are going to come to you and 
other appropriators and ask for, we have got to have a 
reasonable degree of flexibility in order to be able to make 
human capital decisions based upon institutional needs.
    This would build on our strategic plan, which we 
coordinated closely with the Congress in developing, to put in 
place the proper balance of individual skills and performance 
while maintaining veterans preference, having zero tolerance 
for discrimination, and trying to achieve a diverse workforce. 
But right now, we do not have as much flexibility as we need.
    I think that this legislation will enable us to help to get 
where we need to be without asking for more money, and without 
asking for additional FTEs.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Bennett. Thank you very much. I have no further 
questions. Again, thank you for all you do, and we appreciate 
your testimony.
    Mr. Walker. Thank you, Mr. Chairman. My pleasure.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]

            Question Submitted by Senator Robert F. Bennett

    Question. GAO is seeking authority to use $1.9 million in receipts 
from rental income from the Army Corps of Engineers. Please update the 
Committee on the status of the renovation project and the Corp's plans 
to move to the GAO building.
    Answer. Floors one, two, four, five, seven, and 50 percent of the 
sixth floor have been renovated. The third floor will be renovated and 
available for occupancy by the Army Corps of Engineers this summer. 
Infrastructure improvements and the remaining half of the sixth floor 
will be renovated in future years using rental income.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. The General Accounting Office is requesting that Congress 
provide additional legislative language giving GAO more flexibility 
with respect to how it manages its human capital. Is there such a 
shortage of highly trained or specialized people in the workforce that 
you feel it has become necessary to include incentives other than what 
GAO currently offers its employees in order to attract and keep the 
best employees?
    Answer. The narrowly-tailored requested authority would enable the 
Comptroller General to better prepare GAO to meet the increasingly 
complex and multi-dimensional needs of the Congress in the most 
efficient, effective and economical manner. This authority would 
provide the Comptroller General the flexibility to realign GAO based on 
the agency's mission needs and draft strategic plan, in such areas as 
staff skills, performance, and knowledge. This additional flexibility 
is critical to help ensure that GAO is in a position to effectively 
serve the Congress in the future and minimize the need to request 
additional financial resources or FTEs.
    The proposal includes the authority to offer early-outs or buy-outs 
to selected individuals, concurrent with relief from certain reduction-
in-force (RIF) provisions. The statutory preference for military 
veterans would remain unchanged. Current RIF provisions could result in 
an even more unbalanced workforce than currently exists at GAO and 
impair our ability to retain highly trained, experienced, or 
specialized staff. The proposed legislation to create a new technical 
supergrade position within existing overall supergrade slots would help 
enhance GAO's ability to attract and retain technical specialists, such 
as experts in information technology, telecommunications, statistics, 
and actuarial sciences, who are in high demand in the commercial 
sector. The proposal would provide GAO the ability to compensate a few 
selected scientific and technical staff at pay levels commensurate with 
the executive branch. In addition, the proposal would provide GAO more 
discretion in determining merit pay increases based upon performance.
    Question. The Comptroller General is limited to 15 years service in 
his position at the General Accounting Office, and would become 
eligible for federal retirement at the completion of those 15 years, 
regardless of any previous service elsewhere in the Federal Government. 
Is there a similar situation for the Deputy Comptroller General?
    Answer. A Comptroller General may elect to participate in a 
retirement system established for the Comptroller General under 31 USC, 
chapter 7, or the Federal Employee Retirement System (FERS) or the 
Civil Service Retirement System (CSRS), depending upon prior federal 
service. No similar situation exists for the Deputy Comptroller General 
who has the same options as other federal employees covered by 5 USC.
    Question. In early February, the Comptroller General notified 
Members of Congress that GAO was planning to close several field 
offices later this year, as part of its overall realignment of the 
organization. In that regard, can you provide for the record a 
breakdown of how many people would be affected in each of those 
regional offices slated to be closed?
    Answer. GAO's realignment includes actions targeted at both its 
Washington headquarters and field office structure. Eight of GAO's 
existing 16 field offices are affected by the realignment. The Kansas 
City, Portland, Raleigh, Sacramento and St. Louis offices will be 
closed effective November 4, 2000. The Dayton, Huntsville, and Norfolk 
offices will be retained, but ``rationalized'' both as to size and 
facilities over time. The field office restructuring affects about 8 
percent of GAO's total workforce. The related staff resources within 
these offices will be reallocated to better support GAO's draft 
strategic plan; increase critical mass in selected locations; and 
enhance GAO's organizational flexibility. GAO is in the process of 
deciding upon a headquarters realignment and other related decisions 
that will be implemented within a reasonable timeframe.
    The following table lists the field location and the number of 
staff affected in each location.

                                                               Number of
        Field Location                                    Affected Staff

Rationalize:
    Dayton........................................................    40
    Huntsville....................................................    26
    Norfolk.......................................................    71
                                                                  ______
      Subtotal....................................................   137
                        =================================================================
                        ________________________________________________
Close:
    Kansas City...................................................    61
    Portland......................................................    16
    Sacramento....................................................    14
    St. Louis.....................................................    15
    Raleigh.......................................................     8
                                                                  ______
      Subtotal....................................................   114
                        =================================================================
                        ________________________________________________
      Grand Total.................................................   251

    Question. What plans has GAO made to assist these displaced workers 
in finding suitable placement elsewhere within GAO, such as, 
transferring to either headquarters in Washington, or to other field 
offices not slated for closing?
    Answer. Closure of the five field offices will not occur until 
November 4, 2000. The intervening 9-month period between the 
announcement and the closure should allow staff in these offices 
sufficient time to make the best decisions for themselves and their 
families. About 50 percent of the staff in these offices will be 
eligible for full or early retirement by November 4, 2000. All staff in 
the closing offices are being provided an opportunity to apply for a 
transfer to Washington or selected field offices (i.e. Atlanta, Boston, 
Chicago, Dallas, Denver, Los Angeles, San Francisco, and Seattle). 
Selections will be based on our institutional needs along with each 
individual is respective skills, knowledge and performance. Individuals 
selected for transfer will receive the standard relocation expense 
reimbursement. Outplacement assistance is available to individuals who 
do not retire or transfer. All individuals in the affected offices will 
be able to remain with GAO until the office closes.
    We would like the ability to keep a few evaluators with needed 
skills at appropriate site locations in one or more of the local 
markets in which our offices will be closing. However, our current 
legal authority does not enable us to do so in a manner that will match 
institutional needs with individual skills, performance and knowledge. 
As a result, we are seeking legislative authority to provide some 
additional flexibility.
    Question. What are the possibilities for these displaced workers 
being able to transfer to a job in the field office of another agency 
under either the Executive Branch or Judicial Branch of the Federal 
Government? If, for example, an employee, who is being displaced by the 
closure of GAO's field office in Sacramento, applies for a vacancy in 
the field office of another federal agency in the Sacramento area, or 
some other location in the State of California, would any special 
consideration be given by the other agency to that particular 
applicant's situation? Are there currently any HR regulations that 
would either allow or disallow such special consideration for displaced 
federal workers, regardless of which branch of government employs them?
    Answer. GAO staff have no entitlement to priority consideration or 
placement in other federal agencies. However, staff who have 
competitive status (i.e., one year of continuous service under a non-
temporary appointment and were appointed on or after October 1, 1980, 
or were employed by GAO prior to that date when GAO was in the 
competitive service) can be hired by other federal agencies without 
competing with members of the general public.


                          OFFICE OF COMPLIANCE

STATEMENT OF RICKY SILBERMAN, EXECUTIVE DIRECTOR
ACCOMPANIED BY:
        GARY GREEN, GENERAL COUNSEL
        PAMELA TALKIN, DEPUTY EXECUTIVE DIRECTOR FOR THE SENATE
        JAMES STEPHENS, DEPUTY EXECUTIVE DIRECTOR FOR THE HOUSE
        BETH HUGHES-BROWN, ADMINISTRATIVE OFFICER

                             BUDGET REQUEST

    Senator Bennett. All right. Our last witness is Mrs. Ricky 
Silberman, the Director of the Office of Compliance.
    The Office of Compliance has requested $2,095,000, a 
$95,000 increase, or 4.8 percent; and requested a reduction of 
2 FTEs from their authorized level of 17. That is not a pattern 
that we usually see here, and we commend you for continuing to 
look for ways to reduce your budget and hold on to your 
efficiency.
    We would be happy to have you introduce this gentleman. I 
apologize for not knowing in advance your name, but we are 
delighted to have you both here.
    Mrs. Silberman. Thank you, Mr. Chairman, for the 
opportunity to present the Office of Compliance budget request 
for fiscal year 2001.
    With me, as in past years, are the statutory appointees, 
the full-time leadership of the Office. This is Gary Green, the 
General Counsel of the Office who runs the legal affairs of the 
Office as well as the health and safety program, which has been 
so much a part of what we have done in the past year.
    Senator Bennett. We welcome you, Mr. Green.
    Mr. Green. Thank you.
    Mrs. Silberman. Also with us is Pam Talkin, the Deputy 
Director for the Senate, and Jim Stephens, Deputy Director for 
the House, and Beth Hughes-Brown who is our Administrative 
Officer and who works very closely with the committee.
    And in line with your remarks previously, Mr. Chairman, I 
think Beth deserves special recognition for her role, 
particularly in the area of Y2K legislative branch readiness. 
And we are very grateful for your leadership in that area as 
well.
    On behalf of all of us, I want to thank the Chairman and 
the staff of the committee, in particular Christine Ciccone, 
without whose support and assistance the record of 
accomplishment of this office would not have been possible.
    This is the fifth year, that as Chief Operating Officer of 
the Office of Compliance, it has been my privilege to present 
this testimony.
    And as you noted, it is the first year that we have had to 
ask for an increase. In our 1997 budget request, which was our 
first full year of operation, nobody had any idea what it was 
going to cost to run this office, and we just had guesstimates, 
which everybody helped with.
    And it was very interesting that we were pretty much on the 
mark. But in the years since, on the basis of actual 
experience, we have been able to consolidate duties and reduce 
the expenditures for funding full-time staff positions, which I 
think is the key to our efficiency and effectiveness.
    Thus, in each successive year, the budget request of the 
Office of Compliance has decreased. We have always asked for 
less money than the year before, and our appropriation has 
decreased. That is, until this year. And this year, for the 
2001 budget request of $2,095,000, we, as you noted, have asked 
for a very small increase of $95,000 from our fiscal year 2000 
appropriation.
    And I just want to take a couple of minutes to explain why 
we need this increase. I am sure these reasons are all very 
familiar. Everybody says they need it. And I was interested to 
hear the Comptroller General talking about human capital, 
because our increase is almost totally in the area of 
contractor costs and mandatory costs that we have little or no 
control over.
    And that increase is also in addition to the fact that we 
have asked for a decrease of two FTEs, which will realize a 
savings of some $113,000 in salaries and benefits. We have done 
that by combining the duties of the office's Director of 
Education and Information with those of the office's second 
counselor. And we have also eliminated an administrative staff 
position with associated duties absorbed by other staff 
members.
    That savings, however, is totally offset by an increase in 
overall personnel costs. With respect to salaries, we are 
projecting a 3.7 percent cost of living increase, which is 
commensurate with the increase proposed for other Federal 
Government employees.
    I think perhaps the most interesting increase is in the 
area of the Board of Directors over which we have absolutely no 
control. We have not had a full complement of five Board 
members in the past year. There have been two vacancies. And by 
May of the year 2000, the terms of all five original Board 
members will have expired, and we will have a full complement 
of five Board members. They have already all been appointed. 
Three have already come on board, and two will come on board in 
May.
    Only two of the original five Board members lived outside 
Washington, D.C. We have now four of five living outside 
Washington, D.C., and we have to get them here. There are 
travel expenses that have to do with Board meetings and that 
kind of thing.
    And then the other area which is, I believe, also 
absolutely mandatory is in the area of alternative dispute 
resolution. We need to continue the success that we have 
achieved in the area of alternative dispute resolution, which 
is the way that we resolve the majority of the disputes arising 
under the majority of the laws that the Congressional 
Accountability Act enforces.
    Since January 23, 1996, when the office officially opened 
for business, the vast majority of disputes have been 
satisfactorily resolved through this system of counseling, 
mediation and adjudicative hearings. And from the beginning, we 
have outsourced those mediations.
    We have been fortunate to retain some of the nation's most 
respected mediators to perform this function, and they have 
done an absolutely splendid job; so, too, the hearing officers, 
which as statutorily mandated, are generally retired Federal 
judges or senior status judges.
    In both of these categories, we, for the first time in 5 
years, have had to ask for an hourly increase in their rates. 
They have been working under their usual rates for 5 years, and 
this budget reflects an increase which totals $38,300, which is 
$17,000 for hearing officers, $20,000 plus for mediators, and 
$900 for court reporters. This will bring them in line with 
what other Government agencies have been paying them.
    And let me make just one final note with respect to 
contractor costs. Since it is difficult to accurately predict 
the requirements, both in terms of time and expertise, of the 
office's safety and health program, we will continue to 
contract for the services of expert consultants on an as-needed 
basis. The fiscal year 2001 budget is predicated on fiscal year 
1999 actual levels for these consultants. It is what we have 
actually paid for them.
    As this committee is aware, this past year has been one of 
intense activity in the health and safety area, particularly 
with respect to fire safety, necessitating a projected increase 
in the fiscal year 2001 budget of $33,000.
    These are very small amounts of money, but they are amounts 
of money that we absolutely have to have in order to continue 
the program in the way that we are doing it.

                             OSHA DETAILEE

    I should note here that the office continues to benefit 
from the full-time services of an industrial hygienist on a 
non-reimbursable basis from OSHA. And we have been very 
fortunate to be able to have this extra FTE. His work is 
essential to the effectiveness of the health and safety 
program, and if the arrangement with OSHA were to be 
terminated, a full-time salaried slot would have to be 
dedicated to this function.
    Finally, an increase of $6,000 for printing is based on 
fiscal year 1999 actual expenditures for the publication of 
mandated health and safety reports to the Congress.
    We have attached the 301(H) report, which is the report 
that compiles statistics on the use of the office by covered 
employees, and we would ask that it be put in the record. It 
reports the calendar year of 1999.

                           PREPARED STATEMENT

    And I want to again thank you for all of your help and 
support, and we would be delighted to answer any questions that 
you have.
    [The statement follows:]

                 Prepared Statement of Ricky Silberman

    Thank you for the opportunity to present the Office of Compliance 
budget request for fiscal year 2001. With us, as in past years, are the 
statutory appointees--the full-time leadership of the Office: Pam 
Talkin, the deputy executive director for the Senate, James Stephens, 
the deputy for the House, and our General Counsel Gary Green. Beth 
Hughes-Brown, our administrative officer, has once again worked closely 
with this committee and deserves special recognition for her leadership 
role. On behalf of all of us, I want to thank the Chairman and the 
staff of this committee, particularly Christine Ciccone, without whose 
support and assistance the record of accomplishment of this Office 
would not have been possible.
    This is the fifth year that, as chief operating officer, it has 
been my privilege to testify before this committee. In 1997, our first 
full year of operation, our budget request could only be based on a 
``guesstimate,'' since no one could accurately predict how much it 
would cost to administer and enforce the CAA. But in the years since, 
on the basis of actual experience, we have been able to consolidate 
duties and reduce the expenditures for funding full-time staff 
positions. Thus, in each successive year the budget request of the 
Office of Compliance decreased, as did our appropriation.
    That is, until this year. Our fiscal year 2001 budget request of 
$2,095,000 is an increase of $95,000 from the fiscal year 2000 
appropriation of $2,000,000. I want to take a couple of minutes to 
explain why this increase is necessary even though we are again 
planning to reduce full-time staff. In keeping with the Office's goal 
of efficient, effective administration, the duties of the Director of 
Education and Information are being combined with that of the Office's 
second counselor. An administrative staff position is also being 
eliminated, with associated duties absorbed by other staff members. 
This consolidation and the resulting reduction of two FTE's from 17 to 
15 will realize a savings of $90,000 in salaries and $23,000 in 
benefits.
    That savings, however, is offset by an increase in overall 
personnel costs. With respect to salaries, we are projecting a 3.7 
percent cost of living increase which is commensurate with the 
increases proposed for other federal government employees. We also 
project increases in travel expenses for new members of the Board of 
Directors. By May of 2000, the terms of all five original members of 
the Board will have expired and five new members will have been 
appointed. While only two of the original five Board members resided 
outside the Washington, DC area, four of the five new members do, and 
will thus incur travel expense to attend Board meetings. The salary, 
benefits, and travel expenses are therefore expected to increase for 
Board members, by $29,000, $2,000, and $6,000, respectively.
    One other area of increase is necessary to continue the successful 
administration of the eleven labor and employment laws applied by the 
CAA. To resolve disputes arising under the majority of these laws, the 
Act mandates an administrative and judicial alternative dispute 
resolution (ADR) procedure which has proved both cost-effective and 
efficient. Since January 23, 1996 when the Office officially opened for 
business, the vast majority of disputes have been satisfactorily 
resolved through this system of counseling, mediation, and adjudicative 
hearings. From the beginning, we determined that the credibility of 
this core ADR function would best be established and maintained if the 
mediators had the same independence which the Act mandates for hearing 
officers. We were fortunate to secure the services on an as-needed 
basis of some of the nation's most respected mediators as well as 
retired or senior status judges. This budget request includes an 
increase, the first in five years, in the per hour compensation of 
hearing officers, mediators and court reporters. These increases which 
total $38,300 ($17,000 for hearing officers, $20,300 for mediators, and 
$900 for court reporters) are based on our current use of their 
services, and bring their per hour rate in line with what other 
government agencies are paying for these same services.
    One final note with respect to personnel costs. Since it is 
difficult to accurately predict the requirements both in terms of time 
and expertise of the Office's safety and health program, we will 
continue to contract for the services of expert consultants on an as-
needed basis. The fiscal year 2001 budget is predicated on fiscal year 
1999 actual levels for these consultants. As this committee is aware, 
this past year has been one of intense activity in the health and 
safety area, particularly with respect to fire safety, necessitating a 
projected increase in the fiscal year 2001 request of $33,000. I should 
note here that the Office continues to benefit from the full-time 
services of an industrial hygienist, on a non-reimbursable detail from 
OSHA. His work is essential to the effectiveness of the health and 
safety program and if the arrangement with OSHA were to be terminated, 
a full-time salaried slot would have to be dedicated to this function. 
Finally, an increase of $6,000 for printing is based on fiscal year 
1999 actual expenditures for the publication of mandated health and 
safety reports to the Congress.
    Each year, the Office, is required to compile statistics on the use 
of the Office by covered employees. We have provided the Committee with 
copies of this newly published 301(h) report on calendar year 1999 and 
would ask that it be included in the record. We would be delighted to 
try to answer any questions you may have.

  Office of Compliance Section 301(h) Report to Congress--January 1, 
                         1999-December 31, 1999

                              INTRODUCTION

    The Congressional Accountability Act (CAA) generally applies 
provisions of eleven federal labor and employment laws to over 20,000 
covered congressional employees and employing offices. The Office of 
Compliance (Office), an independent agency in the legislative branch, 
was established by the CAA to administer and enforce the Act and 
provide a process for the timely and confidential resolution of 
workplace disputes. Section 301(h) of the CAA requires that the Office 
of Compliance:

          * * * compile and publish statistics on the use of the Office 
        by covered employees, including the number and type of contacts 
        made with the Office, on the reason for such contacts, on the 
        number of covered employees who initiated proceedings with the 
        Office under this Act and results of such proceedings, and on 
        the number of covered employees who file a complaint, the basis 
        for the complaint, and the action taken on the complaint.

    This fourth annual report, which provides information for the 
period from January 1, 1999 through December 31, 1999, begins with a 
summary of the authority and responsibilities of the Office of 
Compliance.

          OFFICE OF COMPLIANCE AUTHORITY AND RESPONSIBILITIES

    The CAA establishes the Office of Compliance with a Board of five 
members, who serve on a part-time basis, and four statutory appointees: 
the Executive Director, Deputy Executive Director for the Senate, 
Deputy Executive Director for the House, and the General Counsel. The 
Office is charged with providing alternative dispute resolution 
procedures, and adjudicative hearings and appeals for covered 
legislative branch employees and education and information on the CAA 
to members of Congress, other employing offices, and employees of the 
legislative branch. The Office of the General Counsel enforces the 
provisions of sections 210 and 215, relating to health and safety and 
public access requirements, including investigation and prosecution of 
claims under these sections, and periodic inspections to ensure 
compliance. Additionally, the General Counsel investigates and 
prosecutes unfair labor practices under section 220 of the CAA.
    The CAA applies the rights and protections of provisions of the 
following eleven labor and employment statutes to covered employees 
within the legislative branch: title VII of the Civil Rights Act of 
1964; the Age Discrimination in Employment Act of 1967; title I of the 
Americans with Disabilities Act of 1990; the Rehabilitation Act of 
1973; the Family and Medical Leave Act of 1993; the Fair Labor 
Standards Act of 1938; the Employee Polygraph Protection Act of 1988; 
the Worker Adjustment and Retraining Notification Act; chapter 43 of 
title 38 of the U.S. Code (relating to veterans' employment and 
reemployment); the Americans with Disabilities Act of 1990 relating to 
public services and accommodations; the Occupational Safety and Health 
Act of 1970; and chapter 71 of title 5 of the U.S. Code (relating to 
federal service labor-management relations).

         FOURTH ANNUAL REPORT JANUARY 1, 1999-DECEMBER 31, 1999

Number of Contacts Received by the Office of Compliance: 482

    Employees and employing offices may, at any time, seek informal 
advice and information on the procedures of the Office and the rights, 
protections, and responsibilities afforded under the CAA. The office 
responds to all inquiries on a confidential basis.

    482 requests for information from covered employees, employing 
offices, the public, unions, and the press were made by phone and in 
person from January 1, 1999 to December 31, 1999. Contacts were as 
follows:

Employees.........................................................   296
Employing offices.................................................   102
Public............................................................    64
Unions............................................................    12
Press.............................................................     8
                                                                  ______
      Total.......................................................   482

    623 calls were made to the Office of Compliance Recorded 
Information line. In addition, the Office of Compliance website proved 
to be a frequent and efficient means for covered employees, covered 
employing offices and the general public to access information on the 
CAA.

                     REASONS FOR EMPLOYEE CONTACTS

    296 covered employees contacted the Office asking questions under 
the following sections: (note: Aggregate numbers will not necessarily 
match category totals as a single contact may involve more than one 
section or subsection of the CAA, and/or more than one issue or alleged 
violation.)

------------------------------------------------------------------------
Section                       Description                       Contacts
------------------------------------------------------------------------
    201Rights and protections under title VII of the Civil         168
        Rights Act of 1964, the Age Discrimination in
        Employment Act of 1967, the Rehabilitation Act of
        1973, and title I of the Americans with
        Disabilities Act of 1990
    202Rights and protections under the Family and Medical          33
        Leave Act of 1993
    203Rights and protections under the Fair Labor                  68
        Standards Act of 1938
    204Rights and protections under the Employee Polygraph   .........
        Protection Act of 1988
    205Rights and protections under the Worker Adjustment            2
        and Retraining Notification Act
    206Rights and protections relating to veterans'                  4
        employment and reemployment
    207Prohibition of intimidation or reprisal                      29
    210Rights and protections under the Americans with       .........
        Disabilities Act of 1990 relating to public
        services and accommodations; procedures for remedy
        of violations
    215Rights and protections under the Occupational Safety          6
        and Health Act of 1970; procedures for remedy of
        violations
    220Application of chapter 71 of title 5, United States          12
        Code, Relating to Federal service labor-management
        relations
    N/AQuestions regarding the general application of the          110
        CAA
    N/AQuestions on matters which were not cognizable under         45
        the CAA
------------------------------------------------------------------------

    The 296 employee contacts were for information regarding:

Assignments.......................................................    12
Compensatory time off.............................................     4
Compensation......................................................    16
Demotion..........................................................     1
Discipline........................................................     1
Equal pay.........................................................     1
Evaluation........................................................     3
Exemptions under the Fair Labor Standards Act.....................     3
General questions regarding statutory requirements................    85
Harassment........................................................    12
Hiring............................................................    16
Hours of work.....................................................     6
Injury............................................................     1
Leave.............................................................    18
Leave eligibility.................................................     1
Overtime pay......................................................    19
Promotion.........................................................     4
Reasonable accommodations.........................................     8
Recordkeeping.....................................................     1
Termination.......................................................    68
Terms and conditions of employment................................    32
Requests for written materials....................................    11

Number of Proceedings Initiated by Covered Employees: 330

    Pursuant to title IV of the CAA, the Office of Compliance provides 
dispute resolution in the form of counseling and mediation. A 
proceeding under the CAA is initiated by an individual employee's 
request for counseling alleging a violation of the CAA.\1\
---------------------------------------------------------------------------
    \1\ It should be noted that the alleged unlawful application of a 
single policy of an employing office may involve multiple individual 
claims.
---------------------------------------------------------------------------
    330 employees from the following employing offices filed formal 
requests for counseling:

The Architect of the Capitol......................................   311
Capitol Guide Service...................................................
Capitol Police....................................................     3
Congressional Budget Office.......................................     1
House of Representatives (not member or committee offices)........     3
House of Representatives (member offices).........................     6
House of Representatives (committee office).......................     1
Senate (not Senator or committee offices)...............................
Senator...........................................................     4
Senate (committee offices)..............................................
Library of Congress...............................................     1
                                                                  ______
      Total...................................................       330

    These 330 requests for counseling alleged violations under the 
following sections of the Congressional Accountability Act: (Please see 
note above regarding aggregate numbers.)

------------------------------------------------------------------------
Section                        Description                        Cases
------------------------------------------------------------------------
    201Rights and protections under title VII of the Civil         334
        Rights Act of 1964, the Age Discrimination in
        Employment Act of 1967, the Rehabilitation Act of
        1973, and title I of the Americans with Disabilities
        Act of 1990
    202Rights and protections under the Family and Medical           1
        Leave Act of 1993
    203Rights and protections under the Fair Labor Standards         2
        Act of 1938
    207Prohibition of intimidation or reprisal                      18
------------------------------------------------------------------------

    Workplace issues raised by employees requesting counseling under 
the CAA fell into the following categories: (Please see note above 
regarding aggregate numbers.)

Assignments.......................................................     1
Compensation......................................................    13
Discipline........................................................    12
Equal pay.........................................................   287
Harassment........................................................    11
Hiring............................................................     2
Leave.............................................................     1
Overtime Pay......................................................     2
Promotion.........................................................     3
Reasonable accommodations.........................................     3
Retirement........................................................     1
Termination.......................................................    24
Terms and conditions of employment................................     5

                       RESULTS OF THE PROCEEDINGS

Counseling
    Of the 330 counseling requests received between January 1, 1999 and 
December 31, 1999, and the 2 pending on January 1, 1999:

  --7 cases closed during or after counseling, but before mediation
    --0 settled
    --7 sought no further action;
  --7 cases were pending at the end of 1999;
  --318 requests for mediation were filed.

Mediation
    318 mediation requests were received between January 1, 1999 and 
December 31, 1999. In addition, on January 1, 1999 there were 13 cases 
pending in mediation, and 10 cases which had completed mediation and 
were in the open period for filing a complaint. Of those 341 cases:

  --41 cases closed during or after mediation
    --16 cases were settled
    --in 20 cases, no further action was taken by the covered employee 
            after mediation ended
    --5 civil actions were filed in District Court;
  --9 cases were pending in mediation on December 31, 1999;
  --282 cases had completed mediation and were in the time period when 
        a complaint could be filed;
  --9 complaints were filed after mediation ended.

Complaints
    If the dispute remains unresolved after counseling and mediation, 
an employee may elect to file a civil action in the district courts of 
the United States or to file a complaint with the Office. If a 
complaint is filed with the Office, a Hearing Officer is appointed to 
hear the case and issue a decision.
    Nine complaints were filed with the Office between January 1, 1999 
and December 31, 1999 and five complaints were pending on January 1, 
1999.

                          BASIS OF COMPLAINTS

    The complaints filed during 1999 involved the following issues:
  --alleged termination based on national origin
  --alleged harassment based on gender
  --alleged discrimination in assignments and other terms and 
        conditions of employment based on national origin and in 
        retaliation for opposing practices made unlawful by the CAA
  --alleged termination in retaliation for opposing practices made 
        unlawful by the CAA (2 cases)
  --alleged discrimination in terms and conditions of employment based 
        on gender and in retaliation for having used family and medical 
        leave
  --alleged discriminatory treatment in retaliation for initiating 
        proceedings under the CAA
  --alleged termination based on gender and in retaliation for opposing 
        practices made unlawful by the CAA
  --alleged suspension and failure to properly pay an employee in 
        retaliation for opposing practices made unlawful by the CAA.
    In addition, one complaint alleging a breach of the CAA's 
confidentiality requirements was heard and decided by a hearing 
officer. That decision was not appealed.

                       ACTION TAKEN ON COMPLAINTS

    Any party aggrieved by a Hearing Officer's decision may file a 
petition for review of the decision by the Board of Directors of the 
Office.
    During January 1, 1999-December 31, 1999:
    Hearings.--9 hearing officer decisions were issued; 4 cases were 
settled or otherwise resolved before the hearings concluded; and 1 
complaint was pending, awaiting a decision by the Hearing Officer.
    Appeals.--2 petitions for review of Hearing Officer decisions were 
filed with the Board; and 7 Hearing Officer decisions were not appealed 
and became the final decisions of the Office.
    Board action.--2 Board decisions were issued in 1999; and no 
petitions for review of Hearing Officer decisions were pending on 
December 31, 1999.
    Judicial review.--1 Petition for review was filed; one court 
decision was issued on a petition for review filed in 1998. The U.S. 
Court of Appeals for the Federal Circuit upheld the Board's decision.

                       LABOR-MANAGEMENT RELATIONS

    The Office carries out the Board's investigative authorities under 
section 220 of the CAA, involving issues concerning the appropriateness 
of bargaining units for labor organization representation, the duty to 
bargain, and exceptions to arbitrators' awards.
    During January 1, 1999-December 31, 1999:
  --11 representation petitions were filed;
  --4 election agreements were entered into by the parties and approved 
        by the Executive Director on behalf of the Board;
  --5 elections were conducted. As a result of the elections, five 
        labor organization were certified as bargaining representatives 
        of employees;
  --6 petitions were pending on December 31,1999: four representation 
        petitions filed by four labor organizations seeking to 
        represent four separate units, totaling approximately 90 
        employees of an employing office; a representation petition 
        filed by a labor organization seeking to represent a unit of 
        approximately 16 employees, and a unit clarification petition 
        seeking to resolve the unit status of certain employees in a 
        bargaining unit certified in 1997.

                   THE OFFICE OF THE GENERAL COUNSEL

    The Office of the General Counsel is responsible for matters 
arising under three sections of the CAA: section 210--Public Services 
and Accommodations under the Americans with Disabilities Act of 1990; 
section 215--Occupational Safety and Health Act of 1970; and section 
220--unfair labor practices under chapter 71, of title 5, United States 
Code.
    76 requests for Information and Technical Assistance were made from 
January 1999 through December 1999 under the following sections:

Section 210: Public Services and Accommodations under the 
    Americans with Disabilities Act of 1990.......................    13
Section 215: Occupational Safety and Health Act of 1970...........    57
Section 220: Unfair Labor Practices under chapter 71, of title 5, 
    United States Code............................................     6

    From January 1999 through December 1999, the following actions 
occurred:

Section 210:
    Charges filed.................................................     1
    Cases closed..................................................     1
    Cases pending as of December 31, 1999...............................
Section 215:
    Requests for inspections filed................................    19
    Cases closed..................................................     8
    Cases pending as of December 31, 1999.........................    11
Section 220:
    Unfair Labor Practice charges filed...........................    12
    Complaints issued.............................................     1
    Cases closed..................................................     6
    Cases pending as of December 31, 1998.........................     6
Disposition of Complaint(s):
    Hearing Officer issued an opinion granting the General Counsel's 
motion for summary judgment; the opinion was not appealed and became a 
final decision of the Board on December 22, 1999.

                    Safety and the historic Capitol

    Senator Bennett. Thank you. You were present during our 
discussion about the Capitol. And you are charged with the 
other side of it.
    Do you have any comment at all on this controversy of how 
we are going to deal with the Capitol, preserve its historic 
side and, at the same time, deal with the challenges you have 
to deal with?
    Mrs. Silberman. I would like to turn that question to Gary 
Green who is our resident expert in all this, and who actually 
has the authority over that part of the Act.
    Senator Bennett. Okay.
    Mr. Green. Mr. Chairman, I came in during the course of Mr. 
Hantman's testimony, and do not pretend to understand his 
position fully. But based on what I heard, his view is that 
there are important fire safety objectives which have yet to be 
accomplished, and he is on the road toward it and he is 
committed to it. And that, of course, totally squares with my 
experience as the person who is charged with enforcing those 
laws against him.
    He has been responsive to the citations that we have issued 
in the past. And I take it from his testimony and from the 
behavior of his people in the field, that he will be equally 
responsive in the future.
    There is a lot of catching up that needs to be done. 
Congress has had a long exemption from fire safety laws, and a 
lot of good fortune in avoiding fatalities, injuries and 
damage. And I think there is a growing recognition that this is 
the time to do more.
    We just completed, as you probably know, an extensive 
report on the state of fire safety across the entire Capitol 
Hill complex, and found many violations of existing standards, 
including some violations which are very serious and deserve 
immediate prompt attention. And my office may be obliged to use 
the citation process to prompt more expeditious treatment of 
those risks.
    I was very interested, Senator Bennett, in hearing your 
remarks to Mr. Hantman a few minutes ago about the importance 
of the history lesson that people get when they visit this 
campus, and I could tell that there was some real passion in 
that view, which I would be presumptuous enough to say that I 
share with you.
    And I think a lot of laymen, myself included, come to this 
subject of fire safety with the sense that it is incompatible 
with the historic and architectural integrity that we want to 
preserve. And one of the things that I am beginning to learn as 
I try to manage my job, is that the experts have a lot to teach 
us here. And that it is not incompatible.
    For instance, in the Jefferson Building, which I also 
admire very much, my staff received a tour from one of the 
Architect of the Capitol's employees, who took them and showed 
them a magnificent fresco on the ceiling and asked them to find 
the sprinklers. They could not find them, but they were there.
    We have also visited some of the historic buildings under 
the jurisdiction of the executive branch right here in the city 
to see how the blessings of history have been preserved 
alongside the safety features of the new technology. And there 
are fire doors, for example, in the Hoover Building, of the 
Department of Commerce, in the Ariel Rios Building up on 
Pennsylvania Avenue, which are invisible to people from 5 feet 
away. But when they are needed, they automatically deploy. And 
the price tag is not a deterrent here.
    So, I would say that based on the fire safety report that 
we have issued, and the citations that are likely to follow it, 
we will be giving the Architect a detailed prescription for how 
and when to raise the level of safety to where the employees 
and the visitors and the Congressman themselves will have the 
necessary level of safety without sacrificing those values that 
you and I both care about.
    Senator Bennett. Thank you. I appreciate that response and 
the sensitivity that it represents, because this is a ticklish 
problem and it needs that kind of attitude and view.
    I have no further questions, and we appreciate what you do, 
and we will carefully consider your request.
    Mrs. Silberman. Thank you, as always.
    Senator Bennett. I wish every increase was in the $95,000 
area, rather than the millions.
    Mrs. Silberman. That is why we like to talk about it, not 
as a percentage, because our budget is so small to begin with.
    Senator Bennett. That is right.
    Mrs. Silberman. It is only $95,000.

                     Additional committee questions

    Senator Bennett. Only $95,000. Thank you again.
    Mrs. Silberman. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the office for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein
    Question. With reference to the Office of Compliance's Annual 
Report to Congress, dated January 2000, it is noted on page 4 that 330 
of the covered employees of the Legislative Branch filed formal 
requests for counseling during calendar year 1999. Of the total 330 
requests for counseling, 311 of those requests were from employees of 
the Architect of the Capitol. When compared with other congressional 
offices, Capitol Police, and Library of Congress, this figure simply is 
rather alarming!
    Without disclosing confidential information with regard to specific 
AOC employee grievances, could your office provide the Subcommittee 
with additional information regarding the types of complaints that make 
up the 311 requests for counseling, and whether your office has 
identified any pattern of non-compliance by the AOC in certain areas?
    Answer. Of the 311 requests for counseling from employees of the 
Architect of the Capitol in calendar year 1999, 287 relate to one 
employment issue. These are individual claims arising from the 
application of a single personnel policy that is being disputed by 
employees who are all similarly situated and affected by that policy.

                                                                  Claims

The remaining cases pertain to claims arising under the section of 
  the CAA referenced below \1\:
    Section 201 (Title VII of the Civil Rights Act, Age 
      Discrimination in Employment, Rehabilitation Act, Americans 
      with Disabilities Act)......................................    25
    Section 202 (Family & Medical Leave Act)......................     1
    Section 203 (Fair Labor Standards Act)........................     1
    Section 207 (Prohibition of Intimidation or Reprisal).........    12
The bases for the 25 Section 201 claims are as follows \1\:
    Discrimination based on race..................................    14
    Discrimination based on disability............................     3
    Discrimination based on national origin.......................     3
    Discrimination based on gender................................     2
    Discrimination based on color.................................     1
The issues cited in these remaining cases are as follows \1\:
    Termination...................................................     5
    Discipline....................................................     4
    Overtime pay..................................................     1
    Leave.........................................................     1
    Promotion.....................................................     1
    Assignment....................................................     1
    Terms and conditions..........................................     1
    Compensation..................................................     9
    Hiring........................................................     1
    Reasonable accommodation......................................     3
    Harassment....................................................     3

\1\ Aggregate numbers may not total as expected as a single case may 
involve more than one section or subsection of the CAA and/or more than 
one issue or alleged violation. Similarly, employees sometimes do not 
state with specificity the basis for a claimed violation.

    Based on a review of the above-mentioned cases, and taking into 
account the fact that the Architect of the Capitol is the largest 
employing office covered by the Congressional Accountability Act, we do 
not discern a pattern of non-compliance with the CAA. Indeed, the AoC 
has been very cooperative with the Office and has worked toward 
resolving employee disputes.

                          SUBCOMMITTEE RECESS

    Senator Bennett. The hearing is recessed.
    [Whereupon, at 10:55 a.m., Tuesday, February 29, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2001

                              ----------                              


                        TUESDAY, MARCH 21, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senator Bennett.

                              U.S. SENATE

                 Office of the Secretary of the Senate

STATEMENT OF HON. GARY SISCO, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        SHARON ZELASKA, ASSISTANT SECRETARY OF THE SENATE
        TIMOTHY S. WINEMAN, FINANCIAL CLERK OF THE SENATE

             OPENING STATEMENT OF Senator ROBERT F. BENNETT

    Senator Bennett. The hearing will come to order, and this 
is the last hearing on the fiscal 2001 budget request for the 
legislative branch. We appreciate the witnesses that are 
scheduled today.
    Before we go to their testimony, I need to note for the 
record that this is going to be a difficult year for this 
subcommittee. We will have to make our budget recommendations 
in the next few months, and we were such heroes last year 
because we came in with a slight reduction from the year 
before. As we look over the requests, we are not going to be 
able to complete our work this year without disappointing a 
whole lot of people.
    The budget request is 11 percent higher than last year's 
level. Maybe we should have gone to a 5 percent increase last 
year and then a 5 percent increase this year and people would 
not be as upset.
    But we have worked hard to make sure that we did not 
neglect maintenance around the campus here, or delay projects 
that would end up costing taxpayers more money in later years. 
My own business background tells me that one of the most 
foolish things you can do is cut your maintenance budget and 
look good in the short run and then end up with major problems 
in the long run.
    So I am very sympathetic to those that have requests this 
year that look like they would be good investments, but we are 
going to have to make some difficult decisions as we are 
challenged by this.
    Before we proceed, Senator Feinstein could not be here 
today, and she asked that her statement by placed in the 
record.
    [The statement follows:]

             Prepared Statement of Senator Dianne Feinstein

    I join with Chairman Bennett in extending our appreciation 
to both the Secretary of the Senate, Gary Sisco, and the Senate 
Sergeant at Arms and Doorkeeper, Jim Ziglar.
    Mr. Sisco and Mr. Ziglar represent two of the most 
important segments of the Senate, and they shoulder tremendous 
responsibilities in their charge to keep things running 
efficiently and effectively. Over the last few years, we in 
government have been challenged to keep pace with the 
technological advances in the private sector. It has taken the 
tremendous courage and forward thinking of individuals, such as 
Gary Sisco and Jim Ziglar, for us in the Legislative Branch to 
envision where we want to be in the next five to ten years, and 
then to set that vision into action as quickly and as 
economically as possible.
    They and their staffs work tirelessly behind the scenes 
every day, and sometimes late into the evenings, to handle a 
myriad of activities that are essential for the successful 
operation of the Senate. Their staffs are very dedicated and 
hard-working, and I wanted to take this opportunity to pass 
along my personal gratitude for all that they do to assist me, 
my staff, and the Senate as an institution.
    I join Chairman Bennett in saying how much we appreciate 
your good work.

    Senator Bennett. So with that somewhat grim opening, we 
welcome our first witness, the Secretary of the Senate, the 
Honorable Gary Sisco, accompanied by Sharon Zelaska, the 
Assistant Secretary of the Senate, and Tim Wineman, the 
Financial Clerk. We note the Secretary's budget request for 
fiscal 2001 is $16,815,000, which is a 7 percent increase over 
last year's level.
    Mr. Sisco, I have to note for the record that this is the 
first time in 4 years that you have requested an increase above 
COLA. So we commend you for your management in the past. I 
guess it was inevitable that sooner or later an increase would 
come along. But we are grateful to you for your frugality and 
look forward to hearing your testimony.
    Now, we have received testimony of Mr. Wineman, the 
Financial Clerk, and it will be added to the record. So Mr. 
Sisco, we are happy to hear from you.

                        STATEMENT OF GARY SISCO

    Mr. Sisco. Thank you, Mr. Chairman. I do not know whether I 
should go back and revise my budget before I make the 
presentation, after your opening remarks.
    Senator Bennett. Any contributions will be gratefully 
received.
    Mr. Sisco. But I do thank you for your kind remarks and for 
setting the stage for this testimony this year. As you 
mentioned, Sharon Zelaska, the Assistant Secretary of the 
Senate, and Tim Wineman, the Financial Clerk, are both with me. 
They are familiar faces around the Capitol. They represent more 
than 200 capable and dedicated staff with the Office of the 
Secretary.
    Sharon and the legislative staff have been implementing the 
Legislative Information System, or LIS, one of the two major 
technology systems that this committee has mandated and funded 
in the past. Tim and the disbursing office staff are 
implementing the other major system, the Financial Management 
Information System, or FMIS. As you noted, Tim in his capacity 
as Financial Clerk has separately provided the information on 
the budget for the entire Senate.
    So my statement this morning will present the request of 
the Office of the Secretary. I am going to try to reduce a few 
hundred pages of submission down to 8 to 10 minutes if I can, 
and then respond to any questions that you may have.
    Senator Bennett. The entire submission will be included in 
the record.
    Mr. Sisco. Thank you.
    I want to limit my remarks here to three items. First will 
be the formal request for the budget for fiscal year 2001. 
Then, a discussion of the mandated systems--the financial 
system and the legislative system--and go into some detail 
about the request for this increase, which is the first one in 
4 years above COLA's. Then, I want to close with some comments 
on the most recent progress on the Capitol visitor center, 
which this committee and you as a member of the Capitol 
Preservation Commission have a great interest in.
    But before I get into specifics this morning, I want to 
take a minute to thank the members of the committee and the 
committee staff. Also, I saw here earlier the staff of the 
Rules Committee. And in particular I want to thank Jim Ziglar, 
the Sergeant at Arms, and his staff, and all of the people with 
both the committees and the Sergeant at Arms who have done such 
great work with us and cooperated with us on these two systems, 
and also on every item day to day where we try to provide the 
best services possible to the individual Senators, their 
staffs, the committees, and the whole Senate as an institution.

                    FISCAL YEAR 2001 BUDGET REQUEST

    Now to the budget. As I stated and as you mentioned, this 
is the first time since fiscal year 1997 that I have asked for 
additional money in the expense category--in addition to the 
COLA request. So the total budget request is $16,815,000; 
$14,738,000 of that would be for salaries and $2,077,000 of 
that would cover the expenses.
    We have increased our budget request for salaries over last 
year by 3.77 percent, or $536,000. We are not adding or 
requesting any more FTE's. We have been giving merit increases 
over the past 4 years and those have been accommodated within 
this funding request.
    The budget for expenses does include an increase of 
$566,000. That will be for further development of the FMIS, 
which will benefit the Senate, I think, considerably and we 
feel it would be justified. But other than that, all of the 
departments are at level funding.

                FINANCIAL MANAGEMENT INFORMATION SYSTEM

    On FMIS, the work began on that, obviously, prior to my 
arrival, and we had $7 million of no-year money--money that was 
made available through fiscal year 2000--to develop that. But 
we found with the rapid advances in technology that it was very 
difficult to estimate what the cost would be of fully replacing 
the non-Y2K-compliant conglomeration of a dozen or so financial 
systems scattered throughout the Senate. Yet to date we have 
accomplished much working together--all of us that I mentioned 
earlier.
    We now have a commercial off-the-shelf financial management 
system for both the general ledger and for purchasing. That has 
been implemented. Tim and his able staff have converted the 
general ledger from a cash basis accounting to obligation and 
accrual-based accounting. We are now using OMB object 
classification codes for use in expenditures, so that for the 
first time our budget authority and our expenditures can be 
reported on a basis consistent with the rest of the Government.
    We have also developed a web-based front end budgeting and 
accounts payable system for use by the individual Senators, 
their staffs, the committees, and the leadership and support 
offices. This was rolled out in October of last year, 1999. We 
are calling this component of FMIS the Web FMIS, and the 
requested increase is to enhance the capabilities of this front 
end system.
    We want to do that based on feedback that we have received 
from the Member offices and the committee clerks and others who 
are working on the system and helping us design it and improve 
it over time.
    In addition, as you well know from all your great work with 
Y2K, both the FMIS system and the LIS system--and all of our 
systems--are Y2K-compliant, thanks again to the emphasis put on 
that and the work of the Sergeant at Arms staff and the 
cooperative work of all the people who work here in the Senate.
    But we still have some work to do. This includes achieving 
two of our primary goals with FMIS that we have not completed. 
First, we need to advance the Senate into a paperless or a 
reduced paper environment, where the accounting items that we 
deal with from here, and that are generated from the State 
offices throughout the country, all come in, are stored, 
transmitted, retrieved, approved, and of course paid 
electronically as well as reported electronically.
    Second, we need the capacity to produce an annual 
consolidated auditable financial statement for the entire 
Senate, which has not ever been done. So those are the two 
goals--a paperless system or near-paperless system and then to 
produce a consolidated statement for the Senate.
    But working with the Sergeant at Arms and his staff and 
with the disbursing office taking the leadership, we have 
developed a strategic plan--which was issued to this committee 
and to the Rules Committee this past month--with a road map to 
accomplish these goals and to complete these two items of the 
FMIS. It calls for further development, as I mentioned, of the 
Web FMIS, which allows each of the Senate employing offices--
each of the Senators--to organize their own staffs, here and at 
the State level, in whatever manner they want to do that, and 
to run their offices the way they want to run them, but to use 
their own individual system to research and retrieve their 
office financial information from the system, and to originate 
the financial documents they use on their desktop computers.
    Access is controlled by standard system security measures, 
including individual passwords for the individual employing 
offices. Web FMIS is interfaced with the main systems at the 
disbursing office and this will allow us to provide each office 
individually with expanded and more timely financial 
information day to day or week to week, in addition to the 
monthly financial statements that we already provide those 
offices.
    Further Web FMIS enhancements will permit the Senate 
offices--as really the front end of the system--to input their 
own financial information directly into the disbursing office 
systems, the back end of the system, for processing.
    So we think that using Web FMIS will be a key component of 
achieving our first goal of a paperless or reduced paper 
environment in the Senate.
    With regard to producing the consolidated statements, the 
plan calls for a thorough survey and evaluation and ultimately 
the preparation of an audit program and an audit plan for the 
Senate. This additional $556,000 funding request will, as I 
said, help us achieve these two goals and help complete the 
FMIS project.

                     LEGISLATIVE INFORMATION SYSTEM

    Now to the LIS. The Legislative Information System, or LIS, 
is the other mandated system. It is a means for Senators and 
staff, everyone involved in the process, to get the text of 
Senate or House legislative documents from the desktop 
computers in their offices, in a choice of formats. It provides 
real-time access to the legislative amendments--real-time being 
15 minutes or less from the time they are introduced on the 
floor until they are available at the desktops of people who 
are working in the legislative arena.
    It also provides the current status of new legislation--
within 24 hours or the next day for bills introduced. No matter 
how much volume of text is contained in a bill, it is available 
the next day on the LIS.
    Since December of last year, all of the legislative 
departments have been using the LIS document management system 
which was installed, taking advantage of the latest technology 
to input all the data for the Members and the staff to retrieve 
it almost simultaneously. Again, this was completed in 
partnership with the Sergeant at Arms and in cooperation also 
in this case with the House of Representatives--who we 
obviously have to coordinate with--the Library of Congress, the 
Government Printing Office, and other offices that have input 
into the system.
    Since the LIS serves the Senate staff at all levels, we 
developed a training program, under the joint training office 
that the Sergeant at Arms and I have set up, for all the staff 
in learning how to use the system that we have been developing.
    For the future, the focus will be on continued 
enhancements. For example, the Senate Recording Studio data 
will be made available within the LIS system at some point. 
This data includes the audio and video feeds from the Senate 
floor and committee activity, as well as the closed captioning 
feeds and transcriptions of those feeds into the recording 
studio. Those will be made available on the LIS.
    In the legislative area, too, with the Clerk of the House 
we are continuing to move forward on developing standard 
generalized markup language, or as it is affectionately known, 
SGML, to create the bills, the amendments, and any other 
legislative documents between the two bodies. SGML uses 
electronic codes to embed content and format information within 
the individual records or text of an electronic document, and 
it is standardized for use on the Senate side and the House 
side so that the same words mean the same things to both as we 
move forward.
    Parts of one document, such as a bill, can be extracted and 
used in another document, like a committee report, for 
consistency, and that can be done without manual reformatting, 
which costs time and also allows for mistakes. It can be 
electronically shipped to GPO ready for printing with 
standardized language and codes. The documents then can be 
exchanged or searched, retrieved, indexed, archived, printed 
and reused in a variety of ways without having to make any 
manual changes. So it saves time and it will improve accuracy.

                         CAPITOL VISITOR CENTER

    Last, the Capitol visitor center. As you know, the 105th 
Congress authorized the visitor center for the first time and 
appropriated $100 million to the Architect of the Capitol to 
plan it, engineer it, design it, and then to construct it. The 
bill at that point provided for that money to be supplemented 
by private fundraising.
    This Congress--the 106th--assigned directive authority to 
the bicameral, bipartisan Capitol Preservation Commission. Nine 
Members of the Senate and nine Members of the House constitute 
the Preservation Commission. That commission has approval for 
project milestones. But, of course, the law also requires for 
this committee and the House Appropriations Committee to take a 
second look at the commission's work and approve the funds for 
the project before they are released.
    We have a design concept approved. This was updated by the 
Architect and approved late last year. We will have the center 
constructed with a target of 2005, with the goal of it being 
constructed and available for the Inauguration in 2005. It will 
be constructed beneath the East Plaza of the Capitol and 
preserve the historic appearance and the landscaping of the 
Capitol.
    It has security features. The Capitol Police Board, the two 
Sergeants at Arms, and the Chief of Police--obviously, we are 
tracking with them and getting all of their input for security 
enhancements. The education component for the visitors coming 
here from around the country will be a great addition to what 
they are able to see in the Capitol now when they come--from 
around the country and around the world.
    As I said, the $100 million appropriation can be 
supplemented by private funds, and recently the commission 
approved the recommendation by myself and the Clerk of the 
House to enter into an agreement with a 501(c)(3)--a 
nonprofit--to be established by the Pew Trusts in Philadelphia 
to raise private funds--fundraising efforts where eventually we 
would end up with an approximate 50-50 public-private 
partnership. That work will be ongoing.
    All the funds raised for the visitor center will be under 
guidelines approved by the commission, and of course the 
commission and the Appropriations Committees will retain 
control over the planning, design, engineering, and 
construction of it and the release of the funds for that.
    It is a project that I was asked to coordinate when I first 
came here. The Secretary has always had a role in that project 
since it was conceived back in the late eighties, and I 
continue to be committed to trying to make it a reality. The 
entire Office of the Secretary, to the extent that we have 
pertinent input, have been involved in that and are supporting 
that effort, as well as all the others.
    In closing, I would say that I focus on the budget request 
and FMIS and LIS and the visitor center as the major projects 
and major milestones. Our major goal continues to be providing 
services every day to the Senators and to the staff and the 
people who work here, to make the service the best possible 
service to the Senate as it works its will.

                          PREPARED STATEMENTS

    So I thank you for your indulgence on the statement and we 
will respond to any questions.
    [The statements follow:]

                    Prepared Statement of Gary Sisco

    Mr. Chairman, thank you for your invitation to present testimony in 
support of the budget request of the Office of the Secretary of the 
Senate for fiscal year 2001.
    Detailed information about the work of the 24 departments of the 
Office of the Secretary is provided in the annual reports, which are 
attached. I am pleased to provide this statement to highlight the 
achievements of the Office and to supplement the departmental reports 
in certain areas:
    1. Presenting the fiscal year 2001 Budget Request.
    2. Implementing Mandated Systems: Financial Management Information 
System (FMIS); Legislative Information System (LIS); and Y2K 
Compliance.
    3. Meeting Personnel Challenges for the Future.
    4. Realizing the Vision for the Capitol Visitor Center.
    5. Maintaining and Improving Current and Historic Legislative, 
Financial, and Administrative Services: Journal; Parliamentarian; 
Lobbying Disclosure Act; Joint Office of Education and Training; 
Printing and Document Services; Internet and Intranet Services; 106th 
Congress Home Page; Emergency Preparedness; Senate Art; Senate Library; 
and The Impeachment.

             PRESENTING THE FISCAL YEAR 2001 BUDGET REQUEST

    Mr. Chairman, the budget of the Office of the Secretary for fiscal 
year 2001 is the fourth budget I have presented during my service as 
Secretary, and the fourth to maintain level funding for salaries aside 
from COLAs. Level budgets have been maintained even though the Office 
has assumed, at the direction of the Senate, responsibilities that 
possibly are greater than at any time in its history. The budget is 
based on a maximum of 252 positions in fiscal year 2001, which is the 
same maximum number of FTEs authorized for fiscal year 2000. The Office 
of the Secretary continues to strive to maintain and improve the day-
to-day legislative, financial, and administrative services to the 
offices of 100 Senators and to the leadership, committee, and support 
offices without adding new positions, relying instead on focused and 
dedicated management, consolidation of some positions, and much hard 
work on the part of dedicated staff.
    For the first time during my tenure, I am requesting an increase 
for administrative expenses. A non-recurring increase of $566,000 is 
requested to help fund continued development of the Financial 
Management Information System (FMIS) during fiscal year 2001.
    I therefore propose an operational budget for the Office of the 
Secretary for fiscal year 2001 of $16,815,000, consisting of 
$14,738,000 for salaries and $2,077,000 for expenses. The requested 
budget is an increase of $1,102,000, or 7.0 percent, over the fiscal 
year 2000 appropriation of $15,713,000.
    The increase to the salaries side of the budget is $536,000 over 
the fiscal year 2000 appropriation of $14,202,000, and is accounted for 
entirely by a projected cost of living adjustment (COLA), as follows:
  --$138,000 for the last quarter of calendar year 2000 (the budgeted 
        percentage of the calendar year 2000 COLA was 3.9 percent; one-
        quarter of that, or 0.975 percent, applies to October through 
        December 2000).
  --$398,000 for the first three quarters of calendar year 2001 (the 
        calendar year 2001 COLA estimate is 3.7 percent; three-quarters 
        of that, or 2.775 percent, applies to January through September 
        2001).
    The increase for expenses, as noted above, is $566,000 over the 
appropriation of $1,511,000 that was maintained for fiscal year 1997, 
1998, 1999, and 2000. The increase is attributable entirely to 
development costs of FMIS. The primary development will be enhancements 
to Web FMIS, the browser-based data entry and reporting system that has 
been deployed in member, committee, leadership and support offices.

                     IMPLEMENTING MANDATED SYSTEMS

Financial Management Information System (FMIS)

    FMIS, first mandated with the 1995 Legislative Branch 
Appropriations Act, began with the need to replace and consolidate 
several financial systems within the Senate that were not Y2K 
compliant, that depended heavily on manual data entry, that could not 
account for funds on the obligation- and accrual-basis that is standard 
throughout the federal government and industry, and that had no 
capability to produce an auditable financial condition. Today, the old 
systems have been replaced, and the full system development and 
implementation is continuing ahead of schedule.
    On February 9, 2000, the Office of the Secretary issued its FMIS 
Strategic Plan Update. The purpose of the update is to document the 
initiatives completed so far, and to set the direction for FMIS 
initiatives and enhancements over the remainder of fiscal year 2000 and 
into 2001.
    The Strategic Plan divides the FMIS project into four functional 
phases: (1) Replacement--the replacement of the Senate core financial 
systems with a single, Y2K-compliant commercial-off-the-shelf (COTS) 
system; (2) Rollout--the distribution, following the initial 
replacement of the core financial systems, of these solutions to 
member, committee, leadership, and support offices; (3) Reporting--the 
use of the new system to compile, develop and distribute financial 
information that was unavailable in the past; and (4) Re-engineering--
the ongoing and further development of the Senate FMIS technology.
    The Replacement phase is complete. As the Rollout, Reporting, and 
Re-engineering phases are functional, rather than sequential, and key 
elements of all are being implemented concurrently, the Strategic Plan 
also serves to measure the progress of FMIS by dividing the project 
into time phases. Implementation Period I, November 1997-September 
1998, focused on the Replacement phase. Within this time frame, the 
Office of the Secretary installed COTS systems (FAMIS for the general 
ledger and ADPICS for purchasing), implemented the standard general 
ledger used by the federal government, converted from cash-basis to 
obligation- and accrual-based accounting, and adopted the OMB standard 
object classification codes. Implementation Period II, October 1998-
December 1999, focused on Rollout and Reporting, using FMIS to provide 
Senate offices with a simple method to enter data and to research and 
retrieve their relevant financial information. The Senate elected to 
develop and deploy Web FMIS, which is a browser-based data entry and 
reporting system. Implementation Period III, January 2000-approximately 
October 2000, will continue to emphasize Reporting and Re-engineering 
activities. The Strategic Plan calls for extensive programs of (1) 
operational support, and (2) development initiatives.
    Operational support refers to those tasks required in order to 
sustain FMIS in the Senate. The FMIS performance task force, comprised 
of staff of the Offices of the Secretary and the Sergeant at Arms and 
of KPMG Consulting, the outside contractor, tracks performance issues 
and takes corrective action. Operational support will also include the 
transition to the Senate of many tasks that are currently performed by 
the contractor.
    Development initiatives refer to the new and enhanced functional 
capabilities intended for FMIS. Several key initiatives are projected 
by the Strategic Plan. Interfaces will be designed to automate 
processes that now must be done manually. Enhanced financial reports 
will be developed for member, committee, leadership, and support 
offices. One of the initial FMIS objectives was to advance the Senate 
into a paperless or reduced-paper environment, in which accounting 
items and supporting documentation are stored, transmitted, retrieved, 
approved, and paid electronically. The Strategic Plan lays out steps 
toward that goal, while maintaining authentication and security. 
Another of the earliest objectives of FMIS has been to develop the 
capability to produce annual financial statements for Senate offices 
and an auditable financial condition of the Senate. The Strategic Plan 
contains a roadmap toward those goals.
    In sum, the Strategic Plan for FMIS guides Senate financial 
management into the twenty-first century, with the oversight and 
support of this Committee and the Committee on Rules and Administration 
and in partnership with the Sergeant at Arms.

Legislative Information System (LIS)

    LIS, mandated by 2 U.S.C. 123e, is designed to provide a 
comprehensive Senate Legislative Information System to capture, store, 
manage, and distribute Senate documents.
    The Office of the Secretary successfully completed the major 
development and deployment of a Y2K compliant LIS Document Management 
System (LIS/DMS) in December 1999. This milestone was completed in 
partnership with the Sergeant at Arms, and in coordination with the 
Senate Policy Committees, Library of Congress (LOC), Government 
Printing Office (GPO), and the House of Representatives. LIS/DMS is a 
central repository for all Senate legislative information, and allows 
Senators and staff to access the content and status of legislative 
information from their desktop computers in a variety of formats.
    For the remainder of calendar year 2000, the strategic focus of LIS 
development will be on enhancements to the LIS/DMS, initiation of the 
LIS Senate Recording Studio, Transcription, and Closed Captioning 
Project, which will make Senate Recording Studio data available within 
the LIS system, and, most importantly, the completion and 
implementation of the Standard Generalized Markup Language/eXtensible 
Markup Language (SGML/XML) Feasibility Study.
    At the mandate of the Senate Rules and Administration Committee and 
the Committee on House Administration, the Secretary and the Clerk are 
developing a standard document/data exchange between the Senate, House 
of Representatives, LOC, and GPO using SGML. SGML is a proven 
technology, first developed in the 1980s and in widespread use in 
government and industry since the early 1990s. By use of a series of 
electronic codes, SGML takes raw text--such as the text of a bill or a 
committee report--and electronically formats that text for further use, 
whether amending, publishing, distributing, or archiving. SGML will 
transmit legislative documents to GPO in an electronic form ready for 
printing, with little need for manual processing. Almost all manual 
functions are eliminated, and by replacing tasks that GPO must now 
perform manually, SGML will produce significant cost savings in 
congressional printing.
    LIS is intended to serve varied groups of users, many with unique 
requirements. LIS training is designed to prepare Senate staff to test, 
use, manage, and maintain the LIS system. With the new release of the 
LIS/DMS, the Office of the Secretary developed customized training for 
user groups with distinct needs, including Senate clerks, system 
administrators, and end users in member and committee offices.

Y2K Compliance

    Y2K compliance in the Senate was the responsibility of the Sergeant 
at Arms, who was extraordinarily successful in that responsibility. All 
Office of the Secretary staff worked with the Sergeant at Arms in the 
testing, replacement, and certification of our systems. Both FMIS and 
LIS were tested extensively during 1999, and there were no Y2K 
problems.

              MEETING PERSONNEL CHALLENGES FOR THE FUTURE

    As I have discussed in each report during my service as Secretary, 
there are positions in the Office of the Secretary--particularly but 
not exclusively within the legislative departments--that are essential 
to the constitutional responsibilities of the Senate, and that require 
institutional knowledge and extended on-the-job experience to master. 
These positions, however, often have little comparability to executive 
branch or private sector occupations, and thus the Senate is always 
faced with a major challenge in maintaining sufficient institutional 
knowledge and experience. Within the legislative departments alone, the 
past year saw the death of the Legislative Clerk and the retirements of 
the Journal Clerk, Executive Clerk, Daily Digest Editor, and the Chief 
Reporter of Debates.
    Partly in response, the following legislative departments have been 
reorganized: Legislative Clerk, Journal Clerk, Bill Clerk, Executive 
Clerk, Enrolling Clerk, Daily Digest, Official Reporters of Debates, 
and Captioning Services. Previously, these departments had functioned 
with no common supervisors other than the Secretary and Assistant 
Secretary. With the reorganization, the eight departments, consisting 
of all legislative staff except the Parliamentarian, now report to the 
Legislative Clerk. The duties of the various departments have not 
changed, but the Legislative Clerk provides a single line of 
communication to the Assistant Secretary and Secretary, and is 
responsible for overall coordination, supervision, scheduling, and 
cross-training.
    At present, the Legislative Clerk is in the process of cross-
training two additional clerks from within the legislative departments 
to perform the floor duties of the Legislative Clerk at the rostrum in 
the Senate Chamber. When that is complete, the Senate will have four 
clerks (the Legislative Clerk, the Assistant Legislative Clerk, and two 
cross-trained from other departments) capable of performing the 
essential responsibilities of the Legislative Clerk on the Senate 
floor.
    All department head positions have been filled with highly capable 
individuals, and there are now no vacancies in any department head 
position nor in any deputy position. This depth is attributable to the 
steps taken over the past years to identify incumbent employees and 
prospective new hires who are highly qualified, appropriately 
experienced, committed to the Senate for the long term, and committed 
to becoming qualified to assume greater responsibilities. In a concrete 
example of how this succession planning has worked, the Keeper of the 
Stationery retired at the end of 1999 and the Assistant was fully 
qualified to move into that position immediately, with no loss of 
service to the Senate.
    With the implementation of FMIS, the organization and staffing of 
the Disbursing Office is undergoing a review by the General Accounting 
Office (GAO). The purpose is to evaluate the resource requirements of 
the Disbursing Office, design an optimum organizational structure, and 
prepare corresponding position descriptions that will enhance 
recruitment, motivation, and retention of highly qualified personnel. 
GAO is reviewing all missions and operations of the Disbursing Office, 
and conducting in-depth interviews with staff to evaluate work flow 
processes and assess ability to meet or to exceed customer 
requirements. Results are anticipated in May 2000.
    The Office of the Secretary is partnering with the Office of the 
Sergeant at Arms to implement the newly acquired Lawson Insight 
Software program, which provides better and more accurate information 
for managing personnel resources. Lawson Insight software serves as the 
central repository for essential information on employees within each 
of the two offices. It automates several key functions, saving time, 
effort, and paperwork; and manages a wealth of information, from job 
history, education, and emergency contacts, to transportation subsidy 
participation. Its time accrual feature will handle routine tasks, such 
as tracking sick leave, annual leave, and family and medical leave. Its 
on-line and on-demand capabilities will permit us to proactively manage 
time and attendance and other personnel expenses for our two offices.

          REALIZING THE VISION FOR THE CAPITOL VISITOR CENTER

    The 105th Congress authorized the Capitol Visitor Center, an 
essential project to enhance security at the Capitol and the 
educational experience of visitors, and appropriated $100,000,000 to 
the Architect of the Capitol for planning, engineering, design, and 
construction.
    The Capitol Preservation Commission, which is co-chaired by the 
Speaker and President pro tempore and includes the leadership and 
members appointed by the leadership of both houses, approves project 
milestones. As you know, the permanent law governing the Commission 
requires the approval of the Senate and House Appropriations Committees 
to expend funds for improvements to the Capitol, and that remains 
unchanged.
    The Commission met in October 1999, and approved the design concept 
for the visitor center, as updated by the Architect. The center is to 
be constructed beneath the East Plaza, preserving the historic 
appearance and landscaping of the Capitol Building. The design provides 
for three levels with approximately 580,000 square feet of finished, 
unfinished (for future needs), and mechanical space. The visitor center 
design includes security features, reception areas, meeting rooms, 
auditoriums, exhibit space, restaurants, and shops.
    The $100,000,000 appropriation for the Capitol Visitor Center is to 
be supplemented by private funds, and the October meeting of the 
Capitol Preservation Commission also directed the Secretary and the 
Clerk to develop a fund-raising plan. The Commission has approved the 
plan of the Secretary and Clerk, dated February 9, 2000, accepting the 
unsolicited offer and agreement of the Pew Charitable Trusts to 
establish a nonprofit 501(c)(3) foundation to solicit and receive 
private funds for the sole purpose of donating such funds for the 
visitor center project. The 501(c)(3) will be an independent, 
nongovernment entity, and a written agreement establishes a clear 
working relationship between the 501(c)(3) entity and the Commission. 
Funds will be raised in accordance with guidelines approved by the 
Commission, and the Commission will retain control over the planning, 
design, engineering, and construction of the Capitol Visitor Center.
    As additional support for the visitor center, Congress last year 
authorized a commemorative coin issue for 2001. The design will be 
emblematic of the first meeting of Congress in the Capitol, and thus 
will commemorate the events of 1800-1801, when the permanent seat of 
government was established here, and the Capitol was the site of the 
first peaceful transition of power from one political party to another 
following a free election. To be issued in gold or platinum, silver, 
and clad versions, the coin can serve as a means for visitors and 
others to make small contributions to the visitor center project while 
taking home a significant commemorative of their Capitol visit. 
Discussions with the Mint on the design and marketing plan have begun.

MAINTAINING AND IMPROVING CURRENT AND HISTORIC LEGISLATIVE, FINANCIAL, 
                      AND ADMINISTRATIVE SERVICES

Journal
    The Constitution requires the Senate to ``keep a Journal of its 
Proceedings, and from time to time publish the same[.]'' Art. I, Sec. 
5, Cl. 3. The Journal is the legal record of the proceedings of the 
Senate, and has been published continuously since the First Session of 
the 1st Congress in 1789. The Legislative Journal for the First Session 
of the 106th Congress is written and in the process of being edited, 
and, beginning with this edition, the Journal will be placed on-line 
and will be accessible electronically.
    For all sessions of the Senate, the Journal Clerk prepares the 
Legislative Journal and the Executive Clerk the Executive Journal. For 
1999, there will also be the Impeachment Journal, for which the Journal 
Clerk is responsible. All three will be printed and made accessible 
electronically during 2000.

Parliamentarian

    In another example of an application of technology, the 
Parliamentarian is undertaking a project to store the Senate precedents 
electronically. There are, at present, only two copies of the Senate 
precedents as originally prepared by Charles Watkins and his successors 
in the Office of the Parliamentarian. The documents are on either 
legal-sized paper or standard letterhead, and include many excerpts 
from the Congressional Record together with handwritten editorial 
notes.
    The Parliamentarian is now scanning each of these precedents for 
storage on the hard drive of the office computer, and for copying onto 
CD-ROM. A CD-ROM version will be kept in a secure area outside the 
Capitol, protecting access to these precedents in the event the paper 
copies were lost or became unavailable for any reason.

Lobbying Disclosure Act

    As of September 30, 1999, there were 4,813 lobbying firms and 
organizations registered under the Lobbying Disclosure Act (LDA). These 
registrants represented 13,793 clients, and employed 21,279 lobbyists.
    With the volume of filings steadily increasing, the Office of the 
Secretary has introduced an updated and enhanced web site for lobbying 
information. The site is accessible to the public, and includes the 
statute, forms, instructions, and guidance issued jointly by the 
Secretary and the Clerk of the House. All of these materials may be 
downloaded and printed locally. The site also provides the preliminary 
version of a searchable database. Search capabilities now available 
allow the public to determine the lobbying firms and organizations that 
are registered under the LDA, and the identities of their clients.
    In December 1999, the Senate awarded a contract to develop, test, 
and implement an Internet web-based electronic system for lobbying 
registration and reports. This will provide software for lobbying firms 
and organizations to complete their filings electronically, with 
helpful features such as drop-down screens and pick lists for common 
answers and prompts for incomplete entries. Though it will still be 
necessary for registrants to file hard copies with the Senate Office of 
Public Records and the House Legislative Resource Center, a pilot 
program will also permit filers, at their option, to submit their forms 
to the Senate electronically. The test program will permit the Office 
of Public Records to assess the feasibility of transferring data into 
existing databases without using staff time to key in information 
manually.
    The pilot program has been coordinated with the Clerk of the House, 
and will be reviewed and assessed for possible joint implementation. It 
is intended to carry out the mandate in the LDA to develop electronic 
filing so as to minimize the burden of filing, and, longer-term, 
maximize public access to materials filed under the LDA. It is a major 
step toward fulfilling the long-standing public commitment of the 
Office of the Secretary.

Joint Office of Education and Training

    The Office of Education and Training, a joint office of the 
Secretary and the Sergeant at Arms, provides employee training and 
development opportunities for all 7,000 Senate staff, both in 
Washington, D.C., and in the states. There are three branches within 
the office. The technical training branch is responsible for providing 
technical training support for approved software packages used in 
either Washington or the state offices. The computer training staff 
provide instructor-led classes; one-on-one coaching sessions; 
specialized vendor provided training; computer-based training; and 
informal training and support services. The professional training 
branch provides courses for all Senate staff in areas including: 
management and leadership development, human resource issues and staff 
benefits, legislative and staff information, new staff and intern 
information. Topics include: Managing Change; Ethics; Legalities of 
Casework; Letter and Report Writing; Public Speaking; Motivation; 
Delegation Skills; Stress Management; Myers-Briggs Type Indicator; 
Developing a High Performing Team; Conflict Management and Performance 
Management. The health promotion branch provides seminars, classes and 
screenings on health related and wellness issues.
    The Joint Office of Education and Training offered 417 classes for 
Senate employees in 1999. Total enrollment was 7,012.
    Since most of the classes that are offered are only practical for 
D.C. based staff, the Office of Education and Training has worked with 
the Office Manager's Council and selected State Directors to develop a 
curriculum for Senate staff from state offices. This training, entitled 
``State Fair'', is scheduled to begin March 28, 2000. The focus for the 
initial program will be on management and leadership development skills 
for state staff with management responsibility. The courses will be 
conducted over three days with the final day of the program being 
dedicated to computer training.
    The program will be repeated in late June to allow for maximum 
attendance. Next year, the ``State Fair'' curriculum will change and 
the topics will be focused on the learning needs of staff from the 
state offices. The state offices will be responsible for the cost of 
travel, food, and lodging for those attending this program.
Printing and Document Services
    This department is a demonstration of the advantages of greater use 
of technology. Technology serves the Senate through faster response 
times, reduction in costs, control of waste, and the ability to 
accomplish more with fewer employees.
    To illustrate, because the newly-implemented LIS/DMS system makes 
Senate and House documents available electronically, and the DocuTech 
machine reproduces paper copies locally on demand, the Office of 
Printing and Document Services has significantly reduced the quantities 
of printed documents routinely ordered from GPO. A major cut in 
document printing was instituted last October and another is scheduled 
for this April.
    The office also acquired the new Rotomat carousel filing system as 
part of the larger effort to reduce document waste and the costs of 
storage and inventory control. This new filing system gives the 
department a compact storage system that provides easy retrieval of 
documents (particularly documents from previous Congresses) that can 
then be reproduced by DocuTech in the numbers needed--and only in the 
numbers needed.
    In another illustration of the expanded use of technology, the 
department has posted an electronic form to order documents over the 
Senate Intranet. Members and staff may use the Intranet to order 
documents electronically, 24 hours a day. The printed documents are 
delivered to Senate offices the same day or, in the case of evening 
orders, the next business day. The site became available December 1, 
1999, and its use is increasing rapidly.
    In a step now in planning, the department will use the Intranet to 
post an electronic list of document numbers, showing their arrival from 
GPO and in-stock status. The office is also researching the feasibility 
of an e-mail response to staff indicating that a document has arrived. 
An e-mail response would be especially useful for appropriations bills, 
when Senate staff most need immediate access to the printed copies of 
the legislation. With mass e-mail capability, the office will be able 
to let all members and staff know immediately when a requested document 
has arrived, saving countless phone calls.
    In yet another step, now under study, document numbers on the 
electronic list could be directly linked to the full electronic 
document files on GPO Access. By using the links, members and staff 
could download and print the documents from their desktop computers 
without going to another web site.
Internet and Intranet Services
    The Office of the Secretary has expanded use of the Intranet to 
bring more information and services to Senate staff. The web page for 
the Document Room was redesigned and, as noted above, an order form was 
posted for on-line requesting of documents. A web page for the 
Disbursing Office was created to make benefit forms and instructions 
available to Senate staff in PDF format for downloading. A web site was 
developed for the Office of Public Records, making the disclosures and 
reports that are required to be completed by Senate staff available for 
downloading in PDF format. The Office of Education and Training added a 
form for on-line enrollment.
    Internet services also saw expansion. The Senate web site was 
redesigned for the 106th Congress, and averaged more than 24,000 
visitors a day in 1999, or nearly 9,000,000 for the year. Among the 
design improvements was the addition of a user-friendly means for 
visitors to find the e-mail addresses of the offices of their Senators.
    The Senate web site was hacked on May 27, 1999, and vandalized 
again on June 11, 1999. The Sergeant at Arms secured the data and 
enhanced security measures, and the Office of the Secretary worked 
closely with the Sergeant at Arms to ensure that the data on the site 
was not compromised.

106th Congress Home Page
    The 106th Congress Home Page was expanded during 1999 to contain 
the most recent updates to the Biographical Directory of the United 
States Congress: 1774 to Present. Since 1989, when the last revision of 
the print edition appeared, the Senate Historical Office has added 
dozens of new biographical sketches and revised more than half of the 
1,852 Senate entries in the database. A current version is available 
online at http://bioguide.congress.gov. The Historical Office is 
currently preparing to add portraits, photographs, and other 
illustrations of all past and present Senators to the electronic 
database. Work is also continuing on the next print edition, planned 
for publication in 2001.

Emergency Preparedness

    Emergency preparedness planning is continuing in order to ensure 
that the Senate is able to carry out its constitutional obligations 
under any emergency circumstances. As reported last year, two sets of 
the critical records and resources have been assembled and are now pre-
positioned in separate, secure locations outside the Capitol Building.
    During the past year, emergency preparedness efforts focused on 
communications issues. The Office of the Secretary worked with the 
Sergeant at Arms to identify and procure an automated communications 
system that will permit the Senate leadership to maintain contact with 
all Senators in the event of emergency. In addition, staff of the 
Secretary and the Sergeant at Arms continued discussions with executive 
branch officials to ensure that the emergency preparedness plans are, 
to the greatest extent practicable, complementary.
    Work continued on the comprehensive disaster preparedness, 
response, and recovery plan for the historic collections of the Senate. 
Staff of Congress, the Library of Congress, and the Supreme Court 
continued discussions of a mutual aid agreement and memorandum of 
understanding.
Senate Art
    Majority Leader Trent Lott, who chairs the Senate Commission on 
Art, led the Commission in several initiatives during 1999. The Senate 
adopted S. Res. 241, directing the Commission to recommend to the 
Senate two outstanding Senators whose paintings will be placed in two 
of the remaining, unfilled spaces in the Senate Reception Room. The 
resolution provides that the individuals selected by the Commission 
must be deceased, and must not have not served in the Senate within the 
preceding 21 years. Following Senate approval of the two selections, 
the Commission will identify appropriate artists.
    The Commission on Art also approved the commissioning of several 
significant portraits for the Senate Collection. Portraits of Senators 
Margaret Chase Smith (1897-1995) and Blanche Kelso Bruce (1841-1898) 
have been authorized as part of an effort to enhance the collection of 
portraits of women and minorities who served the Senate with 
distinction. Margaret Chase Smith, who served in the House of 
Representatives 1940-49 and the Senate 1949-73, was the first woman to 
win election to both houses of Congress and the first woman elected to 
a leadership post in the Senate. Blanche Kelso Bruce, who served in the 
Senate 1875-81, was the first African-American to serve a full term and 
the first African-American to preside over the Senate, on February 14, 
1879.
    The Senate Leadership Portrait Collection was established to honor 
past leaders of the Senate. Although the Senate has honored the Vice 
Presidents of the United States for their service as President of the 
Senate through the collection of marble busts begun in 1886, it has not 
previously considered a comprehensive art collection of past Presidents 
pro tempore and Majority and Minority Leaders. The first painting to be 
acquired for the Senate Leadership Portrait Collection is that of 
Howard H. Baker, Jr., recommended by Senator Lott. The Commission on 
Art awaits the recommendation of Senator Daschle for another subject 
for this Collection.
    Senator Baker was a member of the Senate 1967-85; he served as 
Majority Leader 1981-85 and Minority Leader 1977-81. The portrait, by 
artist Herbert Abrams, currently hangs in the Capitol on loan from the 
Dirksen Congressional Center in Pekin, Illinois. The Dirksen Center has 
advised that it will be honored to present the painting as a gift to 
the Senate, and the Commission has approved acceptance of this 
donation.
    A painting of Senator James Eastland (1904-1986) is also planned as 
part of the Senate Leadership Portrait Collection. James Eastland, who 
served in the Senate 1943-78, was President pro tempore 1972-78. He was 
chairman of the Judiciary Committee for over 22 years, the longest 
continuous service of any Senate committee chair.
    For all portraits to be commissioned, the Office of Senate Curator 
has developed a list of prospective artists, and an advisory panel of 
professionals in the field is scheduled to review the candidates and 
provide recommendations. The Commission on Art will then select the 
final artists to execute the portraits.
    The Office of Senate Curator continued with the Senate Chamber desk 
restoration program, begun in 1997, and 10 additional desks received 
conservation treatment. To date, 20 desks have been professionally 
restored. These include the Jefferson Davis and Daniel Webster desks, 
and final reports detailing treatment were submitted to Senators Thad 
Cochran and Bob Smith, who currently use these designated desks.
    Following an extensive furniture survey conducted in 1997, a 
comprehensive restoration program continues for the historic 
furnishings in the Old Supreme Court Chamber. Among the items restored 
were 10 desks used by Supreme Court Justices. The historic Willard 
Clock was also restored. Further research is being conducted on the 
various historic furnishings in the room to ensure a more accurate and 
authentic recreation of the Chamber.
    Conservation concerns continue to be a high priority. Restoration 
projects in 2000 will include the Senate Chamber desks (with an 
additional 15 desks to be restored), various original lawyers' tables 
and roll top desks from the Old Supreme Court Chamber, the plaster 
sculpture of Justice, several historic mirrors, two paintings with 
frames, the three Lee Lawrie plaster reliefs, and the Senate snuff 
boxes. Paint analysis of various locations in the Capitol will also 
begin in an effort to more accurately represent the original historic 
colors of the building. A new exhibition highlighting 200 years of 
presidential inaugurations at the Capitol will be installed in the 
first floor connecting corridor of the Senate wing in November. 
Additionally, the new display area in the vacant stairwells of the 
Brumidi Corridors will be completed.
    Also, additional signage will be developed for various locations in 
the Senate. These signs utilize the design elements of the Secretary's 
educational publications and provide visitors with a brief history of 
various rooms and works of art.
    The long-awaited publication, United States Senate Fine Art 
Collection, has progressed considerably and is in its final stages. It 
is anticipated that the volume will be available in the fall of 2000. 
Along with the writing and editing of this catalogue, the Curator 
completed related projects including professional photographs of the 
Collection and a number of room views, and development of a 
comprehensive bibliography.
    The ``Senate Art'' link on the Senate web site is slated for 
several major improvements in 2000. New exhibits highlighting various 
conservation programs, specifically the Senate Chamber desks and 
Brumidi Corridors. Visitors will learn the history of these historic 
desks and corridors, the proposed conservation treatment, and the 
science of conservation in general, and will be updated on the progress 
of current efforts.
    Two final notes are of special importance. The Curator will assist 
the Commission on Art in developing a comprehensive Preservation Policy 
for the Senate. Although the historic art and architecture of the 
Senate is universally recognized as uniquely significant, no 
preservation plan has ever been designed to protect its integrity or to 
prevent its gradual or inadvertent degradation. Increasingly, the heavy 
use of the Senate Wing of the Capitol presents special challenges in 
adapting the aged building to new needs and in restoring and retaining 
its historic character and authenticity. The principles defined in the 
Preservation Policy will serve as a general guide for the restoration 
and preservation of the Senate wing, and promote preservation-sensitive 
planning.
    Further, this year marks the 200th anniversary of the first meeting 
of Congress in the Capitol. To celebrate this significant occasion, 
efforts have begun to restore the historic Senate Vestibule to its 
original nineteenth-century appearance. In 1800, only a part of north 
(or Senate) wing had been completed, and the east door served as the 
principal entrance to the Capitol, leading to what has come to be 
called the Senate Vestibule. While modifications were made to this 
space over the years, and the addition of the east front of the Capitol 
in 1962 turned the Senate Vestibule into an internal doorway, many of 
the features of the original vestibule remain visible today. Visitors 
pass through the Senate Vestibule just as members of Congress crossed 
its threshold two centuries ago. This historic space remains a 
dignified entrance to the oldest portion of the Capitol.
    The Senate Vestibule Restoration Project will include paint 
analysis of the walls and ceiling to determine original colors, 
research on period lighting, a review of the flooring that once 
existed, and the publication of a brochure highlighting this historic 
space. The restoration will be completed this fall.

Senate Library

    The Senate Library opened its new Russell Building facility on 
February 22, 1999. The new location offers Senate staff access to an 
excellent collection of materials and services: congressional materials 
dating to the Continental Congress; a wide-array of news and legal 
online systems; over 140 periodicals and newspapers; 24,000 books on 
the Senate, American history, and political biography; a Micrographics 
Center with over 1,000,000 microforms; patron access terminals; and a 
reading room with study carrel, and the Library staff whose experience 
and expertise has served and will continue to serve Senate information 
needs.
    The relocation of the Library to the Russell Building offered the 
opportunity to incorporate new design elements in the basement 
corridor, which is a major thoroughfare for Senators, staff, and 
visitors. The most noticeable change was the removal of the lead-based 
paint from the corridor walls, which exposed the stunning circa 1905 
brick work. The corridor is further complimented by eight exhibit cases 
designed by Library staff with the assistance of the Office of 
Conservation and Preservation. The cases display important portions of 
the Library collection, photographs from the Senate Historical office, 
and historical objects maintained by the Curator. The exhibit topics 
have included the great triumvirate of Webster, Clay, and Calhoun; the 
history of the Minton tiles, along with rare 1850s tiles; the American 
Guide Series, which are renowned state histories produced during the 
Depression; the Senate Page program; the early history of the Press 
Gallery; and a look at Capitol Hill in the American Novel. A new 
display will be presented every three months that will provide an 
educational snapshot of Senate history.
    As a tribute to the rich history of the Senate and the Capitol, the 
Library has identified and acquired 70 rare books from antiquarian book 
dealers, duplicating volumes that were contained in the original 
collection of the Library of Congress, prior to the fire of 1814.

The Impeachment

    The Senate Historical Office, as part of its Oral History Program, 
has over the past year conducted interviews with about 20 key 
individuals who were involved in the planning and management of the 
impeachment trial. As is the case with all oral history programs, these 
interviews are conducted for their permanent historical value and, for 
that reason, the transcripts and materials are opened to researchers 
and the public only after an appropriate interval has passed (they are 
not opened during the lifetime of an interviewee unless that individual 
so agrees).
    The Historical Office is also continuing its preparation of the 
publication Documentary History of Senate Impeachment Trials. This 
publication will present a documentary case-study look at each of the 
seventeen impeachment trials conducted by the Senate, focusing on the 
development of impeachment procedures. Working drafts have been 
prepared for each case, with selection of key documents still to be 
done. Completion is expected in 2001.
    By a unanimous-consent agreement of February 12, 1999, the final 
day of the impeachment trial of President William Jefferson Clinton, 
the Senate directed the Secretary to assemble the complete record of 
the Senate proceedings in the impeachment and publish the record as a 
Senate document. That record, designated as Senate Document 106-4, is 
nearing publication. The publication collects the historical record in 
a single document, including the Senate floor proceedings, the filings 
by the parties, the supplemental materials that the Senate received 
into evidence, the statements of Senators explaining their votes on the 
two articles of impeachment, and other materials of historic interest. 
This document will preserve the formal record of the only presidential 
impeachment trial of the twentieth century for the future use of the 
Senate, historians, and the public.
                                 ______
                                 
Office of the Secretary of the Senate Fiscal Year 2001 Budget Summary, 
        Apportionment Schedule, and Departmental Annual Reports

                             BUDGET SUMMARY
------------------------------------------------------------------------
                                                    Amount       Percent
------------------------------------------------------------------------
Fiscal Year 2000 Budget:
    Payroll Budget............................     $14,202,000      90.4
    Operating Expense Budget..................       1,511,000       9.6
                                               -------------------------
      Total...................................      15,713,000     100.0
                                               =========================
Suggested Fiscal Year 2001 Budget Request:
    Payroll Budget............................      14,738,000      87.6
    Operating Expense Budget..................       2,077,000      12.4
                                               -------------------------
      Total...................................      16,815,000     100.0
------------------------------------------------------------------------


                         APPORTIONMENT SCHEDULE
------------------------------------------------------------------------
                                     Amount
                                   available      Budget
                                  fiscal year    estimate
              Item                    2000     fiscal year   Difference
                                  (Public Law      2001
                                    106-57)
------------------------------------------------------------------------
Executive Office................     $718,100     $397,800    ($320,300)
Administrative Services.........      463,800    1,422,900      959,100
Legislative and Legal Services..      329,100      256,300      (72,800)
                                 ---------------------------------------
      Total.....................    1,511,000    2,077,000      566,000
------------------------------------------------------------------------

                        LEGISLATIVE DEPARTMENTS
                               BILL CLERK

    The Bill Clerk collects and records data on the legislative 
activity of the Senate, which becomes the historical record of official 
Senate business. The Bill Clerk keeps this information in handwritten 
files and ledgers and enters it so that it is available to all House 
and Senate offices via the Legislative Information System (LIS). The 
Bill Clerk records actions of the Senate with regard to bills, reports, 
amendments, cosponsors, public law numbers, and recorded votes. The 
Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
floor in written form within moments of the action involved.

Legislative Activity

    The legislative materials processed by the Bill Clerk during the 
first session of the 106th Congress, increased since the close of the 
first session of the 105th Congress. Below is a comparative summary of 
the first sessions of the two Congresses:

------------------------------------------------------------------------
                                          106th Congress  105th Congress
                                            1st Session     1st Session
------------------------------------------------------------------------
Senate Bills............................           1,997           1,568
Senate Joint Resolutions................              37              39
Senate Concurrent Resolutions...........              77              70
Senate Resolutions......................             241             163
Amendments Submitted....................           2,806           1,639
House Bills.............................             285             224
House Joint Resolutions.................              20              19
House Concurrent Resolutions............              77              44
Measures Reported.......................             347             248
Roll Call Votes.........................             374             298
------------------------------------------------------------------------

Relations with GPO

    The Government Printing Office has responded in a timely manner to 
the request of the Bill Clerk for the printing of bills and reports, 
including the printing of priority matters for the Senate chamber. The 
record on specific GPO printings for the first session is summarized 
below:

  --Star Prints: 20 pieces of legislation
  --``Bates List'': 20 pieces of legislation
  --Star Prints (legislation re-prints) were high for two reasons: 
        First, more Star Prints were ordered on the Senate floor, 
        reflecting an increase in committee-initiated reprints. 
        Secondly, the Bill Clerk authorized more reprints due to an 
        increase in clerical (GPO and Bill Clerk) errors. The number of 
        Star Prints due to clerical error is expected to decrease in 
        the second session of this Congress.

    The number of measures placed on the ``Bates List'' (a request 
sheet for priority printing) was high due increased requests from floor 
staff to have legislation available for possible activity by the 
Majority Leader. Most appropriations bills were placed on this list.
Legislative Information System (LIS)
    The Bill Clerk worked with the KPMG, the Senate Computer Center, 
and the office of the LIS Special Assistant to facilitate the LEGIS 
phase-out and the December 1999 conversion to the LIS system. The Bill 
Clerk initiated corrections and change requests to the system while 
reviewing the LIS system performance and functionality with respect to 
data entry as well as report retrieval and printing.
Personnel and Office Procedures
    In April 1999, the Bill Clerk and an Assistant Bill Clerk assumed 
different positions on the legislative staff, and a new Bill Clerk was 
named. In addition, two new employees were promoted, one from the 
Executive Clerks and one from Morning Business, to become Assistant 
Bill Clerks. In addition to the staff changes, the Bill Clerk absorbed 
many of the daily functions of the Morning Business Office in an effort 
to streamline work functions and to minimize duplicate data entry by 
multiple offices. The extra workload initially demanded more fastidious 
attention; however, the Bill Clerks minimized any negative impact on 
performance and functionality during the infancy of the merger of the 
two offices. The Bill Clerk expects to streamline workflow and 
integrate procedures due to the merger successfully by the close of 
this Congress.

                              DAILY DIGEST

    The Daily Digest section of the Congressional Record provides a 
concise accounting of all official actions taken by the Senate on a 
particular day. All Senate hearings and business meetings (including 
joint meetings and conferences) are scheduled through the Daily Digest, 
reported on daily, and are published in the Congressional Record.

Chamber Activity

    The Senate was in session a total of 162 days, for a total of 1,183 
hours and 57 minutes. There were 7 quorum calls and 374 record votes.

Committee Activity

    Senate committees held 844 hearings and 180 business meetings 
(total 1,024), contrasted with 824 hearings and 247 business meetings 
(total 1,071) during the First Session of the 105th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record and are now 
entered in the new Senate Committee Scheduling web-based applications 
system (effective January 1, 1999). Meeting outcomes are also published 
by the Daily Digest in the Congressional Record each day.

Government Printing Office

    The Daily Digest continues to send the complete publication at the 
end of each day to the Government Printing Office electronically. The 
Digest also continues the practice of sending a disk along with a 
duplicate hard copy to GPO, even though GPO receives the Digest copy by 
electronic transfer long before hand delivery is completed adding to 
the timeliness of publishing the Congressional Record. The Digest 
continues to discuss with GPO problems encountered with the printing of 
the Daily Digest section. Corrections or transcript errors have become 
very infrequent due to the ability of electronic transfer.

                            ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 1999, 50 enrolled bills (transmitted to the President) and 6 
concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 563 additional pieces of legislation in one form or 
another, was passed or agreed to by the Senate, requiring processing 
from this office.
    The House and the Senate in conjunction with the Library of 
Congress and the Government Printing Office are in the process of 
changing how the data for bill text is produced. Currently the Senate 
Enrolling Clerk, the House Enrolling Clerk, the Senate Legislative 
Counsel, the House Legislative Counsel, and the Government Printing 
Office produce the bill text with a software editor called Xywrite. 
This is not compatible with other software editors which makes it 
difficult to share data. Meetings and workshops have been held 
throughout the year concerning the conversion to another editor using 
Standard Generalized Markup Language (SGML) which can be used with many 
different editors. The testing of editors is ongoing.

                            EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President.

Nominations

    During the first session of the 106th Congress, there were 746 
nomination messages sent to the Senate by the President, transmitting 
23,640 nominations to positions requiring Senate confirmation and 12 
messages withdrawing nominations previously sent to the Senate during 
the session. Of the total nominations transmitted, 437 were for 
civilian positions other than lists in the Foreign Service, Coast Guard 
and Public Health Service. In addition, there were 2,822 nominees in 
the ``civilian list'' categories named above. Military nominations 
received this session totaled 20,381 (6,234 in the Air Force, 5,429 in 
the Army, 6,590 in the Navy and 2,128 in the Marine Corps). The Senate 
confirmed 22,468 nominations this session. Pursuant to a unanimous 
consent agreement at the sine die adjournment of the first session of 
the 106th Congress, all pending nominations were ordered carried over 
to the second session of the 106th Congress.

Treaties

    There were 16 treaties transmitted to the Senate by the President 
during the first session of the 106th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 106-1 through 106-16).
    The Senate gave its advice and consent to 11 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.

Executive Reports and Roll Call Votes

    There were 13 executive reports relating to treaties ordered 
printed for the use of the Senate during the first session of the 106th 
Congress (Executive Report 106-1 through 106-13). The Senate conducted 
fifteen roll call votes in an executive session, 13 on or in relation 
to nominations and 2 on ratification of the resolution to the 
Comprehensive Nuclear Test-Ban Treaty.

Executive Communications

    The growth in the number of the executive communications has 
continued to increased exponentially. Due to the requirement of Public 
Law 105-77 to report vacancies, the number of communications for the 
106th and future Congresses will continue to increase dramatically. 
Through the end of the first session, 6,297 executive communications 
were received during the 106th Congress, and 372 petitions and 
memorials were processed.

Development of the new LIS

    Staff consulted regularly with KPMG and the Senate Computer Center 
during the year concerning the development of the portion of the new 
LIS pertaining to the processing of nominations, treaties, executive 
communications, presidential messages, and petitions and memorial, and 
met regularly with the CRS staff at the Library of Congress charged 
with developing the retrieval system for the new LIS database. Staff 
explained the processing procedures of the nominations, treaties and 
communications in the Senate to assist in the development of the best 
possible systems for data entry, retrieval, and tracking.

                             JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal that is the legal record 
of Senate actions and in effect the index of legislative action. The 
Senate Journal is published each calendar year.
    The office is responsible, pursuant to its constitutional duties 
and under the provisions of the Senate rules, to produce a journal of 
the legislative, impeachment, and secret proceedings of the Senate.
    The 1998 Legislative Journal is completed, and is at the Government 
Printing Office for printing and distribution.
    The Impeachment Journal for 1999 is written, edited, and prepared 
for publication.
    The Legislative Journal for 1999 is written and in the process of 
being edited.
    The Impeachment and 1999 Legislative Journal will go the Government 
Printing Office for printing and distribution in the spring of 2000.

                           LEGISLATIVE CLERK

    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. This office prepares the Senate Calendar 
of Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate. This office is also responsible for verifying the accuracy of 
that information entered into the LEGIS system by the various offices 
of the Secretary. In addition, this office is very involved in the 
Secretary's multi-year, comprehensive program (LIS) to redesign and 
rebuild the Senate's system for the collection and management of its 
legislative information.

Summary of Activity

    The first session of the 106th Congress completed its legislative 
business and adjourned on November 19, 1999. During 1999, the Senate 
was in session 162 days, over 1,183 hours and conducted 374 roll call 
votes. There were 345 measures reported from committees, 549 total 
measures passed, and there were 142 items remaining on the Calendar at 
the time of adjournment. In addition, there were 2,806 amendments 
submitted.

Impeachment Trial of the President of the United States

    The office of the Legislative Clerk felt a significant impact as a 
result of the impeachment trial of President Clinton. Prior to the 
start of the trial, there were many hours spent becoming familiar with 
the procedures for impeachment trials in the Senate and other related 
issues. The Legislative Clerk attended preliminary planning meetings 
with the staffs of the Senate Leadership, the Chief Justice, and Senate 
Legal Counsel. A great deal of time was spent coordinating with the 
staff of the House of Representatives Committee on Judiciary relative 
to the time sensitive delivery of documents from the House Managers to 
the Secretary of the Senate. The Legislative Clerk oversaw the printing 
of the official documents and disbursement thereof to the leadership of 
the Senate as well as to all Senators. During the trial, in addition to 
the core responsibilities at the rostrum, such as reading aloud 
materials for the Senate, handling of motions, and the taking of votes, 
the Legislative Clerk advised the Secretary concerning the printing of 
trial material for the Congressional Record. Also, the Legislative 
Clerk performed certain additional duties unique to trials; for 
example, the logging and storage of evidence. While the impeachment 
trial was a learning experience as well as interesting from a 
historical perspective, staff labored under a heightened sense of 
tension during the proceedings.

Legislative Information System (LIS)

    In December of 1999 the Senate replaced the LEGIS information 
system with the newly designed and created Legislative Information 
System (LIS). The conversion to a new Document Management System (DMS) 
was the culmination of many hours of meetings, examining of reports, 
evaluating data input screens, and then providing feedback to 
consultants and the staff of the Senate Computer Center. The 
Legislative Clerk continues to serve as liaison between the Senate 
clerks and the Senate Project Manager. The transition to the new 
document management system will not be easy and will require continued 
extensive review and retraining as the clerks work to become more 
familiar with and improve the system. However, as the clerks become 
more comfortable with and fine tune the new system, the capabilities 
and benefits of LIS will prove to be enormous to Senators and all 
Senate staff.

Cross-Training

    With an eye on succession and continuity of Senate business, the 
Legislative Clerk is in the process of cross-training two additional 
clerks, from within the legislative staff, to perform Legislative Clerk 
duties on the Senate floor. Currently, the Legislative Clerk and 
Assistant Legislative Clerk can perform the floor duties of the 
Legislative Clerk at the rostrum in the Senate Chamber. It is in the 
best interest of the Senate to have four clerks capable of performing, 
at a minimum, the basic responsibilities of the Legislative Clerk on 
the Senate floor.

                     OFFICIAL REPORTERS OF DEBATES

    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel on additional 
materials to be included in the Record. On a continuing basis, all 
materials to be printed in the next day's edition of the Record are 
transmitted electronically and on paper to the Government Printing 
Office.

Accomplishments

    The Official Reporters began the first session of the 106th 
Congress reporting the impeachment trial of President William Jefferson 
Clinton. This presented a unique challenge to the individual reporters 
in the Chamber.
    After producing an open proceedings record, it was necessary to 
produce a transcript of the closed-door sessions; this record was then 
treated separately and not available to the public.
    Subsequent to the sine die adjournment of the 106th Congress, the 
Office of the Official Reporters of Debates proofread and edited the 
transcript of the open impeachment proceedings and then reproofread the 
transcript before its final printing by the Government Printing Office.
    During and after the impeachment proceedings, this office 
electronically submitted approximately 80-85 percent of the floor 
debate transcript to GPO.

Morning Business

    This segment of the Congressional Record was split between the 
Office of the Official Reporters of Debates and the Bill Clerk, with 
the bulk of the tasks being performed by the Bill Clerk.

Goals

    As always, a major priority is to provide transcripts of floor 
statements of Senators within an hour and a half.
    Another goal is to increase the percentage of electronically 
submitted material to the GPO.
    Greater use and knowledge of the new LIS system will be stressed. 
Also, computer educational opportunities will be made available to all 
staff of this office.

Cost Savings

    Achievement of savings was assured by strict adherence to the 2-
page rule and the printing of amendments of 10 pages or fewer when 
offered by a Senator during floor debate. It is estimated that well 
over $100,000 in savings was achieved last year. Cost savings were 
accomplished by requiring Senate staff to e-mail statements 
electronically, thereby saving publishing costs at GPO.
Personnel
    The Office of Official Reporters of Debate announces the retirement 
of Ron Kavulik as Chief Reporter, effective April 1, 1999, and the 
appointment of Jerald Linnell to that position.

                            PARLIAMENTARIAN

    The Office of the Parliamentarian advises the Chair, Senators and 
their staff as well as committee staff, House members and their staffs, 
administration officials, the media and members of the general public 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, unanimous consent agreements, as 
well as provisions of public law affecting the proceedings of the 
Senate. The Parliamentarian is responsible for the referral of all 
legislation introduced in the Senate, all legislation received from the 
House, as well as all communications received from the executive 
branch. The office works with Senators and their staffs to advise them 
of the jurisdictional consequences of particular drafts of legislation, 
and evaluates the jurisdictional effect of proposed modifications in 
drafting.
    The office continues to analyze and advise Senators on a great 
number of issues arising under the Congressional Budget Act of 1974. 
The Byrd Rule against extraneous matter in reconciliation bills can 
cause a great deal of parliamentary maneuvering.
    The atmosphere that surrounded the parliamentary process in 1999 
resulted in an unprecedented number of questions that this office was 
asked to resolve, including many involving the impeachment trial of the 
President of the United States. These questions often required hours of 
very difficult and contentious meetings with competing groups of staff. 
At every stage of the budget cycle, this office was called upon to 
arbitrate large numbers of budget and appropriation related questions. 
The Parliamentarian was constantly asked to answer questions during 
consideration on the Senate floor, of the budget resolution and the 
appropriations bill that followed.
    Concerns about the use of the budget surplus promise to keep the 
congressional budget process (with all of its parliamentary complexity) 
in the forefront of the legislative agenda.

                OFFICE OF PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services is responsible for 
managing Senate printing expenses, and functions as the Government 
Printing Office (GPO) liaison to schedule and/or distribute Senate 
bills and reports to the Senate Chamber, staff, and the public. The 
department provides page counts of Senate hearings to commercial 
reporting companies; orders and tracks all paper and envelopes provided 
to the Senate; provides general printing services for Senate offices; 
and assures that all Senate printing is in compliance with Title 44, 
U.S. Code as it relates to Senate documents, hearings, committee 
prints, and other official publications.
Background
    The Office of Printing and Document Services is responsible for 
managing the printing and/or distribution of the official Title 44 
U.S.C. printing requirements of the Senate. The coordination of all 
Senate documents, hearings, committee prints, and miscellaneous 
publications between the Senate and GPO is the responsibility of the 
office, as is the distribution of Senate and House legislation. 
Virtually all blank paper, letterheads, and printed envelopes 
throughout the Senate are ordered through the Office of Printing and 
Document Services. Additionally, commercial reporting companies are 
remunerated for transcribing all Senate hearings through the billing 
verification service.
    Efforts to consolidate, restructure, and cross-train personnel in 
other positions within the office continues. The department has been 
able to downsize by two positions since March 1999 and still maintain 
all current services. Although cross-training continues, a new concept 
of ``cross-working'' has been implemented. Under this new ``cross-
working'' program, newly learned skills will be continually honed. In 
this scenario, the workers will have built into their performance 
criteria specific weekly work requirements in their cross training 
position. For example, a printing specialist might have to spend at 
least three hours a week answering legislative questions on the phones. 
A document specialist would need to produce five printing requisitions 
per week in order to fulfill minimum ``cross-working'' position 
requirements. The advantages to having this multi-trained staff are 
quick response to department changes and the flexibility to reduce 
overall staffing requirements in the future.
Total Publications
    During the first session of the 106th Congress, 347 publications 
(hearings, committee prints, Senate documents, Senate publications) 
were printed. This compares with 369 publications printed during the 
first session of the 105th Congress, or a decrease of about 6 percent.
Hearing Transcript and Billing Verifications
    Billing verifications are the mechanism for commercial reporting 
companies to request payment from a committee for transcription 
services. During 1999, the Office of Printing and Document Services 
provided commercial reporting companies and corresponding Senate 
committees a total of 1,214 billing verifications of Senate hearings 
and business meetings (including hearings which were canceled or 
postponed, but still required payment to the reporting company). This 
is a average of 58 hearings/meetings per committee. Compared with 919 
billing verifications in 1998, this was an increase of about 32 percent 
in the number of hearings processed.
    Commercial reporting companies charged the Senate approximately 
$508,815 to prepare 80,228 transcript pages of the spoken portions of 
Senate hearings. This compared to 1998 figures of $447,268 to prepare 
69,855 transcribed pages. The average annual cost per committee during 
1999 was about $24,229, with each committee producing an average of 
3,820 spoken transcript pages. This compares to 1998 where the average 
annual cost per committee was $18,636, with each committee producing an 
average of 2,910 spoken transcript pages.

------------------------------------------------------------------------
                                                               Percent
                                       1998         1999      Increase/
                                                               Decrease
------------------------------------------------------------------------
Billing Verifications............          919        1,214          +32
Transcribed Pages................       69,855       80,228          +15
Average Pages/Committee..........        2,910        3,820          +31
Transcribed Pages Cost...........     $447,268     $508,815          +14
Average Cost/Committee...........      $18,636      $24,229         +$30
------------------------------------------------------------------------

Requisitions

    The Office of Printing and Document Services prepared 6,024 
printing requisitions during fiscal year 1999, authorizing GPO to print 
the Senate's work, exclusive of legislation and the Congressional 
Record. This is an increase of about 8 percent over fiscal year 1998.

Paper, Letterheads, and Envelopes

    The Office of Printing and Document Services provides and maintains 
an accounting of blank paper, letterheads, and envelopes for all Senate 
offices. The total blank sheets and letterheads ordered in 1999 was 
approximately 143.8 million sheets, an increase of 44.6 million sheets 
compared to 1998. The large increase in paper usage could in part be 
attributed to the additional Senate requirements during the impeachment 
trial of President Clinton. In 1999, envelope use in the Senate grew at 
a normal rate. The Senate used about 11.4 million envelopes, compared 
to 8.4 million in 1998.

Cost Accounting Projects and Duties

    Because the requisitioning done by the Office of Printing and 
Document Services is central to the Senate's printing, the office is 
uniquely suited to perform accounting responsibilities for Senate 
printing. Therefore, in addition to the ability to advise Senate 
offices about turnaround and the method of reproduction and to assure 
compliance with Title 44, U.S.C., the Office of Printing and Document 
Services also provides accounting information needed by Senate offices. 
The House, Senate, and GPO are independent of one another, and sound 
accounting principles dictate that their respective auditing procedures 
should be independent as well. Ultimately, this data enables the 
Secretary of the Senate to provide oversight information to the Senate 
Rules Committee and the Joint Committee on Printing.

The Service Center

    The Service Center (located in SH-B-07) is staffed by experienced 
GPO details who provide Senate committees and the Secretary of the 
Senate's Office with complete publishing services for hearings, 
committee prints, and preparation of the Congressional Record. Services 
include keyboarding, proofreading, scanning, and composition.
    As a result of these services, committees have been able to 
decrease and/or eliminate overtime costs associated with the 
preparation of hearings, and can now publish in a more timely manner. 
Committees may also realize additional savings because the work done in 
the Service Center is chargeable to the committee as performed as 
opposed to having a full-time staff member or detail assigned to 
printing functions. Finally, by providing the ability to process what 
would otherwise be backlogged work, utilization of the Service Center 
may preclude the need to assign additional staff or GPO details to 
publishing duties.
    During 1999, the Service Center assisted 6 committees with the 
preparation of 96 hearings, committee prints, and Senate documents. The 
Service Center has assisted with about 28 percent of the total 
publications printed in 1999 as compared to 21 percent in 1998.

Congressional Record

    In 1999, 15,867 pages were printed for the Senate, and 16,317 pages 
were printed for the House of Representatives, for a total of 32,184 
pages. These page counts are comprised of the Proceedings of the Senate 
and the House of Representatives, Extension of Remarks, Digest, and 
miscellaneous pages. This is 4,209 more pages than were produced in 
1998.
    A total of 1.5 million copies of the Congressional Record were 
printed and distributed in 1999. That includes 340,709 to the Senate, 
483,034 to the House, and 629,787 to Executive Branch agencies and the 
public at large.
    The total approximate cost to produce the Congressional Record was 
$17.4 million. Based upon the percentage of content and distribution 
quantities, the proportional Senate cost was $8.1 million, the House 
was $8.3 million, and all other recipients $1 million. The per copy 
cost was about $11.63 (Record costs are based upon GPO estimated 
appropriation costs, not including costs to produce the Record Index or 
microfiche copies).

Legislation

    The Office of Printing and Document Services maintains records 
regarding all printed versions of legislation considered in the Senate. 
The information is presented by category of legislation, such as Senate 
bills. Each category includes the successive versions in which all 
measures were printed during the legislative cycle (such as a Senate 
bill which is introduced, reported, and printed as passed), including 
star prints.
    The following table is for the first session of the 106th Congress. 
The Number of Pages column refers to the number of original pages, 
including blanks, within the categories listed. The total number of 
printed pages is not shown, but is available. Costs are rounded to the 
nearest hundred, and are based upon estimated GPO appropriation rates. 
Additional reprint copies ordered by the Senate Document Room or 
committees is available. See DocuTech Project).

----------------------------------------------------------------------------------------------------------------
                                                                         Number
                           Measure                              Count   of Pages    Senate Cost     Total Cost
----------------------------------------------------------------------------------------------------------------
Senate Bills................................................     1,997    43,400       2,700,000       4,000,000
Senate Reports..............................................       223     7,718         528,400         669,800
Senate Resolution...........................................       241     1,224          81,100         111,000
S.J. Resolution.............................................        37       176          11,200          16,000
S. Con. Resolution..........................................        77       416          26,600          37,600
House Bills.................................................     3,517    63,715       1,300,000       5,700,000
H. J. Res...................................................        85       492          10,900          44,500
H. Con. Res.................................................       239     1,222          26,900         110,800
H. Conf. Reports & Reports..................................       488    22,888         360,500       2,000,000
Treaties/Exec...............................................        29     1,180          97,900         100,300
Public Laws.................................................       170     1,780         218,900         239,700
                                                             ---------------------------------------------------
      Totals................................................     7,103   144,211       5,400,000      13,000,000
----------------------------------------------------------------------------------------------------------------

Document Services

    The Document Service Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Office of the Secretary, Senate committees, and the 
Government Printing Office. The section ensures that the most current 
version of all material is available, and that sufficient quantities 
are available to meet projected demands. The department also serves the 
combined leadership by coordinating the distribution of all Senate-
introduced and Calendar bills, reports, resolutions, and conference 
reports, including all legislation which has passed the House. 
Distribution is made to the Senate Chamber, the Secretary's Office, and 
leadership offices.
    The primary responsibility of the Documents Service Section is to 
provide services to the Senate. However, the responsibility to the 
general public, the press, and other government agencies is virtually 
indistinguishable from services provided to the Senate. Requests for 
material are received at the walk-in counter, through the mail, by FAX, 
and recorded messages. Recorded messages and FAX messages operate 
twenty-four hours a day, and are filled the same day as received, as 
are mail requests. The newest method to obtain documents is through the 
new e-mail form posted on the Office of the Secretary of the Senate Web 
site. This Web site order form has been available for use since 
December 1, 1999. The Office of Printing and Document Services expects 
this site to be a popular and convenient method for members and staff 
to obtain documents.

Summary of Annual Statistics

    The following chart is a summary of activities and trends in 
Document Services from the 105th Congress through the first session of 
the 106th Congress.

----------------------------------------------------------------------------------------------------------------
                                                         Calls      Public       Staff        Fax       Counter
           Calendar year/Congress/session              received      mail        phone      request    requests
----------------------------------------------------------------------------------------------------------------
1997: 105/1st.......................................      60,296      12,739      23,672       7,261         N/A
1998: 105/2nd.......................................      35,116       8,131      13,850       5,162     113,862
1999: 106/1st.......................................      27,570       6,872      12,214       4,036     156,454
----------------------------------------------------------------------------------------------------------------

    Starting April 1, 1999, the Office of Printing and Document 
Services began categorizing incoming calls to the document specialist 
under three categories. The largest number of calls were classified as 
a standard call. This type of call is where the requestor knows the 
document needed by the identifying number, and the legislative document 
specialist is merely confirming that it is in stock. During the eight-
month period from April 1 through December 31, 1999, this type of call 
accounted for 14,166, or 68 percent, of the calls made to the 
legislative document specialist. The other two categories require the 
legislative document specialist to spend more time with the requestor 
and have a greater knowledge of the legislative process. The 
informational category is where the legislative document specialist 
assists the requestor in finding the appropriate committee, agency, 
staff, or member to answer a request that is not within the 
department's jurisdiction. This type of exchange accounted for 4,791 
calls, or approximately 23 percent, of the phone requests during the 
eight-month period. The final category of phone request that was 
monitored is the research call. This is the most time-intensive call 
requiring skills akin to those of a research librarian. In the eight 
months of recorded statistics, 1,875 research requests were made, 
accounting for 9 percent of the legislative phone requests over this 
period.

DocuTech Project

    The following tables summarize quantities and costs associated with 
on-demand (supplemental) printing of bills and reports during the 
second session of the 105th Congress and the first session of the 106th 
Congress. The first table compares on-site printing requests. The 
second table indicates work printed for other government agencies by 
GPO in order to more fully utilize the DocuTech machine. Costs are 
based upon a charge of 3.4 cents per page for Congressional work and 
2.5 cents per page for agency work.

----------------------------------------------------------------------------------------------------------------
                                                             Run    Original                    Cost      Total
                                                  Count    Length     Pages    Printed Pages    Each      Cost
----------------------------------------------------------------------------------------------------------------
DocuTech Document Services:
    Totals 1998...............................       423    23,904    25,442       1,700,000     $1.42   $33,959
    Totals 1999...............................       392    14,960    17,650         786,470      1.79    26,740
DocuTech Agencies Services 1999: Totals 1999..       536   247,970    82,645       6,300,000       .64   158,890
----------------------------------------------------------------------------------------------------------------

                     OFFICE OF CAPTIONING SERVICES

    The Office of Captioning Services provides real-time captions of 
Senate Floor debates for deaf and hard-of-hearing persons and 
unofficial electronic transcripts to Senate staff through the Senate 
Recording Studio web site.

General Overview

    The quality of real-time captions created by this office continues 
to be the highest priority. Internal quality reviews are conducted on a 
continuous basis and the results tabulated for comparison purposes.

Technology Update

    Year 2000 Compliance (Y2K) concerns were fully addressed by this 
office in 1998. No Y2K problems are anticipated next year.
    The Senate Recording Studio maintains an online database that 
contains the caption output of the Office of Captioning Services. 
Cooperative efforts during 1999 between the Senate Recording Studio and 
outside vendors resulted in the diagnosis and repair of key elements 
responsible for generating errors in the caption database. At the end 
of the First Session of the 106th Congress, approximately 80 percent of 
the known problems were resolved.

2000 Objective

    The technology currently used for real-time captioning is not 
Windows compatible. Windows-based captioning software continues to be 
evaluated. It is hoped new software will be available for on-air 
testing and evaluation early next year.

                         SPECIAL PROJECTS--LIS

    The Legislative Information System (LIS) is a mandated system (2 
U.S.C. 123e) with the objective of providing desktop access to the 
content and status of all Senate legislative information and supporting 
documents. The LIS Project Office manages the project, oversees the 
Senate's outside contractor, KPMG Consulting, and coordinates LIS 
training for Senate users.
    The LIS is a mandated system (Section 8 of the 1997 Legislative 
Appropriations Act, 2 U.S.C. 123e) to provide a ``comprehensive Senate 
Legislative Information System'' to capture, store, manage, and 
distribute Senate documents. The program is directed through the LIS 
Project Office (PO). In partnership with the Contracting Officer's 
Technical Representative, the Sergeant at Arms (SAA), and the Senate's 
outside contractor, KPMG Consulting, plus interface coordination with 
the Senate Policy Committees, Library of Congress (LOC), Government 
Printing Office (GPO), and the House of Representatives, the LIS PO 
successfully completed the major development and deployment of a Year 
2000 compliant LIS Document Management System (LIS/DMS) in December 
1999.
    In 1998, the focus of the LIS was on analyzing and reviewing 
systems requirements, on the review of related projects (e.g., LOC LIS 
Retrieval System) and initiatives at the Senate and other agencies, and 
on gathering information integral to the implementation of the LIS. The 
Committee Scheduling application, developed and deployed during the 
year, replaced the older system. This system enables the Daily Digest 
Office to schedule committee and subcommittee meetings and allows all 
Senate users to retrieve information about committee meetings and 
hearings via a convenient web-browser implementation. The Amendment 
Tracking System (ATS), also deployed in 1998, enables the SAA staff to 
scan floor amendments as they are received at the Bill Clerk's desk. 
Within 20 minutes, Senators and staff can view the text of the 
amendment from their computers.
    This past year found the primary LIS focus on the development of 
LIS/DMS and its interfaces to other legislative systems. The system was 
successfully implemented and deployed into production in December 1999 
with the Year 2000 LIS End-to-End tests a success and no Year 200 
issues to date. The Standard Generalized Markup Language/eXtensible 
Markup Language (SGML/XML) Feasibility Study was also initiated during 
this period. These are described in detail below.
    For 2000, the strategic focus of LIS development will be on 
enhancements to the LIS/DMS, the completion of the Bills and 
Resolutions SGML/XML Feasibility Study and its implementation, 
initiation of the LIS Senate Recording Studio, Transcription, and 
Closed Captioning Project, LIS Retrieval enhancements, and the 
Retention, Distribution, and archive Policy Implementation. The 
Recording Studio, Transcription, and Closed Captioning Project shall 
involve the mechanism that must be put into place to make Senate 
Recording Studio data available within the LIS system; the Retention, 
Distribution, and archive Policy Implementation shall implement the 
capture and archiving of historical information collected and made 
available through the LIS.

Standards and Document Management/SGML

    At the direction of the Chairman of Rules and Administration 
Committee and the Chairman of the Committee on House Administration, 
the Secretary and the Clerk of the House of Representatives are 
developing a standard document/data exchange between the Senate, House 
of Representatives, LOC, and GPO using the Standard Generalized Markup 
Language (SGML). The first joint Senate and House SGML project to be 
completed was the Biographical Directory, Guide to Research 
Collections, and Selected Bibliographies of Members of the United 
States Congress. The data is edited and maintained by staff in the 
Senate Historical Office and the Legislative Resource Center in the 
Office of the Clerk using WordPerfect 8 + SGML using a Document Type 
Definition (DTD) and application created by the Legislative Computing 
Services in the Office of the Clerk.
    In early 1999, following the completion of an evaluation of SGML 
editors, WordPerfect 8 + SGML was chosen by the Senate as the editor to 
be used for the production of bills, amendments, and resolutions using 
SGML. However, during the development of this application it was 
determined that WordPerfect 8 + SGML was not robust enough to support 
the complicated and varied processes used by the Senate Office of the 
Legislative Counsel and the Senate Enrolling Clerk to produce bills. 
Thus, the eXtensible Markup Language (XML), a subset of SGML, became 
more prominent. In August 1999, the Secretary of the Senate and the 
Clerk of the House, with the approval of the Senate Committee on Rules 
and Administration and the Committee on House Administration, invited 
representatives from the House and Senate Legislative Counsels, Law 
Revision Counsel, GPO, LOC, Congressional Research Service, Chief 
Administrative Officer of the House, and SAA to participate in a Bills 
and Resolutions SGML/XML Feasibility Study to ``evaluate SGML/XML 
editors, develop XML style sheets, evaluate the SGML/XML capability of 
Microcomp, and examine the use of digital signaturing as it relates to 
these processes.''
    The goal of the Feasibility Study is to determine if it is possible 
to create an easy-to-use XML application for the authoring of 
legislative documents. The study is focused on the authoring and 
composition of bills and resolutions by the Offices of the Legislative 
Counsel and the Enrolling Clerks, but also takes into account the need 
for search and retrieval, conversion of legacy data, and electronic 
exchange of documents. Two Windows-based editors were chosen for the 
Feasibility Study: XMetaL by SoftQuad and WordPerfect 9 + SGML by 
Corel. Another important process taking place during the Feasibility 
Study is the validation and refinement of the Bill DTD.
    Also in 1999, DTDs were developed for Conference Reports, the U.S. 
Code, and Committee Reports by Electronic Commerce Connection, Inc. and 
for Compilations by PBM Associates. As application development begins 
for each of these document types, the respective DTDs shall undergo a 
rigorous validation process similar to the one currently being 
conducted for the Bill DTD.
    Efforts for the current year will focus on completing the 
Feasibility Study for Bills and for determining implementation 
strategies. Through participation in the Legislative SGML Coordinating 
Committee and the Legislative SGML Technical Committee, LIS PO shall 
continue to work closely with the House of Representatives to ensure 
Senate requirements are met and that the LIS is compatible with the 
House information systems for purposes of document/data exchange.

LIS Document Management System (LIS/DMS)

    The two year six month effort to design and replace the LEGIS 
legacy system with the LIS/DMS Year 2000 compliant system began in May 
1997. The first year of the program focused on the identification of 
requirements, specifications, and implementation plans, combined with 
the evaluation of selected systems maintained and/or in development by 
the Senate technical Operations Division of SAA, the GPO, and the LOC. 
Significant accomplishments that laid the foundation for the current 
LIS are listed below.
    LIS System Requirements; LIS/DMS Requirements, replacement system 
for LEGIS; LEGIS Re-Engineering, an effort to replace LEGIS, later 
terminated in favor of a new design and development; LOC/LIS Review, 
defined the required enhancements to retrieval and security systems; 
LIS Architecture System Document; Roll Call Votes Web Interface, made 
votes available to Senate and public; Amendment Tracking System (ATS); 
and Committee Scheduling System (CSS).
    In August 1998, the development of the Year 2000 complaint LIS/DMS 
began with system design and by December 1999, the system 
implementation was completed and LIS/DMS became a production system. 
The LIS/DMS replaces the legacy system, LEGIS, which was found non-Year 
2000 compliant. The new system provides a central repository for all 
Senate information including legislation and support documentation. The 
system collects, manages, stores, retrieves, and reports various types 
of data by providing accessibility, management, and tracking of 
information in various formats. The LIS/DMS directly serves the clerks 
of the Secretary of the Senate, the Senate Library, Policy Committees, 
and the legislative branch agencies--House of Representatives, LOC, and 
GPO. Sixty-eight reports and over 145 data entry screens facilitate 
this capability. By transmitting data to the LOC LIS Retrieval System, 
the LIS/DMS expands its user base to include the Senate members and 
staff and the public. The LIS production system also established 
interfaces to the Amendment Tracking System and the Committee 
Scheduling System.

LIS Year 2000 Compliance

    To test Year 2000 compliance the LIS Project Office conducted two 
LIS end-to-end tests involving all interfaces/data exchanges. The goal 
for the systems test was to confirm that the most frequently used paths 
within the Senate legislative system as a whole (systems within the 
Senate and interfaces with external systems) could operate correctly in 
a Year 2000 environment. The first test was conducted during three days 
of the August Senate recess (August 18-20, 1999) while LIS/DMS was 
still under development; and involved the following stakeholders and 
systems: Bill Clerk; Legislative Clerk; Library of Congress (LOC); 
Government Printing Office (GPO); Amendment Tracking System (ATS); 
Executive Clerk; Daily Digest Editor; House Information Resources 
(HIR); Policy Committees (RPC/DPC); and Committee Scheduling System 
(CSS).
    The second Year 2000 test conducted during two days, November 30 
and December 1, 1999, included the stakeholders and systems listed 
above plus the Parliamentarian, Official Reporters of Debates, Senate 
Librarians, Enrolling Clerk, and the Journal Clerk. The conclusion at 
the completion of the second test was that there were no observed Year 
2000 related problems. As a result of the two tests, Congressional 
Records were generated for each virtual test day.

LIS Training

    The Legislative Information Systems, including the LIS/DMS, are 
intended to serve varied groups of users, many with unique 
requirements. The primary objective of LIS training is to prepare 
Senate staff to test, use, manage, and maintain the LIS.
    With the new release of the LIS/DMS the following groups were 
identified for training: Senate clerks, system administrators, 
including Secretary of the Senate Information Systems/Computer staff as 
well as SAA application development personnel, Help Desk personnel, 
Enterprise IT personnel, and end users in Senators' and Committee 
offices. Since each of these groups has distinct needs, the training 
approach was highly customized. The training curriculum for the users 
included several demonstrations of the capabilities in addition to labs 
and practical exercises to reinforce skills. Realistic practice 
scenarios to enable authentic assessment of system performance were 
provided. A LIS/DMS Guide for Senate Clerks details data entry and 
screen usage and the LIS/DMS on-line help focuses on specific system 
functions and data screens. As test versions of the LIS/DMS systems 
were released for user acceptance testing, the LIS trainer conducted 
training to introduce the users to new capabilities and to prepare the 
user to participate in testing. Each session contained two components, 
one for common system functions and the second customized for each 
office. At these sessions, the Clerks had the opportunity to learn the 
new features and to provide comments and feedback to the team of 
developers.
    SAA application development personnel and the Secretary of the 
Senate Computer staff attended vendor-supplied technical training 
courses throughout the year. These courses were designed for those that 
will be developing, supporting and maintaining the LIS/DMS. Each group 
involved in the technical administration of the LIS/DMS participated in 
training appropriate for the responsibilities they assumed with the new 
system. SAA and Secretary of the Senate Computer Staff received the 
Training Guide for System Administrators, which detailed installation, 
configuration, maintenance and security of the system. In January, 
2000, these development and support personnel attended vendor refresher 
courses and are scheduled to attend training conducted by the 
implementor, KPMG, to facilitate knowledge transfer to the SAA team 
that will be providing sustaining engineering of the LIS.
    Collaborating together, the LOC, the LIS PO conducted two training 
sessions for the Senate staff. Held in December and January these 
sessions reviewed the new enhancements available though the LOC LIS 
Retrieval System at the LIS website on www.congress.gov. In addition, 
the Senate Office of Education and Training provides a course on LIS, 
which is offered twice a month to the Senate public.

LIS Communications

    The establishment of the LIS User Group and the production of 
informational materials and marketing tools have successfully 
introduced the LIS to users throughout the Senate.
    The LIS User Group collects Senate offices' requirements and 
priorities to ensure enhancements to the LIS meet the needs of a broad 
a range of Senate researchers as possible. The requirements and 
feedback provided by this User Group is recorded and factored into 
decision of the LIS Project Office.
    LIS informational materials and marketing tools, designed to ensure 
that Senate staffers are aware of resources available, are continually 
updated and distributed to Senate staffers. The Office of the Secretary 
has developed several ``Quick Cards'' with key information on using the 
Amendment Tracking System, using the Committee Scheduling System, 
finding Roll Call Votes and retrieving information from the LIS 
Retrieval System. These cards continue to be effective tools, and as 
new capabilities are added to the system, updates will be distributed.

                 JOINT OFFICE OF EDUCATION AND TRAINING

    The Joint Office of Education and Training provides employee 
training and development opportunities for all 7,000 Senate staff both 
in Washington, DC and in the states. There are three branches within 
the department. The technical training branch is responsible for 
providing technical training support for approved software packages 
used in either Washington or the state offices. The computer training 
staff provide instructor-led classes; one-on-one coaching sessions; 
specialized vendor provided training; computer based training; and 
informal training and support services. The professional training 
branch provides courses for all Senate staff in areas including: 
management and leadership development, human resource issues and staff 
benefits, legislative and staff information, new staff and intern 
information.
    The Health Promotion branch provides seminars, classes and 
screenings on health related and wellness issues. This branch also 
coordinates an annual Health Fair for all Senate employees and four 
blood drives each year.

Training Classes

    The Joint Office of Education and Training offered 417 classes in 
1999. Total enrollment of Senate employees in these classes were 7,012.
    Of the above total, in the Technical Training area, 262 classes 
were held with a total attendance of 1,852 students. An additional 439 
staff received coaching on various software packages and other computer 
related issues. Technical training staff also traveled to thirteen 
State Senate offices to provide System Administration and user-end 
training. In all of these instances, it was more cost efficient to have 
a member of the technical training staff travel to these offices than 
it was to have the training conducted by a local vendor. In the 
professional development area 155 classes were held with a total 
attendance of 5,160 students. Individual managers and supervisors are 
also encouraged to request customized training for their offices on 
areas of need. The Office of Education and Training is available to 
work with teams on issues related to team performance, communication or 
conflict resolution. In the Health Promotion area, 351 Senate staff 
participated in Health Promotion activities throughout the year. These 
activities included: cancer screening, bone density screening and 
seminars on health related topics. Additionally 1,002 staff 
participated in the Annual Health Fair held in June.

State Training

    Since most of the classes that are offered are only practical for 
D.C. based staff, the Office of Education and Training has worked this 
Fall with the Office Manager's Council and selected State Directors to 
develop a curriculum for Senate staff from state offices. This 
training, entitled ``State Fair'', is scheduled to begin in March 2000. 
The focus for this year's program will be on management and leadership 
development skills for state staff with management responsibility. 
Topics will include: Public Speaking; Motivation; Managing Change; 
Ethics; Legalities of Casework; Letter and Report Writing; Delegation 
Skills; Stress Management; Myers-Briggs Type Indicator; Developing a 
High Performing Teams; Conflict Management and Performance Management. 
The courses will be conducted over three days with the final day of the 
program being dedicated to computer training.
    The program will be repeated in late June to allow for maximum 
attendance. Next year the ``State Fair'' curriculum will change and the 
topics will be focused on the learning needs of staff from the state 
offices. The state offices will be responsible for the cost of travel, 
food and lodging for those attending this program.

                         Administrative Offices

                           Disbursing Office

          FRONT COUNTER--ADMINISTRATIVE AND FINANCIAL SERVICES

    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. Training is 
provided to newly authorized payroll contacts along with continuing 
guidance to all contacts in the execution of business operations. It is 
the receiving point for most incoming expense vouchers, payroll 
actions, and employee benefits related forms, and is the initial 
verification point to ensure that paperwork received in the Disbursing 
Office conforms to all applicable Senate rules, regulations, and 
statutes. The Front Counter is the first line of service provided to 
Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will be working in the Capitol Hill 
Senate offices are administered the required oath of office and 
personnel affidavit and provided verbal and written detailed 
information regarding their pay and benefits. Authorization is 
certified to new and state employees for issuance of their Senate I.D. 
card. Cash advances are issued to Senate staff authorized for official 
Senate travel and travelers' checks are available on a non-profit basis 
to assist the traveler. Numerous inquiries are handled daily, ranging 
from pay, benefits, taxes, voucher processing, reporting, laws, and 
Senate regulations, and must always be answered accurately and fully to 
provide the highest degree of customer service. Cash and checks 
received from Senate entities as part of their daily business are 
handled through the front counter and become part of the Senate's 
accountability of federally appropriated funds and are then processed 
through the Senate's general ledger system.

General Activities

    The Front Counter issued approximately 1,800 cash advances for 
official Senate travel, received more than 20,000 checks from Senate 
entities, administered oath and personnel affidavits to more than 4,500 
new Senate staff, maintained brochures for 14 Federal health carriers 
and distributed approximately 4,000 brochures to staff during the 
annual FEHB open season.

                            PAYROLL SECTION

    The Payroll Section maintains the Human Resources Management System 
and is responsible for the following: processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; maintaining the Automated Clearing 
House (ACH) FEDLINE facilities for the normal transmittal of payroll 
deposits to the Federal Reserve; distributing the appropriate payroll 
expenditure and allowance reports to the individual offices; issuing 
the proper withholding and agency contributions reports to the 
Accounting Department; and transmitting the proper Thrift Savings Plan 
(TSP) information to the National Finance Center (NFC), while 
maintaining earnings records for distribution to the Social Security 
Administration, and maintaining employees' taxable earnings records for 
W-2 statements, which are prepared by this section. The Payroll Section 
is also responsible for the payroll portion of the Report of the 
Secretary of the Senate.

Y2K Testing and Certification

    The Information Technology Department of the Sergeant at Arms 
released their U.S. Senate version of the Integral 9.5 system to the 
Disbursing Office for acceptance testing. By late April, all aspects of 
the system had been tested and approved for production. The next step 
was to run a parallel production for a sixty-day period to ensure the 
accuracy of the new processing system. The May-June 1999 parallel 
allowed the 9.5 system to go live July 1, 1999, 90 days ahead of 
schedule. At this time the managers of the project learned that new 
processing equipment was being installed to upgrade the operating 
platform of the OS390 system during the month of May. The equipment 
upgrades produced associated software upgrades, delaying the parallel 
and created the need to re-evaluate the results of the earlier testing. 
Finally, the operating platform was ready and the parallel processing 
was evaluated. All glitches and deviations were noted and corrected. 
The Y2K compliant Payroll/Personnel System went operational on October 
1, 1999.
    The Payroll/Personnel System was not the only system being 
evaluated for Y2K compliance. The Federal Reserve FEDLINE system went 
through a thorough series of compliance testing. The first portion of 
the test related to the equipment the Disbursing Office was using to 
transmit information to the Federal Reserve. The test results showed 
that the current PCs being used to process the ACH files were Y2K 
compliant. However, they advised the Disbursing Office to upgrade the 
processing system to the most current technology available to prevent 
any unforeseen equipment failure at a later date. A series of live 
tests with the Federal Reserve test regions proved that all equipment 
was Y2K compliant for the processing of ACH files.
    The last aspect of Y2K certification was to prove to GAO, through 
the Y2K Project Office that the Payroll/Personnel System was compliant. 
A battery of more than 160 individual processing tests were compiled by 
the managers of the system to prove compliance, then they applied these 
tests to the system to verify compliance. Subsequently, the Payroll/
Personnel System was certified compliant.

Integrated Report of the Secretary of the Senate Processing

    During the Spring of 1999, a Report of the Secretary of the Senate 
team was created within the Disbursing Office to manage information 
contained within FAMIS and the Payroll/Personnel System. The objective 
of this team was to work with the system consultants to produce a 
detailed document of expenditures with a minimal amount of manual 
editing. The Payroll Section merged two computer-generated tables 
together to create an extract that could be absorbed into the FAMIS 
system, thus detailing the payroll data in the Report. Once the Y2K 
system certification was complete, a new data element was created in 
the Payroll/Personnel Title Dictionary dedicated to the insertion of 
the full un-abbreviated employee title into the Report. This file 
completed the full integration of both systems into one reporting unit.

                       EMPLOYEE BENEFITS SECTION

    The Employee Benefits Section's (EBS) primary responsibilities are 
administration of Senate employees' health and life insurance and 
retirement programs for the Senate. The Section's work includes 
research and verification of prior Senate or other federal service for 
new appointees. EBS prepares these forms for payroll input and after 
they are returned, verifies the accuracy of the information when the 
Official Personnel Folder is received. Employment verifications for 
loans, the Bar, the Federal Bureau of Investigation, the Department of 
Defense, and for outside insurance are completed in EBS. Unemployment 
claim forms are completed, and employees are counseled. Department of 
Labor billings for unemployment paid to Senate employees are checked in 
EBS and submitted by voucher to the Accounting Section to be paid. 
Designations of Beneficiaries for FEGLI, CSRS, FERS, and for unpaid 
compensation are filed and checked by EBS.

General Activities

    The annual FEHB Open Season was held and over 700 employees changed 
plans. A great number of FEHB plans changed, and due to non-support 
from computer programs, the deleted plans, mergers, address and name 
changes had to be updated manually.
    The FEHB Open Season Health Fair was attended by about 800 
employees and since the Fair is well run, it is open to all employees 
on the Hill, including House, USCP, Architect & Senate restaurant 
employees.
    There were 2 TSP Open Seasons, and the employee changes remained 
about the same as normal, 800 each time, or 1 in 7.
    Mortgage rates, still low, kept employment verifications coming in 
at a rapid pace, averaging 130 per month.
    Unemployment verifications, termination packages, transcripts of 
service for employees going to other federal agencies, and other tasks 
associated with employees changing jobs were all heavy this year, as 
approximately 700 staffers lost their jobs January 2, 1999. Another 700 
entered on duty on the new staffs, and this required prior employment 
research and verification, new FEHB, FEGLI, CSRS/FERS and TSP 
enrollments, and the associated requests for backup verification.
    Counseling, retirement planning, and processing, were very heavy in 
1999 since most of the Members leaving were long term Members who were 
retiring. Total retirement cases processed equaled 168 (63 CSRS + 95 
FERS, 10 deaths), which was about average for a year.

                 DISBURSING OFFICE FINANCIAL MANAGEMENT

    Headed by the Chief Financial Officer, the mission of Disbursing 
Office Financial Management (DOFM) is to coordinate all central 
financial policies, procedures, and activities to produce an auditable 
consolidated financial statement for the Senate and to provide 
professional customer service, training and confidential financial 
guidance to all Senate accounting locations. DOFM is segmented into 
four functional departments: Accounting, Budget, Financial Systems, and 
Policy and Control. The CFO coordinates the activities of the four 
functional departments, establishes central financial policies and 
procedures, acts as the primary liaison to the HR Administrator, and 
carries out the directives of the Financial Clerk of the Senate.
    In an effort to evaluate the resource requirements of the 
Disbursing Office, the Secretary of the Senate has initiated an 
organizational review and position description analysis. Staff of the 
Disbursing Office have participated in the review being conducted by 
the General Accounting Office. Results are anticipated in the early 
spring of 2000. Until such time as the organizational review is 
completed, it has not been possible to begin to staff the budget and 
policy and control functions, or to fully staff accounting and 
financial systems. To the greatest extent possible, existing staff 
perform multiple functions on a workload priority basis. Progress 
producing auditable consolidated financial statements is limited with 
existing resources. The functional department responsibilities are 
diagramed below:

[GRAPHIC] [TIFF OMITTED] T08MA21.001


    As was the case in 1998, the most significant event and activity of 
the past year for Disbursing Office Financial Management has been the 
management responsibility for the Senate's Financial Management 
Information System (FMIS). One of the clear mandates of FMIS was to 
become year 2000 compliant. A great deal of effort replacing financial 
systems and testing the replacements for date compliance occurred 
during 1999. The Disbursing Office is pleased to report no year 2000 
related problems were detected in the Y2K acceptance testing or in the 
actual date rollover. DOFM staff resources and Senate support vendors 
were utilized for the acceptance testing spearheaded by the Sergeant at 
Arms and Doorkeeper of the Senate. Much additional progress has been 
made and the following paragraphs will give a status of FMIS and what 
has been accomplished.
    In 1998, the Senate initiated a four-phase approach for the 
acquisition and implementation of an integrated financial management 
system. These four phases are defined below:
    Replacement.--The initial phase was the replacement of the Senate's 
core financial systems with a single integrated year 2000 compliant 
Commercial Off The Shelf (COTS) system. In this initial phase, FAMIS 
4.0 and ADPICS 4.5 were implemented in the Disbursing Office in 
replacement of Disbursing Office Voucher Entry System (DOVES) and in 
the offices of the Sergeant at Arms as an upgrade to FAMIS 3.2 and 
ADPICS 4.0. Additionally, a limited number of system interfaces were 
either created or revised.
    Rollout.--Following the initial replacement of the Senate's core 
financial systems, the rollout of these solutions to Member and 
Committee offices was scheduled for fiscal year 1999. During this 
phase, all Senate Committee Expense Allowance System (SCEAS) and 
Senators Office Accounting System (SOAS) users were migrated to Web 
FMIS.
    Reporting.--As a result of the implementation of a single 
integrated financial system the Senate planned to take advantage of the 
new system by beginning to compile, develop, and distribute financial 
information that was impossible or impractical to develop in the past. 
This phase began concurrently with the rollout during fiscal year 1999.
    Reengineering.--After the migration to a central Senate-wide 
financial system, the Senate desired to ensure that the FMIS technology 
platform remained consistent with industry standards. Beginning at the 
end of fiscal year 1999 and into fiscal year 2000, the Senate began to 
implement a strategic approach of implementation and integration with 
web-based architectures and technologies.

Background

    Upon the conclusion of the Phase I, the initial intent was to 
initiate and simultaneously execute Phases II (Rollout) and III 
(Reporting). The assumption was that Member and Committee offices would 
use ADPICS as their primary accounting system as a replacement for 
SCEAS and SOAS. It was also recognized that additional reporting tools 
would be required for Member and Committee users, though the 
architecture or methodology for the creation of these reports was not 
yet in place.
    Based upon the experiences of a group of pilot users in the early 
part of 1999, it was determined that ADPICS would not fit the needs of 
the Member and Committee user group and the Senate began to consider 
several alternative approaches. After much careful consideration of the 
alternatives, the Senate ultimately chose to implement Web FMIS, which 
utilizes a web-based delivery model for budget functions, data entry, 
and reporting for Member and Committee offices.
    The restructuring of the Rollout Phase resulted in a significant 
advance in the overall FMIS strategic schedule. The long term strategic 
plan for the Senate, adopted in the fall of 1997, called for migrating 
to a client-server core financial system, consistent with the Senate's 
technology architecture by no later than September 30, 2003. The 
Reengineering Phase, which was not scheduled to begin until at least 
October 2000, actually began during the spring of 1999. Thus, at the 
end of fiscal year 1999, in place of the ADPICS system that was 
originally scheduled for rollout and within the original time frame 
mandated for SOAS replacement, the offices began to use a web-based 
system for data entry and reporting that is structured upon an advanced 
intranet-based technical infrastructure and architecture.
    In order to provide a descriptive account of the FMIS 
implementation, this document defines time periods that are hereinafter 
referred to as Implementation Periods. These phases are described in 
summary and in detail as follows:
    Implementation Period I: November 1997-September 1998.--Though work 
on FMIS began earlier than this date, this Phase begins with the 
approximate time that the Senate decided to begin implementation of 
KPMG's Federal FAMIS and ADPICS as the replacement to DOVES and the 
prior version of FAMIS and ADPICS that were in use by the Sergeant at 
Arms. The primary activities during this period were the creation of a 
classification structure, the actual FAMIS and ADPICS implementation, 
creation or revision of a limited number of systems interfaces, and 
creation of a small number of mission critical modifications.
    Implementation Period II: October 1998-December 1999.--The initial 
planed activities for the period were Rollout and Reporting. Based on 
feedback from the pilot ADPICS users group, reengineering efforts that 
were not initially scheduled to begin during this period were 
initiated. The activities performed during this period included system 
performance improvements, Office Ledger reports, Report of the 
Secretary, Web FMIS and Y2K testing.
    Implementation Period III: January 2000-approximately October 
2000.--The focus during this time frame will continue to be on 
reporting and reengineering activities. Operational support is required 
to maintain and support the production environment, the FMIS system, 
and Senate users over the remainder of the fiscal year. In addition, 
the Senate is considering other development activities that will move 
the Senate toward its ultimate vision of an integrated, paperless, 
efficient financial management system. These include continued 
improvements in reporting, interfaces for data capture of web 
transactions, other interfaces, imaging, digital authentication, and 
auditable financial statements.
    Future Activities.--It is anticipated that development activities 
in support of FMIS will extend beyond the time period defined in 
Implementation Period III. The Future Activities period provides a 
placeholder for these projects. As Implementation Period III 
progresses, these projects can be reevaluated and reprioritized as 
necessary. Items in this category are subject to change and will be 
modified based upon the schedule and outcomes of Implementation Period 
III.

 IMPLEMENTATION PERIOD I (NOVEMBER 1997-SEPTEMBER 1998) ACCOMPLISHMENTS

[GRAPHIC] [TIFF OMITTED] T08MA21.002


    The Implementation Period I efforts were focused on replacing 
antiquated systems and processes, culminating in the implementation of 
FAMIS 4.0, ADPICS 4.5, and associated processes by October 1, 1998. 
This section provides a brief overview of the projects and achievements 
of the following projects that were executed in Implementation Period 
I:

Completed Projects

    The following is a list and description of the projects that were 
completed during the initial Implementation Period of FMIS:

            Project Office

    The FMIS Project Office was established and given responsibility 
for the following main objectives over the project duration:
  --Development and definition of high-level project vision and 
        objectives.
  --Definition of proper scope of each phase prior to startup, 
        including goals, required resources, and budget of the project.
  --Oversight and maintenance of projects to ensure that all phases of 
        the project are properly synchronized.

            Project Management

    The Project Management team was created and given responsibility 
for the following tasks over the project duration:
  --Coordinate with the Project Office to ensure that the Project 
        Office responsibilities are carried out by the project teams on 
        a daily basis.
  --Provide the organization of the individual and overall projects 
        through the definition of scope and objectives, general skill 
        set requirements, responsibilities, and draft specific skill 
        sets, and roles.
  --Communicate project responsibilities, assist the Project Office in 
        the review of individual resumes or background information, as 
        well as orientation of project responsibilities, tasks, 
        assignments, and reporting requirements to the individual 
        project managers and project teams.

            System Requirements Review and Gap Analysis

    The Requirements Review and Gap Analysis was initiated to review 
and analyze the FMIS core accounting and purchasing functional 
requirements, and to conduct a gap analysis with the requirements 
against the KPMG Federal FAMIS 4.0 and ADPICS 4.5 products. KPMG 
utilized the Senate's FMIS functional requirements and business 
processes generated by the Senate with the assistance of Booz, Allen & 
Hamilton and finalized by the Senate's FMIS project team as the 
baseline. The next steps included:

  --Time-phasing of the FMIS functional requirements to identify the 
        priorities for the initial implementation versus requirements 
        for future functionality.
  --Comparison of the Senate's requirements to the functionality of 
        KPMG's baseline Federal FAMIS and ADPICS products. Gaps in 
        functionality were identified and, when appropriate, budgetary 
        cost estimates were prepared to assist the Senate in 
        prioritizing requests for programming modifications.

            System Architecture Review and Design

    This project focused on the system design for the Senate's FMIS 
solutions environment. The effort included the architectural design of 
the core accounting, purchasing, asset management, travel, payroll, 
budgeting, and revolving funds components of the Senate-envisioned FMIS 
solution. Specific accomplishments include:

  --Documentation of the existing financial environment of the Senate, 
        including systems and interfaces.
  --A high-level, time-phased migration plan for the core accounting, 
        purchasing, asset management, travel, payroll, budgeting, and 
        revolving funds components of the Senate-envisioned FMIS 
        solution was developed.
  --Creation of a detailed architecture was developed for the Phase I 
        environment. Detailed analysis and documentation of the 
        architecture for future phases were deferred in order to focus 
        on the short-term implementation of FAMIS and ADPICS by October 
        1, 1998.

            FAMIS Upgrade

    The focus of this project was the delivery of a single financial 
management system that replaced DOVES General Ledger (both the 
mainframe and PC systems) and supported the migration of the Sergeant 
at Arms Financial Management Organization from the Federal FAMIS 
Version 3.2 environment to the Senate Disbursing Office's Federal FAMIS 
Version 4.0 environment. Specific accomplishments include:

  --DOVES (both the mainframe and PC systems) General Ledger was 
        replaced with FAMIS 4.0, a single financial management system.
  --The Sergeant at Arms Financial Management Organization migrated 
        from the Federal FAMIS Version 3.2 environment to Federal FAMIS 
        Version 4.0.
  --Conversion from a cash basis accounting to an accrual or 
        obligation-based accounting and migration of the Senate's 
        general ledger to the U.S. Government Standard General Ledger.
  --Creation of a Checkwriter module to enable the Senate to function 
        as a non-Treasury disbursing office. The Checkwriter includes 
        the capability for electronic payments.

            ADPICS Upgrade

    Implementation of ADPICS 4.5 to replace the Sergeant at Arms ADPICS 
Version 4.0 and the Secretary of the Senate's SOAS were the objectives 
of this project. Specific accomplishments include:

  --ADPICS 4.5 was implemented in the Senate Disbursing Office and the 
        offices of the Secretary of the Senate.
  --The Sergeant at Arms Financial Management Organization migrated 
        from the ADPICS Version 4.0 to ADPICS Version 4.5.

            Account Classification and Reporting

    The purpose of this project was to develop the Senate's 
classification structure to support both its external and internal 
financial and budgetary performance reporting, including the new 
Senate-wide reporting. Elements defined include:

  --General Ledger, fund, object, organization, program, function, 
        grant, project, user code, and appropriation control.
  --The Senate consolidated and standardized several distinct expense 
        classifications employing the OMB structure for federal 
        agencies.

            Security Assessment

    The scope of this project was revised to focus on the security 
requirements necessary for the upgrade and implementation of ADPICS and 
FAMIS. These activities were limited in scope to focus on the 
implementation of FAMIS and ADPICS by October 1, 1998 and were subsumed 
within the FAMIS and ADPICS projects. Furthermore, the capability of 
FAMIS and ADPICS to function within the Senate's ACF2 security 
environment reduced the need for additional efforts in this area.

            Acceptance Task Force/Acceptance Test Team

    The focus of this project was to ensure acceptance of the FMIS 
systems being deployed. Specific accomplishments include:

  --An Acceptance Task Force was created.
  --A methodology was created to apply against each FMIS project that 
        documented the satisfaction of the functional requirements 
        demonstration process.
  --Upon completion of the methodology, the Acceptance Task Force 
        transitioned to an Acceptance Test Team and developed 
        acceptance test plans for each project. Testing scripts were 
        mapped to functional requirements and accounting scenarios were 
        defined, providing the Senate with a comprehensive test plan to 
        validate performance of the new system.
  --A team from James Martin Government Consulting was assembled to 
        validate the testing plan and results.
  --The Test Team organized, monitored, and tracked testing results 
        during testing both prior to and after implementation of the 
        system.

            FMIS Interfaces

    Within this project, the following FMIS interfaces were designed, 
developed, tested, and deployed:

    Integral (Payroll System) to (FAMIS) Vendor File.--Creates and 
updates employees as vendors in FAMIS. This interface was designed in 
accordance with Senate requirements for maintaining confidentiality of 
employee information.
    FAMIS/ADPICS Vendor File to HTTP Browser.--This is not a system 
interface in the traditional sense, but is used to provide, on demand, 
vendor information to operators of Integral, SOAS, and Solomon.
    Office Allowance System (OAS) to FAMIS (via Standard Interface).--
This interface is responsible for providing extracts of actual and 
projected payroll expenditures from OAS to FAMIS using the FAMIS 
Standard Interface.
    FAMIS to SOAS.--This interface is required by SOAS and other 
systems for reconciliation with FAMIS. Crystal Reports will be used to 
prepare the reconciliation file in ASCII format. The ASCII file is then 
converted into Paradox. While design overview of this interface was 
completed, design of the interface using Crystal Reports, testing, and 
implementation was deferred to Implementation Period II.

            Funds Advance Tracking System Conversion

    The purpose of this project was to modify FATS which was being 
utilized by the Senate Disbursing Office in conjunction with DOVES. 
Specific accomplishments include:

  --The Fund Advance Tracking System (FATS) used by the Senate 
        Disbursing Office was modified in conjunction with the 
        Disbursing Office Voucher Entry System (DOVES).
  --Application source code was reviewed to determine a variety of 
        software modifications and subsequently modified to accommodate 
        the following major changes:
  --Code linking FATS functionality to DOVES was removed to reenable 
        the application to function independently.
  --All date processing in the system was modified to 8-byte date 
        format to assure full Y2K functionality.
  --All file transfer processing in the system was converted from a 
        hardware-based protocol to a TCP/IP/FTP (software-based) 
        protocol.
  --The system was unit tested and ported to a Y2K compliant Windows 
        NT-based LAN platform, then file descriptions and data were 
        converted and copied to the new Windows NT LAN.
  --The FATS application was then thoroughly system tested by Sergeant 
        at Arms Technical Operations staff prior to user delivery.
  --Sergeant at Arms Technical Operations staff assisted the Senate 
        Disbursing Office staff with integrated acceptance and parallel 
        testing prior to production implementation.

            Mission Critical Modifications

    The focus of this project was the completion of the following ten 
modifications to baseline Federal ADPICS 4.5 and FAMIS 4.0 software:
    Requisition, purchase order, and change order accounting format 
change.--The format for the aforementioned three documents was modified 
in order to include and print a job number and description on the 
accounting line on the pertinent document.
    Sequential line number change on the printed purchase order.--
Baseline ADPICS 4.5 was modified so that the line numbers on a printed 
purchase order will always be sequential, beginning with 1.
    Default interface processing.--Baseline ADPICS 4.5 was modified so 
that when either a requisition or a direct purchase order is 
established and posted to the system with a specific interface code, 
the interface type of all documents, made subsequent to the 
aforementioned documents (e.g., vouchers and change orders), default to 
the interface type of the requisition or the direct purchase order.
    Default disbursement type for direct vouchers in ADPICS.--Baseline 
ADPICS 4.5 was modified to change the default on the disbursement type 
in direct vouchers from single (``S'') to multiple (``M''.)
    Reversal of the Vendor Interface.--Baseline ADPICS and FAMIS 
systems were modified so that the initial point of entry of vendors to 
the system is FAMIS (rather than ADPICS) which provides the Senate with 
enhanced vendor information and security.
    Enter and report on service and obligation dates.--Service begin 
and end dates were added to the FAMIS posting process so that document 
service dates can be stored on the FAMIS document file. This data is 
necessary for the semiannual Report of the Secretary.
    Addition of an edit on the taxpayer ID field in FAMIS.--The 
baseline FAMIS system was modified so that a specific identification 
number placed on the FAML5460 screen for a particular vendor cannot be 
posted a second time for another vendor, unless the user confirms by 
selecting ``F10, Save'' twice.
    Accounting Pick List in ADPICS.--Baseline ADPICS was modified to 
provide the Senate with the capability for users to select, in a manner 
similar to the functionality currently available in FAMIS, the 
appropriate accounting information for direct voucher documents.
    Change Order Indicator on 2100 screen.--Baseline ADPICS was 
modified to provide the Senate with this feature. A field was placed on 
the 2100 screen with a Yes (``Y'') or No (``N'') indicator that will 
default to ``N'' when the requisition is created.
    Voucher Cancellation/Funds Restoration Modification.--Baseline 
ADPICS and FAMIS were modified so that when a voucher is canceled in 
ADPICS, the amount that was originally liquidated by the voucher from 
the purchase order document in ADPICS will automatically be restored to 
the document in both FAMIS and ADPICS. This was initiated in Phase I 
and completed during Phase II.

            SOAS 99

    Significant changes were made to SOAS for use during fiscal year 
1999. Some of these were as a result of the Senate's adoption of a new 
classification structure and to be more consistent with FAMIS and 
ADPICS. Other changes were performed as a result of incorporation of 
user feedback. SOAS99 provided Member offices a transition voucher 
processing system that incorporated the Senate's new expense 
classification.

            Projects Deferred or Reduced in Scope

    The following projects originally projected for Phase I were either 
reconsidered and deemed not required for the Phase II implementation, 
significantly reduced in scope, or subsumed within other projects that 
were executed as part of Implementation Period I:
    Data Conversion.--The Senate's decision to upgrade ADPICS 4.5 
procurement in the Sergeant at Arms from version 4.0 one year ahead of 
the original schedule, and also the October 1st implementation date 
reduced the requirement for data conversion. Also, the Senate made a 
policy decision not to convert prior fiscal year data. This was a key 
factor in the successful implementation by October 1, 1998.
    Implementation Management Plan and Implementation Management 
Execution.--Activities and objectives of these projects were performed 
within the FAMIS and ADPICS implementation projects.
    Phase II FAMIS and ADPICS Definition.--Definition of future phases 
for FAMIS and ADPICS was subsumed within the other FMIS project 
planning and was incorporated into Project Office and Project 
Management.
    Implementation Period I Outstanding Items.--The following projects 
were initiated or scheduled for initiation during the initial FMIS 
Implementation Period and were outstanding as of October 1, 1998.
    ACH Testing and Implementation.--The FMIS checkwriter module 
includes an option for ACH, providing the Senate a method for 
transmitting vendor payments electronically. Programming for ACH has 
been completed by KPMG and the Disbursing Office needs to complete 
acceptance testing.
    FAMIS to SOAS Interface (Completed in Implementation Period II).--
This interface is required by SOAS for reconciliation with FAMIS. The 
design overview of this interface was completed during the initial 
phase of the project. During 1999 a reconciliation file was produced 
for SOAS reconciliation.

         IMPLEMENTATION PERIOD II (OCTOBER 1998-DECEMBER 1999)

[GRAPHIC] [TIFF OMITTED] T08MA21.003

Accomplishments

    Initially, the plan for Implementation Period II was limited to 
support of reporting and rollout of ADPICS to Member and Committee 
offices. Following the initial replacement of the Senate's core 
financial systems, a pilot group of Member and Committee offices was 
selected for the ADPICS rollout. Based upon the feedback from these 
offices, it was determined that ADPICS would not be an acceptable 
solution for Member and Committee offices. After careful consideration 
of various alternatives, the Senate elected to develop and deploy Web 
FMIS which is a browser-based data entry and reporting system. As a 
result of this decision, activities that fell under the 
``Reengineering'' category were accelerated and performed during 
Implementation Period II. During this period, other projects were 
executed that fell under the reporting category. These include Office 
Ledger Reports, Report of the Secretary and Web Reports.

Completed Projects

    This section provides a description of the following projects that 
were executed and completed during the period defined as Implementation 
Period II: System Performance; Office Ledger Reports; Report of the 
Secretary; Web Reporting; Web FMIS; FAMIS to SOAS Interface; and Y2K 
FAMIS & ADPICS Functional Testing.

            System Performance

    Subsequent to the implementation of the upgraded FAMIS and ADPICS, 
system performance problems emerged. A FMIS performance task force 
consisting of members of the Senate Disbursing Office, Sergeant at 
Arms, and KPMG was quickly established. This task force met and 
coordinated activities on a daily basis until a sustained level of 
acceptable performance was established for the functional users. All 
areas of the system were reviewed and fine-tuned including the 
application, database, hardware, software, network, and workstations. 
After achieving an acceptable level of performance, the group continued 
to meet, as required, throughout the year to coordinate activities that 
affect end users' systems availability, monitor system performance, and 
take any further action as required.

            Office Ledger Reports

    A key financial report that is used by Senate offices is the Office 
Ledger Report. This report serves as the primary source of information 
to the offices for validation and verification of payment information. 
Initially, the Senate produced these reports using Crystal Reporting as 
a tool directly against copies of the FMIS DB2 tables. This proved to 
be an inefficient process and one that has led to inconsistencies and 
delays in report distribution. In particular, as additional 
transactions are used within FMIS, the reports must be validated to 
determine that the positive or negative values for these transactions 
are correctly interpreted and reflected in the report. The validation 
is a tedious process that requires considerable time on a monthly 
basis.
    Based upon the experiences of creating reports from direct copies 
of the FAMIS and ADPICS tables, the Senate elected to develop a 
reporting extract to serve as the source of the data required for the 
Ledger Reports. These extract programs contain the logic necessary to 
identify transaction types, perform the desired roll ups, and identify 
the correct value for number fields. The Crystal Reports were then 
revised to utilize these extracts.
    As of the date of this document, the revised reports and extracts 
are going through final development and testing is expected to be 
available shortly. The revised extracts should be able to serve as a 
platform for additional reports and queries.

            Report of the Secretary (October 1, 1998 through March 31, 
                    1999 & April 1, 1999 through September 30, 1999)

    The semiannual Report of the Secretary is the primary statutory 
financial reporting requirement of the Senate. The implementation of 
FAMIS and ADPICS provided the Senate with the opportunity to revise the 
processes that have been used to compile the Report of the Secretary 
and to revise the format so that the report is more useful. Each of 
these reports has required some degree of ``new'' processing. For the 
first report, new functional and technical specifications were 
required. Programs to extract the required data from FAMIS and ADPICS 
were created as well as the Crystal Reports that perform the actual 
report production. A toolbox was also created, enabling the Disbursing 
Office to perform spell check and to make content changes to 
descriptive fields, and final post-extract corrections. For the 
production of the second semiannual volume, enhancements to the 
extracts and toolbox programs were made based upon the lessons learned 
from the first volume. In addition, new logic was required to properly 
account for balances remaining from the first half-year period. Both 
reports were printed and available to the public within the statutory 
time frame requirement.

            Web Enabled Reports

    The Senate desired to provide FMIS users with a simple and user 
friendly method for researching and reporting of relevant financial 
information. After examination of several alternatives, the web/
internet method for delivery and distribution of reports was selected 
as the preferred method for providing these tools to Senate offices. 
The web provided a user-friendly environment that utilized leading edge 
technology consistent with the strategic vision of the Senate.
    During the early stages of the project, a technical architecture 
had to be selected that was consistent with the IT environment and 
security requirements of the Senate and would provide the basis for a 
robust development platform. Reporting extracts and a process to update 
the extracts were created to avoid potential performance problems that 
may have occurred if the reports were programmed to access the on-line 
databases. Report prototypes were created and interactively modified. 
During the final stages of the development, some changes were required 
to the structure of Web Reporting in order to integrate within Web FMIS 
and accommodate the additional data entry requirements.

            Web FMIS

    This project included the development, installation, and support of 
a Y2K compliant, Web-enabled front-end replacement to SOAS and SCEAS. 
Based upon the feedback of the initial ADPICS pilot group, it was 
determined that the mainframe system would not meet the needs, even on 
an interim basis, of the Senate office users. Due to the fact that both 
SOAS and SCEAS were non-year 2000 compliant, a replacement was 
required. A committee, consisting of members of the Disbursing Office, 
Sergeant at Arms, and office users was formulated in order to examine 
the alternatives and recommend a solution. The solution selected by the 
Senate was a web based front end that would incorporate the web 
reporting, budgeting, and data entry/maintenance as a front end to the 
Senate's existing ADPICS and FAMIS mainframe software.
    In order to reduce the risk of a timely delivery of a Y2K 
replacement for SOAS and SCEAS, some functionality was deferred to a 
future phase of the project. In addition, the functionality that was 
included in the first phase was split into three releases. The initial 
release contained basic functionality including the ability to enter 
vouchers, travel vouchers, basic budgeting, interfaced access to FAMIS 
system tables, and a suite of basic reports. The second release 
included the ability to enter travel advances, vouchers from advances, 
commitments, obligations and interfaced access to payment information. 
Release three included the option for local data storage, 
reconciliation, and the ability to create credit and adjustment 
documents.

           FAMIS to SOAS Interface

    This interface provides an electronic file of document information 
from the FMIS system to the office SOAS system. This file enables 
offices to reconcile their SOAS system with the data maintained by the 
Disbursing Office. This item was outstanding from Implementation Period 
I and completed during Implementation Period II.

            Y2K FAMIS & ADPICS Functional Testing

    James Martin Government Consulting was retained to conduct 
extensive testing and certification of FAMIS and ADPICS for Y2K. No 
issues were identified during the test, and as of the date of this 
document, no Y2K related problems with FAMIS, ADPICS, Web FMIS and 
associated hardware/software have been encountered.

                         ACCOUNTING DEPARTMENT

    The Accounting Department combines the functions of the Accounting 
and Audit Sections in the former Disbursing Office configuration. The 
goal in the combination of the Sections was to combine responsibilities 
that were functionally related, such as accounts payable, in order to 
maximize efficiencies in the delivery of service to the Senate. The 
Accounting Department has several functional responsibilities 
including:

  --Maintain the Senate's financial records and statements
  --Maintain general ledger accounts and other accounting records in 
        FMIS
  --Ensure adherence to appropriation limitations established by the 
        Legislative Branch Appropriations Act, and Title II of the 
        United States Code
  --Ensure adherence to all statues and regulations pertaining to 
        payments/reimbursements
  --Perform various GL account reconciliations (suspense, clearing 
        accounts)
  --Reconcile fixed assets with Sergeant at Arms fixed asset management 
        module in FMIS
  --Process accounts payable for the Senate and coordinate 
        disbursements
  --Provide accurate and timely reports to Senate distributed 
        accounting locations
  --Establish and maintain internal controls over financial processes
  --Design and manage monthly and year-end closing processes and 
        procedures
  --Prepare audited consolidated financial statements and notes in 
        compliance with the latest FASAB and OMB requirements
  --Manage the annual financial statement audit with GAO or independent 
        auditors.

General Activities

    During fiscal year 1999, the Accounting Section and the new 
Accounts Payable Department processed nearly 120,000 expense 
reimbursement vouchers for payment on 50,500 United States Treasury 
checks issued. Accounting Operations processed 850 deposits for items 
ranging from receipts received by the Senate operations, such as the 
Stationery Room, to canceled subscription refunds from Member offices. 
General ledger maintenance also prompted the entry of thousands of 
adjustment entries that include the entry of all appropriation and 
allowance funding limitation transactions, all accounting cycle closing 
entries, and all non-voucher reimbursement transactions such as payroll 
adjustments, stop payment requests, travel advance and repayments, and 
limited payability reimbursements.

Financial Reporting Requirements--External

    Monthly financial reporting requirements to the Department of the 
Treasury include a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also reported to the 
Department of the Treasury on a monthly basis is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts 
that summarizes all activity at the appropriation level of every penny 
disbursed by the Secretary of the Senate through the Financial Clerk of 
the Senate. All activity by appropriation account is reconciled with 
the Department of the Treasury on a monthly and annual basis. The 
annual reconciliation of the Treasury Combined Statement is also used 
in the reporting to the Office of Management and Budget as part of the 
submission of the annual operating budget of the Senate.

Financial Reporting Requirements--Internal

    Internally, the Accounting Department prepares and transmits ledger 
statements monthly to all Member offices and all other offices with 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regards to official expenditures in detail and summary form.

                     ACCOUNTS PAYABLE AUDIT SECTION

    The Accounts Payable Audit Section of the Accounting Department is 
responsible for auditing vouchers and answering questions regarding 
voucher preparation, answering questions concerning the permissibility 
of the expense, providing advice and recommendations on the 
discretionary use of funds by distributed accounting locations, 
identifying duplicate payments vouchered by offices, monitoring 
payments related to contracts, training new Office Managers and Chief 
Clerks about Senate financial practices, training Office Managers in 
the use of the Senate's Financial Management Information System, and 
producing the Report of the Secretary of the Senate. The Section also 
maintains the Senate's central vendor file which includes the addition 
of approximately 2,000 new vendors per year to an existing vendor file 
of over 20,000 vendors added in less than 1\1/2\ years, and the 
collection of information to provide for EFT payments to them. Monitors 
the Fund Advance Tracking System (FATS) by ensuring that advances are 
charged correctly, vouchers repaying such advances are entered, and 
balances adjusted for reuse of the advance funds. An ``aging'' process 
is also performed to ensure that advances are repaid in the time 
specified by the advance regulations.

                           BUDGET DEPARTMENT

    A key component of the continued restructuring of DOFM is the 
development of a Budget Department. The primary responsibility of the 
Budget Department will be to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The development of specialists in the budget area will 
allow current staff with dual responsibilities in Accounting to focus 
their efforts on general ledger activity. Other responsibilities of the 
Budget Department will be as follows:

  --Responsible for the formulation, presentation and execution of the 
        budget for the Senate
  --Provide a wide range of analytical, technical and advisory 
        functions related to the budget process
  --Coordinate efforts among central and distributed financial 
        organizations to produce an integrated budget plan for the 
        Senate
  --Prepare justification requests for requested appropriations
  --Provide expert advice to Senate officials on budgetary policy
  --Prepare necessary documentation and provides historical reference 

        RESOURCE FOR THE COMMITTEE ON APPROPRIATIONS.
                      FINANCIAL SYSTEMS DEPARTMENT

    The following functions are the responsibility of the Financial 
Systems Department:
  --Develop FMIS classification structure and perform table maintenance
  --Establish and maintain system security features
  --Provide FMIS support to system users Senate-wide and perform 
        software acceptance testing of new releases
  --Develop ad hoc reports upon request
  --Automate vendor and employee payments
  --Manage and maintain the Senate's vendor file
  --Perform general ledger account creation and field structure in 
        FMIS.

                     POLICY AND CONTROL DEPARTMENT

    The initial function of this department will be to work with GAO 
and an external vendor to perform an auditability assessment of the 
Senate's financial management structure. This task will identify 
information gaps in the Senate's operations that will be necessary to 
fill in order to prepare auditable financial statements. Additional 
responsibilities of the Department are as follows:

  --Develop and maintain comprehensive financial management policy and 
        procedures manual to the transaction level
  --Incorporate policy changes published in the Federal Register, OMB 
        Circulars, and other relevant legislation into CFM
  --Coordinate with the Financial Systems Department to incorporate 
        policy changes into financial systems and incorporate FMIS 
        system changes at the transaction level into the procedures 
        manual
  --Serve as liaison with federal agencies such as JFMIP, GSA, and 
        FASAB
  --Provide and coordinate internal and external FMIS training and 
        certifying officer training.

                DISBURSING OFFICE SYSTEMS ADMINISTRATION

    The Disbursing Office also performs a broad range of internal 
support of its systems and LAN configuration as well as external 
support of legacy systems. Time allocated for system revision and 
updates was high due to preparation for Y2K compliancy and replacement 
of outdated systems. Listed below is a task list by category:

Y2K Preparations:

    Upgraded FEDLINE PCs for Payroll ACH. Worked with the Senate 
service team to replace existing PCs and upgrade machines from DOS to 
Windows 95. Installed new encryption cards and modems.
    Upgraded ccMail database.
    Replaced Lotus Organizer scheduling agent with compliant unit.
    Replaced functionality for JNL server that provided a communication 
link to outside agencies. Required installation and setup of new 
software for access to GOALS and Cashlink programs.
    Installed Corel Word Perfect Suite on all Disbursing Office PCs.
General:
    Participated in Disbursing Office PC configuration review and 
assessment to determine causes for slow response time.
    Replaced Disbursing Office's primary server.
    Coordinated upgrade of network connections from a Hub to a Switch 
network.
    Installed ccMail listening gateway and established a separate and 
unique mailing address for Disbursing Office Internet mail.
    Assisted Payroll to provide an automated FTP process to transfer 
payroll information from the mainframe which is used for ACH.
    Created test region of the FATS program to enable SCC support a 
test facility to correct reported problems with FATS.
    Prepared office PCs for installation of new Web FMIS application.
    Prepared PCs in the Benefits and Payroll section to access their 
new region on the mainframe.
    Upgraded 10 network printers.
    Relocated legacy 3Com network to central network storage area.
    Finalized working template for existing office laptops.

                       OFFICE OF HUMAN RESOURCES

    The Office of Human Resources implements and coordinates human 
resources policies, procedures, and programs for the Office of the 
Secretary of the Senate including hiring; training; performance 
management; job analysis; compensation planning, design, and 
administration; records management; recruiting and staffing; employee 
handbooks and manuals; internal grievance procedures; employee 
relations and services; and organizational planning and development.
    The Office of the Secretary continued to build upon its performance 
management philosophy that no two individuals are alike. The primary 
emphasis was on superior performance and the major organizational 
values of teamwork, trust, respect, innovation, and continuous change.
    Several work processes were improved during 1999 to enhance 
employee productivity and service, including the Office's first salary 
structure with grades, a new certificate to pay tribute to employees 
who have faithfully served the Office and are retiring from the United 
States Senate, a new employment application to provide additional and 
better applicant data and thereby improve the quality of individuals 
selected to fill vacancies, and a new career opportunities application 
for current employees to apply for posted vacancies and obtain feedback 
on knowledge, skills, and abilities required to successfully compete 
for future opportunities. The Office also partnered with the Sergeant 
at Arms in implementing the newly acquired Lawson Insight Software 
program, which provides better and more accurate information for 
managing personnel resources.
    The Office hosted 14 interns during the summer of 1999, developing 
the knowledge and experience base of future leaders from throughout the 
nation.

                             SENATE LIBRARY

    The Senate Library provides legislative, legal, business, and 
general reference services to the United States Senate. The 
comprehensive legislative collection consists of congressional 
documents dating from the Continental Congress. In addition, the 
Library maintains executive and judicial branch materials and an 
extensive book collection on politics, history, and biography. These 
sources plus a wide array of online systems assist the Library staff in 
providing confidential, timely, and accurate information services.

Administration

    The third year of aggressive budget reviews delivered an additional 
$3,309.08 reduction in operating expenses. The reductions were in three 
major areas: magazine subscriptions, reference materials, and online 
services. The total reductions for the past three fiscal years total 
$18,112.43 and an estimated $12,000 in savings is expected during 
fiscal year 2000 as costs decrease for commercial online services. 
These reductions offset the ever-increasing costs for core materials.

Russell Building

    The new Russell Office Building facility for the Senate Library 
opened its doors on February 22, 1999. The planning for the new library 
began in April 1997, when Secretary Sisco requested that the Library 
develop plans for a new facility. Russell Building demolition began in 
late December 1997 and during the next 12 months former basement 
storage rooms were transformed into a state-of-the art information 
center. Two well-planned moves took place in December 1998 and February 
1999. Over 150,000 volumes and one million microforms were transferred 
from the Capitol to the Russell Building.
    The new Senate Library offers Senate staff access to an excellent 
collection of materials and services: congressional materials dating to 
the Continental Congress; a wide array of news and legal online 
systems; over 140 periodicals and newspapers; 24,000 books on the 
Senate, American history, and political biography; a Micrographics 
Center containing one million microforms; patron access terminals; and 
a reading room with study carrels. However, the most important offering 
is the staff of the Library whose experience and expertise has served 
and will continue to serve Senate information needs.

Information Services

    Information Services responded to 33,777 requests in 1999 and walk-
ins were 26.3 percent of this total. This walk-in total was a 
significant rise over previous years and signals a shift in the nature 
of the inquiries. This shift to a greater percentage of walk-in patrons 
is directly attributed to the Library's convenient proximity to Senate 
offices. Other indicators of activity include 4,401 items delivered, 
5,138 faxes sent, 813 items loaned, and 160,626 photocopies produced. 
In addition, the Micrographics Center usage increased by 158 percent.
    Senate LEGIS, the legislative information system used since the 
mid-1970s, was replaced in December 1999 by LIS, the new Legislative 
Information System. To provide Senate staff with the highest quality 
support, the Library was designated as the primary LIS ``help line.'' 
Formerly a Senate Computer Center responsibility, this function was 
relocated based on the online expertise and thorough understanding of 
the legislative process available from the Library.
    The Sergeant at Arms expanded the Senate-wide offerings of news and 
legal materials. Beginning January 1, 2000, the major commercial online 
information vendors, Westlaw and Lexis-Nexis, will provide online 
resources through the Sergeant at Arms program, without direct charge 
to the Library.

Technical Services

    The Library received 15,892 new acquisitions during 1999, which was 
a 2 percent increase over the 1998 totals. This total included 4,436 
congressional publications, 11,032 depository library items, and 424 
new books. Cataloging productivity increased an impressive 53 percent 
with 10,294 records produced. Included in this total were records for 
5,564 older congressional hearings, which were part of the ongoing 
retrospective hearings project.
    The Library participated in an exciting project designed to honor 
the Capitol spaces occupied by the Library of Congress from 1800-1814. 
The project recreated a small portion of the library's original 
collection by purchasing 70 volumes identical to those destroyed by the 
British in the disastrous 1814 Capitol fire. This unique collection 
will be displayed in the Howard H. Baker Room, S-230, which was part of 
the original Library of Congress.

Automation

    Following an intensive four-month search, the Library purchased a 
new integrated library system, replacing a system purchased in 1993. 
Provided by The Library Corporation (TLC), the new system is year 2000 
compliant, capable of processing the Library's complex 87,000 
bibliographic records, uses a Windows environment, and operates on an 
NT platform. In preparation for the TLC installation, a new NT server 
was configured and workstations were upgraded with Windows NT. On 
January 5, 2000, TLC began the installation and during the next 10 days 
provided training to Library staff. The new system is now operational 
and will greatly improve work flow, significantly increase efficiency 
and productivity, and provide Senate staff access to the online 
catalog.

           OFFICE OF THE SENATE CHIEF COUNSEL FOR EMPLOYMENT

    The Office of the Senate Chief Counsel for Employment (``SCCE'') is 
a non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (``GERA''), which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act of 1995 (``CAA''), Senate offices 
are now subject to the requirements, responsibilities and obligations 
of 11 employment laws. The SCCE is charged with the legal 
representation of Senate offices in all employment law matters at both 
the administrative and court levels.
    Also, on a day-to-day basis, the office provides legal advice to 
Senate offices about their obligations under employment laws. 
Accordingly, each of the 180 offices of the Senate is an individual 
client of the SCCE, and each office maintains an attorney-client 
relationship with the SCCE.

Background

    Each of the SCCE attorneys came to the office after having 
practiced as employment law litigators in major, national law firms 
representing Fortune 100 corporations. All services the office provides 
are the same legal services the attorneys provided to their clients 
while in private practice. The areas of responsibilities of the SCCE 
can be divided into the following categories:

  --Litigation (Defending Against Lawsuits)
  --Mediations to Resolve Lawsuits
  --Court-Ordered Alternative Dispute Resolutions
  --Preventive Legal Advice
  --Union Drives, Negotiations and Unfair Labor Practice Charges
  --OSHA/ADA Compliance
  --Layoffs and Office Closings In Compliance With the Law
  --Management Training Regarding Legal Responsibilities.
Litigation (Defending Against Lawsuits); Mediations; Alternative 

        Dispute Resolutions

    The SCCE represents each of the 180 employing offices of the Senate 
in all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states. The SCCE 
represents a defendant Senate office from the inception of a case 
through U.S. Supreme Court review. The office handles all work 
internally without the assistance of outside law firms or the 
Department of Justice.
    During 1999, the SCCE defended Senate offices against 14 lawsuits 
(which required approximately 9,420 attorney work hours \1\). Two (2) 
of these matters were tried, and the SCCE won both cases. In a third 
case, the SCCE successfully moved for dismissal of the case. In a 
fourth case, the SCCE won the case at the appellate stage. The 
remaining cases are pending.
---------------------------------------------------------------------------
    \1\ Attorney hours spent on each case include, but are not limited 
to, time for conducting the initial investigation of allegations; 
mediation with employee; negotiating settlements; reviewing employing 
office files; interviewing witnesses; investigating and responding to 
the complaint; preparing for pretrial and trial proceedings, including 
taking witness depositions, conducting extensive discovery with 
opposing counsel (propounding and responding to interrogatories, 
requests for production of documents, etc.), interviewing expert 
witnesses, preparing, researching and filing any necessary motions with 
the court, preparing witnesses for trial, preparing exhibits for trial; 
trying the case; preparing post-trial briefs; preparing appellate 
briefs; arguing before the appellate courts.
---------------------------------------------------------------------------
    The SCCE successfully represented Senate employing offices in four 
(4) unemployment compensation hearings. In no instance was the employee 
awarded compensation.
Preventive Legal Advice
    At times, a Senate office will become aware that an employee is 
contemplating suing, and the office will request the SCCE's legal 
advice and/or that the SCCE negotiate with the employee's attorney 
before the employee files a lawsuit. The successful resolution of such 
matters substantially reduces an office's liability.
    Also, the SCCE advises and meets with Members, Chiefs of Staff, 
Office Managers, Staff Directors, Chief Clerks and General Counsels at 
their request. The purpose of the advice and meetings are to prevent 
litigation and to minimize liability in the event of litigation. For 
example, on a daily basis, the SCCE advises Senate offices on matters 
such as disciplining/terminating employees in compliance with the law, 
handling and investigating sexual harassment complaints, accommodating 
the disabled, determining wage law requirements, meeting the 
requirements of the Family and Medical Leave Act, and management's 
rights and obligations under union laws and OSHA.
    Between January and December 1999, the SCCE has had more than 2,340 
conferences with Members, Chiefs of Staff, Office Managers, Staff 
Directors, Chief Clerks and General Counsels to provide legal 
advice.\2\
---------------------------------------------------------------------------
    \2\ The SCCE attempts to track each conference it has; however, due 
to the volume, some are not accounted for.
---------------------------------------------------------------------------

Union Drives, Negotiations And Unfair Labor Practice Charges

    In 1999, the SCCE handled four (4) union drives and one (1) union 
unit clarification petition.

OSHA/ADA Compliance

    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA Inspection Questionnaires; assisting offices in the 
preparation of Emergency Action Plans; and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued.

Layoffs and Office Closings In Compliance With the Law

    The SCCE provides legal advice and strategy to individual Senate 
offices regarding how to minimize legal liability in compliance with 
the law when offices reduced their forces.
    In addition, pursuant to the Worker Adjustment and Retraining 
Notification Act (``WARN''), offices that are closing must follow 
certain procedures for notifying their employees of the closing and for 
transitioning them out of the office. The SCCE tracks office closings 
and notifies those offices of their legal obligations under the WARN. 
In 1999, the SCCE advised six (6) Senate offices of their legal 
obligations under this law.

Management Training Regarding Legal Responsibilities

    In 1999, the SCCE, in conjunction with the Senate Recording Studio, 
continued to present 2-way interactive internet seminars for Members' 
offices. This process allows the SCCE to give legal seminars to 
Members' offices here in D.C. and simultaneously to broadcast them to 
state offices via the internet. The state offices access the seminars 
(by audio and video) on their PCs at no cost to the state offices. The 
state office participants are also connected by telephone cable so that 
they can fully participate in the seminars by asking questions, as 
would any member of the audience in D.C.
    The SCCE conducted 59 legal seminars during 1999. Among the topics 
covered were:

  --Preventing and Addressing Sexual Harassment in the Workplace;
  --The Congressional Accountability Act of 1995: What Managers Need to 
        Know About Their Rights and Obligations;
  --Managers' Obligations Under the Family and Medical Leave Act;
  --The Legal Pitfalls of Hiring the Right Employee: Advertising, 
        Interviewing, Drug Testing and Background Checks;
  --Disciplining, Evaluating and Terminating an Employee Without 
        Violating Employment Laws;
  --Management's Obligations Under the Americans With Disabilities Act; 
        and
  --Equal Pay for Equal Work: Management's Obligations Under the Equal 
        Pay Act.

    Finally, the SCCE continues to publish its bi-monthly newsletter 
that it distributes to all Senate offices. The newsletter is designed 
to provide Senate offices with information concerning developments in 
labor and employment laws.

Administrative/Miscellaneous Matters

    The SCCE provides legal assistance to employing offices in 
preparing employee handbooks/office policies, supervisors' manuals, 
sample job descriptions, interviewing guidelines, and job evaluation 
forms.
    The SCCE also reviews all regulations issued by the Office of 
Compliance and advises the Senate as to whether the regulations should 
be approved, modified, or not approved.

                OFFICE OF CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. Initiatives include mass 
deacidification, phased conservation for books and documents, 
collection surveys, and contingency planning for disaster response and 
recovery.

Work Prepared for Senate leadership

    For more than twenty years the office has bound a copy of 
Washington's Farewell Address for the annual reading. This year, a 
volume was bound for and read by Senator George V. Voinovich.
    At the direction of the Secretary of the Senate, and through the 
Office of Interparliamentary Services, marbled paper slipcases were 
fabricated for the book, The United States Capitol: Photographs by Fred 
J. Maroon, and were presented to 11 dignitaries during Senate Trips.
    At the direction of the Secretary of the Senate, and through the 
Office of Interparliamentary Services, leather labels were fabricated 
for Capitol Trays and were presented to 13 dignitaries during Senate 
Trips.
    At the request of the Senate Democratic Leadership 50 folders were 
embossed with the name of each Senator. Six hundred forty-four items 
were matted and framed, this included resolutions, photographs, and 
letters.
    The office fabricated 10 leather bound notebooks for the Senate 
Majority Leader and one for Senator Kerrey of Nebraska.
    In conjunction with the newly created Leader Lecture Series the 
office prepared several presentation pieces. Senate Majority Leader, 
Trent Lott, conceived of the series which hosts three outstanding 
former Senate Leaders and other distinguished Americans each year. Each 
guest speaker received a leather bound box for speeches, a leather 
bound notebook, and a matted and framed rare print. All were prepared 
by the Office of Conservation and Preservation. In addition, an average 
of 7 photographs representing each speakers careers were matted and 
framed for display at the reception following each historic speech. 
This years guest speakers included The Honorable George Mitchell, and 
The Honorable George Bush.

The Impeachment Trial of William Jefferson Clinton

    The Office of Conservation and Preservation matted and framed 
thirty items and bound seven special books for the Leadership.

Senate Library

    In 1999 conservation treatments were completed for 380 volumes of a 
7,000 volume collection. Also this year, the office prepared and sent 
366 books from the Senate Library to the Government Printing Office 
(GPO) for binding.
    In an effort to preserve valuable 19th century Senate documents, 
the Office of Conservation and Presentation, in cooperation with the 
Senate Library, rebound a complete set of the Annals of Congress, the 
Congressional Debates From 1789-1824. These volumes are very rare. 
While the Senate Library has several sets in storage, every volume is 
in need of major repair and restoration. The Office of Conservation and 
Preservation will continue in 1999 to assist the Senate Library in 
their effort to save these irreplaceable historical documents.

Office of the Senate Curator

    The Office of Conservation and Preservation assisted the Senate 
Curator's Office with two exhibits.

Miscellaneous Projects

    We continue to utilize our spray deacidification system, 
encapsulation, and dry mounting press. This year the office deacidified 
22 items, encapsulated 211 items, and dry mounted 30 items.
    The office continues conservation treatment of appropriation bills, 
1877-1943. This year the office completed 39 books. There are 
approximately 221 books remaining for treatment. These books are a part 
of the Appropriations Committee collection.

                       OFFICE OF SENATE SECURITY

    The Office of Senate Security (OSS) is responsible for the 
administration of classified information, personnel security, 
counterintelligence, and classified computer security programs in 
Senate offices and committees. OSS also serves as the Senate's liaison 
to the Executive Branch in matters relating to the security of 
classified information in the Senate.

Secure Meeting Facilities

    OSS secure conference facilities were utilized on 1,306 occasions 
during 1999. This is a 32 percent increase in the utilization of OSS 
facilities over 1998 levels. Six hundred eighty-five meetings, 
briefings, or hearings were conducted in OSS' three conference rooms. 
Additionally, OSS provided Senators and staff secure telephones, secure 
computers, secure facsimile machine, and secure areas for reading and 
production of classified material on 621 occasions in 1999.

Classified Documents

    OSS received or generated 3,890 classified documents consisting of 
105,669 pages during 1999. This is a 5 percent increase in the number 
of documents received or generated in 1998. OSS completed 7,256 
document transactions and handled over 198,816 pages of classified 
material during calendar year 1999.

Personnel Security

    OSS workload in the personnel security area increased 6 percent 
during 1999. Personnel security investigations were initiated on 147 
Senate employees. Ninety-one investigations were completed, and the 
remainder of the investigations (56) are pending completion by the 
Department of Defense or the Federal Bureau of Investigation. OSS also 
completed 140 routine security clearance terminations during 1999.

Security Awareness

    OSS conducted or hosted 63 security briefings for Senate staff. 
Topics covered included: information security, counterintelligence, 
foreign travel, security managers' responsibilities, office security 
management, and introductory security briefings.

                         SENATE STATIONERY ROOM

    The Senate Stationery Room's principal functions are: (1) to sell 
stationery items for use by Senate offices and other authorized 
legislative organizations, (2) to select a variety of stationery items 
to meet the needs of the Senate environment on a day-to-day basis and 
maintain a sufficient inventory of these items, (3) to purchase 
supplies utilizing open market procurement, competitive bid and/or GSA 
Federal Supply Schedules, (4) to maintain individual official 
stationery expense accounts for Senators, Committees, and Officers of 
the Senate, (5) to render monthly expense statements, (6) to insure 
receipt of all reimbursements for all purchases by the client base via 
direct payments or through the certification process, (7) to make 
payments to all vendors of record for supplies and services in a timely 
manner and certify receipt of all supplies and services, and (8) to 
provide the deliver of all purchased supplies to the requesting 
offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               1999            1998
                                            Statistical     Statistical
                                            Operations      Operations
------------------------------------------------------------------------
Gross Sales.............................   $3,404,673.00   $3,000,341.00
Sales Transactions......................          73,259          89,897
Purchase Orders Issues..................           6,813           6,073
Vouchers Processed......................           7,932           7,481
Metro Fare Media Sold...................          13,941           6,709
------------------------------------------------------------------------

    The reporting categories for statistical operations of the 
Stationery Room for fiscal year 1999 reflected increases in the 
following categories:

  --Vouchers processed for vendor payments were up by 451
  --Purchase Orders issued for supplies increased by 740
  --Metro Fare Media sold increased by 7,232.

    The total cost to the Senate for the Mass Transportation Subsidy 
Program media was $275,260. As reported in last year's annual Report, 
it was anticipated that participation by Senate staff in the Mass 
Transportation Subsidy Program would increase with the ceiling cap 
being increased from $21 to $40, by the Committee on Rules and 
Administration, effective October 1, 1998. Participation in this 
program more than doubled in fiscal year 1999.
    Actual sales transactions decreased by 16,538 during fiscal year 
1999. This was directly attributable to new methodology being 
implemented to accommodate flag purchase transaction requirements. This 
new methodology provided a more efficient and expeditious process for 
purchasing flags by Senate offices.
    The renovation of the Stationery Room was completed during the 2nd 
quarter of fiscal year 1999. This project was the culmination of many 
months of planning and coordination with the Office of the 
Superintendent, the Office of Customer Relations, the Committee on 
Rules and Administration and with the encouragement and support of the 
Office of the Secretary. New and additional shelving was installed, as 
well as modular furniture and cabinetry, which has provided a more 
efficient work environment for the associated applications of the 
Stationery Room. New carpeting, electrical re-configuration, painting 
and cabling were also accomplished during this project.
    During fiscal year 1999, the Stationery Room's Y2K implementation 
strategy was phased in during the first three quarters in accordance 
with the Technology Assessment Proposal. Roll-out of new hardware, 
which included workstations and printers, was accomplished for the 
Stationery Room and the Senate Gift Shop during the second quarter, 
followed by the Stationery Room's migration from its Legacy system on 
May 1, and the Gift Shop on June 15, to Microsoft Cluster Technology to 
accomplish a totally redundant system utilizing Compaq 6000 and 6500 
servers. Both servers and client workstations are operating in a 
Microsoft NT 4.0 network environment.
    Special recognition should be given to the Secretary of the 
Senate's own Computer staff for their assistance, professional 
knowledge and advice regarding the Y2K planning strategies of the 
Stationery Room. This project could not have been accomplished without 
the additional support, encouragement, knowledge and professional 
advice rendered by the Sergeant at Arms' Office of Customer Relations 
and the Office Operations Division and their Technical Review Staffs.
    The projects of fiscal year 1999 for the Stationery Room were 
implemented in a successful manner with no disruption of services to 
it's client base.

Personnel

    The Senate Stationery Room announces the retirement of Steven G. 
Bale, Keeper of the Stationery, on December 31, 1999, and the promotion 
of Michael J. McGhee to that position.

                      INTERPARLIAMENTARY SERVICES

    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for all 
interparliamentary conferences in which the Senate participates by 
statute, for interparliamentary conferences in which the Senate 
participates on an ad hoc basis, and for special delegations authorized 
by the Majority and/or Minority Leaders. The office also provides 
appropriate assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are:

  --North Atlantic Assembly (NATO Parliamentary Assembly)
  --Mexico-United States Interparliamentary Group
  --Canada-United States Interparliamentary Group
  --British-American Parliamentary Group.

    In June, the 38th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group was held in Savannah, Georgia. Arrangements 
for this successful event were handled by the IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to delegation 
trips, IPS provided assistance to 11 individual foreign trips. Several 
other trips were scheduled, but were canceled or postponed after most 
of the advance work had been completed. Also, Senators and staff 
authorized by committees for foreign travel continue to call upon this 
office for assistance with passports, visas, travel arrangements, and 
reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist staff members of Senators and committees in filling out the 
required reports.
    Known by many in the Senate as the ``protocol office'', 
Interparliamentary Services maintains regular contact with the Office 
of the Chief of Protocol, Department of State, and with foreign embassy 
officials. Official foreign visitors are frequently received in this 
office and assistance is given to individuals as well as to groups by 
the IPS staff. The staff continues to work closely with other offices 
of the Secretary of the Senate and the Sergeant at Arms in arranging 
programs for foreign visitors. In addition, IPS is frequently consulted 
by individual Senators' offices on a broad range of protocol questions. 
Occasional questions come from state officials or the general public 
regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.
    Planning is underway for the 41st Annual Meeting of the Canada-U.S. 
Interparliamentary Group to be held in the United States in 2000. 
Advance work, including site inspection, will be undertaken for the 
40th Annual Mexico-U.S. Interparliamentary Group Meeting, to be held in 
the United States in 2001. Preparations are also underway for the 
spring and fall sessions of the North Atlantic Assembly (NATO 
Parliamentary Assembly).

                            SENATE GIFT SHOP

    The Senate Gift Shop provides services to Senators, spouses, Senate 
Staff, visiting constituents and U.S. Capitol visitors. Products 
include a wide variety of souvenir items and fine gifts. Services 
provided include the distribution of educational materials and sale of 
special order products, custom framing, engraving, and shipping.
    The Y2K compliance up-grades of hardware and software in the Gift 
Shop were successfully completed. The new cash registers were installed 
in all retail and special order locations and new PCs were installed in 
the Administrative, Special Order, Warehouse, Shipping and Engraving 
locations. There have been no negative ramifications realized as a 
result of the calender year change or the computer upgrades. We do 
expect to have ongoing activities associated with programming and 
software modifications.
    The Holiday Ornament series ``The Early Years of Congress'' has 
proven to be a most successful program. The 1999 ornament depicts the 
building ``Congress Hall'' in Philadelphia, Pennsylvania, which served 
as the second meeting place of Congress. A total of more than 25,000 
ornaments have been sold since it was first offered for purchase in 
September of 1999.
    The Tiffany Millennium and Congressional Plates have been well 
received by customers. The 106th Congressional Plate was produced in a 
shell design using motifs from the panels of the Brumidi Corridors. 
Sales of this item have exceeded 300 units since introduced in July of 
1999. The Congressional Millennium Plate collection is a three year 
series that was introduced for sale this past August with the release 
of the 1999 plate. The 2000 plate followed in October, just in time for 
the holiday sales rush, and the 2001 plate of the same series will be 
made available this year. The select designs used to decorate these 
plates were taken from art work in the 1850s extensions of the Capitol 
Building. The same design was used for each plate, but the base colors 
of the plates were changed from year to year. The 1999 plate is 
burgundy, the 2000 plate is gold and the 2001 plate blue.

                        OFFICE OF PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.

Federal Election Campaign Act, as Amended

    The Act required 1999 Senate candidates to file semi-annual 
reports. Filings totaled 3,181 documents containing 84,421 pages.

Lobbying Disclosure Act of 1995

    As of September 30, 1999, 4,813 registrants represented 13,793 
clients and employed 21,279 individuals who met the statutory 
definition of ``lobbyist.'' 30,886 lobbying registrations and reports 
were received and made available to the public.

Public Financial Disclosure

    The filing date for Public Financial Disclosure Reports was May 17, 
1998. The reports were available to the public and press by Friday, 
June 11th. A total of 2,466 reports and amendments were filed 
containing 12,513 pages. There were 277 requests to review or receive 
copies of the documents.

Senate Rule 35 (Gift Rule)

    The Senate Office of Public Records has received over 1,600 reports 
during fiscal year 1999.

Registration of Mass Mailing

    Senators are required to file mass mailings on a quarterly basis. 
The number of pages were 780.

Public Inquiries

    From October, 1998, through September, 1999, the Public Records 
office staff assisted more than 3,000 individuals seeking information 
from reports filed with the office. This figure does not include 
telephone assistance. A total of 114,835 photocopies and 175 rolls of 
microfilm were sold in the period.

Automation Activities

    During fiscal year 1999, the Public Records office accomplished the 
following goals: (1) all computerized systems were Y2K compliant; (2) a 
new campaign finance system based upon optical imaging technology 
replaced a mainframe system in existence since 1983; (3) initiation of 
a web page on Webster for the public records office offering the 
Compilation of Reports and Statements to be Filed by Senators, Officers 
and Employees of the United States Senate and Other Individuals 
including the ability to download all the forms needed to be filed; and 
(4) an addition on the Senate Web server that allows registrants and 
researchers to obtain the Senate identification number for Lobbying 
Disclosure Act registrants and clients. (This serves another purpose 
for the public, which is to see the list of registrants and clients 
under the Act.) In addition to accomplishment of these goals, the 
office submitted a TAP to the Rules Committee and received approval to 
allow transmission of electronic images of campaign finance reports to 
the FEC, replacing microfilm and photocopies. At the same time, the 
office moved forward in fulfilling its statutory requirement under the 
Lobbying Disclosure Act of 1995 for electronic filing and public access 
by seeking outside programming assistance for the web part of the 
system.

                           HISTORICAL OFFICE

    Serving as the institutional memory of the Senate, the Historical 
Office collects and provides information on important events, 
precedents, dates, statistics, and historical comparisons of current 
and past Senate activities for use by members and staff, the media, 
scholars, and the general public. The Office advises senators, 
officers, and committees on cost-effective disposition of their non-
current office files and assists researchers in identifying Senate-
related source materials. The Office keeps extensive biographical, 
bibliographical, photographic, and archival information on the more 
than 1,700 former senators. It edits for publication historically 
significant transcripts and minutes of selected Senate committees and 
party organizations, and conducts oral history interviews with retired 
senior Senate staff.

Editorial Projects

    Minutes of the Republican and Democratic Party Conferences, 1903-
1964.--In 1992 the Senate leaders agreed to a recommendation of the 
Advisory Committee on the Records of Congress that the Historical 
Office preserve, edit, and publish the official minutes of each party 
conference, dating from the start of the twentieth century through 
1964. The Office completed this project in 1999 with publication of 
Minutes of the U.S. Senate Democratic Conference, 1903-1964 (694 pages) 
and Minutes of the U.S. Senate Republican Conference, 1911-1964 (1,029 
pages).
    Biographical Directory of the United States Congress.--Since the 
most recent printed edition of the Biographical Directory of the United 
States Congress appeared in 1989, the Historical Office has added 
dozens of new biographical sketches and revised more than half of the 
database's 1,852 Senate entries. A current version of the database is 
now available online at http://bioguide.congress.gov. Work is also 
proceeding on the next print edition, planned for publication in 2001.
    Office Building Brochures.--The Office created brochures for public 
distribution explaining the history and functions of each of the 
Senate's three office buildings.
    Leader's Lecture Series.--The Office prepared a fifty-page 
illustrated booklet containing the 1998 Leader's Lectures of Senators 
Mike Mansfield, Howard Baker, and Robert C. Byrd. It also provided 
research and administrative support for the 1999 lectures of former 
President George Bush and former Majority Leader George Mitchell.
    Administrative History of the Senate.--During 1999, the Office 
completed much of the basic research and preliminary organization for 
this historical account of the Senate's administrative development 
since 1789.
    Documentary History of Senate Impeachment Trials.--This publication 
will present a documentary case-study look at each of the seventeen 
impeachment trials, focusing on the development of Senate impeachment 
procedures. Working drafts have been prepared for each case, with 
selection of key documents still to be done. Completion is expected in 
2001.

Oral History Program

    The Historical Office opened for scholarly research the transcripts 
of oral history interviews with Gregory S. Casey, former Sergeant at 
Arms, and Christine S. McCreary, former staff aide to Senators Stuart 
Symington and John Glenn. Historians conducted interviews with key 
staff involved in the planning and management of the Clinton 
impeachment trial.

Member Services

    ``Senate Historical Minutes''.--At the request of the Senate 
Democratic Leader, the historian prepared and delivered a ``Senate 
Historical Minute'' at each of thirty Senate Democratic Conference 
weekly meetings during the first session of the 106th Congress. These 
300-word Minutes are designed to enlighten members about significant 
events and personalities associated with the Senate's institutional 
development. The more than one hundred prepared since 1997 are 
available as a feature on the Senate home page.
    Records Management and Disposition Assistance.--The Historical 
Office assisted various committees and members' offices with planning 
for the preservation of their permanently valuable records. Briefings 
included guidance on archiving information from computer systems, 
assistance with transferring committee records to the National Archives 
and members' records to a home state repository, and identification of 
which information is appropriate for historical preservation.
    Impeachment trial research.--The Office provided historical 
information related to previous impeachment trials to the Senate 
leadership, officers, and individual members, as well as to the press 
and general public.

Photographic Collections

    The Office continued to expand its 35,000-item photograph 
collection by creating a photographic record of historically 
significant Senate events and by actively seeking photographs of former 
Senators. The photo historian began cataloging that collection by 
entering information into an image database. That staff member 
converted 9,000 photographs into digitized images, a process that will 
help preserve frequently used photographs by storing them in an easily 
accessible format. Photographs can now be viewed in electronic format 
and transmitted via e-mail.

                      OFFICE OF THE SENATE CURATOR

    The Office of Senate Curator, under the direction of the Senate 
Commission on Art, administers the museum programs of the Senate for 
the Capitol and Senate office buildings. The Curator and staff suggest 
acquisitions, provide appropriate exhibits, engage in research, and 
write and edit publications. In addition, the office studies, 
identifies, arranges, protects, preserves, and records the historical 
collections of the Senate, including paintings, sculpture, and 
furnishings, and exercises supervisory responsibility for those 
chambers in the Capitol and the jurisdiction of the Senate Commission 
on Art. All records of research and documentation related to these 
areas of responsibility are available for use by Member's offices, the 
media, scholars and the public. With the establishment of the United 
States Capitol Preservation Commission, the Senate Commission on Art 
has become the designated recipient of objects with Senate association 
received by the Preservation Commission, and is tasked to ``provide to 
the Capitol Preservation Commission such staff support and assistance 
as the Preservation Commission may request.''

Collections: Commissions, Acquisitions, and Management

    In October the Senate Commission on Art approved the commissioning 
of several significant portraits for the Senate collection. The Senate 
Leadership Portrait Collection was established to honor duly elected 
Presidents pro tempore and Majority and Minority Leaders of the U.S. 
Senate. The Commission further agreed to proceed with commissioning two 
portraits of former Republican and Democratic Leaders of the Senate, 
based on the recommendations of the Majority and Minority Leaders. A 
portrait of Senator James Eastland will also be added as part of this 
series. Eastland was chairman of the Judiciary Committee for over 22 
years--the longest continuous service of any Senate committee chair--
and was President pro tempore from 1972 to 1978. Additionally, 
portraits of Senator Margaret Chase Smith and Blanche Kelso Bruce were 
authorized as part of an effort to enhance the Senate collection with 
portraits of significant women and minorities who served the Senate 
with distinction. Smith was the first woman to win election to both 
houses of Congress, and the first woman elected to a leadership post in 
the Senate as chair of the Republican Conference; Bruce was the first 
African American to serve a full term in the United States Senate, as 
well as the first African American to preside over the Senate. The 
Office of Senate Curator has developed a list of prospective artists, 
and an advisory panel of professionals in the field is scheduled to 
review the candidates and provide recommendations. The Senate 
Commission on Art will then select the final artists to execute the 
portraits.
    At the request of the Senate Commission on Art, the Senate passed a 
resolution directing the Commission to recommend past Senators whose 
paintings will be placed in two of the remaining unfilled spaces in the 
Senate Reception Room. The legislation notes that outstanding Senators 
will be selected who are deceased and have not served in the Senate for 
the last 21 years. Following Senate approval of the final two 
candidates, the Commission will begin the process of selecting 
appropriate artists.
    In addition to these commissioned portraits, a number of 
significant works were acquired for the Senate collection in 1999. 
These included 17 prints for the Senate's collection of historical 
engravings and political cartoons. Among the most important works 
purchased were an 1844 lithograph of Henry Clay after a John Nagle 
painting, and a rare 1848 print of the Capitol. The Senate study 
collection of 19th and early 20th century images of the Senate and 
Capitol comprises over 1,246 prints; it is one of the most extensive 
collections on the subject in the country. In addition, the Senate 
acquired an 1890 gouache (watercolor) of the Senate Chamber by T. Dart 
Walker, which was later used as a cover illustration for the December 
23, 1899 issue of Frank Leslie's Illustrated Weekly; an original 
Supreme Court Justice desk built by James Green in 1836; an 1844 
Capitol autograph album with 270 signatures, including members of 
Congress and other political notables; 23 admittance tickets printed 
for the 1868 impeachment trial of Andrew Johnson; and a 19th century 
breakfront for the Senate Chamber lobby. A significant number of 
objects were preserved and catalogued from the impeachment trial of 
William Jefferson Clinton. Recognizing that the Senate had not saved 
any objects from the Johnson impeachment trial, the Office of the 
Curator initiated a comprehensive effort to ensure that appropriate 
objects were collected and preserved from the Clinton trial. The office 
also assisted in the creation of various mementos for impeachment 
participants.
    Nine new reproduction prints were acquired for the collection. The 
Curator staff is responsible for loaning and monitoring 450 prints in 
the reproduction collection. Currently 356 reproduction prints are on 
exhibit in various offices and rooms in the Senate wing of the Capitol 
and Senate office buildings. The Office of the Curator received and 
catalogued five significant gifts accepted by senators from various 
foreign governments. The foreign gift disposition policy initiated by 
the Curator in 1998, as approved by the Committee on Rules and 
Administration and the Select Committee on Ethics, was continued in 
1999. Thirteen gifts were permanently transferred to various 
repositories; the Curator staff organized and assisted in the packing 
and shipping of these items. One additional foreign gift was purchased 
by a senator through the General Services Administration procedure.
    In the area of automation, electronic information for the foreign 
gift and reproduction art databases was successfully migrated from 
SNAP! to FileMaker Pro as part of a larger project to convert all 
collection databases to this software program. In FileMaker Pro, a 
catalog worksheet and object summary report was created for the foreign 
gift database and a columnar location report was created for the 
reproduction art database. Efforts were begun to integrate this 
electronic information with images of collection objects. Color 
transparencies of objects were professionally scanned at a high 
resolution for preservation and study purposes, and at a low resolution 
for inclusion in the collections management database and web site.
    For the second consecutive year an extensive annual inventory of 
the permanent, foreign gift, and reproduction art collections were 
completed using a computer generated master list of all collection 
objects. Staff members were able to expand on information gathered and 
entered into the database in 1998. Detailed information such as past 
locations, current locations, current condition, and current contact 
information was accurately recorded, and the inventory results 
summarized in a formal report.
    The office worked with the Capitol Maintenance Division and the 
Engineer's Office of the Architect of the Capitol to draft renovation 
proposals to improve two archival storage areas. When completed, both 
rooms will be self-contained units that meet museum standards, thus 
assuring that the Senate collections stored in these rooms are 
preserved and protected from harmful agents of deterioration.
    The office also worked with legal counsel for the Secretary to 
resolve major issues regarding insurance of objects in the collection, 
specifically with regards to incoming and outgoing loans, shipping 
arrangements, and potential damage to objects during a major disaster.
    Work continued on the comprehensive disaster preparedness, 
response, and recovery plan for the Senate's historic collections. The 
Capitol Hill Disaster Assistance Group (CHDAG) continued drafting 
sections of a mutual aid agreement, including a new memorandum of 
understanding which recognizes a critical need for a disaster recovery 
space. A table top exercise was held with CHDAG members and various 
Capitol offices to simulate a disaster occurring at the Capitol and to 
discuss joint initiatives for responding to and recovering from the 
disaster. The office also continued with preparations for the creation 
of a Senate art emergency plan. This included accessing the 
computerized architectural maps of the Architect of the Capitol over 
the network in order to create art location maps; duplicating all color 
transparencies of collection objects for off-site cold storage at 
Archives II of the National Archives; and creating three React Paks, 
containers of materials needed to respond to an emergency within the 
first 20 minutes.

Conservation and Restoration

    The conservation of several significant works of art was completed. 
These included the sculpture of Justice and History in the Capitol 
terminus of the Senate subway, the recently acquired gouache by Walker 
of the Senate Chamber, several of the Lily Spandorf drawings, and 
historic furniture from the Senate Library third floor Capitol project. 
Three historic overmantel frames for mirrors were also regilded. In 
addition, the staff worked with the Senate Superintendent's Office to 
install three plaster relief panels in the subway area. These panels 
were the models used by Lee Lawrie to create the marble reliefs located 
in the Senate Chamber; the Curator's staff discovered one of these 
reliefs in storage in the Capitol Mason Shop. The reliefs are scheduled 
for conservation in February 2000.
    The office continued with the Senate Chamber desk restoration 
program begun in 1997, and ten additional desks received conservation 
treatment. To date, 20 desks, including the Jefferson Davis and Daniel 
Webster desks, have been professionally restored. The treatment process 
addresses the wear and degradation of these historic desks due to 
continued heavy use. The project also involves extensive documentation 
of the condition, construction details, wood type, measurements, and 
restoration of each desk. Following conservation, a final report 
detailing treatment was submitted to those Senators whose desks were 
conserved. In order to preserve the desks, various initiatives were 
undertaken, including installation of heavy-gauge mylar sheeting in the 
desk drawers to protect the historic names carved inside; fabrication 
and installation of rubber bumpers at the ends of each chair arm to 
eliminate damage to the desk fronts; and application of metal toe caps 
over the existing desk feet to preserve the original carved wood from 
continued abrasion.
    Following an extensive furniture survey conducted in 1997 by 
conservator Robert Mussey Associates, a comprehensive restoration 
program has been implemented for the historic furnishings in the Old 
Supreme Court Chamber. While this chamber was restored in 1975, 
conservation of the historic furnishings was inadequate at that time, 
and in some cases has been found to have been incorrect. Among the 
items restored were ten Old Supreme Court Justices desks. The 
conservation treatment for these desks included uncovering and 
restoring the original finish layers and replacing the writing tops 
with appropriate green wool broadcloth. In addition, the historic 
Willard Clock was restored; a significant amount of bronze powder 
overpaint was removed from the wooden clock case, revealing an original 
layer of gold leaf gilding. Further research is currently being 
conducted on the various historic furnishings in the room to ensure a 
more accurate and authentic recreation of the chamber.

Historic Chambers

    The Curator staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. Thirty-three requests were approved for use of the 
Old Senate Chamber, and thirty were approved for the Old Supreme Court 
Chamber. Several significant events were held in the Old Senate, 
including a closed meeting of the Senate to discuss the Clinton 
impeachment trial, the re-enactment ceremony for members of the 106th 
Congress, and a similar re-enactment for Senator Lincoln Chafee; and 
two evening lectures as part of the Leader's Lecture Series, which 
presents outstanding former Senate leaders sharing their insights about 
the Senate as an institution. Along with general care and maintenance 
of the rooms, new carpeting was installed in the public area of the Old 
Senate Chamber and a remote-controlled lighting system was installed in 
the Old Court.

Loans To and From the Collection

    Of major significance was the return of the historic Senate bill 
hopper to its original location in the Old Senate Chamber. The bill 
hopper was used in the Senate during the early 19th century to store 
and track bills; it is believed that as a bill advanced through the 
legislative process it moved up the shelves of the hopper. A long-term 
loan of the bill hopper has been arranged with the Smithsonian 
Institution. A total of 72 loans of historic objects and paintings are 
currently maintained by the office, an increase of 38 percent from last 
year. The Curator staff returned four expired loans to various museums 
and institutions, while eight new objects were borrowed in 1999 for 
display in the Capitol Building. Two political cartoons in the Senate 
collection were loaned to the Brandywine River Museum in Pennsylvania 
for their exhibition titled The Political Pen of Thomas Nast.

Exhibitions and Publications

    The office continued its ambitious publications program, producing 
five new brochures and reprinting several popular ones. The new design 
format established last year for these publications continues to be 
highly successful; the consistent look for Senate educational 
publications ensures that they are readily identified by visitors, and 
helps lay the foundation for the Senate's public education effort as 
plans proceed for the Capitol Visitor Center. New publications in 1999 
included: The United States Senate: 106th Congress; The Vice 
President's Room; A Pictorial Guide to Senate Floor Staff; The Old 
Senate Chamber: 1810-1859; and The Old Supreme Court Chamber: 1810-
1860. The Foreign Relations Committee Room and The Lyndon Baines 
Johnson Room are currently in production and scheduled for release in 
February 2000.
    The long awaited publication United States Senate Fine Art 
Collection has progressed considerably and is in its final stages. 
Along with the writing and editing of this catalogue, related projects 
included completing the professional photographing of both the 
collection and a number of room views, and developing a comprehensive 
bibliography. It is anticipated that the volume will be available in 
the fall of 2000.
    In July a new exhibition titled Advise & Consent: Drawings by Lily 
Spandorf opened in the first floor connecting corridor of the Senate 
wing. The exhibit showcases more than 25 drawings by artist Lily 
Spandorf, made during the Washington filming of the 1962 movie ``Advise 
& Consent''. These original illustrations depict the Senate, the 
Capitol, and other Washington landmarks during the filming of this 
classic political thriller. The exhibit draws from 80 pen-and-ink 
sketches and two watercolors the Senate recently acquired from the 
artist. An interactive computer exhibit comparing Ms. Spandorf's 
drawings with the film is scheduled for installation in early 2000.

Policies and Procedures

    With assistance from legal counsel for the Secretary, the 
photographic reproduction request policy and procedures were revised 
substantially. During 1999, over 50 requests to reproduce photographic 
images in the Senate collection were approved and processed. 
Approximately 11 requests were denied because they did not fit within 
the scope of the photographic reproduction policy. In addition, the 
office established new guidelines and procedures for filming, 
videotaping, and photographing in the Old Senate and Old Supreme Court 
Chambers. Those requesting permission to record the chambers for 
educational or newsworthy purposes are now required to sign a contract 
stipulating their adherence to the new guidelines; the procedures will 
significantly improve the security and maintenance of these rooms. 
Guidelines for visiting researches were also established in an effort 
to more efficiently serve the needs of scholars and students utilizing 
the office's reference materials.

Collaborations, Educational Programs, And Events

    As part of the seminar series conducted under the auspices of the 
Secretary of the Senate and the Sergeant at Arms, the staff of the 
Curator's Office continued to deliver periodic addresses on various 
aspects of the Senate's art and history. Staff conducted or assisted 
with several sessions, including ``Behind the Scenes at the Capitol,'' 
a tour of some of the lesser known rooms and spaces in the building, 
and ``Congress & the Capitol: Tour Guide Series.''
    The curatorial staff worked closely with the Senate Gift Shop in 
developing a number of mementos based on the art and architecture of 
the Capitol. Most notably, the office assisted in the design of the 
1999 Congressional Holiday Ornament. Romance cards which provide 
important historical and educational information were produced for this 
project, as well as others.
    The official Senate chinaware was inventoried and used at over 20 
receptions for distinguished guests, both foreign and national.
Automation
    In addition to consolidating and refining its presence on the 
newly-launched Senate web site, the Office of Senate Curator worked 
with the Government Printing Office to design an interactive web-based 
exhibit. Using already existing elements of the Senate Art in Stamps 
web site (previously posted as static pages in 1998), the Typography 
and Design section of GPO created a colorful, active exhibit that 
better utilizes the resources of the internet. Several similar efforts 
are planned for 2000.

Objectives for 2000

    Conservation concerns continue to be a priority. Restoration 
projects in 2000 will include the Senate Chamber desks (with an 
additional 15 desks to be restored), various original lawyer's tables 
and roll top desks from the Old Supreme Court Chamber, the plaster 
sculpture of Justice, several historic mirrors, two paintings with 
frames, the three Lee Lawrie plaster reliefs, and the Senate snuff 
boxes. Paint analysis of various locations in the Capitol will also 
begin in an effort to more accurately represent the original historic 
colors of the building, along with continued conservation of the 
Brumidi Corridor frescos.
    A new exhibition highlighting 200 years of presidential 
inaugurations at the Capitol will be installed in the first floor 
connecting corridor of the Senate wing in November. Additionally, the 
new display area in the vacant stairwells of the Brumidi Corridors will 
finally be completed.
    Work will continue on the comprehensive disaster preparedness, 
response, and recovery plan for the Senate's historic collections.
    Additional signage will be developed for various locations in the 
Senate. These signs utilize the design elements of the Secretary's 
educational publications and provide visitors with a brief history of 
various rooms and works of art. Signs planned for 2000 include the Old 
Supreme Court Chamber, the Senate Appropriations Committee Room, the 
Senate Chamber Gallery, Justice and History, and the Lee Lawrie reliefs 
in the Senate subway area.
    The Senate Art web site is also slated for several major 
improvements in 2000. New exhibits highlighting various conservation 
programs, specifically the Senate Chamber desks and Brumidi Corridors. 
Visitors will learn the history of these historic desks and corridors, 
the proposed conservation treatment, and the science of conservation in 
general, and will be updated on the progress of current efforts.
    The Curator staff will assist the Senate Commission on Art in 
developing a comprehensive preservation policy for the Senate. Although 
the Senate's historic architecture and its art is universally 
recognized as uniquely significant, no preservation plan has ever been 
designed to protect its integrity or to prevent its gradual--or 
inadvertent--degradation. Increasingly, heavy use of the Senate wing of 
the Capitol presents special challenges in adapting the aged building 
to new needs and in restoring and retaining its historic character and 
authenticity. The principles defined in the preservation policy will 
serve as a general guide for the restoration and preservation of the 
Senate wing, and will promote preservation-sensitive planning.

                           SENATE PAGE SCHOOL

    The United States Senate Page School provides a smooth transition 
from and to the students' home schools, providing those students with 
as sound a program, both academically and experientially, as possible 
during their stay in the nation's capital, within the limits of the 
constraints imposed by the work situation.

Summary of Accomplishments

    School is conducted between the hours of 6:15 A.M.-9:45 A.M. unless 
the Senate convenes early. When this occurs, the school day is 
abbreviated. School was in session on five Saturdays which were used to 
give the PSAT and take educational field trips to extend the learning 
experience.
    Purchases for use in the school included an HP Scanjet Scanner, a 
tripod screen, and TI 89 calculators for math classes. Math and U.S. 
History software was purchased. The text, Intermediate Algebra--A 
Graphing Approach was purchased for use in the algebra II class. Grapes 
of Wrath, Catcher & the Rye, and Vocabulary Builders were purchased for 
use in the English classes.
    PSAT review was presented to all students this fall by staff and 
the PSAT was administered on the national testing date. Instruction in 
five foreign languages was provided by tutors. Staff attended a number 
of development activities including computer classes, Advanced 
Placement training, and subject matter specific seminars.
    Bulletin boards and fireproof file cabinets were installed in the 
library. The computers formerly located in the math classroom have been 
relocated to the library to allow more access by pages. Classes which 
need to use the computers now meet in the library for those 
assignments.

Summary of Plans

    Closing ceremony will be conducted on January 21, 2000. Orientation 
and course scheduling for the second semester pages will be conducted 
on Monday, January 24, 2000.
    Needs of the incoming students will be immediately assessed and a 
schedule will be devised to meet their needs. Tutors for foreign 
languages will be obtained and field trips will be planned as time 
allows.
    The recommendation of the Middle States Association of Colleges and 
Schools to strengthen the program by training all teachers in Advanced 
Placement curriculum in their disciplines should be completed within 
the next year for new staff.
    Staff development opportunities for 2000 include the option of 
additional computer training for all staff, Advanced Placement 
workshops for two staff members, and subject matter conferences 
conducted by the national organizations supporting the various academic 
disciplines will be investigated as well. A review will be conducted in 
all subjects to determine which, if any, textbooks need to be replaced. 
Software will be reviewed and new requests will be investigated.

                          INFORMATION SYSTEMS

   The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the SAA, the 
Government Printing Office (GPO), and outside vendors on technical 
issues and joint projects. The department provides computer related 
support for the all LAN-based servers in the Office of the Secretary of 
the Senate.
    Additionally, staff provide direct application support for all 
software installed workstations and interact with next generation 
hardware and software implementations.

Mission Evaluation

    The primary mission of the Information Systems Department is to 
continue to provide a high level of customer satisfaction and computer 
support for all departments with the Secretary of the Senate. Emphasis 
is placed on the creation and transfer of legislation to outside 
departments and agencies.

Staffing Changes

    There were no direct or indirect additions to the staffing levels 
in fiscal year 1999. Although staffing levels remained unchanged, 
improved techniques were developed to extent the levels of technical 
help to Secretary staff. These measures include the ability to diagnose 
and remotely repair LAN workstations, on-line web-base application 
training and the continuing effort to evaluate new technologies in the 
workplace.
    Several Departments, namely Disbursing, Office of Public Records, 
Chief Counsel for Employment, Page School, Senate Library, Senate 
Security and Stationery/Gift Shop have dedicated systems administrators 
and NT servers installed. In most cases the separate systems hold 
unique applications, and isolated LANs were set up for security 
reasons. Information Systems continues to provide hardware and software 
support for these department as required and assist in project 
upgrades.

Improvements to the Secretary's LANs

    The Senate had chosen Windows NT as the standard network operating 
system in 1997. The continuing support strategy is to enhance existing 
hardware and software support within the Information Systems 
Department, and augment support from the Sergeant at Arms whenever 
required. The below chart notes the installation of seven different 
servers. The Secretary's Network encompasses approximately 400 users in 
the Capitol, the Senate Hart and Dirksen Buildings and the Page School. 
The LAN operating system is 97 percent Microsoft based and 3 percent 
Novell based server software.

----------------------------------------------------------------------------------------------------------------
                                                                                       NT/     Novell
                          Department                             NT/PDC    NT/BDC    Single      4.x     Totals
----------------------------------------------------------------------------------------------------------------
Information Systems...........................................         1         1         3         1         6
Disbursing....................................................         1         1         1  ........         3
Library.......................................................         1  ........         1  ........         2
Printing and Document Services................................  ........  ........         1  ........         1
Official Reporters............................................  ........  ........  ........         1         1
Chief Counsel.................................................         1         1  ........  ........         2
Page School...................................................         1  ........  ........  ........         1
Stationery....................................................         1         1  ........  ........         2
Senate Security...............................................         1  ........  ........  ........         1
                                                               -------------------------------------------------
      Totals..................................................         7         4         6         2        19
----------------------------------------------------------------------------------------------------------------
NT/PDC--Primary Domain Controllers; Dark Cells--Systems Changes in 1999; NT/BDC--Backup Domain Controllers.

    The above chart indicates several additional servers installed this 
past year, namely
  --Installed and added fault tolerant domain server in Disbursing
  --Installed and added Oracle/Web server in Senate Library
  --Dedicated CC:MAIL Server for Secretary office
  --Retired Stationery/Gift Shop Novell Server
  --Retired Senate Library Novell Server.
    These installations were vital to the completion of the Y2K 
compliance project for the Secretary's office. The Disbursing office 
server required a higher degree of built-in fault tolerance to achieve 
zero-down time for all Disbursing transactions. The Senate Library 
project Oracle server finalized a year long replacement search for the 
older Marc (machine readable cataloging) databases.
    The non-compliant Stationery/Gift Shop mainframe was replaced with 
a clustered-array, fault tolerant system to accommodate all business 
functions.

Legislative Information System/Document Management System (LIS/DMS)

    Support staff of the Secretary and Sergeant at Arms continue to 
work together to support the current LIS/DMS system. Beginning in June 
1999, eight major releases of KPMG authored LIS client software were 
introduced and tested on all legislative clerk workstations. 
Installation and testing continued until the final software release in 
January 2000. During this testing period, the existing hardware 
workstations required replacement. Although all hardware had been 
deemed compliant, the new LIS client software required additional 
Windows resources to coexist with previous installed applications. All 
legislative clerk hardware workstations were replaced with high 
performance Compaq Pentium III units and tested for LIS functionality 
in 1999. In conjunction with SAA Networking operations, an extensive 
analysis of LIS network performance was completed in November. LIS 
report generation was monitored and no appreciable network congestion 
was noted. To improve overall network performance, older Cabletron HUBs 
were replaced with more efficient Cisco intelligent switches in all 
departments in the Capitol.

Captioning Services (ST-54)

    The Official Reporters and Captioning department share a common 
Novell server. They use specialized software called Computer Aided 
Transcription (CAT) for translating their stenography code into 
English. In 1998, all hardware and software was tested for Y2K 
compliancy. Ongoing evaluation of next generation software is 
continuing as a replacement for the older Xscribe software application. 
In 2000, applications will be consolidated to achieve improved 
reliability, the older Novell server retired and replaced, and 
workstations replaced to accommodate new applications.
    Working with Senate Security on disaster preparedness plans, the 
Xscribe software for Captioning and Reporters was installed and tested 
on Compaq laptops. In emergencies, should the Senate convene in some 
location other than the Capitol, Reporters could use laptops to process 
legislation. The final image copy of this laptop software was recorded 
on CD-ROM, and transported to the secure locker in the Disbursing 
Office vault.

Official Reporters of Debates (ST-41/44)

    The Reporters and Captioning personnel utilize the same caption 
software, with the exception that Captioning Service sends encoded 
output to the Senate Recording Studio, and Reporters send Ascii files 
to GPO. Detailees add at the final stage, added code for MicroComp 
formats prior to transferring the files to GPO. In Q1/Q2 of 1999, our 
staff upgraded the Reporters software to allow operation of the Xscribe 
application in a Windows 95 environment.
    This operation has been tested previously in Caption Services. 
Meanwhile ongoing evaluation of replacement software continues with the 
Case-catalyst software. Hardware upgrades are planned in Q2/Q3 of 
fiscal year 2000 to replace and retire the Novell server and 
workstations in both Reporters and Captioning departments, condense 
email operations by combining the Reporters and Captioning department 
with the Secretary's central email post office.

The Senate Gift Shop LAN (in two separate locations)

    At the request of GAO, for security reasons, the Gift Shop LAN and 
the Stationery LAN must be isolated from each other and neither 
connected to the Secretary's LAN. The Gift Shop LAN houses the 
inventory and transaction records for the Gift Shop. In August of 1998, 
an NT Server was installed by Info systems staff as a Primary Domain 
controller. Working with Telecom, SAA, and Stationery staff and 
consultants, the necessary fault-tolerant components were installed, 
and networking requirements identified to replace the current MAI 
mainframe. In December 1998, Info systems staff developed a standard 
software template, and procedure to install new NT clients. The 
existing MAI mainframe and all existing PC's were replaced in Q1/99 
with Y2K compliant hardware and software compliance testing completed 
in June 1999.

The Page School LAN

    The Page School server version 3.51 was upgraded to a Y2K compliant 
version NT Operating System Version 4.0 in August 1999. CC:MAIL server 
software and clients software upgrades were also completed at this 
time. Network security and scanning capabilities were added in 
September.

The Office of Senate Security LAN

    The Office of Senate Security inventories and tracks all classified 
information that comes into the Senate. In the Fall of 1996 their 
system was completely upgraded from a Novell system to a new Windows NT 
LAN with top-of-the-line equipment and a new Document Management System 
was purchased. For security reasons, the computer systems in Senate 
Security cannot be connected to any other system in the Senate so two 
PCs connected to the Secretary's LAN (and not to their LAN) have been 
installed so that staff can have access to cc:mail and the Internet. 
cc:mail Upgrades were performed to bring the client version up to at 
least version 6.x. In 1999, NT server software upgrades were installed 
to achieve Y2K compliance.

The Senate Disbursing Office LAN

    By the end of September 1998, all new Windows 95 clients had been 
installed in Disbursing, but no additional changes had occurred with 
respect to the NT Server operation. In November 1998, an upgraded NT 
server hardware configuration was identified and ordered from SAA. This 
replacement NT server was installed in 1999 with a level of hardware 
fault tolerance which implements a disk drive storage array and 
redundant power supplies to achieve zero levels of server downtime. In 
October 1999, the Disbursing office migrated the payroll application 
and was certified Y2K compliant.

The Office of Public Records (OPR)

    OPR uses FileNet, a UNIX-based document management and imaging 
system, for maintaining public records such as lobbying forms; campaign 
finance reports; and financial disclosure reports. PC's are available 
to the public for searching, viewing, and printing these documents. 
These six patron systems were replaced in Q2/99. The FileNet workflow 
system includes scanning the original document into the database, 
inputting some data regarding the document, and then microfilming it 
for archival purposes.
    In Q2/99 the server software was upgraded to NT 4.0, allowing the 
FileNet application software to be ported to the next higher Y2K 
compliant version. In June 1999, all hardware and software had been 
certified Y2K compliant. A working group has been established to tackle 
the current projects with the Federal Election Commission and the Lobby 
Disclosure Act.

Bill Clerk (S-123)

    All hardware for the Bill Clerks was replaced in 1999. Older LEGIS 
applications were retired, and LIS software tested and certified 
compliant in November 1999. Information systems staff continue to 
monitor and support the ATS amendment tracking process in this office 
to insure proper operation.

Enrolling Clerk (S-139)

    In May of 1998, the Government Printing Office, in conjunction with 
the Senate Office of Legislative Counsel, moved Senate legislative 
documents from a DEC-VAX mainframe located at GPO, to a standalone 
secure HTTP Web server located at SOLC. This Web server was only 
accessible from a single workstation in the Enrolling clerks office. 
Working with SAA Networking operation personnel, in August 1999 
internet accounts were established and access to SOLC from every 
desktop workstation was implemented. In December 1999, all workstations 
were upgraded and LIS software tested with existing applications.

Journal Clerk (S-135)

    With the disconnection of the DEC mainframe noted above, the 
Journal Clerk could no longer retrieve the previous days Congressional 
Record from GPO. In December 1998, beta testing continued for replacing 
the `` two PC's'' for every clerk in the Journal Clerk's office with 
one single Windows 95 client that would execute WordPerfect and Ventura 
applications. This information produces a camera-ready Journal output 
to be sent to GPO for publication. This process was completed in March 
1999, and all clerk system software migrated to Microsoft Windows 95.
    Networking applications to the previous Novell server were no 
longer required, and a new Ventura8 application was utilized to print 
the Senate Journal in December 1999.

Morning Business/Daily Digest/Court Reporters

    All hardware workstations were replaced in the Daily Digest in 
1999. As part of the overall LIS hardware platform upgrade, all 
existing WordPerfect macros were tested and verified for successful 
production of the Congressional Record.

Senate Library

    The primary support goal for the Senate Library was to upgrade and 
replace all existing hardware and software prior to the Library move in 
January 1999. In December 1998, Info staff personnel replaced all 
Library Windows workstations, added a NT 4.0 Server, and implemented 
improved network printing for the Senate Library. DataTrek replacement 
software was purchased to meet Y2K compliancy in September 1998 but 
proved unsatisfactory. Beginning in March of 1999, a suitable 
replacement application needed to be found, and the TLC Corporation was 
selected a the vendor of choice. The drawback was the short time frame 
to completed the MARC catalog conversion and the installation of a 
separate Oracle NT Server for the Library. Information Systems staff 
installed the necessary operating systems, and converted the existing 
Windows 95 software templates to Windows NT. In January 2000, TLC 
installed the Oracle Server application, and converted MARC catalog 
successfully. This achievement, simply put, means that any Secretary 
employee can verify the status of a particular book in the Senate 
Library from their desktop web browser application.

Printing and Document Services (OPDS--SH-B04)

    In April 1998, SAA contracted Wang to install a new server for 
Printing and Document Services. Wang installed the NT server as a 
Secondary Domain Controller to the Secretary's LAN and transported the 
hardware to Postal Square for further engineering. In August 1998, 
Secretary staff reinstalled the operating system at Postal Square for 
SAA development staff. In June 1999, this server was relocated to OPDS 
and installed by Information Systems staff as part of the Secretary's 
LAN. Project completion was scheduled for Q2/Q3 1999 with the transfer 
of this server to Printing and Documents Services. In September 1999, 
Y2K testing occurred, and new applications for Hearing and Billing 
verification were installed and deemed compliant for operation on 
October 1, 1999.
    In order to maintain Y2K compliance, GPO installed an additional 
Unix server to transfer files between the existing Docutech printer and 
the main GPO facility in December 1999.

Year 2000 Department Status

    The primary goal of Information Systems Department this past year 
was to insure Year 2000 readiness and compliance for all installed 
hardware and software systems.
    In conjunction with the Sergeant of Arms Y2K Project Office, the 
Mitretek Group, the Architect of the Capitol, the James Martin 
Consulting Group, and the Y2K Legislative Branch Committee have all 
corroborated and planned together to accomplish this goal. Y2K 
compliance became mandatory requirement for all new projects.
    The Legislative Information System (LIS), which is composed of the 
new Document Management System, Amendment Tracking, and Committee 
Scheduling replaced the current LEGIS Mainframe application and passed 
compliance testing in November 1999.
    The Financial Information System (FMIS) applications consist of two 
modules, FAMIS and ADPICS, are compliant and in present use in 
Disbursing, SAA, and the Secretary's office.
    Other Y2K projects included the replacement hardware and software 
for the Office of Printing and Document Services, and the mainframe 
replacement in the Stationery Room/Gift Shop. OPDS was completed for 
the beginning of the new fiscal year 2000 on October 1, 1999, while 
Stationery completion occurred in June 1999.
    Major efforts resolved numerous Y2K potential problems in 1998 and 
1999. Every hardware and software system was verified compliant prior 
to the century change. Proper prior planning prevented poor 
performance. The Y2K millennium bug evolved into the Y2 okay bug.

                      WEBMASTER INTERNET SERVICES

    The Webmaster for the Office of the Secretary designs, developments 
and maintains web sites to provide Senate staff, and to a lesser degree 
the general public, access to those administrative, legislative, and 
financial services that are the responsibility of the Secretary of the 
Senate. The Secretary also uses the Senate public web site as a means 
of educating the public about the Senate as an institution.
E-Mail Stats
    During the impeachment trial in January and February the Webmaster 
received an average of 1,500 messages each month. E-mail traffic 
returned to normal levels for the remainder of 1999. In an typical 
month, the webmaster receives about 250 messages. This amount has been 
consistent over the years, however, the webmaster is receiving more 
appropriate questions regarding where to find information online and 
less comments directed towards Senators. This may be because the new 
site design makes it easy for visitors to find their Senator's e-mail 
address. In addition, this year showed a substantial increase in 
questions by students working on class assignments. Typical questions 
asked include, ``who is the Majority Leader; who is the President of 
the Senate; or how long is the term of a Senator?'' Instead of 
answering these questions the webmaster provides instructions on where 
to find the information on the web site.

The Senate Web Site

    The Senate web site was redesigned for the 106th Congress and was 
released on January 6th. Public response to the new release was 
extremely positive. During January and February the site design was 
fine-tuned and the content was expanded.
    The Senate web site averages about 25,000 visitors a day. The main 
Senate Home Page itself is accessed approximately 11,500 times a day. 
Visitors to the Senate web site stay on the average about 15 minutes.
    The presence of the Office of the Secretary on the Senate web site 
was enhanced this year. Descriptive information about the organization 
and biographical information about the Secretary was posted.
Hacking Incident
    The Senate web site was hacked on May 27th and vandalized again on 
June 11th. The Office of the Secretary worked closely with the Sergeant 
at Arms to assure that the data on the site was not compromised. 
Security measures on the internet server were enhanced and the business 
processes for posting to the server were redesigned.
Legislative Reports
    The legislative reports on the Senate web site in the past have 
been generated from the LEGIS system and posted each evening to reflect 
the floor activity that day. During 1999 these reports were rewritten 
to run from the new LIS DMS. The Office of the Secretary has been 
working together with the Sergeant at Arms to make sure these reports 
are accurate when generated from the new source.
Senate Intranet Enhancements
    During 1999 plans were developed and implementation begun to 
greatly enhance and redesign the Secretary's web presence within the 
Senate. A new structure for organizing and presenting the information 
was developed based on how Senate staff look for information. A graphic 
design for the site was drafted and received initial approval.
    The web pages of several of the Departments of the Office of the 
Secretary were enhanced in 1999 to bring more information and services 
to Senate staff.
    A web page for the Disbursing Office was created to make benefit 
forms and instructions available to Senate staff in PDF format for 
downloading.
    The web page for the Document Room was redesigned and an order form 
was posted for online requesting of documents.
    A web site was developed for the Office of Public Records. The 
various forms that are required to be filled out by Senate staff are 
available for downloading in PDF format.
    During 1999 a web server was configured and installed on the 
Secretary's network. This server is currently being used as a 
development server, however, in 2000 it will be converted to the 
production server for an intranet accessible by Secretary staff only.

                Interparliamentary Services--Trips 1999

    January 7-11, 1999.--Codel Kyl; Israel, Jordan; (Senators Kyl, K.B. 
Hutchison, Enzi)
    April 4-11, 1999.--Codel Daschle; Argentina, Brazil, Chile; 
(Senators Daschle, Reid, Dorgan, Campbell)
    April 16-18, 1999.--Leadership Codel; Germany, Belgium, Italy, 
Albania, Macedonia; (Senators Stevens, Levin, Nickles, Robb, Thompson, 
Roberts, Durbin, Biden Baucus)
    May 14-17, 1999.--Codel Hutchison/Lautenberg; Balkans; (Senators 
K.B. Hutchison, Lautenberg, Harkin, Grams, G. Smith, Voinovich)
    May 20-24, 1999.--Canada-U.S. Interparliamentary Group; Quebec, 
Canada; Chairman: Senator Murkowski; Vice Chairman: Senator Murray; 
(Senators Murkowski, Grassley, Akaka, Inhofe, DeWine, Grams, Voinovich)
    May 25-June 4, 1999.--North Atlantic Assembly (NATO Parliamentary 
Assembly); Poland, Switzerland, Lithuania; Chairman: Senator Roth; Vice 
Chairman: Senator Biden; (Senators Roth, Biden, Murkowski, Inhofe); 
(Canceled)
    June 25-27, 1999.--Mexico--U.S. Interparliamentary Group; Savannah, 
Georgia; Chairman: Senator Coverdell; Vice Chairman: Senator Dodd; 
(Senators Coverdell, Sessions)
     July 4-11, 1999.--Organization of Security Cooperation in Europe 
(OSCE); St. Petersburg, Russia; Co-Chairman: Senator Campbell; 
(Senators Campbell, K.B. Hutchison, Voinovich)
    July 23-25, 1999.--British American Parliamentary Group; 
Greenbrier, West Virginia; Chairman: Senator Stevens; Vice Chairman: 
Senator Byrd; (Senators Stevens, Byrd, Domenici, Cochran, Reid, 
Roberts, Reed, Enzi)
    August 13-15, 1999.--Codel Daschle; Cuba; (Senators Daschle, 
Dorgan)
    November 11-20, 1999.--North Atlantic Assembly (NATO Parliamentary 
Assembly); Netherlands, Switzerland, Slovenia; Chairman: Senator Roth; 
Vice Chairman: Senator Biden; (Senators Roth, Biden, Grassley, Akaka, 
Bennett); (Canceled)
Interparliamentary Services: Official Foreign Visitors in 1999
    January 25--Ukranian Parliamentarians (20) (Canceled)
    February 24--His Excellency Dr. Carlos Ruckauf, Vice President of 
Argentina (5)
    March 25--His Excellency Yevgeniy Primakov, Prime Minister of 
Russia (10) (Canceled)
    April 22--His Excellency Tony Blair, Prime Minister United Kingdom 
(6)
    April 23--50th Anniversary of NATO Joint Leadership Event (522)
    April 23--His Excellency Eduard Shevardnadze, President of Georgia 
(9) (Canceled)
    May 4--Canadian Parliamentarian reception (20) (Canceled)
    May 4--His Excellency Keizo Obuchi, Prime Minister of Japan (15)
    May 20--His Majesty Abdullah bin al-Hussein, King of Jordan (6)
    May 27--Iraqi National Congress (6)
    May 28-29--The Honorable Harold Romer, Deputy Director General of 
the European Parliament (1)
    June 16--Mr. Howard Wilson, Ethics Counsellor, Canadian Government 
(1)
    June 30--His Excellency Mohamed Hosni Mubarak, President of Egypt 
(8)
    July 13--His Excellency John Howard, MP Prime Minister of Australia 
(7)
    July 20--His Excellency Ehud Barak, Prime Minister of Israel (1)
    July 27--His Excellency Sergey V. Stepashin, Prime Minister of 
Russia (11)
    September 13--British Parliamentarians, Delphi International (8)
    September 21-28--Members of the Russian Federation Leadership 
Program (9)
    September 22--His Excellency Andres Pastrana, President of Colombia 
(7)
    September 23--(NATO) Parliamentary Assembly (64)
    September 23--His Excellency Eduard Shevardnadze, President of 
Georgia (7)
    October 14--Members of the National People's Congress of China (9) 
(Canceled)
    November 3--Iraqi National Congress (7)
    November 4--Senator Margaret Reid, President of Australian Senate 
(7)
    November 4--His Excellency Milo Djukanovic, President of Montenegro 
(6)
    November 4--Canadian Delegation (5)
    November 8-12--Mr. Andrew Snedden, Australian Parliamentarian (1)
    November 17--Dr. Bae Souk-ki, Korean National Assembly (1)
    November 19--Kuwaiti Diplomats (13)
    December 10--Mr. Benedetti, Mayor of Milan, Italy (7)
    December 18--Students from Mexico's Institute of Technology (7)
                                 ______
                                 
                Prepared Statement of Timothy S. Wineman

    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 2001.
    Mr. Chairman, the fiscal year 2001 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
Fiscal Year 2001. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$616,041,000. which reflect an increase of $80,366,000. or 15 percent 
over the amount appropriated for fiscal year 2000 and does not reflect 
any adjustments to these estimates which may be presented to your 
Committee during these hearings. The total appropriations for the 
Senate for fiscal year 2000 are $535,675,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 2001 are divided into three 
major categories as follows:

Senate Items............................................     $98,466,000
Senate Contingent Expense Items.........................     460,357,000
Senate Joint Items......................................      57,218,000
                    --------------------------------------------------------
                    ____________________________________________________
      TOTAL.............................................     616,041,000

    Specifically, Mr. Chairman, the increase for fiscal year 2001 over 
the fiscal year 2000 enacted levels is a result of: (1) $34,214,000 
increase in administrative expenses and capital assets, primarily 
attributable to the request of the Sergeant at Arms and Doorkeeper of 
the Senate; (2) $21,107,000 increase in the budget estimate for 
Senators' Official Personnel and Office Expense Account to fully fund 
the allowances which are under-funded as a result of the consolidation 
of population categories, increases in the populations of various 
states, and the increase in the Legislative Assistance Allowance 
authorized in the Legislative Branch Appropriations Act, 1993, and the 
$50,000 per Member per year increase in the Administrative and Clerical 
Assistance Allowance authorized by the Legislative Branch 
Appropriations Acts, 1999 and 2000; (3) $11,401,000 for the anticipated 
3.7 percent cost of living increase for fiscal year 2001, and the 
annualization costs of the fiscal year 2000 cost of living adjustment; 
(4) $7,489,000 increase in agency contributions applicable to the cost 
of living adjustments and other personnel increase requests; (5) 
$6,155,000 for personnel adjustments other than the cost of living, 
attributable primarily to the budget request of the Capitol Police.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 2001.

                         CAPITOL VISITOR CENTER

    Senator Bennett. Thank you very much. We recognize your 
involvement with the visitor center over time and that this has 
been a major activity, a major interest. Can we do it for $200 
million?
    Mr. Sisco. The last budget was $265 million. I for one--and 
I think the sentiment is shared by others--that any time the 
Architect comes back and proposes anything that goes north of 
that number, we ask where the cuts would come from. So the 
commission actually approved the project within the context of 
$265 million--$100 million appropriated, approximately $30 
million on hand and then $135 million raised privately.
    The answer is I think that we can, but it is going to 
require discipline and diligence.
    Senator Bennett. You said 50-50, so I thought, okay, if it 
is $100 million, that means $100 million raised. So it is not 
50-50. It is 50-50 kind of the way the Government figures 50-
50.
    Mr. Sisco. It is 50-50 in the sense that we had $100 
million appropriated and that the 501(c)(3)'s fund for the 
Capitol visitor center target is $100 million. So that is 50-50 
out of the chute while we go through the design stages over the 
next 12 months, with a $35 million--part of the $165 million--
as a contingency.
    As I am viewing it right now, we ought to have it as a $200 
million project while we go through the design phase, while the 
decisions are made getting to the point of where a contract can 
be negotiated and let for the construction piece of it.
    Senator Bennett. Then there will be another $35 million 
Federal and $35 million private?
    Mr. Sisco. If that is needed and is the decision of the 
commission.

                          SUCCESSION PLANNING

    Senator Bennett. Okay. Last year you talked about 
succession planning. Do you want to make any comment about that 
again this year, just to tell us where you are?
    Mr. Sisco. I would be happy to. We have viewed succession 
planning as extremely important because these people--
especially in the legislative areas, especially in the 
financial areas, and in other areas in the Senate--take a lot 
of time in place on the job to learn these jobs and to get the 
institutional memory. We have had a number of people who have 
30, 35 years of experience as department heads and others 
within the departments who have retired and who in the future 
will retire.
    So what we have been continuing to concentrate on--in each 
of the departments--is to have two or three people deep, 
depending on the size of the department. We are accomplishing 
succession planning to where the services to the Senate and 
institutional memory will not be handicapped in the future, by 
promoting from within, and we are continuing to try to retain 
the very best people we have got and get them in a position to 
move up as people do retire, within their own departments.
    Also, we are doing cross-training, where people can go from 
one department to another--especially in the legislative area, 
where we have eight departments. This past year we have 
reorganized it slightly and put all of the legislative staff 
who serve the chamber, who serve the legislative process--the 
clerks, the people who serve at the desk, and the people in our 
offices behind the scenes, who do not serve in the chamber but 
are very important to it--under the coordination and management 
of the legislative clerk, Dave Tinsley, so that we have one 
person looking at cross-training within those legislative 
departments.
    A third area that I think of in terms of long-term 
planning--GAO right now is, at our request, looking at the 
disbursing office management setup and will come back to me and 
therefore to the Senate with recommendations for any changes 
that are needed there for an optimum organizational type 
structure, with the new technology that we have arranged for, 
that will carry us into the future.
    Right now we have in every department an experienced 
department head, and we have another person who is capable of 
moving into that position, throughout the Secretary's Office. 
And again, in larger departments we go three deep, especially 
in the legislative areas.
    So it is something that we will continue to do, because the 
people who serve here year in and year out as Senators come and 
go have 30 or 35 or 40 years, and it is critical that we get 
the very best people and keep them.
    Senator Bennett. Very good.

                     ADDITIONAL COMMITTEE QUESTIONS

    I have no further questions. Thank you again for your hard 
work and your forward planning. We will see what we can do 
about finding a little more money.
    Mr. Sisco. Thank you, Mr. Chairman.
    Senator Bennett. Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
            Questions Submitted by Senator Robert F. Bennett

    Question. In 1995, Congress embarked on an information initiative 
which was an enterprise-wide approach to the creation, exchange and 
maintenance of legislative information. This initiative was designed to 
improve the efficiency of the legislative process for all the 
legislative agencies. In 1997, the Senate Rules Committee and the House 
Administration Committee approved the establishment of a data standards 
program using the Standard Generalized Markup Language (SGML). The 
Senate and House agreed to meet in regular coordinating committee and 
technical committee meetings to address policy issues and to guide the 
development of these data standards, which are now focused on a subset 
of SGML called XML, or Extensible Markup Language. In your written 
testimony, you reported that the most important LIS/DMS enhancement 
effort for this year will be the completion and implementation of the 
SGML/XML feasibility study. Please provide for the record a report on 
the extent and nature of the Senate's participation in the SGML/XML 
project including the Senate's plan, budget and schedule for 
implementation of this important program for information exchange.
    Answer. The Office of the Secretary of the Senate, with the Office 
of the Legislative Counsel, continues to work closely with the Office 
of the Clerk of the House of Representatives, other House offices, the 
Government Printing Office (GPO), and the Library of Congress (LOC) 
Congressional Research Service (CRS) to develop the SGML/XML data 
standards program. The Senate has been a part of this program since 
initial discussions began. The extent and nature of the participation 
and progress of the Senate since 1997 is detailed below.

Senate Participation and Progress

    In April 1997, the Secretary of the Senate and the Clerk of the 
House of Representatives issued ``Recommendations for a Data Standards 
Program for Legislative Information,'' a report prepared for the Senate 
Committee on Rules and Administration and the House Committee on House 
Oversight. The report, which followed a study by an outside consultant, 
recommended the establishment of a data standards program, and 
recommended the Standard Generalized Markup Language (SGML) as ``an 
appropriate technology on which to base the preparation of legislative 
information and document management systems.'' The report further noted 
that ``. . . standards will evolve over time as technology and the 
capacity of offices and agencies to adopt these technologies evolves.'' 
Since that time, as anticipated, a subset of SGML known as the 
eXtensible Markup Language (XML) has become a standard, and XML offers 
great potential for this initiative.
    Two staff working groups, the Coordinating Committee and the 
Technical Committee, serve to guide and direct SGML/XML activities. The 
Coordinating Committee, composed of one representative each from the 
Senate Committee on Rules and Administration, the Committee on House 
Administration, the Secretary of the Senate, and the Clerk of the 
House, sets overall direction, finds consensus, and reviews the work of 
the technical team. The Senate and House Data Standards Managers, 
employees of the Secretary and Clerk respectively, advise and assist 
the work of the Coordinating Committee. The Technical Committee, 
composed of Senate and House staff and staff from the legislative 
branch agencies, is co-chaired by the Data Standards Managers.
    The SGML Coordinating Committee, at its February 2000 meeting, 
began consideration of a proposal to formally adopt XML rather than 
SGML as the standard data format. Both the Senate and House Data 
Standards Managers and the Technical Committee recommended XML as the 
standard. Staff from GPO and LOC also attended the February meeting and 
participated in this recommendation. As of this date, the 
recommendation is being reviewed.
    The Technical Committee meets monthly; meetings include discussions 
and recommendations concerning Document Type Descriptions (DTD) 
development. A DTD defines the structure of the document by recording 
the names of the parts of the document and their relationships in that 
document. Other sessions feature demonstrations by vendors concerning 
new technologies, and presentations by committee members concerning 
similar SGML/XML activities within their organizations.
    Starting in January 1998 and continuing through December 1999, 
outside contractors developed DTDs for bills, resolutions, amendments, 
committee reports, conference reports, compilations, and the U.S. Code. 
The House contracted for the DTD development, and Senate and House 
staff members performed document analysis and preliminary DTD 
validation at workshops held for each document type.
    In mid-1998, a contractor of the Senate, KPMG, conducted an 
evaluation of several SGML editors, and the top two candidates were 
Corel WordPerfect 8 + SGML and ArborText Adept Editor. WordPerfect 8 + 
SGML was chosen as the editor to be implemented for the creation of 
bills, amendments, and resolutions using SGML. However, during the 
development of this application by SAIC, also a contractor of the 
Senate, it was determined that WordPerfect 8 + SGML was not robust 
enough to support the complicated and varied processes used by the 
Senate Legislative Counsel for the creation and editing of bills, and 
work on implementing a bill authoring application was temporarily 
suspended.
    In late 1998 and early 1999, Senate staff participated in the first 
production-level SGML project as the House and Senate jointly issued 
the Biographical Directory of the United States Congress: 1774 to 
Present. This joint project represents the first application in which 
data/documents are created and edited using an SGML editor. Senate data 
is created, maintained, and published by the Senate Historical Office. 
Results of this effort are available at http://bioguide.congress.gov. 
This project yielded valuable lessons concerning the building of an 
SGML application, which are discussed in the Document Management System 
Status Report and Plan presented by the Clerk of the House in March, 
1999.
    In 1998, the World Wide Consortium, the standards organization for 
the World Wide Web, issued the XML standard, and vendors began to 
develop software tools to support XML. In mid-1999, the House evaluated 
several XML and SGML editors, and the top editors in that evaluation 
were SoftQuad XMetaL, ArborText Adept Editor, and WordPerfect 9 + SGML. 
Subsequently, in August 1999, with the approval of the Senate Committee 
on Rules and Administration and the Committee on House Administration, 
the Secretary of the Senate and the Clerk of the House invited 
representatives of the Senate and House Legislative Counsels, the 
Sergeant at Arms of the Senate, the Chief Administrative Officer of the 
House, the Law Revision Counsel, and GPO, LOC and CRS to participate in 
the Bills and Resolutions SGML/XML Feasibility Study to ``evaluate 
SGML/XML editors, create XML style sheets, evaluate the SGML/XML 
capability of Microcomp, and examine the use of digital signaturing as 
it relates to these processes.''

The SGML/XML Feasibility Study for Bills

    While SGML/XML can provide many benefits for processing electronic 
documents, the difficulty lies in creating those documents in the first 
place. The goal of the Feasibility Study, which began in mid-September 
1999, is to determine if it is possible to create an easy-to-use XML 
application for the authoring of legislative documents. This joint 
effort has focused on the authoring, editing, and composition of bills 
and resolutions by the Senate and House Legislative Counsels.
    The Senate Legislative Counsel and Enrolling Clerk continue to 
refine a list of high-level requirements for the new editing 
environment. The Senate Legislative Counsel is also working with the 
House Legislative Counsel ``to develop a joint list of proposed short-
term criteria for evaluating the XML application to ensure that the XML 
application meets basic usability requirements and is user friendly for 
both offices.''
    The Senate Legislative Counsel has also provided the following 
general requirements for the implementation of an XML editing 
application--

  --The editing environment must allow drafters and editors of 
        legislation at all levels of technical ability to work at least 
        as efficiently as they currently do in the XyWrite editing 
        environment.
  --The editing environment must allow users to work at all times in a 
        WYSIWYG view with tags turned off.
  --An identical editing environment and composition system must be 
        used by all users in the core legislative offices (Senate and 
        House Legislative Counsels, Senate and House Enrolling Clerks, 
        and the Government Printing Office).
  --An ongoing program must be established which provides instruction 
        for new users and a comprehensive user manual.
  --Support and maintenance for the system must be provided with 
        continuous availability (24 hours per day, 7 days per week).

    Although the Feasibility Study has focused on the authoring/editing 
application, it has other important components. One of the key efforts 
in the study is to validate and refine the Bill DTD to ensure that all 
of the components of legislation are included and appropriately 
described. This will enable the document to be both composed in the 
proper format(s) and processed in other ways, such as automatically 
generating and synchronizing tables of contents for the document. As 
the document is further described and the DTD is refined, GPO is 
working to ensure that the XML bill documents can be composed in the 
same formats that are currently printed. GPO is up-to-date with the 
Bill DTD and has produced printed output from several XML test bills.
    The analysis and input provided during the study has guided DTD 
changes and additions and has defined the direction of the ``proof-of-
concept'' development of the Feasibility Study. Staff in the Office of 
the Clerk have done much of the development work on the programs and 
style sheets, and Senate and House staff have provided testing and 
feedback. The analysis and development work has focused on the document 
creation process and methods to automate that work and has identified 
potential process improvements to save time and reduce repetitive work.
    Another important activity of the study is the evaluation of newly-
available XML tools, and the ``proof-of-concept'' development processes 
have provided feedback to vendors concerning their software. The two 
editors chosen for the study were SoftQuad XMetaL and Corel WordPerfect 
9 + SGML/XML. SoftQuad has been very responsive to feedback generated 
by study participants and has corrected bugs in the XMetaL software and 
implemented some of the requested features. Major problems, however, 
have been discovered in the WordPerfect software, and, as a result, 
most of the development effort has focused on the XMetaL application. 
ArborText Adept Editor, which placed second in the 1998 and 1999 
evaluations, was not chosen for further study or development because, 
unlike XMetaL, it requires a proprietary programming language for 
customization. Reusability and long-term maintenance benefits can be 
gained by using industry standards and non-proprietary languages for 
application development.
    As a part of the Feasibility Study, Senate and House staff members 
are working with GPO and CRS representatives to examine SGML/XML issues 
specific to their organizations, such as requirements for a ``during-
composition'' process that will create a separate ``table of contents'' 
document to be used for Web navigation and will include insertion of 
page and line information in the XML file. The Senate Data Standards 
Manager has also conducted several one-hour workshops for CRS staff on 
XML, the Bill DTD, and other related topics.
    Results of the Feasibility Study for Bills and Resolutions will 
guide the implementation strategies for the overall SGML/XML Project.
Senate LIS Project Office Plan for the SGML/XML Project
    The LIS Project Office under the Secretary of the Senate is 
implementing an SGML/XML plan focusing on the specific needs of the 
Senate. The SGML/XML plan involves several key initiatives, including 
the following--

  --Completion of the Feasibility Study for bills and resolutions.
  --Conversion of legacy documents.
  --Implementation of the SGML/XML authoring system for bills and 
        resolutions.
  --Implementation and integration of the Senate Office of Legislative 
        Counsel document system into the LIS/DMS.

    Completion of the Feasibility Study for bills and resolutions.--It 
is the desire of Senate Legislative Counsel to use a document 
authoring/editing application that is identical to one used by the 
House Legislative Counsel to facilitate collaborative sessions. To 
achieve this, the Feasibility Study analysis and development has 
targeted joint functionality as well as efforts to create a data 
exchange format with a common XML editor application. However, 
differences in the work processes and culture do exist. A conclusion of 
the study may be to use the common data standard for data exchange but 
implement different editors or applications to address the different 
requirements for each office.
    Conversion of legacy documents.--The development of a SGML/XML 
authoring system includes the need to use documents or parts of 
documents from previous years. These legacy documents constitute a very 
large and important database of information. The plan calls for the 
scope of the conversion to be determined--how many documents, 
specifically which documents, initiated by whom, level of completeness, 
and so on. To reuse any of these documents, they must first be 
converted from their current coding system (Microcomp locator codes) to 
the new SGML/XML coding system. Converting documents from a general 
markup (as the one currently used) to a very specific markup such as 
XML may require manual modifications after conversion. Conversely, a 
conversion in the other direction (XML to Microcomp locator codes) has 
already been accomplished, and this conversion will allow all users and 
offices to transition to the new document format and new document 
creation/editing processes. This conversion will allow other offices to 
receive the XML-generated data in the Microcomp locator format, which 
will enable them to continue their processing without interruption 
while XML applications for all legislative document types are developed 
over time.
    Implementation of the SGML/XML authoring system for bills and 
resolutions.--Although the initial focus will be on the needs of the 
Senate Legislative Counsel, the requirements of the Senate Enrolling 
Clerk and Senate Committees will also be incorporated into the creation 
and editing of bill documents.
    The creation, editing and exchange of other legislative document 
types will be included, and the first will be those for which DTDs 
already exist--compilations, conference reports, committee reports, and 
the U.S. Code. The DTDs for these document types will be refined and 
applications will be developed. All remaining legislative documents 
such as treaties, nominations, executive communications, and committee 
hearings will be included in the DTD development process, and the 
overall goal of the XML project is that all legislative documents will 
be created, maintained, and exchanged using a standard data format for 
efficient information processing.
    Implementation and integration of the Senate Legislative Counsel 
document system into the LIS/DMS.--The SGML/XML plan also includes the 
definition of requirements of a ``workgroup'' document management 
system (DMS) for the Legislative Counsel. A significant part of the 
initiative will address the need to integrate with the overall Senate 
LIS/DMS plan and will include a gap analysis of Legislative Counsel 
requirements to identify any areas of conflict or duplication and to 
address any differences. Requirements will include, but not be limited 
to, the following: processing methods, input/output, data storage, 
interfaces, hardware/software, performance, conversion, and processing 
flow. The authoring application included in the implementation of the 
SGML/XML authoring system for bills and resolutions will be considered, 
as appropriate, in the design of this initiative.
SGML/XML Project Risks and Constraints
    In the course of the SGML/XML Feasibility Study, Senate staff 
identified several issues that require mitigation to ensure completion 
of the study and timely implementation of a production system.
    Incremental release vs. full capability release into the production 
environment.--At the completion of the SGML/XML Feasibility Study, the 
House may prefer to implement an incremental release approach toward a 
full production capability for the House Legislative Counsel. The 
Senate Legislative Counsel is willing to provide testing and input to 
the incremental release process, but prefers an implementation approach 
that targets initial release at the beginning of a Congress and that 
features a complete rollout with full-service capability and associated 
training. This difference in implementation strategies will yield 
different full-production time-lines.
    If the House and Senate agree to different production time-lines, 
the standard data exchange format can be provided, and additional 
preparation will be required to facilitate the effort prior to final 
Senate production release.
    An identical editing environment.--The Senate Legislative Counsel 
expressed a desire to have ``an identical editing environment'' in the 
``core legislative offices.'' The different implementation strategies 
and differences in work processes in the House and Senate may hinder 
the achievement of this goal. Still, if it is determined that the 
Senate and House editing environments diverge, the goal of exchanging 
documents in a standard data format can be achieved.
    ``Official'' version of legislation during process flow.--The 
implementation and integration of the Legislative Counsel document 
system into the LIS/DMS also has its risks and constraints even before 
this initiative begins. The integration of the Legislative Counsel 
documents into the LIS environments will be one of the most significant 
issues to be addressed. This integration requires a clear understanding 
by all involved of the current status and location of a document--a 
bill, resolution, amendment, etc. And, most importantly, because the 
particular document(s) in process is just that, ``in process,'' 
security will allow only those who have a need to know and who have 
reading and/or updating privileges to access the ``official'' version 
during a particular segment of the process flow. Thus, establishing 
tracking and user access requirements before implementation is 
essential.

------------------------------------------------------------------------
                                                Activities Estimated
                                                     Completion
------------------------------------------------------------------------
   SGML/XML Project Estimated Time-Line

Feasibility Study completion.............  June 2000
Establish system framework/architecture    August 2000
 for SGML/XML authoring system for bills
 and resolutions.........................
Develop requirements for Senate            October 2000
 Legislative Counsel document system
 integration into LIS/DMS................
Develop requirements for SGML/XML          January 2001
 authoring system.
Implement conversion of legacy documents.  September 2001
Implement SGML/XML authoring system for    September 2001
 bills and resolutions.
Integrate Legislative Counsel document     September 2001
 system into LIS/DMS.

    SGML/XML Project Estimated Budget

Authoring initiatives....................  $1,587,600
    Conversion of legacy documents
    Implementation of SGML/XML authoring
     system for bills and resolutions
    Conference Reports, Compilations,
     Committee Reports, U.S. Code,
     Treaties and Nominations DTDs
Integration of Legislative Counsel         $1,134,000
 document system into LIS/DMS.
SGML/XML estimated total.................  $2,721,600
------------------------------------------------------------------------
As requirements for each initiative are completed, the estimates will be
  refined.

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF HON. JIM ZIGLAR, SERGEANT AT ARMS AND 
            DOORKEEPER
ACCOMPANIED BY LORETTA SYMMS, DEPUTY SERGEANT AT ARMS

    Senator Bennett. The next witness is the Senate Sergeant at 
Arms, the Honorable Jim Ziglar.
    Mr. Ziglar is accompanied by the Deputy Sergeant at Arms, 
Loretta Symms. We understand that also the newly appointed 
Administrative Assistant, Liz McAlhany, is with us and we 
congratulate her on her new position.
    The Sergeant at Arms has requested $136,569,000 for fiscal 
2001. This is a $35,514,000, or 35 percent, increase. Do not be 
frightened by my earlier comment, but be aware that we are 
paying attention to this.
    I should note again for the record the work the Sergeant at 
Arms office did with respect to Y2K turned it into a non-event, 
and we like non-events when it comes to some of the 
projections. So I was grateful to hear Mr. Sisco talk about the 
cooperation and get that formally on the record. But since we 
use this committee as a vehicle for spreading the word, not 
only to you, Mr. Ziglar, but to your predecessor, and I think 
maybe caused your predecessor a few uneasy moments, I think we 
should for the record indicate how well the Sergeant at Arms 
office has performed on that regard. We are very grateful to 
you and all of your people and hope that you will pass that on 
to those who worked so hard.
    Mr. Ziglar. Thank you, Mr. Chairman.
    Senator Bennett. With that, we look forward to your 
testimony.
    Mr. Ziglar. Thank you, Mr. Chairman, and I appreciate the 
opportunity to be here to present our 2001 budget request.
    I would like to note that there are some other folks in the 
audience that are part of the management team which was 
recently reconfigured. Liz McAlhany, who is now the new 
Administrative Assistant, and she was before that the Director 
of Customer Relations, where she did a terrific job. In fact, 
she did such a great job there that I asked her to come over 
and work as my Administrative Assistant, and she is doing a 
great job in this new job.
    Chris Dey is here. I think we all know Chris. He is the 
Chief Financial Officer.
    The new head of Office Services, succeeding Liz, is Esther 
Gordon. Where is Esther? She was just recently appointed.
    Kim Winn is the head of Information and Technology Support 
Services, Tracy Williams is the head of our Technology 
Development area, and Rick Edwards is head of Central 
Operations. There are a number of other folks in here who are 
no less important, but these people are the core management 
team that we have now.
    I have offered written testimony earlier that is much more 
extensive than----
    Senator Bennett. Yes, it will be included in the record.
    Mr. Ziglar. Thank you very much.
    I would like to discuss briefly some things that are in 
that testimony and then some things that are not. But first I 
wanted to make the point that you made and that was that last 
year at this time I was here for my first hearing and fairly 
wet behind the ears in this job. I was faced with the daunting 
task of making sure that when the year 2000 rolled around that 
we did not get rolled over.
    I must say that the folks that worked on this did a 
tremendously professional job. We appreciate your recognition 
of that. It was a team effort between ourselves and the 
Secretary of the Senate and everybody else around here. I 
wanted to particularly note that Chick Ciccolella, who was the 
Chief of Operations at the time, now working in the Rules 
Committee, took the lead on our side working on Y2K and did a 
terrific job, and I just wanted to put on the record we 
appreciate what Chick did for us. I think Chick is here. Oh, 
there he is. And we appreciate very much what he did. We came 
through this thing without a glitch or a hitch.
    I also want to express my appreciation to you for the 
leadership that you and Senator Dodd provided in this area, and 
to Christine Ciccone and other members of the staff, Jim 
English and others, who supported our efforts so intensely and 
followed it so closely.

                             BUDGET PROCESS

    When I was here last year I also, as you may recall, I was 
struggling to try to get my hands around the budget. It was not 
a budget that I really had much to do with because I had just 
gotten here, but I was trying to figure out what the budget was 
all about.
    The one thing I tried to do last year was to understand the 
budget in a format that at least I could understand as a 
businessman. We have broken the budget into an operating budget 
and a capital budget and tried to demonstrate what those two 
components were. Since last year, I have attempted to use the 
budget process as a management tool, again something coming 
from the world that I came from. The budget is always a 
management tool.
    I have to say that so far I have been pleased with the 
results that we have been able to achieve by looking at the 
budget in that context.
    What I would like to do is spend a few minutes telling you 
a little bit about the budget process that we used to get where 
we are in this budget and also to give you a little bit of an 
overview of some of my initiatives in the future. What we did 
this year was to take a modified zero-based budgeting approach 
to this budget. We built it from the bottom up and we examined 
it from the bottom up.
    I literally held hearings in my conference room, budget 
hearings, sort of like what we have here, with each one of the 
department managers within the Sergeant at Arms organization. 
We went through the entire budget line by line with them, asked 
a lot of questions, and we made a lot of adjustments as we went 
along. But what really--when I look back on it, what really 
came out of that, the results that I think are positive from my 
perspective, is that the projects that we were undertaking, or 
are about to undertake, were better defined as a result of that 
process.
    We nailed down our costs more closely to what they really 
are. For example, in the digital area, in terms of taking the 
recording studio to a digitized format, we had projected a $30 
million project over its life. We now have gotten it down to 
about $25 million, so we know a little bit more about our 
potential costs.
    Perhaps the most important point of the exercise was that 
we have established priorities about how we want to do our 
business and what we think is necessary to be done and in what 
order. From this process, I have concluded several things about 
the budget. First, the Sergeant at Arms budget has four 
distinct parts, not two parts as I thought originally, and 
those four parts are what I call operations and maintenance--it 
is not maintenance in the same context as if you have a factory 
and you are maintaining your infrastructure, but that part of 
the budget that reflects your personnel costs and your expenses 
of ongoing operations in the Senate.
    The second part is the technology capital investment part, 
which is the hard cost of upgrading, improving, or adding to 
our technology in all of its many manifestations.
    The third part would be what I call mandated allowances and 
allotments. That is broken down into those things that we are 
required to provide to Senate offices and Senate committees on 
an ongoing basis, such as the computer services fund and paying 
the rent for State offices. For example, with respect to State 
offices, the Senate, as you know, last year increased the 
amount of money available for that. So those are embedded costs 
that we do not have a lot of control over. They are mandated 
for us to do.
    Then finally we have nondiscretionary items. For example, 
the biggest part of those are things that we fund that provide 
technical assistance for other people in the Senate family. 
These expenditures are primarily for the Secretary of the 
Senate with respect to his LIS project and FMIS project. A lot 
of the funding for those projects actually comes through our 
budget and a lot of the technical services are provided by us, 
although they are his projects and he has the control and the 
direction over them. We do fund a good portion of those 
projects.
    What we have done this year is to present this budget in 
this format, and I will go back to that in a few minutes and 
talk about some of these numbers.

                       OPERATIONS AND MAINTENANCE

    The second thing I concluded through this process is that 
we could operate more efficiently and less bureaucratically in 
the Sergeant at Arms operation. As a result of that, in terms 
of the operations and maintenance account items in our budget 
we are actually asking for less money than we did last year, by 
2.4 percent.
    We also are asking for a reduction in our authorized FTE's 
of 32 people. Over a period of 4 years, I have set a goal for 
the reduction in the operations and maintenance line by 10 
percent, and I think we are going to be able to get there.
    Now, what we have done, frankly, is just better utilize the 
people we have. Where there are opportunities to move somebody 
out of an area that maybe is not as stressed as another area, 
we have done that instead of going out and adding additional 
FTE's. So it has worked out quite well in terms of our ability 
to manage our people.
    I would like to note a couple of actions that we have taken 
also in the context of management improvements. First is that 
we have revised our approach to giving merit increases to 
employees. It appeared to me that what we had around here was a 
situation that if you stayed long enough you would get merit 
increases just by virtue of breathing. I do not come from a 
culture that you award raises on that basis.
    So we have restructured our pay award system, merit award 
system, to actually award performance. So far it has gotten 
pretty good reviews among our employees. It certainly will 
incentivize them, and it is also going to require managers to 
do better evaluations of our employees and their performance.
    The second thing that we recently did was a management 
reorganization that eliminated some layers of bureaucracy or 
management structure and also flattened the organization, so 
that we have now more of a team approach, a flat organization, 
where people are forced to communicate and to work together. I 
also am happy to report that, at least from my perspective and 
from the perspective of some of the folks I have talked to, 
this seems to be working out quite nicely in its very early 
stages.
    The third thing that I concluded was that there is a 
disconnect between the budget process and our management 
decisionmaking processes. We now have a monthly financial 
operating report, something we have never had before and again 
something that I was used to in the private sector, because I 
needed to know where I was relative to my budget and my 
expenditures and what my projections were for the rest of the 
year.
    We now have that on a monthly basis. We are still tinkering 
with it to make sure we get the information format in the way 
we want it. But it has been an enormously helpful tool.
    What it does is help us to know what to expect and how to 
plan for those things that happen that you do not expect. Let 
me give you an example of what it has done for us already. As 
of the end of February, we realized that we have a $901,000 
deficit in terms of our current fiscal year budget and our 
projected expenditures through the year. Now, we would not have 
known that until probably August or September based on the way 
we were operating before. But I now know that and I know the 
reason for it is that we have two items that the costs are much 
higher than we thought they were going to be. The Microsoft 
Exchange and Outlook program is going to be more expensive this 
year than we thought and also the cost of carrying and 
maintaining our new mainframe computer is also going to be much 
higher than was estimated.
    That is something to the tune of a little over $3 million 
over what had been estimated. Now, the other side of that trade 
is that our expenses in terms of personnel and ongoing 
expenses, as a result of some of the initiatives we have taken 
to try to manage the place a little better, are down. So when 
you put them together, we only have a $901,000 deficit.
    Well, you say, that is still a $900,000 deficit. It is. But 
I will tell you what: I know enough about where I have money in 
the rest of the system and where I can manage the rest of the 
system so that at the end of the year I do not have that 
problem. If I did not have that information, I would not be 
able to manage that problem. So that is something that I am 
very pleased about, and I think it is going to, in the long 
term, help us run our business a lot better.
    The other thing I am doing is instituting a 5-year 
evergreen budgeting system. We are going to have a proposed 
budget out there for 5 years that is ever renewing itself. Now, 
what that does, as you know, is it helps us to focus our 
strategic thinking not just on what we are going to provide 
next year but what is it we need to be doing 5 years from now 
to provide better service to the Senate and to carry out our 
job in the best possible way.
    It also is going to help us deal with you folks in terms of 
focusing on our needs and what your expectations are in terms 
of the budget request that we will be coming forward with.
    I apologize for taking so much time on these management 
initiatives, but I do think they are important to the long-term 
efficiency and effectiveness of the Senate. Let me turn to our 
budget request, which you pointed out is a bit higher than we 
asked for last year, but there is an explanation. It represents 
a 35.1 percent increase over our fiscal year 2000 
appropriation.

                             BUDGET REQUEST

    ----------------------------------------------------------------

                                         FISCAL YEAR 2001 BUDGET REQUEST
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                               Fiscal year 2001
                                                                                               vs. fiscal year
                                                  Fiscal    Fiscal    Fiscal year   Fiscal           2000
                                                   year      year        2000        year   --------------------
                                                   1999      2000    appropriated    2001                Percent
                                                  actual    request                 request    Amount     Incr/
                                                                                                          Decr
----------------------------------------------------------------------------------------------------------------
Operations & Maintenance.......................     $52.7     $56.2       $54.7       $53.4     ($1.3)      -2.4
Allowances & Allotments........................      36.4      37.5        36.6        47.4      10.8       29.6
Technology Capital Investment..................       8.5      18.8         6.9        31.1      24.3      353.7
Nondiscretionary Items.........................       4.7       3.6         3.0         4.7       1.7       58.2
                                                ----------------------------------------------------------------
      Total....................................     102.3     116.1       101.2       136.6      35.5       35.1
                                                ================================================================
Staffing.......................................       780       795         787         755       (32)      -4.1
----------------------------------------------------------------------------------------------------------------

    ----------------------------------------------------------------

    We are requesting $136,569,000, which is $35,514,514 over 
the 2000 budget. Our 2000 budget is $101.2 million. Let me 
point out what some of these increases are, because I think 
that is important to note.

    ----------------------------------------------------------------

            FISCAL YEAR 2001 BUDGET REQUEST--MAJOR INCREASES
                        [In millions of dollars]
------------------------------------------------------------------------
                                        Fiscal year    Fiscal
                                           2000      year 2001  Increase
                                       appropriated  requested
------------------------------------------------------------------------
Mandated Allowances and Allotments...        36.6         47.4      10.8
    Computer Services and Mail               10.2         18.1       7.9
     Systems Funds...................
    State Office Security              ............        1.7       1.7
     Enhancements....................
Nondiscretionary Items...............         3.0          4.7       1.7
    Legislative Information System...         1.7          2.5        .8
    Financial Management Information           .8          1.3        .5
     System..........................
------------------------------------------------------------------------

    ----------------------------------------------------------------

    As I mentioned to you, the operations and maintenance line 
actually is going down as well as our request for FTE 
authorizations. With respect to the mandated allowances and 
allotments, there are two major issues, two major items in 
that. First is the computer services fund, which we are 
recommending an increase of $7.9 million. The reason for that 
is that we have had a one and a half times turn--let me go 
back.
    The cycle is now that you get, as a Senator, to turn over 
your computers one and a half times during a term, which is a 
little bit too long in terms of the cycle of obsolescence of 
these things. So we are trying to go to a twice in a term 
computer cycle within your office and within the committees. So 
that represents that additional amount of money to increase the 
computer services fund so we have a better replacement cycle.
    The second thing that is in there that is a major item is 
security enhancement for State offices. What I have discovered 
as a result of a survey that we did of all Senate offices with 
respect to their State offices is that there is a wide 
divergence of security within those offices, and we are having 
some difficulties out there in the field with people coming 
into offices and threatening staff and things like that.
    Some of the offices are well protected because they are in 
Federal buildings or they made the initiative to have them well 
protected, and some offices are wide open. The reason for that, 
frankly, is because you have an allocation for your office in 
Provo, let us say. Well, you have to make a choice: Am I going 
to have more desks and more equipment or am I going to put in 
an alarm system and maybe monitoring cameras and maybe locking 
doors or something like that that will provide additional 
security?
    A lot of folks say: I need the fax machine more than I need 
the security. Well, we want to take it out of the realm of you 
having to make that choice. So what we have recommended is on 
each--with respect to each office, there is roughly a $4,000 
allotment for security purposes only. It does not come out of 
your total allotment for that office as it is currently 
structured. This is an add-on. If you do not use that money for 
security, you cannot use it for another fax machine or 
something like that. It is specifically for security.
    We think in the long term that this is an important thing 
to do. Obviously, it is an add-on, but it is something in the 
long term we think would be quite important to do.
    Another, smaller item in there that is not on the chart is 
the additional rent that we can pay now for State offices which 
is roughly $600,000. But as you can see, by and large the 
increase in mandated allowances and allotments has to do with 
the computer services fund and the security enhancement fund 
that we are trying to create.
    With respect to the--let us jump over technology and 
capital investment for the moment and go to the 
nondiscretionary items. Nondiscretionary items again are the 
things that by and large we are spending money on for the 
Secretary of the Senate's initiatives for the Legislative 
Information System and the Financial Management Information 
System. Out of a total of $1.7 million for nondiscretionary 
items, $1.3 million of the increase is with respect to LIS and 
FMIS.

    ----------------------------------------------------------------

     FISCAL YEAR 2001 BUDGET REQUEST--TECHNOLOGY CAPITAL INVESTMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                                       Fiscal
                                                        year      Total
                                                        2001      cost
                                                       budget
------------------------------------------------------------------------
Senate Recording Studio Digital Technology..........       7.3      25.2
Communications Infrastructure.......................       5.2      18.7
Information Security................................       3.6       3.7
Messaging Infrastructure and Windows 2000...........       3.3       7.9
Voice and Paging Infrastructure.....................       2.9       8.2
                                                     -------------------
      Total Priority Investments....................      22.3      63.7
                                                     ===================
Electronic Printing and Document Archiving..........       5.1       5.1
Office Productivity Tools...........................       1.7       1.9
Enterprise Computer Operations......................        .7        .7
IT Requirements.....................................        .5       1.1
Internet E-mail Processing..........................        .3       2.0
Internet Video and Audio............................        .2        .4
Other Projects......................................        .4        .4
                                                     -------------------
      Total Technology Capital Investments..........      31.2      75.3
------------------------------------------------------------------------

    ----------------------------------------------------------------

    Now to go over to the technology budget, which is 
aggressive. We have attempted to define those things that we 
need to do for the Senate going forward in order for us to be 
up to date, if you will, technologically and be able to do our 
business better. What we have done here is to lay out for you 
the top five priorities. The above the line items are the ones 
that are our top priorities.
    I would have to say that without a question--well, it is 
hard to say without a question because it depends on your point 
of view--but one of the most critical things that we need to do 
is to take the Senate Recording Studio to digital technology. 
One reason is because we have to. The FCC is mandating that we 
broadcast in digital format by the year 2005, and getting there 
from here is a long process.
    I think we have briefed Christine on this--or we will be 
briefing her on this project and the many phases of it. But it 
is critical that we get started as soon as possible migrating 
to a digital format for everything that we do around here, 
whether it is the Senate floor broadcasting or it is committee 
hearings or whatever.
    The communications infrastructure project is one that is 
also quite important. As you know, we use a very slow speed, 
low capacity frame relay system to communicate with the State 
offices, and that is something that needs to be dealt with as 
soon as we possibly can.
    We have taken some remedial measures in the short term to 
try to deal with the speed of access problem by putting T-1 
lines to one office, one State office for each Senator. But 
that is only a small temporary measure in terms of the overall 
problem that we have.
    Information security, Mr. Chairman, I know is something 
that you are interested in and it is something that we are very 
interested in. The brilliance of some of these kids nowadays 
that can hack into everything you do and mess it up is pretty 
astounding, and we have to find better and better ways to 
protect our information and protect our systems. We have 
several initiatives ongoing that we consider high priority.
    The messaging infrastructure area is also extremely 
critical. Lotus cc:Mail, as you know, is our current e-mail 
system around here. As of September 2001, Lotus will no longer 
support cc:Mail. They do not produce it any more and they will 
not support it after September 2001. So we do not have a whole 
lot of choice about going from that format to a new format.
    After a long process of selection, which included Senate 
offices and committees and outside consultants and our folks 
and the Secretary of the Senate and others, we came up with a 
recommendation that we use the Windows 2000 platform with 
Exchange and Outlook. So we are on our way on that project. It 
is important that we continue to be able to fund that so that 
we can bring it on line in time to take off line a system that 
will no longer be supported.
    Then finally we have the voice and paging infrastructure 
project, where we are attempting--among other things, to bring 
voicemail to the State offices as well as to upgrade it here in 
the District of Columbia. Also, we are doing--as you know, 
working on the paging system to upgrade it and eventually to 
take it nationwide.
    Now, I did note in reading my testimony from last year, Mr. 
Chairman, that you thought that it was rather a nice thing that 
they could not reach you by pager beyond 30 miles, and I want 
you to know that as long as you continue to be chairman of this 
subcommittee, if you only want 30 miles, you are going to get 
it.
    The other items down here are also extremely, we think, 
important projects for the Senate going forward. They are not 
the highest priority projects, but they are important to our 
being able to do our business in a world that requires that we 
be technologically up at the top of the curve.
    I want to emphasize the importance, I think, of making 
these investments over time. We need to be able to be connected 
to the people that we serve, the American people. We need to 
continue to improve our own internal operations in terms of 
management structures, and obviously technology drives a lot of 
how you manage these days. Third, I think we need to 
demonstrate that Government gets it in terms of keeping up in 
the technology area.

                           PREPARED STATEMENT

    Mr. Chairman, that concludes my abbreviated remarks and I 
look forward to answering any questions you might have.
    [The statement follows:]

               Prepared Statement of Hon. James W. Ziglar

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before you today to present the fiscal year 2001 
funding request for the Office of the Sergeant at Arms and Doorkeeper.

                 REPORT ON YEAR 2000 COMPLIANCE EFFORT

    I would like to begin my testimony by updating the Committee on the 
status of our Year 2000 conversion effort. I am pleased to report that 
we achieved a near perfect level of success on this project. All Senate 
information technology and infrastructure systems made the transition 
to Year 2000 without incident and indications are that the Senate will 
continue to operate without disruption.
    During the past two years, the Sergeant at Arms organization has 
been fully engaged in a Year 2000 compliance effort. To meet this 
challenge, we executed a disciplined and structured approach to the 
potential Y2K problem, first establishing a central Year 2000 program 
team and then identifying the Senate's core business areas and 
processes.
    We identified sixty-five information technology systems in use by 
the Senate and determined that twenty-two of these systems were 
critical to the Senate's ability to conduct its business. We developed 
a master plan and then renovated, converted or replaced, tested and 
validated each platform, application, database and utility. We also 
developed contingency plans to deal with unpredictable events.
    We are proud that we successfully met the Y2K challenge. We greatly 
appreciate the Committee's support throughout this process. We have 
spent $21,300,000 through fiscal year 1999 on this initiative.

               FISCAL YEAR 2001 BUDGET REQUEST--APPROACH

    The fiscal year 2001 budget request was constructed from the bottom 
up with every line-item examined in detail. Program managers were 
required to justify their requests at ``hearings'' held in my 
conference room. The result, we believe, is a more thoughtful and 
rational budget.
    We view the budget as an active management tool to help us achieve 
our broader financial and operating goals. To that end, we have begun 
implementation of a formal monthly Financial and Operating Report. This 
report analyzes our actual financial performance against the budget and 
monitors staffing levels, status of major projects, procurement 
contracts and operating data. This report is formally reviewed with 
directors and managers on an ongoing basis to ensure accountability and 
the efficient use of our resources.
    In order to help us understand and manage our cost structure and 
our operations, we divided the budget into four distinct types of 
costs: General Operations and Maintenance, Mandated Allowances & 
Allotments, Technology Capital Investment and Nondiscretionary Items. 
Each of these structures has a different goal. For example, the long 
term goal is to reduce General Operations and Maintenance Expenses 
because we have the most control and flexibility over that. For fiscal 
year 2001, we achieved that goal by reducing General Operations & 
Maintenance Expenses by 2.4 percent and 32 FTEs.
    Our Budget Request reflects the needs of our Senate customers. 
Members of the Senate, individually and collectively, have made it 
clear to me that they require a modern technological infrastructure to 
support the operations of their offices. They have requested additional 
network capacity in Washington, D.C. and the state offices, an improved 
messaging infrastructure, enhanced information systems and physical 
security, nationwide paging capability, integration of Internet e-mail 
with the Correspondence Management Systems, and office productivity 
tools. Our Budget Request includes funding for these and other 
initiatives to satisfy the Senate's requirements.
    Many of the same items found in our Technology Capital Investment 
request have already or are currently being implemented by the private 
sector and we are in the position of either keeping up or falling 
further behind. For example, large television stations in major markets 
have already converted to digital technology to comply with the Federal 
Communications Commission mandate. Large firms are installing advanced 
voice messaging systems that can be tied to e-mail. This allows voice 
mail to be converted to text and sent to desktop or notebook computers 
for editing, printing and archiving. Most large firms have already 
upgraded their data networks to provide a higher bandwidth capacity at 
each employee's work station. Large firms are saving significant 
amounts of money by upgrading their data centers to automate many of 
the manual operations so they may be staffed with fewer people. We must 
make these and other Technology Capital Investments now or our 
technology infrastructure will rapidly become obsolete.

                                    FISCAL YEAR 2001 BUDGET REQUEST--DETAILS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS               Variance fiscal year
                                                         ---------------------------------  2001 vs. fiscal year
                                                                                                    2000
                                                            Fiscal     Fiscal     Fiscal  ----------------------
                                                          year 1999  year 2000  year 2001               Percent
                                                            actual     budget    request     Amount      Incr/
                                                                                                         (Decr)
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance........................    $52,672    $54,655    $53,354    ($1,301)       -2.4
Mandated Allowances & Allotments........................     36,422     36,557     47,372     10,815        29.6
Technology Capital Investment...........................      8,451      6,860     31,124     24,264       353.7
Nondiscretionary Items..................................      4,678      2,983      4,719      1,736        58.2
                                                         -------------------------------------------------------
      TOTAL.............................................    102,223    101,055    136,569     35,514        35.1
                                                         =======================================================
Staffing................................................        780        787        755        (32)       -4.1
----------------------------------------------------------------------------------------------------------------

    The total budget request for fiscal year 2001 is $136,569,000, up 
$35,514,000 or 35.1 percent from fiscal year 2000, primarily due to 
increased Technology Capital Investment and required expansion of 
services in support of the Senate. General Operations and Maintenance 
for existing services will decline by $1,301,000 or 2.4 percent due to 
operational efficiencies and reduced staffing. Full-time equivalents 
(FTE's) will decrease by 32 to 755. Mandated Allowances and Allotments 
will increase by 29.6 percent and Nondiscretionary Items will increase 
by 58.2 percent.
    To better manage and focus our budget on our mission and strategic 
priorities, we present our budget in four expenditure categories: 
General Operations and Maintenance, Mandated Allowances and Allotments, 
Technology Capital Investment and Nondiscretionary Items.

                   GENERAL OPERATIONS AND MAINTENANCE

    General Operations and Maintenance will decline by $1,301,000 or 
2.4 percent to $53,354,000 primarily due to a $1,671,000 or 8.2 percent 
decline in expenses that will be partially offset by a $370,000 or 1.1 
percent increase in salaries. Expenses will decline primarily due to 
the completion of the Y2K remediation project, a reduction in radio and 
paging systems maintenance, and efforts to increase productivity 
levels. Salaries will be held to an increase of 1.1 percent due to a 
reduction of 32 FTE's via attrition offset by funding for COLA and 
administrative payroll adjustments for existing staff.

                   MANDATED ALLOWANCES AND ALLOTMENTS

    Mandated Allowances and Allotments of computers, mail systems and 
state offices will increase by $10,815,000 or 29.6 percent to 
$47,372,000 to implement a more frequent replacement cycle for PCs, 
upgrade the correspondence management systems to browser-based 
versions, and improve security in state offices. These enhancements 
must be made to meet the needs of the Senate.
    Allocations for in-office computer equipment will increase by 
$3,004,000 or 42 percent to $10,080,000 to fund a more frequent 
replacement cycle and growing requirements for additional office 
automation products. The replacement cycle will be shortened from once 
every four years (1.5 times per term) to once every three years (twice 
per term). This must be implemented to keep in step with the 
requirements of the Senate and the current life cycle of the equipment. 
As a result, the Member Computer Services Fund (CSF) allocation will 
increase by $2,200,000 or 46 percent to $7,000,000; the Committee 
allocation by $437,000 or 35 percent to $1,7000,000; the Officers 
allocation by $238,000 or 36 percent to $900,000; the Leadership 
allocation by $78,000 or 32 percent to $320,000; and other allocations 
by $51,000 to $160,000.
    Member mail systems allocations will increase to $5,620,000 to fund 
a migration from Windows-based correspondence management systems to 
more functionally advanced browser-based systems and an increase in 
maintenance costs associated with the browser-based systems. The budget 
request also reflects election year expenses required to accommodate 
newly elected Members as well as returning Members of the class of 2001 
who need to upgrade their systems to keep them modern.
    State office allocations will increase by $2,478,000 or 19 percent 
to $15,485,000 to provide for critical security enhancements in state 
offices ($1,744,000) and for increases in square footage and furniture 
allowances ($734,000). The increases in state office square footage and 
furniture allowances were authorized by Public Law 106-57 (Legislative 
Branch Appropriations Act, Fiscal Year 2000).

                     TECHNOLOGY CAPITAL INVESTMENT

    Technology Capital Investment will increase by $24,264,000 or 353.7 
percent to $31,124,000 to support strategic projects to ensure that the 
Senate has a modern computing and communications infrastructure. Each 
of these investment projects is focused on providing critical services 
and reflects the direction of the business community. A table 
summarizing these investments is presented below:

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year                   Actual Cost as
                  Technology Capital Investment                     2001 Budget     Total Cost     of 1/31/2000
----------------------------------------------------------------------------------------------------------------
Senate Recording Studio Digital Technology......................      $7,289,000     $25,248,000  ..............
Communications Infrastructure...................................       5,160,000      18,714,000      $9,265,000
Electronic Printing and Document Archiving......................       5,114,000       5,114,000  ..............
Information Security............................................       3,639,000       3,695,000           6,000
Messaging Infrastructure and Windows 2000.......................       3,256,000       7,864,000         483,000
Voice and Paging Infrastructure.................................       2,879,000       8,240,000       2,892,000
Office Productivity Tools.......................................       1,745,000       1,924,000          54,000
Enterprise Computer Operations..................................         692,000         692,000  ..............
IT Requirements.................................................         475,000       1,050,000          25,000
Internet E-mail Processing......................................         275,000       1,978,000       1,378,000
Internet Video and Audio........................................         175,000         404,000         104,000
Other Projects..................................................         425,000         425,000  ..............
                                                                 -----------------------------------------------
      Total.....................................................      31,124,000      75,348,000      14,207,000
----------------------------------------------------------------------------------------------------------------

    The Senate Recording Studio Digital Technology project, with a 
fiscal year 2001 budget of $7,289,000, is a five year project to 
migrate Senate broadcasts of floor proceedings, committee hearings and 
the recording studio from analog to digital technology. Fiscal year 
2001 is the first year of the project and the total cost over the life 
of the project is estimated to be nearly $25,248,000.
    Digital technology will allow for the delivery of higher picture 
quality and CD-quality sound that will enable the Senate floor 
proceedings to be distributed in high definition television (HDTV) with 
motion-picture clarity and resolution. It will enable the Senate to 
distribute its television signals in a digital format that broadcasters 
are migrating to as required by the Federal Communications Commission. 
A new audio/video/text Intranet browser will enable new end-to-end 
services to be provided to members and other stakeholders, including 
the ability to search, edit (or clip), disseminate, and archive videos 
in near real-time from their desktop workstations via the upgraded 
Senate data network. Digital video can be stored on local area network 
servers for search and retrieval and transmission by the Recording 
Studio to the Library of Congress and the National Archives, thus 
eliminating the purchase, storage and shipping of numerous video 
cassettes.
    The five year migration plan will start with the conversion of 
Senate Television to HDTV and full installation of the audio/video/text 
Intranet browsing system. The second year will focus on the studio and 
the first of three phases of the centralized control room facility. 
This phase will enable the studio to meet the requirements of the 
Senate for supporting committee broadcasts and multimedia. The third 
year will be to convert the radio operation to digital technology and 
complete phase two of the centralized control room facility. The fourth 
year will be for the final phase of the centralized control room 
deployment and the design and purchase of equipment for the studio 
control rooms and core facility. The fifth year will be for the 
installation of the studio control rooms and core facility.
    The Communications Infrastructure project, with a fiscal year 2001 
budget request of $5,160,000, consists of several critical multi-year 
initiatives. The initiatives will upgrade the wiring in the Dirksen 
Senate Office Building, purchase switches to replace routers, upgrade 
the bandwidth in the state offices and upgrade the Senate Fiber Network 
firewall and Internet service providers (ISPs) in Washington, D.C. We 
must make this Technology Capital Investment to enable our data network 
to process the higher expected volumes of data in the future.
    The Dirksen infrastructure renovation initiative is part of a 
larger project under the Architect of the Capitol to replace the 
mechanical system infrastructure of the Senate Office Buildings. The 
Sergeant at Arms' portion of the project is to upgrade the mission-
critical telecommunications wiring infrastructure in the buildings with 
modern category five copper and fiber optical cable to support all 
current and anticipated future communications requirements with state 
of the art infrastructure. In fiscal year 2001, $1,100,000 is requested 
to perform rewiring of the Dirksen Senate Office Building. This amount 
is consistent with the amount expended in fiscal year 1999 and fiscal 
year 2000, and is based on the Architect's current schedule. Some 
additional funding may be required in fiscal year 2002 to complete the 
Dirksen renovation. The estimated total funding for the Sergeant at 
Arms' portion of this project is $3,410,000.
    The network upgrade initiative will increase network capacity to 
the desktop in Washington, D.C. from the current shared 10 Megabits per 
second (Mbps) to a dedicated 10 Mbps or 100 Mbps, as needed. It will 
also double the bandwidth of the ``backbone'' to 1 Gigabit in fiscal 
year 2001. This will enable the network to accommodate the expected 
volume of data from the convergence of voice, data and video flowing 
through the Internet, World Wide Web (including Web-based applications) 
and e-mail. This initiative will fund the purchase of high speed 
switches to replace the current network of routers and hubs. There is 
$360,000 requested in fiscal year 2001 for the network upgrade which is 
expected to be completed in the same year.
    The wide area network for state offices initiative will increase 
the capacity of the local area network bandwidths within the 400 state 
offices to as much as 500 Kilobits per second, as needed. State offices 
currently have access to a relatively modest bandwidth of 56 Kbps that 
must be shared by all users in an office and must be expanded. The 
narrow bandwidth compounded by the multiple user architecture slows 
network performance considerably. There is $2,660,000 requested in 
fiscal year 2001 to buy and install the necessary equipment to increase 
the bandwidth by a factor of 10.
    The data network engineering initiative will install firewalls for 
the Senate Fiber Network and upgrade the reliability, transmission 
speed and capacity of the Internet service providers. The fiscal year 
2001 budget request is $1,040,000.
    The Electronic Printing and Document Archiving projects, with a 
fiscal year 2001 budget request of $5,114,000, consist of initiatives 
to create an electronic printing network that will connect Senate PCs 
to the Printing & Graphics' copy centers; replace offset presses with 
electronic digital presses; replace the obsolete binding machine; and 
enhance document archiving capability with document imaging equipment 
that could produce CD-ROMs or DVDs.
    The objective of the electronic printing network is to connect 
Senate PC's to the copiers in the various Printing and Graphics copy 
centers so that Senate staff will be able to send electronic files 
directly to the copiers much as they send documents to in-office 
printers. Currently, most copiers do not have networking capabilities 
and original hard copy documents must be physically delivered to the 
copy centers for duplication. There is limited networking capability in 
the main copy center and none in the remote centers, a condition that 
must be relieved. This project will create a modern high speed network 
between all copy centers and Senate desktop workstations by connecting 
the equipment to the Senate Data Communications Network, thus reducing 
labor requirements throughout the Senate and the Sergeant at Arms. 
Digital electronic printers will replace copiers and enable all 
``copies'' to be laser originals, eliminating the normal degradation 
associated with photocopy technology. The digital printers will have 
other advanced automated features that will improve quality and 
efficiency, and reduce turnaround time. The fiscal year 2001 budget 
request is $2,164,000 and the project would be completed in the same 
year.
    An upgrade to the graphics (chart production) computers is also 
included in the electronic printing network initiative. This will 
replace five year old equipment that does not have enough disk space or 
memory to handle the demand for charts that are being requested today. 
This equipment must be replaced immediately. The new equipment will 
speed up the chart making process and thus improve turnaround time.
    The digital printing press initiative will replace the offset web 
presses with multicolor digital presses. The digital presses will save 
labor and materials and improve turnaround time by eliminating much of 
the pre-press work, such as making and developing negatives and plates, 
and the use of chemicals. Instead, documents will be sent directly to 
the presses from a PC, similar to the way Senate employees send 
documents from their PC to their local printer. The digital presses 
will be more flexible in their use of paper and color and more reliable 
because the process will be electronic rather than mechanical. The 
fiscal year 2001 budget request for the digital presses is $500,000 and 
the project will be completed in that year.
    The binding equipment upgrade initiative will acquire a new soft-
cover book binding machine to replace nine year old equipment. This 
machine produces ``perfect binding'', i.e., flat sided spines that are 
glued to a paperback cover. The current machine cannot handle the 
volume of work required and has book thickness and other limitations 
that do not enable it to accommodate many requests. In addition, some 
parts are no longer available and the maintenance is very expensive. 
This equipment must be replaced as soon as possible. The alternative to 
perfect binding is to fold and staple (``saddle stitch'') the document, 
which is neither practical nor professional looking for large 
documents. The budget request for this initiative is $620,000 in fiscal 
year 2001 and will be completed by September 2001.
    The document imaging initiative will acquire electronic scanning 
and optical character recognition equipment to archive hard copy Senate 
documents. This technology will provide critical enhancements that 
existing microfilm technology does not offer. The new technology will 
produce searchable and editable CDs that Senate staff can use on their 
desktop PCs and eliminate the need to go to a microfilm reader away 
from their desks. Documents on microfilm must be searched sequentially, 
like an audio or video cassette, rather than by direct access that CDs 
allow. In addition, the CDs have a storage capacity that is three times 
greater than microfilm and take up one-fifth of the physical space of 
microfilm cartridges. The microfilm readers in the Senate could be 
eventually eliminated. The fiscal year 2001 budget request for this 
project is $1,800,000 and will be implemented by September 2001. 
Maintenance will be approximately $30,000 per year.
    The Information Security project, with a fiscal year 2001 budget 
request of $3,639,000, will plan, test and acquire devices to tighten 
access to Senate computer workstations and servers. Currently, the 
primary means of secure access to Senate computer systems is through 
the use of passwords and Secure ID's (for dial-up access). Two separate 
approaches are being taken: enhanced user identification and 
authentication (I&A) through the use of smartcards (such as Secure 
ID's) or biometric devices, and the establishment of a public key 
infrastructure (PKI) to enable the encryption, validation and 
verification of documents transmitted electronically. We must enhance 
our information security infrastructure to prevent break-ins and 
possible loss of or corruption of information.
    In fiscal year 2001, $75,000 is requested for test equipment and 
services to develop requirements, select a strategy, and plan the 
deployment. There is $1,200,000 for the acquisition of the I&A devices, 
and $1,800,000 for servers, workstations, and software for the PKI 
infrastructure. Examples of biometric devices include fingerprint 
readers and retina scanners. The project will take about two years to 
complete.
    In fiscal year 2001, there is $564,000 requested to develop a 
security architecture and strategy for ensuring that the Senate network 
and information systems are protected from internal or external 
intrusion. Tools will be acquired to enhance intrusion detection, 
threat emergency response, and counter measure initiatives.
    The Messaging Infrastructure and Microsoft Windows 2000 projects, 
with a fiscal year 2001 budget of $3,256,000, will upgrade our current 
electronic messaging system to Microsoft Exchange 2000. This will lay 
the foundation for an upgrade of the Senate's Microsoft Windows 98 
(workstation)/Windows NT 4.0 (server) operating system to Windows 2000. 
The projects are estimated to be finished in fiscal year 2002. It is 
worth noting that our current messaging infrastructure software is 
being phased out by the vendor and must be replaced.
    The Microsoft Exchange 2000 messaging infrastructure is a modern, 
enterprise-class system with functionality which goes well beyond 
electronic mail. This architecture supports enterprise-wide 
calendaring, scheduling, task tracking, workflow, and work 
collaboration. This is a continuation of a project started in fiscal 
year 1999.
    During fiscal year 1999, phase 1 of the Messaging Infrastructure 
project was executed. In this phase, the systems requirements were 
determined and analyzed, alternative system architectures were 
developed and assessed, and alternative products were evaluated. 
Microsoft Exchange was selected as the foundation for the Senate's new 
messaging infrastructure. During fiscal year 2000, implementation was 
begun. Funding is included in this budget to complete implementation of 
Microsoft Exchange 2000 throughout the Senate.
    The Windows 2000 operating system will offer improved security, 
reliability, stability and functionality. Servers and workstations will 
use the same software and will be better integrated, unlike Microsoft's 
current architecture of Windows 98/Windows NT. Windows 2000 will 
feature technology to allow it to be integrated with the Microsoft 
Exchange messaging system. In fiscal year 2000, test equipment hardware 
and software will be acquired to begin implementing Windows 2000. We 
expect that deployment will be completed in fiscal year 2002. Funding 
is included in fiscal year 2001 for licenses for all workstations and 
servers and for installation Senate-wide.
    The Voice and Paging Infrastructure project, with a fiscal year 
2001 budget of $2,879,000, consists of several initiatives to upgrade 
the main Senate telephone switch, the voice messaging system and paging 
system. This project also includes a pilot project for nationwide 
paging.
    The voice and RF systems initiative will upgrade the software of 
the 15 year old main telephone switch so it can accommodate new 
multimedia services. Although the switch has been incrementally 
upgraded for hardware and annually for software, it has reached its 
technological limit and must be replaced. The fiscal year 2001 budget 
request of the upgrade is $1,000,000 and will be completed in fiscal 
year 2002.
    The voice messaging system will be replaced because of age, 
additional required functionality, greater capacity and 
interoperability with other communications and information systems. The 
fiscal year 2001 budget request is $1,000,000 and the project will be 
completed in fiscal year 2001. The current mission essential system 
does not meet the Senate's requirements and must be replaced.
    The Senate's Washington, DC paging system transmitter 
infrastructure will be replaced to improve reliability and 
functionality. The new transmitter will include a microwave broadcast 
facility for simulcast capability. In fiscal year 1999, the paging 
system terminals and desktop interfaces were replaced to make them Y2K 
compliant. In fiscal year 2000, the transmitter's infrastructure is 
being upgraded to extend its life by two years and increase its 
transmitting radius from 35 to 50 miles from the Capitol. The Senate 
operates its own private paging system to ensure security, flexibility 
and reliability. There is $379,000 requested for this initiative.
    In fiscal year 2001, a nationwide paging service pilot project will 
be conducted to determine the best approach to implement this service. 
Nationwide paging cannot be provided with the current privatized system 
because of cost and licensing issues. The fiscal year 2001 budget 
request for the pilot project is $500,000. Nationwide paging is a 
critical new service required by the Senate.
    The Office Productivity Tools project, with a fiscal year 2001 
budget request of $1,745,000, consists of two initiatives to develop 
Web-based IT tools and applications to help the Senate with its 
personnel, financial, legislative, and press operations. This project 
is critical to the efficiency of the Senate.
    The electronic document management system (EDMS) will provide the 
Senate with an electronic document management system for storing, 
organizing, and retrieving electronic, hard copy, and multimedia 
documents. This capability will make information more immediately 
accessible to Senate staff; reduce labor costs of storing, organizing, 
and retrieving information; and provide a mechanism for archiving 
historical material. There is $1,620,000 requested in fiscal year 2001 
for this initiative to acquire the hardware and software for the 
Senate. Deployment will begin in fiscal year 2001 and be completed in 
fiscal year 2002.
    The electronic workflows technologies initiative will support the 
acquisition of hardware, and software to develop the requirements and 
begin implementation of the tools. There is $125,000 requested in 
fiscal year 2001 for this initiative and is ongoing.
    The Enterprise Computer Operations project, with a fiscal year 2001 
budget request of $692,000, consists of several initiatives to upgrade 
the mainframe computer and enterprise servers. The initiatives are to 
purchase new mainframe tape drives to double capacity, purchase a 
multifunctional console to monitor the mainframe and 40 servers 
simultaneously, acquire mass storage to be shared by the mainframe and 
enterprise servers, acquire equipment to automate the tape handling 
function, and develop a disaster recovery plan for the enterprise 
servers. This project is critical to the efficiency and effectiveness 
our Enterprise operations.
    The new mainframe tape drives initiative will increase the number 
of tracks from 18 to 36. The benefits include increased storage 
capacity, faster read/write of data, reduced number of tapes that must 
be mounted and dismounted, reduced tape usage and offsite storage 
expenses, and increased reliability. The fiscal year 2001 budget 
request is $120,000 and the installation will be completed then.
    The multifunctional command console initiative will allow the 
Enterprise Operations staff to centralize monitoring functions for all 
40 enterprise servers and the mainframe computer system. The new 
console monitor will support the viewing of multiple systems from one 
location, which will result in more efficient staff utilization, and an 
improved ability to manage network and systems performance. In fiscal 
year 2001, $70,000 is requested for this initiative, which will be 
completed then.
    The advanced mass storage network initiative will enable the 
sharing of mass storage between the mainframe computer and the 40 
enterprise servers. Through shared storage, data may be moved between 
systems more easily, which will reduce storage costs and simplify 
storage management activities. Currently, each enterprise server 
requires staff to configure and manage the mass storage attached to it. 
If data must be moved between servers--such as in a system backup--
staff must often perform formatting or conversion operations to 
facilitate the exchange of data. This operation can be reduced with the 
sharing of mass storage. This initiative is also necessary to 
accommodate the increased number of servers that are projected in the 
future. The fiscal year 2001 budget request for this initiative is 
$112,000 and it will be completed in fiscal year 2002.
    The auto tape library (ATL) will automate some of the tape handling 
functions by automatically mounting, loading, unloading, dismounting 
and filing tapes used by various applications and in maintenance 
procedures, such as tape backups. An automated tape library houses its 
own input and output tapes, and is designed to run unattended. The 
fiscal year 2001 budget request is $250,000 and the initiative will be 
completed in fiscal year 2002.
    The enterprise-server disaster recovery plan initiative will 
develop a plan to quickly restore the functionality of enterprise-level 
servers with mission critical applications in the event of a 
disruption. During the past two years, many of the Senate's mission-
critical applications have migrated from the mainframe computer to 
enterprise-level servers. The current disaster recovery plan and 
support contract does not encompass enterprise-level systems. The 
enterprise server plan will complement and extend the disaster recovery 
plan for the mainframe system. The fiscal year 2001 budget request is 
$140,000.
    The IT Requirements project will fund the requirements study for 
future technology initiatives. The fiscal year 2001 budget request is 
for $475,000.
    The Internet E-Mail Processing project, with a fiscal year 2001 
budget request of $275,000, consists of two initiatives to upgrade the 
Internet e-mail processing system. The initiatives will be to deploy 
the Echomail e-mail filtering system in the Senate and refine the 
acceptance/rejection criteria; and then feed the messages to the 
correspondence management systems (CMS) for long term archiving and 
integration with hard copy constituent mail. This project is critical 
to the Senate's ability to respond to constituent e-mail in a timely 
manner.
    The first initiative, Internet E-Mail Processing, began in fiscal 
year 1999 when the servers and software for the Echomail product were 
installed in the Enterprise Operations Data Center. In fiscal year 2000 
a pilot project is being conducted in member offices to assess the 
performance of the system and refine the installation procedures. In 
fiscal year 2001, this product will be deployed Senate-wide. The fiscal 
year 2001 budget request for the initiative is $125,000. The second 
initiative, Internet E-Mail CMS Integration, will ensure that Internet 
e-mail can be accepted by the CMS. The fiscal year 2001 budget request 
for this initiative is $150,000. The two initiatives will be completed 
in fiscal year 2001.
    The Internet Video and Audio project, with a fiscal year 2001 
budget request of $175,000, consists of videoconferencing and streaming 
media initiatives. Videoconferencing allows live two-way audio and 
video transmission from a desktop workstation; streaming media are pre-
recorded audio and video that are sent from desktop workstations to 
external consumers.
    The videoconferencing initiative will expand the current pilot 
project, which began in fiscal year 1999. During fiscal year 2001, 
additional desktop videoconferencing equipment will be deployed to 
selected Senate workstations. The capacity of the Meeting Point 
videoconferencing servers will also be increased. At the conclusion of 
the pilot project, a decision will be made regarding full deployment of 
videoconferencing starting in fiscal year 2002. Full deployment of 
videoconferencing will be contingent on the upgrade of the data 
communications network to a dedicated 10 Mbps at the workstation. The 
fiscal year 2001 budget request for the pilot is $100,000 and it will 
be completed by the end of fiscal year 2001.
    The streaming media infrastructure initiative will continue the 
current pilot project which began in fiscal year 1999. This service 
will enable the Senate to send video and audio from its desktop 
workstations. The existing streaming media equipment will be enhanced 
and updated. The fiscal year 2001 budget request for the pilot is 
$75,000 and will be completed by the end of fiscal year 2001.
    There are several Other Projects in the fiscal year 2001 budget. 
They are: a software upgrade to the mail sorter to process constituent 
response mail at the lowest postal rates, an upgrade of the newswire 
platform to replace a product that has been discontinued by the vendor, 
the acquisition of a Web-based budget system to replace the current 
system of spreadsheets, and the installation of video monitors in the 
Parking Office to facilitate improved parking lot management.
    The mail sorter upgrade will consist of the purchase of a software 
package called Sabre and a magnetic address reader. Sabre is a 
software-based optical character address recognition system that 
identifies an envelope's outgoing address, selects lowest available 
postage rate based on the volume being sent to the destination, and bar 
codes it. Outgoing mail is then sorted by zip code, bundled and mailed 
at a bulk rate. The software will be able to recognize a wider range of 
fonts and sort this mail for discounts. Records for the first quarter 
of fiscal year 2000 indicate that 20 percent of the constituent mail 
processed on the mail sorter was sent out at single piece rates, 33 
cents. By using the new reader, the postage could be reduced to at 
least 23.5 cents. This translates to a potential annual savings of 
$99,000. The Sabre software would also reduce the sorting time and 
labor because fewer letters will be rejected, thus avoiding resorting. 
The fiscal year 2001 budget request for the sorter upgrade is $100,000 
and it will pay for itself in cost savings in the first year. The 
initiative will be completed in fiscal year 2001.
    The newswire platform replacement initiative will replace the 
current platform, NewsEdge Insight 4.1, because it has reached the end 
of its service life and will no longer be supported by the vendor. The 
next version, Insight 5.0, will not meet the Senate's news research 
requirements and will not interoperate with other Senate systems. It 
will also require extensive customization to deploy. The fiscal year 
2001 budget request includes $100,000 to fund the initial steps in 
replacing the NewsEdge platform.
    The budget preparation system initiative will replace the existing 
network of more than 100 spreadsheets with a Web-based centralized 
database structure enabling remote access for budget preparation, 
consolidation, validation, analysis, review and electronic approval. 
The system will improve accuracy and efficiency by eliminating the 
transmission of data files via e-mail and the constant reconstruction 
of formulas and formats when users accidentally change or override the 
templates. The system will also allow for better control and validation 
of budget data, allow for better analysis, classification and reporting 
using database tools; enable comparisons with prior year actual 
results; and allow for better information security. There is $150,000 
requested in fiscal year 2001 for this initiative which will be 
completed within that fiscal year.
    The parking video monitors initiative will provide video monitors 
in the Parking Office to supplement the U.S. Capitol Police video 
surveillance system to facilitate improved parking lot management, 
security, and safety. There is $75,000 requested in fiscal year 2001 
for this initiative.

                         NONDISCRETIONARY ITEMS

    Non-discretionary items will increase by $1,736,000 or 58.2 percent 
to $4,719,000. These items consist of Senate-wide legislative, 
financial and public information initiatives that are managed by non-
Sergeant at Arms entities but funded by the SAA. The increase is due to 
follow-on projects for the Legislative Information System/Document 
Management System ($789,000), operational support for the Financial 
Management Information System ($495,000), and development of a Web 
reporting capability for the payroll system ($210,000). Also included 
is a $177,000 increase in the Capitol operators salary budget for two 
new operators and a manager. The Capitol Operator Exchange is managed 
jointly by the Senate and House.
    Mr. Chairman, that completes my formal submission to the 
Subcommittee. I appreciate the opportunity to be here and I look 
forward to working with you and other members of the Subcommittee to 
develop a budget that will best serve the needs of the Senate.
                                 ______
                                 
            Biographical Sketch of Sarah Elizabeth McAlhany

    Elizabeth McAlhany was appointed as the Sergeant at Arms' 
Administrative Assistant March 1, 2000.
    From June 1997 to March 2000, Ms. McAlhany was the Director of 
Customer Relations for the United States Senate Sergeant at Arms. The 
Customer Relations Department's mission was to ensure that all Sergeant 
at Arms services are provided to the Senate in a manner that is 
consistent with the SAA's high service standards. These services 
included researching and fulfilling the information technology needs of 
the Senate offices.
    Ms. McAlhany has also served as both an Assistant Director and the 
Acting Director of the Senate Computer Center, where she was 
responsible for the overall operational management responsibilities, 
including planning, organizing, directing and controlling of all its 
personnel, budget, and program activities. Responsibilities also 
included managing the Education and Support Services Division of the 
Computer Center which provided Senate staff with comprehensive training 
and support for all the Senate-approved computer systems.
    During the mid-1980's, Ms. McAlhany worked as the Special Assistant 
for Information Systems for Secretaries of the Senate, the Honorable 
JoAnne L. Coe and the Honorable Walter J. Stewart. In this job, Ms. 
McAlhany was responsible for coordinating all the automation activities 
for the twenty offices under the jurisdiction of the Secretary of the 
Senate.
    In January 1977, Ms. McAlhany started her Senate career as a staff 
assistant for the Honorable John C. Danforth, United States Senator 
from Missouri. She was responsible for maintaining the automated files 
for the constituent records within the office and for selected casework 
initiation and follow-up.
    Ms. McAlhany has been employed in the Senate since 1977 in various 
positions that utilized her knowledge of information technology 
systems, as well as her knowledge of the U.S. Senate. She has over 
twenty years of management experience within the Senate. Originally 
from Missouri, Ms. McAlhany is a graduate of the University of Arkansas 
with a degree in English and did graduate studies in Communications at 
the American University in Washington, D.C.

    Senator Bennett. Well, thank you very much.
    I agree absolutely that it is important that Government 
gets it and has the latest and best technology to deal with the 
rest of the world. You remind me of an old experience now, but 
it struck me at the time and it has stuck with me ever since. 
At one point in my career I was hired as a consultant to NASA. 
This was in the beginning of the Reagan Administration and I 
was very excited about going to the world's absolute number one 
top technology outfit, and was a little distressed when I found 
out they had dial telephones. They had still not gone to the 
touchtone telephone at NASA and there was a touchtone 
everyplace else in the world. But they said for budget 
considerations they still have dial telephones at NASA. It kind 
of took the sheen off of the image of that particular agency.
    Mr. Ziglar. Good first impression.
    Senator Bennett. Yes.

                             5-YEAR BUDGET

    I am delighted to see your operations and maintenance 
numbers begin to come down. As you do your 5-year budget, could 
you share with us any projections as to the return on the 
investment in technology? And is that number going to continue 
to come down because the technology gets better, or are you 
going to justify the technology investment on the statement 
that, well, gee, we got to do it, but we are not going to be 
able to get any financial implication of it later on?
    Mr. Ziglar. Well, we certainly will do that analysis. As 
you know, it is an iterative kind of thing, so you are never 
quite sure where you draw the line. But hopefully we will 
continue to do things in the personnel area that will 
incentivize our folks to do a better job and a more productive 
job. But in order for them to do that, we need the technology 
to allow them to do it.
    So we for sure will make those projections and that 
analysis, absolutely.
    Senator Bennett. You are right, you have no choice on the 
digital technology. This is not the Commerce Committee, but the 
costs you are facing are similar to the costs that every 
broadcast facility in the country is facing, and there are some 
members of the Commerce Committee who say we are giving away 
spectrum and allowing these people to move to the digital 
spectrum without paying for it and it is worth billions. They 
do not recognize it is going to cost billions to make the 
transition, and if we do not show a degree of understanding of 
that we will be in real trouble.
    So you do not have to worry about purchasing spectrum 
because you are not in the broadcast business, but some of 
those who are are facing exactly the same costs you are 
focusing on here, plus the requirement or at least request on 
the part of some Members of our body who insist, well, they 
should pay for the spectrum, too, so they are paying for the 
upgrade twice.
    Mr. Ziglar. Well, we know ultimately who pays for that.

               ELECTRONIC PRINTING AND DOCUMENT ARCHIVING

    Senator Bennett. Sure, sure. There is no free lunch.
    I appreciate your prioritizing these. The numbers below the 
line are, by comparison with those above the line, relatively 
small numbers. But you have got arguably your second largest 
number up there, or tied with, electronic printing and document 
archiving. Do you want to talk about that as to why that is 
below the line and exactly what that involves? I did not catch 
that as you went through.
    What do you mean when you say ``electronic printing and 
document archiving''? Are we trying to get away from a paper 
society as soon as possible?
    Mr. Ziglar. It is important. It also has to do with the 
ability of, for example, in your office to actually put 
together a document that you are going to mass produce, for 
example, and have it go directly to our printing and graphics 
area. It would print out on a high quality machine that gives 
you a laser-quality document as opposed to taking it, putting 
it on a Xerox machine, and running it off that way. It is a 
very efficient way of printing. It saves personnel and time, 
and obviously it is one less step in the whole process.
    Document archiving again has to do with, for example in 
your own office, where you can start keeping the documents from 
your own term as a Senator electronically and organize them and 
allow you to retrieve them in a much more efficient way. So 
those are two elements of the document printing and archiving 
project.
    It is a large project that has many facets to it, and I 
have Rick Edwards here who can talk about that if you are 
interested in more detail in terms of the elements of it. But 
by and large, it is electronic storage and being able to print 
high quality documents very efficiently.
    The other thing, by the way, let me point out, is that we 
have printing presses that we use to print these documents, and 
that will alleviate some of that capital cost going forward. 
Not that we do not need them, but we will not have as much 
need.
    Senator Bennett. Well, is there any duplication between the 
equipment you supervise and that at the GPO?
    Mr. Ziglar. No, sir.
    Senator Bennett. None at all?
    Mr. Ziglar. Duplication in the sense of we could be using 
their equipment?
    Senator Bennett. Yes.
    Mr. Ziglar. I do not believe so. The GPO does do some 
printing for the Senate, as you know, but it is more of the 
high volume, heavy duty stuff.
    Senator Bennett. Okay. Well, I have--well, the standard 
question now. You cannot come before this committee without 
being asked this question: When will the Senate phone books be 
available?
    Mr. Ziglar. Shoot, I thought you were asking me about the 
barber shop.
    Senator Bennett. I understand the barber shop is under 
control.
    Mr. Ziglar. It is doing better. I do have a report for you 
on the barber shop, though.
    When will the telephone directory be done?
    Mr. Winn. We expect to send it to GPO either late this week 
or early next week, and it should be available to Senate 
offices the first week in April. We are delayed because we have 
had twice as many changes to the phone book this year as we 
have ever had before.
    Senator Bennett. I cannot resist telling you a story 
because you remind me of it. I have forgotten which Senator is 
responsible for this, but this is a standard story around here. 
He said: Government is like the shoe repair. You are going 
through your old clothes getting ready to decide what you are 
going to throw out and what you are going to give to Goodwill 
Industries and so on, and you come up with a claim check for a 
pair of shoes that you had completely forgotten about. It is 
2\1/2\ years old.
    So you go down to the shoe repair shop with the claim check 
to see if anything has happened and you hand it to them and 
they look at it and said: They will be ready next Tuesday.
    I wonder if we had asked this question on the 7th of March 
if we would be told that the phone books would be ready next 
week. I am sorry, that is unfair.
    That is unfair, but it is a great story. We will look 
forward to the phone books. Thank you very much for your 
efforts on that.

                     COMMERCIAL INFORMATION SYSTEM

    Now, last year Senator Craig raised some concerns about the 
commercial information system and I understand your office has 
done a remarkable job of expanding that program to cover more 
Senate employees with no additional cost. I think for the 
record a few sentences about your success and performance there 
would probably be a good way to conclude the hearing.
    Mr. Ziglar. Mr. Chairman, I am glad you asked me that 
question.
    Senator Bennett. I thought I would give you one softball 
across the middle of the plate.
    Mr. Ziglar. Because that really is one of the real success 
stories from this year. We have without any additional cost to 
Senate offices, been able to take what was a situation where 
you had to choose from a short menu of options of information 
services that you could use and get them in only one place in 
your office, to a huge menu of information services and you 
have access to all of them. And not only that, but you now have 
access to them on each desk in your office.
    This was done without any additional cost to the Senate. In 
addition, we are now supplying this service to committees at no 
cost. So it has been expansion of information sources, and in 
effect a reduction in cost to the Senate to provide them. The 
folks over at Postal Square that worked on this project did a 
great job. I would not mind having those folks work for me in 
the private sector negotiating deals with vendors, because they 
squeezed blood out of a turnip. They did a great job and I am 
real proud of them.
    I might add that Senator Craig has been very pleased with 
the result. I got a very nice letter from him, and we worked 
with his staff to make sure that his concerns were addressed. 
So I appreciate your asking the question and we are real proud 
of that.
    Senator Bennett. Very good. Thank you. We are delighted 
that the Senate directory is coming out as early as it is.
    Mr. Ziglar. Mr. Chairman, I have to make----
    Senator Bennett. We would not want anybody to misinterpret 
my comment.
    Mr. Ziglar (continuing). One final comment. Last year you 
asked me why it was that the Majority Leader paid the same 
thing for a haircut that you did, and I have been looking into 
that this year and I want you to know that, as much as we would 
like to, we cannot cut you a deal. You are going to have to cut 
the deal with your individual barber.
    Senator Bennett. I have long since given up trying to 
understand that, but the Majority Leader is sufficiently 
blessed with follicle adornment and I am not and I will just 
have to pay tribute to him for his wisdom in choosing the genes 
that he did that got him to that situation.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Ziglar. And we appreciate the extra money in effect 
that you pay in order to support the barber shop.
    Senator Bennett. On a per hair basis----
    Mr. Ziglar. That is right.
    Senator Bennett (continuing). I guess I am subsidizing him.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

    Question. The Technical Capital Investment category has increased 
dramatically (353.7 percent). This appears to be quite a big jump--a 
significant increase in spending over last year. Your table on page 333 
of your testimony shows a total request of $31,124,000 for fiscal year 
2001, but the total cost for those technology capital investments you 
want is $75,348,000. The Recording Studio upgrade is a five-year 
project, and some of the other items in that list might be upgraded on 
shorter or longer cycles.
    Can you break this down for us into a more digestible form?
    Answer. Presented below is a table outlining expenditures for 
Technology Capital Investments through fiscal year 2005.

                    FINANCIAL PLAN FOR FISCAL YEARS 2001-2005--TECHNOLOGY CAPITAL INVESTMENT
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal year--
                                                    Prior  ---------------------------------------------
                   Description                      Year      2001     2002     2003     2004     2005    Total
                                                  Expenses   Budget   Budget   Budget   Budget   Budget
----------------------------------------------------------------------------------------------------------------
Operations Division:
    Senate Recording Studio Digital Technology..  ........    7,289    4,454    4,800    4,906    3,799   25,248
    Communications Infrastructure...............    12,388    5,160    1,166  .......  .......  .......   18,714
    Electronic Printing and Document Archiving..  ........    5,114  .......  .......  .......  .......    5,114
    Information Security........................         6    3,639       50  .......  .......  .......    3,695
    Messaging Infrastructure and Windows 2000...     4,308    3,256      300  .......  .......  .......    7,864
    Voice and Paging Network Infrastructure.....     2,923    2,879    2,438  .......  .......  .......    8,240
    Office Productivity Tools...................        54    1,745      125  .......  .......  .......    1,924
    Enterprise Computer Operations..............  ........      692  .......  .......  .......  .......      692
    Internet E-mail Processing..................     1,578      275      125  .......  .......  .......    1,978
    IT Requirements.............................       100      475      475  .......  .......  .......    1,050
    Internet Video and Audio....................       104      175      125  .......  .......  .......      404
    Other Projects..............................  ........      425  .......  .......  .......  .......      425
                                                 ---------------------------------------------------------------
      Total Operations Division.................    21,461   31,124    9,258    4,800    4,906    3,799   75,348
----------------------------------------------------------------------------------------------------------------

    Question. Can you give us some overall idea about how much we might 
be spending in technology upgrades in the next three to five years?
    Answer. At this time we are not able to provide this kind of 
information. However, in my testimony, I did address the need for this 
information. We plan to initiate a five-year ``evergreen'' budget plan 
which we will provide to the Committee upon its completion. We expect 
to have the plan completed by the fall of 2000.
    This five year plan will enable us to manage our technology assets 
more effectively and schedule asset upgrades and replacements in a more 
predictable manner. It will also enable better long range planning for 
the appropriation cycles that the Committee must manage.

                         CONCLUSION OF HEARINGS

    Senator Bennett. Thank you very much. The hearing is 
recessed.
    [Whereupon, at 11:10 a.m., Tuesday, March 21, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Abrecht, Gary L., Chief, U.S. Capitol Police, U.S. Capitol Police 
  Board..........................................................    25
    Prepared statement...........................................    33
Anderson, Barry, Deputy Director, Congressional Budget Office....     9

Becker, Herbert S., Director, Information Technology Services, 
  Library of Congress............................................    51
Bennett, Hon. Robert, U.S. Senator from Utah:
    Opening statements..................................1, 25, 167, 255
    Questions submitted by.......................44, 121, 219, 240, 317
Billington, James H., Ph.D., Librarian of Congress, Library of 
  Congress.......................................................    51
    Prepared statement...........................................    53
Brown, Richard, Controller, General Accounting Office............   225
Buckley, Francis J., Jr., Superintendent of Documents, Government 
  Printing Office................................................   153

Campbell, Laura, Director, National Digital Library, Library of 
  Congress.......................................................    51
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  statement of...................................................    27
Cook, Charles, Congressional Printing Management Officer, 
  Government Printing Office.....................................   153
Crippen, Dan L., Director, Congressional Budget Office...........     9
    Prepared statement...........................................    12
Cylke, Frank Kurt, Director, National Library Service for the 
  Blind and Physically Handicapped, Library of Congress..........    51

DiMario, Michael, the Public Printer, Government Printing Office.   153
    Prepared statement...........................................   153
Dodaro, Gene, Chief Operating Officer, General Accounting Office.   225
Feinstein, Hon. Dianne, U.S. Senator from California:
    Prepared statements.................................4, 26, 167, 256
    Questions submitted by.............45, 125, 164, 220, 240, 252, 342

Green, Gary, General Counsel, Office of Compliance...............   243
Guy, William M., Budget Officer, Government Printing Office......   153

Hantman, Alan M., AIA:
    Architect of the Capitol.....................................   167
        Prepared statement.......................................   171
    Capitol Police Board.........................................    25
Harper, Sallyanne, Chief Mission Support Officer, General 
  Accounting Of- 
  fice...........................................................   225
Hughes-Brown, Beth, Administrative Officer, Office of Compliance.   243

Jenkins, Jo Ann C., Chief of Staff, Office of the Librarian, 
  Library of Congress............................................    51
Lieberman, Steven M., Congressional Budget Office, biographical 
  sketch.........................................................     9
Livingood, Hon. Wilson, Sergeant at Arms, U.S. House of 
  Representatives, Chairman, Capitol Police Board................    25
    Prepared statement...........................................    30
Lopez, Kenneth E., Director of Security, Library of Congress.....    51

McAlhany, Sarah Elizabeth, Sergeant at Arms and Doorkeeper, 
  Office of the Sergeant at Arms and Doorkeeper, U.S. Senate, 
  biographical sketch............................................   338
Medina, Rubens, Law Librarian, Library of Congress...............    51
Mikulski, Hon. Barbara A., U.S. Senator from Maryland:
    Prepared statement...........................................   208
    Statement of.................................................   208
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................    51
    Prepared statement...........................................    66

Paull, Lindy L., Chief of Staff, Joint Committee on Taxation.....   133
Peters, Marybeth, Register of Copyrights, Library of Congress....    51
    Prepared statement...........................................    62

Roth, Hon. William V., Jr., Chairman, Joint Committee on Taxation   133
    Prepared statement...........................................   134

Saxton, Jim, Vice Chairman, Joint Economic Committee.............     1
    Letter from..................................................     6
    Prepared statement...........................................     3
Scott, Donald L., Deputy Librarian of Congress, Library of 
  Congress.......................................................    51
Silberman, Ricky, Executive Director, Office of Compliance.......   243
    Prepared statement...........................................   245
Sisco, Hon. Gary, Secretary of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate...........................   255
    Prepared statement...........................................   261
    Statement of.................................................   256
Smith, Teresa, Director, Human Resources Services, Library of 
  Congress.......................................................    51
Stephens, James, Deputy Executive Director for the House, Office 
  of Compliance..................................................   243
Symms, Loretta, Deputy Sergeant at Arms, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................   323

Tabb, Winston, Associate Librarian for Library Services, Library 
  of Con- 
  gress..........................................................    51
Talkin, Pamela, Deputy Executive Director for the Senate, Office 
  of Compliance..................................................   243

Walker, David, Comptroller General, General Accounting Office....   225
    Prepared statement...........................................   228
Washington, Linda, Director, Integrated Support Services, Library 
  of Congress....................................................    51
Webster, John D., Director, Financial Services, Library of 
  Congress.......................................................    51
Williams, Kathy A., Budget Officer, Library of Congress..........    51
Wineman, Timothy S., Financial Clerk of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate...........................   255
    Prepared statement...........................................   315

Zagorin, Janet S., Chair, Standing Committee on the Law Library 
  of Congress, American Bar Association, prepared statement......   129
Zelaska, Sharon, Assistant Secretary of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate...........................   255
Ziglar, Hon. Jim:
    Sergeant at Arms and Doorkeeper, Office of the Sergeant at 
      Arms and Doorkeeper, U.S. Senate...........................   323
        Prepared statement.......................................   331
    Capitol Police Board.........................................    25


                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page
Additional committee questions...................................   219
AOC responsibilities.............................................   169
Budget summary...................................................   172
Budget request, fiscal year 2001.................................   169
Capitol complex:
    Fire safety..................................................   216
    Stature of the...............................................   219
Customer services................................................   172
Dirksen Building remodeling......................................   207
Dome restoration project.........................................   170
Employee:
    Concerns.....................................................   210
    Safety.......................................................   215
Financial management system......................................   214
Fire safety, current systems.....................................   218
Human resources..................................................   209
Industrial psychologist..........................................   212
Landmark buildings...............................................   217
Life safety......................................................   172
Personal oversight...............................................   211
Problem resolution...............................................   213
Security.........................................................   209
Senate restaurants supervision...................................   211
Y2K..............................................................   169

                      CONGRESSIONAL BUDGET OFFICE

Fiscal year:
    2000 funding shortfall.......................................    11
    2001 increase................................................    12
House computer, using the........................................    23
Income:
    Disparate growth in..........................................    19
    Share of total in lowest group...............................    21
Productivity:
    Growth in the economy........................................    18
    Uncertainty and the surplus..................................    18
Salary compression, relief for...................................    11
Staffing level, improved.........................................    11
Workforce:
    Constraints on the economy...................................    21
    Mobility of..................................................    22
Y2K:
    A positive outcome for the scare.............................    17
    Success......................................................    10

                       GENERAL ACCOUNTING OFFICE

Additional committee questions...................................   240
Capitol visitors center..........................................   238
Challenges facing GAO............................................   231
Committee staff, recognition of..................................   238
Early-out authority, request for.................................   239
Fiscal year 1999 accomplishments.................................   228
Fiscal year 2001 budget request..................................   237
GAO:
    Accomplishments in fiscal year 1999..........................   226
    Accountability report........................................   227
    Strategic plan...............................................   226
    Work on planned center.......................................   238
Human capital request, highlights of.............................   227
Information technology request...................................   227
Initiatives underway to strengthen GAO...........................   234
Legislation needed to help increase GAO's efficiency and 
  effectiveness..................................................   236
Y2K work:
    Praise for...................................................   225
    Summary of GAO...............................................   226

                       GOVERNMENT PRINTING OFFICE

Additional committee questions...................................   163
Additional issues................................................   156
Appropriations request, fiscal year 2001.........................   154
Budget increase..................................................   159
Congressional printing and binding appropriation.................   154
Digitizing of GPO................................................   158
Facility consolidation...........................................   162
Government Printing Office: Still better than ever...............   158
Police...........................................................   161
Public Printer's statement.......................................   153
Revolving fund...................................................   155
    Losses.......................................................   162
Salaries and expenses appropriation..............................   155
Y2K preparedness.................................................   159

                      JOINT COMMITTEE ON TAXATION

Appropriation request:
    Details of fiscal year 2001..................................   135
    Summary of fiscal year 2001..................................   135
Budget request...................................................   133
Federal tax system report........................................   150
Joint Committee on Taxation:
    Anticipated workload of the for calendar year 2000...........   139
    Review of operations during calendar year 1999...............   137
Workload.........................................................   133

                        JOINT ECONOMIC COMMITTEE

Budget request and committee research, fiscal year 2001..........     2
Selected JEC publications on the IMF and monetary policy.........     7

                          LIBRARY OF CONGRESS

Additional committee questions...................................   120
Adoption: Characteristics of Women Interested in Adopting a 
  Child--August 5, 1998..........................................    75
Budget request...................................................    51
    Digital futures..............................................    52
Collections, preservation and storage of the.....................    58
Computer security................................................    56
Congressional:
    Environment, changes in the..................................    68
    Judicial limitations on power................................    68
    Tenure.......................................................    69
Congressional Research Service...................................   115
    Budget request...............................................    66
    Change and continuity........................................    66
    Publication of products......................................    72
Copyright Office.................................................    59
Digital futures initiative (National On-Line Library)............    55
Information technology...........................................    69
Integrated library system........................................   111
    Bill arrearages..............................................   114
James Madison Building workstation modernization project.........    60
Law Library......................................................    58
Legislation, proposed............................................    60
Library of Congress:
    Bicentennial.................................................    61
    Buildings and grounds........................................    60
    Security of staff, collections and facilities................    57
    Today........................................................    55
National Digital Library.........................................    52
National Library Service for the Blind and Physically Handicapped    59
Profiles of recent staff hired under the CRS succession plan.....    74
Russian Leadership Program.......................................   111
Sex Discrimination and the United States Supreme Court: Recent 
  Developments in the Law--June 29, 1999.........................    92
Succession:
    Planning....................................................73, 120
    Program......................................................    56
The Department of Energy's Spallation Neutron Source Project: 
  Description and Issues--December 10, 1999......................   102
Thomas homepage defacement.......................................   119

                          OFFICE OF COMPLIANCE

Additional committee questions...................................   252
Budget request...................................................   243
OSHA detailee....................................................   245
Safety and the historic Capitol..................................   251

                       U.S. CAPITOL POLICE BOARD

Additional committee questions...................................    44
Administrative:
    Personnel....................................................    46
    Support......................................................    46
American-made motorcycles........................................    35
    Purchase of..................................................    44
Annual budget....................................................    29
Assistant Chief of Police position...............................    46
Biohazard training...............................................    47
Budget request...................................................    27
Capitol Police review of selected administrative procedures......    45
Equipment, lack of...............................................    48
Facilities master plan...........................................    30
Financial management.............................................    46
Fleet expansion..................................................    38
Jurisdiction, area of............................................    36
Library of Congress security and maintenance.....................    45
Manpower.........................................................    42
Motorcycles......................................................    38
New hires........................................................    48
New police personnel.............................................    47
Perimeter security improvements..................................    44
Physical security improvements...................................    41
Police, additional personnel.....................................    48
Safety upgrades..................................................    39
Staffing at building entrances...................................    48
Training:
    Facility.....................................................    45
    Program......................................................    47

                              U.S. SENATE

                 Office of the Secretary of the Senate

Accounting Department............................................   293
Accounts Payable Audit Section...................................   293
Additional committee questions...................................   317
Administrative Offices...........................................   283
Bill Clerk.......................................................   270
Budget Department................................................   294
Budget request:
    Fiscal year 2001.............................................   257
        Presenting the...........................................   261
Capitol visitor center.........................................260, 315
    Realizing the vision for the.................................   264
Daily Digest.....................................................   271
Disbursing Office................................................   283
    Financial Management.........................................   285
    Systems Administration.......................................   294
Employee Benefits Section........................................   284
Enrolling Clerk..................................................   272
Executive Clerk..................................................   272
Financial management information system..........................   257
Financial Systems Department.....................................   294
Front Counter--Administrative and Financial Services.............   283
Historical Office................................................   303
Implementing mandated systems....................................   262
Information Systems..............................................   309
Interparliamentary Services......................................   301
    Trips 1999...................................................   314
Joint Office of Education and Training...........................   282
Journal Clerk....................................................   273
Legislative Clerk................................................   273
Legislative departments..........................................   270
Legislative information system...................................   259
Maintaining and improving current and historic legislative, 
  financial, and administrative services.........................   265
Meeting personnel challenges for the future......................   263
Office of:
    Captioning Services..........................................   279
    Conservation and Preservation................................   298
    Human Resources..............................................   295
    Printing and Document Services...............................   275
    Public Records...............................................   302
    Senate Security..............................................   299
    Secretary of the Senate fiscal year 2001 budget summary, 
      apportionment schedule, and departmental annual reports....   270
    Senate Chief Counsel for Employment..........................   296
    Senate Curator...............................................   304
Official Reporters of Debates....................................   274
Parliamentarian..................................................   275
Payroll Section..................................................   283
Policy and Control Department....................................   294
Senate:
    Gift Shop....................................................   302
    Library......................................................   295
    Page School..................................................   308
    Stationery Room..............................................   300
Special Projects--LIS............................................   279
Succession planning..............................................   316
Webmaster Internet Services......................................   313

             Office of the Sergeant at Arms and Doorkeeper

Additional committee questions...................................   342
Budget:
    Process......................................................   324
    Request......................................................   327
Commercial information system....................................   341
Electronic printing and document archiving.......................   340
Fiscal year 2001 budget request--approach........................   331
5-year budget....................................................   339
General operations and maintenance...............................   332
Mandated allowances and allotments...............................   332
Nondiscretionary items...........................................   338
Operations and maintenance.......................................   325
Report on year 2000 compliance effort............................   331
Technology capital investment....................................   333


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
